<html>
<title> - IMPLEMENTATION OF ENVIRONMENTAL TREATIES</title>
<body><pre>[Senate Hearing 107-807]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-807
 
                IMPLEMENTATION OF ENVIRONMENTAL TREATIES
=======================================================================

                             JOINT HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                                  AND

                              COMMITTEE ON
                           FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON



                               __________

                             JULY 24, 2002

                               __________


 Printed for the use of the Committee on Environment and Public Works 
                 and the Committee on Foreign Relations







                       U. S. GOVERNMENT PRINTING OFFICE
83-718                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED SEVENTH CONGRESS
                             second session

                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           PETE V. DOMENICI, New Mexico
                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director
                                 ------                                

                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia                           
                                       
                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 24, 2002
                           OPENING STATEMENTS

Chafee, Hon. Lincoln, U.S. Senator from the State of Rhode Island    71
Feingold, Hon. Russell D., U.S. Senator from the State of 
  Wisconsin......................................................    93
Hagel, Hon. Chuck, U.S. Senator from the State of Nebraska.......    78
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..1, 100
    Reports:
        American Way to the Kyoto Protocol....................... 24-68
        Clean Energy: Jobs for America's Future..................  3-24
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................   102
Sarbanes, Hon. Paul S., U.S. Senator from the State of Maryland..    69

                               WITNESSES

Connaughton, James, Chairman, White House Council on 
  Environmental Quality, Washington, DC..........................    74
    Prepared statement..........................................209-288
    Responses to additional questions from Senator Jeffords......   288
Dernbach, John C., Professor, Widener University Law School......    89
    Article, Synthesis...........................................   335
    Prepared statement...........................................   300
Horner, Christopher C., Senior Fellow, Competitive Enterprise 
  Institute......................................................    91
    Prepared statement...........................................   304
Strong, Hon. Maurice, Chairman, Earth Council Institute Canada, 
  Toronto, Ontario, Canada.......................................    87
    Prepared statement...........................................   292
    Supplemental testimony.......................................   298
Turner, Hon. John F., Assistant Secretary for the Bureau of 
  Oceans and International Environmental and Scientific Affairs, 
  U.S. Department of State, Washington, DC.......................    71
    Prepared statement...........................................   103
    Responses to additional questions from Senator Jeffords.....108-209

                          ADDITIONAL MATERIAL

Articles:
    Investing in Health: Fighting Infectious Disease for 
      Sustainable Development....................................   205
    Modern Developments in the Treaty Process....................   307
    Synthesis, John Dernbach.....................................   335
Lists, Attendees to world environmental summits................109, 119
Policy Books, Global Climate Change...........215-246, 250-266, 266-288
Report, Working for a Sustainable World.........................125-201
Statements:
    Global Climate Change, President George W. Bush............211, 246
    Reisman, Jon.................................................   333

                                 (iii)

  


                IMPLEMENTATION OF ENVIRONMENTAL TREATIES

                              ----------                              


                        WEDNESDAY, JULY 24, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committees met, pursuant to notice, at 10:35 a.m. in 
room 406, Senate Dirksen Building, Hon. James M. Jeffords 
[chairman of the Committee on Environment and Public Works], 
presiding.
    Present from the Committee on Environment and Public 
Works:: Senators Jeffords, Chafee, and Corzine.
    Present from the Committee on Foreign Relations: Senators 
Sarbanes and Feingold.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. This hearing will come to order.
    I am glad to be here with my distinguished co-chair from 
the Foreign Relations Committee, Senator Sarbanes, for this 
joint hearing. I appreciate his willingness to explore today's 
topic and the fact that he has joined me as a cosponsor of S. 
556, the Clean Power Act. I would also like to applaud him for 
his work to bring some truth and sanity to America's accounting 
nightmare. Good luck.
    The United States is an economic and military superpower, 
perhaps the lone superpower. But as the old adage goes, with 
great power comes great responsibility. We are able to project 
great might far beyond our borders. We are also capable of 
contributing to environmental and natural resource damage far 
beyond our borders and far in excess of other countries.
    The question is, are we acting responsibly to curb negative 
impacts abroad and at home?
    Are we being good global neighbors and, at a minimum, 
keeping our word?
    It seems that we may be keeping our literal word, given the 
very broad language in many of the agreements, but, in 
practical terms, it seems that we are not trying very hard to 
keep up with the spirit of some of our commitments.
    The time is ripe for Congress to review how the 
Administration is implementing our environmental agreements and 
commitments. Leaders of many countries will be meeting in 
Johannesburg, South Africa, in late August at the World Summit 
on Sustainable Development. The occasion is the tenth 
anniversary of the United Nations Conference on Environmental 
Development held in Rio. I am pleased to note that the 
Secretary General of that conference, Mr. Maurice Strong, is 
here today to give us an historical perspective on the event 
and its lasting effect.
    The conferees will be met by a very different U.S. 
delegation in South Africa. The previous Bush Administration 
provided extensive support to the Rio Earth Summit and brought 
many new initiatives to the negotiating table. But this 
Administration is likely to send a smaller and lower level 
delegation and has sought to narrow the scope of its 
discussions. This has apparently included an effort to keep the 
global climate change off the agenda.
    I am troubled by the Administration's approach to global 
warming, especially in light of the Sense of Congress approved 
by the Foreign Relations Committee and made part of the Senate-
approved Energy Bill in April. That resolution says the United 
States should take responsible action to ensure significant and 
meaningful reductions in emissions of greenhouse gases from all 
sectors. But it does not appear that responsible action is 
taking place and emissions continue to grow.
    As my friend Senator Chafee pointed out during our 
committee's markup on the Clean Power Act, the Administration's 
Climate Action Report says, ``A few ecosystems such as alpine 
meadows in the Rocky Mountains and some Barrier Islands are 
likely to disappear entirely in some areas. Other ecosystems 
are likely to experience major species shifts.''
    Our treaty commitment says, ``The ultimate objective of the 
Framework Convention on Climate Change is to stabilize 
greenhouse gas concentrations in the atmosphere at the level 
that will prevent dangerous anthropogenic interference with the 
climate system. Such a level should be achieved within a 
timeframe sufficient to allow ecosystems to adapt naturally to 
climate change.'' Since these ecosystems are likely to 
disappear entirely because of the man-made global warming and 
will not able to adapt naturally, it appears that we have 
entered into a zone of ``dangerous interference.''
    Since these are real threats of serious or irreversible 
damage, the lack of full scientific certainty about cause and 
effect should not be used as an excuse for not reducing 
emissions now. That is our commitment. Instead of acting to 
reduce emissions, the Administration's approach guarantees that 
greenhouse gas emissions will rise. According to Mr. 
Connaughton's recent testimony, there is no question about 
that.
    This kind of inaction does not compact with our commitments 
under the Framework Convention and the Sense of Congress, 
common sense, or the National Environmental Policy Act, NEPA. 
In 1969, NEPA became law. It was probably the first adoption of 
a sustainable development philosophy by a government in the 
world. To paraphrase it, it says, ``It is the continuing policy 
of the Federal Government to use all practicable means and 
measures to create and maintain conditions under which man and 
nature can exist in productive harmony and fulfill the social, 
economic, and other requirements of present and future 
generations of Americans.''
    Unfortunately, the Administration seems to have lost sight 
of these future generations of Americans. Economic development 
that does not factor in the environment of quality of life of 
those future generations is not sustainable. The Administration 
and other opponents of the Kyoto Protocol claim that the 
actions that significantly reduce greenhouse gas emissions cost 
too much now. They need to look at the long term. They also 
need to look at the many studies that have been done that show 
a net positive impact of reducing emissions.
    I ask unanimous consent that the two studies by Tellus 
Institute and a list of other studies be placed in the record.
    [The referenced documents follow:]
                  [World Wildlife Fund, October 2001]
                Clean Energy: Jobs For America's Future
                    a study for world wildlife fund
(By Alison Bailie, Stephen Bernow, William Dougherty, Michael Lazarus, 
Sivan Kartha, Tellus Institute and Marshall Goldberg, MRG & Associates)
Acknowledgments
    We wish to thank Katherine Silverthorne, Kathleen Sullivan, Brooks 
Yeager and Freda Colbert of WWF for their assistance on this report. We 
thank Hal Harvey, Marcus Schneider and Eric Heitz of Energy Foundation 
for their help in supporting our modeling capabilities. The energy 
efficiency analyses and inputs to our modeling effort for buildings, 
industry and light duty vehicles were provided by ACEEE (Steve Nadel, 
Howard Geller, Neal Elliott and Therese Langer) and John DeDicco of 
Environmental Defense. Modifications to the NEMS model, particularly as 
related to renewables in the electricity sector, were made at Tellus 
with important input from Alan Nogee, Deborah Donovan and Steve Clemmer 
of Union of Concerned Scientists; Laura Martin, Tom Petersik, Alan 
Beamon, Zia Haq, and Jeff Jones of EIA; and other experts including 
Walter Short of NREL, Jack Cadogan of ORNL, Dan Entingh of Princeton 
Economic Research, Inc., Etan Gummerman, Lawrence Berkeley Labs, 
Francis Wood of OnLocation, Inc., and Michael Brower. We also wish to 
thank Francisco de la Chesnaye and Reid Harvey of USEPA, who provided 
important data on non-CO<INF>2</INF> gases, and Kevin Gurney, who 
provided useful insights on land-based carbon. We also thank Skip 
Laitner for his ongoing input and insight.
About the Tellus Institute
    Founded in 1976 as a nonprofit research and policy organization, 
Tellus addresses a broad range of environment and resource issues. The 
Institute's staff of 50 scientists and policy analysts is active 
throughout North America and the world. Internationally, Tellus works 
closely with the Stockholm Environment Institute, hosting SEI's Boston 
Center since 1989. The transition to a sustainable world must occur at 
many levels. Tellus contributes to this goal through its work on global 
scenarios, regional and national strategies, community sustainability 
and industrial ecology. Projects focus on such areas as energy, water, 
waste, transportation, and integrated sustainability planning. This 
institutes diverse sponsors--foundations, governments, multilateral 
organizations, nongovernmental organizations and business--reflect this 
varied program.
                           executive summary
    Over the past three decades national energy policy has been the 
subject of intense debate and policy innovation. Americans were 
buffeted by oil embargoes and price increases in the 1970's, enjoyed 
low energy prices in the 1980's, and today face the consequences of 
electricity deregulation, energy supplier market power and regional 
price spikes. To meet these challenges the public and policymakers have 
called for the expansion of policies to ensure that energy services 
remain readily available and affordable, while protecting public health 
and the environment. These policies, which helped to produce the low 
energy prices of the 1990's, include appliance efficiency standards, 
energy-saving building codes, vehicle fuel efficiency and tailpipe 
emissions standards, clean air legislation, and caps on pollution from 
power plants. Over the 30-year period during which these policies have 
been in effect, the United States has reduced its energy per unit Gross 
Domestic Product by about one-third, even though the economy grew by 
160 percent.
    In order to create a responsible, forward-looking energy policy, 
the United States will need to examine a number of important issues. 
Will the policy help meet America's energy needs? Will it enhance 
national security? Will it contribute to a strong economy? Will it help 
meet America's needs for a safe and healthy environment? In order to 
begin to answer these questions, World Wildlife Fund commissioned the 
Tellus Institute to consider the potential impacts of implementing a 
broad suite of clean energy policies over the next 20 years.
    Our national choices regarding the production and use of energy 
have serious implications for our environment. At every step of the 
process, from extraction, to refining, to transport and combustion, 
fossil fuels have negative impacts on land and water-based ecosystems. 
In addition to these well-known effects, it is now clear that 
overreliance on fossil fuels is a major cause of climate change. 
Because we consider climate change one of the greatest global threats 
to biodiversity, we chose to consider a suite of policies that would 
address our energy needs while reducing our dependence on fossil fuels 
and decreasing emissions of greenhouse gases. We call this suite of 
policies the Climate Protection Scenario.
    This study analyzes the employment, macroeconomic, energy and 
environmental impacts of implementing the Climate Protection Scenario. 
These policies were compared with a base case based on Energy 
Information Administration's Annual Energy Outlook (EIA, 2001).
Climate Protection Scenario
    Buildings and Industry Sector
      <bullet>  Building Codes
      <bullet>  Appliance and Equipment Standards
      <bullet>  Tax Credits
      <bullet>  Public Benefits Fund
      <bullet>  Research and Development
      <bullet>  Voluntary Measures
      <bullet>  Cogeneration for Industrial and District Energy
    Electric Sector
      <bullet>  Renewable Portfolio Standard
      <bullet>  NOx/SO<INF>2</INF> Cap and Trade
      <bullet>  Carbon Cap and Trade
    Transport Sector
      <bullet>  Automobile Efficiency Standard Improvements
      <bullet>  Promotion of Efficiency Improvements in Freight Trucks
      <bullet>  Aircraft Efficiency Improvements
      <bullet>  Greenhouse Gas Standards for Motor Fuels
      <bullet>  Travel Demand Reductions and High Speed Rail

    Implementing these policies would help address many of our most 
pressing concerns about energy supply, the economy, employment, energy 
security, and the environment. We found that they would lead to net 
increases in employment over the next 20 years. They would reduce our 
dependence on oil and other fossil fuels, thereby greatly increasing 
our energy security. Household energy bills would decrease despite a 
small increase in the price of electricity. And, we could mitigate 
climate change and other air pollution problems. A more detailed 
description of the benefits can be found in the findings section below.
    The benefits of implementing the Climate Protection Scenario would 
be spread widely across all States and all sectors of the economy--
including construction, transportation, motor vehicles, manufacturing, 
services, retail trade and agriculture. However, some industries within 
the energy sector would not share in the economic benefits from this 
transition, as the economy's reliance on carbon-intensive fossil fuels 
would decline. This suggests that while there would be widespread gains 
to workers throughout the economy, it would be necessary to provide 
assistance and support in order to ensure a just transition for workers 
who would otherwise be displaced during the beginning of this 
transition.
                                findings
    If Congress were to implement the policies outlined in WWF's 
Climate Protection Scenario, the United States could reap the following 
benefits:
    <bullet>  A net annual employment increase of over 700,000 jobs in 
2010, rising to approximately 1.3 million by 2020;
    <bullet>  An 8.5 percent decline in carbon emissions between 2000 
and 2010, as opposed to the approximately 20 percent increase projected 
in the base case, and a 28 percent decline between 2000 and 2020 rather 
than a 36 percent increase;
    <bullet>  Twenty percent of the electricity generation needed in 
2020 would come from wind, solar, biomass and geothermal energy;
    <bullet>  Oil consumption would decline by approximately 8 percent 
between 2000 and 2020, rather than increase by about 31 percent, 
thereby saving money and reducing the vulnerability of citizens and our 
economy to oil price shocks;
    <bullet>  Overall dependence on the consumption of fossil fuels 
would decline more than 15 percent between 2000 and 2020, rather than 
increasing by 40 percent as in the base case;
    <bullet>  Households and businesses would accumulate savings of 
over $600 billion by 2020;
    <bullet>  GDP would be about $43.9 billion above the base case in 
2020;
    <bullet>  Energy-related emissions of air pollution would be 
dramatically reduced--by 2020, emissions of sulfur dioxide would be 
virtually eliminated, while nitrogen oxide emissions would be almost 
halved, and emissions of fine particulates, carbon monoxide, volatile 
organic compounds and mercury would be substantially reduced;
    <bullet>  An additional $51.4 billion in wage and salary 
compensation by 2020 relative to the base case;
    <bullet>  Each State would experience a positive net job impact, 
rising to about 140,000 in California by 2020; and
    <bullet>  Electricity sales from central station power stations 
would be about half of projections for 2020, owing to the policy of 
promotion of more efficient equipment in homes and offices and the use 
of waste heat in combined heat and power plants in buildings and 
factories.
                              introduction
    Over the past three decades national energy policy has been the 
subject of intense debate and policy innovation. Americans were 
buffeted by oil embargoes and price increases in the 1970's, enjoyed 
low energy prices in the 1980's, and today face the consequences of 
electricity deregulation, energy supplier market power and regional 
price spikes. To meet these challenges the public and policymakers have 
called for the expansion of policies to ensure that energy services 
remain readily available and affordable, while protecting public health 
and the environment. These policies, which helped to produce the low 
energy prices of the 1990's, include appliance efficiency standards, 
energy-saving building codes, vehicle fuel efficiency and tailpipe 
emissions standards, clean air legislation and caps on pollution from 
power plants. Over the 30-year period during which these policies have 
been in effect, the United States has reduced its energy per unit Gross 
Domestic Product by about one-third, even though the economy grew by 
160 percent.
    In order to create a responsible, forward-looking energy policy the 
United States will need to examine a number of important issues. Will 
the policy help meet America's energy needs? Will it enhance national 
security? Will it contribute to a strong economy? Will it help meet 
America's needs for a safe and healthy environment? In order to begin 
to answer these questions, World Wildlife Fund commissioned the Tellus 
Institute to consider the potential impacts of implementing a broad 
suite of clean energy policies over the next 20 years.
    Our national choices regarding the production and use of energy 
have serious implications for our environment. At every step of the 
process, from extraction, to refining, to transport and combustion, 
fossil fuels have negative impacts on land and water-based ecosystems. 
In addition to these well-known effects, it is now clear that 
overreliance on fossil fuels is a major cause of climate change. 
Because we consider climate change one of the greatest global threats 
to biodiversity, we chose to consider a suite of policies that would 
address our energy needs while reducing our dependence on fossil fuels 
and decreasing emissions of greenhouse gases. We call this suite of 
policies the Climate Protection Scenario.
    This study analyzes the employment, macroeconomic, energy and 
environmental impacts of implementing the Climate Protection Scenario. 
These policies were compared with a base case based on Energy 
Information Administration's Annual Energy Outlook (EIA, 2001).
Climate Protection Scenario
    Buildings and Industry Sector
      <bullet>  Building Codes
      <bullet>  Appliance and Equipment Standards
      <bullet>  Tax Credits
      <bullet>  Public Benefits Fund
      <bullet>  Research and Development
      <bullet>  Voluntary Measures
      <bullet>  Cogeneration for Industrial and District Energy
      Electric Sector
      <bullet>  Renewable Portfolio Standard
      <bullet>  NOx/SO<INF>2</INF> Cap and Trade
      <bullet>  Carbon Cap and Trade
    Transport Sector
      <bullet>  Automobile Efficiency Standard Improvements
      <bullet>  Promotion of Efficiency Improvements in Freight Trucks
      <bullet>  Aircraft Efficiency Improvements
      <bullet>  Greenhouse Gas Standards for Motor Fuels
      <bullet>  Travel Demand Reductions and High Speed Rail
    A detailed description of the policies can be found in Annex A.
    By implementing this suite of policies we can bring together the 
various strands connecting our energy, environment, climate, and 
economic policies into a coherent and harmonious strategy. The expected 
employment, energy and economic, and environmental impacts are 
discussed in separate sections below. A detailed description of the 
methodologies applied can be found in Annex B.
                i. employment and macroeconomic impacts
    The study finds that implementation of the Climate Protection 
Scenario could lead to a net annual employment increase of over 700,000 
jobs by 2010, increasing to about 1.3 million by 2020, while increasing 
overall national GDP and incomes. These benefits are spread widely 
across all sectors of the economy--including construction, 
transportation, motor vehicles, manufacturing, services, retail trade 
and agriculture. The benefits derive from using our energy resources 
more efficiently and cost-effectively, commercializing cleaner 
technologies, and recycling the revenues of an electric sector carbon 
cap and permit trade system to households and businesses. Each State 
would enjoy net increases in employment; incomes and economic output as 
benefits are likely to be spread widely across the country.
    As the economy's reliance on carbon-intensive fossil fuels 
declines, some industries within the energy sector would not share in 
the economic benefits from this transition. This suggests that while 
there would be widespread gains to workers throughout the economy, it 
would be necessary to provide assistance and support that ensured a 
just transition for workers who would otherwise be displaced during the 
beginning of this transition. One source of financial resources for 
this assistance could be a portion of the revenues derived from the 
government auction of carbon permits. At the same time, energy 
suppliers could offset some potential employment losses by moving 
aggressively into the energy efficiency and renewable energy businesses 
and assisting their work forces in transitioning to these new fields. 
For example, with electric sector restructuring, some existing 
utilities and suppliers could shift toward providing energy-efficiency 
services and alternative energy. Similarly, natural gas and oil 
suppliers could shift toward providing alternative fuels such as those 
derived from biomass, wind, and solar resources.
National Impacts
    Estimation of the macroeconomic impacts of the climate protection 
policies was based on the incremental investments and savings required 
to implement the policies found in the July 2001 study. The analysis 
tracks expenditures on more efficient lighting, high efficiency motors, 
more efficient automobiles and many other energy-using technologies 
that reduce consumption of high carbon fuels. These expenditures create 
incomes and jobs for the manufacturers and workers who produce the 
equipment and for the industries and workers who supply and service 
those producers. They also reduce the energy bills of offices, firms 
and households who utilize the more efficient technologies. The savings 
on energy bills will create additional income and jobs in the 
industries and services in which these new savings are spent.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The set of policies analyzed here gives rise to large energy 
savings, positive job impacts and new opportunities that far exceed the 
losses that would occur in the traditional energy supply sectors. The 
analyses also take account of recycling back to households and business 
the revenues derived from government auction of carbon permits to 
electricity suppliers.
    Figures 1a, 1b and 1c show the positive macroeconomic impacts of 
the Climate Protection Scenario--overall increases above base case in 
jobs, in incomes per household (a benefit in addition to household 
energy bill savings) and in GDP. By the year 2020, there would be an 
additional $400 per household increase in annual wage and salary 
earnings ($51.4 billion total), while about 1.3 million net new jobs 
would be created, relative to the base case. At the same time, GDP is 
projected to be about $43.9 billion above the base case in 2020. Major 
contributions to increases in annual wage and salary earnings arise 
from purchases of energy efficient equipment and the spending of net 
energy bill savings by businesses and households. While these increases 
are significant, the impacts are relatively small in comparison to 
overall economic activity. For instance, increasing the nation's GDP by 
$43.9 billion in 2020 represents only 0.4 percent of the $11.8 trillion 
(1998$) projected GDP for that year.
    Table 1a shows that by 2010 there could be a net job increase of 
almost 750,000 jobs, with a net increase in annual wage and salary 
compensation of about $220 per household ($26 billion total) and a $23 
billion net increase in GDP. Table 1b reveals that by 2020 these 
figures could grow to a net job increase of slightly more than 1.3 
million jobs, a net increase in annual wage and salary compensation of 
about $400 per household ($51 billion total) and a net increase in GDP 
of $44 billion.

   Table 1a: Macroeconomic Impacts of Policy Scenario by Sector, 2010
------------------------------------------------------------------------
                                            Net Change in Wage
                                 ---------------------------------------
                                    Net Change and Salary
                                 ---------------------------  Net Change
                                               Compensation     in GDP
                                    In Jobs      (Million      (Million
                                                  1998$)        1998$)
------------------------------------------------------------------------
Agriculture.....................       18,600          $160         $530
Other Mining....................        6,900          $420         $880
Coal Mining.....................     (10,100)        ($990)     ($2,090)
Oil/Gas Mining..................     (26,900)      ($2,280)     ($9,040)
Construction....................      353,200       $10,440      $14,990
Food Processing.................        2,700          $110         $210
Other Manufacturing.............       52,500        $3,980       $6,020
Pulp and Paper Mills............        2,800          $240         $390
Oil Refining....................      (2,600)        ($260)       ($780)
Stone, Glass, and Clay..........       14,100          $750       $1,260
Primary Metals..................       11,800          $940       $1,360
Metal Durables..................       30,400        $2,140       $3,520
Motor Vehicles..................       36,500        $2,810       $4,610
Transportation, Communication,         21,500        $1,100       $2,240
 and Utilities..................
Electric Utilities..............     (18,400)      ($1,900)    ($10,070)
Natural Gas Utilities...........     (16,700)      ($1,520)     ($5,510)
Wholesale Trade.................        5,600          $350         $640
Retail Trade....................       14,400          $290         $510
Finance.........................       31,600        $2,380       $4,890
Insurance/Real Estate...........      (5,900)        ($160)     ($1,110)
Services........................      191,900        $5,730       $8,080
Education.......................        3,800          $140         $140
Government......................       27,200        $1,180       $1,550
    Total.......................      744,900       $26,050      $23,220
------------------------------------------------------------------------


   Table 1b: Macroeconomic Impacts of Policy Scenario by Sector, 2020
------------------------------------------------------------------------
                                            Net Change in Wage
                                 ---------------------------------------
                                    Net Change and Salary
                                 ---------------------------  Net Change
                                               Compensation     in GDP
                                    In Jobs      (Million      (Million
                                                  1998$)        1998$)
------------------------------------------------------------------------
Agriculture.....................       63,100          $620       $2,120
Other Mining....................       11,200          $870       $1,830
Coal Mining.....................     (23,900)      ($2,340)     ($4,940)
Oil/Gas Mining..................     (61,400)      ($5,210)    ($20,600)
Construction....................      340,300       $10,460      $15,030
Food Processing.................       16,100          $750       $1,380
Other Manufacturing.............       77,900        $9,360      $14,160
Pulp and Paper Mills............        5,000          $570         $950
Oil Refining....................      (6,300)        ($650)     ($1,910)
Stone, Glass, and Clay..........       24,800        $1,630       $2,750
Primary Metals..................       18,600        $2,190       $3,180
Metal Durables..................       42,000        $4,670       $7,670
Motor Vehicles..................       54,300        $5,090       $8,350
Transportation, Communication,         50,500        $3,320       $6,750
 and Utilities..................
Electric Utilities..............     (35,100)      ($5,180)    ($27,540)
Natural Gas Utilities...........     (26,200)      ($3,080)    ($11,180)
Wholesale Trade.................       12,400        $1,030       $1,890
Retail Trade....................      190,300        $4,410       $7,680
Finance.........................       42,100        $4,570       $9,410
Insurance/Real Estate...........       11,900          $350       $2,420
Services........................      394,600       $13,080      $18,460
Education.......................       33,200        $1,330       $1,340
Government......................       78,900        $3,550       $4,660
    Total.......................    1,314,300       $51,390      $43,860
------------------------------------------------------------------------

State-By-State Employment Impacts
    The preceding analysis suggests that implementing the Climate 
Protection Scenario policies would result in substantial net employment 
gains at the national level. Yet, estimates of State-level impacts 
provide important additional insight into the benefits of such a policy 
initiative.
    The detailed distribution of the national employment impacts across 
the States is difficult to predict. However, it is likely that the 
large net benefits found in tables 1a and 1b will be rather widely and 
evenly distributed across the States, largely owing to the widespread 
effects of respending the energy savings. The results of our indicative 
analysis of the State-level employment are given in table 2.

                                          Table 2: Job Impacts by State
----------------------------------------------------------------------------------------------------------------
                                                        State               Net Job Gain 2010  Net Job Gain 2020
----------------------------------------------------------------------------------------------------------------
01......................................  Alabama.........................             13,100             22,600
02......................................  Alaska..........................              2,800              5,000
04......................................  Arizona.........................             11,200             19,900
05......................................  Arkansas........................              7,500             13,200
06......................................  California......................             77,400            141,400
08......................................  Colorado........................             10,000             17,700
09......................................  Connecticut.....................              7,800             14,100
10......................................  Delaware........................              2,200              3,800
11......................................  District of Columbia............              1,600              3,500
12......................................  Florida.........................             37,000             66,800
13......................................  Georgia.........................             21,300             38,300
15......................................  Hawaii..........................              2,700              5,000
16......................................  Idaho...........................              3,500              6,200
17......................................  Illinois........................             31,900             56,400
18......................................  Indiana.........................             20,900             36,000
19......................................  Iowa............................              8,300             14,700
20......................................  Kansas..........................              7,100             12,500
21......................................  Kentucky........................             11,500             19,300
22......................................  Louisiana.......................             19,200             32,900
23......................................  Maine...........................              3,700              6,600
24......................................  Maryland........................             12,500             22,000
25......................................  Massachusetts...................             14,500             26,700
26......................................  Michigan........................             29,800             51,000
27......................................  Minnesota.......................             13,400             24,000
28......................................  Mississippi.....................              7,200             12,600
29......................................  Missouri........................             15,100             26,600
30......................................  Montana.........................              2,300              4,000
31......................................  Nebraska........................              4,700              8,500
32......................................  Nevada..........................              5,300              9,100
33......................................  New Hampshire...................              2,800              5,000
34......................................  New Jersey......................             20,200             36,200
35......................................  New Mexico......................              4,200              7,100
36......................................  New York........................             38,000             68,200
37......................................  North Carolina..................             22,400             38,900
38......................................  North Dakota....................              1,900              3,300
39......................................  Ohio............................             34,600             59,900
40......................................  Oklahoma........................              8,200             13,700
41......................................  Oregon..........................              8,600             15,600
42......................................  Pennsylvania....................             31,600             55,500
44......................................  Rhode Island....................              2,100              3,900
45......................................  South Carolina..................             11,500             20,000
46......................................  South Dakota....................              2,000              3,500
47......................................  Tennessee.......................             17,100             29,800
48......................................  Texas...........................             71,500            123,400
49......................................  Utah............................              5,700             10,300
50......................................  Vermont.........................              1,600              2,800
51......................................  Virginia........................             18,500             32,100
53......................................  Washington......................             16,600             29,700
54......................................  West Virginia...................              3,800              6,000
55......................................  Wisconsin.......................             14,900             26,300
56......................................  Wyoming.........................              1,700              2,600
                                          Total...........................            744,900          1,314,300
----------------------------------------------------------------------------------------------------------------

    Some of these State-level employment impacts are associated with 
the direct expenditures made for more efficient equipment and renewable 
technologies and fuels. Although manufacturers and venders of relevant 
products and services may not be uniformly spread across the States, 
they are rather widely dispersed. For example, manufacturers of 
advanced power plants, including gas turbines, natural gas combined 
cycle systems, combined heat and power units and fuel cells are located 
in many regions of the country. Manufacture of more efficient and 
alternative-fuel automobiles is likely to continue to be located 
largely with current manufacturers. Petroleum companies with experience 
in industrial chemistry can play a role in providing cellulosic ethanol 
or other synthetic fuels. Biomass fuels for transport and power 
generation will come from States that could provide biomass feedstock. 
In some States, farms could become sites for wind electric generators 
and derive income from these facilities.
    While these energy-related purchases can stimulate local economic 
activity and jobs, the major drivers of the overall national employment 
increases are the net energy-bill savings to households and businesses, 
which tend to be spent on myriad other purchases across the economy. 
This spending occurs broadly across all sectors, with much of it local. 
In those States that supply fossil fuels, losses to these industries 
and related businesses would be more than offset by gains in other 
sectors of those State's economies, owing to the expenditures on more 
efficient equipment and cleaner energy resources and re-spending of 
energy bill savings. Thus, the national job increases--in construction, 
services, education, finance, government, miscellaneous manufacturing, 
agriculture and other sectors--would likely be widespread throughout 
the country.
    While this analysis indicates that there would be overall 
employment benefits at the State as well as the national level, some 
industries could face near-term losses before they could adapt to new 
energy markets or before the benefits of the energy efficiency measures 
were fully realized. Some of the savings realized from implementing the 
policies could be used for assistance in a just transition for affected 
workers and communities.
    States such as Texas, which are large energy producers and have 
relatively low energy prices compared with the national average, still 
enjoy large benefits. As table 2 indicates, the State of Texas, which 
currently leads the Nation in total energy consumed and is second only 
to California in total energy expenditures, could expect to have a net 
gain of about 120,000 jobs in 2020 if these national energy policies 
were adopted.
                           ii. energy impacts
    In this section we analyze expected impacts of the Climate 
Protection Scenario policy package on energy consumption, energy 
prices, and household and business energy budgets.
    Figure 2a shows how the Climate Protection Scenario policies affect 
our dependence on the consumption of fossil fuels, which declines by 
more than 15 percent between 2000 and 2020, rather than increasing by 
40 percent as in the base case. Oil consumption itself declines by 
about 8 percent between 2000 and 2020 instead of increasing by 32 
percent, largely from improved efficiency in vehicles and other 
transportation modes, thereby saving money and reducing vulnerability 
of citizens and our economy to oil price shocks. While most of this 
reduced fossil fuel dependence results from policies that induce energy 
efficiency, figure 2a also shows that the policy case increases the use 
of renewable energy, which roughly doubles from current levels instead 
of remaining essentially constant.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2b shows how electricity sales from central station power 
stations would be less than half of projections for 2020, owing to the 
policy of promoting more efficient equipment in homes and offices and 
using waste heat in combined heat and power plants in buildings and 
factories. Electricity sales would decline by 33 percent from 2000 to 
2020 rather than increase by 45 percent. By 2020, electricity purchases 
by residential, commercial and industrial consumers would be 55 percent 
below business as usual and 20 percent of the remaining generation 
would come from wind, solar, biomass and geothermal energy.
    Figures 3a and 3b show how the policies affect natural gas prices 
and the costs to households for electricity. Natural gas prices would 
decline to about 25 percent lower than the base case by 2020. All 
sectors would enjoy declines in their electricity bills, owing to 
greater efficiency, even though prices per unit of power would increase 
in moving to cleaner generation. By 2020 residential consumers would 
pay about $24 less per month.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figures 4a and 4b show that net savings to households and business 
would be substantial, reaching more than $600 billion combined by 2020.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       iii. environmental impacts
    Virtually every step in the process of supplying energy from fossil 
fuels damages the environment. Drilling, mining and pipeline 
installation can disrupt whole ecosystems. Transportation of fossil 
fuels results in spills, threatening wildlife and human communities 
that depend on the natural environment. Fossil fuel combustion emits 
pollutants that cause global warming, acid rain and smog. Smog and 
other air pollutants can exacerbate lung disease and cause crop, forest 
and property damage. Acid rain acidifies the soil and water, killing 
plants, fish and animals that depend on them. The impacts of global 
warming pose the greatest global threat to biodiversity.
    These environmental threats could be mitigated by a proactive 
effort to direct our energy supply system away from its current 
dependence on fossil fuels and toward increased energy efficiency and 
renewable energy technologies. However, current U.S. policies point in 
the opposite direction. The fossil fuel and nuclear industries continue 
to benefit from both direct and indirect subsidies from taxpayers, 
citizens and the environment, while cleaner energy resources and more 
efficient technologies are required to prove themselves in a not truly 
competitive marketplace. Despite the proven economic and environmental 
track record of energy efficiency, renewables, and pollution 
limitations, the administration's energy plan and the House of 
Representative's energy legislation continue to promote fossil fuels at 
the expense of the environment and the economy.
    The policies in the Climate Protection Scenario begin to reduce our 
dependence on fossil fuels and would thereby dramatically change the 
trajectory of U.S. carbon emissions from their current rapidly rising 
path to a downward trajectory needed for long-term climate 
stabilization. Figure 5 shows that between 2000 and 2010, carbon 
emissions would decline by 8.5 percent rather than increase by the 20 
percent projected in the base case. The July 2001 study shows that the 
Kyoto Protocol target could be met by implementing these cost-effective 
policies, reducing non-energy related greenhouse gases and utilizing 
international trading mechanisms. Under the Climate Protection 
Scenario, by 2020 carbon emissions would be 47 percent below business 
as usual and 19 percent below 1990 levels.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    At the same time, the proposed policies would virtually eliminate 
emissions of SO<INF>2</INF> and reduce NOx emissions by almost 30 
percent, as shown in figures 6a and 6b below. In addition, the proposed 
policies would substantially reduce emissions of fine particulates, 
carbon monoxide, volatile organic compounds and mercury.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ANNEX A
                                policies
    This study examines a broad set of national policies that would 
increase energy efficiency, accelerate the adoption of renewable energy 
technologies, and shift to less use of carbon-intensive fossil fuels. 
The policies address major areas of energy use in the buildings, 
industrial, transport, and electrical sectors. Analyses of the 
investment costs and energy savings of policies to promote energy 
efficiency and cogeneration in the residential, commercial, and 
industrial sectors were taken primarily from the American Council for 
an Energy Efficient Economy (1999; 2001).
    Below we group these policies into the particular sector where they 
take effect, and describe the key assumptions made concerning the 
technological impacts of the individual policies. Unless otherwise 
indicated, each of the policies is assumed to start in 2003.
    As explained further in the methodology discussion in the next 
section, we adapted the Energy Information Administration's 2001 
Reference Case Forecast (EIA 2001) to create a slightly revised ``base 
case.'' Our policies and assumptions build on those included in this 
base case forecast (i.e., we avoid taking credit for emissions 
reductions, costs, or savings already included in the EIA 2001 
Reference Case). When taken together, the policies described in this 
section represent a Climate Protection Scenario that the United States 
could pursue to achieve significant carbon reductions.
Policies in the Buildings and Industrial Sectors
    Carbon emissions from fuel combustion in the buildings (including 
both residential and commercial) sector account for about 10 percent of 
U.S. greenhouse gas emissions, while emissions from the industrial 
sector account for another 20 percent. When emissions associated with 
the electricity consumed are counted, these levels reach over 35 
percent for buildings and 30 percent for industry. We analyzed a set of 
policies that include new building codes, new appliance standards, tax 
incentives for the purchase of high efficiency products, a national 
public benefits fund, expanded research and development, voluntary 
agreements, and support for combined heat and power.
Building Codes
    For this policy, we assume that DOE enforces the commercial 
building code requirement in the Energy Policy Act of 1992 (EPAct) and 
that States comply. We also assume that relevant States upgrade their 
residential energy code to either the 1995 or 1998 Model Energy Code, 
voluntarily or following adoption of a new Federal requirement. 
Furthermore, we assume that the model energy codes are significantly 
improved during the next decade, and that all States adopt mandatory 
codes that go beyond current ``good practice'' by 2010. To quantify the 
impact of these changes, we assume a 20 percent energy savings in 
heating and cooling in buildings in half of new homes and commercial 
buildings.
New Appliance and Equipment Efficiency Standards
    For this policy, we assume that the government upgrades existing 
standards or introduces new standards for key appliances and equipment 
types: distribution transformers, commercial air conditioning systems, 
residential heating systems, commercial refrigerators, exit signs, 
traffic lights, torchiere lighting fixtures, ice makers, and standby 
power consumption for consumer electronics. We also assume higher 
energy efficiency standards for residential central air conditioning 
and heat pumps than was recently allowed by the Bush Administration. 
These are measures that can be taken in the near term, based on cost-
effective available technologies.
Tax Incentives
    This policy provides initial tax incentives for a number of 
products. For consumer appliances, we assumed a tax incentive of $50 to 
$100 per unit. For new homes that are at least 30 percent more 
efficient than the Model Energy Code, we assumed an incentive of up to 
$2,000 per home; for commercial buildings with at least 50 percent 
reduction in heating and cooling costs relative to applicable building 
codes, we applied an incentive of $2.25 per square foot. For building 
equipment such as efficient furnaces, fuel cell power systems, gas-
fired heat pumps, and electric heat pump water heaters, we assumed a 20 
percent investment tax credit. Each of these incentives would be 
introduced with a sunset clause, terminating them or phasing them out 
in approximately 5 years, to avoid their becoming permanent subsidies.
National Public Benefits Fund
    Electric utilities have historically funded programs to encourage 
more efficient energy-using equipment, assist low-income families with 
home weatherization, commercialize renewables, and undertake research 
and development (R&D). Such programs have typically achieved 
electricity bill savings for households and businesses that are roughly 
twice the program costs (Nadel and Kushler, 2000). Despite these 
successes, electric industry restructuring, deregulation, and 
increasing price competition have caused utilities to reduce these 
``public benefit'' expenditures over the past several years. In order 
to preserve such programs, 15 States have instituted public benefits 
funds that are financed by a small surcharge on all power delivered to 
consumers.
    This study's policy package includes a national-level public 
benefits fund (PBF) fashioned after the proposal introduced by Sen. 
Jeffords (S. 1333). The PBF would levy a surcharge of 0.2 cents per 
kilowatt-hour on all electricity sold, costing the typical residential 
consumer about $1 per month. This Federal fund would provide matching 
funds for States for approved public benefits expenditures. In this 
study, the PBF is allocated to several different programs directed at 
improvements in lighting, air conditioning, motors, and other cost-
effective energy efficiency improvements in electricity-using 
equipment.
Expand Federal Funding for Research and Development in Energy Efficient 
        Technologies
    Federal R&D funding for energy efficiency has been a spectacularly 
cost-effective investment. The DOE has estimated that the energy 
savings from 20 of its energy efficiency R&D programs has been roughly 
$30 billion so far--more than three times the Federal appropriation for 
the entire energy efficiency and renewables R&D budget throughout the 
1990's (EERE, 2000).
    Tremendous opportunities exist for further progress in material-
processing technologies, manufacturing processing, electric motors, 
windows, building shells, lighting, heating/cooling systems, and super-
insulation, for example. EPA's Energy Star programs have complemented 
and amplified the impact of Federal R&D, by labeling and certifying to 
increase consumer awareness of energy efficiency opportunities. R&D 
efforts should be increased and EPA should be allocated the funds to 
broaden the scope of its Energy Star program, expanding to other 
products (refrigerators, motors) and building sectors (hotels, 
retailers), and the vast market of existing buildings that could be 
retrofitted. In this study, we assume that increased funding to expand 
research and development efforts in industry (e.g., motors), buildings 
(e.g., advanced heating/cooling), and transport (e.g., more fuel-
efficient cars and trucks) will lead to more energy-savings products 
becoming commercially available.
Industrial Energy Efficiency through Intensity Targets
    There is great potential for cost-effective efficiency improvements 
in both energy-intensive and non-energy intensive industries (Elliott 
1994). For example, an in-depth analysis of 49 specific energy-
efficient technologies for the iron and steel industry found a total 
cost-effective energy savings potential of 18 percent (Worrell, Martin, 
and Price 1999). In this study, we assume Federal initiatives to 
motivate and assist industry to identify and exploit energy efficiency 
opportunities. Government agencies would provide technical and 
financial assistance, and expand R&D and demonstration programs. In 
addition to these carrots, government may need to brandish a stick in 
order to induce a large fraction of industries to make serious energy 
efficiency commitments. If industry does not respond to the Federal 
initiatives at a level sufficient to meet progressive energy efficiency 
targets, a mandatory, binding energy intensity standard should be 
triggered to ensure the targets are attained.
Support for Co-generation
    Cogeneration (or, combined heat and power--CHP) is a super-
efficient means of coproducing two energy-intensive products that are 
usually produced separately--heat and electricity. The thermal energy 
produced in cogeneration also can be used for (building and process) 
cooling or to provide mechanical power. While CHP already provides 
about 9 percent of all electricity in the United States, there are 
considerable barriers to its wider cost-effective implementation 
(Elliott and Spurr, 1999). In this study, we assume the adoption of 
policies to establish a standard permitting process, uniform tax 
treatment, accurate environmental standards, and fair access to the 
grid to sell or purchase electricity. Such measures would help to 
unleash a significant portion of the enormous potential for CHP. In 
this study, we assumed 50 GW of new CHP capacity by 2010, and an 
additional 95 GW between 2011 and 2020. With electricity demand reduced 
by the various energy efficiency policies adopted in this study, 
cogenerated electricity reaches 8 percent of total remaining 
electricity requirements in 2010 and 36 percent in 2020.
Policies in the Electric Sector
    A major goal of U.S. energy and climate policy will be to 
dramatically reduce carbon and other pollutant emissions from the 
electric sector, which is responsible for more than one-third of all 
U.S. greenhouse gas emissions. We analyzed a set of policies in the 
electric sector that include standards and mechanisms to help overcome 
existing market barriers to investments in technologies that can reduce 
emissions. Three major policies--a renewable portfolio standard, a cap 
on pollutant emissions, and a carbon cap and trade system--were 
analyzed as described below.
Renewable Portfolio Standard
    A Renewable Portfolio Standard (RPS) is a flexible, market-oriented 
policy for progressively increasing the use of renewable energy 
resources and technologies for electricity production. An RPS sets a 
minimum requirement for the fraction of total electricity generation to 
be met by renewable electricity in each year, and requires each 
supplier of electricity to meet the minimum either by producing that 
fraction in its mix or by acquiring credits from suppliers that exceed 
the minimum. The market determines the portfolio of technologies and 
geographic distribution of facilities that meet the national target at 
least cost. This is achieved by a trading system that awards credits to 
generators for producing renewable electricity and allows them to sell 
or purchase these credits. Thirteen States--Arizona, Connecticut, 
Hawaii, Iowa, Maine, Massachusetts, Minnesota, Nevada, New Jersey, New 
Mexico, Pennsylvania, Texas, and Wisconsin--already have Renewable 
Portfolio Standards. Senator Jeffords has introduced a bill (S. 1333) 
that would establish a national RPS.
    The RPS provides strong incentives for suppliers to design and site 
the lowest cost, highest value and most reliable renewable electricity 
projects. It also provides assurance and stability to renewable 
technology vendors, by guaranteeing markets for renewable power and 
allowing them to capture the financial and administrative advantages 
that come with planning in a more stable market environment. Yet it 
still maintains a competitive environment that encourages developers to 
innovate. Finally, by accelerating the deployment of renewable 
technologies and resources, the RPS also accelerates the learning and 
economies of scale that will allow renewable resources and technologies 
to become increasingly competitive with conventional technologies. This 
is particularly important, as the demands of climate stabilization in 
coming decades will require more renewable energy than we can deploy in 
the next two decades.
    In this study, we have applied an RPS that starts at a 2 percent 
requirement in 2002, grows to 10 percent in 2010, and to 20 percent in 
2020, after all efficiency policies are included. Wind, solar, 
geothermal, biomass, and landfill gas are eligible renewable sources of 
electricity, but environmental concerns exclude municipal solid waste 
(owing to concerns about toxic emissions from waste-burning plants) and 
large-scale hydro (which raises environmental concerns and need not be 
treated as an emerging renewable resource as it already supplies nearly 
10 percent of the nation's electricity supply). We also assume a 
subsidy to grid-connected solar photovoltaic electricity generation, in 
order to introduce a small amount of this technology into the 
generation mix. The purpose of this is to induce technology learning, 
performance improvement and scale economies to help achieve increased 
technology diversity and another zero emissions option for the longer 
term. The level is kept small so that cost and price impacts are 
minimal.
Tightening of SO<INF>2</INF> and NOx Emission Regulations
    The Clean Air Act Amendments currently require minimal to modest 
emissions reductions through 2010 and no reductions after that. Yet, 
despite the improvements brought about by the Clean Air Act and its 
amendments, recent studies have confirmed that SO<INF>2</INF> and NOx 
continue to damage lake and forest ecosystems, decrease agricultural 
productivity and harm public health through its impact on urban air 
quality (Clean Air Task Force, 2000.)
    In this study, we assume a tightened SO<INF>2</INF> cap-and-trade 
system that reduces sulfur dioxide emissions to roughly 40 percent of 
current levels by 2010 and to one-third of current levels by 2020. We 
also impose a cap-and-trade system on NOx emissions in the summertime, 
when NOx contributes more severely to photochemical smog. This system 
expands the current cap-and-trade program, which calls on 19 States to 
meet a target in 2003 that then remains constant and includes all 
States with a cap that is set first in 2003 but decreases in 2010, 
relative to 1999 levels. The cap results in a 45 percent reduction from 
current annual electric sector NOx emissions by 2010 and 83 percent by 
2020.
Carbon Cap-And-Trade Permit System
    This study assumes that a cap-and-trade system for carbon dioxide 
emissions is introduced in the electric sector. The cap is set to 
achieve progressively more stringent targets over time, starting in 
2003 at 2 percent below current levels, increasing to 12 percent below 
current levels by 2010 and 30 percent below by 2020. A progressively 
more stringent target reduces demand for coal, and hence both 
combustion-related air pollution and mining-related pollution of 
streams and degradation of landscapes and terrestrial habitats.
    In the SO<INF>2</INF>, NOx, and CO<INF>2</INF> trading systems, 
permits are distributed through an open auction, and the resulting 
revenues can be returned to households (e.g., through a tax reduction 
or as a rebate back to households). Recent analyses suggest that an 
auction is the most economically efficient way to distribute permits, 
as it would meet emissions caps at lower cost than allocations based on 
issuing grandfathered allowances or equal per kWh allowances (Burtraw, 
et al. 2001). Implementing such auctions for the electric sector also 
could set the stage for an economy-wide approach to carbon reduction in 
future years based on auctioning. In this study, the price of auctioned 
carbon permits reaches $100 per metric ton carbon.
    With a cap-and-trade system in place for CO<INF>2</INF>, SOx and 
NOx, this scenario reduces multiple emissions from power plants in a 
manner similar to proposals currently under consideration in Congress. 
The reductions in these three pollutants are as deep as those imposed 
in four pollutant bills, and are achieved within a comparable 
timeframe. (The Department of Energy's NEMS model unfortunately does 
not explicitly track mercury, making it impossible to compare the 
results of this study to the mercury requirement in S. 556 and H.R. 
1256.)
Policies in the Transport Sector
    Another goal of U.S. energy and climate policy will be to reduce 
oil use, carbon emissions and pollution from the transport sector, 
which is responsible for about one-third of all U.S. greenhouse gas 
emissions. We analyzed a set of policies in the transportation sector 
that include improved efficiency (light duty vehicles, heavy duty 
trucks and aircraft), a full fuel-cycle GHG standard for motor fuels, 
measures to reduce road travel, and high speed rail.
Strengthened Fuel Economy Standards
    Today's cars are governed by fuel economy standards that were set 
in the mid-1970's. The efficiency gains made in meeting those standards 
have been entirely overwhelmed by increases in population and driving, 
as well as the trend toward gas-guzzling SUVs. When the fuel economy 
standards were implemented, light trucks only accounted for about 20 
percent of personal vehicle sales. Light trucks now account for nearly 
50 percent of new vehicle sales; this has brought down the overall fuel 
economy of the light duty vehicle fleet, which now stands at its lowest 
average fuel economy since 1981. If the fuel economy of new vehicles 
had held at the levels for vehicles sold in 1981, rather than tipping 
downward, American vehicle owners would be importing half a million 
fewer barrels of oil each day.
    In this study, we introduce a strengthened Corporate Average Fuel 
Economy (CAFE) standard for cars and light trucks, along with 
complementary market incentive programs. Specifically, fuel economy 
standards for new cars and light trucks rise from EIA's projected 25.2 
mpg for 2001 to 36.5 mpg in 2010, continuing to 50.5 mpg by 2020. This 
increase in vehicle fuel economy would save by 2020 approximately twice 
as much oil as could be pumped from an Arctic National Wildlife Refuge 
oil field over its entire 50-year lifespan (USGS, 2001). Based on 
assessments of near-term technologies for conventional vehicles, and 
advanced vehicle technologies for the longer-term, we estimate that the 
2010 CAFE target can be met with an incremental cost of approximately 
$855 per vehicle, and the 2020 CAFE target with an incremental cost of 
$1,900. \1\ To put these costs in perspective, the fuel savings at the 
gasoline pump for these more efficient vehicles would be two to three 
times these incremental costs over the vehicle's lifetime. \2\
---------------------------------------------------------------------------
     \1\Assuming a mean value at a market price of oil of $20/barrel.
     \2\ Assuming a retail price of gasoline of $1.50/gallon, a 10-year 
life of the vehicle, and 12,000 miles per year.
---------------------------------------------------------------------------
Improving Efficiency of Freight Transport
    We also assume policies to improve fuel economy for heavy-duty 
freight trucks, which account for approximately 16 percent of all 
transport energy consumption. Improvements such as advanced diesel 
engines, drag reduction, rolling resistance, load reduction strategies, 
and low friction drivetrains would increase the fuel economy, and thus 
decrease the oil requirements, of freight trucks. Many of these 
technologies are available today while others, such as advanced diesel 
and turbine engines, have been demonstrated technically but are not yet 
commercially available.
    To accelerate the improvement in heavy duty truck efficiency, we 
have assumed expanded R&D for heavy duty diesel technology, vehicle 
labeling and promotion, financial incentives to stimulate the 
introduction of new technologies, efficiency standards for medium-and 
heavy-duty trucks, and fuel taxes and user-fees calibrated to eliminate 
the existing subsidies for freight trucking. Together, it is estimated 
that these policies could bring about a fuel economy improvement of 6 
percent by 2010, and 23 percent by 2020, relative to today's trucks.
Improving Efficiency of Air Travel
    Air travel is the fastest growing mode of travel, and far more 
energy intensive than vehicle travel. One passenger mile of air travel 
today requires about 1.7 times as much fuel as vehicle travel. \3\ We 
assume policies to improve the efficiency of air travel, including R&D 
for efficient aircraft technologies, fuel consumption standards, and a 
revamping of policies that subsidize air travel through public 
investments.
---------------------------------------------------------------------------
     \3\ Assuming typical vehicle load factors of 0.33 for autos and 
0.6 for aircraft.
---------------------------------------------------------------------------
    We assume that air travel efficiency improves by 23 percent by 
2010, and 53 percent by 2020, owing to a combination of aircraft 
efficiency improvements (advanced engine types, lightweight composite 
materials, and advanced aerodynamics), increased load factor, and 
acceleration of air traffic management improvements (Lee et al., 2001; 
OTA, 1994; Interlaboratory Working Group, 2000). This is in contrast to 
the base case in which efficiency increases by 9 percent by 2010 and 15 
percent by 2020. While we assume that air travel can reach 82 seat-
miles per gallon by 2020 from its current 51, it is technologically 
possible that far greater efficiencies approaching 150 seat-miles per 
gallon could be achieved, if not in that time period then over the 
longer term (Alliance to Save Energy et al., 1991).
Greenhouse Gas Standards for Motor Fuels
    Transportation in the United States relies overwhelmingly on 
petroleum-based fuels, making it a major source of greenhouse gas (GHG) 
emissions. We introduce here a full fuel-cycle GHG standard for motor 
fuels, similar in concept to the Renewable Portfolio Standard for the 
electric sector.
    The policy assumed in this study requires a 3 percent reduction in 
the average national GHG emission factor of fuels used in light duty 
vehicles in 2010, increasing to a 7 percent reduction by 2020. Expanded 
R&D, market creation programs, and financial incentives would 
complement this policy. Such a program would stimulate the production 
of low-GHG fuels such as cellulosic ethanol and biomass-or solar-based 
hydrogen.
    For this study, we assume that most of the low-GHG fuel is provided 
as cellulosic ethanol, which can be produced from woody matter from 
agricultural residues, forest and mill wastes, urban wood wastes, and 
short rotation woody crops (Walsh et al., 1997; Walsh et al., 1999). As 
cellulosic ethanol can be coproduced along with electricity, we assume 
that electricity output reaches 10 percent of ethanol output by 2010 
and 40 percent by 2020 (Lynd, 1997). We assume that the price of 
cellulosic ethanol falls to $1.40 per gallon of gasoline equivalent by 
2010 owing to the accelerated development of the production technology, 
and remains at that price thereafter (Interlaboratory Working Group, 
2000).
Improving Alternative Modes to Reduce Vehicle Miles Traveled
    The amount of travel in cars and light duty trucks continues to 
grow due to increasing population and low vehicle occupancy. Between 
1999 and 2020, the rate of growth in vehicle miles traveled is 
projected to increase in the base case by about 2 percent per year. The 
overall efficiency of the passenger transportation system can be 
significantly improved through measures that contain the growth in 
vehicle miles traveled through land-use and infrastructure investments 
and pricing reforms to remove implicit subsidies for cars, which are 
very energy intensive. We assume that these measures will primarily 
affect urban passenger transportation and result in a shift to higher 
occupancy vehicles, including carpooling, vanpooling, public 
transportation, and telecommuting. We consider that the level of 
reductions of vehicle miles traveled that can be achieved by these 
measures relative to the base case are 8 percent by 2010 and 11 percent 
by 2020.
High Speed Rail
    High speed rail offers an attractive alternative to intercity 
vehicle travel and short distance air travel. In both energy cost and 
travel time, high-speed rail could compete with air travel for trips of 
roughly 600 miles or less, which account for about one-third of 
domestic air passenger miles traveled. Investments in rail facilities 
for key intercity routes (such as the Northeast corridor between 
Washington and Boston, the east coast of Florida between Miami and 
Tampa, and the route linking Los Angeles and San Francisco) could 
provide an attractive alternative and reduce air travel in some of the 
busiest flight corridors (USDOT, 1997). High-speed rail can achieve 
practical operating speeds of up to 200 mph. Prominent examples include 
the French TGV, the Japanese Shinkansen and the German Intercity 
Express. An emerging advanced transport technology is the MAGLEV system 
in which magnetic forces lift and guide a vehicle over a specially 
designed guideway. Both Germany and Japan are active developers of this 
technology.
    In this analysis we have taken the USDOT's recent estimates of the 
potential high speed rail ridership which, based on projected mode 
shifts from air and automobile travel in several major corridors of the 
United States, reaches about 2 billion passenger miles by 2020 (USDOT, 
1997). While this level of high speed rail ridership provides 
relatively small energy and carbon benefits by 2020, it can be viewed 
as the first phase of a longer-term transition to far greater ridership 
and more advanced, faster and efficient electric and MAGLEV systems in 
the ensuing decades.
                                ANNEX B
                 methodology: economic impacts analysis
    The overall energy and economic analysis starts with a business-as-
usual energy-economic forecast based on the U.S. Department of Energy, 
Energy Information Administration's Annual Energy Outlook for 2001. 
This base case reflects a continuation of existing energy consumption 
and technology trends and policies, and presumes no efforts are taken 
to reduce greenhouse gas emissions.
    Employment impacts from the policy scenarios were computed as net 
incremental impacts in specified future years. They are derived from 
the changes in expenditures on energy:

  . . . operating costs and fuel costs--brought about by investments in 
    energy efficiency and renewable technologies in each sector. The 
    net impacts of these changes on the nation's economy were computed 
    from the following: 1) the net changes in employment; 2) the net 
    changes in wage and salary compensation, measured in millions of 
    1998 dollars; and 3) the net changes in Gross Domestic Product 
    (GDP), also measured in millions of 1998 dollars.

    The analysis used data derived from IMPLAN (IMpact Analysis for 
PLANning), a widely used input-output (I-O) model that analyzes 
interactions between different sectors of the economy. IMPLAN was used 
to track the changes in each sector's demand and spending patterns, as 
caused by shifts in fuel consumption and energy technology investments 
owing to the policies, and the shifts induced in other sectors' levels 
of output (and the inputs required).
    The results of these interactions are captured through appropriate 
sectoral multipliers (jobs, income, and GDP per dollar of output). For 
each benchmark year (2010 and 2020), each change in a sector's spending 
pattern is matched to an appropriate sectoral multiplier. The 
analytical approach used here is similar to that in Geller, DeCicco and 
Laitner (1992); Laitner, Bernow and DeCicco (1998); Goldberg et al. 
(1998); and Bernow et al. (1999). These reports offer a more in-depth 
discussion of methodological issues.
    Input-output models were initially developed to trace supply 
linkages in the economy. Thus, the impacts generated from the policy 
scenario depend on the structure of the economy. For example, I-O 
models can show how increasing purchases of more efficient lighting 
equipment, more efficient cars, high efficiency motors, modular 
combined heat and power plants, or biomass energy not only directly 
benefit their respective producers, but also benefit those industries 
that provide inputs to the manufacturers. I-O models also can be used 
to show the benefits from indirect economic activity that occur as a 
result of these transactions (e.g., banking and accounting services) 
and the re-spending of energy bill savings throughout the economy. 
Therefore, spending patterns for energy have an effect on total 
employment, income (i.e., wage and salary compensation), and GDP.
    For each sector of the economy, multipliers were used to compute 
the impacts of the incremental expenditures. These multipliers 
identified the employment or economic activity generated from a given 
level of spending in each sector. Changes in expenditures were matched 
with appropriate multipliers. For instance, employment multipliers show 
the number of jobs that are directly and indirectly supported for each 
one million dollars of expenditure in a specific sector.
    For this analysis, a job is defined as sufficient wages to employ 
one person full-time for 1 year. The employment multipliers for key 
sectors of the economy are listed in table A.1, below.
    The analysis in this study includes several modifications made to 
the methodology of merely matching expenditures and multipliers. First, 
an assumption was made that 85 percent of the efficiency investments 
would be spent within the United States. While local contractors and 
dealers traditionally carry out upgrades of energy efficiency, this 
analysis recognizes that foreign suppliers and contractors may also be 
involved.
    Second, we made an adjustment in the employment impacts to account 
for future changes in labor productivity in specific sectors. Utilizing 
data from the Bureau of Labor Statistics Economic and Employment 
Projections 1988, 1998, and 2008, we developed productivity trends for 
our analysis. These trends suggest that productivity rates are expected 
to vary widely among sectors. Annual productivity gains are forecast to 
range from 0.4 percent annually in the construction sector (which will 
experience a large influx of employment as those sectors become more 
important to the economy) to 7.4 percent annual productivity gain in 
oil and gas mining. These factors are given in table A.2, below.
    Third, we assumed that 80 percent of the investment upgrades would 
be financed by bank loans carrying an average 10 percent real interest 
rate over a 5-year period. No parameters were established to account 
for changes labor participation rates or for changes in interest rates 
as less capital-intensive technologies (i.e., efficiency investments) 
are substituted for conventional supply strategies. Although the higher 
cost premiums associated with the efficiency investments might be 
expected to increase the level of borrowing in the short term, and 
therefore, interest rates, this could be offset somewhat by avoided 
investments in new power plant capacity, exploratory well drilling, and 
new pipelines. Similarly, while a demand for labor may tend to increase 
the overall level of wages (and potentially lessen economic activity), 
the employment benefits from the scenario are relatively small compared 
with the national level of unemployment.
    Fourth, for the residential and commercial sectors, it was assumed 
that program and marketing expenditures would be required to help 
promote market penetration of efficiency improvements due to the 
dispersed nature of the decisionmakers and the need for greater efforts 
toward market transformation. This was set at 15 percent of the 
efficiency investments for those sectors. No program or marketing 
expense was included for the industrial sector or transportation 
sector. We assume market penetration is naturally occurring in the 
industrial sector as decisionmakers adopt cost-effective and more 
efficient processes and older, less efficient equipment is replaced 
with newer, higher efficiency models. In the transportation sector 
efficiency improvements are assumed to be a part of all new vehicle 
purchases.
    Finally, the analysis took account of the fact that the electric 
sector carbon cap-and-trade system would involve government auctioning 
of carbon allowances to electricity suppliers. This was modeled by (1) 
assuming purchases of the requisite allowances by utilities from the 
government; (2) payments for the corresponding higher costs of 
electricity by households and businesses; and (3) a return of the 
revenues collected by the government to households and businesses.
    These results should be taken as indicative, as there are always 
limits to such a modeling exercise. The analyses do not account for 
feedback through final demand reductions, input substitution owing to 
price changes, feedback from inflation, and the constraints on labor 
and money supplies. They also assume that available labor, plant and 
materials are not fully utilized. Thus, for example, they assume that 
there is unemployment in those existing or potential skill areas, for 
which demand could be induced by policies that shift expenditures to 
nonenergy commodities. This is contrary to many other economic models, 
which in effect assume that there is full employment, and that the 
shift in expenditures from energy to other commodities would not create 
new jobs. Their view would be that the shift in expenditures would 
provide largely counter-recessionary jobs, but not many sustained job 
increases. Yet, it is well known that there is structural as well as 
business-cycle unemployment. Moreover, economic activity in some 
sectors such as construction (which enjoys the largest amount of 
induced jobs in our analysis) where job entry is impeded by cyclical 
and unstable demand and expectations, could experience sustained 
increases if a sustained path of increased final demands were 
established as they are in our policy scenarios.
    In addition, while the models used for the energy analyses capture 
some policy-induced technology innovation, this is limited primarily to 
the electric sector. The I-O analysis also does not include the 
potential productivity benefits that could stem from the investments in 
new and more efficient equipment, and associated changes in 
organization, know-how and inter-industry interactions. Industrial 
investments that improve energy efficiency could be accompanied by 
improved product quality, lower capital and operating costs, increased 
employee productivity, easier and less costly environmental compliance, 
and entry into niche markets (see, e. g., Elliott et al. 1997; Laitner 
1995; OTA 1994; Porter and Van Linde 1995). Even under full employment, 
energy policies that improve the efficiency of the economy could 
increase incomes per worker. Finally, such job-inducing policies could 
help counteract recessionary business cycles. It would be valuable to 
develop tools and refine the analyses to account for some of these 
factors and obtain a more detailed characterization of the results.
    For the State-by-State employment impacts, we developed indicative 
estimates of the distribution of the approximately 1.3 million net 
national jobs gained by 2020 across the 50 States and the District of 
Columbia. Absent a more detailed analysis of each individual State or 
region, we allocated the national job impacts by weighting the key 
variables to create an overall State-by-State assessment. This estimate 
reflects the significant energy and economic differences across the 
States. The key variables used in this assessment were differences in 
energy prices; the level of energy consumed for each dollar of economic 
activity in the State; the number of energy-related jobs as a percent 
of total State employment; and the number of State jobs as a percent of 
national employment. The results are presented in table 2, which shows 
a positive net job impact in each State, ranging up to a high of about 
140,000 in California by 2020.

                                Table A.1
           Employment Multipliers for Select Economic Sectors
------------------------------------------------------------------------
                           Sector                             Multiplier
------------------------------------------------------------------------
Agriculture................................................         27.3
Coal Mining................................................          9.9
Oil/Gas Mining.............................................          8.2
Other Mining...............................................         10.4
Construction...............................................         18.1
Food Processing............................................         16.9
Pulp and Paper Mills.......................................         11.6
Oil Refining...............................................          6.9
Stone, Glass, and Clay.....................................         13.2
Primary Metals.............................................         12.8
Metal Durables.............................................         13.1
Motor Vehicles.............................................         10.6
Other Manufacturing........................................         13.3
Transportation, Communication, and Utilities...............         13.9
Electric Utilities.........................................          5.2
Natural Gas Utilities......................................          6.6
Wholesale Trade............................................         13.4
Retail Trade...............................................         29.2
Finance....................................................         10.7
Insurance/Real Estate......................................          8.1
Services...................................................         22.9
Education..................................................         28.9
Government.................................................         18.0
------------------------------------------------------------------------


                                Table A.2
     Labor Productivity Rates for Select Economic Sectors Employment
                 Multipliers for Select Economic Sectors
------------------------------------------------------------------------
                           Sector                                Rate
------------------------------------------------------------------------
Agriculture................................................  1.6 percent
Coal Mining................................................  5.2 percent
Oil/Gas Mining.............................................  7.4 percent
Other Mining...............................................  2.4 percent
Construction...............................................  0.4 percent
Food Processing............................................  1.0 percent
Pulp and Paper Mills.......................................  3.0 percent
Oil Refining...............................................  3.3 percent
Stone, Glass, and Clay.....................................  2.2 percent
Primary Metals.............................................  4.0 percent
Metal Durables.............................................  4.7 percent
Motor Vehicles.............................................  2.0 percent
Other Manufacturing........................................  4.7 percent
Transportation, Communication, and Other Utilities.........  2.5 percent
Electric Utilities.........................................  2.5 percent
Natural Gas Utilities......................................  1.5 percent
Wholesale Trade............................................  3.0 percent
Retail Trade...............................................  1.4 percent
Finance....................................................  3.7 percent
Insurance/Real Estate......................................  0.8 percent
Services...................................................  1.1 percent
Education..................................................  1.0 percent
Government.................................................  0.4 percent
------------------------------------------------------------------------

                            v. bibliography
ACEEE, 1999. Meeting America's Kyoto Protocol Targets. H. Geller, S. 
            Bernow and W. Dougherty. Washington, DC.: American Council 
            for an Energy-Efficient Economy.
Alliance to Save Energy, American Council for an Energy-Efficient 
            Economy, Natural Resources Defense Council, and Union of 
            Concerned Scientists, 1991. America's Energy Choices: 
            Investing in a Strong Economy and Clean Environment. In 
            collaboration with Tellus Institute. Cambridge, Mass.: 
            Union of Concerned Scientists.
Alliance to Save Energy, American Council for an Energy-Efficient 
            Economy, Natural Resources Defense Council, Tellus 
            Institute and Union of Concerned Scientists, 1997.
Energy Innovations: A Prosperous Path to a Clean Environment, 
            Washington, DC. Arthur, W. Brian, 1994. Increasing Returns 
            and Path Dependence in the Economy. Ann Arbor: The 
            University of Michigan Press.
Azar, Christian, 1996. ``Technological Change and the Long-Run Cost of 
            Reducing CO<INF>2</INF> Emissions,'' Center for the 
            Management of Environmental Resources (ENSEAD), 
            Fontainebleau, France. Working Papers.
Bailie, A., S. Bernow, W. Dougherty, M. Lazarus and S. Kartha, 2001. 
            The American Way to the Kyoto Protocol. A Tellus Institute 
            study for World Wildlife Fund. Washington, DC.: World 
            Wildlife Fund.
Bernow, S. K. Cory, W. Dougherty, M. Duckworth, S.Kartha and M. Ruth, 
            1999. America's Global Warming Solutions. Washington, DC.: 
            World Wildlife Fund.
Bernow, S., M. Lazarus and S. Kartha, 2001. Coal: America's Past . . . 
            America's Future? Prepared by Tellus Institute for World 
            Wildlife Fund. Washington, DC.: World Wildlife Fund.
Bernow, S., M. Lazarus and S. Kartha, 2001. Powering America: Myths vs 
            Facts in the U.S. Energy and Global Warming Debates. 
            Prepared by Tellus Institute for World Wildlife Fund. 
            Washington, DC.: World Wildlife Fund.
Breslow, M., J. Stutz and F. Ackerman, 1993. Creating Jobs for the 
            90's: Exposing the Myths about Oil Drilling in the Arctic 
            National Wildlife Refuge. Boston: Tellus Institute.
Brown, Marilyn, M. D. Levine, J. P. Romm, A. H. Rosenfeld and J. G. 
            Koomey, 1998. ``Engineering-Economic Studies of Energy 
            Technologies to Reduce Greenhouse Gas Emissions: 
            Opportunities and Challenges.'' Annual Review of Energy and 
            the Environment.
Bureau of Labor Statistics (BLS), 2001. Economic and Employment 
            Projections 1988, 1998, and 2008. See BLS website at 
            www.bls.gov/asp/oep/nioem/empiohm.asp.
Burtraw, D., K. Palmer, R. Barvikar and A. Paul, 2001. The Effect of 
            Allowance Allocation on the Costs of Carbon Emissions 
            Trading. Discussions Paper 01-30. Washington, DC.: 
            Resources for the Future.
Clean Air Task Force, 2000. Death, Disease, & Dirty Power: Mortality 
            and Health Damages Due to Air Pollution from Power Plants, 
            October 2000.
Cowan, Robin, and D. Kline, 1996. ``The Implications of Potential 
            `Lock-In' in Markets for Renewable Energy.'' Presented at 
            the International Symposium on Energy and Environmental 
            Management and Technology, Newport Beach, Calif. December 
            5-6, 1996.
DeCanio, Stephen, 1998. ``The Efficiency Paradox: Bureaucratic and 
            Organizational Barriers to Profitable Energy-Saving 
            Investments.'' Energy Policy. April.
EERE, 2000. Scenarios for a Clean Energy Future. Prepared by the 
            Interlaboratory Working Group on Energy-Efficient and 
            Clean-Energy Technologies. Washington, DC.: U.S. Department 
            of Energy, Office of Energy Efficiency and Renewable 
            Energy.
Energy Information Administration [EIA], 2001. Annual Energy Outlook. 
            Washington, DC.: U.S. Department of Energy.
EIA, 2001. Annual Energy Outlook 2001 with Projections to 2020. 
            Washington, DC.: U.S. Department of Energy.
Elliott, N., S. Laitner and M. Pye, 1997. Considerations in the 
            Estimation of Costs and Benefits of Industrial Energy 
            Efficiency Projects. Washington, DC.: American Council for 
            an Energy-Efficient Economy.
Elliott, N. and M. Pye, 1998. ``Investing in Industrial Innovation: A 
            Response to Climate Change.'' Energy Policy. April.
Elliott, R. N., 1994. Electricity Consumption and the Potential for 
            Energy Savings in the Manufacturing Sector. Washington, 
            DC.: American Council for an Energy-Efficient Economy.
Elliott, R. N. and M. Spurr, 1999. Combining Heat and Power: Capturing 
            Wasted Energy. Washington, DC.:American Council for an 
            Energy-Efficient Economy.
Geller, H., J. DeCicco and S. Laitner, 1992. Energy Efficiency and Job 
            Creation. Washington, DC.: American Council for an Energy-
            Efficient Economy.
Geller, H., J. DeCicco, S. Laitner, and C. Dyson, 1994. ``Twenty Years 
            After the Embargo: U.S. Oil Import Dependence and How it 
            Can Be Reduced'', Energy Policy, Vol. 22, No. 6 (1994), pp 
            471-485.
Goldberg, M., M. Kushler, S. Nadel, N. Elliot, and M. Thomas, 1998. 
            Energy Efficiency and Economic Development in Illinois. 
            Washington D.C.: American Council for an EnergyEfficient 
            Economy.
Greene, D., 2000. Costs of Oil Dependence: A 2000 Update. ORNL/TM-2000/
            152. Oak Ridge, Tenn.: Oak Ridge National Laboratory.
Interlaboratory Working Group, 2000. Scenarios for a Clean Energy 
            Future. Argonne National Laboratory, the National Renewable 
            Energy Laboratory, Lawrence Berkeley National Laboratory, 
            Oak Ridge National Laboratory and Pacific Northwest 
            National Laboratory. Commissioned by DOE Office of Energy 
            Efficiency and Renewable Energy. http://www.ornl.gov/ORNL/
            Energy--Eff/CEF.htm
Koomey, J.G., R. C. Richey, S. Laitner, R. Markel, and C. Marnay, 1998. 
            Technology and Greenhouse Gas Emissions: An Integrated 
            Scenario Analysis Using the LBNL NEMS Model, LBNL-42054 and 
            EPA 430-R-98-021. Lawrence Berkeley National Laboratory, 
            Berkeley Calif. and U.S. Environmental Protection Agency, 
            Office of Atmospheric Programs, Washington, DC.
Krause, F., Baer, P., DeCanio, S., 2001. ``Cutting Carbon Emissions at 
            a Profit: Opportunities for the U.S.,'' International 
            Project for Sustainable Energy Paths, El Cerrito, 
            California, April. www.ipsep.org
Laitner, S., 1995. Energy Efficiency as a Productivity Strategy for the 
            United States. Alexandria, Va.: Economic Research 
            Associates.
Laitner, Skip, S. Bernow and J. DeCicco, 1998. ``Employment and Other 
            Macroeconomic Benefits of an Innovation-Led Climate 
            Strategy for the United States,'' Energy Policy. April.
Laitner, S., S. J. DeCanio, and I. Peters, 2000. ``Incorporating 
            Behavioral, Social, And Organizational Phenomena In The 
            Assessment Of Climate Change Mitigation Options.'' For the 
            IPCC Expert Meeting on Conceptual Frameworks for Mitigation 
            Assessment From the Perspective of Social Science. 
            Karlsruhe, Germany. March 21-22, 2000.
Lee, J. J., S. P. Lukachko, L. A. Waitz and A. Schaefer, 2001. 
            ``Historical and Future Trends in Aircraft Performance, 
            Cost and Emissions,'' forthcoming in Annual Review of 
            Energy and the Environment, Vol 26. November 2001.
Lynd., L. 1997. ``Cellulosic Ethanol Technology in Relation to 
            Environmental Goals and Policy Formulation,'' in J. DeCicco 
            and M. DeLucchi, eds., Transportation, Energy and 
            Environment: How Far Can Technology Take Us? Washington, 
            DC.: American Council for an Energy-Efficient Economy.
Nadel, Steven and Marty Kushler. 2000. ``Public Benefit Funds: A Key 
            Strategy for Advancing Energy Efficiency,'' The Electricity 
            Journal. October 2000, pp. 74-84.
Nadel, S. and H. Geller, 2001. Smart Energy Policies: Saving Money and 
            Reducing Pollutant Emissions though Greater Energy 
            Efficiency. American Council for and Energy-Efficient 
            Economy, with Tellus Institute. Report No. E012. 
            Washington, DC.
Office of Technology Assessment, 1994. Saving Energy in U.S. 
            Transportation, OTA-ETI-589, Washington, DC.
Porter, Michael E. and C. van Linde, 1995. ``Toward a New Conception of 
            the Environment Competitiveness Relationship,'' Journal of 
            Economic Perspectives. Vol. 9, No. 4, Pages 97118. Fall.
Repetto, 1997. The Costs of Climate Protection: A Guide for the 
            Perplexed. Washington, DC.: World Resources Institute.
Repetto, R., 2001. Yes Virginia, There is a Double Dividend. Denver, 
            Colo.: Institute for Policy Research and Community 
            Development Policy, University of Colorado at Denver.
USDOT 1997 U.S. Department of Transportation, 1997. High-Speed Ground 
            Transportation for America. Washington, DC.: Federal 
            Railroad Administration.
U.S. Geological Survey, 2001. Arctic National Wildlife Refuge, 1002 
            Area, Petroleum Assessment, 1998, Including Economic 
            Analysis. Fact Sheet FS-028-01, April. (See also U.S. 
            Geological Survey, 1999. The Oil and Gas Resource Potential 
            of the Arctic National Wildlife Refuge 1002 Area, Alaska. 
            USGS Open File Report 98-34.)
Walsh, M., B. Perlack, D. Becker, A. Turhollow and R. Graham, 1997. 
            Evolution of the Fuel Ethanol Industry: Feedstock 
            Availability and Price. Biofuels Feedstock Development 
            Program. Oak Ridge, Tenn.: Oak Ridge National Laboratory.
Walsh, M., R. Perlack, D. Becker, A. Turhollow, D. Ugarte, R. Graham, 
            S. Slinsky and D. Ray, 1999. Biomass Feedstock Availability 
            in the United States: Draft. Oak Ridge, Tenn.: Oak Ridge 
            National Laboratory.
Worrell, E., N. Martin and L. Price, 1999. Energy Efficiency and Carbon 
            Dioxide Reduction Opportunities in the U.S. Iron and Steel 
            Industry. LBNL-41724. Berkeley, Calif.: Lawrence Berkeley 
            National Laboratory.
WEFA, 1990. The Economic Impact of ANWR Development. Prepared by the 
            WEFA Group for the American Petroleum Institute. Bala 
            Cynwd, Penn.
                                 ______
                                 
[From the Tellus Institute and Stockholm Environment Institute--Boston 
                           Center, July 2001]
The American Way to the Kyoto Protocol: An Economic Analysis to Reduce 
                            Carbon Pollution
                    a study for: world wildlife fund
(By Alison Bailie, Stephen Bernow, William Dougherty, Michael Lazarus, 
                             Sivan Kartha)
Acknowledgements
    We wish to thank Jennifer Morgan, Katherine Silverthorne and Freda 
Colbert of WWF for their assistance on this report. We thank Hal 
Harvey, Marcus Schneider and Eric Heitz of Energy Foundation for their 
help in supporting our modeling capabilities. The energy efficiency 
analyses and inputs to our modeling effort for buildings, industry and 
light duty vehicles were provided by ACEEE (Steve Nadel, Howard Geller, 
Neal Elliott and Therese Langer) and John DeDicco of Environmental 
Defense. Modifications to the NEMS model, particularly as related to 
renewables in the electricity sector, were made at Tellus with 
important input from Alan Nogee, Deborah Donovan and Steve Clemmer of 
Union of Concerned Scientists, Laura Martin, Tom Petersik, Alan Beamon, 
Zia Haq, and Jeff Jones of EIA, and other experts including Walter 
Short of NREL, Jack Cadogan of ORNL, Dan Entingh of Princeton Economic 
Research, Inc., Etan Gummerman, Lawrence Berkeley Labs, Francis Wood of 
OnLocation, Inc., and Michael Brower. We also wish to thank Francisco 
de la Chesnaye and Reid Harvey of USEPA, who provided important data on 
non-CO<INF>2</INF> gases, and Kevin Gurney, who provided useful 
insights on land-based carbon.
1. Executive Summary
    This report presents a study of policies and measures that could 
dramatically reduce U.S. greenhouse gas emissions over the next two 
decades. It examines a broad set of national policies to increase 
energy efficiency, accelerate the adoption of renewable energy 
technologies, and shift energy use to less carbon-intensive fuels. The 
policies address major areas of energy use in residential and 
commercial buildings, industrial facilities, transportation, and power 
generation.
    This portfolio of policies and measures would allow the United 
States to meet its obligations under the Kyoto Protocol Together when 
combined with steps to reduce the emissions of non-CO<INF>2</INF> 
greenhouse gases and land-based CO<INF>2</INF> emissions, and the 
acquisition of a limited amount of allowances internationally. This 
package would bring overall economic benefits to the United States, 
since lower fuel and electricity bills would more than pay the costs of 
technology innovation and program implementation. In 2010, the annual 
savings would exceed costs by $50 billion, and by 2020 by approximately 
$135 billion.
    Currently, the Bush Administration is promoting an energy strategy 
based on augmenting fossil fuel supplies. This strategy does not help 
the United States shift away from diminishing fossil fuel supplies, it 
does not enhance U.S. energy security, and it does not reduce the 
environmental impacts of energy use. America needs an energy policy 
that takes us forward into the 21st Century by making climate change 
mitigation an integrated part of the plan.
    Far from being the economically crippling burden that the Bush 
Administration alleges, ratifying the Kyoto Protocol and ambitiously 
reducing greenhouse gas emissions could initiate a national 
technological and economic renaissance for cleaner energy, industrial 
processes and products in the coming decades. In the United States, we 
therefore face an important challenge. We can embrace the challenge of 
climate change as an opportunity to usher in this renaissance, 
providing world markets with the advanced technologies needed to 
sustain this century's economic growth. Or we can be followers, leaving 
other more forward-looking countries to assume the global leadership in 
charting a sustainable path and capturing the energy markets of the 
future.
Policies and measures
    The climate protection strategy adopts policies and measures that 
are broadly targeted across the four main economic sectors: buildings, 
electricity generation, transportation, and industry. The policies 
considered for residential and commercial buildings include 
strengthened codes for building energy consumption, new appliance 
efficiency standards, tax incentives and a national public benefits 
fund to support investments in high efficiency products, and expanded 
research and development into energy efficient technologies. For the 
electric sector, policies included a market-oriented ``renewable 
portfolio standard'', a cap on pollutant emissions (for sulfur and 
nitrogen), and a carbon emissions permit auction. In the transport 
sector, policies are adopted to improve the fuel economy of passenger 
vehicles, freight trucks, and aircraft through research, incentives, 
and a strengthened vehicle fuel efficiency standards. Policies are also 
modeled to set a fuel-cycle greenhouse gas standard for motor fuels, 
reduce road travel through land use and infrastructure investments and 
pricing reforms, and increase access to high speed rail as an 
alternative to short distance air travel. In the industry sector, 
policies are adopted to exploit more of the vast potential for 
cogeneration of heat and power, and to improve energy efficiencies at 
industrial facilities through technical assistance, financial 
incentives, expanded research, and demonstration programs to encourage 
cost-effective emissions reductions.
Results
    Energy use in buildings, industries, transportation, and 
electricity generation was modeled for this study using the U.S. 
Department of Energy's National Energy Modeling System (NEMS). The NEMS 
model version, data and assumptions employed in this study were those 
of EIA's Annual Energy Outlook (EIA 2001), which also formed the basis 
for the Base Case. We refined the NEMS model with advice from EIA, 
based on their ongoing model improvements, and drawing on expert advice 
from colleagues at the Union of Concerned Scientists, the National 
Laboratories and elsewhere.

                                         Table ES. 1 Summary of results.
----------------------------------------------------------------------------------------------------------------
                                                                               2010                      2020
                                                   1990\1\     2010 Base     Climate     2020 Base     Climate
                                                                  Case      Protection      Case      Protection
----------------------------------------------------------------------------------------------------------------
End-use Energy (Quads).........................         63.9         86.0         76.4         97.2         72.6
Primary Energy (Quads).........................         84.6        114.1        101.2        127.0         89.4
Renewable Energy (Quads)
    NON-HYDRO..................................          3.5          5.0         10.4          5.5         11.0
    Hydro......................................          3.0          3.1          3.1          3.1          3.1
 
Net GHG Emissions (MtCe/yr)....................        1,648        2,204        1,533           --         ----
    Energy Carbon..............................        1,338        1,808        1,372        2,042        1,087
    Land-based Carbon..........................           --           --          -58           --         ----
    Non-CO<INF>2</INF> Gases..............................          310          397          279           --         ----
    International Trade........................           --           --          -60           --         ----
 
Net Savings\2\
    Cumulative present value (billion $).......           --           --         $105           --         $576
    Levelized annual (billion $/year)..........           --           --         $113           --          $49
    Levelized annual per household ($/year)....           --           --         $113           --         $375
----------------------------------------------------------------------------------------------------------------
\1\ Under Kyoto, the base year for three of the non-CO<INF>2</INF> GHGs (HFCs, PFCs, SF6) is 1995, not 1990, and the 1995
  levels for these emissions are reported here.
\2\ Savings are in 1999 $. The 2010 savings include $2.3 billion costs per year ($9 billion cumulative through
  2010) of non-energy related measures needed to meet the Kyoto target. Costs are not included in 2020 since
  these measures policies do not extend past 2010.

    Table ES. 1 provides summary results on overall energy and 
greenhouse gas impacts and economic impacts of the policy set for the 
Base Case and Climate Protection Case for 2010 and 2020. The policies 
cause reductions below in primary energy consumption that reach 11 
percent by 2010 and 30 percent in 2020, relative to the Base Case in 
those years, through increased efficiency and greater adoption of 
cogeneration of heat and power (CHP). Relative to today's levels, use 
of non-hydro renewable energy roughly triples by 2010 in the Climate 
Protection Case, whereas in the Base Case it increases by less than 50 
percent. Given the entire set of policies, non-hydro renewable energy 
doubles relative to the Base Case in 2010, accounting for about 10 
percent of total primary energy supplies in 2010. When the electric 
sector RPS is combined with the strong energy efficiency policies of 
this study, the absolute amount of renewables does not increase 
substantially between 2010 and 2020 because the percentage targets in 
the electric sector have already been met. A more aggressive renewables 
policy for the 2010-2020 period could be considered (ACEEE, 1999).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The reductions in energy-related carbon emissions are even more 
dramatic than the reductions in energy consumption, because of the 
shift toward lower-carbon fuels and renewable energy. Since 1990, 
carbon emissions have risen by over 15 percent, and in the Base Case 
would continue to rise a total of 35 percent by 2010, in stark contrast 
to the 7 percent emissions reduction that the United States negotiated 
at Kyoto. In the Climate Protection case, the United States promptly 
begins to reduce energy-related carbon emissions, and by 2010 emissions 
are only 2.5 percent above 1990 levels, and by 2020, emissions are well 
below 1990 levels. Relative to the Base case, the 2010 reductions \3\ 
amount to 436 MtC/yr.
---------------------------------------------------------------------------
     \3\Throughout this report we refer to U.S. emissions target for 
the year 2010 to mean the average of the 5 year period from 2008 to 
2012.
---------------------------------------------------------------------------
    Energy-related carbon emissions are the predominant source of U.S. 
greenhouse gas emissions for the foreseeable future, and their 
reduction is the central challenge for protecting the climate. However, 
because the United States has made only minimal efforts to reduce 
emissions since it ratified the United Nations Framework Convention on 
Climate Change, it may not be able to meet it's Kyoto obligation with 
net economic benefits based solely on reductions in energy-related 
carbon dioxide emissions. Therefore, in order to meet the Kyoto target, 
the Climate Protection case also considers policies and measures for 
reducing greenhouse gases other than energy-related carbon dioxide.
    In the Climate Protection case, land-based activities, such as 
forestry, changes in land-use, and agriculture, yield another 58 MtC/yr 
of reductions. (This figure corresponds to the upper limit for the use 
of land-based activities in the current negotiating text proposed by 
the current President of the U.N. climate talks Jan Pronk.) Methane 
emissions are also reduced, through measures aimed at landfills, 
natural gas production and distribution systems, mines, and livestock 
husbandry. The potent fluorine-containing greenhouse gases can be 
reduced by substituting with non-greenhouse substitutes, implementing 
alternative cleaning processes in the semiconductor industry, reducing 
leaks, and investing in more efficient gas-using equipment. In total, 
the Climate Protection case adopts reductions of these other greenhouse 
gases equivalent to 118 MtC/yr by 2010.
    All together the reduction measures for energy-related carbon (436 
MtC/yr), land-based carbon (58 MtC/yr), and non-carbon gases (118 MtCe/
yr) amount to 612 MtCe/yr of reductions in 2010. Through these 
measures, the United States is able to accomplish the vast majority of 
its emissions reduction obligation under the Kyoto Protocol through 
domestic actions. This leaves the United States slightly shy of its 
Kyoto target, with only 60 MtC/yr worth of emissions allowances to 
procure from other countries though the ``flexibility mechanisms'' of 
the Kyoto Protocol--(Emissions Trading, Joint Implementation, and the 
Clean Development Mechanism). The Climate Protection case assumes that 
the United States will take steps to ensure that allowances procured 
through these flexibility mechanisms reflect legitimate mitigation 
activity. In particular, we assume that United States restrains its use 
of so-called ``hot air'' allowances, i.e, allowances sold by countries 
that received Kyoto Protocol targets well above their current 
emissions.
    In addition to greenhouse gas emission reductions, the set of 
policies in the Climate Protection case also reduce criteria air 
pollutants that harm human health, cause acid rain and smog, and 
adversely affect agriculture, forests, water resources, and buildings. 
Implementing the policies would significantly reduce energy-related 
emissions as summarized in Table ES. 2. Sulfur oxide emissions would 
decrease the most--by half in 2010 and by nearly 75 percent in 2020. 
The other pollutants are reduced between 7 and 16 percent by 2010, and 
between 17 and 29 percent by 2020, relative to Base case levels in 
those years.

                           Table ES. 2: Impact of policies on air pollutant emissions
----------------------------------------------------------------------------------------------------------------
                                                                               2010                      2020
                                                     1900      2010 Base     Climate     2020 Base     Climate
                                                                  Case      Protection      Case      Protection
----------------------------------------------------------------------------------------------------------------
CO.............................................         65.1         69.8         63.8         71.8         59.8
NOx............................................         21.9         16.5         13.9         16.9         12.0
SO<INF>2</INF>............................................         19.3         12.8          6.2         12.7          3.3
VOC............................................          7.7          5.5          5.1          5.9          4.9
PM<INF>10</INF>...........................................          1.7          1.5          1.3          1.6          1.3
----------------------------------------------------------------------------------------------------------------

    The complete Climate Protection package--including measures to 
reduce energy-related, land-related, and non-carbon greenhouse gas 
emissions, as well as modest purchases of allowances--provides a net 
economic benefit to the United States. It also positively affects 
public health, by reducing emissions of the key air quality-reducing 
pollutants, including sulfur dioxide, nitrogen oxides, carbon monoxide, 
particulates, and volatile organic compounds. By dramatically reducing 
energy consumption, the Climate Protection strategy reduces our 
dependence on insecure energy supplies, while enhancing the standing of 
the United States as a supplier of innovative and environmentally 
superior technologies and practices.
2. Introduction
    The earth's atmosphere now contains more carbon dioxide than at 
anytime over the past several hundred millennia. This precipitous rise 
in the major greenhouse gas, due to the combustion of fossil fuels 
since the dawn of the industrial age and the clearing of forests, has 
warmed the globe and produced climatic changes. What further changes 
will occur over the coming decades depends on how society chooses to 
respond to the threat of a dangerously disrupted climate. A concerted 
global effort to shift to energy-efficient technologies, carbon-free 
sources of energy and sustainable land-use practices, could keep future 
climate change to relatively modest levels. If, on the other hand, 
nations continue to grow and consume without limiting GHG emissions, 
future climate change could be catastrophic.
    Dramatic climate change could unleash a range of dangerous 
physical, ecological, economic and social disruptions that would 
seriously undermine the natural environment and human societies for 
generations to come. Fortunately, a variety of effective policies, 
which have already been demonstrated, would mobilize current and new 
technologies, practices and resources to meet the challenge of climate 
protection. Strong and sustained action to reduce the risk of climate 
change could also reap additional benefits, such as reducing other air 
pollutants and saving money, plus help to usher in a new technological 
and institutional renaissance consistent with the goals of sustainable 
development. Here we focus on the U.S., which emits almost one-fourth 
of global carbon dioxide emissions. As a Nation, we have both the 
responsibility and the capability to take the lead in climate 
protection, and can directly benefit from actions taken. Recently, 
however, the Bush Administration has gravely disappointed the 
international community, proposing an energy strategy that is devoid of 
significant steps to protect the climate.
    This report presents a study of policies and measures through which 
the United States could dramatically reduce its greenhouse gas 
emissions over the next two decades, while spurring technological 
innovation, reducing pollution, and improving energy security. The 
study is the latest in a series to which Tellus Institute has 
contributed, dating back to 1990, which have shown the economic and 
environmental benefits of energy efficiency and renewable energy 
resources. It updates and refines America's Global Warming Solutions 
(1999), which found that annual carbon emissions could be reduced to 14 
percent below 1990 levels by 2010, with net economic benefits and 
reductions in air pollution.
    Unfortunately, since that study, and indeed over the past decade 
since the Framework Convention on Climate Change was ratified by the 
U.S., the promise of these technologies and resources has gone largely 
unfulfilled, and little has been done to stem the tide of rapidly 
growing energy use and carbon emissions. This delay and paucity of 
action has rendered even more difficult the goal of reaching our Kyoto 
Protocol emissions target of 7 percent below 1990 levels by 2010. 
Nonetheless, the present study shows the substantial carbon reduction 
and other benefits that could still be achieved by 2010 with sensible 
policies and measures, even with this delayed start, and even greater 
benefits over the following decade. The policy and technological 
momentum established through 2020 would set the stage for the further 
reductions needed over the longer term to ensure climate stabilization.
The Risk of Climate Change
    The world's community of climate scientists has reached the 
consensus that human activities are disrupting the Earth's climate 
(WGI, SPM, 2001; NAS, 2001; Int'l Academies of Science, 2001). Global 
emissions of CO<INF>2</INF> have steadily risen since the dawn of the 
industrial age, and now amount to about 6 billion tons of carbon 
released annually from fossil fuel combustion and 1 billion tons 
annually from land-use changes (mainly burning and decomposition of 
forest biomass). Without concerted efforts to curb emissions, 
atmospheric carbon dioxide levels would be driven inexorably higher by 
a growing global population pursuing a conventional approach to 
economic development.
    While it is impossible to predict with precision how much carbon 
dioxide we will be emitting in the future, in a business-as-usual 
scenario annual emissions would roughly triple by the end of the 
century. By that time, the atmospheric concentration of carbon dioxide 
would have risen to three times pre-industrial levels (IPCC WGI, 2001). 
The climatic impacts of these rising emissions could be dramatic. 
Across a range of different plausible emissions futures explored by the 
IPCC, global average temperatures are calculated to rise between 3 to 
10 degrees Fahrenheit (1.5 to 6 degrees Centigrade), with even greater 
increases in some regions (IPCC 2001). Such temperature changes would 
reflect a profound transformation of the Earth's climate system, of the 
natural systems that depend upon it and, potentially, of the human 
societies that caused the changes.
    The potential consequences of such climate change are myriad and 
far-reaching. Sea level could rise between 3.5 to 35 inches (9--88 
centimeters) (IPCC WGI, 2001), with severe implications for coastal and 
island ecosystems and their human communities. Hundreds of millions of 
people in the United States and abroad live in coastal regions that 
would be inundated by a 17 inch (44 cm) rise in sea level. Most of 
these regions are in developing countries that can scarcely afford to 
expend resources on building dikes and resettling communities. Climate 
disruption would also entail more frequent, prolonged, and intense 
extreme weather events, including storms and droughts, the timing, 
conditions and character of which would remain unpredictable.
    Under the stresses courted by continuing current energy practices, 
climate and ecological systems could undergo very large and 
irreversible changes, such as a shift in the major ocean currents. 
Global warming itself could increase the rate of greenhouse gas 
accumulation, uncontrollably accelerating global warming and its 
impacts. For example, a thawing of the arctic tundra could release 
methane at rates far beyond today's anthropogenic rates, and a warming 
of the oceans could shift them from a net sink to a net source of 
carbon dioxide.
    Moreover, large and irreversible changes could occur very rapidly. 
Recent scientific evidence from pre-historic ice cores shows that major 
climate changes have occurred on the time scale of about a decade 
(Schneider 1998; Severinghaus et al. 1998). Rapid change could cause 
additional ecological and social disruptions, limiting our ability to 
adapt. This could render belated attempts to mitigate climate change 
more hurried, more costly, less effective, or too late. Consequently, 
early and sustained action, across many fronts, is needed to effect the 
technological, institutional and economic transitions to protect global 
climate and the ecological and social systems that depend on climate 
stability.
Protecting the Climate
    The carbon dioxide already released by human activities will linger 
in the atmosphere for a hundred years or so. This carbon has already 
changed the climate, and will continue to do so as long as it remains 
in the atmosphere. But the degree of climate change to which we're 
already committed pales in comparison to the disruption that humankind 
would wreak if it continues to recklessly emit more carbon.
    An aggressive strategy to curb emissions might limit warming to 
less than 2 degrees F over the next century (on top of the 1.0 degrees 
C that has already occurred over the past century). A temperature 
increase of about 0.2 degrees F per decade would still exceed natural 
variability, but would occur gradually enough to allow many, though not 
all, ecosystems to adapt (Rijsberman and Swart, 1990). To be sure, this 
goal would not entirely eliminate the risks of disruptive climate 
change. Warming in some areas would significantly exceed 2 degrees F, 
the rising sea level would inundate some coastal areas, and changing 
rainfall patterns could make some regions more prone to drought or 
floods. A more ambitious stabilization target might well be warranted, 
but we suggest this goal as an illustration of what might be an 
environmentally acceptable and practically achievable climate 
protection trajectory.
    To achieve this goal, CO<INF>2</INF> concentrations would have to 
be stabilized at approximately 450 ppm, which is about 60 percent above 
pre-industrial concentrations. This would require keeping total global 
carbon emissions within a budget of 500 billion tons of carbon over the 
course of the 21st century, whereas a business-as-usual trajectory 
would have us emitting about 1,400 billion tons. Annual global carbon 
emissions from fossil fuels would have to be at least halved by the end 
of the century, from today's 6 billion tons/yr to less than 3 billion 
tons/yr, and deforestation would need to be halted, in contrast to a 
business-as-usual trajectory which grows to 20 billion tons/yr. With a 
growing global population, this implies a decrease in the annual per 
capita emissions from today's 1 ton to about 0.25 tons, whereas the 
business-as-usual per capita emissions grow to almost 2 tons. Figure 
2.1, which shows these two radically different emissions trajectories, 
conveys the ambitiousness of this target.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 2.1: Global carbon emissions from fossil fuel combustion (1890-
     2100)--Business-as-usual trajectory (IPCC IS92a scenario) and 
            trajectory for climate stabilization at 450 ppm
    The industrialized countries are responsible for about two-thirds 
of global annual carbon, at more than 3 tons per-capita, with the 
United States at 5.5 tons per capita, while on average developing 
countries emit only 0.5 tons per capita. Even if emissions in the 
developing countries were to vanish instantly, implying a nightmarish 
devolution of their economies, the industrialized world would still 
need to almost halve its emissions in order to protect the climate.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Figure 2.2: Carbon emissions for stabilization of GHG concentrations at 
     450 ppm, broken out by developing and industrialized countries
    Figure 2.2 shows the global carbon trajectory for stabilization at 
450 ppm, as shown in Figure 2.1, broken out into emission paths for 
both the industrialized and developing countries. In this illustrative 
allocation, emissions converge to equal per capita emissions (?0.25 tC 
per capita) by the end of the 21st century. Clearly, it is essential 
that the industrialized countries begin early and continue steadily to 
decrease their emissions on a trajectory to meet these climate 
protection requirements. Industrialized countries on the whole would 
have to roughly reduce their per capita emissions ten-fold, and the 
United States in particular would have to reduce by more than a factor 
of twenty.
    Emissions from the developing countries could grow in the near 
term, as they undergo economic development and transition toward 
advanced, efficient and low-carbon technologies, and then decline 
rapidly during the latter half of the century. Ultimately, the 
developing countries would need to halve their per capita emissions 
relative to today's levels, notwithstanding the considerable economic 
growth that they are expected to realize over this century. This would 
involve economic development predicated upon use of energy technologies 
and energy resources that would entail a ``leap-frogging'' over the 
fossil-based economic development that has occurred in the 
industrialized countries directly to cleaner energy sources. Such a 
transition would require concerted technology and institutional 
cooperation, with associated financial assistance, among developing and 
industrialized countries.
    Stabilization and equalization would thus be served by a dual 
technological transition in which the industrialized countries can take 
the lead, by demonstrating their commitment to addressing a problem for 
which it bears primary responsibility, and fostering the first wave of 
technological innovation from which both developing and industrialized 
countries could benefit.
The Kyoto Protocol
    Although only a first small step, the Kyoto Protocol offers a 
pivotal opportunity to shift away from the climate-disrupting path down 
which the world is now headed, and onto a climate-protecting path. It 
is well understood that the Kyoto Protocol is the basis for future 
emissions reductions as well. If it enters into force, the Kyoto 
Protocol will legally bind industrialized countries that ratify it to 
specific GHG reduction targets, to be attained during the during the 5 
year ``budget period'' from 2008 to 2012. For the United States, the 
target is 7 percent less than the 1990 emission levels. The limit is 6 
percent for Japan, 0 percent for Russia, and an average of 8 percent 
for the European Union countries. Across all industrialized countries, 
the emissions budget is 5 percent below 1990 emissions rate, whereas 
the business-as-usual emissions rate is projected to increase by 
approximately 20 percent by 2010.
    The Kyoto Protocol offers a number of options to lower the cost of 
meeting their targets. Many of these so-called ``flexibility 
mechanisms'' were included at the request of the United States in 
Kyoto. They allow countries to carry out projects that reduce carbon 
emissions (or enhance carbon absorption) from biological stocks such as 
forests and possibly agricultural land, or can reduce emissions of GHGs 
other than carbon. \4\ Countries can also undertake GHG mitigation 
projects in other countries \5\ and acquire credits for the resulting 
reductions, or can simply purchase excess carbon allowances from 
countries that surpass their targets. \6\
---------------------------------------------------------------------------
     \4\The GHGs that are covered by the Kyoto Protocol include carbon 
dioxide (CO<INF>2</INF>), methane (CH4), nitrous oxide (N2O), 
hydrofluorocarbons (HFCs), perflourocarbons (PFCs), and sulfur 
hexaflouride (SF6).
     \5\''Joint Implementation'' (JI) is the relevant mechanism if the 
host country is an industrialized country with a target, and ``Clean 
Development Mechanism'' (CDM) if the host country is a developing 
country.
     \6\Purchase of allowances is known as ``Emissions Trading''.
---------------------------------------------------------------------------
    However, these flexibility mechanisms should be implemented with 
caution, lest they undermine effectiveness of the Kyoto Protocol. Given 
its modest reduction targets relative to the much deeper reductions 
ultimately needed for climate protection, the main purpose of the 
Protocol is to reduce greenhouse gas emissions by launching a global 
transition in technologies and infrastructure for energy production and 
use. The first budget period should end with a decisive shift away from 
conventional energy investments, real progress in institutional 
learning and technological innovation, and momentum to deepen and 
expand these changes over the longer term. An over-reliance on the 
flexibility mechanisms may permit too slow a start, and too weak a 
signal, to motivate this fundamental transition.
    Excessive use of the flexibility mechanisms could undermine the 
needed transition in several ways. First, the emissions trading system 
is in danger of being severely diluted by cheap carbon allowances from 
the Russian Federation and Ukraine, whose negotiated targets are far 
above the emission levels they will reach by 2010 even without 
reduction efforts. Second, inadequate rules for credits from project-
based mechanisms could generate ``free-rider'' credits that reflect 
inflated estimates of their mitigation value, thereby undermining the 
Protocol's targets. Third, mitigation activities that rely on 
biological sequestration strain our current technical ability to 
reliably measure carbon changes, are based on uncertain science, and 
take pressure off of fossil fuel reduction. Perhaps more importantly, 
institutions are not yet in place to ensure that such projects do not 
harm biodiversity and human communities.
    The attraction and rhetoric of solutions that lie outside the 
borders of the industrialized countries is misguided at this time. To 
be sure, there are important opportunities to help developing countries 
advance along a sustainable, low carbon path. But unfettered use 
overseas options, justified by lower short-term costs for the 
industrialized countries, would be a head-in-the-sand approach to the 
long-term responsibility of climate protection. The quantity of such 
offsets should be limited and their quality guaranteed. Procedures 
should be established to help ensure that the various flexibility 
mechanisms help protect the climate and advance sustainable 
development. These include consistency with local ecological, cultural, 
economic conditions and constraints, guaranteed public participation in 
project design, certification and review, strong ecological and social 
criteria, human and institutional capacity-building goals, strong and 
equitable relationships for technology cooperation, and acceptable 
procedures for monitoring, verification and accreditation of offset 
actions and transactions. Until then it is premature to rely on the CDM 
for more than a very small part of the required emissions reductions.
    If the United States relies too heavily on the flexibility 
mechanisms, it could forego opportunities to reap the co-benefits of 
decreasing carbon emissions at home. These include the reduced health 
and ecological damages resulting from decreased emissions of mercury, 
fine particulates and other pollutants, and the improvements in 
technologies, skills and productivity accompanying deployment and use 
of more advanced technologies and practices. It could also find itself 
in a poorer position to meet the stricter emissions reduction 
commitments expected for subsequent budget periods. The Nation could 
become a follower rather than a leader in advanced technologies in 
domestic and world markets. Thus, it could miss the opportunity 
provided by the Kyoto Protocol for a national technological and 
economic ``renaissance'' with cleaner energy, processes and products in 
the coming decades.
3. Policies
    This study examines a broad set of national policies that would 
increase energy efficiency, accelerate the adoption of renewable energy 
technologies, and shift to less carbon-intensive fossil fuels. This 
policy package contrasts sharply with the Bush Administration's energy 
strategy, which heavily focuses on fossil fuels and lacks any 
significant effort to protect the climate. The policies address major 
areas of energy use in the buildings, industrial, transport, and 
electrical sectors. Analyses of the investment costs and energy savings 
of policies to promote energy efficiency and co-generation in the 
residential, commercial, and industrial sectors were taken primarily 
from the American Council for an Energy Efficient Economy (1999; 2001).
    Below we group these policies into the particular sector where they 
take effect, and describe the key assumptions made concerning the 
technological impacts of the individual policies. Unless otherwise 
indicated, each of the policies is assumed to start in 2003.
    As explained further in the methodology discussion in the next 
section, we adapted the Energy Information Administration's 2001 
Reference Case Forecast (EIA 2001) to create a slightly revised ``base 
case.'' Our policies and assumptions build on those included in this 
base case forecast (i.e., we avoid taking credit for emissions 
reductions, costs, or savings already included in the EIA 2001 
Reference Case). When taken together, the policies described in this 
section represent a Climate Protection Scenario that the United States 
could pursue to achieve significant carbon reductions.
3.1. Policies in the Buildings and Industrial Sectors
    Carbon emissions from fuel combustion in the buildings (including 
both residential and commercial) sector account for about 10 percent of 
U.S. greenhouse gas emissions, while emissions from the industrial 
sector account for another 20 percent. When emissions associated with 
the electricity consumed are counted, these levels reaches over 35 
percent for buildings and 30 percent for industry. We analyzed a set of 
policies that include new building codes, new appliance standards, tax 
incentives for the purchase of high efficiency products, a national 
public benefits fund, expanded research and development, voluntary 
agreements and support for combined heat and power.
Building codes
    Building energy codes require all new residential and commercial 
buildings to be built to a minimum level of energy efficiency that is 
cost-effective and technically feasible. ``Good practice'' residential 
energy codes, defined as the 1992 (or a more recent) version of the 
Model Energy Code (now known as the International Energy Conservation 
Code), have been adopted by 32 States (BCAP 1999). ``Good practice'' 
commercial energy codes, defined as the ASHRAE 90.1 model standard, 
have been adopted by 29 States (BCAP 1999). However, the Energy Policy 
Act of 1992 (EPAct) requires all States to adopt a commercial building 
code that meets or exceeds ASHRAE 90.1, and requires all States to 
consider upgrading their residential code to meet or exceed the 1992 
Model Energy Code.
    This policy assumes that DOE enforces the commercial building code 
requirement in EPAct and that States comply. We also assume that 
relevant States upgrade their residential energy code to either the 
1995 or 1998 Model Energy Code either voluntarily or through the 
adoption of a new Federal requirement. Furthermore, we assume that the 
model energy codes are significantly improved during the next decade 
and that all States adopt mandatory codes that go beyond current ``good 
practice'' by 2010. To quantify the impact of these changes, we assume 
a 20 percent energy savings in heating and cooling in buildings in half 
of new homes and commercial buildings.
New Appliance and Equipment Efficiency Standards
    The track record for electricity efficiency standards is 
impressive, starting with the National Appliance Energy Conservation 
Act of 1987 and continuing through the various updates that were 
enacted in early 2001 for washers, water heaters, and central air 
conditioners. These standards have removed the most inefficient models 
from the market, while still leaving consumers with a diversity of 
products. An analysis of Department of Energy figures by the American 
Council for an Energy Efficient Economy, estimates nearly 8 percent of 
annual electricity consumption will be saved in 2020 due to standards 
already enacted (Geller et al. 2001). However, many appliance 
efficiency standards haven't kept pace with either legal updating 
requirements or technological advances. The Department of Energy is 
many years behind its legal obligation to regularly upgrade standards 
for certain appliances to the ``maximum level of energy efficiency that 
is technically feasible and economically justified.''
    In this study, we assume that the government upgrades existing 
standards or introduces new standards for several key appliances and 
equipment types: distribution transformers, commercial air conditioning 
systems, residential heating systems, commercial refrigerators, exit 
signs, traffic lights, torchiere lighting fixtures, ice makers, and 
standby power consumption for consumer electronics. We also assume the 
higher energy efficiency standards for residential central air 
conditioning and heat pumps than was allowed by the Bush 
Administration. These are all measures that can be taken in the near 
term, based on technologies that are available and costeffective.
Tax incentives
    A wide range of advanced energy-efficient products have been proven 
and commercialized, but have not yet become firmly established in the 
marketplace. A major reason for this is that conventional technologies 
get ``locked-in''; they benefit from economies of scale, consumer 
awareness and familiarity, and already existing infrastructure that 
make them more able to attract consumers, while alternatives are 
overlooked though they could be financially viable once mass-produced 
and widely demonstrated. Initial, temporary tax incentives can help 
usher advanced alternatives into the market place, which--once 
established--can proceed to gain significant market share without 
further subsidy.
    In this study, we consider initial tax incentives for a number of 
products. For consumer appliances, we considered a tax incentive of $50 
to $100 per unit. For new homes that are at least 30 percent more 
efficient that the Model Energy Code, we considered an incentive of up 
to $2,000 per home; for commercial buildings with at least 50 percent 
reduction in heating and cooling costs relative to applicable building 
codes, we applied an incentive equal to $2.25 per square foot. 
Regarding building equipment such as efficient furnaces, fuel cell 
power systems, gas-fired heat pumps, and electric heat pump water 
heaters, we considered a 20 percent investment tax credit. Each of 
these incentives would be introduced with a sunset clause, terminating 
them or phasing them out in approximately 5 years, so as to avoid their 
becoming permanent subsidies. Versions of all of the tax incentives 
considered here have already been introduced into bills before the 
Senate and/or House. \7\
---------------------------------------------------------------------------
     \7\The bills include those introduced by Senators Murkowski and 
Lott (S. 389); Bingaman and Daschle (S. 596), Smith (S. 207), Hatch (S. 
760), and Representative Nussle (H.R. 1316).
---------------------------------------------------------------------------
National Public Benefits Fund
    Electric utilities have historically funded programs to encourage 
more efficient energy-using equipment, assist low-income families with 
home weatherization, commercialize renewables, and undertake research 
and development (R&D). Such programs have typically achieved 
electricity bill savings for households and businesses that are roughly 
twice the program costs (Nadel and Kushler, 2000). Despite the proven 
effectiveness of such technologies and programs, increasing price 
competition and restructuring have caused utilities to reduce these 
``public benefit'' expenditures over the past several years. In order 
to preserve such programs, 15 States have instituted public benefits 
funds that are financed by a small surcharge on all power delivered to 
consumers.
    This study's policy package includes a national level public 
benefits fund (PBF) fashioned after the proposal introduced by Sen. 
Jeffords (S. 1369) and Rep. Pallone (H. 2569) in the the 106th 
Congress. The PBF would levy a surcharge of 0.2 cents per kilowatt-hour 
on all electricity sold, costing the typical residential consumer about 
$1 per month. This Federal fund would provide matching funds for States 
for approved public benefits expenditures. In this study, the PBF is 
allocated to several different programs directed at improvements in 
lighting, air conditioning, motors, and other cost-effective energy 
efficiency improvements in electricity-using equipment.
Expand Federal funding for Research and Development in Energy Efficient 
        Technologies
    Federal R&D funding for energy efficiency has been a spectacularly 
cost-effective investment. The DOE has estimated that the energy 
savings from 20 of its energy efficiency R&D programs has been roughly 
$30 billion so far--more than three times the Federal appropriation for 
the entire energy efficiency and renewables R&D budget throughout the 
1990's (EERE, 2000). At a time when energy issues are in the forefront 
of the national debates, such R&D efforts should be increased and 
should be thought of as a remedy for the real energy crises engendered 
by continued fossil fuel dependence--climate change, environmental 
damage, and diminishing fossil fuel supplies.
    Tremendous opportunities exist for further progress in material-
processing technologies, manufacturing processing, electric motors, 
windows, building shells, lighting, heating/cooling systems, and super-
insulation, for example. The EPA's Energy Star programs have also saved 
large amounts of energy, building on the achievements of R&D efforts 
and ushering efficient products into the marketplace. By certifying and 
labeling efficient lighting, office equipment, homes and offices, 
Energy Star has helped foster a market transformation toward much more 
efficient products and buildings. Currently, roughly 80 percent of 
personal computers, 95 percent of monitors, 99 percent of printers, and 
65 percent of copiers sold are Energy Star certified (EPA, 2001; Brown 
et al, 2001). In light of these successes, EPA should be allocated the 
funds to broaden the scope of its Energy Star program, expanding to 
other products (refrigerators, motors) and building sectors (hotels, 
retailers), and the vast market of existing buildings that could be 
retrofitted. In this study, we assume that increased funding to expand 
research and development efforts in industry (e.g., motors) buildings 
(e.g., advanced heating/cooling), and transport (e.g., more fuel 
efficient cars and trucks) will lead to more energy-savings products 
becoming commercially available.
Industrial Energy Efficiency through Intensity Targets
    There is remarkable quantity of untapped, cost-effective energy 
efficiency potential in today's industrial facilities (Elliott 1994), 
and some corporate managers have shown impressive initiative in moving 
to realize that potential. In 1995, Johnson and Johnson set a goal of 
reducing its energy costs 10 percent by 2000 through adoption of ``best 
practices'' in its 96 U.S. facilities. Building on this work, in 2000 
Johnson & Johnson pledged to reduce global warming gases by 7 percent 
below 1990 levels by the year 2010, with an interim goal of 4 percent 
below 1990 levels by 2005.
    In 1998, British Petroleum announced it would voluntarily reduce 
its carbon emissions to 10 percent below 1990 levels by 2010, 
representing almost a 40 percent reduction from projected emissions 
levels in 2010 given ``business-as-usual'' emissions growth (Romm 
1999). And in September 1999, DuPont announced it would reduce its GHG 
emissions worldwide by 65 percent relative to 1990 levels, while 
holding total energy flat and increasing renewable energy resources to 
10 percent of total energy inputs, by 2010. DuPont appears to be on 
track for achieving earlier commitments to reduce energy intensity 15 
percent and total GHG emissions 50 percent, relative to 1990 levels, by 
2000 (Romm 1999). Companies as diverse as Alcoa, Kodak, Polaroid, IBM 
and Royal Dutch Shell also find it cost-effective to establish 
worldwide greenhouse gas reduction targets. The practices these 
companies are developing make them better prepared for an economy that 
places a value on carbon reductions.
    There is substantial potential for cost-effective efficiency 
improvement in both energy-intensive and non-energy intensive 
industries (Elliott 1994). For example, an in-depth analysis of 49 
specific energy efficiency technologies for the iron and steel industry 
found a total cost-effective energy savings potential of 18 percent 
(Worrell, Martin, and Price 1999).
    We consider in this study Federal initiatives to motivate and 
assist industry to identify and exploit energy efficiency 
opportunities. Government agencies can support industry by providing 
technical and financial assistance, and by expanding Federal R&D and 
demonstration programs.
    In addition to these carrots, government may need to brandish a 
stick in order to induce a large fraction of industries to make serious 
energy efficiency commitments. If industry does not respond to the 
Federal initiatives at a level sufficient to meet certain energy 
efficiency targets, a mandatory, binding energy intensity standard 
should be triggered to ensure the required targets are attained.
Support for Cogeneration
    Cogeneration (or, combined heat and power--CHP) is a super-
efficient means of co-producing two energy-intensive products that are 
usually produced separately--heat and power. The technical and 
economical value of CHP has been widely demonstrated, and some European 
countries rely heavily on CHP for producing power and providing heat to 
industries, businesses, and households. The thermal energy produced in 
co-generation can also be used for (building and process) cooling or to 
provide mechanical power.
    While CHP already provides about 9 percent of all electricity in 
the United States, there are considerable barriers to its wider cost-
effective implementation (Elliott and Spurr, 1999). Environmental 
standards should be refined to recognize the greater overall efficiency 
of CHP systems, for example by assessing facility emissions on the 
basis of fuel input, rather than useful energy output. Non-uniform tax 
standards discourage CHP implementation in certain facilities. 
Moreover, utility practices are generally highly hostile to prospective 
CHP operators, through discriminatory pricing and burdensome technical 
requirements and costs for connecting to the grid.
    In this study, we consider the impact of introducing policies that 
would establish a standard permitting process, uniform tax treatment, 
accurate environmental standards, and fair access to electricity 
consumers through the grid. Such measures would help to unleash a 
significant portion of the enormous potential for CHP. In this study we 
assumed 50 GW of new CHP capacity by 2010, and an additional 95 GW 
between 2011 and 2020. With electricity demand reduced by the various 
energy efficiency policies adopted in this study, co-generated 
electricity reaches 8 percent percent of total remaining electricity 
requirements in 2010 and 36 percent percent in 2020.
3.2. Policies in the Electric Sector
    A major goal of U.S. energy and climate policy will be to 
dramatically reduce carbon and other pollutant emissions from the 
electric sector, which is responsible for more than one-third of all 
U.S. greenhouse gas emissions. We analyzed a set of policies in the 
electric sector that include standards and mechanisms to help overcome 
existing market barriers to investments in technologies that can reduce 
emissions. Three major policies--a renewable portfolio standard, a cap 
on pollutant emissions, and a carbon cap and trade system--were 
considered as described below.
Renewable Portfolio Standard
    A Renewable Portfolio Standard (RPS) is a flexible, market-oriented 
policy for accelerating the introduction of renewable resources and 
technologies into the electric sector. An RPS sets a schedule for 
establishing a minimum amount of renewable electricity as a fraction of 
total generation, and requires each generator that sells electricity to 
meet the minimum either by producing that amount of renewable 
electricity in its mix or acquiring credits from generators that exceed 
the minimum. The market determines the portfolio of technologies and 
geographic distribution of facilities that meet the target at least 
cost. This is achieved by a trading system that awards credits to 
generators for producing renewable electricity and allows them to sell 
or purchase these credits. Thirteen States--Arizona, Connecticut, 
Hawaii, Iowa, Maine, Massachusetts, Minnesota, Nevada, New Jersey, New 
Mexico, Pennsylvania, Texas, and Wisconsin--already have RPSs, and 
Senator Jeffords introduced a bill in the 106th Congress (S. 1369) to 
establish a national RPS.
    The RPS provides strong incentives for suppliers to design the 
lowest cost, most reliable renewable electricity projects, and to 
identify niche applications and consumers where the projects will have 
the greatest value. It also provides assurance and stability to 
renewable technology vendors, by guaranteeing markets for renewable 
power, allowing them to capture the financial and administrative 
advantages that come with planning in a more stable market environment. 
Yet it still maintains a competitive environment that encourages 
developers to innovate. Finally, by accelerating the deployment of 
renewable technologies and resources, the RPS also accelerates the 
learning and economies of scale that allow renewables to become 
increasingly competitive with conventional technologies. This is 
particularly important, as the demands of climate stabilization in 
coming decades will require more renewable energy than we can deploy in 
the next two decades.
    In this study, we have applied an RPS that starts at a 2 percent 
requirement in 2002, grows to 10 percent in 2010, and to 20 percent in 
2020, after all efficiency policies are included. Wind, solar, 
geothermal, biomass, and landfill gas are eligible renewable sources of 
electricity, but environmental concerns exclude municipal solid waste 
(owing to concerns about toxic emissions from waste-burning plants) and 
large-scale hydro (which also raises environmental concern and need not 
be treated as an emerging energy technology as it already supplies 
nearly 10 percent of the nation's electricity supply).
    As a modest addition to the RPS we provide a subsidy to grid-
connected solar photovoltaic electricity generation. The purpose of 
this subsidy is to introduce a small amount of this technology so that 
it can play a role in the generation mix, seeking to induce technology 
learning, performance improvement and scale economies, and ultimately 
increased fuel diversity and another zero emissions option for the 
longer term. The level is kept small so that costs and price impacts 
are minimal.
Tightening of SO<INF>2</INF> and NOx Emission Regulations
    Acid rain and urban air pollution remain serious problems in the 
United States. The 1990 Clean Air Act Amendments attempted to address 
these problems, by introducing a cap-and-trade system to roughly halve 
the electric sector's SO<INF>2</INF> emissions by 2000, and imposing 
technology-specific standards for NOx emissions. Compliance with the 
SO<INF>2</INF> standard proved markedly cheaper than initially 
expected; initial estimates were mostly based on investments in 
``scrubbers'' but the discovery of large low-sulfur coal reserves in 
the Wyoming basins and a sharp decline in the cost of rail transport 
resulted in lower costs.
    Despite the improvements brought about by the Clean Air Act and its 
Amendments, recent studies have confirmed that SO<INF>2</INF> and NOx 
continue to harm lake and forest ecosystems, decrease agricultural 
productivity and affect public health through its damaging affects on 
urban air quality (Clean Air Task Force, 2000). The Clean Air Act only 
calls for minimal reductions in the cap by 2010 and no reductions after 
that.
    In this study, we tighten the SO<INF>2</INF> cap so as to reduce 
sulfur emissions to roughly 40 percent of current levels by 2010 and 
one third of current levels by 2020. We also impose a cap-and-trade 
system on NOx emissions in the summertime, when NOx contributes more 
severely to photochemical smog. This system expands the current cap and 
trade program, which calls on 19 States to meet a target in 2003 that 
then remains constant, to include all States with a cap that is set 
first in 2003 but decreases in 2010, relative to 1999 levels. The cap 
results in a 25 percent reduction of annual NOx emissions by 2003, and 
a 50 percent reduction by 2010.
Carbon Cap-And-Trade Permit System
    This study introduces a cap-and-trade system for carbon in the 
electric sector; with the cap set to achieve progressively more 
stringent targets over time, starting in 2003 at 2 percent below 
current levels, increasing to 12 percent below current by 2010 and 30 
percent below by 2020. Restricting carbon emissions from electricity 
generation has important co-benefits, including reduced emissions of 
SO<INF>2</INF> and NOx, as discussed above, fine particulate matter, 
which is a known cause of respiratory ailments, and mercury, which is a 
powerful nervous system toxin and already contaminates over 50,000 
lakes and streams in the United States. A progressively more stringent 
target also reduces demand for coal, and hence mining-related pollution 
of streams and degradation of landscapes and terrestrial habitats.
    In the SO<INF>2</INF>, NOx, and CO<INF>2</INF> trading systems, 
permits are distributed through an open auction, and the resulting 
revenues can be returned to households (e.g., through a tax reduction 
or as a rebate back to households). Recent analyses suggest that an 
auction is the most economically efficient way to distribute permits, 
meeting emissions caps at lower cost than allocations based on 
grandfather allowances or equal per kWh allowances (Burtraw, et al. 
2001). Implementing such auctions for the electric sector will also 
clear the way for an economy-wide approach in future years based on 
auctioning. In this study, the price of auctioned carbon permits 
reaches $100 per metric ton carbon.
    While not specifically targeted by the trading programs, the 
operators of the 850 old ``grandfathered'' coal plants built before the 
Clean Air Act of 1970, which emit 3-5 times as much pollution per unit 
of power generated than newer coal power plants, will likely retire 
these plants rather than face the cost of purchase the large amount of 
credits necessary to keep them running. When the Clean Air Act was 
adopted, it was expected that these dirty power plants would eventually 
be retired. However, utilities are continuing to operate these plants 
beyond their design life, and have in fact increased their output over 
the last decade. By subjecting these old plants to the same 
requirements as newer facilities, as has been done or is being 
considered in several States including Massachusetts and Texas, 
operators would be obliged to modernize the old plants or to retire 
them in favor of cleaner electric generation alternatives.
    With a cap and trade system in place for CO<INF>2</INF>, SOx and 
NOx, this scenario reduces multiple emissions from power plants, in a 
manner similar to that adopted in the Four Pollutant Bill currently 
before the House (H.R., 1256) and the Senate (S. 556). The reductions 
in these three pollutants are as deep as those imposed in the Four 
Pollutant bills, and are achieved within a comparable timeframe. (The 
Department of Energy's NEMS model unfortunately does not explicitly 
track mercury, making it impossible to compare the results of this 
study to the mercury requirement in the Four Pollutant Bill. \8\)
---------------------------------------------------------------------------
     \8\On December 15, 2000, the EPA announced that mercury emissions 
need to be reduced, and that regulations will be issued by 2004.
---------------------------------------------------------------------------
3.3. Policies in the Transport Sector
    Another goal of U.S. energy and climate policy will be to reduce 
carbon emissions from the transport sector, which is responsible for 
about one-third of all U.S. greenhouse gas emissions. We analyzed a set 
of policies in the transportation sector that include improved 
efficiency (light duty vehicles, heavy duty trucks and aircraft), a 
full fuel-cycle GHG standard for motor fuels, measures to reduce road 
travel, and high speed rail.
Strengthened CAFE Standards
    Today's cars are governed by fuel economy standards that were set 
in the mid-1970's. The efficiency gains made in meeting those standards 
have been entirely wiped out by increases in population and driving, as 
well as the trend toward gas-guzzling SUVs. When the fuel economy 
standards were implemented, light duty trucks only accounted for about 
20 percent of vehicle sales. Light trucks now account for nearly 50 
percent of new vehicle sales; this has brought down the overall fuel 
economy of the light duty vehicle fleet, which now stands at its lowest 
average fuel economy since 1981. If the fuel economy of new vehicles 
had held at 1981 levels rather than tipping downward, American vehicle 
owners would be importing half a million fewer barrels of oil each day.
    We introduce in this study a strengthened Corporate Average Fuel 
Economy standard for cars and light trucks, along with complementary 
market incentive programs. Specifically, fuel economy standards for new 
cars and light trucks rise from EIA's projected 25.2 mpg for 2001 to 
36.5 mpg in 2010, continuing to 50.5 mpg by 2020. This increase in 
vehicle fuel economy would save by 2020 approximately twice as much oil 
as could be pumped from Arctic National Wildlife Refuge oil field over 
its entire 50-year lifespan (USGS, 2001). \9\ Based on assessments of 
near-term technologies for conventional vehicles, and advanced vehicle 
technologies for the longer-term, we estimate that the 2010 CAFE target 
can be met with an incremental vehicle cost of approximately $855, and 
the 2020 CAFE target with an incremental cost of $1,900. To put these 
incremental costs in perspective, they are two to three times less than 
the fuel savings at the gasoline pump over the vehicle's lifetime. \10\
---------------------------------------------------------------------------
     \9\Assuming a mean value at a market price of oil of $20/barrel.
     \10\Assuming a retail price of gasoline of $1.50/gallon, a 10-year 
life of the vehicle, and 12,000 miles per year.
---------------------------------------------------------------------------
Improving Efficiency of Freight Transport
    We also consider policies to improve fuel economy for heavy duty 
truck freight transport, which accounts for approximately 16 percent of 
all transport energy consumption. A variety of improvements such as 
advanced diesel engines, drag reduction, rolling resistance, load 
reduction strategies, and low friction drivetrains offer opportunities 
to increase the fuel economy of freight trucks. Many of these 
technologies are available today while other technologies like advanced 
diesel and turbine engines have been technically demonstrated but are 
not yet commercially available.
    To accelerate the improvement in heavy duty truck efficiency, we 
have considered measures that expand R&D for heavy duty diesel 
technology, vehicle labeling and promotion, financial incentives to 
stimulate the introduction of new technologies, efficiency standards 
for medium- and heavy-duty trucks, and fuel taxes and user-fees 
calibrated to eliminate the existing subsidies for freight trucking. 
Together, it is estimated that these policies could bring about a fuel 
economy improvement of 6 percent by 2010, and 23 percent by 2020, 
relative to today's trucks.
Improving Efficiency of Air Travel
    Air travel is the quickest growing mode of travel, and far more 
energy intensive than vehicle travel. One passenger mile of air travel 
today requires about 1.7 times as much fuel as vehicle travel. \11\ We 
consider here policies for improving the efficiency of air travel, 
including R&D in efficient aircraft technologies, fuel consumption 
standards, and a revamping of policies that subsidize air travel 
through public investments.
---------------------------------------------------------------------------
     \11\Assuming typical load factors of 0.33 for autos and 0.6 for 
air.
---------------------------------------------------------------------------
    We assume that air travel efficiency improves by 23 percent by 
2010, and 53 percent by 2020. This is in contrast to the Base Case 
where efficiency increases by 9 percent by 2010 and 15 percent by 2020, 
owing to a combination of aircraft efficiency improvements (advanced 
engine types, lightweight composite materials, and advanced 
aerodynamics), increased load factor, and acceleration of air traffic 
management improvements (Lee et el, 2001; OTA, 1994; Interlaboratory 
Working Group, 2000). While we assume that air travel can reach 82 
seat-miles per gallon by 2020 from its current 51, it is 
technologically possible that far greater efficiencies approaching 150 
seatmiles/gal could be achieved, if not in that time period then over 
the longer term. (Alliance to Save Energy et al, 1991).
Greenhouse Gas Standards for Motor Fuels
    Transportation in the United States relies overwhelmingly on 
petroleum-based fuels, making it a major source of GHG emissions. We 
introduce here a full fuel-cycle GHG standard for motor fuels, similar 
in concept to the RPS for the electric sector. The standard is a cap on 
the average GHG emissions from gasoline, and would be made 
progressively more stringent over time. Fuel suppliers would have the 
flexibility to meet the standard on their own or by buying tradable 
credits from other producers of renewable or low-GHG fuel.
    The policy adopted in this study requires a 3 percent reduction in 
the average national GHG emission factor of fuels used in light duty 
vehicles in 2010, increasing to a 7 percent reduction by 2020. The 
policy would be complemented by expanded R&D, market creation programs, 
and financial incentives. Such a program would stimulate the production 
of low-GHG fuels such as cellulosic ethanol and biomass-or solar-based 
hydrogen.
    For this modeling study, we assume that most of the low-GHG fuel is 
provided as cellulosic ethanol, which can be produced from agricultural 
residues, forest and mill wastes, urban wood wastes, and short rotation 
woody crops (Walsh et al 1998; Walsh, 1999). As cellulosic ethanol can 
be co-produced along with electricity, in this study we assume that 
electricity output reaches 10 percent of ethanol output by 2010 and 40 
percent by 2020 (Lynd, 1997). Due to the accelerated development of the 
production technology for cellulosic ethanol, we estimate that the 
price falls to $1.4 per gallon of gasoline equivalent by 2010 and 
remains at that price thereafter (Interlaboratory Working Group, 2000).
Improving Alternative Modes to reduce Vehicle Miles Traveled
    The amount of travel in cars and light duty trucks continues to 
grow due to increasing population and low vehicle occupancy. Between 
1999 and 2020, the rate of growth in vehicle miles traveled is 
projected to increase in the Base Case by about 2 percent per year. The 
overall efficiency of the passenger transportation system can be 
significantly improved through measures that contain the growth in 
vehicle miles traveled through land-use and infrastructure investments 
and pricing reforms to remove implicit subsidies for cars, which are 
very energy intensive.
    We assume that these measures will primarily affect urban passenger 
transportation and result in a shift to higher occupancy vehicles, 
including carpooling, vanpooling, public transportation, and 
telecommuting. We consider that the level of reductions of vehicle 
miles traveled that can be achieved by these measures relative to the 
Base Case are 8 percent by 2010 and 11 percent by 2020.
High Speed Rail
    High speed rail offers an attractive alternative to intercity 
vehicle travel and short distance air travel. In both energy cost and 
travel time, high speed rail may be competitive with air travel for 
trips of roughly 600 miles or less, which account for about one-third 
of domestic air passenger miles traveled. Investments in rail 
facilities for key inter-city routes (such as the Northeast corridor 
between Washington and Boston, the East cost of Florida between Miami 
and Tampa, and the route linking Los Angeles and San Francisco) could 
provide an acceptable alternative and reduce air travel in some of the 
busiest flight corridors (USDOT, 1997).
    High speed rail can achieve practical operating speeds of up to 200 
mph. Prominent examples include the French TGV, the Japanese 
Shinkansen, and the German Intercity Express. An emerging advanced 
transport technology is the maglev system in which magnetic forces lift 
and guide a vehicle over a specially designed guideway. Both Germany 
and Japan are active developers of this technology.
    In this analysis we have taken the DOT's recent estimates of the 
potential high speed rail ridership which, based on projected mode 
shifts from air and automobile travel in several major corridors of the 
United States, reaches about 2 billion passenger miles by 2020 (DOT, 
1997). While this level of HRS ridership provides relatively small 
energy and carbon benefits by 2020, it can be viewed as the first phase 
of a longer-term transition to far greater ridership and more advanced, 
faster and efficient electric and MAGLEV systems in the ensuing 
decades.
4. Methods and Assumptions
    The modeling for this study was based primarily on the National 
Energy Modeling System (NEMS) of the U.S. Department of Energy, Energy 
Information Administration (DOE/EIA) (EIA, 2001). The NEMS model 
version, data and assumptions employed in this study were those of 
EIA's Annual Energy Outlook (EIA 2001), which also formed the basis for 
the Base Case. We refined the NEMS model with advice from EIA, based on 
their ongoing model improvements, and drawing on expert advice from 
colleagues at ACEEE and the Union of Concerned Scientists, the National 
Laboratories and elsewhere. \12\
---------------------------------------------------------------------------
     \12\More detailed discussions of the approach taken for sectoral 
policy analyses upon which this study was based can be found in Energy 
Innovations (EI 1997), the Energy Policy, Special Issue on Climate 
Strategy for the United States (1998), and Bernow et al. (1998 and 
1999).
---------------------------------------------------------------------------
    The NEMS model takes account of the interactions between 
electricity supply and demand (aggregated residential, commercial and 
industrial), taking account of the mix of competitive and still 
regulated pricing in the United States. It accounts for the feedback 
effects between electricity market and power plant construction 
decisions, as well as the links between fuel demands, supplies and 
prices.
    Our use of NEMS for this project focused on the Electricity Market 
Module (EMM), complemented by the Oil and Gas Supply Module (OGSM). The 
EMM starts with the detailed fleet of existing power plants in the 13 
electric sector regions of the U.S, and also represents power imports 
from neighboring Canadian regions. It makes dispatch, construction, 
interregional purchase and retirement decisions based upon the regional 
electricity demands and the cost and performance characteristics of 
existing and new electric supply options, adhering to national 
pollutant caps and any State-level RPS requirements. It also takes 
account of cost reductions of new power plants with increased units in 
operation (learning and scale economies). The OGSM tracks changes in 
prices of natural gas and petroleum fuels based on changes in their 
demand.
    Analyses of the costs and demand impacts of policies to promote 
energy efficiency and cogeneration in the residential, commercial, and 
industrial sectors were taken primarily from American Council for an 
Energy Efficient Economy (ACEEE, 1999; ACEEE, 2001). The electric 
generation, fuel, emissions and monetary savings from these policies 
were obtained using NEMS, to take account of all of the interactive and 
feedback effects described above. NEMS was used also to obtain the 
interactive effects of the policies affecting electricity demand and 
those, such as renewable, carbon and emission standards, which affect 
the electricity supply mix.
    For example, we used information from ACEEE to lower the fuel and 
electricity demand within NEMS based on policies in the demand sectors. 
We ran NEMS to determine the new mix of electricity generation (based 
on changes in both electricity demand and the electricity sector 
policies). This resulted in decreased demand for oil and gas, leading 
to lower prices. NEMS iterates internally between energy supply and 
demand to seek a consistent solution.
    Analyses of the policy impacts in the transportation sector took 
account of vehicle stock turnover, fuel-efficiencies and travel 
indices, and were benchmarked to the structure, data and baseline 
projections of the AEO<INF>2</INF>001. Following assumptions for light 
duty vehicle efficiency in ACEEE (2001) and other sources (DeCicco, 
Ross and An, 2001), we accounted for both autonomous and policy-induced 
vehicle efficiency improvement, shifts between transport modes, and 
changes in demand for transport services.
5. Results
    Carbon dioxide emissions in the United States have been rising over 
the past decade, and now exceed by more than 15 percent the 1990 
emission rate of 1338 MtC/yr (EIA, 2001b). The U.S. Department of 
Energy (EIA, 2001a) business-as-usual scenario projects that these 
emissions will to continue to rise to 1808 MtC/yr in 2010--a 35 percent 
increase above 1990 levels. This is in stark contrast to the emissions 
limit that the United States negotiated at Kyoto--a 7 percent decrease 
below 1990 levels.
5.1. Overview of Results
    Table 5.1 provides summary results on overall energy and carbon 
impacts, pollutant emissions impacts, and economic impacts for the Base 
and Climate Protection cases for 2010 and 2020. The portfolio of 
carbon-reducing policies and measures composed for this Climate 
Protection scenario brings the United States a long way toward meeting 
its Kyoto target, reducing carbon emissions from today's level to 1372 
MtC/yr by 2010--but still 2.5 percent above 1990 levels. Reductions 
continue beyond 2010, and national emissions are reduced to 1087 MtC/yr 
in 2020, well below 1990 levels.

                                          Table 5.1 Summary of results.
----------------------------------------------------------------------------------------------------------------
                                                                               2010                      2020
                                                   1990\13\    2010 Base     Climate     2020 Base     Climate
                                                                  Case      Protection      Case      Protection
----------------------------------------------------------------------------------------------------------------
End-use Energy (Quads).........................         63.9         86.0         76.4         97.2         72.6
 
Primary Energy (Quads).........................         84.6        114.1        101.2        127.0         89.4
 
Renewable Energy (Quads)
    Non-Hydro..................................          3.5          5.0         10.4          5.5         11.0
    Hydro......................................          3.0          3.1          3.1          3.1          3.1
 
Net GHG Emissions (MtCe/yr)....................        1,648        2,204        1,533           --         ----
    Energy Carbon..............................        1,338        1,808        1,372        2,042        1,087
    Land-based Carbon..........................           --           --          -58           --         ----
    Non-CO<INF>2</INF> Gases..............................          310          397          279           --         ----
    International Trade........................           --           --          -60           --         ----
 
Net Savings\14\................................
    Cumulative present value (billion $)                  --           --         $105           --         $576
    Levelized annual (billion $/year)..........           --           --          $13           --          $49
    Levelized annual per household ($/year)....           --           --         $113           --         $375
----------------------------------------------------------------------------------------------------------------
\13\ Under Kyoto, the base year for three of the non-CO<INF>2</INF> GHGs (HFCs, PFCs, SF6) is 1995, not 1990, and the 1995
  levels for these emissions are reported here.
\14\ Savings are in 1999 $. The 2010 savings include $2.3 billion costs per year ($9 billion cumulative through
  2010) of non-energy related measures needed to meet the Kyoto target. Costs are not included in 2020 since
  these measures policies do not extend past 2010.

  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
    Overall, the national policies and measures were estimated to 
achieve an 11 percent reduction in primary energy use by 2010, and a 
nearly 30 percent reduction by 2020, while maintaining the same level 
of energy services to consumers. The use of renewable energy is doubled 
in 2010 relative to the Base case and remains roughly at that level 
through 2020.\15\ The policies would also produce reductions in air 
pollutant emissions owing to reduced fossil fuel consumption and 
greater use of renewable energy. This is most evident for 
SO<INF>2</INF> for which 2010 levels in the Climate Protection case are 
almost half of Base case levels, due in great part to the effect of the 
more stringent cap in the electric sector.
---------------------------------------------------------------------------
     \15\This takes account of the percentage levels required by the 
Jeffords Bill for the electric sector (10 percent renewables by 2010, 
and 20 percent by 2020). However, when this RPS is combined with the 
strong energy efficiency policies of this study, the absolute amount of 
renewables in the electric sector does not increase substantially 
between 2010 and 2020 because the percentage targets have already been 
met. A more aggressive renewables policy for the 2010-2020 period could 
be considered (ACEEE, 1999).
---------------------------------------------------------------------------
    The analysis showed that national savings in energy bills would 
exceed the net incremental investments in more efficient technologies 
and expenditures for low carbon fuels. By 2010, the average savings 
exceed the additional costs of new equipment by $13 billion per year, 
or nearly $113 per household.
5.2. Sectoral Impacts
    Figures 5.1a and 5.1b compare the carbon trajectories for the Base 
and Climate Protection scenarios, and shows the carbon reductions 
obtained by the policies to reduce energy-related carbon emissions. 
Carbon emissions reductions can be reported by where they are emitted 
(i.e., by source, 5.1a) or by the sectors to which the policies are 
directed (i.e., by policy, 5.1b).
    Thus, for example: the refinery emissions reductions owing to 
decreased transportation oil use are attributed to the transport 
policies, while the refinery emissions reductions owing to decreased 
industrial oil use are attributed to the industrial policies; the 
electric generation emissions reductions and emissions increased onsite 
fuel use, owing to increased CHP are attributed to the industrial 
policies.
    The first graph, Figure 5.1a, shows the emissions reductions in the 
sectors of their origin, that is, in which the combustion of fossil 
fuels occurs. Thus, it shows emissions from onsite fossil fuel 
combustion in buildings, industry, transportation and electricity 
production. The largest reductions arise in the electric sector, owing 
to the enduse energy efficiency policies that reduce demand, plus the 
emissions and renewables policies for power supply that change the 
generation mix for electricity generation. Figure 5.1b shows the 
reductions from the various sectoral policies.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Table 5.2 summarizes the cost of saved carbon for each policy for 
2010 and 2020. These costs were computed by summing the incremental 
annualized capital costs, administrative costs, incremental O&M and 
fuel costs, and subtracting O&M and fuel cost savings. A 5-percent 
discount rate was used for both costs and carbon emissions. \16\ 
Overall, the cost of saved carbon for the Climate Protection policy 
package results in net savings of $115/tC in 2010, and $576/tC in 2010. 
The net savings for the demand policies more than offset the 
incremental costs of saved carbon for the electric supply policies. 
Details regarding the impact of the policies within the sectors are 
summarized in the following sections.
---------------------------------------------------------------------------
     \16\Carbon emissions are discounted based on the presumption that 
they will have a commodity value within some form of tradable permits 
regime.
---------------------------------------------------------------------------
Building and Industrial Sectors
    The efficiency improvements in residential and commercial 
buildings, induced through enhanced building codes, strengthened 
standards for appliances and equipment, tax incentives, as well as 
policies to encourage CHP, leads to a decrease in net electricity usage 
of 19 percent by 2010 and nearly 50 percent by 2020. Despite the 
additional natural gas required to fuel CHP in buildings, onsite fuel 
use declines by 3 percent in 2010 and 10 percent in 2020, relative to 
the Base case. The net impact is a decline in carbon emissions by 
nearly one-third in 2010, and two-thirds by 2020, relative to the Base 
case.
    Industrial energy efficiency measures undertaken largely through 
voluntary measures and tax incentives, cause the industrial sector to 
reduce it's direct energy consumption by 9 percent in 2010 and 14 
percent in 2020 in the Climate Protection case relative to the Base 
case. In addition, largely because of the aggressive introduction of 
cogeneration, net electricity consumption is lower dramatically, by 30 
percent in 2010 and 70 percent in 2020. The combined impact of these is 
that carbon emissions due to the industrial sector are lower by 26 
percent in 2010 and 46 percent in 2020, relative to the Base case.

               Table 5.2. Carbon reductions, net costs, and cost per saved carbon in 2010 and 2020
----------------------------------------------------------------------------------------------------------------
                                                           2010                               2020
                                           ---------------------------------------------------------------------
                                                         Cumulative                         Cumulative
                                                          Net Cost    Cost of                Net Cost    Cost of
                                               Carbon     (present     saved      Carbon     (present     saved
                                            Savings MtC/   value)     carbon   Savings MtC/   value)     carbon
                                                 yr        billion    (1999)$       yr        billion    (1999)$
                                                           (1999)$    per tC                  (1999)$    per tC
----------------------------------------------------------------------------------------------------------------
Buildings & Industry Sectors
    Appliance standards...................           29       -$24      -$315           45       -$84      -$256
    Building Codes........................            7        -$5      -$353           13       -$23      -$244
    Voluntary measures....................           61       -$50      -$229           78      -$112      -$179
    Research and design...................           21       -$18      -$257           37       -$53      -$186
    Public Benefits Fund..................           50       -$29      -$224           73      -$101      -$187
    Tax Credits...........................            4        -$4      -$292            7        -$8      -$152
    CHP and DES...........................           21       -$53      -$611           33      -$151     -$554,
        Subtotal..........................          193      -$183      -$301          285      -$533      -$121
 
Electric Sector
    RPS
    NOx/SO<INF>2</INF> Cap and Trade
    Carbon trading                            see below  ..........  ........    see below
        Subtotal..........................          147       $140       $258          180       $258       $188
 
Transport Sector
    Travel Reductions.....................           29       -$50      -$496           37      -$126      -$495
    LDV efficiency improvements...........           38       -$19      -$270          136      -$149      -$296
    HDV efficiency improvements...........            8        -$3      -$179           33       -$22      -$214
    Aircraft efficiency improvements......           10        -$3      -$106           28       -$14      -$129
    Greenhouse Gas Standards..............           11         $4       $136           22        $11       $99,
        Subtotal..........................           95       -$71      -$283          255      -$301     -$279,
        TOTAL.............................          436      -$114       -$82          721      -$576      -$124
----------------------------------------------------------------------------------------------------------------

    Across both sectors, the policies result in combined fuel and 
electricity savings of 9.6 quads in 2010 and 24.6 quads by 2020. The 
cumulative investment in efficiency measures to achieve these savings 
is $80 billion by 2010 and $365 billion by 2020 (discounted 1999$).
Electric Sector
    The policies in the buildings and industrial sectors lead to major 
reductions in the total amount of electricity required from the 
nation's power stations. This impact is illustrated in Figure 5.2a and 
shows that energy efficiency measures entirely displace growth in 
electricity demand after 2005. Relative to today's level, electricity 
demand declines 15 percent by 2010 and 35 percent by 2020.
    In addition to this reduced demand for electricity, the mix of 
fuels used to generate electricity changes dramatically, as shown in 
Figure 5.2b. The electric sector policies shift the generation mix away 
from a heavy reliance on coal, and avoid the rapid buildup of natural 
gas generation, by relying much more on renewable energy and, 
especially, cogeneration. Cogeneration grows from roughly 300 TWh today 
to 660 TWh in 2010, and 1260 in 2020, whereas in the Base case 
cogeneration increases modestly to 380 TWh in 2010 and 440 TWh in 2020. 
Non-hydro renewable energy consumption increases almost five times by 
2010 over the Base case, and remains roughly at this level through 
2020.
    While effective at reducing carbon emissions, the electric sector 
policies do so at a net economic cost, increasing the average unit cost 
of electricity by about 2 cents / kWh in 2010. This effect diminishes 
over time as the electric sector is able to respond to the new policies 
and electricity demand reductions lead to fewer new power plants; by 
2020, the electricity price is only about 1 cent / kWh higher than the 
base case. This price increase primarily reflects the fact that 
continued operation of existing coal plants, and construction and 
operation of new ones, remain economically attractive in the emerging 
price competitive restructured industry. In part, this is because the 
use of coal for electricity generation doesn't include environmental 
externalities.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    By 2010, a total of 4.3 quads of fossil fuel reductions are 
achieved at power stations, and 6.5 quads by 2020. The cumulative 
investment to achieve these savings and greater utilization of 
renewable energy is $166 billion by 2010 and $333 billion by 2020 
(discounted 1999$). Although the costs per unit of electricity 
increase, measures for demand-side efficiency lead to an overall 
decrease in endusers' electricity bills, and in the overall costs of 
electricity services.
Transportation
    The vehicle efficiency and transportation demand management 
initiatives in the Climate Protection case result in energy savings of 
4.6 quads in 2010, and 12.6 quads by 2020 (12 percent in 2010 and 28 
percent in 2020, respectively, relative to the Base case). Carbon 
emissions fall slightly more relative to the base case (13 percent in 
2010 and 31 percent in 2020) due to the small shift to less carbon-
intensive fuels (specifically, cellulosic ethanol). By 2010, ethanol is 
contributing about 2 percent of transport fuel demand, and 4 percent in 
2020. As in other biomass-intensive industries, this enables the co-
production of electricity, thereby increasing the carbon benefits of 
this measure to the extent that it displaces fossil-fuel derived 
electricity. Reduced fuel production also adds to the carbon benefits, 
because it reduces emissions from refineries.
    The cumulative investment to achieve these savings and greater 
utilization of renewable energy is $52 billion by 2010 and $213 billion 
by 2020 (discounted 1999$). The transport efficiency measures result in 
net savings, because fuel cost savings offset the slight increase in 
investment costs. These net savings more than offset the cost of the 
transportation fuel carbon content standard--which is the only net-cost 
transportation policy considered here. The overall net economic benefit 
achieved by the entire set of transportation policies provides an 
opportunity to pursue the carbon content standard, which begins a 
process of progressive technological improvement that is a critical 
element of obtaining the much deeper carbon emissions reductions in the 
transport sector needed later.
5.3. Air Pollution Reductions
    A variety of air pollutants, associated with the use of fossil 
fuels, can cause or exacerbate health problems and damage the 
environment. Reducing use of fossil fuels would reap important local 
health benefits by lowering the amount of air pollutants inhaled. 
Recent scientific findings confirm that pollutants such as fine 
particulates, carbon monoxide, ozone (formed by a mix of volatile 
organic compounds and nitrogen oxides in presence of sunlight) can lead 
to health damages, including premature death. Research shows that small 
children and the elderly are particularly at risk from these emissions 
(Dockery et al., 1993; Schwartz and Dockery, 1992).
    The policies would reduce national, regional and local pollution, 
owing to reduced fossil fuel use, providing important environmental 
benefits and health benefits, especially for small children and the 
elderly. Table 5.3 summarizes the impacts of the policies on criteria 
air pollutant emissions. Sulfur-dioxide emissions are about 52 percent 
lower in 2010 than the Base case, and about 68 percent below 1990 
levels. Nitrogen oxides are 16 percent lower in 2010, and about 37 
percent below 1990 levels. Particulates are about 13 percent lower in 
2010, and about 24 percent below 1990 levels. Carbon monoxide emissions 
are about 9 percent lower in 2010, and about 2 percent below 1990 
levels. Finally, volatile organic compounds are about 7 percent lower 
in 2010, and about 33 percent below 1990 levels.

                            Table 5.3: Impact of policies on air pollutant emissions
----------------------------------------------------------------------------------------------------------------
                                                                               2010                      2020
                                                               2010 Base     Climate     2020 Base     Climate
                                                                  Case      Protection      Case      Protection
----------------------------------------------------------------------------------------------------------------
CO.............................................         65.1         69.8         63.8         71.8         59.8
NOx............................................         21.9         16.5         13.9         16.9         12.0
SO<INF>2</INF>............................................         19.3         12.8          6.2         12.7          3.3
VOC............................................          7.7          5.5          5.1          5.9          4.9
PM<INF>10</INF>...........................................          1.7          1.5          1.3          1.6          1.3
----------------------------------------------------------------------------------------------------------------

    Figure 5.3 shows the impacts of the Climate Protection policies 
over time. The large reductions in particulates emissions arise from 
the substantial decrease in coal generation in the policy cases. 
Sulfur-dioxide decreases in the baseline projections arising from the 
cap/trade provisions of the 1990 Clean Air Act Amendments, are 
augmented by the policies. Similarly, baseline declines in nitrogen 
oxides, volatile organic compounds and carbon monoxide, which arise 
from tailpipe emissions standards as new cars enter the fleet, are 
augmented by the policies that affect vehicle travel patterns.
    The reductions in nitrogen, sulfur, and carbon are similar to those 
introduced in the Four Pollutant Bill currently before the House and 
the Senate. The Climate Protection scenario achieves the required 
levels of reduction a few years earlier (for carbon) or later (for 
nitrogen and sulfur) than the Four Pollutant Bill's 2007 target date, 
with substantially deeper reductions continuing thereafter.
5.4. Economic Impacts
    The portfolio of policies and measures considered here is a very 
aggressive package that goes a long way toward meeting the U.S. Kyoto 
Protocol obligation and continues to reduce emissions beyond the 
initial target period. Despite the ambitiousness of this package and 
the impressive carbon impacts, it would bring net economic benefits to 
the United States.
    Figure 5.4 shows the benefits and costs at similar levels up to 
2010 but benefits significantly outpacing costs in later years, 
reflecting in part the longer term benefits of reduced costs as new 
technologies are commercialized and as the system adjusts to the new 
policies. The costs derive from additional investments in more 
efficient lighting, high efficiency motors, more efficient automobiles, 
and other technologies that reduce the reliance on high carbon fuels. 
The savings derive from the avoided fuel costs. Both the additional 
investment and the net savings create additional income and jobs in the 
industries and services (and their suppliers) in which these funds are 
spent.
    Figures 5.5 (demand side policies) and 5.6 (supply side policies) 
provide additional details regarding the costs effectiveness of the 
policies in 2010 and 2020. These figure indicate the allocation of 
costs and benefits between equipment investments and fuel savings and 
between demand and supply sectors. The policies in the demand sector, 
where large savings exist for energy efficiency measures, are very 
cost-effective, and yield substantial net benefits. Fuel and O&M 
savings are over 3 times the investment costs the in 2010 and about two 
and half times in 2020, yielding cumulative discounted net benefits of 
$259 billion and $844 billion, respectively, in those years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    On the other hand, the supply sector policies are not cost-
effective on their own and result in net costs. These costs, in 
capital, fuel, and O&M, are due to moving from coal generation to 
cleaner fuels like renewables and natural gas. The result is that 
cumulative discounted net costs for electric sector policies reach of 
$144 billion in 2010 and $268 billion in 2020.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    When all policies are combined, the cumulative savings exceed the 
costs by $114 billion in 2010, and by 2020 the net benefits amount to 
approximately $576 billion. While the savings estimated here are 
significant, they are relatively small in comparison to overall 
economic activity. For instance, the annual net savings in 2010 of $48 
billion is a small fraction of the $13.2 trillion projected GDP in that 
year.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

6. Achieving Kyoto
    The foregoing analysis addressed policies to curb emissions of 
carbon dioxide from energy use in the U.S. Energy-related 
CO<INF>2</INF> emissions are the predominant source of U.S. greenhouse 
gas emissions for the foreseeable future, and their reduction is the 
central and ultimate challenge for protecting the climate. However, 
because of its delayed and weak emissions mitigation policies 
heretofore, and delayed ratification of the Kyoto Protocol, the United 
States may not be able to rely solely on energy sector policies and 
technologies to meet its Kyoto obligation of emissions 7 percent 
reduction below 1990 levels with no net economic cost. As our analysis 
has shown, such efforts, if aggressively pursued, would slow our growth 
in energy sector CO<INF>2</INF> emissions from a projected 35 percent 
to 2.5 percent above 1990 levels by 2010 and still achieve a small net 
economic benefit. This would be a major accomplishment, but would still 
leave us 128 MtC/yr short of achieving a target of 1244 MtC/yr by 2010, 
if the Kyoto target were confined only to the domestic energy sector. A 
tighter carbon cap for the electric sector could increase domestic 
energy-related emission reductions to meet the Kyoto requirement, but 
this would incur incremental costs that could eliminate the net benefit 
and lead to a modest overall net cost.
    Of course, there is more to the Kyoto agreement. The Kyoto targets 
cover six gases--methane (CH4), nitrous oxide (N2O), perfluorocarbons 
(PFCs), hydrofluorocarbons (HFCs), sulfur hexafluoride (SF6) and carbon 
dioxide (CO<INF>2</INF>) . The use of these gases is currently growing, 
due to the ongoing substitution of ozone depleting substances (ODS) 
with HFCs, and to a lesser extent, to growth in CH4 emissions from 
livestock and coal and natural gas systems, in N20 from fertilizer use, 
and in PFC emissions from semiconductor manufacture (EPA, 2000).
    The U.S. commitment requires emissions of all six gases, in 
aggregate, to be reduced to 7 percent below their baseline levels. \17\ 
When all of the six ``Kyoto gases'' are considered, baseyear emissions 
amount to 1680 MtCe/yr, making the--7 percent Kyoto reduction target 
equal to 1533 MtCe/yr, as shown in the third column of Figure 6.1. The 
projected 2010 emissions for all six gases is 2204 MtCe/yr (first 
column), thus the total required reduction is expected to be 672 MtCe/
yr. The energy-CO<INF>2</INF> policies described in the previous 
sections yield 436 MtCe/yr in reductions by 2010 (second column), 
leaving the United States with 236 MtCe/yr additional reductions to 
achieve from other policies and measures.
---------------------------------------------------------------------------
     \17\These gases can be controlled interchangeably, using 100 year 
Global Warming Potentials (GWP), so long as the total carbon-
equivalents (Ce) are reduced to 93 percent of their baseline levels. In 
contrast to the main three gases (CO<INF>2</INF>, CH4, and N2O), which 
have a 1990 base year, the high GWP gases have a base year of 1995.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Kyoto agreement provides us with several options for obtaining 
the additional 236 MtCe/yr of reductions. Two of these options involve 
domestic reductions: the control of non-CO<INF>2</INF> gases (``multi-
gas control'') and the use of ``sinks'' or biotic sequestration, 
through the land use, land use change and forestry options allowed 
under the Protocol. The other options involve obtaining credits and 
allowances from international sources. Under the Kyoto Protocol, 
countries can purchase credits and allowances through the Clean 
Development Mechanism (CDM), Joint Implementation, or Emissions Trading 
(ET) to offset domestic emissions exceeding our 7 percent reduction 
target. This section examines how we might meet the Kyoto target 
through the use of these options, and what the costs and other 
implications might be.
6.1. Domestic options Article 3.3/3.4 and Sinks
    GHG emissions and removals from land use and land use change and 
forestry (LULUCF) are a subject of great controversy and scientific 
uncertainty. The Kyoto Protocol treats LULUCF activities in two 
principal categories: afforestation, reforestation, and deforestation 
under Article 3.3, and ``additional human-induced activities'' such as 
forest and cropland management under Article 3.4. Different 
interpretations of these two articles can have widely varying impacts 
on the U.S. reduction commitment. \18\ For instance, the U.S. estimate 
of business-as-usual forest uptake during the first commitment period 
is 288 MtCe/yr. If fully credited as an Article 3.4 activity, this 
uptake could provide credit equal to more than 40 percent of the U.S. 
reduction requirement, with no actual mitigation effort. However, the 
vast majority of countries do not interpret the Protocol as allowing 
credit for business-as-usual offsets, and therefore believe they should 
be excluded.
---------------------------------------------------------------------------
     \18\For instance, different accounting methods and rules have been 
considered regarding: a) what constitutes a forest; b) which biotic 
pools and lands are counted; c) which activities are considered 
eligible for crediting under Article 3.4; and d) uncertainties in 
measuring above and below ground carbon stocks.
---------------------------------------------------------------------------
    The starting point of our LULUCF analysis is the assumed adoption 
of the ``consolidated negotiating text'' of Jan Pronk, President [of 
COP6], as issued on June 18, 2001. \19\ The so-called ``Pronk text'' 
reflects an attempted compromise among various parties on a number of 
contentious issues. The most relevant here is the proposal for Articles 
3.3 and 3.4. \20\ In short, the Pronk text would cap total U.S. 
crediting from Article 3.4 activities and afforestation and 
reforestation projects in the CDM and JI at roughly 58 MtCe/yr. \21\ 
Domestic forest management activities would be subject to an 85 percent 
discount. Thus, if one assumes the U.S. estimate above, the Pronk rules 
would result in 42 MtCe/yr of essentially zero-cost credit for forest 
management activities that are expected to occur anyway. \22\ In 
addition, agricultural management (e.g. no-till agriculture, grazing 
land management, revegetation) would be allowed under a net-net 
accounting approach that would allow the United States to count another 
expected 10 MtCe/yr of business-as-usual, i.e. zero-cost, credit toward 
the cap. In sum, the Pronk proposal translates to 52 MtCe/yr of 
``free'' carbon removals, and another 6 MtCe/yr that could be accrued 
through new domestic forest or agricultural management activities. \23\ 
Based on a recent summary of LULUCF cost estimates, we assume that this 
relatively small amount of offsets could be purchased for $10/tCe. \24\ 
A total of 58 MtCe/yr of LULUCF credit would therefore be available to 
help meet the reduction requirement of 236 MtCe/yr remaining after 
having adopted the energy-related CO<INF>2</INF> policies described 
above.
---------------------------------------------------------------------------
     \19\See ``Consolidated negotiating text proposed by the 
President'', as revised June 18, 2001, FCCC/CP/2001/2/Rev.1, http://
www.unfccc.int/resource/docs/cop6secpart/02r01.pdf
     \20\Our assumption of Pronk conditions is a matter of ``what if'' 
analysis, rather than a tacit approval. The Pronk text may be 
insufficient in a number of ways, but the analysis and critique of the 
Pronk text is not the focus of this report.
     \21\The Pronk text would prohibit first commitment period 
crediting of CDM projects that avoid deforestation.
     \22\This figure is drawn from the Annex Table 1 of the April 9 
draft of the Pronk text, which adopts Pronk adopts the accounting 
approach for Article 3.3. activities suggested by the IPCC Special 
Report of LULUCF. This approach yields an Article 3.3 debit of 7 MtCe/
yr from net afforestation, reforestation, and deforestation activity, 
which under the Pronk approach could be offset fully by undiscounted 
forest management activities. Thus the 42 MtCe/yr estimate is based on 
85 percent x (288--7) MtCe/yr.
     \23\The Pronk proposal also allows this cap to be filled through 
afforestation and deforestation activities in the CDM.
     \24\Missfeldt and Haites (2001) use a central estimate of 50 MtCe/
year at $7.50/tCe for CDM afforestation and reforestation projects. 
They also assume the availability of 150 MtCe/year at $15/tCe for 
Article 3.4 sinks in Annex B countries. Note however that the Pronk 85 
percent discount on forest management projects would, in principle, 
increase their cost accordingly (by 1/.15 or 6.7 times). However, given 
the relatively small quantity (6 MtCe) that could be purchased, lower 
cost opportunities in cropland management or the CDM should more than 
suffice.
---------------------------------------------------------------------------
Multi-gas control
    Multi-gas control is a fundamental aspect of the Protocol, and its 
potential for lowering the overall cost of achieving Kyoto targets has 
been the subject of several prominent studies (Reilly et al, 1999 and 
2000). Table 6.1 shows baseline and projected emission levels for the 
non-CO<INF>2</INF> gases. \25\
---------------------------------------------------------------------------
     \25\USEPA (1999, 2000) expects voluntary Climate Change Action 
Plan (CCAP) activities to reduce 2010 methane and high GWP gas 
emissions by about 10 percent and 15 percent, respectively, reductions 
that are not included in their 2010 projections shown in Table 1. 
Instead these reductions are embodied in both their and our cost 
curves.

                  Table 6.1. Baseline and Projected Emissions for non-CO<INF>2</INF> Kyoto Gases (MtCe/yr)
----------------------------------------------------------------------------------------------------------------
                                                      7
                                            Base   percent
                   Gas                      Year    Below   Projected   Reductions             Sources
                                           (1990/    Base      2010    Required \1\
                                             95)     Year
----------------------------------------------------------------------------------------------------------------
Methane..................................     170      158       186          28     (EPA 1999)
Nitrous Oxide............................     111      103       121          18     (Reilly et al 1999b; EPA
                                                                                      2001a)
High GWP Gases (HFC, PFC, SF6)...........      29       27        90          63     (EPA 2000)
    Total................................     310      288       397         109
----------------------------------------------------------------------------------------------------------------
\1\ These are the reductions that would be needed if each gas were independently required to be 7 percent below
  its base year level.

    Methane emissions are expected to grow by only 10 percent from 1990 
to 2010, largely because of increased natural gas leakage and venting 
(due to increased consumption), enteric fermentation and anaerobic 
decomposition of manure (due to increased livestock and dairy 
production). Methane from landfills, which accounted for 37 percent of 
total methane emissions in 1990, are expected to decline slightly as a 
consequence of the Landfill Rule of the Clean Air Act (EPA, 1999), 
which requires all large landfills to collect and burn landfill gases.
    Several measures could reduce methane emissions well below 
projected levels. USEPA estimates that capturing the methane from 
landfills not covered by the Landfill Rule, and using it to generate 
electricity, is economically attractive at enough sites to reduce 
projected landfill emissions by 21 percent (USEPA, 1999). At a cost of 
$30/tCe, the number of economically attractive sites increases 
sufficiently that 41 percent of landfill emissions can be reduced. 
Similarly, USEPA has constructed methane reduction cost curves for 
reducing leaks and venting in natural gas systems, recovering methane 
from underground mines, using anaerobic digesters to capture methane 
from manure. and reducing enteric fermentation by changing how 
livestock are fed and managed.
    We have used a similar USEPA study to estimate the emissions 
reductions available for the high GWP gases (USEPA, 2000). Table 1 
shows that the high-GWP gases, while only a small fraction of baseline 
emissions (first column), are expected to rise so rapidly that they 
will account for majority of net growth in non-CO<INF>2</INF> emissions 
relative to the 7 percent reduction target (last column). In many 
applications, other gases can be substituted for HFCs and PFCs, new 
industrial process can implemented, leaks can be reduced, and more 
efficient gas-using equipment can be installed. For instance, minor 
repairs of air conditioning and refrigeration equipment could save an 
estimated 6.5 MtCe/yr in HFC emissions by 2010 at cost of about $2/tCe. 
New cleaning processes for semiconductor manufacture could reduce PFC 
emissions by 8.6 MtCe/yr by 2010 at an estimated cost of about $17/tCe. 
In all, USEPA identified 37 measures for reducing high GWP gases, a 
list which is likely to be far from exhaustive given the limited 
experience with and data on abatement methods for these gases.
    The major source of nitrous oxide in the United States is the 
application of nitrogen fertilizers, which results in about 70 percent 
of current emissions. Given the tendency of farmers to apply excess 
fertilizer to ensure good yields, effective strategies for N2O 
abatement from cropping practices has thus far been elusive. Thus, 
aside from measures to reduce N2O from adipic and nitric acid 
production (amounting to less than one MtCe/yr), and from mobile 
sources as a result of transportation policies (see below), we have not 
included a full analysis of N2O reduction opportunities (USEPA, 2001).
    Relying largely on recent USEPA abatement studies (1999, 2000, 
2001b), we developed the cost curve for reducing non-CO<INF>2</INF> 
gases depicted in Figure 2 below. \26\ In addition to what is covered 
in the USEPA studies, we assumed that:
---------------------------------------------------------------------------
     \26\The result is a cost curve that is similar and more up-to-date 
than that used in widely cited multiple gas studies (Reilly et al, 
1999a; Reilly et al, 1999b; EERE, 2000).
---------------------------------------------------------------------------
    <bullet>  Only 75 percent of the 2010 technical potential found in 
the USEPA studies would actually be achieved, and that policies and 
programs needed to promote these measures would add a transaction cost 
of $5/tCe.
    <bullet>  The savings in 2010 fossil fuel use resulting from the 
policies and measures implemented in the energy sector will yield 
corresponding benefits for several categories of non-CO<INF>2</INF> 
emissions. In particular, we assumed that a) reduced oil use in the 
transport sector (down 14 percent) will lead to a proportional decrease 
in N2O emissions from mobile sources \27\; b) reduced natural gas 
demand (down 13 percent) will result in proportionately fewer methane 
emissions from leaks and venting; and c) reduced coal production (down 
49 percent) will lead to decreased underground mining and its 
associated emissions. \28\
---------------------------------------------------------------------------
     \27\A similar assumption is used by European Commission (1998). 
Approximately 15 percent of N2O emissions are a byproduct of fuel 
combustion, largely by vehicles equipped with catalytic converters 
(USEPA, 2001a).
     \28\We assume that coal production is a proportional to coal use 
(i.e. we ignore net imports/exports). USEPA expects that the marginal 
methane emissions rate will increase with production as an increasing 
fraction is expected to come from deeper underground mines (USEPA, 
1999).
---------------------------------------------------------------------------
    Figure 6.2 shows that domestic options, taken together, are 
insufficient to reaching the Kyoto target. The line on the left is the 
``supply curve'' of non-CO<INF>2</INF> abatement options, and the line 
on the right is the reduction requirement after both energy-related and 
Article 3.3/3.4 sinks are accounted for. Under current conditions (only 
9 years left until 2010), the supply of remaining domestic options 
appears insufficient to satisfy demand. This gap ranges from 107 MtCe/
yr at $10/tCe to 60 MtCe/yr at $100/tCe as shown. Therefore, to meet 
our Kyoto obligations, we are now in a situation of looking to the 
international market to fill this gap.
6.2 International options
    The Kyoto Protocol creates are two principal types of greenhouse 
gas offsets in the international market: the purchase of surplus 
allowances from countries that are below their Kyoto targets and the 
creation of carbon credits through project-based mechanisms, CDM and 
JI.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Emissions allowance trading/hot air
    The combination of emission targets based on circa 1990 emissions 
and the subsequent restructuring and decline of many economies in 
transition (EITs) means that these countries could have a large pool of 
excess emissions allowances, typically referred to as ``hot air''. 
Estimates of available hot air during the first commitment period range 
from under 100 MtCe/yr to nearly 500 MtCe/yr, largely from Russia and 
Ukraine. \29\ This source of offsets could fulfill a significant 
fraction of the U.S. demand for additional reductions at very low cost 
(depending upon the level of competing demands of other Annex 1 parties 
for these allowances). \30\ We assume however, that relevant actors in 
government and/or private sector charged with meeting emissions 
obligations will effectively limit the use of hot air. Relying heavily 
or entirely on hot air would be poor climate policy; as hot air 
supplants legitimate mitigation activity. It is also bad public 
relations; hot air has a stigma arising from years of negotiations 
controversy. Therefore, we assume that hot air will constitute no more 
than 50 percent of all international trading, and we assume a maximum 
availability of 200 MtCe/yr, based on a recent analysis (Victor et al, 
2001).
---------------------------------------------------------------------------
     \29\A range of 100-350 MtCe/yr is cited in Vrolijk and Grubb, 
2000. Missfeldt and Haites, 2001 use a base estimate of approximately 
240 MtCe/yr, with high estimate of 480 MtCe/yr. For this analysis, we 
assume the availability of 200 MtCe/yr, based on a recent analysis by 
Victor et al (2001).
     \30\Since these credits are a form of windfall credits, it has 
been suggested that these economies could help protect the 
environmental integrity of the agreement by dedicating the income from 
``hot air'' sales to energy projects that will bring about additional 
emissions reductions.
---------------------------------------------------------------------------
CDM and JI
    CDM and JI projects, can be an important part of a comprehensive 
climate policy, providing they truly contribute to sustainable 
development in the host countries and create genuine, additional GHG 
benefits. It is reasonable to expect that the U.S. Government and other 
stakeholders will want to develop the CDM and JI market in order to 
involve developing countries, engage in technology transfer, develop 
competitive advantages, and prepare for future commitment periods.
    With the rules yet to be established on critical issues like 
additionality and baselines for CDM \31\,and with a limited 
understanding of CDM/JI markets and transaction costs at high volumes 
of activity, cost and volume estimates for CDM and JI remain highly 
speculative. As with all GHG mitigation analysis exercises, both 
bottom-up and top-down methods can be used to develop such estimates. 
We have examined the data and literature for both approaches in coming 
up with a rough, aggregate cost curve for CDM and JI.
---------------------------------------------------------------------------
     \31\CDM projects are required to be ``additional'' emissions 
reductions but rules have not been agreed to which would determine what 
is additional. In addition, credits will be given based on reductions 
in comparison to a baseline. A methodology for establishing baselines 
is also the subject of ongoing negotiations.
---------------------------------------------------------------------------
    A bottom-up CDM/JI cost assessments can examine emerging project-
based GHG trading markets--private broker transactions, the Prototype 
Carbon Fund (PCF), the Dutch ERUPT program, GEF activity, and so on--to 
get a sense of current ``real-world'' prices and transaction costs. 
However, the size of this market remains very small in comparison with 
the total flows that are likely once CDM and JI are underway. \32\ The 
type of activities being undertaken today, such as the first PCF 
project, a landfill gas capture effort in Latvia, could well represent 
``lowhanging fruit'' that would be unable to supply the several 
hundreds MtCe/yr of CDM and JI activity that are expected under some 
Kyoto compliance scenarios (Missfeldt and Haites, 2001; Grubb and 
Vrolijk, 2000).
---------------------------------------------------------------------------
     \32\For instance, anecdotal evidence suggests that the current 
international GHG emission credit market is at about $25 million in 
transactions per year. In addition the PCF and ERUPT have committed 
another $225 million over the next few years. This figure compares with 
the $10-20 billion/year market (about 400-500 MtCe/year at $20-40/tCe) 
that some analysts project under CDM alone (Missfeldt and Haites, 
2001).
---------------------------------------------------------------------------
    To get a better sense of the costs of projects available at higher 
volumes, these ``early project'' estimates can be combined with non-
Annex B ``country studies''--the many national GHG abatement studies 
performed with support from UNEP, UNDP, U.S. Country Studies, and other 
bilateral and national programs. A study by the Dutch Energy Foundation 
(ECN, et al., 1999) provides a good example of such an analysis. 
Extrapolating from GEF projects along with 25 country studies, this 
study found that 440 MtCe/yr of non-Annex 1 reductions could be 
available at less than $22/tCe.
    However, the uncertainty related to these bottom-up studies is 
fundamentally quite high. National studies typically exclude a 
significant number of abatement options due to sheer lack of data, 
resources, or necessity. At the same time, abatement costing studies 
may understate transaction and barrier removal costs, especially those 
specific to CDM and JI projects. For instance, transaction costs for 
project preparation, baselines, certification, and monitoring and 
evaluation could also change from current levels, once the CDM and JI 
markets take off and clear rules are established. Finally, the ultimate 
approach adopted for deciding on project additionality and baselines 
could have a major impact on the size and shape of the market.
    Similarly, the possibility of limited crediting lifetimes, or 
discounting of carbon reductions in future projects years, as proposed 
by some, could increase the effective cost per tCe. In a recent 
analysis, Bernow et al. (2000) illustrated how different approaches to 
standardizing baselines could lead to differences in additional power 
sector activity (tCe) of a factor of 4. These types of considerations 
are rarely included in CDM/JI analyses, either bottom-up or top-down.
    Many climate policy assessments rely on CDM and JI cost curves 
developed by a handful of ``top-down'' modelers. Ellerman and Decaux 
(1998) applied the MIT-EPPA computable general equilibrium model to 
develop parameterized cost curves for five non-Annex 1 regions, which 
have since been widely used (Reilly et al, 1999; Haites, 2000; Krause 
et al, 2001; Missfeldt and Haites, 2001; Grutter, 2001). Applications 
of the ABARE-GTEM model have been used in a similar manner (Vrolijk and 
Grubb, 2000; Grutter, 2001; EMF, 1999). While compared with bottom-up 
studies, the EPPA and GTEM model runs provide more comprehensive 
assessments of reduction potential and cost from an economy-wide 
perspective, they do a poorer job of reflecting the dynamics of 
project-based investments.
    It turns out that the GTEM, EPPA, and bottom-up ECN studies, do 
yield rather similar results. At $20/tCe, the total CDM potential under 
the GTEM run is 470 MtCe/yr, while under EPPA it is 480 MtCe/yr, and as 
noted above, and for ECN et al (1999), the figure is closer to 440 
MtCe/yr. \33\ Given the small differences, we adopt the GTEM results, 
since they provide a fuller CDM curve, include multiple gases, and 
provide a cost curve for JI investments as well.
---------------------------------------------------------------------------
     \33\The EPPA and GTEM figures are drawn from the CERT model 
described in Grutter, 2001. The EPPA scenario used here includes only 
CO<INF>2</INF>, while the GTEM scenario includes all gases. All of 
these studies exclude sinks, which is largely consistent with the 
implications of the Pronk proposal.
---------------------------------------------------------------------------
6.3 Combining the options
    There are two ways to combine the available options to meet our 
Kyoto target. We can prioritize which options to rely on more heavily, 
based on their strategic advantages and co-benefits, as we have done 
for energy/CO<INF>2</INF> policies. Or we can simply seek lowest-cost 
solution for the near term. A long-term climate policy perspective 
argues for the former approach. For example, rules and criteria for JI, 
and especially CDM, should be designed so that additionality, 
sustainability, and technology transfer are maximized. Ideally, our 
cost curves for CDM and JI would reflect only investments that are 
consistent with those criteria. However, our current ability to reflect 
such criteria in quantitative estimates of CDM and JI potential is 
limited. \34\
---------------------------------------------------------------------------
     \34\We did briefly examine the potential contribution of a CDM 
fast track for renewables and efficiency, as embodied in the Pronk 
text. Applying the power sector CDM model developed by Bernow et al 
(2001), we found that a carbon price of $20/tCe would induce only 3 
MtCe/yr of new renewable energy project activity by 2010. At a price of 
$100/tCe, this amount rises to 18 MtCe/yr. Given that a large technical 
potential for energy efficiency projects exists at low or negative cost 
per tCe, fast track efficiency projects (under 5 MW useful energy 
equivalents according to Pronk text) could significantly increase the 
amount available at lower costs.
---------------------------------------------------------------------------
    It is possible to model priority investment in the domestic 
reductions of non-CO<INF>2</INF> gases by implementing some measures 
that are higher cost than the global market clearing carbon price. Just 
as energy/CO<INF>2</INF> measures like a Renewable Portfolio Standard 
can be justified by the technological progress, long-term cost 
reductions, other co-benefits that they induce, so too can some non-
CO<INF>2</INF> measures. While we have not attempted to evaluate 
specific policies for nonCO<INF>2</INF> gases as we have for 
CO<INF>2</INF>, we have picked a point on the non-CO<INF>2</INF> cost 
curve, $100/tCe, to reflect an emphasis on domestic action. At $100/
tCe, domestic non-CO<INF>2</INF> measures can deliver 118 MtCe/yr of 
reductions, still about 60 MtCe/yr short of the Kyoto goal, to which we 
must turn to the international market.
    To model the global emissions trading market, we used the CDM/JI 
cost curves, and hot air assumptions described above, together with 
assumptions regarding the demand for credits and allowances from all 
Annex B parties. \35\ This model yields market-clearing prices and 
quantities for each of the three principal flexible mechanisms: CDM, 
JI, and ET/hot air. \36\ The results are shown in Table 6.2.
---------------------------------------------------------------------------
     \35\For the estimated demand for CDM, JI, and ET/hot air from 
other Annex 1 parties, we used a combination of EPPA and GTEM cost 
curves.35 (Reilly et al, 1999b, and Ellerman and Decaux, 1998; Vrolijk 
and Grubb, 2000; Grutter, 2001).
     \36\Our approach is similar to that used in a few other recent 
studies (Grutter, 2001; Haites, 2000; Missfeldt and Haites, 2001; 
Krause et al, 2001; Vrolijk and Grubb, 2000).
---------------------------------------------------------------------------
    The first row of the table shows that 93 MtCe/yr are available at 
net savings or no net cost, over half from the non-additional or 
``anyways'' forest management and other Article 3.4 sinks activities 
implicit in the Pronk text. Another 77 MtCe/yr of non-CO<INF>2</INF> 
gas savings are available as we climb the cost curve from $0-100/tC 
(second row). The net result is that nearly $1.8 billion per year is 
invested in technologies and practices to reduce non-CO<INF>2</INF> GHG 
emissions by 118 MtCe/yr in 2010. Another $60 million per year is 
directed toward the 6 MtCe/yr of expected additional sinks projects 
allowed under the Pronk proposal. The third row shows that of the 60 
MtCe/yr of international trading, half comes from CDM projects, and 
much of the rest from hot air. The model we use estimates a market-
clearing price of about $8/tCe for this 60 MtC/yr of purchased credits 
and allowance, amounting to a total annual cost of less than $500 
million. \37\
---------------------------------------------------------------------------
     \37\The market clearing price is lower here than in other similar 
studies, due in large part to a much lower U.S. demand for 
international trade, which results from of our aggressive pursuit of 
domestic abatement options and the fact that we assume that domestic 
policies and investments should be done as a matter of sound energy and 
environmental policy (i.e. they are price-inelastic).

                    Table 6.2: Reductions available in 2010 up from various sources (in MtCe)
----------------------------------------------------------------------------------------------------------------
                                                       Domestic Options        International Trade
                                                     --------------------------------------------------
                                                       Non-CO<INF>2</INF>                                 Hot air    Total
                                                        gases     Sinks      CDM       JI       (ET)
----------------------------------------------------------------------------------------------------------------
Amount available at < or = $0/tCe (MtCe)............        41        52  ........  ........  ........        93
Amount available at $0-$100 (MtCe)..................        77         6  ........  ........  ........        83
Amount available at $8 (MtCe).......................  ........  ........        30         6        25        60
Annual costs ($Million).............................    $1,783       $60      $235       $48      $196    $2,322
----------------------------------------------------------------------------------------------------------------

    In summary, of the 672 MtCe/yr in total reductions needed to reach 
Kyoto by 2010, nearly 65 percent comes from energy sector 
CO<INF>2</INF> reduction policies, 18 percent from domestic non-
CO<INF>2</INF> gas abatement, 9 percent from domestic sinks, and 9 
percent from the international market. The net economic benefits 
deriving from the energy-related carbon reductions reach nearly $50 
billion/yr in 2010. The total annual cost for the 35 percent of 2010 
reductions coming those last three options--non-CO<INF>2</INF> control, 
sinks, and international trading--is estimated at approximately $2.3 
billion, making the total package a positive economic portfolio by a 
large margin. Had we taken the other approach noted at the beginning of 
the section--aiming for the lowest near-term compliance cost--we would 
rely more heavily on international trading. We modeled this scenario, 
and found that it would nearly double the amount of international 
trading, and lower the overall annual cost to $0.9 billion, and reduce 
the amount of non-CO<INF>2</INF> control by over 40 percent. This 
additional benefit is minor in comparison to the economic and 
environmental benefits of the entire policy portfolio.
7. Conclusions
    This study shows that the United States can achieve its carbon 
reduction target under the Kyoto Protocol--7 percent below 1990 levels 
for the first budget period of the Protocol. Relying on national 
policies and measures for greenhouse gas reductions, and accessing the 
flexibility mechanisms of the Kyoto Protocol for a small portion of its 
total reductions, the United States would enjoy net economic savings as 
a result of this Climate Protection package. In order to achieve these 
reductions, policies should be implemented as soon as possible to 
accelerate the shift away from carbon-intensive fossil fuels and toward 
energy efficient equipment and renewable sources of energy. Such action 
would lead to carbon emission reductions of about 24 percent by 2010 
relative to the Base Case, bringing emissions to about 2.5 percent 
above 1990 levels. Furthermore, emissions of other pollutants would 
also be reduced, thus improving local air quality and public health.
    Adopting these policies at the national level through legislation 
will not only help America meet its Kyoto targets but will also lead to 
economic savings for consumers, as households and businesses would 
enjoy annual energy bill reductions in excess of their investments. 
These net annual savings would increase over time, reaching nearly $113 
per household in 2010 and $375 in 2020. The cumulative net savings 
would be about $114 billion (present value 1999$) through 2010 and $576 
through 2020.
    Greenhouse emissions in the United States are now about 15 percent 
higher than they were in 1990. Together with the looming proximity of 
the first budget period, and a realistic start date no earlier than 
2003 for the implementation of the national policies, reductions in 
energy-related carbon would have to be augmented by other greenhouse 
gas reduction options in order to reach the Kyoto target. In total, the 
Climate Protection case in 2010 includes 436 Mtc/yr energy-related 
carbon reductions, 58 MtC/yr domestic land-based carbon reductions, 118 
MtC/yr reductions in domestic non-carbon greenhouse gases, and 60 MtC/
yr in allowances purchased through the ``flexibility mechanisms'' of 
the Kyoto Protocol.
    While implementing this set of policies and additional non-energy 
related measures is an ambitious undertaking, it represents an 
important transitional strategy to meet the long-term requirements of 
climate protection. It builds the technological and institutional 
foundation for much deeper long-term emission reductions needed for 
climate protection. Such actions would stimulate innovation and 
invention here in the United States while positioning the United States 
as a responsible international leader in meeting the global challenge 
of climate change.
8. List of References
BCAP, 1999. Status of State Energy Codes. Washington, DC.: Building 
            Codes Assistance Project, Sept./Oct.
Bernow, S., S. Kartha, M. Lazarus and T. Page, 2000. Free-Riders and 
            the Clean Development Mechanism. WWF. Gland, Switzerland.
Brown, Rich, Carrie Webber, and Jon Koomey, 2000. ``Status and Future 
            Directions of the ENERGY STAR Program,'' In Proceedings of 
            the 2000 ACEEE Summer Study on Energy Efficiency in 
            Buildings, 6.33-43. Washington, DC.: American Council for 
            an EnergyEfficient Economy.
Clean Air Task Force, 2000. Death, Disease, & Dirty Power: Mortality 
            and Health Damages due to Air Pollution from Power Plants, 
            October.
DeCicco, John, Feng An, and Marc Ross, 2001. Technical Options for 
            Improving the Fuel Economy of U.S. Cars and Light Trucks by 
            2010-2015, Washington, DC.: American Council for an Energy-
            Efficient Economy.
Dockery, D., Pope, C., Xu, X., Spengler, J., Ware, J., Fay, M., Ferris, 
            B., and Speizer, F., 1993. An Association between Air 
            Pollution and Mortality in Six U.S., Cities, The New 
            England Journal of Medicine 329 (24): 1753-9.
ECN, SEI-B, and AED, 1999. Potential and Cost of Clean Development 
            Mechansim Options in the Energy Sector. Inventory of 
            options in the non-Annex I Countries to reduce GHG 
            emissions. ECN, The Netherlands.
EERE, 2000. Scenarios for a Clean Energy Future, Prepared by the 
            Interlaboratory Working Group on Energy-Efficient and 
            Clean-Energy Technologies, Washington, DC.: U.S. Department 
            of Energy, Office of Energy Efficiency and Renewable 
            Energy.
EIA, 2001a. Annual Energy Outlook 2001 with Projections to 2020. U.S. 
            Department of Energy, Washington D.C.
EIA, 2001b. U.S. Carbon Dioxide Emissions from Energy Sources, 2000 
            Flash Estimate. U.S. Department of Energy. http://
            www.eia.doe.gov/oiaf/1605/flash/sld001.htm
Ellerman, A.D. and A. Decaux, 1998. Analysis of Post-Kyoto Emissions 
            Trading Using Marginal Abatement Curves, MIT Joint Program 
            on the Science and Policy of Global Change Report No. 40, 
            October, Cambridge, MA.
EMF 1999. ``The costs of the Kyoto Protocol: A multi-model 
            evaluation.'' 16th Energy Modeling Forum, The Energy 
            Journal, Special Issue.
EPA, 2001. ``The Power of Partnerships, Climate Protection Partnerships 
            Division, Achievements for 2000-In Brief.'' Washington, 
            DC.: U.S. Environmental Protection Agency.
European Commission, 1998. Options to Reduce Nitrous Oxide Emissions 
            (Final Report): A report produced for DGXI by AEA 
            Technology Environment, November. http://www.europa.eu.int/
            comm/environment/enveco/climate--change/nitrous--oxide--
            emissions.pdf
Grutter, J. 2001. World Market for GHG Emission Reductions: An analysis 
            of the World Market for GHG abatement, factors and trends 
            that influence it based on the CERT model. Prepared for the 
            World Bank's National AIJ/JI/CDM Strategy Studies Program, 
            March, 2001.
Harvey, R. and F. de la Chesnaye, 2000. ``The Potential for Cost-
            Effective Reductions of NonCarbon Dioxide Greenhouse Gas 
            Emissions in the United States'' in J. van Ham, A. Baede, 
            L. Meyer, R. Ybema, Eds., Second International Symposium on 
            Non-CO<INF>2</INF> Greenhouse Gases (Kluwer Academic Pub., 
            Dordrecht, the Netherlands, 2000).
IPCC 2001. Climate Change 2000, Economic and Social Dimensions of 
            Climate Change, Contribution of Working Group III to the 
            Third Assessment Report of the Intergovernmental Panel on 
            Climate Change, Cambridge/New York.
Krause, F., Baer, P., DeCanio, S. 2001. Cutting Carbon Emissions at a 
            Profit: Opportunities for the U.S., International Project 
            For Sustainable Energy Paths, El Cerrito, California, 
            April. www.ipsep.org
Mark, Jason, 1999. Greener SUVs: A Blueprint for Cleaner, More 
            Efficient Light Trucks, Cambridge, Mass.: Union of 
            Concerned Scientists.
Missfeldt, F., and E. Haites. forthcoming 2001, The Potential 
            Contribution of Sinks to Meeting Kyoto Protocol 
            Commitments.
Nadel, Steven and Marty Kushler. 2000. ``Public Benefit Funds: A Key 
            Strategy for Advancing Energy Efficiency.'' The Electricity 
            Journal. Oct., pp. 74-84.
Reilly, J., M. Mayer, and J. Harnisch. 2000. Multiple Gas Control Under 
            the Kyoto Agreement, MIT Joint Program on the Science and 
            Policy of Global Change Report No. 58. March.
Reilly, J. et al, 1999a. Multi-Gas Assessment of the Kyoto Protocol, 
            Nature 401, pp. 549-555 (October 7, 1999).
Reilly, J., R.G. Prinn, J. Harnisch, J. Fitzmaurice, H.D. Jacoby, D. 
            Kicklighter, P.H. Stone, A.P. Sokolov, and C. Wang, 1999b. 
            Multi-Gas Assessment of the Kyoto Protocol, Report No. 45, 
            MIT Joint Program on the Science and Policy of Global 
            Change, Boston, MA, January 1999. (at http://web.mit.edu/
            globalchange/www/rpt45.html)
Schwartz, J. and Dockery, D., 1992. Increased Mortality in Philadelphia 
            Associated with Daily Air Pollution Concentrations, 
            American Review of Respiratory Disease 145: 600-604.
USEPA, 1999. U.S. Methane Emissions 1990--2020: Inventories, 
            Projections, and Opportunities for Reductions, U.S. 
            Environmental Protection Agency, Office of Air and 
            Radiation, September. http://www.epa.gov/ghginfo.
USEPA, 2000. Estimates of U.S. Emissions of High-Global Warming 
            Potential Gases and the Costs of Reductions, Review Draft, 
            Reid Harvey, U.S. Environmental Protection Agency, Office 
            of Air and Radiation, March. http://www.epa.gov/ghginfo.
USEPA, 2001a. Draft Inventory of U.S. Greenhouse Gas Emissions and 
            Sinks: 1990--1999. EPA, Washington, DC, September, 2001.
USEPA, 2001b. Draft U.S. Nitrous Oxide Emissions 1990-2020: 
            Inventories, Projections, and Opportunities for Reductions. 
            EPA, Washington, DC, September, 2001.
USEPA, 2001c. Draft Addendum to the U.S. Methane Emissions 1990-2020: 
            Inventories, Projections, and Opportunities for Reductions 
            Report. EPA, Washington, DC, October, 2001.
Victor, David G., Nakicenovic, Nebojsa, and Victor, Nadejda, 2001, 
            ``The Kyoto Protocol Emission Allocations: Windfall 
            Surpluses for Russia and Ukraine,'' Climatic Change 49 
            (3):263-277, May 2001
Vrolijk, C., Grubb, M. 2000. Quantifying Kyoto: How will COP-6 
            decisions affect the market? Report of a workshop organized 
            by the Royal Institute of International Affairs, UK, in 
            association with: Institute for Global Environmental 
            Strategies, Japan; World Bank National Strategies Studies 
            Program on JI and CDM; National Institute of Public Health 
            and the Environment, Netherlands; Erik Haites, Canada; and 
            Mike Toman, U.S. on 30-31 August 2000, Chatham House, 
            London.
                Appendix 1: Energy and Carbon Summaries
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Appendix 2. Modeling Global Carbon Markets
    We first construct an aggregate Annex 1 demand curve for 
international emissions reductions from CDM, JI, and ET/hot air. This 
demand curve represents how short, at a given price, Annex 1 countries 
are from meeting their Kyoto target using only domestic options (energy 
sector CO<INF>2</INF>, non-CO<INF>2</INF> gas, and Article 3.3/
3.4options). We can then compare this demand curve with the supply 
curve for CDM, JI, and ET/hot air (based on the assumptions described 
above) to find the market-clearing price. Our approach is similar to 
that used in a few other recent studies (Grutter, 2001; Haites, 2000; 
Missfeldt and Haites, 2001; Krause et al, 2001; Vrolijk and Grubb, 
2000).
    To create the Annex 1 demand curve, we combine a U.S. demand 
curve--the ``additional required reductions'' line in Figure 6.2 minus 
the cost curve or amount available from non-CO<INF>2</INF> measures at 
a given price--with estimated demand for CDM, JI, and ET/hot air from 
other Annex 1 parties, excluding EITs. We estimate the non-US demand 
using a combination of EPPA and GTEM cost curves. \38\ There is a 
resulting asymmetry in this approach, since the non-US cost curves we 
use do not embody the aggressive pursuit of domestic energy sector 
reductions found in our analysis for the United States. As a result the 
total demand for and use of international trading, as well as the 
resulting market clearing price, is significantly higher than it would 
be were we to have looked at a similarly aggressive approach in all 
Annex 1 countries. The result is shown in the figure at right.
---------------------------------------------------------------------------
     \38\The first scenario is based on EPPA cost curves (Reilly et al, 
2000 and Ellerman and Decaux, 1998) and RIIA 1990 emission estimates 
(Vrolijk and Grubb, 2000), and yields an estimated 2010 demand from 
Annex II countries of 507 MtC. The second scenario uses GTEM results 
and assumed 1990 emissions reported via personal communication from the 
model developers, and yields an estimated 2010 demand from Annex II 
countries of 344 MtC. As found in Grutter (2001).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 A Partial Listing of Studies Showing a Positive Economic Benefit from 
                   an Innovation-Led Climate Strategy
Barrett, James P., J. Andrew Hoerner, Steve Bernow, and Bill Dougherty, 
            2002. Clean Energy and Jobs: A Comprehensive Approach to 
            Climate Change and Energy Policy, Center for a Sustainable 
            Economy, Washington, DC.
Bernow, Stephen, Karlynn Cory, William Dougherty, Max Duckworth, Sivan 
            Kartha, Michael Ruth, 1999. America's Global Warming 
            Solutions, Washington, DC: World Wildlife Fund.
Energy Innovations, 1997. Energy Innovations: A Prosperous Path to a 
            Clean Environment. Washington, DC: Alliance to Save Energy, 
            American Council for an Energy-Efficient Economy, Natural 
            Resources Defense Council, Tellus Institute, and Union of 
            Concerned Scientists.
Geller, Howard, Stephen Bernow, and William Dougherty, 1999. Meeting 
            America's Kyoto Protocol Target: Policies and Impacts, 
            Washington, DC: American Council for an Energy-Efficient 
            Economy, November.
Hanson, Donald, and Skip Laitner, 2000. ``An Economic Growth Model of 
            Investment, Energy Savings, and CO<INF>2</INF> Reductions: 
            An Integrated Analysis of Policies that Increase 
            Investments in Advanced Efficient/Low-Carbon 
            Technologies,'' by Proceedings of the 93rd Air & Waste 
            Management Association Annual Meeting, Salt Lake City, June 
            18-22, 2000.
Interlaboratory Working Group on Energy-Efficient and Clean-Energy 
            Technologies, 2000. Scenarios for a Clean Energy Future, 
            prepared for Office of Energy Efficiency and Renewable 
            Energy, U.S. Department of Energy.
Koomey, Jonathan G., R. Cooper Richey, Skip Laitner, Robert J. Markel, 
            and Chris Marnay, 2001. ``Technology and greenhouse gas 
            emissions: An integrated scenario analysis using the LBNL-
            NEMS model,''. In Richard Howarth and Darwin Hall, editors, 
            Beyond a Doubling: Issues in the Long-term Economics of 
            Climate Change, Elsevier Publishing.
Laitner, John A. ``Skip'', Stephen Bernow and John DeCicco, 1998. 
            ``Employment and Other Macroeconomic Benefits of an 
            Innovation-Led Climate Strategy for the United States,'' 
            Energy Policy. Volume 26, Number 5, pages 425-432. April.
Laitner, Skip, Kathleen Hogan, and Donald Hanson, 1999. ``Technology 
            and Greenhouse Gas Emissions: An Integrated Analysis of 
            Policies that Increase Investments in Cost Effective 
            Energy-Efficient Technologies,'' Proceedings of the 
            Electric Utilities Environment Conference, Tucson, AZ, 
            January.
Laitner, John A. ``Skip'', 1997. ``WYMIWYG (What You Measure is What 
            You Get): The Benefits of Technology Investment as a 
            Climate Change Policy,'' a paper given to the 18th Annual 
            North American Conference of the USAEE/IAEE, San Francisco, 
            CA. September 7-10.
Peters, Irene, Stephen Bernow, Rachel Cleetus, John A. (``Skip'') 
            Laitner, Aleksandr Rudkevich, and Michael Ruth, 2001. ``A 
            Pragmatic CGE Model for Assessing the Influence of Model 
            Structure and Assumptions in Climate Change Policy 
            Analysis,'' in Lawrence A. Kreiser, editor, Critical Issues 
            in International Environmental Taxation, CCH Incorporated, 
            Chicago, IL..
Sanstad, Alan H., Stephen J. DeCanio, and Gale A. Boyd, 2000. 
            ``Estimating Bounds on the Economy-Wide Effects of the CEF 
            Policy Scenarios,'' Energy Policy 29 (2001) 1299- 1311.
Tellus Institute, 1997. Policies and Measures to Reduce CO<INF>2</INF> 
            Emissions in the United States: An Analysis of Options for 
            2005 and 2010. Boston, MA: Tellus Institute.
    Senator Jeffords. There is no question that we must be 
concerned with threats of today, like the thousands of people 
dying prematurely every year from power plant pollution. But we 
cannot let the press of quarterly reports or the hunt for 
short-term profits prevent us from acting to reduce the threats 
of tomorrow. That is especially true in the case of terrorism 
or global warming where we have been presented with credible 
information about the threats.
    As some of my colleagues know, I have a special interest in 
the U.N. Convention to Combat Desertification and pressed hard 
for its ratification. Senator Helms was instrumental in moving 
that treaty and I want to thank him for his work and that of 
his staff in helping me and others get that agreement approved. 
That treaty addressed land degradation in some of the most 
impoverished areas of the world. It is designed to encourage 
participatory democracy and stakeholder involvement. I look 
forward to seeing the implementation of that treaty.
    I have an interest in ratifying and implementing the 
Convention on Persistent Organic Pollutants. I have introduced 
legislation maintaining the spirit of that treaty, and I hope 
we will be able to get that moving as soon as the U.S. can 
participate in the ``Conference of Parties'' and the review 
committee.
    There seems to be a general good news regarding chemicals 
that harm the ozone layer. From all indications, the Montreal 
Protocol has been a success, though I gather there are some 
additional amendments coming soon. I will be interested to 
learn how our efforts have reduced that ozone hole.
    There is less clear news on the status of the Convention of 
Biologic Diversity, which was signed in 1993 but which has been 
not sent to the Senate for confirmation and ratification.
    I would also appreciate hearing an update from our 
witnesses on the progress made toward the implementation of the 
Basel Convention regarding the International Transportation of 
Hazardous Waste.
    Finally, I would note something that is a little different 
between international agreements and our more conventional 
environmental laws. They often seem to be missing performance 
criteria or include very weak commitments. Unfortunately, in 
the case of climate change, even when commitments are minimal, 
such as reporting on the policies and measures we have adopted 
and achieved in 1990 levels, we have failed. So I would urge 
our negotiators to push for more specific environmental laws 
using targets and timetables. That will make it easier for the 
Senate to know whether the treaties we have ratified are 
succeeding. Also, I believe the result will be better for the 
environment and sustainable development.
    I want to thank you for being with us here today. I now 
turn to my good co-chairman friend, Senator Sarbanes.

 OPENING STATEMENT OF HON. PAUL S. SARBANES, U.S. SENATOR FROM 
                     THE STATE OF MARYLAND

    Senator Sarbanes. Thank you very much, Senator Jeffords. I 
am very pleased to join my colleague, Senator Jeffords, in this 
joint hearing between the Environment and Public Works 
Committee and the Senate Foreign Relations Committee on the 
very important issue of the review of the implementation of 
environmental treaties.
    Senator Jeffords, as we all well know, has been a very 
strong advocate of the need to protect our environment across 
the range of issues. I certainly want at the very outset to 
thank him for his leadership. The country, not just the 
country, in a sense the world, and I am going to make reference 
to this later, these environmental issues know no national 
boundaries, and we are all extremely grateful to him.
    I also want to thank him for suggesting this idea of a 
joint hearing undertaken by the two committees. Joint hearings 
can I think provide a useful opportunity to examine issues that 
cut across committee jurisdiction, and I think they also serve 
to encourage Members of Congress as well as the Administration 
and private sector to think about the wider implications of the 
issues with which we are wrestling. That is obviously one of 
our purposes here today.
    Treaties are often negotiated over many months, indeed, 
even longer, and in many cases in a very painstaking way. So 
when they come into force many people heave a sigh of relief 
that the process has been completed. Of course, we review the 
treaties in the Foreign Relations Committee and we try to 
carefully examine them, and then once we ratify them we think 
well that is over and done with. But the fact of the matter is 
that once the treaty is ratified, the process has only begun. 
And what really matters, in addition to adopting the treaty to 
begin with, is how governments, including our own, actually 
implement the treaties.
    This hearing will examine a number of environmental 
treaties that the United States has ratified. Just to mention a 
few, the United Nations Framework Convention on Climate Change, 
the Montreal Protocol on Substances that Deplete the Ozone 
Layer, the Convention on International Trade in Endangered 
Species of Wild Flora and Fauna, the North American Agreement 
on Environmental Cooperation, and the U.N. Convention to Combat 
Desertification, which Senator Jeffords made reference to. I do 
not think that treaty would ever have been approved but for his 
efforts.
    We will ask witnesses from the Administration and private 
sector specialists for their appraisal of our Government's 
implementation of these various treaties. For example:
    Are we living up to our commitments under these treaties?
    Are we providing sufficient resources, both financial and 
technical, to help developing countries meet their commitments 
under these treaties?
    What are the success stories?
    Where are we falling short, and what can be done to ensure 
that we do a better job?
    What are the international ramifications of a failure on 
our part to meet our commitments under these treaties?
    I look forward to hearing our witnesses address some of 
these important questions.
    The protection of the environment is something that I think 
we have come to understand is a matter of the first priority, 
hopefully here in the Congress, certainly across the country. 
In fact, I am inclined to think that the country is often ahead 
of the Congress and ahead of the Administration on this very 
important issue. Not only do we have an obligation to ensure 
that our Government is honoring its environmental commitments, 
but we should encourage our Government to play a leading role 
in assisting others around the world to help them meet their 
commitments. We constantly brag that we are first, and we ought 
to be first in this regard, as well as in other respects.
    Environmental problems, as we all know, have no boundaries. 
An environmental problem halfway around the globe can have 
adverse consequences for our own families here in the United 
States. Similarly, an environmental problem here in this 
country can affect the lives of millions of people overseas. 
The Chernobyl nuclear accident, to take but one example, had 
consequences far, far beyond the boundaries of where the event 
occurred.
    So I think this is an important joint effort here by the 
two committees and I want to again thank Senator Jeffords for 
suggesting this. I look forward to hearing from the witnesses.
    Mr. Chairman, I ought to say at the outset, because of my 
involvement in the other bill to which you made reference, I do 
not know that I am going to be able to stay through the morning 
but I certainly wanted to be here at the outset. I may have to 
leave, maybe I can get back. But this is certainly a very 
important initiative and I thank you for it.
    Senator Jeffords. Thank you for being here. Your presence 
makes this a much more rewarding situation for the hearing, but 
I do understand that you have got a few little problems you are 
dealing with.
    Senator Chafee.

OPENING STATEMENT OF HON. LINCOLN CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. Thank you very much, Senator Jeffords, for 
holding the hearing. As Senator Sarbanes said, certainly the 
world is looking at us as to how we are going to act on these 
treaties and are we going to be a responsible member of the 
global community on these environmental issues which have such 
immense ramifications for future generations.
    We hold a certain place in the world after the fall of the 
Berlin Wall and are kind of at the top of the heap. With that 
comes enormous responsibility. We have to exercise it on these 
treaties that have been negotiated over many, many months. It 
is my thought that we have the responsibility to protect our 
world for future generations. And whether it is global warming 
or desertification or the health of our fisheries, the onus is 
on us. Everybody is looking at us to see, are we going to be a 
leader? Are we going to be a country that all around the world 
people look at and say they are doing the right thing, they are 
protecting these valuable resources? That not only are they 
consuming resources at an enormous rate in the United States of 
America, but they are looking ahead and trying to do the right 
thing for many, many generations.
    So thank you again, Mr. Chairman, for holding this hearing 
today.
    Senator Jeffords. Thank you, Senator Chafee. It is a 
pleasure to have you with us.
    Now on our first panel the first witness is John F. Turner, 
the Assistant Secretary for the Bureau of Oceans and 
International Environmental and Scientific Affairs, U.S. 
Department of State, Washington, DC, and the other member of 
our panel is Mr. James Connaughton, Chair of the White House 
Council on Environmental Quality, Washington, DC.
    Welcome. It is a pleasure to have you with us.
    Mr. Turner, please proceed.

 STATEMENT OF HON. JOHN F. TURNER, ASSISTANT SECRETARY FOR THE 
BUREAU OF OCEANS AND INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Turner. Chairman Jeffords, Chairman Sarbanes, Senator 
Chafee, I appreciate this opportunity to appear before you 
today with my colleague, Jim Connaughton, to review the U.S. 
implementation of some important environmental treaties 
initiatives.
    I believe the United States has a strong record on global 
environmental issues. And as one who has been involved in 
conservation most of my career, I want to pause and thank each 
one of you for the dedication and commitment, leadership you 
have given to domestic and international environmental affairs. 
But I am proud of the leadership our country has shown to 
spearhead the negotiation agreements and their subsequent 
implementation on issues ranging from ozone depletion to 
stemming illegal trade in endangered species. As an example of 
this continuing leadership, the President just recently 
submitted to the Senate an important treaty between the United 
States and Russia that would strengthen the conservation of our 
shared polar bear resources.
    The State Department plays an important role in 
negotiating, coordinating, and monitoring the implementation of 
environmental agreements and then working through the 
interagency and international processes to ensure U.S. 
interests are served. Often, however, as you realize, other 
agencies within our Government are actually responsible for 
implementation of some of these treaties.
    In addition to my written statement submitted for the 
record, I would just like to briefly describe our efforts 
related to five agreements the United States currently is 
implementing.
    First, the Montreal Protocol. As you are aware, during the 
1980's, indeed, the United States led a global effort to 
negotiate an agreement to phaseout the production and 
consumption of substances that deplete the ozone layer and 
threaten human health with the deliberating effects of skin 
cancer and cataracts. Over the last 15 years, the 
implementation of the Protocol and its subsequent amendments 
have yielded remarkable progress in protecting the 
stratospheric ozone layer by phasing out much of the 
consumption and use of ozone depleting substances on a global 
scale. The protocol does include a multilateral fund to provide 
financial and technical assistance to developing countries to 
assist them in meeting their own obligations under the treaty. 
As the largest contributor to the fund, the United States has 
made available over $350 million to the fund since the 
beginning.
    The second treaty I would like to discuss is the Convention 
on International Trade in Endangered Species of Wild Fauna and 
Flora, known as CITES. CITES conservation goals are to restrict 
international trade in endangered species, and assist countries 
toward a sustainable management of species through 
international trade.
    CITES Parties regulate wildlife trade through controls and 
regulations on species listed in three distinct appendices. In 
addition, each Party must appoint a CITES management authority 
and scientific authority. Of course, for the United States it 
is the Fish and Wildlife Service at the Department of Interior 
that provides us with the management authority and scientific 
authority for CITES. That agency also plays a major law 
enforcement role in its implementation.
    With regard to implementation, the U.S. implements CITES 
primarily through regulations developed under the Endangered 
Species Act and also under the Lacey Act. The United States is 
proud of its record in implementing CITES. We are at the 
forefront of CITES Parties in fulfilling these obligations.
    Third, I would like to just briefly touch on the U.N. 
Framework Convention on Climate Change, which I know you are 
very interested in. The Framework Convention creates a broad 
global framework for addressing the challenge of climate 
change. My colleague, Jim Connaughton, will discuss the overall 
approach of this Administration to address this serious global 
challenge. Let me just briefly refer to a portion of this 
strategy where I believe the United States is demonstrating 
superb leadership.
    In the two major announcements of President Bush on our 
policy regarding global climate change, he committed us to 
intensifying efforts with other nations to address the 
challenge of climate change. Toward this end, the United States 
has initiated a series of bilateral climate change 
relationships with important partners, including, and I would 
like to mention them, Australia, Central America, the European 
Union, Canada, China, India, Italy, and Japan. We have 
discussions underway on additional relationships with Brazil, 
Mexico, Korea, the Russian Federation, South Africa, and the 
Ukraine. Including the U.S.' participation, these relationships 
would represent 78 percent of the total greenhouse gas 
emissions from the combustion of fossil fuels around the world.
    Fourth, let me just mention the North American Agreement on 
Environmental Cooperation, commonly referred to as the NAFTA 
environmental side agreement. This serves as an important 
framework for cooperation among the three North American 
governments on a wide range of environmental efforts. Among 
other things, the NAFTA side agreement established the 
Commission on Environmental Cooperation, the CEC, which 
coordinates such cooperation.
    This agreement has promoted strong cooperation among the 
three countries on a number of important environmental issues, 
achieved primarily through the implementation of the CEC work 
program funded at the level of $9 million annually where each 
party contributes equally. These include the promotion of 
enforcement and compliance with environmental laws, protecting 
children's environmental health, protecting animal species that 
migrate throughout North America, and minimizing the use of 
persistent toxic chemicals such as DDT.
    Fifth, and last, Mr. Chairman, let me just touch on the 
U.N. Convention to Combat Desertification, CCD. Indeed, I would 
like to thank you, Senator Jeffords, for your leadership in the 
ratification of this important global measure. As you are 
aware, this Convention arose out of the 1992 Earth Summit. The 
purpose of the Convention is to combat desertification and 
mitigate the effects of drought on arid and semi-arid lands 
through effective local, national, regional, and global action.
    The Convention's central objective is to promote the 
sustainable use of dry lands worldwide, but especially in 
Africa, and to make more efficient use of aid resources, 
thereby helping to solve Africa's and other affected regions' 
chronic hunger problems and availability of fresh water. Many 
of the principles used in the U.S. over the past 70 years have 
been incorporated in the language of the CCD.
    In conclusion, let me observe that while significant 
progress in protecting the environment has been made, we are 
all aware that enormous challenges lie ahead. And as you have 
noted, Chairman Jeffords, the upcoming World Summit on 
Sustainability in Johannesburg, South Africa, provides the 
United States with a unique opportunity to take stock of our 
past accomplishments and to build on them in helping to advance 
economic and social environmental stewardship.
    We have learned a great deal since Rio. WSSD gives the 
United States a chance again to demonstrate its leadership, to 
create a new paradigm that stresses sound economic policy, 
national capacity for good governance, anti-corruption, 
transparency, the role of science, poverty reduction, and sound 
environmental stewardship. Working with our international 
friends and allies, the Bush Administration is committed to the 
success of the Johannesburg Conference to ensure we all work 
together to build a positive legacy of natural resources 
sustainability for current and future generations of the global 
citizenry.
    Thank you Chairmen. I would be happy to respond to any 
questions you may have later on.
    Senator Jeffords. Thank you very much.
    Now we will hear from Mr. Connaughton, Chairman of the 
White House Council on Environmental Quality. Please proceed.

STATEMENT OF HON. JAMES CONNAUGHTON, CHAIR, WHITE HOUSE COUNCIL 
                    ON ENVIRONMENTAL QUALITY

    Mr. Connaughton. Thank you Chairman Jeffords, Chairman 
Sarbanes, Senator Chafee. I want to note at the outset, Mr. 
Chairman, your reference to NEPA. Certainly, I share your view 
that NEPA was the original sustainable development statute. And 
the fact that it has been adopted by I think more than 50 
countries worldwide and the legacy that that articulation of 
what sustainable development is about is sort of a test case 
for the beginnings of American leadership in this area.
    Of particular note in that statute, and I think we had 
talked about this a little bit during my confirmation hearing, 
is the concept of man and nature living together in productive 
harmony. That is an important concept. And this hearing today, 
actually bringing together the Senate Environment and Public 
Works Committee and the Foreign Relations Committee, I think is 
a key important next step as we get various committees of 
jurisdiction looking across their lines, as we must, consistent 
with your statement, to figure out how to better integrate our 
environmental and our social objectives into our other policies 
and into other activities. That is really what was behind the 
spirit of NEPA. And I think that is why today's hearing is so 
important and useful, because it then turns, Chairman Sarbanes, 
on what you referenced, that the largest questions before us 
are the questions of implementation: are we implementing at the 
domestic level and equally, and perhaps today even more 
importantly, at the international level; and where are the 
important places where we can make meaningful progress on 
implementing these documents that were so hard worked over. So 
I look forward to our discussion today.
    What I want to do is briefly spend some time talking about 
where we are with implementation of the U.N. Framework 
Convention on Climate Change and then throw in just a little 
aside on the world summit, my own view with respect to the 
upcoming World Summit on Sustainable Development.
    With respect to climate change, President Bush has 
committed the Nation to ambitious, yet realistic, goals that 
are based on a set of six principles that largely derive from 
the framework that we have set out in that Convention. First 
is, consistency with the long-term goal of stabilizing 
atmospheric concentration of greenhouse gases at a level that 
would prevent dangerous interference with the climate system. 
This, of course, refers to the fundamental long-term obligation 
under the Convention, to which the President has reaffirmed our 
Government's strong commitment. Second is that we should 
proceed with measured actions as we learn more from the science 
and build on it. Third is the concept of flexibility, to adjust 
to new information and take advantage of new technology. Fourth 
is ensuring continued economic growth and prosperity without 
which we actually cannot make the kinds of investments that we 
will need to over the near-to mid-term to achieve our 
greenhouse gases emission reduction goals. We need to pursue 
market-based incentives that will spur technological 
innovation. And finally, and very importantly, is the concept 
of global participation along the lines that my good colleague 
John Turner just described. We need to find ways to engage the 
developing countries in a constructive path, on a path whereby 
they, too, can make meaningful progress together with their 
international partners.
    The President has set a goal, a near-term goal, which is 
committing the Nation to an immediate goal of reducing 
America's greenhouse gas emissions relative to the size of our 
economy by 18 percent in the next 10 years. This goal is 
comparable to the kinds of emission reductions that countries 
participating in the Kyoto Protocol expected to achieve. We 
believe that this way of articulating progress is a means by 
which we can open a dialog with developing countries because it 
is consistent with their need for economic growth, but to do it 
in the kind of efficient and more productive way that we 
ourselves continue to demonstrate leadership on in the United 
States of America.
    Importantly, it will set us on a path to slow the growth of 
our emissions. Our emissions are growing. Emissions around the 
world are growing. A key first step in making meaningful 
progress on climate change is to, in fact, slow that growth 
significantly and, as science justifies, to stop the growth in 
emissions, and then reverse that growth. This will require a 
sustained commitment and significant investment and effort from 
our Nation's farmers, small businesses, workers, industries, 
and, most important, individual citizens. In recent time, the 
largest growth in emissions have resulted from the actions of 
individual citizens in their homes, in their transport, in 
their commercial activities. We need to be working on 
incentives and education and other methods, we have a whole 
series of programs, by which to engage the American citizens of 
the whole toward this effort.
    The President's policy recognizes that meaningful progress 
depends on the development and deployment of new technology. 
That is key. We all recognize that. There is a large 
international consensus on that. We need to advance the science 
further because there are key gaps in our knowledge that can 
help us make smart policy choices in the near-and mid-term. We 
need to develop and promote energy efficiency, conservation, 
and sequestration technologies and practices in addition to 
building on international cooperation.
    What I would like to do is just quickly run through the 
various components, and I will just take a minute to do that. 
The President's fiscal year budget calls for a $700 million 
increase in our Federal effort in regard to climate change. 
That will support a $4.5 billion program of research on climate 
science and energy technology and create significant new 
incentives that will help advance those technologies and deploy 
them. That is unmatched in the world. We are committed to a 
program of up to $7.1 billion over the next 10 years that is 
dedicated to technology development and the incentives to 
deploy that technology. That, too, is unmatched in the world.
    Senator Jeffords, you were a strong supporter of a strong 
conservation title in the Farm Bill, as was the Bush 
Administration. That will unleash up to $49 billion, a 
significant portion of which is going to enable and incentivize 
our farmers on their working lands and our ranchers on their 
working lands to engage in the kind of sequestration activities 
and smarter land management that we would like to see while not 
putting them off their property. We far outmatch anything along 
those lines in the rest of the world.
    That said, I want to note that we have the upcoming World 
Summit on Sustainable Development coming up in Johannesburg. We 
have a real opportunity to forge the kinds of partnerships that 
will in fact implement the rich tapestry and body of 
international norms and international treaties and laws that we 
have all committed to over the last couple of decades. We are 
looking forward to really setting off a dialog around which we 
can in fact make meaningful progress on each of those 
commitments and come up with real partnerships that can 
demonstrate measurable success. So, again, we look forward to 
talking to you about that today. Thank you.
    Senator Jeffords. Thank you both.
    Senator Corzine, do you have a brief statement you would 
like to make?
    Senator Corzine. I will have one for the record, but thank 
you. I appreciate your holding the hearing.
    Senator Jeffords. Thank you.
    Mr. Turner, President Bush attended the Earth Summit in 
1992. I understand that more than 100 heads-of-state plan to 
attend the World Summit in Johannesburg. Will the President 
lead the United States delegation to the World Summit?
    Mr. Turner. Senator, there is obviously considerable 
interest around the world as to who will head the U.S. 
delegation. All I can tell you is that decision has not been 
made yet. I can tell you that the commitment to make the World 
Summit a success has captured the interest of the White House, 
the National Security Council, cabinet members, and the 
agencies. So we are committed to see that we have a dynamic and 
bold agenda as we go to Johannesburg. But the decision on who 
would lead the delegation has not yet been made.
    Senator Jeffords. I just hope the President can because I 
think it would be very, very helpful to the world.
    Mr. Connaughton, in preparation for the Earth Summit of 
1992, CEQ held a series of regional public conferences around 
the United States and compiled extensive documentation based on 
the concerns presented at these public meetings. What 
comparable effort has CEQ undertaken in preparation for the 
World Summit?
    Mr. Connaughton. I will speak to the process point and then 
turn to the substance point. We are jointly working with the 
State Department and have coordinated a fairly extensive 
interagency process to ensure that as we get to the World 
Summit we actually have broad agency participation in that 
effort. That is the immediate process and we have been working 
on that.
    In terms of the outreach, the first Rio Summit actually was 
critical in setting the agenda and setting the numerous areas 
in which we needed to make meaningful progress. Whether it is 
reducing the number of people without access to safe drinking 
water, whether it is reducing the number of people without 
access to clean, reliable, affordable energy sources, issues 
such as biodiversity and the like, all of those have unfolded 
in the last 10 years through quite extensive both national and 
international dialog. So where we are today is very different 
from where we were 10 years ago, and where we are today is with 
this very complete agenda, whether it is Agenda 21, or whether 
it is the Millennium Goals. We have this very rich agenda. If 
anything, the level of outreach on an agency-by-agency basis, 
and certainly with the State Department through our 
international fora, we have more fora engaged in the subject of 
sustainable development than anyone might have in fact imagined 
in 1990.
    Our effort, and certainly CEQ's push, what we are trying to 
emphasize is can we in fact forge the kind of partnerships with 
respect to these commitments that have now developed and that 
we have held ourselves to, can we forge the kind of real 
concrete partnerships where 2 years from now, 3 years from now, 
5 years from now we can actually say that with respect to our 
commitment, for example, on access to safe drinking water we 
have real plans toward making meaningful progress on each of 
those goals. And so that is where my office has come in and 
will stay diligent on that, because also I think it is 
important to emphasize with the World Summit, just as Rio was 
not the end of the conversation, it was actually the beginning 
of the conversation, we would like to see this World Summit be 
the beginning of a very new and hard emphasis on really 
implementing our goals toward lifting the world out of poverty 
and assuring for them the kind of quality of life that we enjoy 
here in America.
    Senator Jeffords. Mr. Connaughton, the Framework Convention 
commits the United States and all the Parties to reporting 
detailed information on its policies and measures ``with the 
aim of returning individually or jointly to their 1990 levels 
of these man-made emissions of greenhouse gases.'' Which of the 
programs outlined in the Administration's Climate Action Report 
aims to return our emissions to the 1990 levels, and by when?
    Mr. Connaughton. The Action Report, which, as you know, 
Senator, goes on at great length, outlines more than 60 Federal 
programs and mentions numerous activities at the State and 
local level, all of which are oriented toward mitigating 
greenhouse gas emissions. In addition, we have an extensive 
program of research and development and technology deployment, 
not just on the pure technology side, for example, in 
sequestration and how we can capture carbon, but also in the 
land management side of things in terms of how we can better 
utilize our natural resources and the acreage that we have in 
the United States toward meeting our Nation's agricultural and 
wood products and other needs.
    That set of programs covers every sector of the economy. It 
includes a range of mandatory measures, a range of voluntary 
measures, a range of incentive-based measures. And, again, when 
you sort of line it up program for program, it is a level of 
effort that far outpaces much of what the rest of the world is 
currently doing.
    In terms of a timeline of when, we cannot set one. I think 
the non-binding aim of the Framework Convention was not met by 
the United States or by most of the rest of the developed 
nations of the world. I think we need to set ourselves on a 
realistic course, consistent with economic growth, by which we 
can all make meaningful progress toward that long-term goal of 
stabilization of greenhouse gases in the atmosphere.
    Senator Jeffords. I am sorry, but the question is, which 
ones aim at 1990?
    Mr. Connaughton. The entire package aims at reducing the 
growth in our greenhouse gas emissions, Senator. There is no 
particular silver bullet program by which we could achieve that 
goal.
    Senator Jeffords. Senator Chafee.
    Senator Chafee. Thank you, Senator Jeffords. I have a 
little bit of business. Senator Hagel, a member of the Foreign 
Relations Committee, asked me to submit for the record his 
opening statement.
    Senator Jeffords. It will be accepted, without objection.
    [The prepared statement of Senator Hagel follows:]
 Statement of Hon. Chuck Hagel, U.S. Senator from the State of Nebraska
    Mr. Chairman--Thank you for holding this hearing. This is an 
opportunity for the Administration to discuss the progress that has 
been made on these five environmental treaties, all of which have been 
ratified by the U.S. Senate.
    Of course, much of the talk today is also likely to focus on a 
treaty that was signed by President Clinton but never submitted to the 
Senate, the Kyoto Protocol.
    I would like to remind my colleagues of a bit of Senate history on 
this issue.
    Tomorrow will mark the 5-year point since the Senate voted 
unanimously to provide President Clinton and Vice President Gore with 
clear advice regarding the Kyoto Protocol. It is unfortunate that the 
Clinton Administration ignored the Senate's 95-0 vote on S.Res. 98, or 
the Byrd-Hagel Resolution, but the conditions outlined in that 
resolution remain the guideposts for U.S. international climate change 
policy.
    I would also remind my colleagues, and this frequently gets 
forgotten in the discussion, perhaps even more significant than the 95-
0 vote was that the Byrd-Hagel Resolution had 65 bipartisan cosponsors.
    As we know, the Byrd-Hagel Resolution was very clear. It called on 
the President not to sign the Kyoto Protocol, or any other 
international climate change agreement, unless two minimum conditions 
were met.
    First, S. Res. 98 directed the President not to sign any treaty``. 
. . unless the protocol or agreement also mandates new specific 
scheduled commitments to limit or reduce greenhouse gas emissions for 
Developing Country Parties within the same compliance period.'' The 
message was simple. Yet as we know, the Kyoto Protocol does not include 
a single developing nation. These are the very nations, such and China 
and India, that will soon lead the world in manmade greenhouse 
emissions. Any treaty that exempts them from participation is folly.
    Second, the Resolution stated the President should not sign any 
treaty that``. . . would result in serious harm to the economy of the 
United States.'' The Kyoto Protocol would have legally bound the United 
States to reduce our greenhouse gas emissions to 7 percent below 1990 
levels by the years 2008 to 2012. As President Bush stated in February, 
this would have cost the U.S. economy $400 billion and resulted in the 
loss of 4.9 million jobs.
    The Clinton Administration never submitted it to the Senate for 
debate and consideration. I suspect it is because they knew what is 
still true today--if put to a vote in the Senate, the Kyoto Protocol 
would face resounding defeat.
    Other nations are also reconsidering their early ardent advocacy 
for the Kyoto Protocol. Japan has ratified the treaty, but has no 
enforceable plan to meet its obligations. The same is true for the 
European Union. Australia has joined the United States in saying it 
will not ratify the protocol. Canada and Russia have not made final 
commitments to ratification.
    The Kyoto Protocol is collapsing under the weight of the reality of 
its economic consequences.
    Does that mean the United States should turn its back on 
international efforts to address potential climate change? No, that 
would be irresponsible.
    In his February 14 announcement of the Administration's climate 
change policies, President Bush stated, ``I intend to work with 
nations, especially the poor and developing nations, to show the world 
that there is a better approach, that we can build our future 
prosperity along a cleaner and better path.''
    he Administration has backed up the President's words with funding 
and tangible international cooperation. I'm sure the witnesses here 
today will expand on these efforts and I look forward to their 
testimony.
    Next month, nations will gather for the World Summit on Sustainable 
Development in Johannesburg, South Africa. We should stay focused on 
science, programs and resources that enhance international cooperation 
to produce tangible environmental benefits for all nations. Not worn-
out debates over dead treaties.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you. Mr. Turner, to follow up on the 
Summit in Johannesburg, what are the goals that we will be 
setting out for us as we attend this summit? What do we hope to 
accomplish?
    Mr. Turner. Senator, I think we are committed to success. 
And then you are asked the question, how will we measure 
success? I think we will measure success by getting some 
commitments to concrete actions by the world community to make 
a difference in places around the world. By that, I think the 
United States is advancing themes based on the need for good 
governance, the need to increase the total flow of resources to 
eradicate poverty and lift the quality of people's lives. We 
need concrete commitments. In fact, the United States is 
working on deliverables in the following areas. The three most 
important seem to be: Access to energy. We have great 
opportunities in providing clean energy technology. It is 
inexcusable that we have almost 2 billion people today without 
access to fresh water. So I think water will be a priority. 
Third, the problem of HIV/AIDS and other infectious diseases. 
So, health, fresh water, and energy would be the top three 
areas for deliverables. We are also working on packages in 
forestry, oceans and fishery biodiversity, food security, and 
education. We feel this package helps invest in people, it 
helps build a platform which will not only help economic growth 
but environmental sustainability.
    So I think our opportunity is to get beyond lofty rhetoric, 
the negotiation of text, and get into real partnership 
commitments. We have an ongoing dialog with other countries, 
both developed and developing, trying to forge these 
partnerships, a dialog with the nonprofit community both 
domestically and internationally, and business groups to see if 
for the first time we can build on a continuum offered us by 
the Doha Conference on Trade, the Monterrey Conference, to 
increase the total flow of resources to impoverished areas of 
the world. Johannesburg is an opportunity to bring this all 
together with real concrete commitments. The United States, I 
have to say, is really leading that international effort right 
now to forge those commitments.
    Senator Chafee. Very good goals to have for the conference. 
I support them and wish you good luck at building consensus 
with other nations around the world. Certainly health and fresh 
water and curtailing the spread of infectious diseases are a 
good place to start and help build an economy. So I will 
certainly be supportive of those efforts.
    Mr. Connaughton, in your statement you talk about measured 
actions as we learn more from science. I am curious as to when 
does the science finally convince the Administration to take 
action. Where is the Administration on global warming in 
relation to the science? Is it a little apprehensive of it at 
this point, or beginning to come to the point of this is an 
issue that needs aggressive action?
    Mr. Connaughton. Where we are with the science is there is 
a significant scientific enterprise that has produced a number 
of projections that are sufficient to give us cause for action. 
The issue is are we calibrating our action to the current state 
of the science. I believe the President's plan does precisely 
that in terms of taking us to the next step of slowing the 
growth in emissions and yet not taking us so far down the road, 
given the uncertainties of the science, that we are actually 
having significant detrimental effects on jobs, the American 
workers, which is important, and it is not just American 
workers, but it is the kinds of effects that you would see with 
quite restrictive actions in other countries of the world.
    So when is the science done? We have had a couple of 
decades of scientific enterprise. We are looking at many more 
decades, funded with the U.S. carrying the largest share of 
that funding, in which we have to stay on top of this. Our 
research effort in climate change, again, it is unmatched in 
the world and it far outpaces our research in many other areas 
of more immediate consequence to people in the United States of 
America. But it is important enough to stay up with the 
science.
    What we are trying to do, though, is we are trying to get a 
more focused management program to some of that spending, not 
all of it, but some of that spending so it can actually begin 
to answer some of the more difficult questions that help us 
design programs that would be meaningful. We need to know more 
about some of the effects of, for example, the effects of 
aerosols, the effects of clouds, the effects of changes and 
adaptations to climate. We need to know more about that in 
order then to develop the kinds of policies that do not lead us 
to significant economic mistakes. Because, of course, if we put 
our economy further into reverse, we actually will not get the 
kinds of investments we need to make the progress toward that 
next generation of capital that we need to deploy to get new 
capital stock, to get the new cars everybody wants, to get more 
efficient manufacturing, and, importantly, more efficient homes 
and more efficient commercial enterprises, because that is 
where the real growth is.
    Senator Chafee. Thank you very much.
    Senator Jeffords. Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman. I would like to 
take a little bit of what you just said, Mr. Connaughton, and 
ask whether you think that some of the capital investment that 
I think we all think is important for generating economic 
growth is somewhat inhibited because there is an uncertainty 
and a conflict between what we sense are requirements of our 
international obligations and both the political debate that we 
have in America about climate change and the uncertainty that 
seems to revolve around what certainly I read in our 
international requirements. For instance, I would cite under 
Article 3.3 of the Convention, talking about the Framework 
Convention on Climate Change, ``Parties should take 
precautionary measures to anticipate, prevent, or minimize the 
causes of climate change and mitigate its adverse effects where 
there are threats of serious or irreversible damage. Lack of 
full scientific certainty should not be used as a reason for 
postponing such measures.''
    Sometimes it does not feel that our policies are taking 
into account what we have as mandates, at least in some sense, 
from our international conventions. I would think as an 
investor in dealing with some of these needs that people might 
be confused, particularly as they see increasing evidence 
published that some of these considerations, particularly with 
regard to carbon, are a serious problem.
    How is the United States resolving this sort of dilemma of 
debate that exists in the context of what our international 
obligations are? Not only yourself, but Mr. Turner as well, I 
would like to hear your comments on that.
    Mr. Connaughton. First, I think that the President's 
announcement on February 14 was a key next step in providing 
further clarity that you describe, Senator, in terms of making 
clear at least what this Administration's expectation is on the 
greenhouse gas side of the equation in terms of a realistic but 
still ambitious goal for further efficiency and productivity in 
our economy. That is our expectation.
    The second component of that, which has to do with perhaps 
the investment uncertainty you describe, is we look very 
closely at the approach that certainly Senator Chafee 
championed, that numerous members of the Senate championed, 
toward not just getting our information flows better in terms 
of improving our registry of reductions in the various sectors, 
but also to create a credible crediting system by which those 
who do make investments today have some high level of assurance 
that those investments will be recognized in whatever a future 
policy could hold, whether it is an incentive-based policy, 
whether it is a market-based policy, which we would emphasize 
as the better path forward, or through even additional 
mandatory programs that might come to the fore in terms of 
where we are falling short of real action.
    Senator Corzine. Is the White House supporting the 
Brownback-Corzine amendment on registry of carbon dioxide 
emissions?
    Mr. Connaughton. We do not support that because we do not 
think there is a need for at this time a mandatory reporting 
element. We think enhancing the registry is a great idea. I 
would think creating----
    Senator Corzine. As you know, it is not mandatory for the 
first 5 years as long as we meet some kind of reduction 
standards, and would not become mandatory if people met those 
standards.
    Mr. Connaughton. I am aware of that and that is our point 
of departure.
    Mr. Turner. Senator, I want to respond and just offer some 
reflections of a trip I just returned from. China was my first 
trip and a real learning experience, where we completed some 
high level dialog with China on a diverse array of 
environmental issues, and then I was able to travel through 
China. China, to me, was a great reflection on the broader 
approach and its justification that the United States is taking 
in engaging countries like China and India and others that will 
represent a significant amount of emissions.
    I was impressed in going to China that that is a country on 
the move economically. To improve the lives of their citizens, 
their energy consumption is going to go up exponentially. Their 
technology and science is extremely poor, and they are the 
first to admit that. The emission of greenhouse gas is 
significant. They are making a significant effort but the 
utilization is not good and not efficient. So there is an 
excellent opportunity for the United States to take science, to 
take technology and partnership with them.
    I went to one of the poorest regions in China where they 
have some significant desertification and erosion, over-
grazing, dust issues. They admit it, as our science admits it, 
that the dust is now coming all the way across the United 
States from the Mongolian-Tibetan plains of China.
    We have been accused of being isolated on global climate. I 
submit the absolute opposite is true. The United States in fact 
is leading the effort to engage the developing world in this 
dialog and approach to collective strategies on climate. That 
impact has significant opportunities to address this serious 
issue. We need to do much more in our international efforts, 
but the United States is really leading, trying to get the 
attention of the President's commitment to engage other nations 
in this whole effort on climate.
    Senator Jeffords. What did you mean by trying to get the 
President's attention?
    Mr. Turner. No, excuse me, Mr. Chairman. I mean in trying 
to follow through on the President's appropriate commitment of 
the United States. Part of our strategy is to work with other 
nations, engage other nations in approaches to the serious 
issue of climate. As you know, Mr. Chairman, the Senate voted, 
and the President concurred, that one of the failings of the 
Kyoto process was we were leaving out too many countries, 
members of the world community that not only today emit a lot 
of greenhouse gases, but the potential for significant 
increases in the future based on old technology really has 
frightening ramifications for where we go in climate. So I am 
proud of what we are doing to engage other countries, 
especially the developing countries.
    Senator Jeffords. I am very interested in this. I was in 
China and I started an organization dealing with more efficient 
use of energy. They sent some men over who looked at China's 
incredible need. To just improve the technology, they could 
reduce their emissions immensely. What does the United States 
intend to do to try to get these countries to be more efficient 
in their use and to reduce greenhouse gas emissions?
    Mr. Turner. Senator, obviously, in our discussion with 
other countries, their needs and interests are different. But 
it is a spectrum going from providing science and technology, 
which seems to be the biggest need, to, as Mr. Connaughton 
referred to, the need for more information; i.e., climate 
research. We have committed to a global climate research 
system. And, again, the United States is leading that effort to 
answer many of the legitimate questions that we still have out 
on climate change, and we are partnering with other countries 
in setting up global monitoring stations. I visited a very 
remote one we put up in China. So science and technology, 
global research, looking at opportunities to comment together 
and work on global policy.
    Japan, as an example, we have three working groups on 
research, science and technology, and how together we can go 
out and help developing countries, and then looking at future 
markets, which is business opportunities for both countries. In 
India, for an example, Mr. Chairman, India, it is astounding to 
me that we have 600,000 women dying each year from indoor air 
pollution from the use of pre-industrial fuel use, poorly 
ventilated stoves. So India's need for new types of energy for 
basic heating and so forth, that is unique to India.
    So each country has unique opportunities for the United 
States to take its research, its technology, engage the private 
sector, engage the nonprofit community, engage the academic 
community. There are so many significant needs out there in the 
world that I think it will be an opportunity for the United 
States to contribute significantly to where we go in the coming 
decades on climate change.
    Mr. Connaughton. Senator, if I might add.
    Senator Jeffords. Yes.
    Mr. Connaughton. The Monterrey consensus by which we are 
trying to create harder criteria for countries we think can be 
successful is also important to this overall enterprise. We 
need to create the kind of economic, social, and political 
environment in some of the developing world in some of these 
larger developing countries by which we can actually get the 
kind of long-term investment that we enjoy in the United 
States, which, as you know, tends to deliver the better 
technologies. If you are in an unstable environment, if you are 
in an environment where capital is not protected, if you are 
not engaged in the international trade world by which you have 
to become competitive on efficiency and productivity grounds, 
you just will not get those kinds of investments that will turn 
things around faster.
    So I do not want to leave off the other programs that do 
not necessarily obviously have the effect that we are 
discussing in terms of the environmental dimensions of that. 
But from an environmental perspective and also from a 
greenhouse gas perspective, those agendas are really critical 
toward making real progress on a much shorter time line in some 
of these countries toward environmental protection. And it 
opens the door for the kinds of very rich dialogs we have going 
on right now, but it will open the door for even more 
consequential dialog as we are able to share technical 
capacity, share regulatory mechanisms, the ones that work, the 
ones that do not work, and maybe help them leapfrog through 
some of our lessons as we now get to a more streamlined, more 
market-based system of addressing some of our issues.
    Senator Jeffords. A question for both of you. What are the 
top three U.S. substantive priorities for the Summit of clear 
sustainable development outcomes? What do you think the Summit 
will achieve in terms of real sustainable development results 
at home and abroad?
    Mr. Turner. Mr. Chairman, I think I would answer that in a 
couple of ways. The top three sectoral areas that we have 
opportunities to make commitments in are I think, as I 
mentioned, in the area of fresh water, health, and the 
availability of energy. A more thematic approach, I think it is 
an opportunity to implement the realization that taking care of 
the environment starts with taking care of people, the 
opportunity for the United States to reduce poverty around the 
world. And third, I think we have an opportunity to change the 
way we have traditionally done assistance around the world, and 
not just economic assistance for developing nations, but to in 
fact incorporate a new theme where we help countries help 
themselves with better ruling capacity, help them invest in 
their own people, help them encourage entrepreneurship and 
involvement of the private sector.
    So I think we have an opportunity to build a new paradigm 
of partnerships out around the world.
    Senator Jeffords. Mr. Connaughton, why do you believe that 
the more environmentally sound EPA straw proposal on 
multipollutant legislation was rejected by the White House?
    Mr. Connaughton. That was an initial straw proposal that 
then went through extensive analysis, economic analysis, 
feasibility analysis, toward what we think is a quite strong 
proposal, a 70 percent reduction in the three criteria 
pollutants, sulfur dioxide, nitrogen oxide, and mercury, but is 
also one that is attainable. We can go quite far, Senator, as 
you know, but we can do it in a way that keeps us within the 
realm of not having an impact on consumers, making 
unprecedented strides in terms of the environmental protections 
that that would deliver and do it on a timeline by which the 
economic community can actually make investments toward these 
leapfrogging efforts and give them the long-term certainty with 
their investments where they can actually do some significant 
capital planning. So there were a number of factors that came 
into our policy that led us to a different place, but not a 
markedly different place.
    I would also note, and I want to emphasize because it comes 
up frequently, the issue of coal. Coal represents 50 percent of 
electricity generation today. Coal is affordable, it is 
reliable, and it is here, it is domestically secure. But what 
we need to do is we need much cleaner coal-fired generation. 
The way you do that is to create the right kind of incentives, 
and we have got a lot of money on the table toward clean coal 
technologies as part of our climate policy as well as part of 
our air policy, but you also then need to create the kind of 
timelines so that the plants can turn over in a way that makes 
sense to business investors so that they will actually invest 
in the application of these technologies. As you know, Senator, 
it is quite exciting the technologies that are potentially 
available. If we create the right timeframe, make the levels 
economically reasonable, we think we can spur the investment 
toward the application of those technologies, the broad 
application, which then preserves a role for coal even as we 
continue with a more diversified energy system.
    We need more nuclear, we need more natural gas, we have to 
look to solar wind and some of these other renewable 
technologies in which we have quite a strong commitment. But we 
should not lose sight of the incentive we have, not just for 
the United States, because if we can advance coal technologies 
in the United States, then we can take them to places like 
China where they are not going to be creating massive wind 
farms to address their energy needs. And they are putting in a 
lot of baseload capacity. It would be really helpful for us to 
take our success here and take it international.
    So a whole lot of factors went into it and we really did 
try to look at this holistically and consistent with our 
overall energy and economic goals. We think we hit the right 
balance.
    Senator Jeffords. Mr. Turner, is the U.S. prepared to agree 
to seek higher appropriations in the outyears to replenish the 
global environmental facility GEF in order to leverage other 
donors?
    Mr. Turner. Mr. Chairman, as you are aware, the President 
committed us to I believe $178 million on the GEF, realizing 
this is an important outreach especially in developing 
countries. So for the first time we recommended catching up 
with our arrears and adding in $70 million for the first time.
    Currently, the third replenishment negotiations are under 
way and we plan to participate in those in a dialog with the 
world community to see where the world wants to go next. The 
focus of the GEF is extremely important to the United States. 
But I am pleased that we made a significant increase in our 
request to the Congress on the GEF. The consideration of the 
next round is under review.
    Senator Jeffords. I am pleased to hear that. It seems like 
this would be necessary to fully implement the Convention to 
Combat Desertification and the Stockholm Convention on 
Persistent Organic Pollutants and the prior informed consent 
Convention. So I appreciate that information.
    For both of you. The Senate-passed Sense of Congress on 
Climate Change, Section 1001 of the Energy Policy Act of 2002, 
says the U.S. should take responsible actions to ensure 
significant and meaningful reductions in emissions of 
greenhouse gases from all sectors, and take part in 
international negotiations that lead to U.S. participation in a 
fully binding climate change treaty. Is the U.S. presenting 
anything at the World Summit in terms of clear targets and 
timetables for addressing climate change and reducing emissions 
consistent with this?
    Mr. Connaughton. With respect to the World Summit, first 
off, climate change will be discussed but it is not an agenda 
for action because just a few short weeks later the Conference 
of the Parties will be meeting again. And so there is a 
separate international meeting to continue to carry out the 
discussions under the Framework Convention and under the Kyoto 
Protocol.
    With respect the first point, I think the answer to that is 
yes, we are moving forward with the kind of international 
bilateral and multilateral process that Assistant Secretary 
Turner outlined for you to, in fact, re-engage, since we are 
not participating in the Kyoto Protocol, engage outside of that 
particular forum to come up with common strategies, again, not 
just domestically but with our international partners, 
including other countries who may or may not become part of the 
Kyoto Protocol. So we are not waiting for decisions on that to 
take the kind of action that that resolution urged.
    We remain guided by the precursor resolution that we need 
to have an approach that does not significantly impact the 
economy, and also an approach that does engage developing 
countries, which were the two key pieces that were missing. So 
we remain guided by that as well. And we are looking forward to 
seeing significant progress. I would note that the President's 
commitment of an 18 percent reduction in greenhouse gas 
intensity, that alone in 2010 would result in 100 million 
metric tons avoided from business as usual, which is quite a 
consequential amount of tons of carbon avoided. We think that 
also is consistent with the spirit of the Senate resolution.
    Senator Jeffords. As you both know, I have deep concerns 
over the way we are handling the results of pollution from our 
power companies. Have you been involved in any of the decisions 
related to the release of the New Source Review documents to 
the Congress or in discussions of adopting a new policy and 
providing less information to Congress? That is kind of a 
little nasty question.
    Mr. Connaughton. First of all, yes, the New Source Review 
policy was the--EPA was directed under the National Energy 
Plan, in consultation with the Department of Energy, to prepare 
the report on the impacts of the New Source Review program on 
electricity supply. So that was a joint exercise between the 
two agencies in which the various White House offices, as part 
of our interagency process, we were apprised of its progress 
and where that was heading.
    In terms of the recommendations that came from EPA, there 
too, consistent with other processes, EPA kept us informed of 
where that was going. We had extensive interagency 
conversations about the various recommendations that EPA was 
considering. The end product was produced by EPA and then was 
received back into the interagency process to see what it 
meant.
    When EPA's regulatory proposals to implement the 
recommendations are complete, those will come over to the 
Office of Management and Budget and, consistent with our 
traditional processes, those will receive interagency review as 
well, as do all other significant regulations, and we expect to 
be a part of the review of the regulations at that time.
    In response to your final point, the dig on information, we 
understand you had information requested out to EPA and they 
got some information to you and others not to you on quite the 
timeframe you expected. But it is my understanding that the 
large body of that has made it up to the committee. And so 
while I suppose we could talk about timelines for getting it to 
you, it is my understanding it has made its way to you. So, if 
there is more to discuss on that, I would be happy to do what I 
can and talk to EPA.
    Senator Jeffords. I cannot tell you how disturbing it is 
with that particular issue, which is a life-saving issue, as 
you well know, that we have had such troubles in that regard. 
So I appreciate that.
    There are other Senators who could not be here today 
because of their busy schedules, and thus they will have the 
opportunity to submit questions to you to be responded to in 
writing. So I just want to let you know that. I also want to 
thank you very much for being here today and candidly 
participating in our question and answer period.
    Mr. Turner. Mr. Chairman, thank you for your time, and 
Chairman Sarbanes, and your interest in giving the 
Administration the opportunity to discuss a very important 
subject matter, and that is the implementation of our 
international obligations. So thank you, Mr. Chairman.
    Mr. Connaughton. Thank you, Mr. Chairman.
    Senator Jeffords. Thank you both.
    We will now move on to our next panel. Our first witness is 
the Honorable Maurice Strong. He is a native of Canada and 
resides in Buckhorn, Ontario. Mr. Strong has long-standing ties 
with the private and public sectors and has served in an 
impressive array of business, government, and nongovernmental 
organizations. Currently, Mr. Strong is a Special Advisor to 
the Secretary General of the United Nations, President of the 
Council for the University for Peace, a Senior Advisor to the 
President of the World Bank, and Chairman of the Earth Council. 
Mr. Strong was the Secretary General of the 1992 United Nations 
Conference on Environment and Development, and the 1972 United 
Nations Conference on the Human Environment, and subsequently 
became the Executive Director of the United Nations 
Environmental Program.
    Mr. Strong, thank you for traveling all the way from Canada 
to be here with us today. Let me introduce the other two on the 
panel and then we will start with you for a statement.
    The second member of the panel is Mr. John Dernbach. He is 
a professor of law at Widener University Law School. He is 
editing a book, ``Stumbling Toward Sustainability,'' that 
assesses progress the U.S. has made on the sustainable 
development in the past 10 years and recommends the next steps. 
Welcome. We look forward to hearing from you.
    Also, we have Christopher Horner, who serves as a Senior 
Fellow at the Competitive Enterprise Institute, and as Counsel 
of the Cooler Heads Coalition. That sounds like what we need.
    Please proceed, Mr. Strong.

   STATEMENT OF HON. MAURICE STRONG, CHAIRMAN, EARTH COUNCIL 
           INSTITUTE CANADA, TORONTO, ONTARIO, CANADA

    Mr. Strong. Distinguished Chairman, Senator Jeffords, 
Senator Feingold, ladies and gentleman. First let me 
congratulate you, Senator Jeffords, on your leadership on these 
issues and say what a privilege it is for me to have the 
opportunity of testifying before these two important committees 
of the U.S. Senate as you consider issues which are at the 
center of my own life interests and concerns. It is 
particularly encouraging to know that you are addressing these 
issues at a time when the position of the United States of 
America in respect to these issues has never been more 
important to the human future.
    The United States has been at the center of the movement to 
develop since the first Stockholm Conference first put these 
issues on the international agenda an international regime of 
cooperation and of institution-building to deal with the 
dilemma which Stockholm revealed. The fact that through our 
economic life we are impinging on the resource environmental 
and life systems on which the future of all life on earth and, 
indeed, our economic welfare also depend.
    And as we move toward the World Summit on Sustainable 
Development in Johannesburg that will meet next month, these 
issues have special importance. Because if we fail at that 
conference to re-ignite the momentum that we achieved at Rio de 
Janeiro 10 years ago, I do not know when that momentum is 
likely to be rejuvenated. So I am deeply encouraged by these 
hearings and pleased and grateful at the opportunity you have 
provided to hear some views. Those views are primarily 
reflected, Mr. Chairman, in my written presentation. I have to 
say, I got your invitation when I was down in Central America, 
so I had to do it rather hurriedly. But I do hope they will 
help to amplify some of the comments I will now make briefly.
    The recent retreat by the United States from much of its 
long stand role as the leading driver of these issues, as 
particularly evidenced by its withdrawal from the Kyoto 
Protocol of the Climate Change Convention, threatens the 
progress that has been made in collaborative management of our 
environmental problems in the past thirty years and the 
prospects for further progress that is so essential for our 
future. And let me say, Senator, I probably have spent as much 
time in my life in the United States as I have in my home 
country. I think I have paid more taxes here than I have in my 
home country.
    Senator Jeffords. We appreciate that very much.
    Mr. Strong. So I come here as a friend and admirer of all 
things American. My comments are expressions of my concern, not 
to be taken as criticism, but expressions of concern that I 
believe reflect the concerns of many Americans and people 
throughout the world concerning the nature of the U.S. position 
on these issues. They have indeed cast a cloud over prospects 
for the World Summit on Sustainable Development which will 
convene next month in Johannesburg.
    What the United States does or fails to do matters, 
Chairman, as you so well know, and that is why you have 
convened these hearings. It matters immensely. Not only in 
substance, but in example. As the most powerful nation in the 
world, indeed you are a nation that gives a signal to others. 
Therefore, any withdrawal of your commitment to international 
negotiating processes and to the agreements that have been 
reached over so many years really does undermine the very 
fabric of international cooperation and the international legal 
system, which the United States itself and the whole world owes 
it a great debt of gratitude, Senator, for its leadership in 
these past thirty years in developing that framework. It is 
still far from perfect. We cannot allow it to slip back.
    So I am really encouraged by these hearings that you are 
focusing now on the whole process by which the United States, 
yes, and others, have performed under existing commitments and 
decisions of past conferences. There is a whole spectrum I do 
not need to elaborate. There are agreements reached at 
conferences and ratified by fora such as the General Assembly 
of the United Nations.
    In Rio we made considerable progress. Yes, we did not do 
everything that we had hoped for. But we did make very 
significant progress. And the United States and others really 
signed on to some very important agreements: the agreement on 
climate change, the Convention on Climate Change, the Framework 
Convention; the Convention on Biodiversity, both of which has 
now been ratified by the United States; the Convention to 
Combat Desertification, which you, Senator Jeffords, have taken 
such an important leadership role in. And so we very much hope 
now that there will be a renewal in that leadership.
    I was pleased to hear Administration officials here, who I 
know, presenting the case for continued strong support for so 
many of these issues, but frankly not all of the ones where 
U.S. leadership is important.
    I see my time has lapsed, so I would be delighted to expand 
on any of these concerns in the question period. And again 
thank you, Senator Jeffords.
    Senator Jeffords. Thank you very much.
    Next is Professor John Dernbach. He is a Professor of law 
at Widener University Law School. He is editing a book, 
``Stumbling Through Sustainability,'' that assesses progress 
that the U.S. has made on sustainable development in the past 
10 years and recommends next steps. Welcome, Professor.

 STATEMENT OF JOHN C. DERNBACH, PROFESSOR, WIDENER UNIVERSITY 
                           LAW SCHOOL

    Mr. Dernbach. Thank you, Chairman Jeffords, Senator 
Feingold. It is a delight to be here. I appreciate the 
opportunity to discuss U.S. adherence to its sustainable 
development commitments, particularly those made at the Earth 
Summit in 1992. As you mentioned, I am the editor of a 32-
chapter book on U.S. sustainable development efforts in this 
past 10 years. The book is being published this week by the 
Environmental Law Institute here in Washington. The book's 42 
contributors come from universities and law schools, 
nongovernmental organizations, the private sector, and State 
Government. They are respected experts in their fields.
    What I would like to do is briefly review some of the 
book's findings and then share some of its basic 
recommendations in a little greater detail.
    The U.S. has, unquestionably, begun to take some steps 
toward sustainable development, largely because of our 
environmental and conservation laws. Yet, on balance, the 
United States is now far from being a sustainable society, and 
in many ways is farther away than it was at the time of the 
Earth Summit in 1992.
    International leadership begins at home. With 5 percent of 
the world's population, the United States was in 1992 
responsible for about 24 percent of the world's energy 
consumption and almost 30 percent of the world's raw materials 
consumption. Since the Earth Summit, materials use has 
increased 10 percent, primary energy consumption has increased 
21 percent, and energy-related carbon dioxide emissions have 
increased by 13 percent. Over and over, the books contributors 
found increases in materials and energy efficiency, and in the 
effectiveness of pollution controls for individual sources, 
were outweighed by increases in consumption and increases in 
pollution related to the manner in which things were made. 
Despite a significant increase in municipal waste recycling in 
the past decade, for example, U.S. generation and disposal of 
municipal solid waste per capita have been growing since 1996.
    According to Harvard biologist Edward O. Wilson, ``four 
more planet Earths'' would be needed for ``every person in the 
world to reach present U.S. levels of consumption with existing 
technology.'' Yet the U.S. standard of living, equated with 
high levels of consumption and the ``good life,'' is widely 
envied and emulated throughout the world.
    In this and in many other ways, though not all ways, the 
United States has not exercised the kind of leadership 
necessary for sustainable development. My sense is that we are 
often unwilling to face such issues because we do not feel like 
we have the tools. The book provides an issue-by-issue roadmap 
for sustainable development in the United States and ways that 
would enhance prosperity and protect and restore our 
environment.
    For starters, the Federal Government should adopt and 
implement a national strategy for sustainable development, with 
specific goals and priorities, to harness all sectors of 
society to achieve our economic, social, environmental, and 
security goals. The strategy would lead to a stronger, more 
prosperous America with higher quality of life because we would 
be pursuing these goals in ways that support each other in 
greater and greater degrees over time, rather than undermine 
each other. The strategy could be modeled on that of the 
European Union or States such as Oregon and New Jersey, and 
specifically address climate change, biodiversity, 
international trade, and other major issues. The President 
could get the process started with an appropriate Executive 
Order to Federal agencies under the Government Performance and 
Results Act and the National Environmental Policy Act. An 
executive-level entity would be needed to coordinate and assist 
in the implementation of the strategy. A counterpart entity in 
Congress would also be helpful. A set of indicators to measure 
progress in achieving goals would make the strategy more 
effective and meaningful.
    In addition, the United States needs to recognize that its 
substantial consumption levels, coupled with domestic 
population growth, have serious environmental, social, and 
economic impacts. Americans also need to understand that human 
well-being can be maintained and enhanced by more efficient and 
effective use of materials and energy and by less polluting 
means of production. There are a variety of legal and policy 
tools available to deal with this, including a number of policy 
and legal tools that have been applied at the State level, 
including renewable energy portfolio standards, Senator, as you 
know, and smart growth legislation. Northern European countries 
are also experimenting with a shift in taxes on materials and 
energy, on one hand, they are shifting some of the tax to there 
from labor and income, on the other hand. And there is some 
very interesting research on that.
    The U.S. needs to take a stronger and more constructive 
role internationally, not only on terrorism but on the broad 
range of issues related to sustainable development. Congress 
should repeal or modify laws, policies, and subsidies that 
encourage unsustainable development. Protection of natural 
resources and the environment must focus more holistically on 
the resources to be protected, and on understanding those 
resources. Finally, transportation, public health, and other 
social infrastructure and institutions should be designed and 
operated to further economic, environmental, and security goals 
at the same time.
    We know what we need to do, and we also know why. The 
challenge I think is to deliver on what we know. Thank you.
    Senator Jeffords. Thank you very much.
    Our next witness is Christopher Horner. He serves as Senior 
Fellow at the Competitive Enterprise Institute, and is counsel 
to the Cooler Heads Coalition. We need you. Welcome.

STATEMENT OF CHRISTOPHER C. HORNER, SENIOR FELLOW, COMPETITIVE 
                      ENTERPRISE INSTITUTE

    Mr. Horner. Thank you, Mr. Chairman, Senator Feingold, for 
your interest. I appreciate the opportunity to testify before 
this joint panel on what is a very important topic. The scope 
of the hearing is broad, as evidenced by the Administration's 
testimony regarding all of its efforts and all of the treaties 
we have committed to. So I am going to limit my testimony to 
the propriety or impropriety of the U.S. implementing or, more 
accurately, amending the Rio Treaty, the U.N. Framework 
Convention on Climate Change, by adopting or ratifying the 
Kyoto Protocol.
    For whatever specific reasons, be they economic growth, 
failure to foresee the energy requirements of the new economy, 
or other, the U.S., like many nations, failed to meet its Rio 
targets, the specific numerical target of 1990 greenhouse gas 
emission levels, although not our funding targets and other 
efforts we did implement successfully. Now some advocates 
assert, because the U.S. has not met its Rio goal, we must 
commit to even greater, that is, more unrealistic, mandatory 
reductions, that is, Kyoto. Attempting instead to comply with 
the initial treaty seems the more appropriate response, for 
several reasons.
    Rio went into force in March 1994. President Clinton did 
not request, nor did Congress enact, independent legislation 
implementing Rio, which was not an inherently self-implementing 
treaty. Authority and precedent make clear that responsibility 
for proposing such programs lies with the White House. If our 
non-binding Rio obligations in fact bound the U.S. to achieve 
specific reductions, contrary to contemporary Senate and 
Executive assertions of U.S. intentions, then the Executive 
interpretation of Rio Article 4 specifically throughout the 
1990's was actually incorrect, and is responsible. The pending 
question is apparently, does the U.S. respond by attempting to 
meet such Rio promises, or by making further, even deeper, 
binding promises?
    Skipping specific pursuit of the U.S.' Rio promises, in 
favor of Kyoto's binding commitments even greater than those we 
have failed to attain, seems highly illogical. Compounding this 
of course is that precisely 5 years ago tomorrow, happy 
anniversary, the Senate unanimously spoke to what it recognized 
was an unacceptable drift away from the U.S.' Rio stance 
adamantly opposed to binding commitments. The Senate, seeing 
what was developing, asserted its ``advice'' pursuant to 
Article II, Section 2 of the Constitution, passing Byrd-Hagel 
S. Res. 98 unanimously.
    Subsequent to and despite this advice, U.S. negotiators 
clearly disregarded both major Byrd-Hagel recommendations: 
Kyoto did not require developing countries to share our 
commitments, and even the Clinton White House economic advisors 
have recanted their refutations of the Kyoto cost estimates.
    Since then, nothing has emerged to indicate that Kyoto does 
not still violate both key Byrd-Hagel conditions, and it is 
likely that very few Senators, though new members have arrived, 
have amended their position against a treating causing 
``serious economic harm.'' However, Clinton Administration 
officials did admit that they began working on the plan for 
binding commitments within 1 year after Rio went into effect.
    Kyoto, too, is clearly intended to be a similar step in a 
``treaty hopping'' campaign; even the models on which it is 
based predict an undetectable climatic impact, at a cost to the 
U.S. of up to $400 billion annually, according to EIA, yet 
maybe 1/30th of what its proponents seek. Rio and Kyoto offer 
differing commitments but purport ``the same ultimate 
objective.'' The U.N. IPCC has said that this means reducing 
greenhouse gas emissions by as much as 60 to 80 percent, which 
of course wildly exceeds Kyoto's specified ambitions.
    As such, the U.S. should require, prior to and as part of 
ratifying any further agreements, express acknowledgement not 
only of the actual ``ultimate goal,'' but that it is committed 
to its practical requirements, in this case up to ``30 
Kyotos.'' In this case, to a degree, I agree with Professor 
Dernbach, which is we need to set out specifically where we are 
going and what this requires. Now, I do not agree entirely with 
the Professor's testimony, but in concept, if this is where we 
are going, we need to expressly set it out in advance, now 
given that knowledge has changed, the interpretation of the 
ultimate goal has changed.
    Such treaty hopping agendas illustrate the importance of 
Senate treaty ``reservations,'' or the Senate's second bite at 
the ``advice'' apple. This comes of course during the 
``consent'' function, which function the U.S. negotiators 
unfortunately eviscerated. After agreeing to terms incompatible 
with Byrd-Hagel, the Administration also accepted Kyoto's 
prohibition on reservations, or the Senate's ability to specify 
the specific understandings or conditions of the U.S. 
commitment. This despite the Senate having also forewarned the 
Administration about this in advance of Kyoto.
    In summation, President Bush ought to match his assertions 
of having ``reject'' Kyoto with the requisite submission to the 
U.N. to that effect, as was done regarding the International 
Criminal Court. In the absence of that, the White House must at 
minimum assist resolution of the ambiguous U.S. role in Kyoto--
we sent that letter to the U.N. for a reason. Signatures carry 
responsibilities--by requesting the Senate disapprove of the 
treaty. In the absence of that, the Senate should recognize 
that there is no reverse equivalent of the ``presentment 
clause'' regarding treaties. Only protocol, not any 
constitutional prohibition, impedes Senate consideration of a 
signed treaty. Certainly given the imperative rhetoric 
surrounding Kyoto, if President Bush insists on continuing the 
U.S.' ambiguous role, the Senate should take matters into its 
own hands and decide the fate of the treaty.
    That resolution should by definition, for the process 
problems I identified, be rejection of Kyoto. Otherwise, by 
accepting this double indignity of ignoring advice and 
prohibiting reservations, this body would condone Executive 
circumvention of the Senate's constitutional treaty role. Thank 
you.
    Senator Jeffords. Thank you for that advice. I appreciate 
it.
    Senator Feingold.

  OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD, U.S. SENATOR 
                  FROM THE STATE OF WISCONSIN

    Senator Feingold. Thank you very much, Mr. Chairman. I am 
pleased to be here today. I think the idea of having the 
Foreign Relations and Environment and Public Works Committees 
come together to conduct oversight of the implementation of 
U.S. commitments under the environmental treaties that the 
Senate has ratified is both a good idea and it is long over-
due. So I think you, as I frequently feel toward this Chairman.
    The United States was among the principal architects of 
each of the agreements we are examining today. U.S. negotiators 
worked hard to develop and craft these agreements and ensure 
our Government and our interests were well-represented. The 
Senate then ratified these agreements with the view that 
desertification, ozone depletion, global climate change, trade 
in endangered species, and sustainable development through 
trade were important national and global issues. I am 
concerned, given our history and leadership, about the growing 
perception internationally that the United States is backing 
away from our international environmental commitments. I am 
pleased that the Administration testified on this. I am eager 
to hear more because I suspect that much of the ongoing 
diplomatic effort on these agreements may be under-reported in 
the press.
    Nonetheless, I believe that there is a serious perception 
problem, and one that needs remedied. It is my view that unless 
the United States exercises leadership for sustainable 
development in all relevant international forums, it will 
continue to miss many opportunities to improve environmental 
and social conditions worldwide, and it will perpetuate a 
perception that the United States does not keep its sustainable 
development commitments.
    As the Ranking Member of the Subcommittee on Africa of the 
Foreign Relations Committee--excuse me, as the Chairman of the 
subcommittee, thanks to Senator Jeffords----
    [Laughter.]
    Senator Feingold. I used to be the Ranking Member. That is 
why I said I thank him a lot. But I have had the opportunity to 
see first-hand how valuable the provisions of these agreements 
are to the people of Africa, where nearly one-quarter of dry 
lands are moderately or severely desertified, ozone level 
changes only exacerbate that problem, and endangered species 
contribute significantly both culturally and economically to 
many African states.
    These issues cut across borders and affect entire regions. 
One of the primary benefits, in my view, of U.S. participation 
in these agreements is the opportunity to take advantage of 
multilateral coordination to address these problems.
    So I thank you, Mr. Chairman. And if you would permit, I 
have just a couple of questions.
    Senator Jeffords. Please proceed.
    Senator Feingold. Let me first say that I was pleased to 
come here because of the importance of the hearing. But I am 
particularly thrilled because Professor Dernbach is a friend of 
mine who I have not seen in about thirty years. We debated 
against each other in high school. He is one of the smartest 
guys I have ever met. I think we each won some, is that fair to 
say, John?
    Mr. Dernbach. Something like that, yes.
    Senator Feingold. I have admired his work on environmental 
issues from afar. He is a wonderful choice to have before the 
Committee, and a native of our great State of Wisconsin.
    Let me ask a question first of Mr. Strong. You mentioned in 
your statement a concern that I share, as I have just 
indicated, that the perception that the United States' efforts 
on environmental issues is dwindling and that it is affecting 
our bilateral relationship. Would you share for the record the 
effects you have observed with our closest neighbor, Canada.
    Mr. Strong. Yes. Thanks, Senator. I do not of course speak 
for Canada, but I have less reticence to express my concerns 
about the Canadian position that I do here in this Senate about 
the U.S. position. I have to say that your sum of the retreat, 
what I have called retreat from leadership, and of course it is 
not an across-the-board retreat on every issue, has spilled 
over to Canada.
    We have a very serious national controversy now about 
whether Canada should or should not ratify the Kyoto Protocol. 
That is probably the most significant single impact. Of course 
the decision of the United States has immense influence, and 
there are immense constituencies in the industry in which I 
used to be, the energy industry, there is quite strong 
resistance, though not across-the-board resistance. Our Prime 
Minister has committed his government to ratify, but the 
provinces in Canada have significant rights and some of them, 
particularly Alberta and even Ontario, where I live, have come 
out against that. So they have not made their decision. But 
there is no question that on this issue and so many others, 
what the U.S. does influences Canada.
    And to just add to that, there is significant public 
concern about the current U.S. position on some of these 
issues. The polls in Canada show, as I believe they do here in 
the United States, a higher degree of public concern than is 
expressed yet at the top political levels.
    So, yes, what the U.S. says and does matters in Canada. But 
it also I have to say, as one who spends a lot of my time 
outside of this continent, it matters everywhere.
    Senator Feingold. Professor Dernbach, I think you would 
agree that U.S. concern over cost of compliance contributes 
significantly to the current difficulties with the Kyoto 
Protocol. I believe you looked at this issue in some detail. 
Would you share with the committee some of the economically 
beneficial actions we have taken to implement our commitments 
under the Framework Convention on Climate Change, and just 
highlight briefly some opportunities for further meeting our 
current commitments at low-cost, even if the U.S. Government 
does not actually ratify Kyoto.
    Mr. Dernbach. A lot of the positive things that have been 
done on climate change in the last 10 years have occurred at 
the State level. There is actually a fairly large number of 
legal and policy tools that have been employed at the State 
level--tax credits metering, which would allow somebody with a 
big windmill to sell their excess electricity back to the grid; 
renewable energy portfolio standards that require electricity 
providers to scale-up the amount of renewable energy that they 
provide on a fairly steady basis. There are many, many of those 
kinds of tools out there that are being used.
    What is particularly interesting about State use of those 
tools is the justifications the States use, justifications that 
you do not hear in the national climate debate. Let me share 
what I mean by that.
    At the State level, there is a lot of conversation about 
creating jobs, developing technology, protecting poor people 
from the adverse effects of fossil fuel price fluctuations, 
reducing other pollutants, and strengthening the economic base 
of the State. Climate change is almost incidental in a lot of 
those discussions, even though reducing greenhouse gases is 
surely one of the results.
    I think that what that suggests is that if we look hard at 
the various types of things that States have been doing, 
looking at the effects of those, you could fashion I think a 
fairly potent, fairly effective, fairly economically beneficial 
package of legislation to deal with climate change at the 
Federal level that would create jobs, develop technology, 
enhance our export markets, would attract capital investment, 
would drive down costs of renewable energy and make electricity 
a lot more affordable for other folks, among many, many other 
things.
    So, in sum, the experience of the States on climate change 
suggests a very different way of thinking about both the 
benefits and the costs of climate change than a lot of the 
conversation that I hear at the national level.
    Senator Feingold. Thank you, Professor Dernbach. It is good 
to see you again. And thank you very much, Mr. Chairman, for 
your generous amount of time.
    Senator Jeffords. Thank you for coming. We appreciate your 
presence here. It is important.
    Let me now turn to some questions. Mr. Strong, what do you 
see as the major differences between preparations for Rio and 
Johannesburg, and what has impeded the current process?
    Mr. Strong. Mr. Chairman, part of the difference of course 
is the change of political climate. The preoccupation of the 
United States and other countries with the war against 
terrorism, the economic implications of the downturn, I think 
this has all created a more difficult climate. Also, I think 
there has been perhaps a less extensive involvement of the 
various constituencies, the civil society constituencies, et. 
cetera. And most of all, I would say the cloud cast over the 
Summit by the recent actions of the United States that have 
been reported here both internationally and domestically which 
signal a significant backing away, should I say, of the kind of 
leadership that the world community has looked to the United 
States for for so much of the thirty years since Stockholm put 
the issue on the agenda.
    There is a response to that. For the first time, as you 
know, Senator, some of the traditional friends of the United 
States which have always followed its leadership in the past, 
even when they were a little uncomfortable about it, are not 
necessarily now following its leadership on these issues. As 
you know, the European Union and Japan, despite controversies, 
have ratified the Kyoto Protocol. We still have not got enough 
to make that 55 percent. I hope my own country will weigh in on 
that. The position of Russia is still not certain. But this has 
cast a cloud.
    Now it is true that the United States, as the 
Administration officials have said, are doing some very good 
work in some very good areas. But on the more fundamental 
issues that literally affect the future of our civilization and 
of our economies, there is a huge concern that Johannesburg 
will actually see some slippage from the performance under the 
commitments reached at Rio and before.
    So I see Johannesburg as a very, very important milestone, 
not, Senator, because conferences solve everything, but because 
they provide the gathering point where you can either breakdown 
in your attempt to move forward or you can actually move 
forward. At the moment, the signs are very, very disconcerting. 
I believe that if we lose the opportunity of Johannesburg to 
move ahead on these issues that literally we will face threats 
to our security and our economy over time even greater than 
those that we face from the horrendous terrorist acts.
    May I mention one other thing, sir. In my statement, I 
would like just to call your attention to a couple of specific 
suggestions that I will not elaborate here. But my conviction 
is that the reason for slippage fundamentally in our 
commitments is motivation. That is why I am spending so much of 
my time on the motivational issues. What are they? One is the 
economic motivation, the whole system of fiscal measures, 
taxes, policies, regulations by which governments incent the 
behavior of corporations and industries. And in all countries, 
including this, they are heavily skewed to continue to incent 
unsustainable behavior. I believe it is quite possible for 
those measures to meet their primary objectives without having 
the same consequences. And I think if this body could even 
initiate a review of that whole system, in a sense do an 
environmental performance review on fiscal tax subsidy 
policies, et. cetera.
    The second motivational aspect is moral and ethical. That 
becomes very, very important and it is deeply important for 
America which is based on values. A distinguished American, 
David Rockefeller, headed the group that has drafted the Earth 
Charter, a statement of basic moral and ethical principles 
designed to guide the conduct of nations and peoples toward the 
earth and toward each other. That we hope the U.S. will 
support. It does not have to agree to it in a formal manner, 
but we hope that the United States delegation will recognize 
it. Your Conference of Mayors and many U.S. organizations 
representing literally several millions of Americans have 
endorsed this. We would like to see, sir, America recognize 
this because, again, our moral and ethical values are at the 
root of the way in which we set our priorities and the way in 
which we respond to this challenge.
    This country's history and its example has been based on 
its commitment to moral and ethical values. Therefore, I am 
hopeful and encouraged that you are going to rise to that. And 
this hearing certainly underscores and reinforces that, sir. I 
am sorry I took a little long to respond to your question, but 
I do feel strongly, as I know you do, about these issues.
    Senator Jeffords. Very excellent statement. I am taking it 
under careful advisement. Thank you.
    Mr. Horner?
    Mr. Horner. I would like to distinguish Rio and 
Johannesburg and possibly break new ground for me and praise 
the Administration for what they are doing in preparation for 
Johannesburg. First, with Rio we had a cue of treaties that had 
been developed over years that were to be culminated in Rio. We 
do not really face that now. We face, as the Administration 
witnesses testified, talking more about details, actual 
implementation, the state of implementation, next steps. And I 
do applaud what the Administration is trying to do regarding 
good governance, saying in essence capacity-building, which is 
a term used in the environmental treaty context quite a bit, we 
will pay countries to be ready to receive what they will 
receive under the treaties. We are trying to build capacity for 
good governance through economic and judicial reforms, 
openness, to say are you ready to take this environmental and 
general foreign aid and not have it go down the rat hole, for 
which I applaud them.
    Now they did get off track with handling environmental 
issues very poorly, including again recently, May-June, and 
with that submission their efforts at focusing on known 
problems that purportedly would be worse under, for example, 
climate change. They redirected the focus back to climate 
change, but they were doing very well in advancing it toward 
safe drinking water, the world's number one environmental 
threat, which purportedly would be worse. But for a cost of a 
year of Kyoto you could make significant advances in that. 
AIDS, infectious diseases, they need to get the dialog back 
where it was.
    They have made progress. The focus on good governance, 
capacity-building for receiving this aid so we can have actual 
environmental improvement for environmental aid, it is the 
right direction. I just hope they stay focused.
    Senator Jeffords. Thank you.
    Mr. Dernbach, what is your prognosis for the World Summit? 
And what follow-up activities are needed?
    Mr. Dernbach. My hope for the World Summit is that we come 
out of it with specific targets and timetables, not just for 
the social issues, as important as the social issues are, but 
also for environmental issues. And what I mean by targets and 
timetables are the kinds of things that have been suggested by 
a great many organizations including the OECD, which is to say 
by a certain date we achieve a certain result, either 
internationally or regionally or nationally. Without targets 
and timetables, you have goals with no deadline that are in 
some basic way as a result not goals at all. So that is what I 
would hope would come out of the World Summit.
    But beyond that, and I think this is the important message 
from the book, is that what we do for sustainable development 
is not just what we agree to or do not agree to in 
Johannesburg, it is what we do at home. That is why the book is 
overwhelmingly directed at the United States and actions that 
decisionmakers in the United States ought to be making at the 
national level, State level, the local level, corporation 
decisionmakers, deans in colleges and universities, businesses 
and others. And that is what I hope will really come out of 
Johannesburg, that it will provide a kind of lift, if you will, 
to the Rio process, engage people on the importance of 
reconciling our environmental goals with our social, economic, 
and security goals.
    Senator Jeffords. Mr. Horner?
    Mr. Horner. I just want to get back to leadership I guess, 
in following on Professor Dernbach's comments. We need to 
recognize that for all intents and purposes the Bush position, 
despite bad-mouthing Kyoto, is indistinguishable from the 
Clinton-Gore position on Kyoto. For twenty-five months after 
signing the treaty for which it was open for ratification, they 
never sent it to the Senate. My thesis in my testimony is that 
is not necessary. But they did not do it. President Bush will 
not send it apparently. Neither would withdraw from it. One 
bad-mouths it, one talks a good game about killing it, though 
not really doing it. One talked a good game about pursuing it, 
though not really doing it. The position is indistinguishable.
    Leadership, of course, does not mean abandoning your own 
perspective, and the U.S. certainly has its own perspective on 
this, in large part it is because it would be the most greatly 
impacted by the treaty. So I think the Administration and the 
U.S. as a whole deserves to maintain its own perspective 
without others claiming that it has abandoned leadership by not 
doing what everybody else has done.
    Senator Jeffords. Mr. Strong, comments?
    Mr. Strong. I would like also, Mr. Chairman, to see some 
other initiatives. Energy was one of the issues that our 
friends from the Administration highlighted. It is at the heart 
of so many issues. I come from the energy industry myself and 
so I feel very deeply about that. One of the particular 
initiatives that I believe the United States could put on the 
table that would totally in line with I believe the general 
approach of this Administration is to call for the creation of 
a consultant group on clean energy, modeled very much on the 
consultant group on international agriculture research which 
did so much in the last quarter century so to relieve the 
prospect of an eminent food shortage in the world. And it is 
not even an incorporated entity. It is a mechanism that brings 
private and public interests together around the table to 
determine priorities for research and development, particularly 
in the developing world, and how to mobilize the funds to 
permit the developing countries, in particular, to afford the 
best available technologies. And it is not a new organization, 
but it is a very effective mechanism. I believe it would be 
entirely feasible for the United States to champion the 
establishment of such a thing.
    I think you mentioned, Mr. Chairman, about the importance 
of the global environment facility, of closing that gap that 
must be closed, that must be closed almost immediately to 
permit the replenishment to take place. That would also give 
prospects and morale for Johannesburg a boost.
    And then, finally, one initiative that I believe could 
emanate from this Senate, and that is we understand that you 
are to receive a report from the General Accounting Office soon 
setting out the U.S., and I am not sure if it covers others, 
performance under existing agreements. This could provide I 
suggest, Mr. Chairman, the basis for establishment of a regular 
monitoring process with reports coming out each year or 2 
years, very much like the State Department reports on human 
rights and one or two other things, which would highlight the 
performance of the United States and others in respect of the 
commitments that they have already put in place. It would be a 
fairly easy thing to do based on the report of the General 
Accounting Office, which I think is on its way. It is just one 
modest suggestion, sir, of how in a practical way there are 
still a lot of things that you could do working toward those 
larger issues.
    Most of all, sir, I am concerned that it really give people 
a new sense that their leaders really are responding to this 
challenge, that there is real movement, that there is a new 
spirit of international cooperation, and international faith in 
the United States as the leader of that cooperation.
    Senator Jeffords. Any final comments?
    Mr. Horner. I would like to say in the spirit of that, 
although the State Department offers me a tortured definition 
of the term ``Parties to Kyoto,'' the United States can let 
other ratifying Parties have what they claim to want. If the 
U.S. withdraws, we have 55 percent because 55 percent of X is 
now 55 percent of a much smaller number. It takes a very 
difficult interpretation of the Kyoto Protocol to read 
otherwise. If that is what they want, if some people truly 
believe that will help save the Planet, while we have not 
arrived at that position, we ought to withdraw and let them 
have what they want. If the other sides offer the 
interpretation of, well, we cannot have this go into effect 
against us yet, that would be interesting, but it would also 
likely bring negotiations back to a sane plane.
    I hope we all remember when these negotiations fell apart. 
They were in the Hague in 2000. The U.S. elections had occurred 
but had not been decided. Pause, wait for comment. Some members 
of the Foreign Relations Committee were there. I saw Senator 
Kerry. The EU refused to take yes for an answer because they 
saw desperation in our eyes. They changed the definition of 
``sinks'' from ``sinks shall be used'' to ``but not really,'' 
and then ``but not really if you are the U.S. but certainly if 
you are Russia,'' giving them millions of more dollars but 
making it very difficult for us to at least initially even 
comply. They fell apart in November 2000 and they have not 
recovered since.
    I believe if this is something the Administration really 
wants to negotiate, that is, a Byrd-Hagel compliant binding 
agreement, the place to start is by withdrawing from Kyoto, 
have the other Parties decide if they want it to go into effect 
against themselves, or interpret it otherwise and say we are 
going to now start renegotiating with you but this time in a 
little better faith. Because what happened in the Hague really 
defies a good faith explanation.
    Senator Jeffords. Mr. Dernbach?
    Mr. Dernbach. I want to thank you, Mr. Chairman, for 
holding this hearing. I think this is an incredibly important 
issue. There is a lot more at stake here than the 
environmental, and there is a lot more at stake here than any 
specific environmental issue.
    If we have learned anything in the last couple of decades, 
it is that the environment is connected to everything else that 
we care about--peace and security, economic development, 
national governance, and social well-being. We now face an 
enormous problem of environmental degradation around the world 
and a growing gap between the rich and the poor. The problems 
are quite real and they are not going to go away. Put a little 
different way, poverty and environmental degradation are deeply 
destabilizing because they stifle or reduce opportunities and 
quality of life for many, many people.
    The next fifty years global population is projected to 
increase by 3 billion. The global economy is likely to grow by 
four or five times. As difficult as things now are, as 
challenging as the domestic and international situation now is, 
environmental degradation and the gap between the rich and the 
poor are likely to get worse and greater if we continue with 
business as usual. The question that I would leave is whether 
that should be our legacy for our children and our 
grandchildren.
    There are things that we can do. We know we can do them. We 
ought to know that we need to do them. And I want to 
congratulate you again for holding a hearing to focus on these 
questions. Thank you so much.
    Senator Jeffords. Thank all of you for your really 
excellent presentations. I was listening very strongly and I 
just feel concerned, as you do, that we must change our ways if 
we are going to be the leader that this Nation should and must 
be as we move into the future.
    And I want to especially thank all of those that are 
attending here who have been very, very entertaining in the 
sense of looking very interested, and I believe you all are. If 
I asked a show of hands, how many agree with the last 
presentations that were made here?
    [No response.]
    Senator Jeffords. Nobody?
    [Laughter.]
    Senator Jeffords. I just wanted to check on you.
    Thank you everyone. It has been a very interesting and 
enlightening morning. We were pleased to have you all here.
    The hearing is adjourned.
    [Whereupon, at 12:35 p.m., the committees were adjourned, 
to reconvene at the call of their respective Chairs.]
    [Additional material submitted for the record follows:]
  Statement of Hon. James M. Jeffords, U.S. Senator from the State of 
                                Vermont
    I'm glad to be here with my distinguished co-chair from the Foreign 
Relations Committee for this joint hearing. I appreciate his 
willingness to explore today's topic, and the fact that he has joined 
me as a sponsor of S. 556, the Clean Power Act. I would also like to 
applaud him for his work to bring some truth and sanity to America's 
accounting nightmare.
    The United States is an economic and military superpower, perhaps 
the lone superpower. But, as the old adage goes, with great power comes 
great responsibility. We are able to project great might far beyond our 
borders. We are also capable of contributing to environmental and 
natural resource damage far beyond our borders and far in excess of 
other countries. The question is, are we acting responsibly to curb 
negative impacts abroad and at home?
    Are we being good global neighbors and, at a minimum, keeping our 
word? It seems that we may be keeping our literal word, given the very 
broad language in many of the agreements. But in practical terms, it 
seems that we're not trying very hard to keep up with the spirit of 
some of our commitments.
    The time is ripe for Congress to review how the Administration is 
implementing our environmental agreements and commitments. Leaders of 
many countries will be meeting in Johannesburg, South Africa, in late 
August at the World Summit on Sustainable Development. The occasion is 
the 10th anniversary of the United Nations Conference on Environment 
and Development held in Rio.
    I'm pleased to note that the Secretary General of that Conference, 
Mr. Maurice Strong, is here today to give us some historical 
perspective on that event and its lasting effect.
    The conferees will be met by a very different U.S. delegation in 
South Africa. The previous Bush Administration provided extensive 
support for the Rio Earth Summit and brought many new initiatives to 
the negotiating table.
    But this Administration is likely to send a smaller and lower-level 
delegation and has sought to narrow the scope of the discussions. This 
has apparently included an effort to keep global climate change off of 
the agenda.
    I am troubled by the Administration's approach to global warming, 
especially in light of the Sense of Congress approved by the Foreign 
Relations Committee and made part of the Senate approved energy bill in 
April. That Resolution says the United States should take responsible 
action to ensure significant and meaningful reductions in emissions of 
greenhouse gases from all sectors.
    But it doesn't appear that responsible action is taking place and 
emissions continue growing. As my friend Senator Chafee pointed out 
during our Committee's markup of the Clean Power Act, the 
Administration's Climate Action Report says, ``A few ecosystems, such 
as alpine meadows in the Rocky Mountains and some barrier islands, are 
likely to disappear entirely in some areas. Other ecosystems . . . are 
likely to experience major species shifts . . .''
    Our treaty commitment says, ``The ultimate objective of the 
Framework Convention on Climate Change is to stabilize greenhouse gas 
concentrations in the atmosphere at a level that will prevent dangerous 
anthropogenic interference with the climate system. Such a level should 
be achieved within a time-frame sufficient to allow ecosystems to adapt 
naturally to climate change. . . .''
    Since these ecosystems are likely to disappear entirely because of 
manmade global warming and will not be able to adapt naturally, it 
appears that we have entered the zone of ``dangerous interference.'' 
Since these are real threats of serious or irreversible damage, the 
lack of full scientific certainty about cause and effect shouldn't be 
used as an excuse for not reducing emissions now. That is also our 
commitment.
    Instead of acting to reduce emissions, the Administration's 
approach guarantees that greenhouse gas emissions will rise. According 
to Mr. Connaughton's recent testimony, there is``. . . no question 
about that.''
    This kind of inaction doesn't comport with our commitments under 
the Framework Convention, the Sense of Congress, common sense or the 
National Environmental Policy Act (or NEPA). In 1969, NEPA became law. 
It was probably the first adoption of a sustainable development 
philosophy by a government in the world. To paraphrase, it says:``. . . 
it is the continuing policy of the Federal Government . . . to use all 
practicable means and measures . . . to create and maintain conditions 
under which man and nature can exist in productive harmony, and fulfill 
the social, economic, and other requirements of present and future 
generations of Americans.''
    Unfortunately, the Administration seems to have lost sight of those 
future generations of Americans. Economic development that does not 
factor in the environment or quality of life of those future 
generations is not sustainable.
    The Administration and other opponents of the Kyoto Protocol claim 
that actions to significantly reduce greenhouse gas emissions cost too 
much now. They need to look at the long term. They also need to look at 
the many studies that have been done that show a net positive impact of 
reducing emissions.
    I ask unanimous consent that two such studies by the Tellus 
Institute and a list of other studies be placed in the record.
    There is no question that we must be concerned with the threats of 
today, like the thousands of people dying prematurely every year from 
power plant pollution. But, we can't let the press of quarterly reports 
or the hunt for short term profits prevent us from acting to reduce the 
threats of tomorrow. That's especially true in the case of terrorism or 
global warming, where we have been presented with credible information 
about the threat.
    As some of my colleagues know, I have a special interest in the 
U.N. Convention to Combat Desertification and pressed hard for its 
ratification. Senator Helms was instrumental in moving that treaty and 
I want to thank him for his and his staff's efforts in helping me and 
others get that agreement approved. This treaty addresses land 
degradation in some of the very impoverished parts of the world. It is 
designed to encourage participatory democracy and stakeholder 
involvement. I look forward to seeing how implementation is going.
    I also have an interest in ratifying and implementing the 
Convention on Persistent Organic Pollutants. I have introduced 
legislation maintaining the spirit of that treaty. I hope we'll be able 
to get that moving soon so the U.S. can participate in the Conference 
of Parties and the Review Committee.
    There seems to be generally good news regarding chemicals that harm 
the ozone layer. From all indications, the Montreal Protocol has been a 
success, though I gather there are some additional amendments coming 
soon. I'll be interested to learn how our efforts have reduced the 
ozone hole.
    There is less clear news on the status of the Convention on 
Biological Diversity, which was signed in 1993 but has not been sent to 
the Senate for ratification. I would also appreciate hearing an update 
from our witnesses on the progress toward implementation of the Basel 
Convention regarding the international transportation of hazardous 
waste.
    Finally, I would note something that is a little different between 
international agreements and our more conventional environmental laws. 
They often seem to be missing performance criteria or include very weak 
commitments.
    Unfortunately, in the case of climate change, even when commitments 
are minimal, such as reporting on the policies and measures we have 
adopted to achieve 1990 levels, we have failed.
    So, I would urge our negotiators to push for more specific 
environmental goals, using targets and timetables. That will make it 
easier for the Senate to know whether the treaties we have ratified are 
succeeding. Also, I believe the result will be better for the 
environment and sustainable development.
    Thank you.
                               __________
 Statement of Hon. Joseph I. Lieberman, U.S. Senator from the State of 
                              Connecticut
    Thank you, Mr. Chairman, for calling this hearing today on an 
essential topic--our nation's implementation of our international 
commitments on the environment. I regret that I am unable to attend 
today, but I must preside over the markup of the homeland security bill 
in the Governmental Affairs Committee.
    Ten years ago, the world took a dramatic step toward a sustainable 
future when it convened the Earth Summit in Rio De Janeiro during the 
tenure of the first President Bush. The Summit resulted in several of 
our most critical environmental agreements, including the Conventions 
on Climate Change and Biodiversity.
    Unfortunately, as we prepare for the next ``Earth Summit'' a decade 
later, this Bush Administration does not appear to have taken as 
aggressive an approach to our global commitment to environmental 
protection as its predecessor did. In fact, we appear to be going to 
the summit in Johannesburg with little more than a plan to delay 
enforceable action on the planet's critical needs.
    The most visible--and most integral--of the Rio agreements for our 
sustainable future may be the U.N. Framework Convention on Climate 
Change. As is well-known by now, however, this Administration has 
abdicated our nation's leadership on the issue, withdrawing from the 
Kyoto Protocol and offering no alternative path forward. That's 
disturbing enough. But now we also appear ready to distract the world's 
attention from addressing this problem.
    As I understand it, the United States has affirmatively stated to 
the world community that President Bush will not attend the conference 
in Johannesburg next month if the climate change treaty is discussed. 
It is one thing to ignore this pressing problem domestically, as 
President Bush's business-as-usual proposal is essentially doing. But 
it is entirely another to ask the rest of the world to put it aside as 
well.
    Luckily, in lieu of executive leadership, we have other branches 
and levels of government that can act, and are acting. The Environment 
Committee recently passed the Clean Power Act, legislation limiting the 
release of greenhouse gases from power plants. Governor Gray Davis of 
California just this week signed legislation limiting greenhouse gas 
emissions from motor vehicles. And many other proposals are in the 
works. The world understands we need to move ahead on this issue, the 
States understand we need to move ahead on this issue, and American 
citizens understand we need to move ahead on this issue. It is time for 
the President to understand.
    I therefore call on him to attend the Johannesburg summit and take 
the climate change issue on, head on. Perhaps, when he does, he will 
see the light.
                               __________
 Statement of John F. Turner, Assistant Secretary of State for Oceans 
and International Environmental and Scientific Affairs, U.S. Department 
                                of State
Introduction
    Chairmen Jeffords and Sarbanes, and other members of the 
Environment and Public Works Committee and the Foreign Relations 
Committee, I appreciate the opportunity to appear before you today to 
review U.S. implementation of environmental treaties. The United States 
has a strong record on global environmental issues. We are a leader in 
addressing environmental challenges on the international level, having 
spearheaded efforts to negotiate environmental agreements on issues 
ranging from ozone depletion to stemming illegal trade in endangered 
species. Just a few weeks ago, the President submitted to the Senate an 
important treaty between the United States and Russia that would 
strengthen the conservation of our shared polar bear population through 
a coordinated sustainable harvest management program.
    In the case of toxic chemicals, the Administration submitted to 
Congress this spring, the Stockholm Convention on Persistent Organic 
Pollutants (POPs) and additional legislation that would allow the 
United States to implement this agreement, in addition to a regional 
agreement POPs agreement and a treaty on Prior Informed Consent. These 
multilateral agreements affirm the U.S. commitment to cooperate with 
other countries on global health and environmental challenges. My 
distinguished colleague, Jim Connaughton, just discussed the enormous 
challenges we face addressing climate change and how the Bush 
Administration intends to tackle the problem while ensuring our economy 
continues to grow.
    These treaties are just a few examples of environmental agreements 
that serve as noteworthy tools in our foreign policy arsenal. The 
Department of State plays an important role in monitoring the 
implementation of these agreements and working inter-agency and 
international processes to ensure U.S. interests are served. For 
illustrative purposes, we would like to describe our efforts related to 
the following five agreements we have ratified and currently are 
implementing--the Montreal Protocol on Substances that Deplete the 
Ozone Layer; the Convention on International Trade in Endangered 
Species (CITES); the U.N. Framework Convention on Climate Change; the 
North American Agreement on Environmental Cooperation; and the U.N. 
Convention to Combat Desertification.
The Montreal Protocol on Substances that Deplete the Ozone Layer
    During the 1980's, the United States led a global effort to 
negotiate an agreement to phaseout the production and consumption of 
substances that deplete the ozone layer. Scientific evidence showed 
that strong steps were needed to protect human health from the 
debilitating effects of ozone depletion, such as increased incidence of 
skin cancer and cataracts. These global efforts resulted in the 
adoption of the Montreal Protocol on Substances that Deplete the Ozone 
Layer in September 1987, which was ratified by the United States in 
1988, and has now been ratified by 182 other countries.
    Over the last 15 years, implementation of the Montreal Protocol and 
its subsequent amendments has yielded remarkable progress in protecting 
the stratospheric ozone layer by phasing out the consumption and use of 
ozone depleting substances on a global scale. The United States has met 
its obligations under the Montreal Protocol by phasing out 
chlorofluorocarbons (CFCs), halons, carbon tetrachloride, and methyl 
chloroform.
    Although the State Department is the lead agency responsible for 
coordinating our participation in the Protocol, the Environmental 
Protection Agency (EPA) is the principal entity responsible for 
domestic implementation of the Protocol, under authority provided by 
the Clean Air Act. (The Clean Air Act specifically authorizes EPA to 
take steps necessary to ensure that our domestic regulations are 
consistent with our obligations under the Protocol.) Additionally, the 
Department of Justice and EPA have played an important role by 
identifying and prosecuting individuals engaged in illegal smuggling of 
ozone-depleting substances, making the United States a world leader in 
these law enforcement activities.
    The Protocol also includes provisions to establish a Multilateral 
Fund to provide financial and technical assistance to developing 
country Parties to assist them in meeting their obligations under the 
Protocol. As the largest contributor to the Multilateral Fund, the 
United States has made available over $340 million to the Fund since 
its inception.
Convention on International Trade in Endangered Species of Wild Fauna 
        and Flora (CITES)
    CITES, called by some the Washington Convention, concluded on March 
3, 1973 in Washington, DC. and entered into force on July 1, 1975. As 
of July 1st of this year, 158 Parties have adopted the Convention.
    CITES conservation goals are to: monitor international trade in 
endangered species; maintain those species in an ecological balance; 
and assist countries toward a sustainable use of species through 
international trade. The contracting Parties to CITES recognize that 
international cooperation is essential for the protection of wild flora 
and fauna.
    CITES Parties regulate wildlife trade through controls and 
regulations on species listed in three appendices. Appendix I lists 
species threatened by extinction which are or may be affected by trade. 
Trade in Appendix I species is allowed only in exceptional, non-
commercial circumstances and only with permits from both the exporting 
and importing country. Appendix II species include species which, while 
not now threatened with extinction, may become so unless trade in such 
specimens is subject to strict regulation. Export permits are required 
from the country of export, and both exporting and importing countries 
must monitor the use of those permits. Trade in Appendix III species 
requires a certificate of origin and an export permit based on a 
finding of legal acquisition and satisfaction of preparation and 
shipping conditions. Listing or de-listing of species in Appendix I or 
II requires consideration by the Conference of the Parties of species 
proposals submitted by Parties. To succeed, such proposals must gain a 
two-thirds majority in a vote of the Parties. Individual Parties can 
list species under their jurisdiction in Appendix III for the purpose 
of preventing or restricting exploitation or if they deem a need for 
cooperation in controlling the trade. A Party may take a reservation to 
the listing of a species on Appendix I or II within 90 days of the vote 
and anytime after the addition of a species to Appendix III. As the 
trade impact or other threats to a species increase or decrease, 
species may be shifted between, added to, or removed from these 
Appendices.
    CITES also regulates international trade through a system of import 
and export permits that are required before specimens leave a country. 
Each Party must appoint a CITES Management Authority and a CITES 
Scientific Authority. The Fish and Wildlife Service, Department of the 
Interior, is the Management Authority and Scientific Authority for 
CITES for the United States and also plays the major law enforcement 
role. The Management Authority is responsible for issuing permits and 
implementation of the trade controls of the convention, as well as 
maintaining records of trade in specimens in the Appendices. The 
Scientific Authority is responsible for making scientific findings on 
whether trade will be detrimental to the survival of a species and for 
monitoring the export permits granted against the actual level of trade 
for a species. CITES also requires law enforcement capability to 
enforce the CITES provisions and penalize illegal trade.
    With respect to implementation, the U.S. implements CITES primarily 
through regulations developed under the Endangered Species Act as well 
as enforces it through other existing laws such as the Lacey Act. The 
United States ensures compliance through extensive regulatory systems; 
Washington based policy, scientific and permitting offices; and 
enforcement personnel at designated CITES ports. These are administered 
by the Fish and Wildlife Service, Department of Interior and/or the 
Animal and Plant Health Inspection Service, Department of Agriculture.
    The United States is proud of its record in implementing its CITES 
obligations. We are at the forefront of CITES parties in fulfilling 
these obligations. CITES studies have recognized these accomplishments. 
For example, one determined that the United States has effective 
national legislation implementing CITES obligations, and another found 
that the United States was effectively controlling the trade in tigers 
and tiger parts. A strong and professional staff at the Fish and 
Wildlife Service, together with good coordination with the State 
Department, the Animal and Plant Health Inspection Service and other 
agencies, have made this notable success possible.
UN Framework Convention on Climate Change (UNFCCC)
    Negotiations that led to the U.N. Framework Convention on Climate 
Change (UNFCCC) began in Chantilly, Virginia, in February 1991 at the 
invitation of President George H.W. Bush. The negotiations concluded on 
May 9, 1992, in New York where the convention was adopted. It was 
subsequently opened for signature at the June 1992 U.N. Conference on 
Environment and Development (UNCED). The UNFCCC entered into force on 
March 21, 1994, after ratification by 50 Parties. The United States 
ratified the UNFCCC on October 15, 1992, becoming the first 
industrialized Nation and the fourth Nation overall to do so. As of 
July 2002, the UNFCCC has 186 Parties.
    The UNFCCC creates a broad global framework for addressing the 
challenge of climate change. It establishes an objective, commitments 
for different groups of countries, and a set of institutions to enable 
governments to consider and adopt appropriate actions and to monitor 
the Convention's implementation. The Convention groups countries into 
two annexes. Annex I lists most members of the Organization for 
Economic Cooperation and Development (OECD) plus the states of Central 
and Eastern Europe as well as several states of the Former Soviet 
Union. Prior to the year 2000, Annex I Parties were to adopt policies 
and measures aimed at returning their greenhouse gas emissions to 1990 
levels. Annex II lists a smaller subset of Annex I Parties who agreed 
to provide financial resources to assist developing countries in 
implementing their Convention commitments.
    The ultimate objective of the Convention is to achieve 
stabilization of greenhouse gas concentrations in the atmosphere at a 
level that would prevent dangerous anthropogenic [human-induced] 
interference with the climate system. The Convention's objective 
further provides that: ``Such a level should be achieved within a time-
frame sufficient to allow ecosystems to adapt naturally to climate 
change, to ensure that food production is not threatened and to enable 
economic development to proceed in a sustainable manner.''
    All Parties to the Convention are committed to respond to climate 
change and to cooperate in various ways toward this end. In particular, 
each Party is required to prepare and submit a national inventory of 
its emissions by sources and removals by sinks (forests and other 
natural systems that remove greenhouse gases from the atmosphere) of 
greenhouse gases. Each party is also required to prepare a national 
communication describing the steps it is taking to implement the 
Convention. The United States submitted its Third National 
Communication (the U.S. Climate Action Report) to the Convention's 
secretariat in May 2002.
    In addition, the Convention requires that all Parties:

    <bullet>  Formulate national or regional programs containing 
measures to mitigate climate change;
    <bullet>  Promote the development and diffusion of technologies 
that control, reduce or prevent greenhouse gas emissions;
    <bullet>  Promote sustainable management and conservation of sinks 
and reservoirs of greenhouse gases;
    <bullet>  Cooperate in preparing for adaptation to the impacts of 
climate change;
    <bullet>  Take climate change considerations into account to 
minimize adverse effects of steps taken to mitigate or adapt to climate 
change on the economy, on public health, and on the quality of the 
environment by carefully considering climate change actions;
    <bullet>  Promote and cooperate in research, systematic observation 
and the development of data archives related to the climate system so 
as to further understanding and reduce uncertainties about the causes, 
effects, magnitude and timing of climate change and the consequences of 
response strategies;
    <bullet>  Promote and cooperate in the full, open and prompt 
exchange of scientific and other information related to the climate 
system and the consequences of response strategies, and
    <bullet>  Promote and cooperate in education, training and public 
awareness related to climate change.

    Annex I Parties have more extensive requirements under the 
Convention to report on the steps they are taking to address climate 
change and, as noted, prior to the year 2000 they were to aim to return 
their emissions of greenhouse gases to 1990 levels. Annex II Parties 
have certain additional requirements under the Convention. They agreed 
to provide financial assistance to developing country Parties to help 
them meet their Convention commitments, and they agreed to assist 
developing country Parties that are particularly vulnerable to the 
adverse effects of climate change in meeting the costs of adaptation to 
those adverse effects. Annex II Parties also agreed to assist other 
Parties, particularly developing country Parties, with technology 
transfer and access to environmentally sound technologies and know-how.
    The Global Environment Facility serves as an operating entity of 
the Convention's financial mechanism. All Annex II Parties contribute 
to the Global Environment Facility, including the United States. In 
addition, however, developed country Parties may also provide financial 
resources related to the implementation of the Convention through 
bilateral, regional and other multilateral channels. The U.S. Climate 
Action Report contains detailed information both with respect to U.S. 
contributions to the GEF as well as with respect to the other means 
through which the United States is meeting its obligations under the 
Convention.
    The work of the Convention takes place in two subsidiary bodies--
the Subsidiary Body for Scientific and Technological Advice and the 
Subsidiary Body for Implementation--which meet normally twice a year to 
prepare for an annual meeting of the Conference of the Parties, the 
supreme body under the Convention. The subsidiary bodies held their 
most recent session from June 3-14 in Bonn, Germany, the seat of the 
Convention's secretariat. The 8th Conference of the Parties will take 
place from October 23 to November 1, 2002, in New Delhi.
    Negotiations to strengthen the commitments of Annex I Parties began 
in 1995, following a decision--the so-called ``Berlin Mandate''--taken 
at the first session of the Conference of the Parties. In July 1997, 
the Senate adopted the Byrd-Hagel Resolution by a vote of 95-0 urging 
the administration to sign no agreement that would harm the U.S. 
economy or that did not contain specific scheduled quantified 
commitments for developing countries. In December 1997, Parties to the 
Convention adopted the Kyoto Protocol at their third session. The 
United States signed the Kyoto Protocol on November 12, 1998. The 
previous administration never subsequently sent the Protocol to the 
Senate for advice and consent, maintaining that the Kyoto Protocol was 
a ``work in progress'' and that key developing countries would need to 
agree to ``meaningful participation'' for the United States to ratify 
it.
    After taking office in 2001, President Bush announced that the 
United States would not ratify the Kyoto Protocol because it would harm 
the U.S. economy and it contained no commitments for 80 percent of the 
world. At the same time, the President indicated that each Nation must 
decide whether to ratify the Kyoto Protocol based on an assessment of 
its national interest and that the United States would not interfere 
with the decisions of other nations in this regard. As of July 2002, 74 
nations and one regional economic integration organization (the 
European Union) had ratified or acceded to the Kyoto Protocol. 
Collectively, these countries represent 36 percent of the 1990 carbon 
dioxide emissions of the Convention's Annex I Parties. Under its terms, 
the Kyoto Protocol will enter into force once 55 Parties to the 
Convention, incorporating Parties included in Annex I which accounted 
for at least 55 percent of the total carbon dioxide emissions for 1990 
of the Parties included in Annex I, have deposited their instruments of 
ratification, acceptance, approval or accession.
    President Bush has made two major announcements of U.S. policy 
regarding global climate change--on June 11, 2001, and on February 14, 
2002. Both of these announcements call for intensified efforts with 
other nations to address the challenge of climate change. Toward this 
end, the United States has initiated a series of bilateral climate 
change relationships with important partners, including: Australia, 
Central America (CONCAUSA), the European Union, Canada, China, India, 
Italy and Japan. Discussions toward additional climate change 
relationships have begun or are contemplated also with: Brazil, Mexico, 
the Republic of Korea, the Russian Federation, South Africa and 
Ukraine.
    These bilateral climate change relationships range from those 
devoted largely to undertaking cooperative science and technology 
projects to those that may focus more on the exchange of information 
and views related to climate change policy. Along this continuum--from 
S&T projects at one end to policy at the other--each relationship 
usually involves a particular mix of the two. In the case of Japan, for 
example, we have three working groups focused on: (1) S&T cooperation; 
(2) developing countries; and (3) market mechanisms.
    Both with our continued, active participation under the UNFCCC and 
in our bilateral relationships that complement and enhance our 
multilateral cooperation, we are seeking to build relationships that 
will enable us and others to address the long term challenge of climate 
change on a balanced and measured basis, consistent with the need to 
ensure the continued economic prosperity for our citizens and our 
Nation.
North American Agreement on Environmental Cooperation
    The North American Agreement on Environmental Cooperation (NAAEC), 
commonly referred to as the NAFTA environmental side agreement, serves 
as an important framework for cooperation among the three North 
American governments on a wide range of environmental affairs. Among 
other things, the NAAEC established the Commission on Environmental 
Cooperation (CEC), which coordinates such cooperation. The United 
States remains committed to the agreement, which has been in force 
since 1994, and to the North American environmental cooperation that 
takes place under it.
    The Commission established by the agreement is composed of a 
Council, a Secretariat and a Joint Public Advisory Committee. The 
Council is the governing body, and is composed of representatives of 
the governments. The three environment ministers represent their 
governments on the Council. The EPA Administrator is the designated 
U.S. representative on the Council and EPA has lead responsibility for 
managing the interagency process that develops U.S. positions and 
guides our participation in the CEC. The Department of State works 
closely with EPA and maintains responsibility on all questions 
regarding the interpretation of the agreement. We play an active role 
in implementation of the NAAEC and in developing work through the CEC.
    The NAAEC is notable for a high degree of citizen participation. A 
trilateral Joint Public Advisory Committee (JPAC) participates in CEC 
deliberations, including direct interaction with the Council. The 
governments each appoint five members to the JPAC, who represent a wide 
array of stakeholders from industry, academia, and nongovernmental 
organizations. Each country also maintains governmental and/or non-
governmental domestic advisory bodies. The structure of the CEC has 
produced fluid communication among our countries that has enhanced 
significantly our broader relationships.
    The NAAEC also contains a public submission process in which 
citizens may submit claims to the Secretariat regarding the failure of 
a government to enforce its environmental laws and the Council may 
direct the development and release of a ``factual record'' concerning 
the claim in response.
    The NAAEC has promoted strong cooperation among the three countries 
on a number of important environmental issues, achieved primarily 
through implementation of the CEC work program funded at US$9 million 
annually with equal contributions by the Parties. These include 
promotion of enforcement of and compliance with environmental laws, 
protecting children's environmental health, protecting animal species 
that migrate throughout North America, and minimizing the use of 
certain persistent toxic chemicals such as DDT. Trilateral cooperation 
under the NAAEC has provided an impetus for the development of certain 
types of environmental legislation, particularly the new mandatory 
Pollutant Release and Transfer Register in Mexico.
    The United States has fully complied with our obligations under the 
NAAEC. Unlike some other environmental agreements that call for very 
specific actions or the achievement of specific targets in a designated 
timeframe, the NAAEC sets up a general framework for cooperation, which 
is then developed and implemented over time through the CEC. This has 
proven to be an effective framework for promoting environmental 
cooperation within North America.
The U.N. Convention to Combat Desertification
    The U.N. Convention to Combat Desertification (UNCCD) arose out of 
the 1992 Earth Summit in Rio de Janeiro at which African countries 
argued that the U.N. Framework Convention on Climate Change and the 
Convention on Biological Diversity did not address their major 
concern--desertification. Desertification--the degradation of dry 
lands--is not limited to Africa: it affects millions of people 
inhabiting one quarter of the world's land area from the American west, 
to the Aral Sea in Russia, to Argentina and the islands of the 
Caribbean, Indonesia and the Mediterranean.
    The United States played a key role in negotiating the UNCCD--a 
role which is a natural outgrowth of the United States' experience 
during the Dust Bowl of the 1930's and our long-standing concern about 
desertification in developing countries, particularly in Africa. 
Negotiations on the CCD concluded in June 1994 and the Convention 
entered into force in December 1996.
    The purpose of the Convention is to combat desertification and 
mitigate the effects of drought on arid, semi-arid, and dry sub-humid 
lands through effective local, national, regional and global action, 
particularly in Africa. The Convention's central objective is to 
promote the sustainable use of drylands worldwide, but especially in 
Africa, and to make more efficient use of aid resources, thereby 
helping to solve Africa's and other affected regions' chronic hunger 
problems. The CCD employs a unique grass-roots approach, emphasizing a 
``bottom-up'' approach with strong local participation in 
decisionmaking.
    Under the Convention, the United States, with approximately 40 
percent of our landmass considered arid, semi-arid or dry sub-humid and 
therefore susceptible to the processes of desertification, is an 
affected Party. As an affected Party, the United States is required to 
have strategies to address desertification. Given our extensive system 
of land management strategies, practices and programs, no changes were 
or are required in our domestic policies or programs for the U.S. to 
meet this obligation under the Convention. (The Convention acknowledges 
that Parties may implement their obligations through ``existing or 
prospective'' arrangements). Many of the principles used successfully 
in the U.S. over the past 70 years have been incorporated in the 
language of the Convention. All Parties are required to submit reports 
to the Secretariat of the CCD on activities undertaken in support of 
the CCD, on a timetable determined by the Conference of the Parties. 
The first U.S. Report on Activities Undertaken in Support of the U.N. 
Convention to Combat Desertification was officially submitted July 3, 
2002.
    The United States is also required to provide support for 
developing country efforts to combat desertification, including by 
providing financial resources, although the Convention does not impose 
a specific amount or timing with respect to this requirement.
    The U.S. Agency for International Development (USAID) is the lead 
U. S. government agency implementing the CCD overseas. The Department 
of the Interior (Bureau of Land Management) and the Department of 
Agriculture also carry out program activities in support of the 
implementation of the Convention. Bilaterally and regionally, the 
United States works with affected developing country Parties, local and 
international non-governmental organizations, and multilateral 
development banks on anti-desertification program activities, including 
education, community development, and capacity building, with the goal 
of empowering local people to combat desertification by identifying 
needs and solving problems themselves. An important aspect of CCD 
implementation is the dissemination of technology and scientific and 
technical information. The U.S. has made and will continue to make an 
important contribution in this area, given our 70 years of experience 
combating desertification in the American West.
Looking Ahead
    While significant progress in protecting the environment has been 
made, enormous challenges lie ahead. The upcoming World Summit on 
Sustainable Development (WSSD) in Johannesburg, South Africa, provides 
the United States with a unique opportunity to take stock of our past 
accomplishments and to build on them in helping to advance economic and 
social growth and environmental stewardship. We have learned a great 
deal since the Rio Earth Summit. WSSD gives us a chance to create a new 
paradigm that stresses sound economic policies, national capacity for 
good governance, anti-corruption, transparency and the role of science. 
The Bush Administration is committed to its success.
                                 ______
                                 
   Responses of James F. Turner to Additional Questions from Senator 
                                Jeffords
    Question 1. Please provide a complete list of the status of all 
environmental treaties that the United States has signed and ratified 
(or only signed) since 1945, including all dates of signature and 
ratification. Please note the environmental treaties since 1945 that 
the United States has neither ratified nor signed.
    Response. The State Department does not maintain a separate data 
base of environmental treaties, and is in the process of compiling the 
requested information from the official records.

    Question 2. What is the best way for the public to determine 
whether the United States is complying with its international 
environmental agreements?
    Response. One useful method is to review the obligations contained 
in the agreements and consider what steps the United States has taken 
with respect to each such obligation. In some cases the latter will 
involve considering a wide range of U.S. Government programs and 
activities.

    Question 3. Your boss, Ms. Dobriansky, and others in the 
Administration have been quoted as saying ``Sustainable Development 
begins at home.'' What exactly does that mean and how is it measured?
    Response. The Administration uses the phrase ``sustainable 
development begins at home'' to describe a provision in the agreement 
reached at the U.N. Conference on Financing for Development in 
Monterrey, Mexico in March this year, specifically, ``Each country has 
primary responsibility for its own economic and social development . . 
.'' We advocate that development be sustainable, and that to achieve 
this sustainable development, nations must practice good domestic 
governance. Good domestic governance is characterized by robust 
democratic institutions (including a popularly elected legislature and 
an independent judiciary); effective measures to combat corruption; 
adherence to the rule of law (i.e., fair and consistent application of 
law); public participation in decisionmaking; and the use of sound 
science to guide those government decisions to the extent possible. A 
country that is not committed to these goals, including being good 
stewards of its natural resources, cannot expect development to occur 
optimally, because the full range of development resources, both 
domestic and foreign, will not be mobilized and effectively used to 
foster economic and social development and environmental protection. 
International cooperation and development assistance will continue to 
play an important support role. However, the commitment to sustainable 
development, and to establish the needed framework to promote such 
development must begin domestically.

    Question 4. One of the purposes of the World Summit is to re-
energize efforts at the national level in regard to sustainable 
development and the implementation of Agenda 21. What domestic actions 
is the Administration considering as followup to Johannesburg?
    Response. The Administration plans to continue efforts to implement 
Agenda 21 through a number of mechanisms including innovative public-
private partnerships. The Council on Environmental Quality, the 
Environmental Protection Agency, Department of the Interior, Department 
of Commerce, Department of Agriculture and other government agencies 
are actively working with the public and private sectors to ensure that 
sustainable development is a priority? at the national level.

    Question 5. Could you please provide a list for the record of the 
U.S. delegation representatives that will be attending, and the list of 
U.S. delegation representatives that attended the Rio Earth Summit?
    Response. We have attached a provisional list of the U.S. 
delegation to the World Summit on Sustainable Development and a list of 
the U.S. delegation to the United Nations Conference on Environment and 
Development (the Earth Summit) held in Rio de Janeiro in 1992.
      united states delegation to the world summit on sustainable 
        development, johannesburg, august 26--september 4, 2002
Ex Officio Head of Delegation
The Honorable Colin L. Powell
  Secretary of State
Representatives
The Honorable Paula J. Dobriansky
  Under Secretary for Global Affairs
  Department of State
  
  
The Honorable John F. Turner
  Assistant Secretary for Oceans and
    International Environmental and Scientific Affairs
  Department of State
  
Alternate Representatives
The Honorable Claude A. Allen
  Deputy Secretary
  Department of Health and Human Services
  
  
The Honorable Robert G. Card
  Under Secretary for Energy, Science and Environment
  Department of Energy
  
  
The Honorable James L. Connaughton
  Chairman
  Council on Environmental Quality
  Executive Office of the President
  
  
The Honorable Linda J. Fisher
  Deputy Administrator
  Environmental Protection Agency
  
  
The Honorable Cameron R. Hume
  United States Ambassador
  Pretoria
  
  
The Honorable Conrad C. Lautenbacher, Jr.
  Under Secretary for Oceans and Atmosphere
  National Oceanic and Atmospheric Administration
  Department of Commerce
  
  
Jonathan A. Margolis
  Director
  Office of Policy Coordination and Initiatives
  Bureau of Oceans and International Environmental and Scientific 
Affairs
  Department of State
  
  
Richard T. Miller
  Deputy Assistant Secretary
Bureau of International Organization Affairs
Department of State
  
  
The Honorable James R. Moseley
  Deputy Secretary
  Department of Agriculture
  
  
The Honorable Andrew S. Natsios
  Administrator
  Agency for International Development
  
  
Anthony F. Rock
  Principal Deputy Assistant Secretary for Oceans and International
  Environmental and Scientific Affairs Department of State
  
  
The Honorable Sichan Siv
  Ambassador
  United States Representative to the Economic and Social Council
  United States Mission to the United Nations
  
  
The Honorable Peter S. Watson
  President and Chief Executive Officer Overseas Private Investment 
Corporation
  
  
The Honorable Christine Todd Whitman
  Administrator
  Environmental Protection Agency
  
Senior Advisers
Alan Hecht
  Council on Environmental Quality
  National Security Council
  Executive Office of the President
  
  
  Donald K. Steinberg
  Deputy Director
  Office of the Policy Planning Staff
  Department of State
  
Advisers
Kate Almquist
  Special Assistant
  Office of the Administrator
  Agency for International Development
  
  
Christo Artusio
  Office of Global Change
  Bureau of Oceans and International Environmental and Scientific 
Affairs
  Department of State
  
  
Deborah M. Atwood
  Special Assistant to the Deputy Secretary
  Department of Agriculture
  
  
The Honorable Judith E. Ayres
  Assistant Administrator for International Affairs
  Environmental Protection Agency
  
  
Adela Backiel
  Director of Sustainable Development
  Department of Agriculture
  
  
Janice F. Bay
  Deputy Assistant Secretary
  Bureau of Economic and Business Affairs
  Department of State
  
  
John Beale
  Deputy Assistant Administrator
  Environmental Protection Agency
  
  
Karin Berry
  Senior Policy Analyst
  Department of Energy
  
  
Robert Blair
  Office of International Health Affairs
  Bureau of Oceans and International Environmental and Scientific 
Affairs
  Department of State
  
  
Evan T. Bloom
  Office of the Assistant Legal Adviser for Oceans and International 
Environmental and Scientific Affairs
  Office of the Legal Adviser
  Department of State
  
  
The Honorable Richard A. Boucher
  Assistant Secretary for Public Affairs and Department Spokesman
  Department of State
  
  
Marcel Bouquet
  Interpreter
  Office of Language Services
  Department of State
  
  
Sarah K. Brandel
  Office of Ocean Affairs Bureau of Oceans and International
  Environmental and Scientific Affairs Department of State
  
  
  William J. Brennan
  Deputy Assistant Secretary
  National Oceanic and Atmospheric Administration Department of 
Commerce
  
  
Gayleatha Brown
  Counselor for Political Affairs
  United States Embassy
  Pretoria
  
  
Lori Brutten
  Office of Policy Coordination and Initiatives
  Bureau of Oceans and International Environmental and Scientific 
Affairs
  Department of State
  
  
Steven Buckler
  Counselor for Administrative Affairs
  United States Embassy
  Pretoria
  
  
Jeffry Burnam
  Deputy Assistant Secretary
  Bureau of Oceans and International Environmental and Scientific 
Affairs
  Department of State
  
  
Stephanie Childs
  Senior Adviser
  Office of the Under Secretary for International Trade
  International Trade Administration Department of Commerce
  
  
Brent Christensen
  Economic Officer
  United States Embassy Beijing
  
  
Cynthia Church
  Deputy Press Secretary
  Department of State
  
  
Karen Clark
  Department of the Interior
  
  
Lawrence E. Clark
  Associate Chief
  Natural Resource Conservation Service
  Department of Agriculture
  
  
Gerald Clifford
  Deputy Assistant Administrator
  Office of International Activities
  Environmental Protection Agency
  
  
Sally D. Collins
  Associate Chief
  United States Forest Service
  Department of Agriculture
  
  
William E. Craft
  Director
  Office of Multilateral Trade Affairs
  Bureau of Economic and Business Affairs
  Department of State
  
  
Jonathan Crock
  Office of the Ambassador-at-Large For War Crime Issues
  Department of State
  
  
The Honorable Patrick M. Cronin
  Assistant Administrator
  Agency for International Development
  
  
Wayne D'Angelo
  Advance Director
  Environmental Protection Agency
  
  
John Davison
  Deputy United States Representative to the Economic and Social 
Council
  United States Mission to the United Nations
  
  
Jill Derderian
  Environment, Science and Technology Officer
  United States Embassy
  Pretoria
  
  
Stewart Devine
  Advance Line Officer
  Executive Secretariat
  Department of State
  
  
Joseph Martin Dieu
  Coordinator for the World Summit on Sustainable Development
  Office of International Activities Environmental Protection Agency
  
  
Dirk Dijkerman
  United States Agency for International Development Director
  United States Embassy
  Pretoria
  
  
Larisa Dobrianaky
  Deputy Assistant Secretary
  Department of Energy
  
  
  James R. Dunlap
  Executive Assistant
  Bureau of African Affairs
  Department of State
  
  
Dennie Ege
  Office of International Conferences
  Bureau of International Organization Affairs
  Department of State
  
  
Virginia L. Farris
  Public Affairs Officer
  United States Embassy
  Pretoria
  
  
Joseph Ferrante
  Assistant to the Administrator
  Environmental Protection Agency
  
  
Cory A. Firestone
  Bureau of Oceans and International Environmental, and Scientific 
Affairs
  Department of State
  
  
  The Honorable Emil Frankel
  Assistant Secretary for Transportation Policy
  Department of Transportation
  
  
The Honorable Jendayi E. Frazer
  Special Assistant to the President And Senior Director for African 
Affairs
  National Security Council
  Executive Office of the President
  
  
Joseph Freedman
  Associate General Counsel
  Environmental Protection Agency
  
  
William M. Frej
  Director for Development Issues
  National Security Council
  Executive Office of the President
  
  
William R. Gaines
  Coordinator for International Affairs
  Office of Science and Technology Policy
  Executive Office of the President
  
  
The Honorable David Garman
  Assistant Secretary for Energy Efficiency and Renewable Energy
  Department of Energy
  
  
Isabel N. Gates
  Office of the Executive Director
  Bureau of Oceans and International Environmental and Scientific 
Affairs
  Department of State
  
  
Joanne B. Giordano
  Deputy Assistant Administrator
  Bureau for Legislative and Public Affairs
  Agency for International Development
  
  
Virginia Green
  Vice President
  Investment Policy
  Overseas Private Investment Corporation
  
  
Jeff J. Grieco
  Chief
  Multimedia Communications Division ``Bureau for Legislativeand Public 
Affairs
  Agency for International Development
  
  
Joseph B. Ham
  Trade Specialist
  Department of Agriculture
  
  
Robert K. Harris
  Attorney Adviser
  Office of the Assistant Legal Adviser for Oceans and International 
Environmental and Scientific Affairs
  Office of the Legal Adviser
  Department of State
  
  
John J. Hartley, II
  Minister-Counselor for Economic Affairs
  United States Embassy
  Pretoria
  
  
Jennifer A. Haverkamp
  Assistant United States Trade Representative for Environment and 
Natural Resources
  Office of the United States Trade Representative Executive Office of 
the President
  
  
Richard Helm
  Counselor for Agricultural Affairs
  United States Embassy
  Pretoria
  
  
Leonard A. Hirsch
  Adviser
  Smithsonian Institution
  
  
Teresa D. Hobgood
  Bureau of Oceans and International
  Environmental and Scientific Affairs
  Department of State
  
  
Ronald Neil Hoffer
  Environmental Protection Agency
  
  
The Honorable Jeffrey Holmstead
  Assistant Administrator for Air and Radiation
  Environmental Protection Agency
  
  
Heather Hopkins
  Legislative Program Specialist
  Congressional Liaison Division
  Bureau for Legislative and Public Affairs
  Agency for International Development
  
  
Robert P. Hopkins
  Director
  External Affairs
  National Oceanic and Atmospheric Administration
  Department of Commerce
  
  
Chase M. Huntley
  Analyst
  Natural Resources and Environment
  General Accounting Office
  
  
Kelly A. Johnson
  Principal Deputy Assistant Attorney General
  Environment and Natural Resources Division
  Department of Justice
  
  
The Honorable Walter H. Kansteiner
  Assistant Secretary for African Affairs
  Department of State
  
  
Roy S. Katayaina
  Adviser
  Agency for International Development
  
  
Craig Kelly
  Executive Assistant
  Office of the Secretary
  Department of State
  
  
Carol Kramer-LeBlanc
  Adviser on Food Security
  Foreign Agricultural Service
  Department of Agriculture
  
  
Luisa Joy G. Labez
  Senior International Affairs Analyst
  General Accounting Office
  Washington, DC.
  
  
Karen T. Levine
  United States Representative to the United Nations Environment 
Program
  United States Embassy
  Nairobi
  
  
Herbert Levitan
  National Science Foundation
  
  
Frances C. Li
  National Science Foundation
  
  
Clay Lowery
  Deputy Assistant Secretary for International Debt, Development and 
Quantitative Policy Analysis
  Department of the Treasury
  
  
James A. Mahoney
  Vice President
  Engineering and Environment
  Export-Import Bank of the United States
  
  
Joe Martyak
  Associate Administrator for Communications, Education and Media
  Environmental Protection Agency
  
  
Jan L. McAlpine
  Office of Ecology and Terrestrial Conservation
  Bureau of Oceans and International Environmental and Scientific 
Affairs
  Department of State
  
  
John McCutcheon
  Principal Deputy Assistant Secretary
  Department of Energy
  
  
Elizabeth McLanahan
  International Affairs Specialist
  Department of Commerce
  
  
Thomas K. McNeil, Jr.
  Personal Assistant to the Administrator
  Environmental Protection Agency
  
  
James Metzger
  Military Adviser to the Secretary of State and
  Special Assistant to the Chairman, Joint Chiefs of Staff
  
  
Gillian Milovanovic
  Deputy Chief of Mission
  United States Embassy
  Pretoria
  
  
Linda V. Moodie
  Chief
  Application and Information Services Branch
  International and Interagency Affairs Office
  National Oceanic and Atmospheric Administration
  Department of Commerce
  
  
Franklin Moore
  Director
  Global Center for the Environment
  Agency for International Development
  
  
Melinda Moore
  Deputy Director
  Office of Global Health Affairs
  Department of Health and Human Services
  
  
Sahar Moridani
  Special Assistant to the Assistant Secretary for Public Affairs
  Department of State
  
  
The Honorable Everett L. Mosley
  Inspector General
  Agency for International Development
  
  
Jacob Moss
  Special Assistant
  Environmental Protection Agency
  
  
The Honorable Constance Berry Newman
  Assistant Administrator
  Bureau for Africa
  Agency for International Development
  
  
Rachel Nugent
  National Institutes of Health
  Department of Health and Human Services
  
  
Elisha Nyman
  Special Assistant to the Under Secretary for Global Affairs
  Department of State
  
  
Jennifer M. O'Connor
  Adviser
  Department of Agriculture
  
  
Richard Parker
  Assistant to the Deputy Secretary
Department of Health and Human Services
  
  
The Honorable Elizabeth Anne Peterson
  Assistant Administrator
  Bureau for Global Health
  Agency for International Development
  
  
C. Anne Pence
  Executive Assistant
  Office-of the Under Secretary for Economic, Business and Agricultural 
Affairs
  Department of State
  
  
Brett Pomainville
  Office of Policy Coordination and Initiatives
  Bureau of Oceans and International Environmental and Scientific 
Affairs
  Department of State
  
  
Susan Povenmire
  Office of Public Diplomacy
  Bureau of Oceans and International
  Environmental and Scientific Affairs Department of State
  
  
The Honorable Pierre Prosper
  Ambassador-at-Large for War Crime Issues
  Department of State
  
  
Scott C. Rayder
  Chief of Staff
  Office of the Under Secretary for Oceans and Atmosphere
  National Oceanic and Atmospheric Administration Department of 
Commerce
  
  
Henry David Reese
  Environmental Protection Specialist
  Department of Transportation
  
  
Daniel Rochberg
  Office of Policy Coordination and.Initiatives
  Bureau of Oceans and International
  Environmental and Scientific Affairs Department of State
  
  
Peter Roussopoulos
  Adviser on Sustainable Development
  United States Forest Service
  Department of Agriculture
  
  
James W. Rubin
  Assistant Chief
  Policy, Legislation and Special Litigation
  Department of Justice
  
  
Aaron Salzberg
  Office of Policy Coordination and Initiatives
  Bureau of Oceans and International
  Environmental and Scientific Affairs Department of State
  
  
Brenda Scarborough
  Advance Communications
  Executive Secretariat
  Department of State
  
  
Walter Gary Sharp
  Congressional Relations Adviser
  Bureau of Legislative Affairs
  Department of State
  
  
Betsi Shays
  Adviser
  Peace Corps
  
  
Marysue Shore
  Senior Adviser to the President and Director of, African Affairs
  Overseas Private Investment Corporation
  
  
The Honorable Eimny B. Simmons
  Assistant Administrator
  Bureau for Economic Growth, Agriculture and Trade
  Agency for International Development
  
  
Daniel Smith
  Deputy Executive Secretary
  Department of State
  
  
Dean Thompson
  Advance Line Officer
  Executive Secretariat
  Department of State
  
  
Griffin M. Thompson
  Director
  Office of Energy, Environment and Technology
  Center for the Environment
  Agency for International Development
  
  
Eileen Ramira Travoto
  Deputy Assistant Administrator
  Environmental Protection Agency
  
  
Michael C. Trulson
  Office of Environmental Policy
  Bureau of Oceans and International
  Environmental and Scientific Affairs Department of State
  
  
David J. van Hoogstraten
  Office of Environmental Policy
  Bureau of Oceans and International
  Environmental and Scientific Affairs
  Department of State
  
  
Darci L. Vetter
  Office of the United States Trade Representative
  Executive Office of the President
  
  
Harlan Watson
  Office of Global Change
  Bureau of Oceans and International Environmental and Scientific 
Affairs
  Department of State
  
  
Eric B. Wilson
  Senior Program Analyst
  Bureau of Indian Affairs
  Department of the Interior
  
  
William Stanley Wilson
  Senior Scientist
  National Environmental Satellite, Data and Information Service
  National Oceanic and Atmospheric Administration
  Department of Commerce
  
  
Whitney Witteman
  Office of International Conferences
  Bureau of International Organization Affairs
  Department of State
  
Private Sector Advisers
Geraldine Barrows
  Special Assistant
  Office of the Mayor
  Hempstead, New York
  
  
Manley A. Begay
  Director
  Native Nations Institute
  Navajo Tribe
  Tucson, Arizona
  
  
George D. Carpenter
  Director of Corporate Sustainable Development
  Procter and Gamble Company
  Cincinnati, Ohio
  
  
Richard Coombe
  Chair and Chief Executive Officer
  Watershed Agricultural Council
  Walton, New York
  
  
Dianne Dillon Ridgely
  Director
  The Center for a New American Dream
  Iowa City, Iowa
  
  
Daniel Esty
  Director
  Yale Center on Environmental Law and Policy
  Yale Law School
  New Haven, Connecticut
  
  
The Honorable James A. Garner
  Mayor
  Hempstead, New York
  
  
Hank Habicht
  Chief Executive Officer
  Global Environment and Technology Foundation
  Annandale, Virginia
  
  
Lauren Inouye
  Stanford Institute for International Studies
  Center for Environmental Science and Policy
  Washington, DC.
  
  
John Klink
  Montecito, California
  
  
F. Sherwood Rowland
  National Academy of Sciences
  Irvine, California
  
  
Chris Tucker
  Actor and Comedian
  Los Angeles, California
UNITED STATES CONGRESSIONAL OBSERVER DELEGATION TO THE WORLD SUMMIT ON 
   SUSTAINABLE DEVELOPMENT JOHANNESBURG, AUGUST 26--SEPTEMBER 4, 2002
Members of the House of Representatives
The Honorable Thomas H. Allen
  House of Representatives
  
  
The Honorable Earl Blumenauer
  House of Representatives
  
  
The Honorable James C. Greenwood
  House of Representatives
  
  
The Honorable Dennis J. Kucinich
  House of Representatives
  
  
The Honorable George Miller
  House of Representatives
  
  
The Honorable Christopher Shays
  House of Representatives
  
  
  
Congressional Staff
Sara Elizabeth Barth
  Legislative Assistant
  Office of Senator Barbara Boxer
  U.S. Senate
  
  
Janine Benner
  Legislative Assistant
  Office of Congressman Earl Blumenauer
  House of Representatives
  
  
  Floyd DesChamps
  Senior Professional Staff Member
  Committee on Commerce, Science and Transportation
  U.S. Senate
  
  
Greg Dotson
  Counsel
  Committee on Government Reform and
  Office of Congressman Henry A. Waxman
  House of Representatives
  
  
Deb Fiddelke
  Press Director
  Office of Senator Chuck Hagel
  U.S. Senate
  
  
  Kenneth W. Flanz
  Deputy Legislative Director
  Office of Senator Michael D. Crapo
  U.S. Senate
  
  
Amy A. Fraenkel
  Counsel
  Committee On Commerce, Science and Transportation
  U.S. Senate
  
  
Richard Frandsen
  Senior Counsel
  Committee on Energy and Commerce
  House of Representatives
  
  
Stephen E. Moody
  Legislative Assistant
  Office of Congressman George Miller
  House of Representatives
  
  
Maurice A. Perkins
  Professional Staff member
  Committee on Foreign Relations
  U.S. Senate
  
  
Eric Pfuehler
  Administrative Assistant
  Office of Congressman David Bonior House of Representatives
  
  
Johanna F. Polsenberg
  Legislative Fellow
  Office of Congressman Sam Farr
  House of Representatives
  
  
Tiffany Anne Prather
  Legislative Fellow
  Committee on Environment and Public Works
  U.S. Senate
  
  
Paul L. Oostburg Sanz
  Deputy Chief Counsel
  Committee on International Relations
  House of Representatives
  
  
Dallas Scholes
  Counsel/Legislative Assistant
  Office of Senator Michael Enzi
  U.S. Senate
  
  
Alison Leigh Taylor
  Chief Counsel
  Committee on Environment and Public Works
  U.S. Senate

    The following Congressional Staff spouse will accompany the 
delegation: Jacqueline Kae DesChamps.

    Question 6. What measures should we look at to determine whether 
U.S. programs and resources are achieving the goals of Agenda 21?
    Response. There are a number of measures that could be considered 
to evaluate our progress in achieving the goals of Agenda 21. The body 
of international environmental agreements to which the United States is 
a party provides one important measure. Beyond U.S. participation in 
and implementation of treaties and conventions, however, is an 
important body of domestic activities undertaken by both the U.S. 
Government and the private sector to advance sustainable development 
objectives. Examples of government activities include enactment and 
implementation of Brownfields legislation (to promote cleanup and reuse 
of contaminated land) and TEA-21 (which, among other things, promotes 
sustainable transportation) and voluntary policy initiatives such as 
the U.S.-led International Coral Reef Initiative (ICRI), the U.N. 
Forest Forum (which is developing a set of indicators for the 
sustainable management of the world's most endangered forest 
resources), and the Arctic Council (which has identified and 
implemented voluntary measures to reduce toxic chemicals that pose a 
particular bioaccumulation risk in animals and humans in polar 
regions). Voluntary measures implemented by the private sector in the 
United States, such as the Energy Star program for energy efficient 
appliances and the adoption of clean production technologies and 
methods, have also contributed significantly to achievement of the 
goals of Agenda 21.

    Question 7. The Administration has strongly promoted the concept of 
concrete ``partnerships,'' or Type II initiatives, including ones on 
sustainable energy and clean water. What is the status of these efforts 
and does the Administration plan to provide new financial resources for 
such partnerships? How will the Administration guarantee that voluntary 
partnerships will deliver real progress for sustainable development, 
especially if they are not designed to implement specific international 
agreements with targets and timetables? How can the Administration 
guarantee that any partnerships that involve corporations are carried 
out in a responsible manner if there is no independent oversight 
framework?
    Response. The United States is proposing four ``signature'' 
partnerships that have been created as a result of preparations for 
WSSD. These are in the fields of energy, water, hunger and forests. 
These partnerships are ``coalitions of the willing'', voluntary in 
nature and open to those governments, NGO's, private sector entities, 
and civil society groups who wish to participate. In other words, they 
do not require the negotiation of an international treaty, but rather 
are invitations to cooperate to achieve a shared goal. We would expect 
that each partnership would identify its goals and periodically provide 
a report on its progress. Such reports should be accessible and open to 
the public. The Commission on Sustainable Development could be used as 
the forum in which partnerships provide their reports, further 
increasing transparency and thereby accountability. The Administration 
plans to finance these partnerships through existing resources.

    Question 8. The Administration has (rightly) been very strong on 
the importance of ``good governance'' to sustainable development. The 
President announced in a speech at the Inter-American Development Bank 
on March 14 that the United States will increase its core development 
assistance by 50 percent over the next 3 years, resulting in a $5 
billion annual increase over current levels. These additional funds 
will go to a new Millennium Challenge Account that will fund 
initiatives to help developing nations improve their economies and 
standards of living. The Millennium Challenge Account will set criteria 
for how the additional $5 billion the United States has pledged will be 
allocated. But ``good governance'' does not come cheap. How does the 
Administration propose to assist countries to bring about ``good 
governance,'' as opposed to rewarding countries exhibiting it? How much 
of U.S. aid is currently spent on ``good governance''?
    The Federal Government currently funds many programs that promote 
good governance across in almost every developing country of the world. 
U.S. assistance for governance programs was over $1.5 billion in fiscal 
year 02 for programs supporting, among other things; policy training 
for civil servants and elected officials, government information 
management, promotion of civil society groups, election monitoring, 
anti-corruption, judicial and prosecutorial. capacity-building, women's 
and workers' rights, public-private partnerships, and food security. 
These programs, among many others, will continue within the framework 
of existing development assistance.
    Tbe MCA will be a new account that will supplement, not replace, 
existing programs. The MCA will assist countries that have made a 
commitment to ruling justly, investing in people, and promoting 
economic freedom. MCA funds will be distributed in flexible and 
innovative ways so that they can have a maximum impact on economic 
growth and poverty reduction. Country ownership is a critical component 
of the MCA. The uses of the funds will be determined by full engagement 
with recipient countries. We will partner with, not dictate to, MCA 
countries.
    Competition for the MCA will inspire non-recipient countries to 
improve their performance on governance. Countries that do improve 
their performance will be in a position to compete for MCA funding in 
the future. Existing U.S. Government programs can help those countries 
that are willing to engage in serious policy reform.

    Question 9. What are the criteria for the Millennium Challenge 
Account? Why is it proposed to announce these after WSSD? What will be' 
the role of environmental measures in the criteria? What environmental 
criteria will apply to expenditure of the funds?
    Response. The Administration is still evaluating criteria to 
determine how funds from the Millennium Challenge Account would be 
disbursed. We are consulting with development partners in developed 
countries as well as with potential developing country recipients as we 
develop these criteria. This thorough process, which began immediately 
after the Financing for Development Summit in Monterrey in March, is 
independent of the timetable for WSSD.

    Question 10. What effect has the U.S. farm bill had on U.S. 
negotiating capacity and leverage, particularly with respect to the 
issue of reducing environmentally harmful subsidies? How has this 
affected U.S. credibility?
    Response. The United States is strongly committed to an ambitious 
outcome reducing global trade distortions in agriculture through the 
WTO. As Ambassador Zoellick has made clear, our strategy in pursuing 
this goal rests on a three-legged stool consisting of the new U.S. 
proposal for the Doha WTO negotiations to reduce agricultural 
subsidies, the U.S. Farm Bill, and trade promotion authority.
    Many, particularly in the international community, have exaggerated 
the provisions in the U.S. Farm Bill and claimed it throws into 
question our true interest in seeking reduced agricultural subsidies. 
But the bottom line is that domestic support under the farm bill is 
entirely consistent with WTO obligations. Under WTO rules, the United 
States is allowed to provide up to $19.1 billion annually in ``trade-
distorting'' support. The Farm Bill, for the first time, was 
consciously drafted with these limits in mind. Not only did Congress 
consider how support under the farm programs would be counted against 
the U.S.-allowed support level, but also it included an unprecedented 
``circuit breaker'' mandating the Secretary of Agriculture to modify 
programs to ensure compliance with U.S. international obligations.
    If other countries agree with the U.S. Government that world 
agricultural tariffs and subsidies are too high, we urge them to join 
us at the negotiating table. Congress has just renewed the President's 
trade promotion authority, and we believe a successful conclusion to 
the WTO negotiations will ensure congressional support for necessary 
modifications to our domestic agricultural programs required under any 
new WTO commitments.
    Regarding environmentally harmful subsidies, it is worth noting 
that the farm bill pays directly for conservation programs that are 
important to the Americanpublic. This reflects our consistent stand 
that it is important for governments to support farmers and rural 
communities in ways that are targeted, transparent, and non-trade 
distorting. By setting these examples, the farm bill, if anything, 
strengthens the Administration's ability to work toward the 
environmental objectives laid out in the Trade Promotion Authority act.

    Question 11. Please list all the new ``Type I'' commitments--the 
more conventional negotiated declarations and action plans--that the 
United States intends to enter into at WSSD.
    Response. The text is still under negotiation. The final outcomes 
will be determined in Johannesburg. We will supply you with the final 
Johannesburg Plan of Action and political declaration after the Summit 
has ended. We note that any Type I outcomes will not be ``commitments'' 
in a legal sense because the WSSD outcomes. will all be non-binding.

    Question 12. Explain the linkage between the Type I and Type II 
initiatives. Aren't strong Type II partnerships connected to having 
some type of concrete framework?
    Response. The international community has already agreed to a large 
number of goals, targets and timetables. For example, the United States 
strongly supports the internationally agreed Millennium Declaration 
goals. In our view, partnerships are clearly linked to such goals in 
that partnerships are one of the main mechanisms through which to 
implement such goals.

    Question 13. How many Type II partnerships is the United States 
proposing for WSSD? Where is the full list? What government agencies 
and private companies are to be involved?
    Response. While the major Type II partnerships under development 
for WSSD are still under active review, they are outlined in the 
response to question 7. Broad inter-agency teams composed of relevant 
U.S.G agencies are working on these efforts. We welcome the broad 
participation of business, NGO's, and other major groups in such 
partnerships. We plan to continue building partnerships well after the 
Johannesburg Summit has finished: this is not a process that ends with 
the Summit.
    Please see the attached list of our Type II partnerships.
     united states delegation to the united nations conference on 
  environment and development (unced) rio de janeiro, june 3-14, 1992
Representative
The Honorable William K. Reilly
Administrator, Environmental Protection Agency
  
Alternate Representatives
The Honorable Curtis Bohien
Assistant Secretary for Oceans'and International Environmental and 
Scientific Affairs
Department of State
  
  
The Honorable J. Michael Davis
Assistant Secretary for Conservation and Renewable Energy
Department of Energy
  
  
The Honorable Michael R. Deland
Chairman
Council on Environmental Quality
Executive Office of the President
  
  
The Honorable Robert Grady
Associate Director for Natural Resources, Energy and Science
Office of Management and Budget
Executive Office of the President
  
  
The Honorable Richard H. Melton
Ambassador
United States Embassy
Brasilia
  
  
The Honorable Edward J. Perkins
Ambassador
Permanent, Representative of the United States to the United Nations
New York
  
  
The Honorable Ronald W. Roskens
Administrator
Agency for International Development
  
  
The Honorable Robert J. Ryan, Jr.
Coordinator for United Nations Conference on Environment and 
Development Preparations
Bureau of Oceans and International Environmental and Scientific Affairs
Department of State
  
  
The Honorable Michael K. Young
Deputy Under Secretary for Economic and Agricultural Affairs
Department of State
  
Advisers
Meredith Attwell
Office of Legislative Management
Bureau of Legislative Affairs
Department of State
  
  
Maureen Bannon, Lieutenant Commander, USN
Office of the Representative for Oceans Policy Affairs
Office of the Secretary
Department of Defense
  
  
Susan Biniaz
Assistant Legal Adviser for Oceans,
International Environmental and Scientific Affairs Office of the Legal 
Adviser
Department of State
  
  
Patricia Bliss-Guest
Associate Director for International Law and Policy
Council on Environmental Quality
Executive Office of the President
  
  
Thomas A. Campbell
General Counsel
National Oceanic and Atmospheric Administration
Department of Commerce
  
  
Nancy O'Neal Carter
Coordinator for Population Affairs
Bureau of Oceans and International Environmental and Scientific Affairs
Department of State
  
  
Ed Cassidy
Deputy Chief of Staff and Deputy Assistant Secretary for Policy
Office of Policy, Management and Budget Department of the Interior
  
  
Stephanie J. Caswell
Office of Ecology, Health and Conservation
Bureau of Oceans and International Environmental and Scientific Affairs
Department of State
  
  
Melinda Chandler
Attorney-Adviser
Office of Oceans, International Environmental and Scientific Affairs
Office of the Legal Adviser
Department of State
  
  
David Cottingham
Director
Office of Ecology and Conservation
National Oceanic and Atmospheric Administration
Department of Commerce
  
  
Anthony A. Das
Director
Office of Public Communications
Bureau of Public Affairs
Department of State
  
  
Christine L. Dawson
Special Adviser for Environmental Issues
Office of the Under Secretary for Economic and Agricultural Affairs
Department of State
  
  
Michael S. Delello
Special Assistant
Office of the Secretary
Department of Energy
  
  
Susan F. Drake
Office of Environmental Protection
Bureau of Oceans and International Environmental and
Scientific Affairs
Department of State
  
  
Milton K. Drucker
Office of International Commodities
Energy, Resources and Food Policy,
Bureau of Economic and Business Affairs
Department of State
  
  
L. Val Giddings
Office of Biotechnology Biologics and Environmental Protection
Animal and Plant Health Inspection Service
Department of Agriculture
  
  
Alan D. Hecht
Deputy Assistant Administrator for International Activities
Environmental Protection Agency
  
  
Matthew P. Hennesey
Director
Office of Multilateral Development Banking
Department of the Treasury
  
  
Twig Johnson
Director
Office of Environment and Natural Resources
Bureau of Research and Development
Agency for International Development
  
  
Gerald L. Kamens
Office of Policy Analysis and Resources
Directorate for Policy
Agency for International Development
  
  
Mark P. Kindall
Office of International Activities
Environmental Protection Agency
  
  
Stephen Klein
U.S. UNCED Coordination Center
Bureau of Oceans and International Environmental and Scientific 
Affairs.
Department of State
  
  
Jeffrey D. Kovar
Attorney-Adviser
Office of Legal Adviser
Department of State
  
  
William Lake
Consultant to the Administrator
Environmental Protection Agency
  
  
Gary L. Larsen
International Forestry
Forest Service
Department of Agriculture
  
  
The Honorable Thomas E. Lovejoy
Assistant Secretary for External Affairs
Smithsonian Institution
Washington, DC.
  
  
John P. McGuinness
Office of Technical Specialized Agencies
Bureau of International Organization Affairs
Department of State
  
  
The Honorable Jonathan Moore
Ambassador
United States Representative to the Economic and Social Council of the 
United Nations
New York
  
  
Carol Ann Petsonk
Director
Office of Environmental Affairs
Office of the United States Trade Representative
Executive Office of the President
  
  
Eleanor W. Savage
Director
Office of Ecology, Health and Conservation
Bureau of Oceans and International Environmental and Scientific Affairs
Department of State
  
  
John P. Schmitz
Deputy Counsel to the President
Executive Office of the President
  
  
R. Tucker Scully
Director
Office of Ocean Affairs
Bureau of Oceans and International Environmental and Scientific Affairs
Department of State
  
  
Jeff N. Sirmon
Deputy Chief for International Forestry
United States Forest Service
Department of Agriculture
  
  
Zell Steever
U.S. UNCED Coordination Center
Bureau of Oceans and International Environmental and Scientific Affairs
Department of State
  
  
Linda Strachan
Special Assistant for Congressional Relations
Bureau of Oceans and International Environmental and Scientific Affairs
Department of State
  
  
Scott B. Styles
Office of Legislative Management
Bureau of Legislative Affairs
Department of State
  
  
Neal A. Walidrop III
Office of Global Change
Bureau of Oceans and International Environmental and Scientific Affairs
Department of State
  
  
Harlan Watson
Acting Assistant Secretary for Water and Science and Science Adviser to 
the Secretary
Department of the Interior
  
  
Dr. Frank E. Young
Deputy Assistant Secretary for Health (Science and Environment)
Public Health Service
Department of Health and Human Services
      
                                 ______
                                 
 subject: congressional delegation to the united nations conference on 
  environment and development (unced) rio de janeiro, june 3-14, 1992
    1. The following individuals comprise the United States 
Congressional Delegation to UNCED:
A. Members of the Senate
The Honorable Albert Gore, Jr. (Chairman of the Senate Delegation)
U.S. Senate
  
  
The Honorable John N. Chafee (Vice Chairman of the Senate Delegation)
U.S. Senate
  
  
The Honorable Max Baucus
U.S. Senate
  
  
The Honorable Bob Graham
U.S. Senate
  
  
The Honorable John Kerry
U.S. Senate
  
  
The Honorable Frank H. Lautenberg
U.S. Senate
  
  
The Honorable Claiborne Pell
U.S. Senate
  
  
The Honorable Larry Pressler
U.S. Senate
  
  
The Honorable Steve Symms
U.S. Senate
The Honorable Paul Wellstone
U.S. Senate
The Honorable Timothy B. Wirth
U.S. Senate
               b. members of the house of representatives
The Honorable George Miller (Chairman of the House Delegation)
U.S. House of Representatives
  
  
The Honorable Anthony C. Beilenson
U.S. House of Representatives
  
  
The Honorable Ben C. Blaz
U.S. House of Representatives
  
  
The Honorable Cardiss Collins
U.S. House of Representatives
  
  
The Honorable Robert W. Davis
U.S. House of Representatives
  
  
The Honorable Edward F. Feighan
U.S. House of Representatives
  
  
The Honorable Benjamin A. Gilman
U.S. House of Representatives
  
  
The Honorable Bill Green
U.S. House of Representatives
  
  
The Honorable Dennis N. Hertel
U.S. House OF Representatives
  
  
The Honorable Nancy Pelosi
U.S. House of Representatives
  
  
The Honorable James H. Scheuer
U.S. House of Representatives
  
  
The Honorable Gerry Sikorski
U.S. House of Representatives
  
  
The Honorable Robert C. Torricelli
U.S. House of Representatives
  
  
The Honorable Jolene Unsoeld
U.S. House of Representatives
    1
    c. congressional staff supporting the paragraphs 1 and 2 above:
Unclassified
Daniel P. Beard
Staff Director
Committee on Interior and Insular Affairs
U.S. House of Representatives
  
  
Nancy M. Carman
Staff Consultant
Committee on Foreign Affairs
U.S. House of Representatives
  
  
Carol Doherty
Senior Staff Assistant
Committee on Foreign Affairs
U.S. House of Representatives
  
  
Susan Fagan
Legislative Assistant
Office of Senator Symms
U.S. Senate
  
  
David B. Finnegan
Majority Counsel
Committee on Energy and Commerce
U.S. House of Representatives
  
  
Susan R. Fletcher
Specialist, Environmental Policy
Environment and Natural Resources Policy Division
Congressional Research Service
Library of Congress
  
  
Gamier Jaszczaks, Colonel, USAF
Air Force Liaison Office
U.S. House of Representatives
  
  
Roy Kienitz
Professional Staff
Committee on Environment and Public Works
U.S. Senate
  
  
Jessica Laverty
Minority Counsel
Committee on Energy and Commerce
U.S. House of Representatives
  
  
John A. Lawrence
Administrative Assistant
Office of Congressman Miller
U.S. House of Representatives
  
  
Eileen Lee
Staff Director
Subcommittee on Environment
Committee on Science, Space and Technology
U.S. House of Representatives
  
  
Kathleen McGinty
Legislative Assistant
Office of Senator Gore
U.S. Senate
  
  
Thomas O. Melius
Professional Staff for Fish and Wildlife
Committee on Merchant Marine and Fisheries
U.S. House of Representatives
  
  
Julia Moffett
Professional Staff
Committee on Interior and Insular Affairs
U.S. House of Representatives
  
  
Charly Moore
Counsel
Committee on Merchant Marine and Fisheries
U.S. House of Representatives
  
  
Frank Norton, Colonel, USA
Army Liaison Office
U.S. Senate
  
  
John Robert Nunnally, Major, USAF
Air Force Liaison Office
U.S. House of Representatives
  
  
Joseph C. Pallone, Major, USA
Army Liaison Office
U.S. Senate
  
  
Jan Paulk
Director
Office of Interparliamentary Services
Office of the Secretary of the Senate
U.S. Senate
  
  
Steven N. Polansky
Professional Staff
Committee on Foreign Relations
U.S. Senate
  
  
Marl A. Ronash
Press Secretary
Office of Senator Gore
U.S. Senate
  
  
Joan Teague Rose
Staff Assistant
Committee on Agriculture
U.S. House of Representatives
  
  
Dr. Artie L. Shelton, Colonel, USA
Army Liaison Office
U.S. Senate
  
  
Steven J. Shimberg
Minority Staff Director and Counsel
Committee on Environment and Public Works
U.S. Senate
  
  
Russell J. Wilson
Minority Staff Consultant
Subcommittee on Europe and the Middle East
Committee on Foreign Affairs
U.S. House of Representatives
  
  
Daniel Weiss
Director for Public Affairs
Committee on Interior and Public Affairs
U.S. House of Representatives
  
  
    2. Following Congressional spouses will accompany the delegation: 
Tipper Gore, Virginia Chafee, Nuala Pell, Harriett Pressler, Loretta 
Symms, Wren Wirth, Adele Graham, Ann Blaz, Nadine Feighan, Paul Pelosi 
and Emily Scheuer.

    Question 14. How and what is the United States commitment to WEHAB 
(Water, Energy, Health, Agriculture, and Biodiversity)? What specific 
actions will we take in these areas?
    Response. WEHAB refers to the acronym that Secretary General Kofi 
Annan proposed as priority areas for the Johannesburg Summit. We 
support all five of the areas identified: water, energy, health, 
agriculture, and biodiversity. The development assistance programs run 
by USAID, USDA, EPA and other Federal agencies clearly reflect an 
emphasis in these areas, as a survey prepared by USAID with input from 
over 15 U.S. agencies indicates. Please see the attached document, 
``Working for a Sustainable World: Government Initiatives to Promote 
Sustainable Development.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 15. The United States, with other nations, has subscribed 
to the UN's Millennium Development Goals on the alleviation of poverty, 
access to safe drinking water, health and education, etc. But in the 
preparatory meetings leading up to WSSD, the United States has been 
isolated in remaining resolutely opposed to international efforts to 
set out how these Millennium Development Goals are to be achieved. Why 
is there a gap. between rhetoric and reality?
    Response. The United States strongly supports efforts to implement 
the internationally agreed Millennium Development goals. In our view, 
based on our 60 years of development experience, partnerships are the 
most effective way to implement those goals. The United States has 
taken the lead in pursuing partnerships and pushing this effort 
forward. We hope that other countries will join us in focusing on the 
implementation of the Millennium Development Goals. We have prepared a 
compendium of success stories in water and energy, for example, which 
details how partnerships in these sectors has led to concrete, on-the-
ground results improving the lives of individuals. (Please see the 
attachment referred to in question 14). We have emphasized this view 
throughout the preparatory process leading up to WSS]J.

    Question 16. To what extent, financially or otherwise, will the 
U.S. Government support President Mbeki's New Economic Partnership for 
African Development (NEPAD)?
    Response. NEPAD, the New Partnership for Africa's Development, was 
adopted by African heads of State in October 2001. The United States 
and others have welcomed NEPAD for its African origins and emphasis on 
good economic and political governance, including peer review and 
monitoring. The real test of NEPAD will be whether the bold rhetoric is 
reflected in concrete action and change. The objectives set out in 
NEPAD are consistent with the President's Compact for Development 
initiative, which emphasizes aid effectiveness through performance-
based development assistance, accountability, measurable results, and 
local ownership.
    In response to NEPAD, the United States and its G-8 partners 
developed an Action Plan for Africa in which we committed to enter into 
enhanced partnership, including providing additional resources, with 
countries whose performance reflects the NEPAD commitments. 
Specifically, our efforts will focus on countries that demonstrate a 
commitment to good governance and the rule of law, investing in their 
people, and pursuing policies that promote democracy, spur economic 
growth, and alleviate poverty.

    Question 17. How effective has the NAFTA environmental side 
agreement the North American Agreement on Environmental Cooperation 
(NAAEC)--been at protecting the environment? Where could it be 
improved?
    Response. The North American Agreement on Environmental Cooperation 
(NAAEC) has proven to be a useful tool for protecting the environment. 
Pursuant to the NAAEC, the Commission for Environmental Cooperation 
(CEC) was established and has evolved into an effective international 
environmental institution. The CEC consistently demonstrates the 
benefits of continental cooperation in addressing the environmental 
components of liberalized trade, serving as a complement to the NAFTA.
    The implementation of the NAAEC has led to environmental 
achievements' including:
    <bullet>  The phase-out and reduction of toxic chemicals in North 
America, including DDT;
    <bullet>  The protection of biodiversity through the North American 
Bird Conservation Initiative, Species of Common Conservation Concern, 
North American Marine Protected Areas Network, and the bilateral U.S.-
Mexico Wildlife Without Borders program; the sharing of environmental 
management information through the North American Biodiversity 
Information Network; and
    <bullet>  The development of micro-financing partnerships to 
promote pollution prevention for small and medium-sized businesses; the 
promotion of sustainable agricultural practices for small scale 
producers; and the establishment by Mexico of a Pollutant Release and 
Transfer Register.
    The NAAEC provides members of the public with avenues for input 
through several advisory bodies and a public submission process. As a 
result, the CEC has become an important forum for cooperation, 
including public dialog and participation.
    Over time, the CEC's cooperative work program has significantly 
expanded and, gained momentum in addressing a wide array of 
environmental issues of continental concern. At the same time, the 
CEC's resource base has remained constant since its inception in 1995 
at $3 million from each country annually. As such, the effectiveness of 
this unique international environmental institution might be vastly 
improved by increased funding and/or more focused work on priority 
activities. In another area, the parties are working to strengthen 
communication and cooperation between trade and environment officials 
as envisioned in NAAEC Article 10(6), which calls for cooperation 
between the CEC and the NAFTA Free Trade Commission ``to achieve the 
environmental goals and objectives of the NAFTA. . . .''.

    Question 18. The United States has a good record with respect to 
promoting the Export Credit Agencies in the Organization for Economic 
Cooperation and Development. Where do things stand on ECAs?
    Response. The United States has led the effort to strengthen 
environmental guidelines for official Export Credit Agencies (ECA5), 
both at the G-8 and in the Organization for Economic Cooperation and 
Development (OECD) Working Party on Export Credits and Credit 
Guarantees (ECG).
    We have made progress, but the current OECD proposal, ``Common 
Approaches to the Environment'', falls short of our objectives of 
securing a clear commitment on the part of ECAs to adhere to a minimum 
set of common environmental standards and credible transparency 
provisions, modeled on current World Bank standards. While our Export-
Import Bank has had environmental guidelines since 1995, only a few of 
our competitors have standards that even approach the quality of Em-Im 
Bank's. Others in the OECD insist that ECAs focus now on implementing 
the ``Common Approaches'' that some Members said they would implement 
on a voluntary basis at the November 2001 meeting, and then review our 
respective experiences in 2003. Although we see the 2003 review as an 
important opportunity to apply lessons learned to strengthening and 
standardizing guidelines for ECAs, we do not intend to let this matter 
rest, and will continue to take every opportunity to make progress.

    Question 19. National laws are not able to address the striking 
decline in the world's fishing stocks and the overall biomass of the 
world's oceans in that portion of the earth's surface beyond any 
national jurisdiction. What commitments are you prepared to make 
regarding the creation and enforcement of international standards to 
prcitect this area of the high seas from unsustainable mining 
activities and fishing practices, such as bottom trawling and unwanted 
by-catch problems that cause massive destruction of marine life?
    Response. Under this Administration, the Department of State is 
taking a lead role in efforts to strengthen both the rules governing 
the conservation and management of living marine resources in areas 
beyond national jurisdiction, and the enforcement of those rules.
    In recent years, a new international framework has been established 
to accomplish this goal. Much of this work has focussed on global 
instruments such as the U.N. Fish Stocks Agreement, the FAO Compliance 
A9reement and the FAO Code of Conduct for Responsible Fishing. 
Together, these and other recent agreements provide an effective 
toolbox for addressing issues such as overfishing, bycatch of non-
target species, excess capacity of fishing fleets, lack of enforcement 
of existing rules and other problem areas.
    It is now up to the United States and other countries that support 
the principles embodied in these agreements to work for their effective 
implementation at the regional and sub-regional levels through existing 
and newly created regional fisheries management organizations. This is 
not an easy task. Most international fisheries organizations operate by 
consensus, giving great weight to those who oppose serious efforts to 
effect necessary changes. However, we are committed to making every 
possible effort to promote sustainable fishing practices on fish stocks 
in areas both within and beyond national jurisdiction.
    One area where much work needs to be done is the area of bycatch 
and discards of small fish as well as other non-target fish species and 
other species including sea turtles and sea birds. Bycatch of sea birds 
and sea turtles in commercial longline fisheries, in particular, are 
issues that require more international attention. Again, this is 
difficult in that affected fleets may oppose conservation efforts that 
could adversely impact their operations. Because we have limited market 
leverage or other ways to compel action, we must work with other 
nations and their fishing industries to convince rather than coerce. 
Industry involvement and cooperation will be vital if we are to 
identify and introduce the technological solutions that will be 
necessary to address these issues.
    As part of this process, the Western Pacific Regional Fisheries 
Management Council, based in Honolulu, will convene this November the 
Second International Fishers Forum (IFF2). The conference will bring 
together representatives from the fishing industry, governments and the 
environmental and academic communities to address these and other 
issues. We strongly support this effort and will look carefully at the 
results of that meeting to identify possible next steps by Governments 
to mitigate sea bird and sea turtle bycatch in longline fisheries.
    As to mining activities on seabed areas beyond the jurisdiction of 
any nation, the United States participates as an observer in the 
International Seabed Authority (ISA). The ISA is a body created by the 
United Nations Convention on the Law of the Sea, to which the United 
States is not yet a party. The ISA has completed Regulations on 
Prospecting and Exploration for Polymetallic Nodules, which include 
measures to protect the marine environment from mining activities. 
Through its role as observer, the United States has worked hard to 
develop measures that are consistent with U.S. interests.

    Question 20. One of the significant outcomes of the Rio Earth 
Summit was the U.N. Framework Convention on Climate Change, which 
President George Herbert Walker Bush signed and which the U.S. Senate 
subsequently ratified unanimously in a voice vote.' The Kyoto Protocol 
gives effect to the objectives agreed to in the Climate Convention, and 
it is likely to enter into force sometime this year, perhaps at WSSD. 
The current Administration has said it does not support the Kyoto 
Protocol'. Nevertheless, the United States is still a Party to the 
Climate Convention. At the hearing, Mr. Connaughton admitted that the 
United States has not fulfilled its commitments to report to the United 
Nations on policies and measures to achieve 1990 levels of emissions. 
What steps will the Administration take to rectify this noncompliance?
    Response. The United States is in compliance with its commitments 
to report on its policies and measures under Article 4 of the 
Convention. The United States has submitted detailed information on our 
policies and measures, in accordance with the procedures under the 
Convention. Most recently, policies and measures are' detailed in the 
U.S. Climate Action Report, the third National Communication from. the 
United States to the Convention, submitted in May 2002. Concerning the 
non-binding ``aim'' of returning emissions to their 1990 levels, this 
aim refers to the year 2000, not the time period beyond 2000.

    Question 21. Please explain how the Administration's policies on 
climate change are consistent with our commitments under and the spirit 
of the United Nations Framework Convention on Climate Change.
    Response. The Framework Convention's commitments relate principally 
to:
    <bullet>  Support for research and systematic observation;
    <bullet>  Promotion of education, training, and public awareness;
    <bullet>  Various forms of cooperation among Parties;
    <bullet>  For Annex I Parties (which includes the United States), 
adoption of policies and measures on the mitigation of climate change, 
as well as reporting on such policies and measures;
    <bullet>  For Annex II Parties (which includes the United States), 
support for developing countries in terms of financial resources and 
environmentally sound technologies.
    The Administration's policies implement all applicable commitments 
under the Convention. Most recently, the U.S. national communication, 
submitted in May 2002, detailed U.S. policies and measures to address 
climate change.
    The Administration's climate change policies involve extensive 
cooperation with other Convention Parties, are consistent with U.S. 
commitments under the Convention, and are designed to be economically 
sustainable. They represent a significant contribution to the global 
effort to address climate change both under the UNFCCC and elsewhere.
    <bullet>  The Administration's greenhouse gas intensity goal and 
the measures we will be taking over the next 10 years is both ambitious 
and reasonable, and is in line with past administration forecasts of 
the domestic reductions likely to be achieved under the Kyoto Protocol, 
and forecasts of other countries' efforts with respect to climate 
change policies.
    <bullet>  The Administration's commitment to climate change-related 
research and development is unmatched in the world, and represents what 
is truly a unique contribution toward a longterm climate change 
approach that is consistent with sustainable development. The 
President's National climate Change Technology Initiative confirms 
America as the leader in technology and innovation within the climate 
change area. The President's fiscal year 2003 budget proposal dedicates 
nearly $1.8 billion to fund basic scientific research on climate change 
and $1.3 billion to fund research on advanced energy and carbon 
sequestration technologies. The Administration has substantially 
increased funding for climate-related technical assistance to 
developing countries.
    Overall, the President's fiscal year 2003 budget seeks $4.5 billion 
in total climate spending--an increase of nearly $700 million. To the 
extent that there could be said to be a ``spirit'' of the Convention, 
the Administration's efforts are fully compatible with that spirit.

    Question 22. In view of the recent EPA study that substantiated the 
fact' that global warming is occurring, and the even more recent study 
by Alaskan scientists published in the Washington Post on Friday, July 
19, 2002 that the Alaskan glaciers are melting at over twice the rate 
previously supposed, and the very real national security interest that 
the United States has in ceasing its dependence on foreign oil, will 
this Administration commit at the WSSD to increase its international 
cooperation to reduce the generation of greenhouse gases?
    Response. The Secretary General of the United Nations has outlined 
five priority areas for the Summit: water and sanitation, energy, 
health, agriculture, and biodiversity. The United States is actively 
pursuing concrete initiatives to the Summit that are in line with these 
priorities, namely on water, agriculture, health, energy, oceans and 
forests. Climate change is not one of the Summit's priority areas, 
because the U.N. Framework Convention on Climate Change serves as the 
internationally agreed forum for addressing climate change. The 
Administration is pursuing ambitious steps to address climate change 
domestically, and is actively engaging in cooperative activities with 
countries around the world. For example, the President's plan seeks to 
continue the process of developing new technologies while nurturing the 
growth' of the economy. To this end, the President is creating the 
National Climate Change Technology Initiative, which will confirm 
America as the leader in technology and innovation within the climate 
change area. Furthermore, the President's fiscal year 2003 budget 
proposal dedicates $1.7 billion to fund basic scientific research on 
climate change and $1.3 billion to fund research on advanced energy and 
sequestration technologies. Overall, the President's fiscal year 2003 
budget seeks $4.5 billion in total climate spending--an increase of 
nearly $700 million. This level of commitment is unmatched in the 
world.

    Question 23. Has the United States or its representatives, 
officially or unofficially, discouraged countries from bringing climate 
change initiatives or issues to the World Summit for consideration?
    Response. The United States has not discouraged countries from 
bringing climate change initiatives or issues to the World Summit on 
Sustainable Development. The United States delegation has engaged 
constructively on a substantial amount of text on a variety of climate 
change issues occurring in the Plan of Implementation. Most of the 
climate change-related text in the draft Plan of Implementation has 
been agreed.
    Several delegations have put forward textual proposals that have 
the effect of asking the United States to endorse the Kyoto Protocol, 
or to take on new climate-related commitments in the WSSD. The United 
States does not support the Kyoto Protocol', and we have indicated to 
those delegations that we cannot support text that is contrary to our 
national position. The United States also has not agreed to additional 
climate change commitments at WSSD because the internationally agreed 
forum for negotiating climate change commitments is the U.N. Framework 
Convention on Climate Change. The Eighth Conference of the Parties to 
the Convention (COP-8) will take place in October 23--November 1, 2002.

    Question 24. Throughout the process, many governments have 
complained that the United States has turned a blind ear/eye to Rio. 
The Secretary General thinks that recognition of the Rio Principles 
will be key for successful implementation in Johannesburg. How will we 
recognize and implement the ``spirit of'' the Rio Principles?
    Response. We strongly support the principles of Rio, and would like 
to see these principles reaffirmed within the Johannesburg Plan of 
Action.

    Question 25. What is the Administration's position on the Corporate 
Accountability Convention that many non-governmental organizations have 
called for?
    Response. We strongly support efforts to promote corporate 
responsibility.
    We believe such efforts are best accomplished at the national level 
through a combination of government regulations and oversight along 
with voluntary corporate standards and practices implemented by the 
public sector, elected officials, and the private sectors in respective 
countries, not by a new multilateral treaty negotiation.

    Question 26. The President has announced that he will ask Congress 
for an extra $5 billion in overseas aid. Right now., the United States 
spends about 0.1 percent of its GDP on aid--the lowest percentage of 
any industrial country and below the average of 0.39 percent. Even with 
the increase, we'll still be the lowest in the world. Why is that?
    Response. Excluding the Administration's new commitment of $5 
billion for the Millennium Challenge Account, Official Development 
Assistance is being increased by 10 percent in fiscal year 2002. If the 
Administration's fiscal year 2003 budget request is approved, funding 
for HIV/AIDS over the past 2 years will have increased by 73 percent, 
funding for education will have increased by 65 percent and funds 
focused on Sub-Saharan Africa will have increased by 30 percent, 
reaching $1 billion for the first time. In our view, how funds are 
spent is more important than increased funding, which represents only 
part of solution to address sustainable development. The Administration 
believes that' assistance is most effective when it reinforces peace 
and stability, domestic governance, investments in people through 
health and education and private sector development.
                                 ______
                                 
   Investing in Health: Fighting Infectious Disease for Sustainable 
                              Development
                               key action
    The Bush Administration is building upon recent announcements of 
efforts to combat HIV/AIDS, tuberculosis, and malaria.
    <bullet>  In June, President Bush announced a new $500 million 
Mother-and-Child HIV Prevention Initiative for Africa and the 
Caribbean,
    <bullet>  The U.S. pledge of $500 million to the Global Fund to 
Fight HW/AIDS, Tuberculosis, and Malaria represents approximately one-
fourth of all commitments to date.
    Goal: To have, by 2015, halted, and begun to reverse, the spread of 
HP//AIDS, the scourge of malaria and other major diseases that afflict 
humanity. (United Nations Millennium Declaration)
    Description: This multi-year initiative will:
    <bullet>  Enhance technical assistance for Global Fund application 
development and project implementation.
    <bullet>  Strengthen surveillance and monitoring, research, 
prevention, and care activities.
    <bullet>  Expand efforts to combat mother-to-child transmission of 
HIV/AIDS.
    <bullet>  Pursue global partnerships and increased investment in 
fighting HP//AIDS, TB, and Malaria.
Resources
    U.S. resources for international HIV/AIDS, tuberculosis, and 
malaria, including meeting the President's pledge to the Global Fund 
are:
    <bullet>  $1.1 billion committed in fiscal year 2002
    ?<bullet>  $1.2 billion requested for fiscal year 2003
    Partners
    The United States works with a wide array of partners including 
governments, international organizations, private corporations, 
foundations, faith-based groups and non-governmental organizations.
    South Africa Housing Initiative
                               key action
    ?The United States will commit $15 million in support of the 
construction of 90,000 homes in South Africa over the next 5 years. 
This initiative, announced by the United States Overseas Private 
Investment Corporation (OPIC), builds on a 10-year legacy of 
strengthening housing finance for South Africa's poor begun by the 
United States Agency for International Development (USAID).
    Home ownership and community building are inextricably linked. 
According to the National Department of Housing of South Africa, one of 
the factors contributing to the deficit in construction of low-income 
housing is insufficient sources of construction financing, particularly 
for middle-to low-income wage earners.
    Under the South Africa Housing Initiative, construction financing 
will be made available for contractors constructing homes for middle-to 
low-income families. Under this Initiative, a for-profit U.S. sponsor 
will work with a South African Bank which, in turn, will be able to 
lend the equivalent of $20 million to the NTJRCHA Equity Services 
(NES), a for-profit entity operating under the National Urban Housing 
Association (NURCHA) of South Africa.
    The South Africa Housing Initiative is expected to stimulate South 
Africa's construction sector through loans to for-profit builders, 
contractors, and sub-contractors, and to efficiently expand employment, 
skills, and training in an essential sector of the economy of South 
Africa.
    Over the past 10 years, USAID has underwritten $90 million in 
private sector loans to enable South African banks to make available 
$250 million in housing loans to benefit 110,000 needy households. 
USAID has also financed considerable urban infrastructure (water, 
sewers, and roads) to enable the construction of new neighborhoods. The 
new OPIC initiative broadens this support for the transition of middle-
to low-income households to homeownership and so contributes to long-
term sustainable development for South Africa. Moreover, the delivery 
of potable water through the construction of new homes and the 
establishment of new housing communities for 90,000 households and 
almost 500,000 South Africans will contribute to improved health and 
achievement of Millennium Declaration goals.
    Resources
    <bullet>  The United States will commit $15 million in support of 
this important initiative.
    Oceans
    White Water to Blue Water. This initiative, involving U.S. 
Government agencies, the UK, France, and Spain, Caribbean governments, 
the Caribbean Environment Program, other international organizations, 
non-governmental organizations, and the private sector, emphasizes a 
cross-sectoral approach to ecosystem management beginning with upstream 
sectors (watersheds, inland forests, agricultural areas, and population 
centers) and extending through wetlands, mangrove swamps and coral 
reefs into the ocean. The initiative aims to improve capabilities of 
coastal States to manage coastal-marine ecosystems and to promote 
regional coordination among the partners to make best use of resources. 
The initial focus will be on the Wider Caribbean region.
    Geographic Information and Learning
    <bullet>  Geographic Information for Sustainable Development. This 
initiative brings together U.S. Government agencies, non-governmental 
organizations, the private sector, and academia to improve the quality 
and availability of data needed to understand better and monitor the 
environment. Recent applications of data from satellite earth 
observation systems, the Global Positioning System, Geographic 
Information Systems, and data base management can help decisionmakers 
address sustainable development problems in Africa, including food 
security, sustainable' agriculture, natural resource management, 
disaster mitigation, and poverty alleviation. More than 100 GISD-
related projects are currently underway In Africa. The initiative 
already has funded 15 projects in the areas of Upper Niger, East 
African Great Lakes, Kenya-Tanzania coast, and the Limpopo-Zambezi 
Basin.
    <bullet>  My Community, Our Earth. This partnership involves 
partners such as the U.S. Department of Agriculture, the National 
Geographic Society, the Association of American Geographers, the 
Environmental Systems Research Institute (a geographic information 
system and mapping company), and the U.N. Environmental Programme. The 
partnership is using maps, images, and graphs to help secondary, 
college, and university students worldwide learn about sustainable 
development issues such as biodiversity, deforestation, pollution, food 
production, fresh water supply, health, rural development, and 
urbanization. It aims to increase awareness about the value of 
geographic information systems technology, especially satellite images. 
Nearly 500 volunteer mentors have registered to help over 2000 students 
from more than 90 countries develop projects.
    Biodiversity
    <bullet>  Shade Coffee. This partnership helps small-to medium-
scale coffee producers produce more profitable, high-quality coffees 
(organic, shade-grown, or ``Bird Friendly'' coffees), thereby promoting 
conservation while meeting rural development needs. The Commission for 
Environmental Cooperation, which is supported by the United States, 
Canada, and Mexico, is facilitating establishment of a North American 
sustainable agriculture debt facility that would make strategic credit 
guarantees/interventions to enhance the ability of small-scale 
producers groups, conservation groups, and private investors to 
collaborate more effectively at the local and international levels. 
Shade Coffee partners include the U.S. Agency for International 
Development (USAID), U.S. Department of the Interior, U.S. Department 
of Agriculture, the Smithsonian Institution's Migratory Bird Center, 
Conservation International, Rainforest Alliance, Specialty Coffee 
Association of America, and Starbucks Coffee.
    <bullet>  Invasive Alien Species. This initiative aims to 
understand the vectors and processes by which invasive alien species 
are introduced and to develop mechanisms for detection, rapid response, 
and mitigation. Partners include the governments of Australia, New 
Zealand, Norway, and South Africa; the Global Invasive Species Program; 
the U.S. Departments of Interior, Agriculture, Commerce, and State; the 
Environmental Protection Agency; USAID; the Smithsonian. Institution; 
many U.S. universities; State and local management authorities; and 
non-governmental organizations.
    <bullet>  Biological Diversity Informatics. This partnership seeks 
to develop and expand availability of user-friendly, internet-based 
access data that will allow users to link, integrate, analyze, and 
visualize existing data and ongoing research pertaining to species 
distribution. Partners include the U.S. National Invasive Species 
Council, Global Diversity Information Facility, Inter-American 
Biodiversity Information Network, North American Biodiversity 
Information Network, U.S. Department of the Interior, Smithsonian 
Institution, the Universities of California and Kansas, Conservation 
International, and the International Union for the Conservation of? 
Nature and Natural Resources.
    Agriculture and Natural Resources
    <bullet>  Building-a Partnership for Global Exchange of 
Conservation Stewardship Practices. This partnership seeks to build 
capacity in agriculture and natural resource conservation and 
stewardship practices for sustainable agriculture and forest and 
watershed management. A worldwide network will facilitate global peer-
to-peer learning and exchanges for short-term, on-the-ground, 
community-and watershed-based activities, such as integrated land, 
water and coastal management; land restoration and rehabilitation; 
individual and community capacity building; and enterprise development. 
This public/private partnership, initiated by the U.S. Department of 
Agriculture, will increase the application of agriculture and natural 
resource conservation practices, exchange of integrated resource 
management approaches, and community participation in local 
decisionmaking.
    Principles of Sound Science in Decision-Making
    <bullet>  Strengthening Science-Based Decision-Making. This 
partnership brings together the Environmental Protection Agency, the 
U.S. National Academies of Science, the American Chemistry Council, and 
others in an effort to develop and strengthen linkages between science 
and decisionmakers in developing countries so that policy decisions can 
be based on the best available knowledge and so that research 
priorities can take into account the needs of decisionmakers.
    Health
    <bullet>  Netmark: A Public-Private Partnership for Sustainable 
Malaria Prevention. This partnership, involving USAIr, works with 
country governments and the commercial private sector to promote 
effective use of insecticide-treated bednets for the prevention of 
malaria. At the heart of Netmark is an innovative use of public-sector 
funds to reduce and eliminate the barriers to expanded commercial 
investment in the manufacture and distribution of insecticide-treated 
bednets. Netmark activities are underway in Ghana, Nigeria, Senegal, 
and Zambia and there are plans to expand the partnership to other 
countries in Africa and elsewhere.
    <bullet>  Controlling Tuberculosis in High HIV Prevalence 
Populations. Under the new WHO/ Joint U.N. Programme on HIV/AIDS 
strategic framework to decrease the burden of the intersecting 
epidemics of tuberculosis and HP//AIDS, the Uni?ed States and the 
government of Japan will work with partners to improve coordination on 
TB prevention and control (intensified case-finding and cure) and 
interventions against HIV (and therefore indirectly against 
tuberculosis).
    <bullet>  Universal Flour Fortification. This public-private 
partnership seeks to replicate a successful iodized salt fortification 
model and address selected major remaining micronutrient deficiencies 
through fortification of flour with iron, folic acid, and other 
appropriate micronutrients. The partnership involves the U.S. 
Departments of Health and Human Services and Agriculture; the 
Australian, Canadian and U.S. Wheat Boards; the North American Millers' 
Association; the North American Grain Exports Association; and others.
    <bullet>  Health Promotores. This partnership will share 
experiences and best models related to community health outreach and 
education using lay community members in underserved areas. The 
promotores concept derived from Mexico and Latin American countries and 
is currently being pursued in U.S.-Mexico border communities. Partners 
include the U.S. Department of Health and Human Services' Health 
Resources and Services Administration, Environmental Protection Agency, 
the government of Mexico, and the University of Arizona.
    <bullet>  Children's Environmental Health Indicators. This 
initiative proposes the creation of an international forum of 
governments, U.N. agencies, intergovernmental and nongovernmental 
organizations, the private sector, and communities to advance a global 
effort to create children's environmental health indicators. This may 
involve proposing modifications to the existing data collection surveys 
in the U.N. system to incorporate children's environmental health, 
which may include developing, testing, and promoting the use of 
indicators.
Education
    <bullet>  Africa Education Initiative. This Presidential 
initiative, which was announced in June 2002, will provide $200 million 
over the next 5 years to train more than 160,000 new teachers and 
provide in-service training for more than 260,000 existing teachers in 
Africa, partner with historically black colleges and universities in 
America to provide 4.5 million more textbooks and other learning tools 
for children in Africa, provide 250,000 scholarships for African girls, 
and increase the role of parents in their children's education by 
working to make school systems more transparent and open to reforms 
from parents.
    <bullet>  Global Food for Education. This multilateral school 
feeding pilot program may help as many as seven million school 
children, especially girls. The 2002 Farm Bill provides $100 million in 
fiscal year 2003 to continue the pilot program. The United States is 
reviewing the effectiveness and cost-effectiveness of the program in 
meeting its educational and food aid objectives.
Sustainable Tourism
    <bullet>  Vilanculos Coastal Wildlife Sanctuary. The Overseas 
Private Investment Corporation is helping to finance this $10 million 
coastal and wildlife eco-tourism project in Mozambique's Bazaruto 
Archipelago. Backed by the Global Environmental Facility, the 
International Finance Corporation, and the International Union for the 
Conservation of Nature and Natural Resources, the Sanctuary has 
followed world standards with regard to social and environmental 
issues. The project will provide economic development from tourism and 
job creation, and community development, including a health clinic, 
school, and housing.
Transport
    <bullet>  Nacala Port and Railway Network. The Overseas Private 
Investment Corporation will provide financial assistance up to $35 
million to a U.S. project sponsor to develop and rehabilitate the 
railway corridor through Malawi and Mozambique and to refurbish the 
exiting port at Nacala. This will provide a less expensive alternative 
to Durban, South Africa, for moving goods to and from landlocked 
countries and enhance agricultural productivity and exports by reducing 
transport costs.
                               __________
  Statement of James L. Connaughton, Chairman, White House Council on 
                         Environmental Quality
    Mr. Chairmen, Senator Smith, Senator Lugar and Members of the 
Committee: I appreciate the opportunity to appear before the Committee 
today to discuss the Bush Administration's strategy to address the 
important, long-term, and highly complex challenge of global climate 
change. I am pleased to share this panel with my colleague Mr. Turner.
    President Bush has committed the Nation to ambitious, focused and 
meaningful goals, programs and initiatives that provide a sensible and 
constructive path forward. The President's strategy is predicated on 
ensuring the strength and growth of the American economy, building on 
our nation's tremendous and demonstrated record of leadership in 
science and the promise of continued American technological innovation. 
As the President stated over a year ago: ``We will act, learn, and act 
again, adjusting our approaches as science advances and technology 
evolves.'' He elaborated on this point this past February: ``[G]lobal 
climate change presents a different set of challenges and requires a 
different strategy [from policies designed to reduce air pollution]. 
The science is more complex, the answers are less certain, and the 
technology is less developed. So we need a flexible approach that can 
adjust to new information and new technology.'' The flexible path 
toward long term progress that I will outline for you today sharply 
contrasts with the view of some that the only acceptable policy 
approach is near term, legislated restrictions that will needlessly 
hurt our economy and cost American jobs.
    The President committed the Nation to an immediate goal of reducing 
America's greenhouse gas emissions relative to the size of our economy 
by 18 percent in the next 10 years. This will set America on a path to 
slow the growth of our greenhouse gas emissions and, if science 
justifies, to stop and then reverse the growth of emissions. I would 
emphasize that achieving this ambitious, yet realistic, national goal 
will require a sustained commitment and significant investment and 
effort from our nation's farmers, small businesses, workers, 
industries, and citizens that rivals the hard gains in efficiency and 
productivity we have earned over the last several decades.
    To achieve this goal, the Administration is actively engaged and 
moving forward on many fronts, looking at every sector of our economy, 
with the recognition that meaningful progress depends on the 
development and deployment of new technology. With the continued 
support of Congress, we are advancing climate science, developing and 
promoting energy efficiency, conservation, and sequestration 
technologies and practices, pursuing near term greenhouse gas 
mitigation programs and expanding international cooperation.
    The President has reaffirmed America's commitment to the goal of 
stabilizing atmospheric greenhouse gas concentrations at a level that 
will prevent dangerous interference with the climate. At the same time, 
the President noted that given current scientific uncertainties, no one 
knows what that level is. This underscores the importance of the 
President's focus on science and technology.
    The President has called for nearly $700 million in additional 
funding for the Federal Government's commitment to climate change in 
Fiscal Year 1903--a 17 percent increase from last year--to support a 
$4.5 billion program of research on climate science and energy 
technology, mitigation incentives and programs, and international 
technology transfer and outreach. This commitment is unmatched in the 
world. The President's recent Report to Congress on Federal Climate 
Change Expenditures details the numerous programs that this funding 
will support. And there is a Cabinet-level effort to bring more 
effective, high level management and focus to this significant 
investment of public resources.
    Importantly, the President's request includes $555 million in clean 
energy tax incentives, the first part of a $4.6 billion commitment over 
the next 5 years, reaching $7.1 billion over the next 10 years. These 
incentives will spur investments in and purchases of renewable energy--
including solar, wind, and biomass--as well as advanced hybrid and fuel 
cell vehicles, cogeneration, and landfill gas conversion. We also are 
promoting clean coal technology, as well as nuclear power--which 
produces no greenhouse gas emissions--and are working to safely improve 
fuel economy for our cars and trucks. And we are advancing the prospect 
of breakthrough technologies, such as the promise of zero-emission fuel 
cell vehicles through the Department of Energy's Freedom Car 
Initiative.
    Under the recently enacted Farm bill and existing authorizations, 
we will invest up to $47 billion in the next decade for conservation on 
our farms and forest lands. Not only will this partnership with farmers 
and small land owners help protect the water and air, and secure and 
enhance habitat for wildlife, it will also provide opportunities to 
store significant quantities of carbon in trees and the soil, and 
promote other activities to mitigate greenhouse gas emissions.
    We also are making substantial progress on the effort to create 
world-class standards for measuring and registering greenhouse gas 
emissions reductions, with organizations receiving transferable credits 
for the reductions in emissions they secure. At the same time, we are 
making progress on the President's challenge to businesses to further 
reduce their emissions. EPA's Climate Leaders Program is well underway. 
We look forward to seeing new commitments and even greater reductions.
    These are simply a few significant examples of more than 60 Federal 
programs--some mandatory, some incentive-based, some voluntary--that 
will help to slow the growth in U.S. greenhouse gas emissions over the 
next decade and beyond.
    The President's strategy has also created a new framework for 
expanding international cooperation. We are investing $25 million in 
climate observation systems in developing countries, increasing funding 
for tropical forest conservation to $50 million, and providing $178 
million for the Global Environmental Facility next year, which includes 
a substantial $70 million payment for arrears incurred during the prior 
administration. The President's fiscal yea4r 2003 budget also requests 
$156 million in funding for USAID climate change programs. And in the 
past year alone, the Administration has entered into bilateral 
agreements with Japan, Australia, Canada, Italy, the European Union, 
CONCAUSA, China and India on climate change science, energy and 
sequestration technology, and policy approaches.
    The President's climate change strategy is the product of an 
ongoing, combined working group of the National Security Council, the 
Domestic Policy Council and the National Economic Council. Our actions 
have been and will continue to be guided by the six principles that the 
President outlined last June:
    1. Consistency with the long-term goal of stabilizing 
concentrations of greenhouse gases in the atmosphere at a level that 
will prevent dangerous interference with the climate system, 
recognizing that we currently do not know what that level is;
    2. Measured actions, as we learn more from science and build on it;
    3. Flexibility to adjust to new information and take advantage of 
new technology;
    4. Ensuring continued economic growth and prosperity for the United 
States and the world;
    5. Pursuing market-based incentives and spurring technological 
innovation; and
    6. Global participation, including developing countries.
    The Bush Administration's strategy for action and progress--a solid 
policy framework, a meaningful national emissions reduction goal, and a 
suite of policies to achieve that goal--is calibrated to the actual 
state of scientific knowledge and guards against costly and misdirected 
policy errors. Commentary that continues to equate action on climate 
change with acceptance of the Kyoto Protocol ignores the bipartisan 
record of opposition to its approach. The Kyoto Protocol would have 
cost our economy up to $400 billion and caused the loss of up to 4.9 
million jobs, risking the welfare of the American people and American 
workers. And without the participation of the world's developing 
countries, many of which will experience rapid growth in coming 
decades, it represented an ineffective policy response to this global 
challenge.
    President Bush's philosophy--which ties our benchmark for progress 
with economic growth--represents a careful balancing that promises 
significant emissions reductions over the course of the next decade, 
while preserving the strength of the American economy. Only sustained 
economic growth, both here and abroad, will allow for the significant 
new investments in energy and sequestration technologies that will be 
needed to address this long term challenge.
    Again, thank you for inviting me today. I would be pleased to 
answer any questions that you may have and ask that the written 
material accompanying my testimony be entered into the record.
                               Appendices
         1. statement of president george bush (june 11, 2001)
                                          THE WHITE HOUSE  
                              Office of the Press Secretary
                                For Immediate Release June 11, 2001
             president bush discusses global climate change
The Rose Garden
11:10 A.M. EDT
    President George W. Bush. Good morning. I've just met with senior 
members of my administration who are working to develop an effective 
and science-based approach to addressing the important issues of global 
climate change.
    This is an issue that I know is very important to the nations of 
Europe, which I will be visiting for the first time as President. The 
earth's well-being is also an issue important to America. And it's an 
issue that should be important to every Nation in every part of our 
world.
    The issue of climate change respects no border. Its effects cannot 
be reined in by an army nor advanced by any ideology. Climate change, 
with its potential to impact every corner of the world, is an issue 
that must be addressed by the world.
    The Kyoto Protocol was fatally flawed in fundamental ways. But the 
process used to bring nations together to discuss our joint response to 
climate change is an important one. That is why I am today committing 
the United States of America to work within the United Nations 
framework and elsewhere to develop with our friends and allies and 
nations throughout the world an effective and science-based response to 
the issue of global warming.
    My Cabinet-level working group has met regularly for the last 10 
weeks to review the most recent, most accurate, and most comprehensive 
science. They have heard from scientists offering a wide spectrum of 
views. They have reviewed the facts, and they have listened to many 
theories and suppositions. The working group asked the highly respected 
National Academy of Sciences to provide us the most up-to-date 
information about what is known and about what is not known on the 
science of climate change.
    First, we know the surface temperature of the earth is warming. It 
has risen by .6 degrees Celsius over the past 100 years. There was a 
warming trend from the 1890's to the 1940's. Cooling from the 1940's to 
the 1970's. And then sharply rising temperatures from the 1970's to 
today.
    There is a natural greenhouse effect that contributes to warming. 
Greenhouse gases trap heat, and thus warm the earth because they 
prevent a significant proportion of infrared radiation from escaping 
into space. Concentration of greenhouse gases, especially 
CO<INF>2</INF>, have increased substantially since the beginning of the 
industrial revolution. And the National Academy of Sciences indicate 
that the increase is due in large part to human activity.
    Yet, the Academy's report tells us that we do not know how much 
effect natural fluctuations in climate may have had on warming. We do 
not know how much our climate could, or will change in the future. We 
do not know how fast change will occur, or even how some of our actions 
could impact it.
    For example, our useful efforts to reduce sulfur emissions may have 
actually increased warming, because sulfate particles reflect sunlight, 
bouncing it back into space. And, finally, no one can say with any 
certainty what constitutes a dangerous level of warming, and therefore 
what level must be avoided.
    The policy challenge is to act in a serious and sensible way, given 
the limits of our knowledge. While scientific uncertainties remain, we 
can begin now to address the factors that contribute to climate change.
    There are only two ways to stabilize concentration of greenhouse 
gases. One is to avoid emitting them in the first place; the other is 
to try to capture them after they're created. And there are problems 
with both approaches. We're making great progress through technology, 
but have not yet developed cost-effective ways to capture carbon 
emissions at their source; although there is some promising work that 
is being done.
    And a growing population requires more energy to heat and cool our 
homes, more gas to drive our cars. Even though we're making progress on 
conservation and energy efficiency and have significantly reduced the 
amount of carbon emissions per unit of GDP.
    Our country, the United States is the world's largest emitter of 
manmade greenhouse gases. We account for almost 20 percent of the 
world's man-made greenhouse emissions. We also account for about one-
quarter of the world's economic output. We recognize the responsibility 
to reduce our emissions. We also recognize the other part of the 
story--that the rest of the world emits 80 percent of all greenhouse 
gases. And many of those emissions come from developing countries.
    This is a challenge that requires a 100 percent effort; ours, and 
the rest of the world's. The world's second-largest emitter of 
greenhouse gases is China. Yet, China was entirely exempted from the 
requirements of the Kyoto Protocol.
    India and Germany are among the top emitters. Yet, India was also 
exempt from Kyoto. These and other developing countries that are 
experiencing rapid growth face challenges in reducing their emissions 
without harming their economies. We want to work cooperatively with 
these countries in their efforts to reduce greenhouse emissions and 
maintain economic growth.
    Kyoto also failed to address two major pollutants that have an 
impact on warming: black soot and tropospheric ozone. Both are proven 
health hazards. Reducing both would not only address climate change, 
but also dramatically improve people's health.
    Kyoto is, in many ways, unrealistic. Many countries cannot meet 
their Kyoto targets. The targets themselves were arbitrary and not 
based upon science. For America, complying with those mandates would 
have a negative economic impact, with layoffs of workers and price 
increases for consumers. And when you evaluate all these flaws, most 
reasonable people will understand that it's not sound public policy.
    That's why 95 members of the U.S. Senate expressed a reluctance to 
endorse such an approach. Yet, America's unwillingness to embrace a 
flawed treaty should not be read by our friends and allies as any 
abdication of responsibility. To the contrary, my administration is 
committed to a leadership role on the issue of climate change.
    We recognize our responsibility and will meet it--at home, in our 
hemisphere, and in the world. My Cabinet-level working group on climate 
change is recommending a number of initial steps, and will continue to 
work on additional ideas. The working group proposes the United States 
help lead the way by advancing the science on climate change, advancing 
the technology to monitor and reduce greenhouse gases, and creating 
partnerships within our hemisphere and beyond to monitor and measure 
and mitigate emissions.
    I also call on Congress to work with my administration to achieve 
the significant emission reductions made possible by implementing the 
clean energy technologies proposed in our energy plan. Our working 
group study has made it clear that we need to know a lot more.
    The U.N. Framework Convention on Climate Change commences to 
stabilizing concentrations at a level that will prevent dangerous human 
interference with the climate; but no one knows what that level is. The 
United States has spent $18 billion on climate research since 1990--
three times as much as any other country, and more than Japan and all 
15 nations of the EU combined.
    Today, I make our investment in science even greater. My 
administration will establish the U.S. Climate Change Research 
Initiative to study areas of uncertainty and identify priority areas 
where investments can make a difference.
    I'm directing my Secretary of Commerce, working with other 
agencies, to set priorities for additional investments in climate 
change research, review such investments, and to improve coordination 
amongst Federal agencies. We will fully fund high-priority areas for 
climate change science over the next 5 years. We'll also provide 
resources to build climate observation systems in developing countries 
and encourage other developed nations to match our American commitment.
    And we propose a joint venture with the EU, Japan and others to 
develop state-of-the-art climate modeling that will help us better 
understand the causes and impacts of climate change. America's the 
leader in technology and innovation. We all believe technology offers 
great promise to significantly reduce emissions--especially carbon 
capture, storage and sequestration technologies.
    So we're creating the National Climate Change Technology Initiative 
to strengthen research at universities and national labs, to enhance 
partnerships in applied research, to develop improved technology for 
measuring and monitoring gross and net greenhouse gas emissions, and to 
fund demonstration projects for cutting-edge technologies, such as 
bioreactors and fuel cells.
    Even with the best science, even with the best technology, we all 
know the United States cannot solve this global problem alone. We're 
building partnerships within the Western Hemisphere and with other 
like-minded countries. Last week, Secretary Powell signed a new 
CONCAUSA Declaration with the countries of Central America, calling for 
cooperative efforts on science research, monitoring and measuring of 
emissions, technology development, and investment in forest 
conservation.
    We will work with the Inter-American Institute for Global Change 
Research and other institutions to better understand regional impacts 
of climate change. We will establish a partnership to monitor and 
mitigate emissions. And at home, I call on Congress to work with my 
administration on the initiatives to enhance conservation and energy 
efficiency outlined in my energy plan, to implement the increased use 
of renewables, natural gas and hydropower that are outlined in the 
plan, and to increase the generation of safe and clean nuclear power.
    By increasing conservation and energy efficiency and aggressively 
using these clean energy technologies, we can reduce our greenhouse gas 
emissions by significant amounts in the coming years. We can make great 
progress in reducing emissions, and we will. Yet, even that isn't 
enough.
    I've asked my advisors to consider approaches to reduce greenhouse 
gas emissions, including those that tap the power of markets, help 
realize the promise of technology and ensure the widest-possible global 
participation. As we analyze the possibilities, we will be guided by 
several basic principles. Our approach must be consistent with the 
long-term goal of stabilizing greenhouse gas concentrations in the 
atmosphere. Our actions should be measured as we learn more from 
science and build on it.
    Our approach must be flexible to adjust to new information and take 
advantage of new technology. We must always act to ensure continued 
economic growth and prosperity for our citizens and for citizens 
throughout the world. We should pursue market-based incentives and spur 
technological innovation.
    And, finally, our approach must be based on global participation, 
including that of developing countries whose net greenhouse gas 
emissions now exceed those in the developed countries.
    I've asked Secretary Powell and Administrator Whitman to ensure 
they actively work with friends and allies to explore common approaches 
to climate change consistent with these principles. Each step we take 
will increase our knowledge. We will act, learn, and act again, 
adjusting our approaches as science advances and technology evolves.
    Our administration will be creative. We're committed to protecting 
our environment and improving our economy, to acting at home and 
working in concert with the world. This is an administration that will 
make commitments we can keep, and keep the commitments that we make.
    I look forward to continued discussions with our friends and allies 
about this important issue.
    Thank you for coming.
                                 ______
                                 
   2. policy book accompanying presidential statement (june 11, 2001)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       3. statement of president george bush (february 14, 2002)
                                          THE WHITE HOUSE  
                              Office of the Press Secretary
                            For Immediate Release February 14, 2002
        remarks by the president on climate change and clean air
National Oceanic and Atmospheric Administration
Silver Spring, Maryland
2:05 P.M. EST

    The President: Thank you very much for that warm welcome. It's an 
honor to join you all today to talk about our environment and about the 
prospect of dramatic progress to improve it.
    Today, I'm announcing a new environmental approach that will clean 
our skies, bring greater health to our citizens and encourage 
environmentally responsible development in America and around the 
world.
    Particularly, it's an honor to address this topic at NOAA, whose 
research is providing us with the answers to critical questions about 
our environment. And so I want to thank Connie for his hospitality and 
I want to thank you for yours, as well. Connie said he felt kind of 
like Sasha Cohen--I thought for a minute he was going to ask me to talk 
to his mother on his cell phone.
    I also want to tell you one of my favorite moments was to go down 
to Crawford and turn on my NOAA radio to get the weather. I don't know 
whether my guy is a computer or a person. But the forecast is always 
accurate, and I appreciate that. I also want to thank you for your hard 
work, on behalf of the American people.
    I appreciate my friend, Don Evans's leadership. I've known him for 
a long time. You're working for a good fellow, if you're working at the 
Commerce Department, or at NOAA. And I want to thank Spence Abraham and 
Christie Todd Whitman for their service to the country, as well. I've 
assembled a fabulous Cabinet, people who love their country and work 
hard. And these are three of some of the finest Cabinet officials I've 
got.
    I want to thank Jim Connaughton, who is the Chairman of the Council 
on Environmental Quality. He's done a fabulous job of putting this 
policy together, a policy that I'm about to explain. But before I do, I 
also want to thank some Members of Congress who have worked with us on 
this initiative. I want to thank Bob Smith and George Voinovich, two 
United States senators, for their leadership in pursuing multi-
pollutant legislation; as well as Congressmen Billy Tauzin and Joe 
Barton. And I want to thank Senator Chuck Hagel and Larry Craig for 
their work on climate issues. These Members of Congress have had an 
impact on the policies I am just about to announce.
    America and the world share this common goal: we must foster 
economic growth in ways that protect our environment. We must encourage 
growth that will provide a better life for citizens, while protecting 
the land, the water, and the air that sustain life.
    In pursuit of this goal, my government has set two priorities: we 
must clean our air, and we must address the issue of global climate 
change. We must also act in a serious and responsible way, given the 
scientific uncertainties. While these uncertainties remain, we can 
begin now to address the human factors that contribute to climate 
change. Wise action now is an insurance policy against future risks.
    I have been working with my Cabinet to meet these challenges with 
forward and creative thinking. I said, if need be, let's challenge the 
status quo. But let's always remember, let's do what is in the interest 
of the American people.
    Today, I'm confident that the environmental path that I announce 
will benefit the entire world. This new approach is based on this 
common-sense idea: that economic growth is key to environmental 
progress, because it is growth that provides the resources for 
investment in clean technologies.
    This new approach will harness the power of markets, the creativity 
of entrepreneurs, and draw upon the best scientific research. And it 
will make possible a new partnership with the developing world to meet 
our common environmental and economic goals.
    We will apply this approach first to the challenge of cleaning the 
air that Americans breathe. Today, I call for new Clean Skies 
legislation that sets tough new standards to dramatically reduce the 
three most significant forms of pollution from power plants, sulfur 
dioxide, nitrogen oxides and mercury.
    We will cut sulfur dioxide emissions by 73 percent from current 
levels. We will cut nitrogen oxide emissions by 67 percent. And, for 
the first time ever, we will cap emissions of mercury, cutting them by 
69 percent. These cuts will be completed over two measured phases, with 
one set of emission limits for 2010 and for the other for 2018.
    This legislation will constitute the most significant step America 
has ever taken--has ever taken--to cut power plant emissions that 
contribute to urban smog, acid rain and numerous health problems for 
our citizens.
    Clean Skies legislation will not only protect our environment, it 
will prolong the lives of thousands of Americans with asthma and other 
respiratory illnesses, as well as with those with heart disease. And it 
will reduce the risk to children exposed to mercury during a mother's 
pregnancy.
    The Clean Skies legislation will reach our ambitious air quality 
goals through a market-based cap-and-trade approach that rewards 
innovation, reduces cost and guarantees results. Instead of the 
government telling utilities where and how to cut pollution, we will 
tell them when and how much to cut. We will give them a firm deadline 
and let them find the most innovative ways to meet it.
    We will do this by requiring each facility to have a permit for 
each ton of pollution it emits. By making the permits tradable, this 
system makes it financially worthwhile for companies to pollute less, 
giving them an incentive to make early and cost effective reductions.
    This approach enjoys widespread support, with both Democrats and 
Republicans, because we know it works. You see, since 1995 we have used 
a cap-and-trade program for sulfur dioxide pollution. It has cut more 
air pollution, this system has reduced more air pollution in the last 
decade than all other programs under the 1990 Clean Air Act combined. 
And by even more than the law required. Compliance has been virtually 
100 percent. It takes only a handful of employees to administer this 
program. And no one had to enter a courtroom to make sure the 
reductions happened.
    Because the system gives businesses an incentive to create and 
install innovative technologies, these reductions have cost about 80 
percent less than expected. It helps to keep energy prices affordable 
for our consumers. And we made this progress during a decade when our 
economy, and our demand for energy, was growing.
    The Clean Skies legislation I propose is structured on this 
approach because it works. It will replace a confusing, ineffective 
maze of regulations for power plants that has created an endless cycle 
of litigation. Today, hundreds of millions of dollars are spent on 
lawyers, rather than on environmental protection. The result is 
painfully slow, uncertain and expensive programs on clean air.
    Instead, Clean Skies legislation will put less money into paying 
lawyers and regulators, and money directly into programs to reduce 
pollution, to meet our national goal. This approach, I'm absolutely 
confident, will bring better and faster results in cleaning up our air.
    Now, global climate change presents a different set of challenges 
and requires a different strategy. The science is more complex, the 
answers are less certain, and the technology is less developed. So we 
need a flexible approach that can adjust to new information and new 
technology.
    I reaffirm America's commitment to the United Nations Framework 
Convention and its central goal, to stabilize atmospheric greenhouse 
gas concentrations at a level that will prevent dangerous human 
interference with the climate. Our immediate goal is to reduce 
America's greenhouse gas emissions relative to the size of our economy.
    My administration is committed to cutting our nation's greenhouse 
gas intensity--how much we emit per unit of economic activity--by 18 
percent over the next 10 years. This will set America on a path to slow 
the growth of our greenhouse gas emissions and, as science justifies, 
to stop and then reverse the growth of emissions.
    This is the common sense way to measure progress. Our Nation must 
have economic growth--growth to create opportunity; growth to create a 
higher quality of life for our citizens. Growth is also what pays for 
investments in clean technologies, increased conservation, and energy 
efficiency. Meeting our commitment to reduce our greenhouse gas 
intensity by 18 percent by the year 2012 will prevent over 500 million 
metric tons of greenhouse gases from going into the atmosphere over the 
course of the decade. And that is the equivalent of taking 70 million 
cars off the road.
    To achieve this goal, our Nation must move forward on many fronts, 
looking at every sector of our economy. We will challenge American 
businesses to further reduce emissions. Already, agreements with the 
semiconductor and aluminum industries and others have dramatically cut 
emissions of some of the most potent greenhouse gases. We will build on 
these successes with new agreements and greater reductions.
    Our government will also move forward immediately to create world-
class standards for measuring and registering emission reductions. And 
we will give transferable credits to companies that can show real 
emission reductions.
    We will promote renewable energy production and clean coal 
technology, as well as nuclear power, which produces no greenhouse gas 
emissions. And we will work to safely improve fuel economy for our cars 
and our trucks.
    Overall, my budget devotes $4.5 billion to addressing climate 
change--more than any other nation's commitment in the entire world. 
This is an increase of more than $700 million over last year's budget. 
Our Nation will continue to lead the world in basic climate and science 
research to address gaps in our knowledge that are important to 
decisionmakers.
    When we make decisions, we want to make sure we do so on sound 
science; not what sounds good, but what is real. And the United States 
leads the world in providing that kind of research. We'll devote $588 
million toward the research and development of energy conservation 
technologies. We must and we will conserve more in the United States. 
And we will spend $408 million toward research and development on 
renewables, on renewable energy.
    This funding includes $150 million for an initiative that Spence 
Abraham laid out the other day, $150 million for the Freedom Car 
Initiative, which will advance the prospect of breakthrough zero-
emission fuel cell technologies.
    My comprehensive energy plan, the first energy plan that any 
administration has put out in a long period of time, provides $4.6 
billion over the next 5 years in clean energy tax incentives to 
encourage purchases of hybrid and fuel cell vehicles, to promote 
residential solar energy, and to reward investments in wind, solar and 
biomass energy production. And we will look for ways to increase the 
amount of carbon stored by America's farms and forests through a strong 
conservation title in the farm bill. I have asked Secretary Veneman to 
recommend new targeted incentives for landowners to increase carbon 
storage.
    By doing all these things, by giving companies incentives to cut 
emissions, by diversifying our energy supply to include cleaner fuels, 
by increasing conservation, by increasing research and development and 
tax incentives for energy efficiency and clean technologies, and by 
increasing carbon storage, I am absolutely confident that America will 
reach the goal that I have set.
    If, however, by 2012, our progress is not sufficient and sound 
science justifies further action, the United States will respond with 
additional measures that may include broad-based market programs as 
well as additional incentives and voluntary measures designed to 
accelerate technology development and deployment.
    Addressing global climate change will require a sustained effort 
over many generations. My approach recognizes that economic growth is 
the solution, not the problem. Because a Nation that grows its economy 
is a Nation that can afford investments and new technologies.
    The approach taken under the Kyoto protocol would have required the 
United States to make deep and immediate cuts in our economy to meet an 
arbitrary target. It would have cost our economy up to $400 billion and 
we would have lost 4.9 million jobs.
    As President of the United States, charged with safeguarding the 
welfare of the American people and American workers, I will not commit 
our Nation to an unsound international treaty that will throw millions 
of our citizens out of work. Yet, we recognize our international 
responsibilities. So in addition to acting here at home, the United 
States will actively help developing nations grow along a more 
efficient, more environmentally responsible path.
    The hope of growth and opportunity and prosperity is universal. 
It's the dream and right of every society on our globe. The United 
States wants to foster economic growth in the developing world, 
including the world's poorest nations. We want to help them realize 
their potential, and bring the benefits of growth to their peoples, 
including better health, and better schools and a cleaner environment.
    It would be unfair--indeed, counterproductive--to condemn 
developing nations to slow growth or no growth by insisting that they 
take on impractical and unrealistic greenhouse gas targets. Yet, 
developing nations such as China and India already account for a 
majority of the world's greenhouse gas emissions, and it would be 
irresponsible to absolve them from shouldering some of the shared 
obligations.
    The greenhouse gas intensity approach I put forward today gives 
developing countries a yardstick for progress on climate change that 
recognizes their right to economic development. I look forward to 
discussing this new approach next week, when I go to China and Japan 
and South Korea. The United States will not interfere with the plans of 
any Nation that chooses to ratify the Kyoto protocol. But I will intend 
to work with nations, especially the poor and developing nations, to 
show the world that there is a better approach, that we can build our 
future prosperity along a cleaner and better path.
    My budget includes over $220 million for the U.S. Agency for 
International Development and a global environmental facility to help 
developing countries better measure, reduce emissions, and to help them 
invest in clean and renewable energy technologies. Many of these 
technologies, which we take for granted in our own country, are not 
being used in the developing world. We can help ensure that the 
benefits of these technologies are more broadly shared. Such efforts 
have helped bring solar energy to Bangladesh, hydroelectric energy to 
the Philippines, geothermal electricity to Kenya. These projects are 
bringing jobs and environmental benefits to these nations, and we will 
build on these successes.
    The new budget also provides $40 million under the Tropical Forest 
Conservation Act to help countries redirect debt payments toward 
protecting tropical forests, forests that store millions of tons of 
carbon. And I've also ordered the Secretary of State to develop a new 
initiative to help developing countries stop illegal logging, a 
practice that destroys biodiversity and releases millions of tons of 
greenhouse gases into the atmosphere.
    And, finally, my government is following through on our commitment 
to provide $25 million for climate observation systems in developing 
countries that will help scientists understand the dynamics of climate 
change.
    To clean the air, and to address climate change, we need to 
recognize that economic growth and environmental protection go hand in 
hand. Affluent societies are the ones that demand, and can therefore 
afford, the most environmental protection. Prosperity is what allows us 
to commit more and more resources to environmental protection. And in 
the coming decades, the world needs to develop and deploy billions of 
dollars of technologies that generate energy in cleaner ways. And we 
need strong economic growth to make that possible.
    Americans are among the most creative people in our history. We 
have used radio waves to peer into the deepest reaches of space. We 
cracked life's genetic code. We have made our air and land and water 
significantly cleaner, even as we have built the world's strongest 
economy.
    When I see what Americans have done, I know what we can do. We can 
tap the power of economic growth to further protect our environment for 
generations that follow. And that's what we're going to do.
    Thank you.
 4. policy book accompanying presidential statement (february 14, 2002)
                           executive summary
    ``Addressing global climate change will require a sustained effort, 
over many generations. My approach recognizes that sustained economic 
growth is the solution, not the problem--because a Nation that grows 
its economy is a Nation that can afford investments in efficiency, new 
technologies, and a cleaner environment.''
                                  President George W. Bush.
    The President announced a new approach to the challenge of global 
climate change. This approach is designed to harness the power of 
markets and technological innovation. It holds the promise of a new 
partnership with the developing world. And it recognizes that climate 
change is a complex, long-term challenge that will require a sustained 
effort over many generations. As the President has said, ``The policy 
challenge is to act in a serious and sensible way, given the limits of 
our knowledge. While scientific uncertainties remain, we can begin now 
to address the factors that contribute to climate change.''
    While investments today in science will increase our understanding 
of this challenge, our investments in advanced energy and sequestration 
technologies will provide the breakthroughs we need to dramatically 
reduce our emissions in the longer term. In the near term, we will 
vigorously pursue emissions reductions even in the absence of complete 
knowledge. Our approach recognizes that sustained economic growth is an 
essential part of the solution, not the problem. Economic growth will 
make possible the needed investment in research, development, and 
deployment of advanced technologies. This strategy is one that should 
offer developing countries the incentive and means to join with us in 
tackling this challenge together. Significantly, the President's plan 
will:
    <bullet>  Reduce the Greenhouse Gas Intensity of the U.S. Economy 
by 18 Percent in the Next Ten Years. Greenhouse gas intensity measures 
the ratio of greenhouse gas (GHG) emissions to economic output. This 
new approach focuses on reducing the growth of GHG emissions, while 
sustaining the economic growth needed to finance investment in new, 
clean energy technologies. It sets America on a path to slow the growth 
of greenhouse gas emissions, and--as the science justifies--to stop and 
then reverse that growth:
    <bullet>  In efficiency terms, the 183 metric tons of emissions per 
million dollars GDP that we emit today will be lowered to 151 metric 
tons per million dollars GDP in 2012.
    <bullet>  Existing trends and efforts in technology improvement 
will play a significant role. Beyond that, the President's commitment 
will achieve 100 million metric tons of reduced emissions in 2012 
alone, with more than 500 million metric tons in cumulative savings 
over the entire decade.
    <bullet>  This goal is comparable to the average progress that 
nations participating in the Kyoto Protocol are required to achieve.
    <bullet>  Substantially Improve the Emission Reduction Registry. 
The President directed the Secretary of Energy, in consultation with 
the Secretary of Commerce, the Secretary of Agriculture, and the 
Administrator of the Environmental Protection Agency, to propose 
improvements to the current voluntary emission reduction registration 
program under section 1605(b) of the 1992 Energy Policy Act within 120 
days. These improvements will enhance measurement accuracy, reliability 
and verifiability, working with and taking into account emerging 
domestic and international approaches.
    <bullet>  Protect and Provide Transferable Credits for Emissions 
Reduction. The President directed the Secretary of Energy to recommend 
reforms to ensure that businesses and individuals that register 
reductions are not penalized under a future climate policy, and to give 
transferable credits to companies that can show real emissions 
reductions.
    <bullet>  Review Progress Toward Goal and Take Additional Action if 
Necessary. If, in 2012, we find that we are not on track toward meeting 
our goal, and sound science justifies further policy action, the United 
States will respond with additional measures that may include a broad, 
market-based program as well as additional incentives and voluntary 
measures designed to accelerate technology development and deployment.
    <bullet>  Increase Funding for America's Commitment to Climate 
Change. The President's fiscal year 1903 budget seeks $4.5 billion in 
total climate spending--an increase of $700 million. This commitment is 
unmatched in the world, and is particularly notable given America's 
focus on international and homeland security and domestic economic 
issues in the President's fiscal year 1903 budget proposal.
    <bullet>  Take Action on the Science and Technology Review. The 
Secretary of Commerce and Secretary of Energy have completed their 
review of the Federal Government's science and technology research 
portfolios and recommended a path forward. As a result of their review, 
the President has established a new management structure to advance and 
coordinate climate change science and technology research.
    <bullet>  The President has established a Cabinet-level Committee 
on Climate Change Science and Technology Integration to oversee this 
effort. The Secretary of Commerce and Secretary of Energy will lead the 
effort, in close coordination with the President's Science Advisor. The 
research effort will continue to be coordinated through the National 
Science and Technology Council in accordance with the Global Change 
Research Act of 1990.
    <bullet>  The President's fiscal year 1903 budget proposal 
dedicates $1.7 billion to fund basic scientific research on climate 
change and $1.3 billion to fund research on advanced energy and 
sequestration technologies.
    <bullet>  This includes $80 million in new funding dedicated to 
implementation of the Climate Change Research Initiative (CCRI) and the 
National Climate Change Technology Initiative (NCCTI) announced last 
June. This funding will be used to address major gaps in our current 
understanding of the natural carbon cycle and the role of black soot 
emissions in climate change. It will also be used to promote the 
development of the most promising ``breakthrough'' technologies for 
clean energy generation and carbon sequestration.
    <bullet>  Implement a Comprehensive Range of New and Expanded 
Domestic Policies, Including:
    <bullet>  Tax Incentives for Renewable Energy, Cogeneration, and 
New Technology. The President's fiscal year 1903 budget seeks $555 
million in clean energy tax incentives, as the first part of a $4.6 
billion commitment over the next 5 years ($7.1 billion over the next 10 
years). These tax credits will spur investments in renewable energy 
(solar, wind, and biomass), hybrid and fuel cell vehicles, 
cogeneration, and landfill gas conversion. Consistent with the National 
Energy Policy, the President has directed the Secretary of the Treasury 
to work with Congress to extend and expand the production tax credit 
for electricity generation from wind and biomass, to develop a new 
residential solar energy tax credit, and to encourage cogeneration 
projects through investment tax credits.
    <bullet>  Business Challenges. The President has challenged 
American businesses to make specific commitments to improving the 
greenhouse gas intensity of their operations and to reduce emissions. 
Recent agreements with the semi-conductor and aluminum industries and 
industries that emit methane already have significantly reduced 
emissions of some of the most potent greenhouse gases. We will build 
upon these successes with new agreements, producing greater reductions.
    <bullet>  Transportation Programs. The Administration is promoting 
the development of fuel-efficient motor vehicles and trucks, 
researching options for producing cleaner fuels, and implementing 
programs to improve energy efficiency. The President is committed to 
expanding Federal research partnerships with industry, providing 
market-based incentives and updating current regulatory programs that 
advance our progress in this important area. This commitment includes 
expanding fuel cell research, in particular through the ``FreedomCAR'' 
initiative. The President's fiscal year 1903 budget seeks more than $3 
billion in tax credits over 11 years for consumers to purchase fuel 
cell and hybrid vehicles. The Secretary of Transportation has asked the 
congressional leadership to work with him on legislation that would 
authorize the Department of Transportation to reform the Corporate 
Average Fuel Economy (CAFE) program, fully considering the recent 
National Academy Sciences report, so that we can safely improve fuel 
economy for cars and trucks.
    <bullet>  Carbon Sequestration. The President's fiscal year 1903 
budget requests over $3 billion--a $1 billion increase above the 
baseline--as the first part of a 10-year (2002-2011) commitment to 
implement and improve the conservation title of the Farm Bill, which 
will significantly enhance the natural storage of carbon. The President 
also directed the Secretary of Agriculture to provide recommendations 
for further, targeted incentives aimed at forest and agricultural 
sequestration of greenhouse gases. The President further directed the 
Secretary of Agriculture, in consultation with the Environmental 
Protection Agency and the Department of Energy, to develop accounting 
rules and guidelines for crediting sequestration projects, taking into 
account emerging domestic and international approaches.
    <bullet>  Promote New and Expanded International Policies to 
Complement Our Domestic Program. The President's approach seeks to 
expand cooperation internationally to meet the challenge of climate 
change, including:
    <bullet>  Investing $25 Million in Climate Observation Systems in 
Developing Countries. In response to the National Academy of Sciences' 
recommendation for better observation systems, the President has 
allocated $25 million and challenged other developed nations to match 
the U.S. commitment.
    <bullet>  Tripling Funding for ``Debt-for-Nature'' Forest 
Conservation Programs. Building upon recent Tropical Forest 
Conservation Act (TFCA) agreements with Belize, El Salvador, and 
Bangladesh, the President's fiscal year 1903 budget request of $40 
million to fund ``debt for nature'' agreements with developing 
countries nearly triples funding for this successful program. Under 
TFCA, developing countries agree to protect their tropical forests from 
logging, avoiding emissions and preserving the substantial carbon 
sequestration services they provide. The President also announced a new 
agreement with the Government of Thailand, which will preserve 
important mangrove forest in Northeastern Thailand in exchange for debt 
relief worth $11.4 million.
    <bullet>  Fully Funding the Global Environmental Facility. The 
Administration's fiscal year 1903 budget request of $178 million for 
the GEF is more than $77 million above this year's funding and includes 
a substantial $70 million payment for arrears incurred during the prior 
administration. The GEF is the primary international institution for 
transferring energy and sequestration technologies to the developing 
world under the United Nations Framework Convention on Climate Change 
(UNFCCC).
    <bullet>  Dedicating Significant Funds to the United States Agency 
for International Development (USAID). The President's fiscal year 2003 
budget requests $155 million in funding for USAID climate change 
programs. USAID serves as a critical vehicle for transferring American 
energy and sequestration technologies to developing countries to 
promote sustainable development and minimize their GHG emissions 
growth.
    <bullet>  Pursue Joint Research with Japan. The U.S. and Japan 
continue their High-Level Consultations on climate change issues. Later 
this month, a team of U.S. experts will meet with their Japanese 
counterparts to discuss specific projects within the various areas of 
climate science and technology, to identify the highest priorities for 
collaborative research.
    <bullet>  Pursue Joint Research with Italy. Following up on a 
pledge of President Bush and Prime Minister Berlusconi to undertake 
joint research on climate change, the U.S. and Italy convened a Joint 
Climate Change Research Meeting in January 2002. The delegations for 
the two countries identified more than 20 joint climate change research 
activities for immediate implementation, including global and regional 
modeling.
    <bullet>  Pursue Joint Research with Central America. The United 
States and Central American Heads of Government signed the Central 
American-United States of America Joint Accord (CONCAUSA) on December 
10, 1994. The original agreement covered cooperation under action plans 
in four major areas: conservation of biodiversity, sound use of energy, 
environmental legislation, and sustainable economic development. On 
June 7, 2001, the United States and its Central American partners 
signed an expanded and renewed CONCAUSA Declaration, adding disaster 
relief and climate change as new areas for cooperation. The new 
CONCAUSA Declaration calls for intensified cooperative efforts to 
address climate change through scientific research, estimating and 
monitoring greenhouse gases, investing in forestry conservation, 
enhancing energy efficiency, and utilizing new environmental 
technologies.
    NATIONAL GOAL
    The President set a national goal to reduce the greenhouse gas 
intensity of the U.S. economy by 18 percent over the next 10 years. 
Rather than pitting economic growth against the environment, the 
President has established an approach that promises real progress on 
climate change by tapping the power of sustained economic growth.
    <bullet>  The President's Yardstick--Greenhouse Gas Intensity--is a 
Better Way to Measure Progress Without Hurting Growth. A goal expressed 
in terms of declining greenhouse gas intensity, measuring greenhouse 
gas emissions relative to economic activity, quantifies our effort to 
reduce emissions through conservation, adoption of cleaner, more 
efficient, and emission-reducing technologies, and sequestration. At 
the same time, an intensity goal accommodates economic growth.
    <bullet>  Reducing Greenhouse Gas Intensity by 18 Percent Over the 
Next Ten Years is Ambitious but Achievable. The United States will 
reduce the 183 metric tons of emissions per million dollars GDP that we 
emit today to 151 metric tons per million dollars GDP in 2012. We 
expect existing trends and efforts in technology improvement to play a 
significant role. Beyond that, our commitment will achieve 100 million 
metric tons of reduced emissions in 2012 alone, with more than 500 
million metric tons in cumulative savings over the entire decade.
    <bullet>  Focusing on Greenhouse Gas Intensity Sets America on a 
Path to Slow the Growth of Greenhouse Gas Emissions, and--as the 
Science Justifies--to Stop and Then Reverse That Growth. As we learn 
more about the science of climate change and develop new technologies 
to mitigate emissions, this annual decline can be accelerated. When the 
annual decline in intensity equals the economic growth rate (currently, 
about 3 percent per year), emission growth will have stopped. When the 
annual decline in intensity exceeds the economic growth rate, emission 
growth will reverse. Reversing emission growth will eventually 
stabilize atmospheric concentrations as emissions decline.
    <bullet>  As We Advance Science and Develop Technology to 
Substantially Reduce Greenhouse Gas Emissions in the Long Term, We Do 
Not Want to Risk Harming the Economy in the Short Term. Over the past 
20 years, greenhouse gas emissions have risen with economic growth, as 
our economy benefited from inexpensive, fossil-fuel based--and 
greenhouse gas emitting--energy. While new technologies promise to 
break this emission-economy link, a rapid reduction in emissions would 
be costly and threaten economic growth. Sustained economic growth is 
essential for any long-term solution: Prosperity is what allows us to 
dedicate more resources to solving environmental problems. History 
shows that wealthier societies demand--and can afford--more 
environmental protection.
    <bullet>  The Intensity Based Approach Promotes Near-Term 
Opportunities to Conserve Fossil Fuel Use, Recover Methane, and 
Sequester Carbon. Until we develop and adopt breakthrough technologies 
that provide safe and reliable energy to fuel our economy without 
emitting greenhouse gases, we need to promote more rapid adoption of 
existing, improved energy efficiency and renewable resources that 
provide cost-effective opportunities to reduce emissions. Profitable 
methane recovery from landfills, coal mines and gas pipelines offers 
another opportunity--estimated by the EPA at about 30 million tons of 
carbon equivalent emissions. Finally, carbon sequestration in soils and 
forests can provide tens of millions of tons of emission reductions at 
very low costs.
    <bullet>  The Intensity Based Approach Advances a Serious, but 
Measured Mitigation Response. The President recognizes America's 
responsibility to reduce emissions. At the same time, any long-term 
solution--one that stabilizes atmospheric concentrations of greenhouse 
gases at safe levels--will require the development and deployment of 
new technologies that are not yet cost-effective. The President's 
policy balances the desire for immediate reductions with the need to 
protect the economy and to take advantage of developing science and 
technology.
The President's Goal is Ambitious and Responsible
    <bullet>  Reducing Greenhouse Gas Intensity by 18 Percent Over the 
Next Ten Years is Comparable to the Average Progress that Nations 
Participating in the Kyoto Protocol are Required to Achieve. Our goal 
translates into a 4.5 percent reduction beyond forecasts of the 
progress that America is expected to make based on existing programs 
and private activity. Forecasts of the average reductions required by 
nations implementing the Kyoto Protocol range from zero to 7 percent.
    <bullet>  While Producing Results Similar to What the Kyoto 
Protocol Participants Are Required to Achieve on Average, the 
President's Approach Protects the Economy and Develops Institutions for 
a Long-Term Solution. The focus on greenhouse gas intensity separates 
the goal of reducing emissions from the potential economic harm 
associated with a rigid emission cap. By measuring greenhouse gas 
emissions relative to economic activity, we have a solid yardstick 
against which we can measure progress as we pursue a range of programs 
to reduce emissions. As we develop technologies to produce more goods 
with fewer greenhouse gas emissions, this yardstick does not penalize 
economic growth.
    <bullet>  Greenhouse Gas Intensity Is a More Practical Way to 
Discuss Goals with Developing Countries. The close connection between 
economic growth, energy use and greenhouse gas emissions implies that 
fixed appropriate emission limits are hard to identify when economic 
growth is uncertain and carbon-free, breakthrough energy technologies 
are not yet in place. Such targets are also hard to identify for 
developing countries where the future rate of emissions is even more 
uncertain. Given its neutrality with regard to economic growth, 
greenhouse gas intensity solves or substantially reduces many of these 
problems.
Enhanced National Registry for Voluntary Emissions Reductions
    The Administration will improve the current Federal GHG Reduction 
and Sequestration Registry that recognizes greenhouse gas reductions by 
non-governmental organizations, businesses, farmers, and the Federal, 
State and local governments. Registry participants and the public will 
have a high level of confidence in the reductions recognized by this 
Registry, through capture and sequestration projects, mitigation 
projects that increase energy efficiency and/or switch fuels, and 
process changes to reduce emissions of potent greenhouse gases, such as 
methane. An enhanced registry will promote the identification and 
expansion of innovative and effective ways to reduce greenhouse gases. 
The enhanced registry will encourage participation by removing the risk 
that these actions will be penalized--or inaction rewarded--by future 
climate policy.
    <bullet>  Improve the Quality of the Current Program. A registry is 
a tool for companies to publicly record their progress in reducing 
emissions, providing public recognition of a company's accomplishments, 
and a record of mitigation efforts for future policy design. This tool 
goes hand-in-hand with voluntary business challenges, described below, 
by providing a standardized, credible vehicle for reporting and 
recognizing progress.
    <bullet>  Although businesses can already register emission 
reductions under section 1605(b) of the 1995 Energy Policy Act, 
participation has been limited.
    <bullet>  The President directed the Secretary of Energy, in 
consultation with the Secretary of Commerce, Secretary of Agriculture, 
and the Administrator of the Environmental Protection Agency, to 
propose improvements to the current voluntary emissions reduction 
registration program within 120 days.
    <bullet>  These improvements will enhance measurement accuracy, 
reliability and verifiability, working with and taking into account 
emerging domestic and international approaches.
    <bullet>  Protect and Provide Transferable Credits for Emissions 
Reduction. The President directed the Secretary of Energy to recommend 
reforms to ensure that businesses and individuals that register 
reductions are not penalized under a future climate policy, and to give 
transferable credits to companies that can show real emissions 
reductions. These protections will encourage businesses and individuals 
to pursue innovative strategies to reduce or sequester greenhouse gas 
emissions, without the risk that future climate policy will 
disadvantage them.
    <bullet>  Background on Current Registry Program. The Energy Policy 
Act of 1992 directed the Department of Energy (with EIA as the 
implementing agency) to develop a program to document voluntary actions 
that reduce emissions of greenhouse gases or remove greenhouse gases 
from the atmosphere.
    <bullet>  Under the Energy Policy Act, EIA was directed to issue 
``procedures for the accurate reporting of information on annual 
reductions of greenhouse gas emissions and carbon fixation achieved 
through any measures, including fuel switching, forest management 
practices, tree planting, use of renewable energy, manufacture or use 
of vehicles with reduced greenhouse gas emissions, appliance 
efficiency, methane recovery, cogeneration, chlorofluorocarbon capture 
and replacement, and power plant heat rate improvement.''
    <bullet>  In 1999, 207 companies and other organizations, 
representing 24 different industries or services, reported on 1,722 
projects that achieved 226 million metric tons of carbon dioxide 
equivalent reductions--equal to 3.4 percent of national emissions. 
Participating companies included Clairol, AT&T, Dow Chemical, Johnson & 
Johnson, IBM, Motorola, Pharmacia, Upjohn, Sunoco, Southern, General 
Motors and DuPont.
    <bullet>  EIA released a February 2002 report demonstrating that 
this program continues to expand. In 2000, 222 companies had undertaken 
1,882 projects to reduce or sequester greenhouse gases. These achieved 
269 million metric tons of carbon dioxide equivalent reductions--equal 
to 3.9 percent of national emissions.
    <bullet>  A number of proposals to reform the existing registry--or 
create a new registry--have appeared in energy and/or climate policy 
bills introduced in the past year. The Administration will fully 
explore the extent to which the existing authority under the Energy 
Policy Act is adequate to achieve these reforms.
Progress Check in 2012
    The domestic programs proposed by the President allow consumers and 
businesses to make flexible decisions about emission reductions rather 
than mandating particular control options or rigid targets. If, 
however, by 2012, our progress is not sufficient, and sound science 
justifies further action, the United States will respond with 
additional measures that may include a broad, market-based program, as 
well as additional incentives and voluntary measures designed to 
accelerate technology development and deployment.
                          domestic initiatives
Summary
    Key domestic initiatives to contribute to achieving our goal:
    <bullet>  Tax Incentives for Renewables and Cogeneration. The 
Administration's fiscal year 2003 budget proposal seeks $4.6 billion in 
clean energy tax incentives over the next 5 years. These tax credits 
will spur investments in renewable energy (solar, wind, and biomass), 
hybrid and fuel cell vehicles, cogeneration, and landfill gas. As 
directed in the National Energy Policy, the Secretary of the Treasury 
will work with Congress to extend and expand the production tax credit 
for electricity generation from wind and biomass, to develop a new 
residential solar energy tax credit, and to encourage cogeneration 
projects through investment tax credits.
    <bullet>  Business Challenges. The President challenges American 
businesses and industries to reduce emissions. Already, agreements with 
the semi-conductor and aluminum industries, and industries that emit 
methane, have dramatically reduced emissions of some of the most potent 
greenhouse gases. We will build on these successes, with broader 
agreements and greater reductions.
    <bullet>  Transportation Programs. The Administration is promoting 
the development of fuel-efficient motor vehicles and trucks, 
researching options for producing cleaner fuels, and implementing 
programs to improve energy efficiency. The President is committed to 
expanding Federal research partnerships with industry, market-based 
incentives and updating current regulatory programs that advance our 
progress in this important area. The Administration has expanded fuel 
cell research, such as the ``FreedomCAR'' initiative, and the 
President's 1903 budget seeks more than $3 billion in tax credits over 
11 years for consumers to purchase fuel cells and hybrid vehicles. The 
Secretary of Transportation has asked the congressional leadership to 
work with him on legislation that would authorize the Department of 
Transportation to reform the Corporate Average Fuel Economy (CAFE) 
program, fully considering the recent National Academy Sciences report, 
so that we can safely improve fuel economy for cars and trucks.
    <bullet>  Carbon Sequestration. The President's fiscal year 1903 
budget requests over $3 billion--a $1 billion increase above the 
baseline--as the first part of a 10-year (2002-2011) commitment to 
implement and improve the conservation title of the Farm Bill, which 
will significantly enhance the natural storage of carbon. The President 
also directed the Secretary of Agriculture to provide recommendations 
on further, targeted incentives for forest and agricultural 
sequestration of greenhouse gases. The President further directed the 
Secretary of Agriculture, in consultation with the Environmental 
Protection Agency and the Department of Energy, to develop accounting 
rules and guidelines for crediting sequestration projects, taking into 
account emerging domestic and international approaches.
Incentives and Programs for Renewables and Industrial Cogeneration
    The President's fiscal year 1903 budget proposes providing $4.6 
billion in clean energy tax incentives over the next 5 years ($7.1 
billion over 10 years) for investments in renewable energy (solar, 
wind, and biomass), hybrid and fuel cell vehicles, co-generation, 
landfill gas conversion, and ethanol. These incentives are important to 
meeting the nation's long-term energy supply and security needs, and 
reducing pollution and projected greenhouse gas emissions. These clean 
energy tax incentives include:
    <bullet>  New 10 Percent Tax Credit for Co-Generation (Combined 
Heat and Power Systems). The President has proposed a new 10 percent 
tax credit for investments in combined heat and power systems between 
2002 and 2006. The credit will encourage investments in highly 
efficient CHP projects and spur innovation in improved CHP 
technologies. No income tax credits are currently available for 
investment in CHP property.
    <bullet>  Cogeneration. Combined heat and power (CHP), also known 
as ``co-generation'', is a highly efficient form of electric generation 
that recycles heat which is normally lost under traditional power 
combustion methods. CHP captures the heat left over from industrial 
use, providing a source of residential and industrial heating and air 
conditioning in the local area around the power plant. CHP systems 
achieve a greater level of overall energy efficiency, thereby reducing 
energy consumption, costs, and carbon emissions.
    <bullet>  EPA Combined Heat and Power Partnership. The new tax 
credit would enhance efforts underway by the Environmental Protection 
Agency to streamline the permitting process for cogeneration plants, 
promote their location in brownfields and other industrial sites, and 
clarify how companies can use cogeneration to stay in compliance with 
Clean Air Act pollution standards. On October 5, 2001, in partnership 
with 17 Fortune 500 companies, city and State governments and 
nonprofits, EPA announced the Combined Heat and Power Partnership. 
Current CHP projects of the founding partners represent more then 5,800 
megawatts of power generating capacity, an amount capable of serving 
almost 6 million households. The projects annually reduce carbon 
dioxide by more than 8 million tons; the annual energy savings equal 19 
million barrels of oil. A similar program by the Department of Energy 
challenges the heat and power industry to double usage of cogeneration 
in the United States by 2010.
    <bullet>  First-Ever Tax Credit for Residential Solar Energy 
Systems. The President has proposed a new 15 percent tax credit for 
individuals who purchase photovoltaic equipment or solar water heating 
systems used in a residence, up to a maximum credit of $2,000 for each 
type of equipment. Currently, no credit is available for non-commercial 
purchases of solar energy equipment. The credit would be available for 
photovoltaic equipment purchased between 2002 and 2007, and for solar 
water heating equipment purchased between 2002 and 2005. This credit 
will encourage businesses and homeowners to invest in solar power 
systems.
    <bullet>  Expanded Tax Credit for Electricity Produced from Wind or 
Biomass. The President has proposed extending and modifying the tax 
credit for electricity produced from wind or biomass. Currently, wind 
energy accounts for 6 percent of renewable electricity generation and 
0.1 percent of total electricity supply. Advances have helped cut costs 
by more than 80 percent during the last 20 years. This proposal would 
help make electricity produced from wind and biomass competitive with 
other sources of electricity supply. The proposal would:
    <bullet>  Extend for 3 years (2002-2004) the present 1.7 cent-per-
kilowatt hour credit for electricity produced from wind and closed-loop 
biomass (plants grown exclusively to produce electricity); and
    <bullet>  Expand eligible biomass sources to include certain 
biomass from forest-related resources, agricultural and other sources. 
For existing biomass facilities, the credit for electricity produced 
from new sources is 1.0 cent-per-kilowatt hour for 3 years (2002-2004) 
of production. For coal fired facilities, electricity produced from co-
firing biomass from new sources is 0.5 cent-per-kilowatt hour for 3 
years of production (2002-2004).
    <bullet>  Tax Credit for New Methane Landfill Projects. The 
President has proposed encouraging the development of a new alternative 
source of energy by providing tax credits for energy produced from 
landfill gas. The credit would be approximately 1.0 cent-per-kilowatt 
hour (or the equivalent in dollars per million metric BTU) for energy 
produced from methane from landfills regulated by the EPA to collect 
and flare methane, and 1.5 cents-per-kilowatt hour for unregulated 
landfills. The credit would be available for energy produced from new 
facilities through 2010.
    <bullet>  New Tax Credit for New Hybrid or Fuel-Cell Vehicles. The 
President has proposed a new temporary tax credit of up to $4,000 for 
the purchase of new hybrid vehicles and up to $8,000 for the purchase 
of fuel cell vehicles between 2002 and 2007. These credits would be 
available for all qualifying light vehicles, including cars, minivans, 
sport utility vehicles, and light trucks. The tax credits will 
encourage the purchase of highly fuel-efficient vehicles that 
incorporate advanced automotive technologies and will help to move 
hybrid and fuel cell vehicles from the laboratory to the highway.
    <bullet>  Increased Funding for Geothermal Energy. The President's 
2003 budget proposal for the U.S. Geological Survey (USGS) supports 
alternative, non-fossil fuel energy development. The budget includes an 
increase for USGS to investigate the nature and extent of geothermal 
systems and produce updated assessments of available geothermal energy 
resources in selected regions of the United States. The near-term focus 
of this effort will be in the Great Basin region, where most of the 
public land available for geothermal leasing lies. This region 
encompasses most of Nevada and large portions of California, Oregon, 
Idaho, and Utah. Available data indicate the presence of a substantial 
undeveloped geothermal energy resource that could be tapped to help 
provide for the growing energy requirements of the western United 
States.
    <bullet>  Increased Funding for Renewable Energy Resources on 
Public Lands. The President's 1903 budget proposal calls for a major 
effort by the Bureau of Land Management (BLM) to increase its renewable 
energy activities in support of the President's National Energy Policy. 
In 2003, BLM will encourage the study, exploration, and development of 
renewable energy resources from public lands. Emphasis will be directed 
to advancing the use of geothermal, hydropower, wind, solar, and 
biomass resources.
Business Challenges
    The President challenged American businesses and industries to 
reduce greenhouse gas emissions. Already, agreements with the semi-
conductor and aluminum industries, and with industries that emit 
methane, are dramatically reducing emissions of the most potent 
greenhouse gases. The President's plan will build on these successes, 
with broader agreements and greater reductions.
Company Challenges
    <bullet>  EPA's ``Climate Leaders'' Initiative: EPA will launch a 
new, voluntary Climate Leaders program with a group of major companies 
including: Florida Power and Light, GM, Lockheed Martin, Miller Brewing 
Company, Bethlehem Steel, Interface Inc., SC Johnson and Holcimus Inc. 
These companies have agreed to test new greenhouse gas reporting 
guidelines as the basis for agreeing to targets in the future. Each 
participant will establish an individual goal for reducing greenhouse 
gas emissions, and will voluntarily report those emissions. The Climate 
Leaders program provides a significant opportunity to achieve the 
greenhouse gas intensity reductions set forth in this policy through a 
voluntary approach. In the coming months, the Administration will 
aggressively pursue additional corporate partners representing a wider 
spectrum of the U.S. economy.
Sector Challenges
    <bullet>  Semiconductors: On March 13, 2001, EPA and the 
Semiconductor Industry Association signed a new voluntary agreement, 
the PFC Reduction Climate Partnership. Under this partnership, the 
industry agreed to reduce emissions of perfluorocarbons (PFCs) by 10 
percent from 1995 levels by the end of 2010. The expected reduction of 
13.7 million metric tons of carbon dioxide equivalent in 2010 alone is 
comparable to taking 12 million cars off the road. PFCs have, on 
average, 10,000 times the potency of carbon dioxide over 100 years, and 
persist in the atmosphere 2,000 to 50,000 years.
    <bullet>  Aluminum: Twelve of the 13 U.S. primary aluminum 
producers, representing 96 percent of the U.S. primary aluminum 
production capacity, have joined EPA's Voluntary Aluminum Industrial 
Partnership. Companies participating in this program have committed to 
make reductions in two potent PFCs, tetrafluoromethane (CF4) and 
hexafluoroethane (C2F6). The program met its 2000 goal to reduce PFC 
emissions from U.S. primary aluminum smelting by 45 percent--equivalent 
to 1.8 million metric tons of carbon--using cost-effective approaches 
that make economic and environmental sense for the partners.
    <bullet>  Methane: Because of the potency of methane relative to 
carbon dioxide, a ``methane-first'' strategy for greenhouse gas 
mitigation is cost-effective. A variety of U.S. industry and government 
partnerships have reduced methane emissions, and they are expected to 
hold emissions at or below 1990 levels through and beyond 2010. 
Partners in EPA's methane programs are projected to maintain emissions 
below 1990 levels through 2010.
    <bullet>  EPA's Natural Gas STAR program includes companies 
representing 40 percent of the U.S. natural gas production, 72 percent 
of transmission company pipeline miles, 49 percent of distribution 
company service connections, and 23 percent of processing throughput. 
This partnership has achieved significant reductions. In 2000, EPA 
estimates a reduction in methane emissions of 4 million metric tons of 
carbon equivalent, and projects for 2010 a reduction of 6 million 
metric tons of carbon equivalent.
    <bullet>  EPA's Coalbed Methane Outreach Program (CMOP) encourages 
industry to reduce methane emissions from underground coal mines. The 
program provides technical assistance to mining companies on 
technologies for recovered methane. EPA estimates that CMOP reduced 2 
million metric tons carbon equivalent in 2000.
    <bullet>  In the agriculture sector, USDA and EPA have partnered on 
the Ag-STAR program and the Ruminant Livestock Efficiency Program 
(RLEP), which focus on reducing methane emissions. The overall impact 
of these two programs on greenhouse gas emissions has been small on a 
national scale, but program stakeholders in the agricultural community 
have demonstrated that the practices can reduce greenhouse gas 
emissions and increase productivity.
Improving Fuel Economy
    Developing new technologies to improve the energy efficiency of 
transportation in the United States will be a key element in achieving 
future reductions in greenhouse gas emissions. Cars, trucks, aircraft 
and other parts of the nation's transportation system are responsible 
for about one-third of the carbon dioxide emissions in the United 
States. The Administration is currently promoting the development of 
fuel-efficient motor vehicles and trucks, researching options for 
producing cleaner fuels, and implementing programs to improve energy 
efficiency. The President is committed to the expansion and improvement 
of Federal research partnerships with industry, market-based 
incentives, and reforming current regulatory programs that advance our 
progress in this important area.
    <bullet>  The ``FreedomCAR''--Advancing Hydrogen-Based Fuel Cells. 
On January 9, 2002, Energy Secretary Abraham, with the heads of General 
Motors, Ford Motor Co. and the Chrysler arm of DaimlerChrysler, 
announced a new partnership, FreedomCAR (Cooperative Automotive 
Research), to promote the development of hydrogen as the primary fuel 
for cars and trucks. The ``FreedomCAR'' program embraces the long-term 
strategic goal of developing a new breakthrough technology--the 
hydrogen-powered fuel cell--with a vision of ultimately eliminating our 
reliance on foreign oil.
    <bullet>  The Department Of Energy's Public-Private Projects for 
Low-Cost, Breakthrough Fuel Cell Technology. In August 2002, Energy 
Secretary Abraham announced new partnerships, totaling $500 million, 
with Honeywell, Siemens, Westinghouse Power Corporation, Delphi 
Automotive Systems, Battelle, Cummins Power Generation, and McDermott 
Technologies. The partnerships build upon President Bush's commitment 
to fuel cell research and cutting edge technologies. The goal of this 
initiative is to cut the costs of fuel cells to as low as one-tenth the 
cost of currently marketed systems and to one-third the cost of the 
more advanced concepts now beginning to reach commercial readiness.
    <bullet>  Tax Credits for New Hybrid or Fuel Cell Vehicles. The 
President has proposed a new temporary tax credit of up to $4,000 for 
the purchase of new hybrid vehicles and up to $8,000 for the purchase 
of fuel-cell vehicles between 2002 and 2007. These credits would be 
available for all qualifying light vehicles, including cars, minivans, 
sport utility vehicles, and light trucks. The tax credits will 
encourage the purchase of highly fuel-efficient vehicles that 
incorporate advanced automotive technologies and will help to move 
hybrid and fuel cell vehicles from the laboratory to the highway.
    <bullet>  Corporate Average Fuel Economy Standards (CAFE). A key 
recommendation of the President's National Energy Policy directed the 
Secretary of Transportation to review and provide recommendations on 
establishing updated CAFE standards, with due consideration of the July 
2001 National Academy of Sciences (NAS) report. The NAS report included 
several recommendations pertaining to options for structuring the CAFE 
system, including permitting manufacturers to trade fuel economy 
credits.
    <bullet>  The Administration supports increasing automobile fuel 
economy and encouraging new technologies that reduce our dependence on 
imported oil, while protecting passenger safety and jobs.
    <bullet>  On February 1, 2002, Transportation Secretary Mineta 
asked the congressional leadership to ``work . . . on legislation that 
would authorize the Department of Transportation to reform the CAFE 
program, fully considering the NAS report. Possible reforms include: 
(1) adopting fuel economy targets that are dependent on vehicles 
attributes, such as vehicles weight, that inherently influence fuel use 
and have minimal adverse safety consequences; (2) utilizing market-
based incentives, such as trading of fuel economy credits, to obtain 
fuel savings at the lowest possible cost to consumer while providing 
continuous incentives for additional fuel economy enhancement; (3) 
encouraging development and implement of new technologies; and (4) 
establishing realistic, long-term targets and deadlines to increase 
economy safely while providing greater long-term product planning for 
vehicles manufacturers.''
    <bullet>  On July 10, 2001, Transportation Secretary Mineta urged 
Congress to lift the appropriations ban on new rulemaking of CAFE 
standards by the National Highway Transportation Safety Administration 
(NHTSA) ``to improve vehicle fuel efficiency standards.'' In December 
2001, Congress responded by lifting the ban, and last week NHTSA 
initiated a public review process for safely improving the fuel economy 
of new light truck standards for model year 2005 through 2010, and for 
reforming the CAFE program.
    <bullet>  Tire Pressure Monitoring Systems (TPMS). The Department 
of Transportation's National Highway Transportation Safety 
Administration (NHTSA) will finalize this year a rule requiring the 
installation of tire pressure monitoring systems (TPMSs) in all new 
cars and light trucks. Properly inflated tires improve fuel efficiency 
and reduce maintenance costs. NHTSA estimates that the annualized 
benefits range from $120-480 million in fuel savings and $75-165 
million in reduced tread wear. NHTSA predicts TPMS will save between 
.31 and 1.27 million metric tons of carbon equivalent per year when 
applied to the entire on-road fleet. That reflects between 128 and 528 
million gallons of gasoline per year.
    <bullet>  First-Ever EPA Agreement with Ford to Develop High-
Efficiency Auto Technology. In September 2001, EPA agreed to license to 
the Ford Motor Company a unique, high-efficiency ``hydraulic hybrid'' 
technology that has the long-term potential to reduce energy 
consumption and greenhouse gas emissions. The first application of this 
technology, planned for model year 2005, will result in a minimum 30 
percent improvement in vehicle fuel economy; the second phase, planned 
for as early as year 2009, should double the fuel economy of selected 
new vehicles. This is the first-ever licensing agreement between EPA 
and an automobile company involving vehicle powertrain technology.
Promoting Domestic Carbon Sequestration
    In the agriculture sector, activities including fertilizer use, 
animal waste management and on-farm fuel use account for 148 million 
metric tons of carbon equivalent emissions, about 8 percent of total 
U.S. greenhouse gas emissions. The President's fiscal year 2003 budget 
requests $3 billion above the base-line over 10 years (2002-2011) for a 
new, conservation-focused Farm Bill that will enhance the natural 
storage of carbon dioxide.
    Increased Funding for USDA's Conservation Programs:
    <bullet>  The Conservation Reserve Program (CRP) assists farm 
owners and operators to conserve and improve soil, water, air and 
wildlife resources by removing environmentally sensitive land from 
agricultural production and keeping it under long-term resource-
conserving cover. Currently, USDA estimates that the CRP removes nearly 
34 million acres of environmentally sensitive cropland from production, 
which generates long-term environmental benefits, including the annual 
savings of about 15 million metric tons of carbon emissions per year. 
The CRP would expand to 40 million acres, saving roughly 19 million 
metric tons of carbon per year. The Administration's fiscal year 1903 
budget proposes an increase of $89 million over the fiscal year 1902 
enacted level.
    <bullet>  The Environmental Quality Incentives Program (EQIP) helps 
producers make beneficial and cost-effective changes to cropping and 
grazing systems; improve manure, nutrient and pest management, and 
implement conservation measures to improve soil, water, and related 
natural resources. USDA estimates that the EQIP program (in combination 
with conservation technical assistance) provides assistance to farmers 
for planning and implementing soil and water conservation practices and 
removes roughly 12 million metric tons of carbon per year. The 
Administration's fiscal year 2003 proposes an increase of $800 million 
over the fiscal year 1902 enacted level.
    <bullet>  The Wetland Reserve Program (WRP) has enrolled just over 
1 million acres to date. Under current authority, the program is capped 
at 1,075,000 acres, and has already reached that level this year. 
Estimated soil carbon sequestration resulting from conversion of 
cropland on wetland soils to grassland or forest by 1997 (1.4 million 
acres) has resulted in carbon sequestration rates of over 2 million 
metric tons of carbon per year. The Administration has supported a 
version of the Farm Bill that would expand the WRP to 2.225 million 
acres, saving roughly 4 million metric tons of carbon per year. The 
Administration's fiscal year 1903 proposes an increase of $176 million 
over the fiscal year 1902 enacted level.
    <bullet>  The Forest Stewardship Program provides technical and 
financial assistance to nonindustrial, private forest owners. About 147 
million hectares of U.S. forests are nonindustrial, private forestlands 
and provide many ecological and economic benefits and values. These 
forests provide about 60 percent of our nation's timber supply, with 
increases expected in the future. The acceleration of tree planting on 
nonindustrial, private forestlands and marginal agricultural lands can 
help meet resource needs and provide important ancillary benefits that 
improve environmental quality, such as wildlife habitat, soil 
conservation, water quality protection and improvement, and recreation. 
Additionally, tree planting and forest management increases uptake of 
carbon dioxide and the storage of carbon in living biomass, soils, 
litter, and long-life wood products. The Forest Service, in cooperation 
with State forestry agencies, manages both programs, and estimates that 
these programs provide 700,000 metric tons of carbon reductions per 
year. The Administration's fiscal year 1903 budget proposes an increase 
of $16 million over the fiscal year 1902 enacted level.
            promote new and expanded international policies
Summary
    The President's approach will actively pursue the integration of 
our domestic goals and policies with those of other nations. The 
President has submitted provisions in the fiscal year 1903 budget 
includes:
    <bullet>  Tripling Funding for ``Debt-For-Nature'' Programs. 
Building upon recent Tropical Forest Conservation Act (TFCA) agreements 
with Belize, El Salvador, and Bangladesh, the President's fiscal year 
1903 budget request of $40 million to fund ``debt for nature'' 
agreements with developing countries nearly triples funding for this 
highly successful program. The President also announced a new deal with 
the Government of Thailand, which will preserve important mangrove 
forest in Northeastern Thailand in exchange for debt relief worth $11.4 
million.
    <bullet>  Investing $25 Million in Climate Observation Systems in 
Developing Countries. In response to the National Academy of Sciences' 
recommendation for better observation systems, the President has 
allocated $25 million and challenged other developed nations to match 
the U.S. commitment.
    <bullet>  Expanding Technology Transfer and Capacity Building in 
the Developing World:
    <bullet>  Fully Funding the Global Environment Facility (GEF). The 
President's fiscal year 1903 budget requests $178 million for the GEF, 
a $77 million increase, which includes a substantial $70 million 
payment for arrears incurred during the prior Administration. These 
funds will support transfer of advanced energy and sequestration 
technologies to the developing world.
    <bullet>  Dedicating Significant Funds to the United States 
Administration on International Development. The President's 1903 
budget requests $155 million in funding for USAID climate change 
programs. USAID serves as a primary vehicle for transferring American 
energy and sequestration technologies to developing countries to 
promote sustainable development and minimize their GHG emissions 
growth.
    <bullet>  Building on International Cooperative Agreements:
    <bullet>  Joint Research with Japan. The U.S. and Japan continue 
their High-Level Consultations on climate change issues. Later this 
month, a team of U.S. experts will meet with their Japanese 
counterparts to discuss specific projects within the various areas of 
climate science and technology, to identify the highest priorities for 
collaborative research.
    <bullet>  Joint Research with Italy. The U.S. and Italy have 
identified more than 20 joint climate change research activities for 
immediate implementation and more topics for further development in 
critical areas of global and regional climate modeling, atmospheric 
studies related to climate, carbon cycle research, low-carbon 
technologies and other related areas.
Increased Funding for Tropical Forest Conservation
    The Tropical Forest Conservation Act (TFCA) reflects America's 
commitment to preserving tropical forests worldwide. Created in 1998 
and reauthorized in 2001 with broad bipartisan support, the program 
offers eligible countries the opportunity to reduce their debt to the 
United States while preserving their tropical forests. TFCA encourages 
and empowers local communities and nongovernmental organizations to 
develop and implement grassroots solutions to conservation problems. 
Grants from the local fund can be used to support a wide range of 
activities, such as training programs to increase the capacity of 
individuals and organizations involved in forest conservation areas; 
restoration of forested areas; and the protection of parks and other 
protected areas. The President's 2003 budget proposal seeks $50 million 
in funding for tropical forestry conservation, of which $40 million may 
be used for TFCA.
    Estimates of the carbon sequestration value of tropical forests 
suggest a wide range of values. The World Resources Institute estimates 
that carbon sequestration value ranges from 6 to 72 tons per acre of 
rainforest. The 1995 IPCC report further analyzed the global potential 
for carbon storage. Slowing tropical deforestation on 700 million 
hectares (nearly the size of the US, but only 17 percent of the global 
forest area) could store 60 to87 million gigatons of carbon in 55 
years. Annual carbon storage could be over two gigatons by 2050, about 
14 percent of projected emissions.
    <bullet>  Agreements During the Bush Administration. TFCA 
agreements have been negotiated with Belize, El Salvador, and Thailand 
during this administration.
    <bullet>  Leverage. The four TFCA agreements to date--Bangladesh, 
Belize, El Salvador, and Thailand--generate approximately $40 million 
in forest conservation funding at a cost of $19.2 million.
    <bullet>  Bangladesh. Debt reduction agreement signed September 12, 
2000; saves Bangladesh $10 million in hard currency payments and will 
generate $8.5 million in local currency interest payments for tropical 
forest conservation of Sundarban mangrove forests, which shields the 
coastline from typhoons and provides habitat for the last genetically 
viable population of Royal Bengal tigers.
    <bullet>  Belize. In August, 2001, the U.S. and Belize concluded a 
``debt-for-nature'' agreement to protect 23,000 acres of tropical 
forests. The agreement leveraged $1.3 million in private finds raised 
by The Nature Conservancy.
    <bullet>  El Salvador. Debt reduction agreement signed July 12, 
2001; Tropical Forestry Agreement signed September 14, 2001. Reduced 
country's official debt to the U.S. by $3 million, generating $14.3 
million for tropical forest conservation in local currency interest 
payments. Initial target of TFCA funds will be reforestation of 
hillsides.
    <bullet>  Thailand. Debt reduction agreement signed September 19, 
2001; agreement was approved by the Thai Cabinet on February 12, 2002. 
Debt agreement saves Thailand's $11.4 million in hard currency payments 
and will generate $9.5 million for conservation activities. Initial 
targets for TFCA funds include reforestation projects in northeastern 
Thailand, protection of mangrove forests.
Expanding Technology Transfer and Capacity Building in Developing 
        Countries
    The President' fiscal year 1903 budget significantly expands 
funding for current programs that transfer advanced energy and 
sequestration technologies to developing countries, and provide 
technical assistance and training to their citizens. Eighty-one percent 
of the growth in global carbon emissions from fossil fuel use in 1990-
2010 is expected to come from developing countries, according to 
projections by the Energy Information Administration. Reducing this 
projected, exponential growth of emissions in developing countries 
therefore must be a critical element of any rational policy to address 
global climate change. First, the ``breakthrough'' technological 
advances achieved under the President's National Climate Change 
Technology Initiative will benefit all nations, and will not be 
confined to applications in the United States. Second, America will 
increase its commitment to helping the developing world gain access to 
advanced energy efficiency and sequestration technologies, by 
reinvigorating and expanding support for existing technology transfer 
programs.
    <bullet>  Investing $25 Million in Climate Observation Systems in 
Developing Countries. In response to the National Academy of Sciences' 
recommendation for better observation systems, the President has 
allocated $25 million and challenged other developed nations to match 
the U.S. commitment.
    <bullet>  Fully Funding the Global Environment Facility (GEF). The 
U.S. contribution to the GEF and leading a robust, multinational 5-year 
replenishment commitment.
    <bullet>  The Administration's Fiscal Year 1903 budget requested 
$178 million in funding for the GEF, a 77 percent increase over the 
fiscal year 1902 enacted level of $100.5 million. It includes $107.5 
million to fully fund the first installment of the U.S. pledge of $430 
million to the GEF's ``Third Replenishment'' (GEF-3) for 2003-2006. The 
fiscal year 1903 budget also includes $70 million to clear one-third of 
the $211 million arrears balances incurred by the United States during 
the last Administration.
    <bullet>  The GEF fulfills a critical role in improving the 
environment globally, particularly in financing developing countries' 
ability to address environmental issues relating to climate change, 
biodiversity conservation, and land degradation. The GEF, operating as 
the United Nation's Framework Convention on Climate Change's primary 
``financial mechanism,'' funds the extra costs (over normal development 
costs) of reducing greenhouse gas emissions in energy and other 
projects. The GEF's project portfolio has demonstrated a wide range of 
approaches to promoting energy efficiency and renewable energy, often 
through initiatives in partnership with the private sector. GEF grant 
projects are implemented at the country level through the World Bank, 
U.N. Development Program, U.N. Environment Program and regional 
development banks.
    <bullet>  Since beginning regular operations in 1994, the GEF has 
designed and implemented over 800 projects in 160 countries. The GEF 
has committed $3.2 billion to date, leveraging well over $8 billion 
from other sources. Co-financiers include the developing countries 
themselves, bilateral aid agencies and other multilateral financial 
institutions, NGO's and the private sector. Leveraging for clean energy 
projects is often as high as $5 from other sources for every GEF 
dollar. U.S. companies are the largest beneficiaries of contracts 
extended for GEF projects, securing 30 percent of all contracts.
    <bullet>  Recent examples of highly successful GEF projects 
include:
    <bullet>  Mexico. The Mexico High Efficiency Lighting Project under 
which Mexican consumers and businesses have installed almost 40 percent 
more efficient lights than originally projected;
    <bullet>  India. The India Alternate Energy Project promoting 
investment in 41 megawatts of wind power through the provision of low-
market loans, stimulating massive followup investment with wind power 
now supplying 850 megawatts of energy in India;
    <bullet>  Brazil. The Brazil Biomass Power Commercial Demonstration 
Project promotes the use of high-efficiency agricultural byproducts as 
fuel for electric power and agro-industry process heat;
    <bullet>  China. The Chinese Coalbed Methane Project demonstrates 
technologies in Chinese coal mines for capturing clean-burning methane 
as fuel;
    <bullet>  Latvia. The Latvia Solid Waste Management and Landfill 
Gas Recovery project ($25 million total, with $5 million from GEF) will 
harness landfill gas for electricity production and facilitate 
separation of recyclable materials;
    <bullet>  Philippines. The project supports the connection of a 
grid-connected power plant on Mindanao which combines solar and 
hydroelectric power;
    <bullet>  Bangladesh. The Rural Electrification and Renewable 
Energy Development project promotes solar energy in rural areas 
implemented by established Bangladeshi institutions and is expected to 
provide solar power to as many as 130,000 additional rural households;
    <bullet>  Ecuador. The Renewable Energy for Electricity Generation, 
Renewable Electrification of the Galapagos Islands project is aimed at 
reducing Ecuador's energy-related carbon dioxide emissions by 
introducing solar and wind energy to the Galapagos Archipelago, and is 
expected to provide wind and solar re-powering of village mini-grids on 
three islands serving more than 5,000 people; and
    <bullet>  Kenya. The Ormat Olkaria III Geothermal Power Development 
project will provide GEF financing for the first private sector 
financed and managed geothermal electric project in Africa and among 
the first private power projects in Kenya and East Africa.
    <bullet>  Dedicating Significant Funds to United States Agency for 
International Development (USAID). The President has maintained a 
strong commitment to technology transfer and capacity building in 
developing countries by requesting $155 million dedicated to climate 
change in the USAID fiscal year 1903 budget.
    <bullet>  Following up on the recently concluded Technology 
Cooperation Agreement Pilot Project (TCAPP), USAID is working with 
partners in Brazil, Egypt, Mexico, the Philippines, and Southern Africa 
to implement projects and activities designed to encourage the 
accelerated adoption of energy efficiency and renewable energy 
technologies and practices in several key sectors.
    <bullet>  Brazil. Technology cooperation efforts are focused on the 
development of new sustainable, energy efficient and renewable energy 
technologies to meet the development needs in the Northeast region. 
This effort provided startup financing for rural energy entrepreneurs 
through a combination of enterprise development services and startup 
financing.
    <bullet>  Philippines. Technology cooperation efforts are 
supporting national goals to expand rural electrification by using 
renewable energy sources such as, wind power.
    <bullet>  Southern Africa. USAID is supporting activities designed 
to promote the widespread use of solar water heaters in selected areas. 
Program-wide efforts also include a focus on the development and 
dissemination of outreach and communication tools in an effort to 
encourage information sharing.
    <bullet>  The Cairo Air Improvement Project (CAIP) is a $60 million 
USAID program that is designed to reduce vehicular emissions, such as 
particulates and lead. The CAIP is reducing air pollution by:
    <bullet>  operating a vehicle emission testing, tune-up, and 
certification program and promoting the conversion of diesel-fueled, 
public sector, municipal bus fleets to compressed natural gas; and
    <bullet>  reducing the concentration of air pollution from 
smelters.
    <bullet>  Building on International Cooperative Agreements:
    <bullet>  Joint Research with Japan. The U.S. and Japan continue 
their High-Level Consultations on climate change issues. Later this 
month a team of U.S. experts will meet with their Japanese counterparts 
to discuss specific projects within the various areas of climate 
science and technology to identify which of the highest priority 
opportunities to pursue.
    <bullet>  Joint Research with Italy. The United States and Italy 
convened a ``Joint Climate Change Research Meeting'' in Rome on January 
22-23, 2002, following upon a pledge of President Bush and Prime 
Minister Berlusconi to undertake joint research on climate change. This 
pledge recognized the need to draw on sound science and the power of 
technology to reduce the uncertainty associated with future global 
climate and environmental challenges. The two sides identified more 
than 20 joint climate change research activities for immediate 
implementation and more topics for further development in critical 
areas of global and regional climate modeling, atmospheric studies 
related to climate, carbon cycle research, low-carbon technologies and 
other related areas. The climate science research activities for 
immediate implementation will improve the capability to understand, 
monitor and predict climatic variations and their impacts. In addition, 
the technology research activities for immediate implementation will 
contribute to the development of advanced low carbon technologies to 
limit net emissions of greenhouse gases.
    <bullet>  Pursue Joint Research with Central America. The United 
States and Central American Heads of Government signed the Central 
American-United States of America Joint Accord (CONCAUSA) on December 
10, 1994. The original agreement covered cooperation under action plans 
in four major areas: conservation of biodiversity, sound use of energy, 
environmental legislation, and sustainable economic development. On 
June 7, 2001, the United States and its Central American partners 
signed an expanded and renewed CONCAUSA Declaration, adding disaster 
relief and climate change as new areas for cooperation. The new 
CONCAUSA Declaration calls for intensified cooperative efforts to 
address climate change through scientific research, estimating and 
monitoring greenhouse gases, investing in forestry conservation, 
enhancing energy efficiency, and utilizing new environmental 
technologies.
                    enhanced science and technology
Summary
    The President's policy builds on his June 11 commitments to global 
climate science and technology: 1) fully fund high-priority areas for 
climate change science over the next 5 years; and 2) strengthen 
technology research at universities and national labs, to enhance 
partnerships in applied research, develop improved technology for 
measuring and monitoring gross and net greenhouse gas emissions, and 
fund demonstration projects for cutting-edge technologies, such as 
bioreactors and fuel cells.
    <bullet>  Increase Support for America's Commitment to Climate 
Science and Technology Initiatives. The Administrations fiscal year 
2003 budget seeks an additional $700 million for climate change 
programs, bringing total climate spending up to $4.5 billion per year. 
This commitment to climate change research and development is unmatched 
in the world, and is particularly notable given America's focus on 
domestic and international security issues in the fiscal year 1903 
budget. A key element of this effort is dedicated to funding for the 
Climate Change Research Initiative and the National Climate Change 
Technology Initiative. These initiatives are core components of the 
President's 1903 budget. They are designed to fund high-priority 
research to address major gaps in our current understanding of climate 
science and to promote the development of the most promising 
``breakthrough'' technologies for clean energy generation and carbon 
sequestration.
    <bullet>  The Climate Change Research Initiative. The U.S. will 
spend $1.7 billion in fiscal year 2003 for basic research on climate 
change, $40 million of which is dedicated to leverage other funding to 
address major gaps in understanding the carbon cycle and the role of 
black soot.
    <bullet>  The National Climate Change Technology Initiative. The 
U.S. will spend $1.3 billion on climate change technologies, of which 
$40 million will be spent on development and deployment of advanced 
energy and sequestration technologies critical to long-term emission 
reduction.
    <bullet>  The President Has Established a New High-Level Committee 
on Climate Change Science and Technology Integration (CCCSTI). This 
Committee consists of the Secretaries of Commerce, Energy, State, 
Agriculture, Interior, Health and Human Services, Defense, and 
Transportation, EPA Administrator, OMB Director, NEC Director, NASA 
Administrator, NSF Director and CEQ Chairman. The Executive Director of 
the committee will be the Director of the Office of Science and 
Technology Policy. The functions of the CCCSTI include but are not 
limited to: 1) providing recommendations concerning climate science and 
technology to the President; 2) recommending the movement of funding 
and programs across agency boundaries; and 3) coordination with the 
Office of Management and Budget on the Committee's recommendations. The 
Chair of CCCSTI is responsible for the final review of recommendations 
to the Climate Change Panel. Research will continue to be coordinated 
through the Nation Science and Technology Council in accordance with 
the Global Change Research Act of 1990.
Climate Change Research Initiative
    On June 11, 2001, the President announced a new commitment to 
developing a science-based climate change policy, and a new commitment 
to funding research on ``breakthrough technologies'' that will help 
meet the long-run climate change challenge. To study areas of 
scientific uncertainty and identify priority areas where investments 
can make a difference, the President created the Climate Change 
Research Initiative (CCRI). The CCRI promotes a vision focused on the 
effective use of scientific knowledge in policy and management 
decisions, and continued evaluation of management strategies and 
choices.
    The President's fiscal year 1903 budget requested $40 million for 
CCRI to be shared among five agencies (NOAA, NSF, NASA, DOE, and USDA). 
This investment will focus on answering key questions recently 
identified by the National Academy of Sciences in its 2001 report, 
``Climate Change Science: An Analysis of Some Key Questions.'' The CCRI 
will improve the integration of scientific knowledge, including 
measures of uncertainty, into effective decision support systems and 
will adopt performance metrics and deliverable products useful to 
policymakers in a short timeframe (2-5 years).
    Specific priorities identified for fiscal year 2003 include:
    <bullet>  Understanding the North American Carbon Cycle. An 
intensive research effort will be focused on understanding North 
American terrestrial and oceanic carbon sources and sinks, to improve 
monitoring techniques, reconcile approaches for quantifying carbon 
storage, and elucidate key controlling processes and land management 
practices regulating carbon fluxes between the atmosphere, land, and 
the ocean. This effort will develop automated carbon dioxide and 
methane sensors, and improve ground-based measurements and inventories 
of forest and agricultural lands.
    <bullet>  Developing Reliable Representation of the Global and 
Regional Climatic Forcing by Atmospheric Aerosols. Aerosols and 
tropospheric ozone play unique but poorly quantified roles in the 
atmospheric radiation budget. CCRI investments will implement plans 
developed by the interagency National Aerosol-Climate Interactions 
Program to define and evaluate the role of aerosols that absorb solar 
radiation, such as black carbon and mineral dust. Proposed activities 
include field campaigns (including aircraft fly overs), in situ 
monitoring stations, and improved modeling and satellite data algorithm 
development.
    <bullet>  Investing in Computer Modeling. The continued development 
and refinement of computer models that can simulate the past and future 
conditions of the Earth's climate system is important for providing 
more accurate projections of future climate change. NOAA will establish 
a Climate Modeling Center within the Geophysical Fluid Dynamics 
Laboratory (GFDL) at Princeton, New Jersey, to focus on model product 
generation research, assessment, and policy applications.
    <bullet>  Ensuring High-Quality, Long-Term Climate Data Records. 
This is a long-term effort to develop high fidelity climate data 
records from satellite observing systems. Initial work will target 
calibration and validation of instruments planned for the National 
Polar-orbiting Operational Environment Satellite System (NPOESS) to 
ensure a smooth transition and guarantee climate-quality data.
National Climate Change Technology Initiative
    On June 11, 2001, the President announced a new commitment to 
developing a science-based climate change policy, and a new commitment 
to funding research on ``breakthrough technologies'' that will help 
meet the long-run climate change challenge. To advance and bring focus 
to technologies that offer great promise to significantly reduce 
greenhouse gas emissions, the President created the National Climate 
Change Technology Initiative (NCCTI). The President charged the 
Secretaries of Commerce and Energy, working with other agencies, to:
    <bullet>  Evaluate the State of U.S. Climate Change Technology 
Research and Development and Make Recommendations for Improvement. The 
U.S. Government funds many different technologies that can help 
mitigate greenhouse gas emissions. Some are designed to improve energy 
efficiency or create opportunities to switch to fuels, products, and 
processes that emit lower amounts of greenhouse gases. Others enhance 
carbon removal or storage in terrestrial, ocean, and geological sinks, 
or explore innovative concepts and breakthrough technologies.
    <bullet>  Provide Guidance on Strengthening Basic Research at 
Universities and National Laboratories, Including the Development of 
Advanced Mitigation Technologies that Offer the Greatest Promise for 
Low-Cost Reductions of Greenhouse Gas Emissions. There are many 
scientific and technological challenges regarding costs, environmental 
impacts, and public acceptability that must be resolved before climate 
change mitigation technologies can reach their full potential. Federal 
research efforts can help meet these challenges.
    <bullet>  Develop Opportunities to Enhance Private-Public 
Partnerships in Applied Research and Development to Expedite Innovative 
and Cost-Effective Approaches to Reducing Greenhouse Gas Emissions. The 
U.S. Government has established partnerships with the private sector to 
advance technologies that mitigate greenhouse gas emissions. It is 
critical to enhance this role and ensure that partnerships with 
industry are directed toward the most mutually beneficial outcomes.
    <bullet>  Make Recommendations for Funding Demonstration Projects 
for Cutting-Edge Technologies. Cutting-edge technologies hold the 
promise of significantly reducing greenhouse gas emissions.
    <bullet>  Evaluate Improved Technologies for Measuring and 
Monitoring Gross and Net Terrestrial Greenhouse Gas Emissions. Private 
sector investors are reluctant to participate in projects without 
reliable and credible quantification of the uncertainties associated 
with different land management practices. Cost-effective measurement 
systems will not only increase the attractiveness of agricultural 
greenhouse gas projects to investors, but can also provide valuable 
information to individual farmers and ranchers optimizing the use of 
fuel, fertilizers, and other substances.
    The President's fiscal year 1903 Budget requests $40 million within 
the Department of Energy to begin work on NCCTI. Specific research 
areas are being identified through an interagency review process. The 
NCCTI will build on an existing base of research and development in 
climate change technologies, primarily at the Department of Energy, the 
Environmental Protection Agency, and the Department of Agriculture. A 
complete report on the findings and recommendations of the NCCTI will 
be issued soon.
           addendum to the global climate change policy book
    The Global Climate Change Policy Book distributed with the 
President's February 14th speech on Clear Skies and Global Climate 
Change included several calculated statistics:
    <bullet>  2002 emission intensity: 183 metric tons of carbon 
equivalent emissions per million dollars GDP
    <bullet>  2012 emissions intensity: 158 metric tons of carbon 
equivalent emissions per million dollars GDP
    <bullet>  2002-2012 decline in emission intensity based on current 
forecasts with existing policies and efforts: 14 percent
    <bullet>  Expected emission reductions in 2012 resulting from the 
President's commitment to reduce intensity by 18 percent: more than 100 
million metric tons carbon equivalent
    This document and accompanying spreadsheet describes the data used 
to produce these numbers.
    Three primary forecasts underlie these intensity and emission 
reduction estimates: real GDP, energy-related carbon dioxide emissions, 
and other carbon dioxide and greenhouse gas emissions. The sources of 
these forecasts are described below, followed by an explanation of the 
calculated intensities and emission reductions.
    Real GDP forecasts (spreadsheet row 28) are based on the Annual 
Energy Outlook 2002, published by the Energy Information Administration 
in December 2001. In turn, these are based on the DRI-WEFA July 2001 
Trend Growth scenario. Although these forecasts were made before 
September 11 and before the exact nature of last year's recession was 
clear, the forecast growth of 38 percent over 2002-2012 matches the 
recent forecasts published in the 2003 Budget of the U.S. Government. 
Real GDP forecasts are converted from 1996 dollars to 2001 dollars 
(spreadsheet row 29) using the implicit GDP deflator, published in the 
National Income and Product Accounts.
    Forecasts of energy-related carbon dioxide emissions (spreadsheet 
row 25) are also based on the Annual Energy Outlook 2002. These 
emissions are derived from the use of fossil fuels forecast by the 
National Energy Modeling System developed by the Energy Information 
Administration, incorporating the economic growth assumptions described 
above.
    Forecasts of other carbon dioxide and greenhouse gas emissions 
(spreadsheet row 26) are based on two sources. The projections begin 
with 1999 inventories reported in Emissions of Greenhouse Gases in the 
United States 1999, published by the Energy Information Administration. 
Future emission levels are estimated using growth rates derived from 
reports published by the Environmental Protection Agency: Addendum to 
the U.S. Methane Emissions 1990-2020: Inventories, Projections and 
Opportunities for Reductions, Climate Action Report 2001, U.S. High GWP 
Gas Emissions 1990-2010: Inventories, Projections, and Opportunities 
for Reductions.
    There are two alternative forecasts provided on the accompanying 
spreadsheet. The first (spreadsheet row 39) is based on similar growth 
rates, but using inventories published in Draft Inventory of U.S. 
Greenhouse Gas Emissions and Sinks: 1990-2000. The second (spreadsheet 
row 44) is based on inventories and projections in the Climate Action 
Report 2001 and uses growth rates estimated to include existing 
policies and measures to reduce greenhouse gases.
    Greenhouse gas intensity is computed as the ratio of total 
greenhouse gas emissions (spreadsheet rows 27, 40 and 45) to real GDP 
(spreadsheet row 29). This is multiplied by 1000 to convert to units of 
metric tons carbon equivalent (mtce) per million dollars of GDP.
    The intensity decline is measured as one minus the ratio of 2012 
greenhouse gas intensity to 2002 greenhouse gas intensity. For example, 
in the reference case intensity declines from 183 to 158 mtce/$million. 
14 percent = 1--158/183.
    Emission reductions from business as usual are computed by first 
determining the emissions implied by the President's goal. 
Specifically, forecast GDP in 2012, multiplied by (1--18 percent), 
multiplied by intensity in 2002, and divided by 1000 (the latter 
converts from thousands to millions of tons). In the reference case, 
this works out to 14,459 x 0.82 x 183.3 / 1000 = 2173 million metric 
tons of carbon. This is then subtracted from forecast emissions in 
2012, 2279, to yield the reported estimate of 106 million tons of 
reductions.
    Note that the exact intensity goal in 2012 will not be known until 
accurate inventory data for 2002 is available as a basis for the 18 
percent decline. The exact emission goal will then depend on the 
eventual GDP level in 2012.
References
Annual Energy Outlook 2002. http://www.eia.doe.gov/oiaf/aeo/
Emissions of Greenhouse Gases in the United States 1999. http://
            www.eia.doe.gov/oiaf/1605/gg00rpt/
Climate Action Report 2001. http://www.epa.gov/globalwarming/
            publications/car/index.html
Draft Inventory of U.S. Greenhouse Gas Emissions and Sinks: 1990-2000. 
            http://www.epa.gov/globalwarming/publications/emissions/
            us2002/index.html
Addendum to the U.S. Methane Emissions 1990-2020: Inventories, 
            Projections and Opportunities for Reductions. http://
            www.epa.gov/ghginfo/pdfs/final--addendum2.pdf
U.S. High GWP Gas Emissions 1990-2010: Inventories, Projections, and 
            Opportunities for Reductions. http://www.epa.gov/ghginfo/
            reports/index.htm
Table A20.
Assumptions to the Annual Energy Outlook 2002, page 13.
Table S-14.
Table A19.
Table 1.
Table 5-2.
Exhibit 1.4
                                 ______
                                 
                             [July 9, 2002]
       report to congress on federal climate change expenditures
  ``The challenge is to act in a serious and sensible way, given the 
                       limits of our knowledge.''
                   President George W. Bush, June 11, 2001.
Introduction
    The following is a detailed account of Federal spending and 
performance goals for climate change programs and activities, both 
domestic and international, as included in the President's fiscal year 
2003 Budget. This report is being provided in response to Section 
559(b) of Public Law 107-115, Foreign Operations, Export Financing, and 
Related Programs Appropriations Act, 2002.
    On February 14, 2002, President Bush announced a new national goal 
to reduce the ``greenhouse gas intensity'' of the American economy by 
18 percent during the next decade. Achieving this goal will require an 
enhanced and sustained national effort to develop and deploy advanced 
energy and sequestration technologies, while maintaining a strong 
American economy. As reflected in the United Nations Framework 
Convention on Climate Change (UNFCCC), to which the United States is a 
party, global climate change represents a serious, long-term challenge 
for all of the nations of the world. The Administration has proposed a 
comprehensive plan for achieving meaningful progress in tackling this 
challenge. Progress will be achieved by relying on a range of 
significant investments in reducing the fundamental scientific 
uncertainties associated with anthropogenic climate change, advancing 
the development and introduction of energy-efficient and renewable 
technologies, and incentivizing emissions reductions throughout our 
economy. The budget information presented in this Report reflects the 
Administration's intensified focus and prioritization of meeting our 
international commitments under the UNFCCC and responsibility to the 
American people for preserving a strong American economy.
    The President's fiscal year 2003 Budget proposes $4,475 million. 
This figure is $653 million, or 17 percent, higher than fiscal year 
2002 enacted for spending programs and tax policies related to or 
associated with climate change. The Budget request for climate change 
programs is the highest level ever, though some programs were reduced 
to eliminate unrequested earmarks or certain projects approaching 
commercialization that are more properly now funded by the private 
sector. Other higher priority programs were increased. At this level, 
the United States leads the world in climate change research, and has 
invested nearly $20 billion in such research over the past decade. 
However, in its June 2001 Report, Climate Change Science: An Analysis 
of Some Key Questions, the National Research Council concluded that 
major challenges still remain to meaningfully improve our current 
understanding of the science of global climate change:

    ``Making progress in reducing the large uncertainties in 
projections of future climate will require addressing a number of 
fundamental scientific questions relating to the buildup of greenhouse 
gases in the atmosphere and the behavior of the climate system. Issues 
that need to be addressed include: a) the future usage of fossil fuels; 
b) the future emissions of methane; c) the fraction of the future 
fossil-fuel carbon that will remain in the atmosphere and provide 
radiative forcing versus exchange with the oceans or net exchange with 
the land biosphere; d) the feedbacks in the climate system that 
determine both the magnitude of the change and the rate of energy 
uptake by the oceans, which together determine the magnitude of and 
time history of the temperature increases for a given radiative 
forcing; e) details of the regional and local climate change consequent 
to an overall level of global climate change; f) the nature and the 
causes of the natural variability of climate and its interactions with 
forced changes; and g) the direct and indirect effects of the changing 
distributions of aerosols. Maintaining a vigorous, ongoing program of 
basic research, funded and managed independently of the climate 
assessment activity, will be crucial for narrowing those 
uncertainties.''

    ``Because there is considerable uncertainty in our current 
understanding of how the climate system varies naturally and reacts to 
emissions of greenhouse gases and aerosols, current estimates of the 
magnitude of future warming should be regarded as tentative and subject 
to future adjustments (either upward or downward).''

    And recently, the U.S. Climate Action Report 2002 to the United 
Nations stressed:

    ``One of the weakest links in our knowledge is the connection 
between global and regional predictions of climate change. The National 
Research Council's response to the President's request for a review of 
climate change policy specifically noted that fundamental scientific 
questions remain regarding the specifics of regional and local 
projections (NRC 2001). Predicting the potential impacts of climate 
change is compounded by a lack of understanding of the sensitivity of 
many environmental systems and resources B both managed and unmanaged B 
to climate change.''

    The Report notes the ``considerable uncertainty'' about the science 
of global climate change, including the uncertainty regarding natural 
climate variability and the role of aerosols, and ``recognize[s] that 
definitive prediction of potential outcomes is not yet feasible.'' The 
Report does not identify new risks, but rather provides a complete 
review of the numerous, often conflicting ``what if'' scenarios of 
potential impacts of climate change, both dire and beneficial. This 
Report makes clear that models, such as those used by the prior 
Administration's 2000 National Assessment, cannot yet be relied upon to 
make Aaccurate predictions of the specific changes in climate that will 
occur over the next hundred years.''
    The Administration's fiscal year 2003 budget request to Congress 
includes the initial response to President Bush's direction last June 
for a Climate Change Research Initiative (``CCRI'') to address many of 
these major gaps in our current understanding of global climate change. 
Specific CCRI priorities will focus on improving our understanding of 
the North American carbon cycle and the role of aerosols and 
tropospheric ozone in climate change, enhancing computer modeling of 
climate and developing high quality, long term climate observation 
data. The Administration will continue to determine where financial 
resources in the climate change portfolio can be redirected from lower 
priority work to higher priority projects that address specific areas 
of research identified by the National Research Council.
    Additionally although not included in this Report, the recently 
enacted Farm Bill will significantly expand conservation programs on 
farm and forest lands, accompanied by expanded carbon sequestration 
services. See Addendum B.
    In addition to describing our investments in global climate 
science, the programs and tax policies in this report represent one way 
to inventory a set of programs and tax policies associated with energy 
use, carbon sequestration and climate change. Funding generally falls 
into four major program areas.
    U.S. Global Change Research Program. The United States Global 
Change Research Program (USGCRP) seeks to provide a sound scientific 
understanding of both the human and natural forces that influence the 
Earth's climate system. The information produced by USGCRP's scientists 
is used by national and international policymakers to inform decisions 
on global change issues. The fiscal year 2003 Budget proposes $1,714 
million for the USGCRP, an increase of $44 million over fiscal year 
2002 enacted. See Table 2 for detailed information about the USGCRP.
    In addition to the USGCRP, the fiscal year 2003 Budget requests $40 
million for the new Climate Change Research Initiative (CCRI), which 
was created by the President to advance and bring focus to and leverage 
climate change research spending. The CCRI complements the existing 
USGCRP. CCRI funding will be shared among five agencies (NOAA, NASA, 
NSF, USDA, DOE), and the program will adopt performance metrics and 
deliverable products useful to policymakers in a short timeframe (2 to 
5 years). It will enhance observation and monitoring systems and 
improve the integration of scientific knowledge, including measures of 
uncertainty, into effective decision support systems. See Table 3 for 
information about the CCRI.
    Technology Research, Development and Deployment. The programs in 
this category have the effect of stimulating the development and use of 
renewable energy technologies and energy efficient products that can 
help improve energy efficiency and reduce greenhouse gas emissions. The 
fiscal year 2003 Budget proposes $1,757 million in discretionary 
spending and tax incentives, an increase of $539 million over fiscal 
year 2002 enacted. In addition to programs administered by the 
Department of Energy (DOE), this category also includes programs within 
the Environmental Protection Agency (EPA) and the Department of 
Agriculture (USDA). See Tables 4-5 for detailed information about the 
programs and tax proposals in this category.
    In June, 2001, the President committed the United States to work 
within the United Nation's framework to develop an effective and 
science-based response to the issue of global climate change. He noted 
that the United States is a leader in innovation and technology and 
that technology offers great promise to address this issue. As part of 
this commitment, he created a National Climate Change Technology 
Initiative. The National Climate Change Technology Initiative 
integrates a number of interdependent facets of the technological 
component of this approach to the global climate change issue: applied 
research and development; supporting basic research carried out by 
universities and national laboratories; partnering with industry and 
others, including international partners, in order to move technologies 
into the marketplace; promoting cutting-edge technologies through 
demonstration projects; and measuring and monitoring greenhouse gas 
emissions, inventories and flows. This Initiative will provide a 
framework for guiding the technology component of climate change 
related Federal R&D.
    International Assistance. International assistance programs support 
developing country efforts to address climate change through 
improvements in energy efficiency, renewable energy, land use changes 
and forestry practices. The fiscal year 2003 Budget proposes $211 
million, an increase of $32 million over fiscal year 2002 enacted, for 
climate change programs administered by the U.S. Agency for 
International Development and to support the Secretariat of the 
Framework Convention on Climate Change and the Intergovernmental Panel 
on Climate Change. See Table 6 for information on international 
assistance programs related to climate change, and Appendix A for 
obligations and expenditures by country and activity for the Agency for 
International Development as requested in Section 559 (b)(2) of Public 
Law 107-115.
    Other Climate-Related Programs. There are several programs that 
have multiple environmental benefits including their contribution to 
improving energy efficiency and reducing greenhouse gas emissions. The 
programs identified in this category include: DOE's Weatherization and 
State Energy Grants; DOE programs that promote cleaner coal and natural 
gas combustion, and nuclear energy R&D; and; U.S. contributions to the 
Global Environment Facility (GEF). GEF funding helps address trans-
border environmental problems like international water pollution, 
biological diversity conservation, and climate change. The GEF's 
climate change projects are related to the U.N. Framework Convention on 
Climate Change, not the Kyoto Protocol. The fiscal year 2003 Budget 
proposes $807 million, an increase of $20 million over fiscal year 2002 
enacted, for the programs in this category. See Table 7 for more 
details on these programs.
             summary of federal climate change expenditures

                  Table 1. Programs and Tax Policies Related to Climate Change--FY 2003 Budget
                          (Budget authority and tax incentives; in millions of dollars)
----------------------------------------------------------------------------------------------------------------
                                                                FY 2001      FY 2002      FY 2003    Change 2002-
                                                                 Actual      Estimate     Proposed       2003
----------------------------------------------------------------------------------------------------------------
Directly Related Programs & Policies:.......................
    U.S. Global Change Research Program.....................        1,728        1,670        1,714          +44
 
    Climate Change Research Initiative......................           --           --           40          +40
 
    Technology Research, Development and Deployment:........
        Spending Programs...................................        1,176        1,218        1,202          -16
        Tax Incentives \1\..................................           --           --          555         +555
        National Climate Change Technology Initiative\2\....           --           --           --           --
 
    International Assistance................................          177          179          211          +32
 
Other Climate-Related Programs:.............................
    DOE--Weatherization & State Energy Grants...............          191          275          316          +41
 
    DOE--Fossil Energy R&D (cleaner coal & natural gas).....          274          442          398          -44
 
    DOE--Nuclear Energy R&D (NERI)..........................           34           32           25           -7
 
    Treasury B Global Environment Facility \3\..............           41           38           68          +30
                                                             ---------------------------------------------------
        TOTAL \4\...........................................        3,603        3,822        4,475         +653
----------------------------------------------------------------------------------------------------------------
\1\The cost of the five energy tax incentives related to climate change included in the President's fiscal year
  2003 Budget is $4.6 billion over 5 years; $7.1 billion over 10 years.
\2\ The National Climate Change Technology (NCCTI) will build on an existing base of research and development in
  climate change technology, primarily at DOE, EPA, and USDA. The President's fiscal year 2003 Budget requests
  $40 million for NCCTI within the DOE budget. Specific research areas are being identified through an
  interagency review process.
\3\ The total fiscal year 2003 request for the Global Environment Facility (GEF) is $177.8 million.
  Approximately 38 percent of total GEF funding from all sources supports climate-related projects (e.g.
  expanding clean energy production and efficient energy use). The GEF, which also provides funding for other
  global environmental concerns, does not allocate funds by project type.
\4\ Total may not add due to rounding. Total adjusted to eliminate double counts.

                  u.s. global change research program

                            Table 2. By Agency/Appropriation Account--FY 2003 Budget
                            (Discretionary budget authority; in millions of dollars)
----------------------------------------------------------------------------------------------------------------
                                                                FY 2001      FY 2002      FY 2003    Change 2002-
                                                                 Actual      Estimate     Proposed       2003
----------------------------------------------------------------------------------------------------------------
Department of Health and Human Service:.....................
    National Institutes of Health...........................           54           60           68           +8
 
National Aeronautics and Space Administration:..............
    Science, Aeronautics, and Technology....................        1,176        1,090        1,109          +19
 
Department of Energy:.......................................
    Science (Biological & Environmental Research)...........          116          120          126           +6
 
National Science Foundation:................................
    Research and Related Activities.........................          181          188          188            0
 
Department of Agriculture:..................................
    Agricultural Research Service...........................           29           30           30            0
    Cooperative State Research, Education and Extension                 4            9           17           +8
     Services...............................................
        Research and Education..............................            4            9           17           +8
    Economic Research Service...............................            1            1            1            0
    Forest Service..........................................
        Forest and Rangeland Research.......................           17           17           17            0
                                                             ---------------------------------------------------
        Subtotal--USDA......................................           51           57           65           +8
 
Department of Commerce:.....................................
    National Oceanic and Atmospheric Administration                    93          100          100            0
     Operations, Research, and Facilities...................
 
Department of the Interior:.................................
    U.S. Geological Survey Surveys, Investigations, and                27           28           28           -2
     Research...............................................
 
Environmental Protection Agency:............................
    Science and Technology..................................           23           21           22            +
 
Smithsonian Institution:....................................
    Salaries and Expenses...................................            7            7            7            0
                                                             ---------------------------------------------------
        TOTAL\1\............................................        1,728        1,670        1,714          +44
----------------------------------------------------------------------------------------------------------------
\1\ Total may not add due to rounding.

                   climate change research initiative

                            Table 3. By Agency/Appropriation Account--FY 2003 Budget
                              (Discretionary budget authority; dollars in millions)
----------------------------------------------------------------------------------------------------------------
                                                                FY 2001      FY 2002      FY 2003    Change 2002-
                                                                 Actual      Estimate     Proposed       2003
----------------------------------------------------------------------------------------------------------------
Department of Commerce:.....................................
    National Oceanic and Atmospheric Administration                    --           --           18          +18
     Operations, Research, and Facilities...................
 
National Science Foundation:................................
    Research and Related Activities.........................           --           --           15          +15
 
National Aeronautics and Space Administration:..............
    Science, Aeronautics, and Technology....................           --           --            3           +3
 
Department of Energy:.......................................
    Science (Biological & Environmental Research)...........           --           --            3           +3
 
Department of Agriculture:..................................
    Forest Service/Natural Resources Conservation Service\1\           --           --            1           +1
                                                             ---------------------------------------------------
        TOTAL...............................................           --           --           40          +40
----------------------------------------------------------------------------------------------------------------
\1\ Based on $500,000 for the Forest Service and $500,000 for the Natural Resources Conservation Service.

    U.S. Global Change Research Program. Much of the U.S. investment in 
research on climate and other global environmental changes is 
coordinated through the U.S. Global Change Research program (USGCRP). 
The USGCRP has existed for more than a decade, and provides funding at 
nine different agencies for fundamental research on natural and human-
induced changes in the global environment, with the goal of attaining a 
more complete understanding of global climate change to better respond 
to the challenges it presents. The fiscal year 2003 Budget proposes 
$1,714 million for the USGCRP, an increase of $44 million over the 
fiscal year 2002 enacted level.
    Climate Change Research Initiative. In addition to the USGCRP, the 
fiscal year 2003 Budget requests $40 million for the new Climate Change 
Research Initiative (CCRI), which was created by the President to 
advance and bring focus to climate change research. The CCRI 
complements the existing USGCRP. CCRI funding in fiscal year 2003 will 
be shared among five agencies (NOAA, NASA, NSF, USDA, DOE), and the 
program will adopt performance metrics and deliverable products useful 
to policymakers in a short timeframe (2 to 5 years). It will enhance 
observation and monitoring systems as well as improve the integration 
of scientific
    knowledge, including measures of uncertainty, into effective 
decision support systems. CCRI funding in 2003 will focus on two main 
areas: reducing the uncertainties in climate science, and supporting 
policy and management decisions. In the first category, specific 
priorities include understanding the North American carbon cycle, 
developing reliable representation of global and regional climatic 
forcing by atmospheric aerosols, and investing in computer modeling. In 
the second category, specific priorities include developing tools for 
risk management under uncertainty and ensuring high-quality, long-term 
climate data records.
                        energy policy proposals

                                     Table 4. Tax Incentives--FY 2003 Budget
                                     (Revenue effect in millions of dollars)
----------------------------------------------------------------------------------------------------------------
                                                                                                     Total 2003-
                                        2003         2004         2005         2006         2007          07
----------------------------------------------------------------------------------------------------------------
Homes.............................
    Provide tax credit for                   -6           -7           -8          -17          -24          -62
     residential solar energy
     systems......................
 
Renewable Energy..................
    Extend the tax credit for              -227         -303         -212         -143         -146        -1031
     electricity produced from
     wind and biomass for 3 years;
     expand eligible biomass
     sources to include certain
     biomass produced from forest-
     related resources,
     agricultural sources, and
     other specified sources......
 
Transportation....................
    Provide tax credit for                  -80         -181         -349         -530         -763        -1903
     purchase of certain hybrid
     and fuel cell vehicles.......
 
Industry..........................
    Provide tax credit for energy           -34          -59          -86         -120         -140         -439
     produced from landfill gas...
    Provide tax credit for                 -208         -235         -238         -296         -139        -1116
     combined heat and power
     property.....................
                                   -----------------------------------------------------------------------------
    TOTAL\1\......................         -555         -785         -893        -1106        -1212        -4551
----------------------------------------------------------------------------------------------------------------
\1\ Total may not add due to rounding.

    Energy Policy Proposals B Tax Incentives. The President is 
proposing $4,551 million in clean energy tax credits over 5 years ($7.1 
billion over 10 years) for investments in renewable energy (solar, 
wind, and biomass), hybrid and fuel cell vehicles, co-generation, and 
landfill gas conversion. (see Table 2). These incentives are important 
to meeting the nation's long-term energy supply and security needs, 
reducing pollution, and projected greenhouse gas emissions. The 
following is an explanation of the clean energy tax incentives proposed 
in the fiscal year 2003 Budget.
Homes
    <bullet>  Tax credit for residential solar energy systems. Current 
law provides a 10-percent investment tax credit to businesses for 
qualifying equipment that uses solar energy to generate electricity; to 
heat, cool or provide hot water for use in a structure; or to provide 
solar process heat. No credit is available for nonbusiness purchases of 
solar energy equipment. The Administration proposes a new tax credit 
for individuals who purchase photovoltaic equipment and solar water 
heating systems for use in a dwelling unit that the individual uses as 
a residence. Equipment would qualify for the credit only if used 
exclusively for purposes other than heating swimming pools. An 
individual would be allowed a cumulative maximum credit of $2,000 per 
residence for photovoltaic equipment and $2,000 per residence for solar 
water heating systems. The credit for solar water heating equipment 
would apply only if placed in service after December 31, 2001 and 
before January 1, 2006, and to photovoltaic systems placed in service 
after December 31, 2001 and before January 1, 2008.
Renewable Energy
    <bullet>  Tax credit for electricity produced from wind or biomass. 
Current law provides taxpayers a 1.5 cent-per-kilowatt hour tax credit 
(adjusted for inflation after 1992) for electricity produced from wind, 
``closed-loop'' biomass, and poultry waste. Biomass refers to trees, 
crops and agricultural wastes used to produce power, fuels or 
chemicals. The electricity must be sold to an unrelated third party and 
the credit applies to the first 10 years of production. The current tax 
credit covers facilities placed in service before January 1, 2002, 
after which it expires. The new proposal would:
    <bullet>  Extend current biomass credit. This proposal would extend 
for 3 years the 1.5 cent-per-kilowatt hour biomass credit for 
facilities placed in service before January 1, 2005.
    <bullet>  Expand definition of eligible biomass. This proposal 
expands the definition of eligible biomass to include certain forest-
related resources and agricultural and other sources for facilities 
placed in service before January 1, 2002. Electricity produced at such 
facilities from newly eligible sources would be eligible for the credit 
only from January 1, 2002, through December 31, 2004. The credit for 
such electricity would be computed at a rate equal to 60 percent of the 
generally applicable rate. Electricity produced from newly eligible 
biomass co-fired in coal plants would be eligible for the credit only 
from January 1, 2002, through December 31, 2004.
Transportation
    <bullet>  Tax credit for hybrid and fuel cell vehicles. Currently, 
a 10 percent tax credit up to $4,000 is provided for the cost of a 
qualified electric vehicle. A qualified electric vehicle is a motor 
vehicle that is powered primarily by an electric motor drawing current 
from rechargeable batteries, fuel cells, or other portable sources of 
electric current. Electric and hybrid vehicles have the potential to 
increase energy efficiency as well as reduce air pollution and 
greenhouse gas emissions. To encourage the purchase of such vehicles 
the Administration is proposing the following tax credits:
    <bullet>  A credit of up to $4,000 for qualified hybrid vehicles 
purchased after December 31, 2001 and before January 1, 2008. The 
amount of the credit would depend on the percentage of maximum 
available power provided by the rechargeable energy storage system and 
the amount by which the vehicle's fuel economy exceeds the 2000 model 
year city fuel economy.
    <bullet>  A credit of up to $8,000 for new qualified fuel cell 
vehicles purchased after December 31, 2001 and before January 1, 2008. 
A minimum credit of $4,000 would be provided, which would increase as 
the vehicle's fuel efficiency exceeded the 2000 model year city fuel 
economy, reaching a maximum credit of $8,000 if the vehicle achieved at 
least 300 percent of the 2000 model year city fuel economy.
Industry
    <bullet>  Tax credit for energy produced from landfill gas. 
Taxpayers that produce gas from biomass are eligible for a credit equal 
to $3 per barrel-of-oil equivalent. To qualify, the gas must be 
produced domestically from a facility placed in service before July 1, 
1998 and sold to an unrelated person before January 1, 2008. The new 
proposal would extend the credit to fuel produced from landfill methane 
produced from a facility in service after December 31, 2001 and before 
January 1, 2011. The credit for fuel produced at landfills subject to 
EPA's 1996 New Source Performance Standards/Emissions Guidelines would 
be limited to two-thirds of the otherwise applicable amount if any 
portion of the facility for producing fuel at the landfill was placed 
in service before July 1, 1998, and beginning on January 1, 2002, in 
all other cases.
    <bullet>  Tax credit for combined heat and power property. Combined 
heat and power (CHP), also known as co-generation, is a highly 
efficient form of electric generation that recycles heat which is 
normally lost under traditional power combustion methods. CHP captures 
the heat left over from industrial use, providing a source of 
residential and industrial heating and air conditioning in the local 
area around the power plant. CHP systems achieve a greater level of 
overall energy efficiency, thereby reducing energy consumption, costs, 
and carbon emissions. No income tax credit is available for investment 
in CHP property. The Administration is proposing a new 10 percent 
investment credit for qualified CHP systems placed in service after 
December 31, 2001 and before January 1, 2007.
            technology research, development and deployment

                           Table 5. Program Details by Agency/Account--FY 2003 Budget
                            (Discretionary budget authority; in millions of dollars)
----------------------------------------------------------------------------------------------------------------
                                                                FY 2001      FY 2002      FY 2003    Change 2002-
                                                                 Actual      Estimate     Proposed       2003
----------------------------------------------------------------------------------------------------------------
Department of Energy (DOE)..................................
    Energy Supply...........................................          375          393          408          +15
        Renewable Energy Resources R&D......................        (370)        (386)        (408)        (+22)
        Nuclear Energy......................................          (5)          (7)          (0)         (-7)
    Energy Conservation R&D.................................          619          640          588          -52
    Fossil Energy R&D (sequestration R&D)...................           18           32          588          -52
    Science.................................................           35           35           35            0
    Energy Information Administration.......................            3            3            3            0
                                                             ---------------------------------------------------
    Subtotal--DOE...........................................        1,050        1,103        1,088          -15
 
Environmental Protection Agency (EPA).......................
    Environmental Programs & Management.....................           96           89           91           +2
    Science and Technology..................................           27           26           17           -9
                                                             ---------------------------------------------------
    Subtotal--EPA...........................................          123          115          108           -7
 
Department of Agriculture (USDA)............................
    Forest Service..........................................            3            0            1           +1
    Forest and Rangeland Research Agricultural Research                 0            0            5           +5
     Service................................................
                                                             ---------------------------------------------------
    Subtotal--USDA..........................................            3            0            6           +6
        TOTAL \1\...........................................        1,176        1,218        1,202          -16
----------------------------------------------------------------------------------------------------------------
\1\Total may not add due to rounding.

    Technology Research, Development and Deployment. The fiscal year 
2003 Budget proposes $1,202 million in discretionary funding, a 
decrease of $16 million from fiscal year 2002 enacted, for research, 
development, and deployment of renewable energy technologies and energy 
efficient products that help reduce the use of fossil fuels and U.S. 
greenhouse gas emissions. Better methods to measure and monitor carbon 
dioxide in soils and from forests are also funded. Table 5 provides a 
detailed accounting by agency of the technology programs in this report 
related to energy efficiency, conservation, renewable energy, and 
carbon sequestration. The reduction in funding reflects a decrease in 
conservation R&D for technologies that can be picked up by the private 
sector and a shift of conservation funds to weatherization grants. The 
following sections highlight selected agency programs.
1. Buildings
    The buildings sector is responsible for about 33 percent of U.S. 
greenhouse gas emissions.
    Most of the emissions result from the electricity needed to run 
appliances and equipment in buildings, such as heating, ventilation, 
and air conditioning (HVAC) equipment. The budget includes programs 
within DOE and EPA designed to develop highly efficient new appliances 
and HVAC systems, and to more rapidly deploy energy efficient products 
for buildings and homes throughout the marketplace. The following is a 
summary of the major activities by agency in the buildings sector:
    <bullet>  DOE Building Technology Program. The budget includes $93 
million for DOE's building technology and related activities, a 
decrease of $12 million from fiscal year 2002 enacted. DOE has been 
working with industry to define technology ``roadmaps'' toward more 
efficient buildings, and is using that process to guide its R&D 
programs.
    One major component is the Building America program, which creates 
partnerships with traditional housing developers and manufacturers of 
industrialized housing to demonstrate how new technologies can be 
integrated into homes cost-effectively and to disseminate that 
knowledge to other builders. DOE works with States to encourage them to 
voluntarily upgrade their commercial and residential building energy 
codes to require greater energy efficiency in all new construction. 
DOE's Rebuild America program is the centerpiece of a newly 
consolidated Community Energy Program--community partners in Rebuild 
America have committed to improving the energy efficiency of building 
space.
    DOE also funds significant research on more efficient building 
equipment and appliances, such as advanced lighting, heat pumps, 
chillers, and commercial refrigeration. DOE develops and promulgates 
energy efficiency standards for many categories of appliances and also 
develops testing methodologies used to set standards and to provide 
efficiency rating labels. (DOE's rating and labeling programs are 
performed in partnership with the Federal Trade Commission.) Standards 
and test procedure development will continue for a variety of 
appliances and will continue to support the joint EPA-DOE Energy Star 
program.
    <bullet>  EPA Buildings Programs. The budget proposes $50 million, 
an increase of $1 million over fiscal year 2002 enacted, for EPA's 
ENERGY STAR partnerships (including ENERGY STAR Labeling and the ENERGY 
STAR Buildings Program). EPA will work toward the goal of offsetting 
about 24 percent of the growth in greenhouse gas emissions above 1990 
levels expected by 2010 in this sector.
    EPA will actively promote its new buildings benchmark tool and work 
with building owners and mangers to benchmark a total of 29,000 
buildings nationwide. EPA will expand its public sector work to 
increase the number of partnerships with schools and universities and 
State and local governments to over 1,200. EPA will also continue to 
actively recruit new small businesses and organizations into ENERGY 
STAR with the goal of reaching over 7,000 participants in 2003. EPA 
will continue to play a key role in advancing the efficiency of the 
Federal Government by enhancing the ability of agencies to procure 
energy efficient products as well as assist agencies in benchmarking 
and labeling their high-performing buildings.
2. Transportation
    Cars, trucks, aircraft, and other parts of the Nation's 
transportation system emit about one third of the total anthropogenic 
U.S. greenhouse gases. A range of new technologies should make it 
possible for Americans to continue to enjoy the best personal 
transportation in the world while significantly reducing greenhouse gas 
emissions. Furthermore, many communities are developing innovative ways 
to reduce congestion and transportation energy needs by improving 
highway designs and urban planning, and by encouraging mass transit.
    <bullet>  DOE Transportation Technology Programs. The budget 
proposes $223 million, a decrease of $30 million from fiscal year 2002 
enacted (excludes $53 million in biofuels R&D funded in Renewable 
Energy Resources and included in the electricity sector below). DOE's 
Office of Transportation Technologies (OTT) funds research, 
development, and deployment of technologies that can significantly 
alter current trends in oil consumption. Commercialization of 
innovative vehicle technologies and alternative fuels presents an 
opportunity for reducing reliance on oil. These advanced technologies 
could also result in dramatic reductions in criteria pollutants and 
greenhouse gas emissions from the transportation sector. DOE funds 
research and development for advanced power-train technology (direct-
injection) engines, hybrid-electric drive systems, advanced batteries, 
fuel cells, and light weight materials and for alternative fuels 
(including ethanol from biomass, natural gas, methanol, electricity, 
and biodiesel). About half of OTT's R&D funding supports FreedomCAR, a 
new partnership with the auto industry that builds on the technical 
successes of its predecessor (Partnership for a New Generation of 
Vehicles or PNGV), and improves on management and focus.
    DOE also funds research to improve the engine efficiency of heavy-
duty truck engines while reducing oxides of nitrogen emissions to near-
zero levels. This research includes both fuel injection/combustion 
research and exhaust after-treatment for particulates and nitrogen 
oxide. This research will be complemented by R&D to reduce parasitic 
loses from aerodynamic drag and rolling resistance (including computer 
aerodynamic modeling of new truck body designs); and to make greater 
use of lower-weight, high-strength materials for all classes of trucks.
    <bullet>  EPA Transportation Programs. The budget proposes $22 
million, a decrease of $9 million from fiscal year 2002 enacted, for 
EPA's clean automotive technology initiative and activities that 
promote partnerships with State and local governments and 
transportation authorities to reduce greenhouse gas emissions and air 
pollution. The reduction in EPA funding reflects a shift in emphasis 
from PNGV to the new Freedom CAR program managed by DOE. The funding 
requested will enable EPA to continue its work under Cooperative 
Research and Development Agreements (CRADAs) with the automotive 
industry covering both SUVs and urban delivery vehicles. The successful 
technology development patented by EPA, the hydraulic hybrid vehicle 
technology, will help to lay the foundation for cost-effective 
commercialization of high fuel economy, low emission vehicles for 
delivery to market between 2005 and 2010.
    Funding will also continue EPA's work with companies and State and 
local governments on transportation improvements that reduce vehicle 
emissions and congestion. Additionally, EPA will develop projects to 
reduce diesel idling time at truck stops and along highways. EPA will 
partner with States and manufacturers of idling control devices to help 
install idle control technologies on trucks and at truck stops that 
could save one gallon of diesel fuel for each hour a vehicle idles.
3. Industry
    Programs in the industry sector support Federal research efforts to 
develop innovative technologies and production methods which can help 
businesses achieve productivity gains and prosper in a competitive 
marketplace while leading to major reductions in emissions of 
greenhouse gases. Many technologies can help reduce emissions.
    <bullet>  DOE Industry Technology Program. The budget proposes $138 
million, a decrease of $11 million from fiscal year 2002 enacted, for 
DOE's industrial research and related programs. Key DOE industry 
programs include:
    <bullet>  Industries of the Future. This DOE program works 
cooperatively with the nation's most energy-intensive industries--such 
as aluminum, glass, chemicals, forest products, mining, and steel--on 
developing technologies that increase energy and resource efficiency. 
Promising collaborative efforts include improvements in the process of 
making steel, pulp and paper, and other energy-intensive products that 
could dramatically increase efficiency, lower greenhouse gas emissions, 
and improve competitiveness.
    The Industries of the Future/Crosscutting program supports work 
that has benefits across many industry sectors. The Integrated 
Materials program supports development of a range of other advanced 
materials with special properties, such as intermetallic compounds, 
metal-matrix composites, and inorganic membranes. Assistance to 
innovative industries will continue with expanded NICE3 and Inventions 
and Innovations programs that support the development of energy-
efficiency and pollution/waste control technologies. The Industrial 
Assessment Centers will continue to perform energy and waste-management 
audits at small and medium sized businesses. The Best Practices 
programs provide technical expertise and information products to 
businesses of all sizes on how to use motors, compressed air and steam 
in an integrated system context. The program also provides plant-wide 
energy assessments, documented energy savings case studies, and helps 
to accelerate the adoption by industry of the best available and 
emerging technologies and best practices.
    <bullet>  EPA Industry Programs. The budget proposes $26 million, 
an increase of less than $1 million over fiscal year 2002 enacted, for 
EPA's programs in the industrial sector focusing on reducing carbon 
dioxide emissions and continuing the successful initiatives to reduce 
methane emissions and emissions of the high global-warming potential 
gases. EPA's goals for these efforts are to: 1) greatly enhance the 
rate of energy and resource efficiency improvements in industry between 
now and 2010 (working with DOE); 2) cost-effectively return emissions 
of methane to 1990 levels or below by 2010; 3) cost-effectively limit 
emissions of the more potent greenhouse gases (HFCs, PFCs, SF6); and 4) 
facilitate the use of clean energy technologies and purchases of 
renewable energy.
    <bullet>  Stewardship Programs for the Reduction of Potent 
Greenhouse Gases. EPA will continue its programs to reduce the more 
potent greenhouse gases, including methane, hydrofluorocarbons (HFCs), 
perfluorocarbons (PFCs), and sulfur hexafluoride (SF6). EPA will expand 
partnerships with the magnesium industry and with the electric power 
industry to reduce emissions of SF6 and will work with the 
semiconductor, aluminum, and chemical industries to reduce HFC and PFC 
emissions.
    <bullet>  Methane Programs. EPA will continue its programs to 
reduce emissions of methane, a gas with more than 20 times the heat 
trapping capability as carbon dioxide. EPA will work with the natural 
gas industry, the coal mining industry, the waste management industry, 
and the agricultural industry to promote cost-effective reductions of 
methane emissions resulting in a return of methane emissions to 1990 
levels or below by 2010. This program has significant potential to 
achieve cost-effective and meaningful greenhouse gas emission 
reductions in the American economy.
    <bullet>  ENERGY STAR for Industry. EPA's ENERGY STAR for Industry 
(formerly Climate Wise) program will continue to work with individual 
partnership companies. EPA will enhance and expand the ENERGY STAR 
program for industry by developing energy and related productivity 
benchmarks of industrial plant performance for five U.S. industries.
    <bullet>  Combined Heat and Power. EPA's Combined Heat and Power 
(CHP) program is currently funded at about $1 million per year and will 
continue to promote efficient systems that generate heat and 
electricity simultaneously at greatly improved conversion efficiencies 
over single purpose units. This program, unveiled in the fall of 2001 
with 18 partners, currently has more than 50 partners and is expected 
to grow to 100 partners by the end of 2003. This program is expected to 
facilitate about 20 CHP projects in 2001 across the industrial and 
commercial sector yielding about 450 MW of power and to facilitate an 
additional 35 projects in 2003 yielding about 850 MW. This effort could 
double the capacity of U.S. combined heat and power systems employed by 
commercial, industrial, and institutional buildings, and in communities 
throughout the Nation. EPA will work to identify and eliminate the 
regulatory and institutional barriers that are currently preventing 
more rapid dissemination of this important technology.
4. Electricity
    The generation of electricity in the U.S. is responsible for more 
than a third of U.S. greenhouse gas emissions. The budget funds 
programs in renewable energy technologies. The key DOE programs in this 
sector are:
    <bullet>  DOE Renewable Energy Resources Programs. The budget 
proposes $408 million, an increase of $22 million over fiscal year 2002 
enacted, for DOE's renewable programs. These include varieties of solar 
energy (generating electricity either through concentrated heat or 
photovoltaics), biomass power, wind energy, geothermal power, 
hydropower, and hydrogen production and storage.
    <bullet>  Solar Energy. Over the past 20 years, Federal R&D has 
resulted in a 80 percent cost reduction in solar photovoltaics. DOE 
will maintain R&D of the next generation photovoltaic cells; 
manufacturing R&D; research in buildings-integrated applications; and 
fund efforts to develop new, unconventional technologies.
    <bullet>  Biopower. Biomass represents a tremendous renewable 
resource whose use can help strengthen our energy security, protect the 
environment, and enhance our rural economy. DOE is testing and 
demonstrating biomass co-firing with coal; developing advanced 
technologies for biomass gasification; developing and demonstrating 
small modular systems; and conducting R&D to help develop 
``biorefineries'' of the future.
    <bullet>  Wind. Use of wind energy is growing very fast. 
Technologies under development by DOE and its partners can enable a 
twentyfold or more expansion of usable wind resources, and make wind 
energy economically viable without the need for Federal incentives. 
Wind R&D will now focus on advancing the technology so it can be used 
in low wind speed areas, greatly enhancing the potential use of this 
renewable energy source.
    <bullet>  Geothermal. Geothermal represents a huge renewable 
resource which could provide 25,000-50,000 megawatts of generating 
capacity from currently identified hydrothermal resources if technology 
existed to develop these resources at a reasonable cost. DOE's R&D 
program focuses on exploration and drilling to enable industry to 
locate and characterize new geothermal fields at reduced risk, and to 
access deeper resources with lower drilling costs. DOE also supports 
advanced technology in heat conversion and power systems for 
application to a broad range of geothermal resources. Researchers work 
in partnership with U.S. industry to establish geothermal energy as an 
economically competitive contributor to the U.S. energy supply. DOE's 
R&D program and activities to reduce barriers to development will allow 
geothermal energy to supply electrical power and heat to homes and 
businesses across the country.
    <bullet>  Hydropower. DOE is funding the development of a new 
generation of hydropower turbines that will kill far fewer fish than 
current designs do, and will also maintain higher levels of dissolved 
oxygen in the water, which keeps river ecosystems healthier. Hydropower 
is an important form of zero-carbon electricity generation for the 
Nation.
    <bullet>  Hydrogen. DOE will continue to fund its research on low-
cost hydrogen production and storage, prerequisites to the widespread 
use of hydrogen as a fuel. The program now looks toward the Proton-
Exchange Membrane (PEM) fuel cells being developed for hybrid vehicles 
and for cogeneration in buildings as the first significant markets for 
hydrogen, which will be ready within 5 years. More than half of the 
hydrogen budget supports the new FreedomCAR public-private partnership.
    The program funds R&D on thermal (steam and advanced auto-thermal 
reforming) production on hydrogen from both natural gas and biomass, 
and on methods to use either algae and bacteria or photocatalytic 
techniques to produce hydrogen. The hydrogen storage research program 
is exploring a number of novel adsorption mechanisms, including carbon 
nanotubes and improved metal hydrides. DOE's Technology Validation 
effort is funding demonstrations of prototype fuel cells, a fueling 
station for vehicles, and onsite storage systems for solar production 
of hydrogen. The latter includes a reversible electrolyzer/fuel cell 
that can produce hydrogen from electricity while the sun is shining, 
and electricity from hydrogen when it is dark.
    <bullet>  Deployment. DOE funds the Renewable Energy Production 
Incentive (REPI), which provides payments to public and non-profit 
utilities in lieu of renewable energy tax credits. Public and non-
profit utilities are not eligible for these tax credits because they 
pay no taxes. DOE's International Renewable Energy program provides 
technical assistance to developing countries and U.S. industries to 
help them put together climate change projects. The program also funds 
market and trade development activities and works with other agencies 
to incorporate solar and renewable energy into disaster-relief 
programs.
    <bullet>  Transmission and Distribution. DOE funds development of 
advanced storage systems to supply ultra-high power quality to 
sensitive loads, smooth the power output form distributed generation 
sources including intermittent renewable sources, and enhance the 
reliability of the transmission and distribution systems. DOE also 
addresses power grid reliability, and efficient electricity market 
operation issues by developing real-time measurement and control 
systems for electric grid management. This work also investigates the 
use of load management techniques to mitigate emergency power shortages 
and price spikes. In order to promote and facilitate the integration of 
distributed sources into the grid, DOE funds development of uniform 
interconnection standards for distributed power generation, and funds 
studies to identify barriers to the wider use of distributed 
generation.
    <bullet>  High Temperature Superconductivity. DOE supports 
industry-led projects to capitalize on recent breakthroughs in 
superconducting wire technology, aimed at developing devices such as 
advanced motors, power cables, and transformers. These technologies 
would allow more electricity to reach the consumer without an increase 
in fossil fuel input.
    <bullet>  Distributed Energy Resources. DOE has combined the 
development of Distributed Energy Resources (distributed generation, 
energy storage and load management) into one office to lead the 
seamless integration of these technologies into the distribution 
system, the power grid, competitive markets, and the individual 
customer site. The office is supporting work to increase the 
efficiency, and reduce the cost and emissions of advanced natural gas-
driven microturbines, fuel cells, and reciprocating engines, and 
developing advanced high temperature materials to improve their 
performance. High system efficiencies are achieved from these sources 
by linking them into building combined heat and power systems with 
advanced absorption heat pumps, chillers and desiccant systems that are 
also being developed in the program.
5. Carbon Sequestration
    Carbon dioxide can be sequestered (stored) through changes in both 
forestry and agricultural practices. These programs focus on methods to 
capture and store carbon dioxide, measure and monitor carbon in soils 
and from agricultural practices, and to improve estimates of carbon 
fluxes from forests.
    <bullet>  DOE Carbon Sequestration Science Programs. The budget 
proposes $35 million, the same level as fiscal year 2002 enacted, for 
DOE carbon removal programs in the Office of Science. DOE's programs 
include research into the feasibility of capturing and storing carbon 
dioxide in underground geological structures and in the deep ocean.
    <bullet>  DOE Fossil Energy Carbon Sequestration Programs. The 
budget proposes $54 million, an increase of $22 million over fiscal 
year 2002 enacted, for DOE fossil energy carbon sequestration programs. 
Carbon sequestration is potentially one of the lowest cost approaches 
for significantly reducing or perhaps virtually offsetting greenhouse 
gas emissions. The purpose of the fossil energy program is to develop 
and demonstrate technically, economically, and ecologically sound 
methods to capture and reuse, store or permanently isolate carbon 
dioxide from the environment. The program goal is to make available 
sequestration options starting in 2015 at a cost of no more than $10 
per ton of carbon (or about two tenths of a cent in the cost of 
electricity). When linked with new advanced clean coal power 
technologies now under development, the program will enable the 
deployment of clean coal power plants with essentially zero emissions.
    The principal thrust of the carbon sequestration program is to 
develop the applied science and new technologies for addressing the 
cost-effective management/sequestration of carbon emissions from the 
production and use of fossil fuels. The program primarily selects 
research topics and projects through competitive solicitations 
involving industry, university, and national laboratory performers. 
Close collaborations with other DOE, government, industry, and 
international organizations are maintained providing an integrated 
approach to advancing the science and technology of carbon 
sequestration.
    <bullet>  EPA Carbon Removal Programs. The budget proposes $2 
million, about the same level as fiscal year 2002 enacted, to allow EPA 
to enhance efforts to better quantify the associated environmental co-
benefits that result from carbon sequestration. These benefits include 
improving soil quality, reducing soil erosion, improving water quality, 
providing wildlife habitat, and enhancing other environmental and 
conservation goals. EPA will continue to collaborate with USDA to 
address the misperceptions regarding carbon sequestration and to ensure 
that this important mitigation option is developed in an 
environmentally sound and economically efficient way. EPA and USDA will 
identify and develop specific opportunities to sequester carbon in 
agricultural soils, forests, other vegetation and commercial products.
    <bullet>  USDA Technology Research. The budget proposes 
approximately $6 million to strengthen basic climate change technology 
research and to develop methods for measuring carbon in soils. USDA's 
Agricultural Research Service (ARS) will develop methods to manage 
crops, soils, and grazing systems to achieve the best balance of 
agricultural productivity, resource conservation, and carbon 
sequestration. Work will also focus on methods for managing livestock 
to minimize methane emissions. The Forest Service will support the 
development of measuring tools and monitoring technologies to improve 
estimates of carbon fluxes from forests.
                        international assistance

                                Table 6. International Climate Change Assistance
                            (Discretionary budget authority; in millions of dollars)
----------------------------------------------------------------------------------------------------------------
                                                                FY 2001      FY 2002      FY 2003    Change 2002-
                                                                 Actual      Estimate     Proposed       2003
----------------------------------------------------------------------------------------------------------------
Agency for International Development:.......................
    Development Assistance (DA).............................          112          110          109           -1
    Economic Support Fund (ESF).............................           --           12            6           -6
    Assistance for the Independent States of the Former                31           32           27           -5
     Soviet Union (FSA).....................................
    Assistance for Eastern Europe and the Baltic States                13           10            8           -2
     (AEEB).................................................
    International Disaster Assistance (IDA).................           --            4            5           +1
    Development Credit Authority (DCA)......................            1           --           --           --
    Tropical Forest Conservation\1\.........................           --           --           50          +50
                                                             ---------------------------------------------------
        Subtotal--AID.......................................          157          167          205          +38
 
Department of Treasury......................................
    Debt Restructuring Tropical Forest Conservation\2\......           13            5           --           -5
 
Department of State.........................................
    International Organizations and Programs................            7            7            6           -1
                                                             ---------------------------------------------------
        Total\3\............................................          177          179          211          +32
----------------------------------------------------------------------------------------------------------------
\1\Prior to the fiscal year 2003 Presidents Budget request, funding for the Tropical Forest Conservation Act
  (TFCA) was appropriated to the Treasury Department.
\2\ In fiscal year 2002, an additional $20 million in existing balances may be used.
\3\ Total may not add due to rounding.

    U.S. Agency for International Development (USAID). The budget 
proposes $205 million, an increase of $38 million over fiscal year 2002 
enacted, for USAID's climate change programs and for tropical forest 
conservation. The goal of USAID's climate change programs are to 
promote development that minimizes the associated growth in greenhouse 
gas emissions and reduces vulnerability to climate change. To 
accomplish this goal, USAID works in developing and transition 
countries to implement ``win-win'' solutions that provide climate-
related benefits while also meeting development objectives in the 
energy sector, urban areas, forest conservation, agriculture, and 
disaster assistance. These solutions include activities that: 1) 
promote the transfer of clean energy technologies; 2) measure 
reductions in greenhouse gas emissions; 3) promote carbon capture 
through improved land use; 4) support countries to participate more 
effectively in the U.S. Framework Convention on Climate Change; and 5) 
assess vulnerability to the impacts of climate change and increase 
adaptive capacity. Although USAID works on climate change issues in 
more than 40 countries, the Agency has focused its climate change 
activities in three sub-regions: Central Africa, Central America and 
Central Asia, and eight countries: Brazil, India, Indonesia, Mexico, 
Philippines, Russia, South Africa, and Ukraine.
    The President's fiscal year 2003 budget proposal seeks $50 million 
in funding for tropical forest conservation, of which $40 million may 
be used for the Tropical Forest Conservation Act (TFCA). One purpose of 
this initiative is to enable developing countries to play an increased 
role in addressing the world's climate change problem through storing 
carbon in forests. The main elements of the initiative will be: (1) 
remote sensing and developing capacity to monitor deforestation and 
enable local governments to better control illegal and destructive 
logging in their countries; (2) addressing the problem of illegal and 
destructive logging practices, working with governments, non-
governmental organizations and private industry; and (3) addressing 
deforestation through the use of the Tropical Forest Conservation Act 
as well as other innovative funding mechanisms such as commercial debt 
for nature swaps under the Foreign Assistance Act Title I, Chapter 7 
authority and new partnerships with U.S. industries and non-
governmental organizations (NGO's).
    Department of State. The budget includes $6 million to support the 
work carried out by the Secretariat of the United Nations Framework 
Convention on Climate Change (UNFCCC) and the Intergovernmental Panel 
on Climate Change (IPCC). The Secretariat is responsible for work 
related to the Convention and oversees the consideration of 
communications submitted by countries. The Panel's assessment efforts 
provide information on the scientific and technical underpinnings of 
domestic and international policies to combat the threat of global 
climate change, and its findings influence policy options available 
within and between countries.
                     other climate-related programs

                         Table 7. Other Climate Change-Related Programs--FY 2003 Budget
                                   (Budget authority; in millions of dollars)
----------------------------------------------------------------------------------------------------------------
                                                                FY 2001      FY 2002      FY 2003    Change 2002-
                                                                 Actual      Estimate     Proposed       2003
----------------------------------------------------------------------------------------------------------------
Department of Energy........................................
    Energy Conservation R&D Weatherization & State Energy             191          272          316          +41
     Grants.................................................
    Fossil Energy R&D (cleaner coal/natural gas)............          274          442          398          -44
    Energy Supply:..........................................
        Nuclear Energy R&D (NERI)...........................           34           32           25           -7
                                                             ---------------------------------------------------
        Subtotal--DOE.......................................          499          749          739          -10
 
Department of the Treasury..................................
    International Development Assistance Global Environment            41           38           68          +30
     Facility\1\............................................
                                                             ---------------------------------------------------
        Total\2\............................................          540          787          807          +20
----------------------------------------------------------------------------------------------------------------
\1\The total fiscal year 2003 request for the Global Environment Facility (GEF) is $177.8 million. Approximately
  38 percent of total GEF funding from all sources supports climate-related projects (e.g. expanding clean
  energy production and efficient energy use). The GEF, which also provides funding for other global
  environmental concerns, does not allocate funds by project type.
\2\ Total may not add due to rounding.

    Other Climate-Change Related Programs. The fiscal year 2003 budget 
includes $807 million, an increase of $20 million over fiscal year 2002 
enacted, for several programs in which there is, or can be, significant 
greenhouse gas co-benefits. These include programs that have multiple 
environmental benefits, including reducing fossil fuel use or improving 
energy efficiency. The programs in this category include:
    <bullet>  DOE--Low Income Weatherization and State Energy Grants. 
The budget proposes $316 million, an increase of $41 million over 
fiscal year 2002 enacted, for programs that facilitate energy 
efficiency investments at the State and local level. These programs 
provide energy conservation services, such as insulation, to low-income 
Americans, reducing energy costs for consumers, improving health and 
safety, and reducing carbon emissions. The State Energy Program 
provides grants that enable States to tailor energy efficiency programs 
to local needs and leverage non-Federal resources.
    <bullet>  DOE--Cleaner Coal and Natural Gas Efficiencies. The 
budget includes $398 million, a decrease of $44 million from fiscal 
year 2002 enacted, to support DOE's R&D effort to help industry develop 
advanced technologies to produce and use coal, and gas resources more 
efficiently and cleanly. federally funded development of clean, highly 
efficient gas-fired and coal-fired generating systems aims to reduce 
gas emission rates, while reducing electricity costs compared to 
currently available technologies. Programs also include efforts to 
discover effective, efficient, and economical means of sequestering 
carbon dioxide.
    <bullet>  DOE B Nuclear Energy Research Initiative (NERI). The 
budget proposes $25 million, a decrease of $7 million from fiscal year 
2002 enacted, to continue investigator-initiated research and 
development at universities, national laboratories, and industry to 
advance nuclear power technology. NERI research and development focuses 
on proliferation-resistant reactor and fuel technologies, high 
performance/efficient reactor technology, advanced nuclear fuels, and 
new technologies for the minimization and management of nuclear waste.
    <bullet>  Department of the Treasury B Global Environment Facility 
(GEF). See Addendum A.
       detailed accounting of federal climate change expenditures

Table 8. Programs and Tax Policies Related to Climate Change--By Appropriation Account/Line Item--FY 2003 Budget
                          (Budget authority and tax incentives; in millions of dollars)
----------------------------------------------------------------------------------------------------------------
                                                                FY 2001      FY 2002      FY 2003    Change 2002-
                                                                 Actual      Estimate     Proposed       2003
----------------------------------------------------------------------------------------------------------------
Programs and Tax Policies Directly Related to Climate Change
U.S. Global Change Research Program (USGCRP)................
Department of Health and Human Services (HHS)...............
    National Institutes of Health (NIH).....................
    National Institute of Environmental Health Sciences.....            9           10           11           +1
    National Eye Institute..................................           14           17           18           +1
    National Cancer Institute...............................           31           34           39           +5
    National Institute of Arthritis & Musculoskeletal & Skin            *            *            *            *
     Diseases...............................................
                                                             ---------------------------------------------------
        Subtotal--HHS/NIH\1\................................           54           60           68           +8
 
National Aeronautics and Space Administration...............
    Science, Aeronautics, and Technology....................        1,176        1,090        1,109          +19
 
Department of Energy........................................
    Science (Biological & Environmental Research)...........          116          120          126           +6
 
National Science Foundation.................................
    Research and Related Activities.........................          181          188          188            0
 
Department of Agriculture (USDA)............................
    Agricultural Research Service...........................           29           30           30            0
    Cooperative State Research, Education, & Extension
     Services...............................................
    Research and Education..................................            4            9           17           +8
    Economic Research Service...............................            1            1            1            0
    Forest Service..........................................
    Forest and Rangeland Research...........................           17           17           17            0
                                                             ---------------------------------------------------
        Subtotal--USDA......................................           51           57           65           +8
 
Department of Commerce......................................
    National Oceanic and Atmospheric Administration                    93          100          100            0
     Operations, Research, and Facilities...................
 
Department of the Interior..................................
    U.S. Geological Survey Surveys, Investigations, and                27           28           28            0
     Research...............................................
 
Environmental Protection Agency.............................
    Science and Technology..................................           23           21           22           +1
 
Smithsonian Institution.....................................
    Salaries and Expenses...................................            7            7            7            0
                                                             ---------------------------------------------------
        Subtotal--USGCRP\2\.................................        1,728        1,670        1,714          +44
================================================================================================================
Climate Change Research Initiative (CCRI)
Department of Commerce......................................
    National Oceanic and Atmospheric Administration                     0            0           18          +18
     Operations, Research, and Facilities...................
 
National Science Foundation.................................
    Research and Related Activities.........................            0            0           15          +15
 
National Aeronautics and Space Administration...............
    Science, Aeronautics, and Technology....................            0            0            3           +3
 
Department of Energy........................................
    Science (Biological & Environmental Research)...........            0            0            3           +3
 
Department of Agriculture (USDA)............................
    Forest Service..........................................
    Forest and Rangeland Research...........................            0            0            1           +1
                                                             ---------------------------------------------------
        Subtotal--CCRI......................................            0            0           40          +40
================================================================================================================
Technology Research, Development and Deployment
Department of Energy (DOE)..................................
    Energy Supply...........................................
        Renewable Energy Resources R&D......................          375          393          408          +15
        Nuclear Energy......................................          (5)          (7)          (0)         (-7)
    Energy Conservation R&D.................................          619          649          588          -52
    Fossil Energy R&D (sequestration R&D)...................           18           32           54          +22
    Science (Basic Science).................................           35           35           35            0
    Energy Information Administration.......................            3            3            3            0
                                                             ---------------------------------------------------
        Subtotal--DOE.......................................        1,050        1,103        1,088          -15
 
Environmental Protection Agency (EPA).......................
    Environmental Programs and Management...................           96           89           91           +2
    Science and Technology..................................           27           26           17           -9
                                                             ---------------------------------------------------
        Subtotal--EPA.......................................          123          115          108           -7
 
Department of Agriculture (USDA)............................
    Forest Service..........................................
    Forest and Rangeland Research...........................            3            0            1           +1
    Agricultural Research Service...........................            0            0            5           +5
                                                             ---------------------------------------------------
        Subtotal--USDA......................................            3            0            6           +6
                                                             ===================================================
        Subtotal--Technology Research, Development and              1,176        1,218        1,202          -16
         Deployment\3\......................................
Revenue Effect of Tax Proposals.............................            0            0          555         +555
================================================================================================================
International Assistance
Agency for International Development (AID)..................
    Development Assistance (DA).............................          112          110          109           -1
    Economic Support Fund (ESF).............................           --           12            6           -6
    Assistance for the Independent States of the Former                31           32           27           -5
     Soviet Union (FSA).....................................
    Assistance for Eastern Europe and the Baltic States                13           10            8           -2
     (AEEB).................................................
    International Disaster Assistance (IDA).................           --         4 D5           +1
    Development Credit Authority (DCA)......................            1           --           --           --
    Tropical Forest Conservation\4\.........................           --           --           50          +50
                                                             ---------------------------------------------------
        Subtotal--AID\5\....................................          157          167          205          +38
 
Department of Treasury......................................
    Debt Restructuring......................................
    Tropical Forest Conservation\6\.........................           13            5           --           -5
 
Department of State.........................................
    International Organizations and Programs................            7            7            6           -1
                                                             ---------------------------------------------------
        Subtotal--International Assistance\7\...............          177          179          211          +32
 
Other Climate Change-Related Programs
Department of Energy........................................
    Energy Conservation R&D.................................          191          275          316          +41
    Weatherization & State Energy Grants....................          274          442          398          -44
    Fossil Energy R&D (cleaner coal & natural gas)..........
    Energy Supply...........................................
        Nuclear Energy R&D (Nuclear Energy Research                   499          749          739          -10
         Initiative (NERI)).................................
                                                             ---------------------------------------------------
        Subtotal--DOE.......................................          499          749          739          -10
 
Department of the Treasury..................................
    International Development Assistance, Multilateral                 41           38           68          +30
     Assistance, International Financial Institutions--
     Global Environment Facility\8\.........................
                                                             ---------------------------------------------------
        Subtotal--Other Climate Change Programs\9\..........          540          787          807          +20
                                                             ===================================================
        Total--All Programs and Tax Policies\10\............        3,603        3,822        4,475         +653
----------------------------------------------------------------------------------------------------------------
Table 8 is a detailed listing of Federal climate change expenditures by agency with account level information as
  provided in the President's fiscal year 2003 Budget Appendix. All numbers represent budget authority unless
  otherwise noted. The line items in the Program and Financing schedule in the Budget Appendix use obligations,
  not budget authority, so the numbers may not be comparable.
* less than $500,000
\1\ Subtotal may not add due to rounding.
\2\ Subtotal may not add due to rounding.
\3\ Subtotal may not add due to rounding.
\4\ Prior to the fiscal year 2003 Budget request, funding for the Tropical Forest Conservation Act (TFCA) was
  appropriated to the Treasury Department.
\5\ Subtotal may not add due to rounding.
\6\ In fiscal year 2002, an additional $20 million in existing balances may be used.
\7\ Subtotal may not add due to rounding.
\8\ The total fiscal year 2003 request for the Global Environment Facility (GEF) is $177.8 million.
  Approximately 38 percent of total GEF funding from all sources supports climate-related projects (e.g.
  expanding clean energy production and efficient energy use). The GEF, which also provides funding for other
  global environmental concerns, does not allocate funds by project type.
\9\ Subtotal may not add due to rounding.
\10\ Total may not add due to rounding. Total adjusted to eliminate double counts.

                               Addendum A
       global environment facility (gef)--fy 2003 budget request
    The fiscal year 2003 Budget requests $107.5 million for the GEF for 
the first of four annual payments under the third GEF replenishment 
(GEF-3) and $70.3 million to clear one-third of the U.S. arrears to 
GEF-2. The clean energy portion of the GEF portfolio B its climate 
change focal area B accounts for about 38 percent of its financial 
commitments, which is about $68 million for climate-related activities 
in fiscal year 2003.
Background on the Organization
    The GEF was created in 1991, before any climate convention or 
protocol existed, to specialize in trans-border environment problems, 
of which climate is only one. In addition to climate change, GEF 
funding is focused on international water pollution and overfishing; 
better forestry, wildlife management, and biological diversity 
conservation; and phasing out use of ozone-depleting chemicals (in 
Eastern Europe, to complement Montreal Protocol Fund work in developing 
countries).
    The 1992 Climate Convention (the ``1992 Convention'') provided that 
there should be a ``financial mechanism'' to: (1) help developing 
countries evaluate, quantify, and report publicly on their greenhouse 
gas emissions; and (2) make investments in cleaner development in 
developing countries. In 1994, more than 3 years before conclusion of 
the Kyoto Protocol, the U.S. and other countries chose the GEF as the 
institution to run the financial mechanism of the Climate Convention, 
in part to avoid creating new institutions. The GEF was by far the best 
existing institution for the job.
    By 1995, donors had concluded a first GEF replenishment that 
extensively restructured the GEF and improved its operational 
effectiveness. This restructuring also cemented a governance structure 
in which donors exercise much more power than in the 1992 Convention or 
in any standard ``UN-configured'' institution.
GEF Operations
    The GEF focuses on innovative, cost-effective and generally small 
projects that can be duplicated elsewhere with financing from non-GEF 
sources. Since beginning regular operations in 1994, the GEF has 
designed and initiated over 1,047 investment and capacity building 
projects in over 161 countries that are now being implemented by 
developing countries with the help of three agencies--the World Bank, 
the U.N. Development Program, and the U.N. Environment Program. GEF has 
committed about $3.7 billion to date, leveraging over $15 billion from 
other sources. Cofinanciers include the developing countries 
themselves, bilateral aid agencies, the GEF's three implementing 
agencies and other multilateral financial institutions, and, in some 
cases, private sector investors and non-governmental organizations. 
Leveraging for clean energy projects is significant: $799 million in 
cofinancing was leveraged in association with $86 million in GEF grants 
in fiscal year 2002. GEF operations take two forms: (1) technical 
assistance to help developing countries frame more environmentally 
sound policies in key sectors such as energy production and land 
management; and (2) direct investments to demonstrate innovative 
technology projects, such as rural solar power, that countries then can 
copy on a larger scale.
No Projects That Are Kyoto-Specific
    The GEF predates both the 1997 Kyoto Protocol and the 1992 
Convention, and the Protocol places no new obligations on the GEF as 
the Convention's financial mechanism. With regard to development 
finance, the Protocol is related to the GEF through the Protocol's 
umbrella, the 1992 Convention, since the GEF acts as the financial 
mechanism for the Convention; it simply underscores existing 1992 
Convention agreements on financial assistance for developing countries:
    <bullet>  Supporting developing country reporting requirements 
under the 1992 Convention; and
    <bullet>  Providing the extra cost over normal development costs of 
reducing greenhouse gas emissions in energy or other projects. For 
example, the GEF covers only the incremental cost of a clean wind power 
plant relative to a regular oil-fired plant of identical capacity.
GEF Climate Change-Related Clean Energy Activities
    The GEF supports five categories of climate-change related 
projects, all but one focused on the energy sector. The first category 
is small activities (generally costing about $350,000) to assist 
countries in preparing reports required under the 1992 Convention. 
These reports provide detailed inventories of countries' greenhouse gas 
(GHG) emissions and sources (power plants, etc.), their GHG ``sinks'' 
(forests,etc.), and policies and programs that affect GHG emissions 
(energy pricing policies, etc.).
    The four other categories, briefly illustrated with project 
examples below, all support clean energy development, usually combined 
with capacity-building for good policies and effective institutions. 
These programs make sense on their own terms and are all initiatives 
the U.S. has been pursuing domestically for years. None of them is 
directed by the Protocol.
    The GEF already undertakes systematic annual portfolio performance 
evaluation. Criteria include quality of overall project management, 
financial management, policy impacts, country capacity development, 
civil society engagement, and pollution abatement. For example, for 
energy efficiency projects, evaluators compare investments in efficient 
equipment following the GEF intervention to a baseline scenario of 
efficiency investments. An extensive effort to update and improve 
measurement criteria at both project and program levels for climate 
change activities has been concluded. These measurements are now being 
used to ensure projects and programs achieve their objectives.
Promoting Energy Efficiency and Conservation
    The GEF's Mexico High Efficiency Lighting Project aimed to reduce 
energy waste and power plant pollution by proving the commercial 
viability of energy efficient lighting. $10 million from GEF leveraged 
over $13 million in initial cofinancing. Since the project's 
completion, its long-term impacts have outstripped all expectations. 
Mexican consumers and businesses have installed almost 40 percent more 
efficient lights than the GEF's most optimistic projections. The 
project's success also convinced Mexico to expand dramatically energy 
efficiency programs in other locations and sectors.
Promoting Renewable Energy
    In Sri Lanka, a GEF project has succeeded in supplying electricity 
by employing renewable technologies and demonstrating the advantages of 
such technologies to rural households and the country in general. This 
$5.9 million GEF grant has leveraged $49.4 million in cofinancing, 
including $24.2 million from the World Bank. Approximately 30 megawatts 
of mini-hydropower has been added to the grid through private 
developers, and a total of 8,800 households have been provided with 
electricity through village hydropower and solar photovoltaic power. 
The aim is to provide for the replication of such renewable energy 
schemes by private businesses in Sri Lanka and many other countries.
Lowering the Long-Term Cost of Advanced Clean Energy Technologies
    The Brazil Biomass Power Commercial Demonstration Project uses 
high-efficiency technology to use agricultural byproducts as fuel for 
electric power and agro-industry process heat. A $40.5 million GEF 
investment leverages $82 million, mostly from Brazilian public and 
private sources. The project should help increase economies of scale 
for this promising technology and thus help it become commercially 
viable. By conservative estimates, biomass power could supply clean 
electricity to 100 million rural people, particularly needed in Africa 
and South Asia.
Clean Fossil-Fuel Combustion and Other Short-Term Measures
    The GEF's $10 million Coal Bed Methane Project demonstrated at 
three sites a wide variety of techniques and technologies that Chinese 
coal mines can employ to reduce methane emissions and capture clean-
burning methane as a fuel. It also spawned landmark policy and 
institutional reforms, including the creation of the China United Coal 
Bed Methane Corporation, that support replication of coal-bed methane 
recovery. The Chinese Ministry of Coal has since negotiated agreements 
with BP-Amoco and other companies for coal-bed methane projects. Based 
on the GEF's early work, the Asian Development Bank, Asia-Pacific 
Economic Cooperation, and the China United Coal Bed Methane Corporation 
are all working to expand coal-bed methane development in China.
                               Addendum B
                    highlights of the 2002 farm bill
    Over the next 10 year we will invest $47.2 billion for conservation 
on our farms and forest lands, partnering with farmers and small land 
owners to protect the water and air, provide habitat for wildlife, and 
storing carbon in trees and the soil. The 2002 Farm Bill reauthorizes 
and increases funding for most USDA conservation programs. These 
programs will provide a range of environmental benefits, including 
improved air, soil, and water quality and wildlife habitat. Activities 
implemented through a number of USDA conservation programs can result 
in positive greenhouse gas benefits by reducing emissions and enhancing 
terrestrial carbon sequestration.
    For example, the Environmental Quality Incentives Program (EQIP) 
program is expected to reduce greenhouse gas emissions by providing 
incentives that encourage the voluntary adoption of conservation 
practices on working lands and waste management systems for livestock 
operations such as methane capturing technologies. A new provision of 
EQIP, the Conservation Innovations Grant Program, could be used to 
promote carbon sequestration practices by leveraging private and public 
sector investments. In addition, reserve programs, such as the 
Conservation Reserve Program, are expected to have sizable greenhouse 
gas benefits, by sequestering carbon through vegetation growth and 
improved soil conditions.
    Environmental Quality Incentives Program (EQIP) provides technical 
assistance, cost-sharing, and incentive payments for conservation 
practices on working lands. The 2002 Farm Bill increased funding for 
EQIP and increased the flexibility of the program by allowing 
exceptions to the maximum cost-share amount of 75 percent, removing 
restrictions on eligibility based on operation size, and expanding 
options for contract lengths.
    While both crop and livestock producers are eligible, funding is 
prioritized for livestock producers with 60 percent of program funding 
targeted for conservation practices on livestock operations (up from 50 
percent in the 1996-2001 Farm Bill).
    The Conservation Innovation Grants program is a new provision under 
EQIP that allows the Secretary to make grants to governmental and non-
governmental entities, as well as persons, to leverage investment in 
conservation activities. Projects funded through this program may 
include market-based pollution credit trading, adoption of best 
management practices, or carbon sequestration.
    The 2002 Farm Bill provides for direct spending for regular EQIP 
activities and the Conservation Innovation Grants program of $5.8 
billion in Commodity Credit Corporation (CCC) funding for fiscal years 
2002-2007. Funding is scheduled to increase steadily starting at $400 
million in 2002 and $700 million in 2003, increasing each year to a 
maximum of $1.3 billion annually by fiscal year 2007. This represents a 
substantial increase from the 1996 Farm bill authorization of $200 
million per year. Additional CCC funding is provided for a new EQIP 
provision targeting ground and surface water conservation at $310 
million over fiscal year 2002-2007 and an additional $50 million is 
provided for water conservation activities in the Klamath Basin as soon 
as possible.
    Reserve Programs compensate landowners for taking environmentally 
sensitive land out of production.
    <bullet>  Conservation Reserve Program (CRP) is a voluntary program 
where the government offers annual rental payments and cost-share 
assistance to farmers in exchange for taking land out of production and 
establishing an approved vegetation cover. The 1996 Farm Bill 
authorized a maximum enrollment of 36.4 million acres in the CRP. The 
2002 Farm Bill reauthorizes the program and increases the enrollment 
cap to 39.2 million acres. Additional provisions allow for automatic 
extension of expiring contracts. In addition, 2002 Farm Bill provisions 
permit some management practices to continue on CRP lands (i.e., haying 
and grazing, and placement of wind turbines). Spending for this program 
is estimated to increase by $1.5 billion over 10 years.
    <bullet>  Conservation Reserve Enhancement Program (CREP) is 
authorized under the CRP but is administered through a State-Federal 
partnership and targets State-specific as well as National agricultural 
environmental problems. Because the CREP is authorized under the CRP, 
acres enrolled under CREP count toward the CRP enrollment cap. The 
estimated costs of the CREP are incorporated in the estimate above.
    <bullet>  Wetland Reserve Program (WRP) provides easements or 
restoration cost-share agreements to producers who agree to restore 
wetlands on agricultural lands. The 1996 Farm Bill authorizes a maximum 
area of 1.075 million acres. The 2002 Farm Bill increases the total 
enrollment acreage to 2.275 million acres, with a maximum annual 
enrollment set at 250,000 acres per year. Spending for this program is 
estimated to increase by $1.5 billion over 10 years.
                               appendix a
               u.s. agency for international development

                                       Global Climate Change Funding (GCC)
                                             (Dollars in thousands)
----------------------------------------------------------------------------------------------------------------
                                         STRATEGIC OBJECTIVE    Reporting    FY 2001      FY 2002      FY 2003
            BUREAU/COUNTRY                       NAME            Category  Obligations    Estimate     Proposed
----------------------------------------------------------------------------------------------------------------
Africa (AFR).........................
    Guinea...........................  Increased use of                3         1,000        2,000        2,000
                                        Sustainable Natural
                                        Resources Mgmt
                                        Practices.
Madagascar                             Biologically Diverse            3         2,500        2,500        2,500
                                        Ecosystems Conserved.
Malawi                                 Sustainable Use,                3         2,000        1,000        1,000
                                        Conservation, & Mgmt
                                        of Renewable Natural
                                        Resources.
Mali                                   Increased Value-Added           3         1,000        1,500           --
                                        of Specific Economic
                                        Sectors.
                                       Accelerated Economic            3            --           --        1,500
                                        Growth.
Mozambique                             Increased Rural                 3         2,000        2,000        2,000
                                        Household Incomes.
Senegal                                More effective                  3            --        1,000        1,000
                                        Management of Services
                                        & Resources.
South Africa.........................  Improved Capacity to            1           500           --           --
                                        Implement Economic
                                        Policy.
                                       Housing and Municipal           1         2,500        3,000        3,000
                                        Services.
Uganda                                 Expanded Opportunities          3         3,500        2,500        2,500
                                        for Rural Sector
                                        Growth.
AFR/Regional/SD                        Central Africa Regional         3         3,000        3,000        3,000
                                        Program for
                                        Environment (CARPE).
                                       (CARPE) Climate                 5            --           --          500
                                        Monitoring & Observing.
                                       FEWS Climate Monitoring         5         1,000        6,000        6,000
                                        and Observing.
Western Africa Regional Program......  Food Security, ENV and          3         1,000           --           --
                                        Natural Resource Mgmt
                                        Strengthened.
                                       Climate Monitoring and          5            --           --          500
                                        Observing.
Initiative for Southern Africa.......  Increased Regional              3            --          500          500
                                        Cooperation in Natural
                                        Resource Mgmt.
                                       Climate Monitoring and          5            --           --          500
                                        Observing.
Regional Economic Dev. Service Office  Climate Monitoring and          5            --           --          500
 (REDSO/E).                             Observing.
                                      --------------------------------------------------------------------------
    TOTAL AFR........................                                           20,000       25,000       27,000
 
Asia and the Near East (ANE)
Afghanistan..........................  Climate Monitoring and          5            --           --        1,000
                                        Observing.
Bangladesh...........................  Improved Performance of         1         1,000        3,470        3,470
                                        the Energy Sector.
                                       Improved Performance of         1            --        1,500        1,500
                                        the Energy Sector.
Egypt................................  Mgt. of Env. and                1            --        7,280        1,155
                                        Natural Resources in
                                        Targeted Sectors
                                        Improved.
India................................  Increased Environmental         1         2,843        6,050        6,050
                                        Protection in Energy,
                                        Industry, & Cities.
                                       Increased Environmental         1            --        3,000        3,000
                                        Protection in Energy,
                                        Industry, & Cities.
Indonesia............................  Energy Sector                   1         3,823        3,130        3,130
                                        Governance
                                        Strengthened.
Nepal................................  Increased Private               1         2,000        2,200        2,200
                                        Sector Participation &
                                        Investment in
                                        Hydropower.
Philippines..........................  Protection of                   1         2,997        3,000        3,000
                                        Productive Life
                                        Sustaining Natural
                                        Resources.
USAEP................................  U.S. Asia Environmental         1         4,100        2,000        3,100
                                        Partnership.
SARI/E...............................  South Asia Regional             1         3,900        2,900        2,900
                                        Initiative--Energy
                                        Program.
ANE/Regional.........................  Program Development &           1            --          150          150
                                        Learning.
                                       Climate Monitoring and          5            --           --        1,000
                                        Observing.
    TOTAL ANE........................                                           20,663       34,680       30,655
 
Latin American and the Caribbean
 (LAC)
Bolivia..............................  Sustainable Forest              3         4,527        4,550        5,764
                                        Management and Parks.
Brazil...............................  Env & Socioeconomically         3         2,500        1,465        2,840
                                        Sustainable
                                        Alternatives for Sound
                                        Land Use.
                                       Clean and Efficient             1         2,368        1,000        1,000
                                        Energy Production and
                                        Use.
Dominican Republic...................  Sustainable Forestry...         3         1,492        1,500        1,500
Ecuador..............................  Conserving Ecuador's            3         3,688        3,057          850
                                        Forests.
Guatemala............................  Conserving and                  3           570          600          450
                                        Sustainable Using
                                        Forests.
G-CAP (Central America)..............  Improved Management in          3           510          415          595
                                        the Mesoamerican
                                        Biological Corridor.
                                       Improved Management in          1         1,300          230          230
                                        the Mesoamerican
                                        Biological Corridor.
                                       Improved Management in          5         1,050          180          580
                                        the Mesoamerican
                                        Biological Corridor.
Honduras.............................  Protecting Honduran             3         3,691        2,600        4,800
                                        Forests.
LAC Regional.........................  Improved Conservation           3           964        4,636        2,800
                                        of the Region's
                                        Biological Resources.
Mexico...............................  Protecting Tropical             3         4,164        3,365        4,765
                                        Forest.
                                       Renewable Energy,               5           600          400          500
                                        Energy Efficiency.
                                       Fires..................         1         1,421        1,750        1,500
Nicaragua............................  Improving Park                  3         4,970        4,723        1,129
                                        Management.
Panama...............................  Conserving Forests.....         3           240           --           --
Paraguay.............................  Conserving Paraguay's           3         1,000        1,000        1,000
                                        Sub-Tropical Forests.
Peru.................................  Improved Environmental          3         1,621           --           --
                                        Management.
                                       Strengthen                      3            --        1,227        1,500
                                        Environmental
                                        Management.
                                      --------------------------------------------------------------------------
    TOTAL LAC........................                                           36,676       32,697       31,803
 
Europe and Eurasia (E&E)
Albania..............................  Growth in Number of             1         1,500          750          500
                                        Self-Sustaining
                                        Private Enterprises.
Bulgaria.............................  Special Initiatives....         3         1,200          500          500
                                       Accelerated Development         1            --          400          450
                                        & Growth of the
                                        Private Sector.
Croatia..............................  Growth of a Dynamic and         1            --          500           --
                                        Competitive Private
                                        Sector.
Romania..............................  Economically                    1         1,100        1,900        1,500
                                        Sustainable and
                                        Environmentally Sound
                                        Energy Sector.
CEE Regional.........................  Economically                    1         7,576        5,726        4,901
                                        Sustainable and
                                        Environmentally Sound
                                        Energy Sector.
                                       Increased Environmental         3           932           --          215
                                        Mgmt Capacity to Sppt
                                        Sustainable Ec Growth.
                                       Increased Environmental         1           214           --           87
                                        Mgmt Capacity to Sppt
                                        Sustainable Ec Growth.
                                      --------------------------------------------------------------------------
    Sub-total Europe.................                                           12,522        9,776        8,153
 
Armenia..............................  Economically                    1         4,750          590        5,100
                                        Sustainable and
                                        Environmentally Sound
                                        Energy Sector.
                                       More Sustainable Water          1            --          300          500
                                        Management for
                                        Enhanced Env Quality.
Georgia..............................  Economically                    1         6,860       14,500        6,400
                                        Sustainable and
                                        Environmentally Sound
                                        Energy Sector.
Kazakhstan...........................  Improved Management of          1         2,000        1,000          500
                                        Critical Natural
                                        Resources, including
                                        Energy.
Kyrgyzstan...........................  Improved Management of          1           750          650        1,500
                                        Critical Natural
                                        Resources, including
                                        Energy.
Moldova..............................  Private Enterprise              1         4,575        4,575        5,150
                                        Growth Creates Jobs
                                        and Generates Income.
Russia...............................  Accelerated Development         1           400          883          718
                                        and Growth of Private
                                        Enterprises.
                                       Cross-Cutting Programs.         3         1,600        2,717        2,282
Tajikistan...........................  Improved Management of          1            --           20           30
                                        Critical Natural
                                        Resources, including
                                        Energy.
Turkmenistan.........................  Improved Management of          1            10          200          200
                                        Critical Natural
                                        Resources, including
                                        Energy.
Ukraine..............................  Economically                    1         8,284        3,475        3,275
                                        Sustainable and
                                        Environmentally Sound
                                        Energy Sector.
                                       Increased Env Mgmt              1         1,645          460
                                        Capacity to Support
                                        Sustainable
                                        Development.
NIS Regional.........................  Economically                    1         1,060          935          935
                                        Sustainable and
                                        Environmentally Sound
                                        Energy Sector.
                                       Increased Environmental         1           940          340          340
                                        Mgmt Capacity to Spt
                                        Sustainable Ec Growth.
                                      --------------------------------------------------------------------------
    Sub-total Eurasia................                                           31,229       31,830       27,390
                                      ==========================================================================
        TOTAL E&E....................                                           43,751       41,606       35,543
 
Economic Growth, Agriculture & Trade
 (EGAT).
EGAT/ENV.............................  Office of Environment           3         8,324        7,626        7,626
                                        and Natural Resources.
EGAT/ENV.............................  Office of Environment           1            --           --           --
                                        and Natural Resources.
EGAT/ENV.............................  Office of Environment,          1        16,000       12,000       10,000
                                        Energy and Technology.
EGAT/ENV.............................  Global Climate Change..         1         3,000        2,575        1,000
EGAT/ENV.............................  Global Climate Change..         5            --          900          750
EGAT/ENV.............................  Global Climate Change..         3         3,000          500          325
EGAT/EGAD............................  AFS....................         3         2,022        2,775        2,775
EGAT/EGAD............................  AFS....................         3         3,000        3,000        3,000
                                      --------------------------------------------------------------------------
    TOTAL EGAT.......................                                           35,346       29,376       25,476
 
Democracy, Conflict, and Humanitarian
          Assistance (DCHA)
DCHA/OFDA............................  Worldwide Climate              --         4,000        5,000
                                        Monitoring and
                                        Observing 5.
                                      --------------------------------------------------------------------------
    TOTAL DCHA.......................                                            4,000        5,000
Tropical Forest Conservation (A).....                                         [13,000]      [5,000]       50,000
 
Development Credit Authority (DCA)...
Bulgaria (B).........................  1......................       625            --           --
                                      --------------------------------------------------------------------------
    TOTAL DCA........................                                              625           --           --
        TOTAL USAID..................                                          157,061      167,359      205,477
----------------------------------------------------------------------------------------------------------------
(A) Before the fiscal year 2003 Request, funding for the Tropical Forest Conservation Act was appropriated to
  the Treasury Department. In fiscal year 2002, up to an additional $20 million in existing Treasury Department
  balances may be used. The bracketed amounts are not included in AID's totals.
(B) Development Credit Authority is a competitive program funded by transfer authority. The fiscal year 2001
  level is the subsidy amount obligated. The leveraged amount through fiscal year 2000 is $22.3 million.
FY 2002 Legislative Reporting Categories
1) Activities that promote the transfer and deployment of United States clean energy technologies: Under USAID's
  Climate Change Program, technology transfer is promoted to assist developing countries to achieve sustainable
  growth and development but is not tracked as an individual goal within the program. USAID's energy-related
  climate change programs demonstrate U.S. technologies and/or work to address the policy, legal and regulatory
  barriers that limit clean technology deployment.
2) Activities to assist in the measurement, monitoring, reporting, verification, and reduction of greenhouse gas
  emissions: USAID does not currently separate measuring, monitoring, reporting and verification of GHG
  emissions from the energy and land use sector activities in which these occur. All of the activities that
  assist with technology transfer and carbon capture promote the reduction of greenhouse gas emissions.
3) Activities/programs to promote carbon capture and sequestration measures
4) Activities/programs to help meet such countries' responsibilities under the Framework Convention on Climate
  Change: The spending for this category has not been formally tracked under USAID's Climate Change Program. It
  has been tracked as a performance indicator of program results and information concerning results through
  fiscal year 2000 and can be provided upon request.
5) Activities to develop assessments of the vulnerability to impacts of climate change and response strategies

                                 ______
                                 
  Responses of James Connaughton to Additional Questions from Senator 
                                Jeffords

    Question 1. What measures should we look at to determine whether 
U.S. programs and resources are achieving the goals of Agenda 21?
    Response. One measure of accomplishment is the ratification and 
implementation of new multilateral environmental agreements. The Bush 
Administration has submitted the Stockholm Convention on Persistent 
Organic Pollutants (POPs) and implementing legislation is to the Senate 
for its advice and consent. This convention seeks the ultimate 
worldwide elimination of certain persistent organic pollutants. 
Implementing legislation on two related international agreements have 
also be sent to the Congress: 1) The Protocol to the Convention on 
Long-Range Transboundary Air Pollution on Persistent Organic 
Pollutants, an earlier agreement similar to POPs which covers a 
slightly different set of chemicals already controlled in the U.S., and 
therefore applies only to the U.S., Europe and Canada; and 2) The 
Rotterdam Convention on the Prior Informed Consent (PlC) Procedure for 
Certain Hazardous Chemicals and Pesticides in International Trade, 
which requires exporters to obtain the prior informed consent of 
importing countries and to provide safety information on health effects 
of hazardous substances and pesticides. Another important treaty 
concluded and ratified by the United States since Rio is the Deserts 
Convention (which deals with dry land management and desertification).
    The international community has also developed a number of programs 
and other implementation measures to be undertaken by governments, the 
private sector and NGO's. These include the U.S.-led international 
Coral Reef Initiative (ICRI), which now has a large number of 
participating countries, the U.N. Forum on Forests, which has made 
significant progress in developing a set of criteria and indicators for 
the sustainable management of the world's most endangered forest 
resources, and the Arctic Council, which as a group has identified and 
implemented measures to reduce toxic chemicals which pose a particular 
bioaccumulation risk in animals and humans in polar regions.
    Programs implemented by U.S. industry often in partnership with 
government and NGO's, such as the Energy Star program for energy 
efficient appliances and the adoption of clean production technologies 
and methods have also contributed significantly toward achieving the 
goals set out in Agenda 21.
    Sustainable development criteria related to Agenda 21 are being 
utilized in the reporting of program performance by U.S. Government 
departments and agencies. Goals for particular programs are drawn from 
specific chapters and sections of Agenda 21. An example is the goal of 
USAID's protected area work in Latin America, which addresses Section 
15.5g of Agenda 21 by seeking to preserve biological diversity. Agenda 
21 will continue to provide a broad framework as the U.S. executes 
targeted results-oriented programs that are designed to address local 
situations.

    Question 2. We understand that earlier this year 41 American 
environmental leaders, including the heads of almost all of the major 
U.S. environmental groups, wrote to President Bush urging him to commit 
to attending the Johannesburg Summit and to reasserting American 
leadership on a range of critical global environmental issues. Their 
letter sets out a number of recommended actions. Has the Administration 
considered these recommendations and taken concrete actions on any of 
them?
    Response. The Bush Administration greatly appreciates having heard 
from this group. I have, met with many of the NGO leaders who signed 
the letter to discuss these and other issues. The Administration is 
also working with many NGO's in preparing our deliverables for the 
World Summit. We have taken actions on implementing several 
international environmental agreements (as described above) At the 
recently completed talks for replenishment of the Global Environmental 
Facility (GEF) the U.S. pledged a significant increase in funding to 
help developing countries mitigate environmental problems with 
potential global impact. The United States pledged $500 million over 
the next 4 years for the Global Environment Facility (GEF). The 
commitment is a 16 percent increase over its contribution to the 
previous replenishment. This in turn will help leverage about $2.2 
billion in total new donor contributions. My office and other agencies 
discussed the importance of this funding with several groups who I 
understand are complimentary of our ultimate decision and leadership.

    Question 3. The United Nations Framework Convention on Climate 
Change commits the United States to working to achieve stabilization of 
greenhouse gases at concentrations in the atmosphere at a level that 
would prevent dangerous anthropogenic interference with the climate 
system. Please provide the Administration's definition of what 
phenomena would indicate or constitute ``dangerous anthropogenic 
interference.'' (For example, does that mean more frequent and more 
destructive hurricanes, excessive wildfires, anomalous droughts, etc.?)
    Response. The objective of the Framework Convention, set out in 
Article 2, does not impose commitments on Parties. It does provide that 
the long term stabilization level ``should be achieved within a 
timeframe sufficient to allow ecosystems to adapt naturally to climate 
change, to ensure that food production is not threatened and to enable 
economic development to proceed in a sustainable manner.''
    The Intergovernmental Panel on Climate Change notes in its Third 
Assessment Report that the question of what would constitute dangerous 
anthropogenic interference is one that it cannot answer, because danger 
is a function of the degree to which effects are negative and the 
degree to which those effects are unacceptable. The latter, as noted in 
the Third Assessment Report, is a value judgment. (IPCC Working Group 
II Third Assessment Report, page 917).
    At this point, it not possible to make such a judgment. There 
remain substantial uncertainties in critical areas with respect to 
climate behavior, as well as natural and socio-economic impacts. These 
include, among other things:
    <bullet>  feedbacks in the climate system that determine the 
magnitude and rate of future increases; future usage of fossil fuels 
and future emissions of methane;
    <bullet>  how much carbon is sequestered by oceans and other sinks 
and how much remains in the atmosphere;
    <bullet>  the details of regional climate change resulting from 
global climate change;
    <bullet>  the nature and causes of the natural variability of 
climate, its interactions with forced changes, and the direct and 
indirect effects of aerosols;
    <bullet>  the ability of humans and ecosystems to adapt to changing 
climate conditions.
    The Administration is taking measured and serious steps to respond 
to the challenge of climate change, by taking significant short-term 
measures to reduce the projected growth in global emissions, both 
through enhanced domestic policies and technology transfer to 
developing countries, and by substantially increasing our nation's 
investment in science and technology. By so doing, we can both reduce 
remaining uncertainties and prepare ourselves to address climate change 
in a manner that also ensures our continuing prosperity. We believe 
that these steps are fully consistent with the United States' 
commitments under the Framework Convention.
    The President committed the Nation to an immediate goal of reducing 
America's greenhouse gas emissions relative to the size of our economy 
by 18 percent in the next 10 years. This will set America on a path to 
slow the growth of our greenhouse gas emissions and, if. science 
justifies, to stop and then reverse the growth of emissions. To achieve 
this goal, the Administration is actively engaged and moving forward on 
many fronts, looking at every sector of our economy, with the 
recognition that meaningful progress depends on the development and 
deployment of new technology. With the continued support of Congress, 
we are advancing climate science, developing and promoting energy 
efficiency, conservation, and sequestration technologies and practices, 
pursuing near term greenhouse gas mitigation programs and expanding 
international cooperation.
    The President has called for nearly $700 million in additional 
funding for the Federal Government's commitment to climate change in 
Fiscal Year 1903--a 17 percent increase from last year--to support a 
$4.5 billion program of research on climate science and energy 
technology, mitigation incentives and programs, and international 
technology transfer and outreach. This commitment is unmatched in the 
world. The President's recent Report to Congress on Federal Climate 
Change Expenditures details the numerous programs that this funding 
will support.
    Importantly, the President's request includes $555 million in clean 
energy tax incentives, the first part of a $4.6 billion commitment over 
the next 5 years, reaching $7.1 billion over the next 10 years. These 
incentives will spur investments in and purchases of renewable energy--
including solar, wind, and biomass--as well as advanced hybrid and fuel 
cell vehicles, cogeneration, and landfill gas conversion. We also are 
promoting clean coal technology, as well as nuclear power--which 
produces no greenhouse gas emissions--and are working to safely improve 
fuel economy for our cars and trucks.

    Question 4. Please identify the early warning system that the 
Administration supports domestically and internationally that is 
designed to detect when ``dangerous anthropogenic interference'' (as 
defined in response to the previous question) has begun to occur.
    Response. The United States is involved in a variety of research 
activities designed to enhance our understanding of the climate system. 
Together, these will help reduce the significant remaining 
uncertainties identified last year by the National Academy of Science's 
in Climate Change Science: An Analysis of Some Key Questions, and 
provide better understanding of potential impacts associated with 
greenhouse gas emissions.
    The Administration has requested $1.7 billion in basic scientific 
research, under the U.S Global Change Research Program and the 
President's Climate Change Research Initiative in fiscal year 2203, 
which is roughly half of the world's research budget, and more than 
Japan and the 15 member states of the European Union combined. This 
includes funding for the Climate Change Research Initiative, which is 
designed to focus on information that can be developed within 2 to 5 
years to assist the nation's evaluation of optimal strategies to 
address global change risks.
    In addition, the Administration is leading the way in the 
revitalization of a comprehensive global observation system, which is 
critical to understanding climate change. This includes greater 
emphasis on climate observation and monitoring systems here and abroad. 
As part of his climate change policy, the President committed $25 
million to improve observing and monitoring capability in developing 
countries. These investments will help to better understand current 
conditions as well as improve future projections at the global level.

    Question 5. The Framework Convention commits the United States and 
all the parties to reporting ``detailed information on its policies and 
measures . . . with the aim of returning individually or jointly to 
their 1990 levels these anthropogenic emissions of carbon dioxide and 
other greenhouse gases.'' When will the United States comply with that 
commitment?
    Response. The United States submitted detailed information on our 
policies and measures, in accordance with the procedures under the 
Convention. Most recently, policies and measures are detailed in the 
Climate Action Report submitted as the third National Communication 
from the United States to the U.N. Framework Convention on Climate 
Change, submitted in May 2002.
    You mention as a ``commitment'' the Framework Convention's aim of 
returning to 1990 levels by the end of the last decade. This is not an 
obligation under the Convention, but rather is stated as a general 
objective. The last Administration ultimately found this general aim 
unachievable, as did virtually all of the developed country parties of 
the Convention. Article 4 of the Convention does, however, contain a 
number of specific commitments, with which the United States has fully 
complied. This includes the requirement for us to develop methodologies 
for assessing our greenhouse gas emissions and making that information 
publicly available. It includes the adoption of policies specifically 
aimed to mitigate greenhouse gas emissions and to develop programs to 
adapt to climate change that may occur, whether natural or human 
influenced. It commits us to develop and disseminate new technologies 
to reduce or prevent emissions, looking at all sectors. It commits us 
to promote the effective management and conservation of sinks in the 
agricultural and forestry sectors. It commits developed nations to 
provide assistance to developing nations to help them comply with their 
own obligations under the Convention. Finally, it commits all nations 
to report periodically to the United Nations on their compliance with 
these obligations, which the Bush Administration did recently through 
its Climate Action Report.

    Question 6. Has the United States or any of its representatives, 
officially or unofficially discouraged countries from bringing climate 
change initiatives or issues to the World Summit for consideration?
    Response. No. The United States delegation has engaged 
constructively on a substantial amount of text on a variety of climate 
change issues occurring in the Johannesburg Plan of Action. Most of the 
climate change-related text in the draft Johannesburg Plan of Action 
has been agreed upon. In addition the partnerships the U.S. will 
discuss in the areas of energy, agriculture and forests will also be 
quite consequential to the issue of greenhouse gas mitigation, even as 
they are directed at near-term poverty reduction and human health 
imperatives.
    Several delegations have put forward textual proposals that have 
the effect of asking the United States to endorse the Kyoto Protocol, 
or to take on new climate-related commitments in the WSSD. The United 
States will not be a Party to the Kyoto Protocol, and we have indicated 
to those delegations that we cannot support text that is contrary to 
our national position. The United States does not intend to agree to 
additional climate change commitments at WSSD. The internationally 
agreed forum for negotiating climate change commitments is the U.N. 
Framework Convention on Climate Change. The Eighth Conference of the 
Parties to the Convention (COP-8) will take place October 23-November 
1, 2002, in New Delhi, India.

    Question 7. The Canadian government has put forward a Type I 
partnership entitled ``Health and Environment: Moving from Knowledge 
and Experience to Action.'' The purpose of this initiative is to 
synthesize existing information on environmental health linkages and 
build on the capacity of developing countries to apply this knowledge, 
in a manner consistent with local conditions, to planning and 
policymaking at the national level. Will the U.S. support the Canadian 
initiative and if so, what resources is the U.S. planning to offer to 
ensure its success?
    Response. The United States is currently considering the Canadian 
proposal. In general, the proposal parallels work that is supported by 
the Health and Environment Ministerial of the Americas, which was 
agreed to by the United States and all the governments of the Western 
Hemisphere. Further, the Canadian proposal supports the data sharing 
initiatives underway through the North American Commission for 
Environmental Cooperation.
    One key issue that remains to be resolved is whether this should be 
categorized as a Type I or Type II initiative. As a Type II initiative, 
the United States may support the initiative. Type II partnership does 
not require the consensus of each Nation participating in the WSSD. If 
the Canadian proposal were to become a Type II partnership, current 
U.S. Government funding levels could support this activity. The United 
States will continue to work with the Canadian Government with a goal 
to coming to agreement in support of the proposal.

    Question 8. I have heard that EPA and other agencies are in the 
process of developing a number of Type II partnership proposals that 
the U.S. delegation in Johannesburg will announce. Specifically, I 
understand that EPA is developing initiatives on drinking water/
sanitation, clean air, and children's environmental health. What can 
you tell us about the status of these proposals? Will new financial 
resources be earmarked in future budgets to ensure that these 
initiatives add value to existing development assistance and make a 
meaningful and lasting contribution to the WSSD process?
    Response. We are in the final stages of designing partnerships 
proposals which we will announce in Johannesburg and discussed with 
prospective additional partners. All the partnerships will be based on 
current appropriated funding and are within the budget targets for 
fiscal year 04. The Administration will brief appropriators in Congress 
on the proposals before the World Summit. EPA and other agencies have 
participated in preparing the partnerships, especially in water. 
Specifically regarding children's health, EPA is exploring with USAID 
and the Department of Health and Human Services to develop a proposal 
for children's environmental health indicators. EPA is also consulting 
with the World Health Organization on possible collaboration.

    Question 9. Given that EPA is a lead agency on a number of 
initiatives and proposals, will EPA Administrator Whitman participate 
personally in the WSSD and if so, what will her role be?
    Response. EPA Administrator Whitman is scheduled to participate in 
the WSSD. She and several other high-level delegates from her agency 
will actively engage with their counterparts, work to forge lasting 
partnerships on U.S. development priorities, and identify opportunities 
for collaboration beyond the WSSD.

    Question 10. How is the United States affected by the fact that we 
don't have a true environment minister?
    Response. The Bush Administration has accorded Cabinet Rank status 
to the Administrator of the EPA. The U.S. EPA Administrator is 
recognized as a peer among her international ministerial colleagues.
                               __________
   Statement of Maurice F. Strong, Chairman, Earth Council Foundation
    Distinguished Chairman, Honorable Senators, ladies and gentlemen. 
First let me say what a privilege it is for me to have the opportunity 
of testifying before these two important committees of the U.S. Senate 
as you consider issues which are at the center of my own life interests 
and concerns. It is particularly encouraging to know that you are 
addressing these issues at a time when the position of the United 
States of America in respect of them has never been more important to 
the human future.
    We face an ominous paradox as the evidence of our destructive 
impacts on the earth's environment and life-support systems has become 
more compelling while there has been a serious loss of momentum in the 
political will to deal with them. The United States is at the center of 
this dilemma. Thanks largely to the leadership of the United States the 
world community has made impressive progress in its understanding of 
environment issues and their inextricable relationship with the 
economic development processes to which they give since the first 
global conference on the human environment convened by the United 
Nations in Stockholm in 1972 put the environmental issue on the 
international agenda. The world has looked to the United States for 
leadership in its national policies and legislation and in development 
of the system of international cooperation, conventions and agreements 
through which governments have sought to cooperate in managing issues 
that even the greatest nations cannot manage alone.
    The recent retreat by the United States from its long standing role 
as the leading driver of these issues, as particularly evidenced by its 
withdrawal from the Kyoto Protocol of the Climate Change Convention, 
threatens the progress that has been made in collaborative management 
of our environmental problems in the past 30 years and the prospects 
for the further progress that is so essential to our common future. 
This has cast a cloud over prospects for the World Summit on 
Sustainable Development which will convene next month in Johannesburg, 
South Africa and the unique opportunity it provides to give new impetus 
and momentum to the processes of international cooperation which the 
effective management of these issues requires. Thus your hearings are 
especially timely and important.
    If I now speak candidly of some of the concerns I share with many 
others as to the position of the United States on the issues you are 
now addressing I do so not as a critic but as a long standing and 
committed friend of the United States with a deep affinity and 
admiration for the values and qualities that have made this such a 
great nation. Sharing these concerns as to the unilateral withdrawal by 
the United States of its support for international agreements and 
negotiating processes in which it has been such an active and 
influential participant, is not in any way to question its right to do 
so. Indeed it is understandable that with a new Administration and 
Congress the United States would take a new look at and bring new 
perspectives to bear on these issues, also that in its preoccupation 
with the war on terrorism and other urgent issues it is taking your 
Government some time to develop its position on these matters.
    I have great confidence in the sound instincts and values of the 
American people which in poll after poll affirm the continuing priority 
they accord to the environment issue and that through the processes of 
American democracy this will ultimately be reflected in the actions and 
policies of their Government. At the same time I must confess my deep 
concern as to the signals that have emerged thus far of the nature and 
the direction of the changes that are now in process.
    It is particularly germane that this hearing is focusing on the 
international agreements and negotiating processes to which the United 
States is a party. These are perhaps the best indicators of the current 
State of political will toward international environmental cooperation 
and the prospects of revitalizing and strengthening it.
    Let me review briefly the larger context in which I view the 
importance of your consideration of these issues.
    At the United Nations Conference on the Human Environment held in 
Stockholm in 1972, the first global intergovernmental environmental 
conference, we lost our innocence. We recognized that much of what we 
had been doing in pursuit of our economic goals had, however 
inadvertently, been producing environmental damage and social 
dichotomies, which were undermining our quality of life and prospects 
for the future. The eyes of the more developed countries were opened to 
the very different perspectives and priorities of the majority of the 
world's people living in developing countries where the daily struggle 
for relief from poverty and progress toward a better life through 
development are the overriding priorities. As Prime Minister Indira 
Gandhi in her memorable statement to the Conference stated, in 
developing countries ``poverty is the greatest polluter''.
    The Declaration and Plan of Action agreed following intense 
negotiations at Stockholm recognized in a number of important respects 
the need to create a positive synthesis between the environment and 
economic development.
    It is, after all, through our economic behavior and practices that 
we have our impacts on the environment and these impacts affect our 
social as well as our physical environment. From this insight has 
emerged the concept of sustainable development, the process by which we 
bring the economic, environmental and social dimensions of the 
development process into appositive synthesis. Sustainable development 
should therefore be seen as the means by which our security, prosperity 
and well being can become secure and sustainable rather than as an end 
in itself.
    Britain's Prime Minister Tony Blair said recently, ``you don't have 
to be an expert to realize that sustainable development is going to 
become the greatest challenge we face this century''.
    The Stockholm Conference gave rise to a proliferation of 
initiatives--establishment in virtually all countries of environmental 
agencies, policies and regulations; a broad range of international 
treaties and agreements and an explosion in the number of environmental 
non-governmental organizations and citizen movements as well as a major 
expansion of the environmental programs of international organizations. 
The United Nations General Assembly in December 1972, based on the 
Conference's recommendation, established the United Nations Environment 
Program as the centerpiece of the emerging global network of 
environmental actors to lead the process of following up and 
implementing its results.
    Since 1972 we have learned a great deal more about the nature and 
the causes of our environmental dilemma and have made notable progress 
in developing the technologies, the tools and the capacities to manage 
these problems successfully. Indeed there have been many individual 
success stories which demonstrate that it is possible to bring our 
economic life into a positive balance with our environmental and social 
systems through the transition to a sustainable development pathway.
    By the mid-1980's some of the momentum generated by Stockholm had 
subsided. Progress toward achieving the environmental objectives set 
there was lagging. In response the United Nations General Assembly 
decided to establish a World Commission on Environment and Development 
headed by Norway's former Prime Minister Gro Harlem Brundtland. The 
Commission's report in 1987, Our Common Future, made a compelling case 
for sustainable development as ``the only secure and viable pathway to 
the future of the human community''. With the political impetus 
generated by the Brundtland Commission, the U.N. General Assembly 
decided to convene on the 20th anniversary of the Stockholm Conference 
in 1992 a Conference on Environment and Development and accepted the 
invitation of Brazil to host it.
    Now known as the ``Earth Summit'' the Conference held in Rio de 
Janeiro in 1992 brought together more heads of government that had ever 
before assembled as well as an unprecedented number and range of civil 
society actors and media representatives. The Earth Summit agreed on a 
Declaration of Principles building on the Stockholm Declaration, a 
comprehensive program of action--``Agenda 21''--to give effect to these 
principles and Conventions on Climate Change and Biodiversity which 
provided the framework for continuing negotiations following Rio. It 
also mandated a negotiating process that led to the completion since 
then of the Convention to Combat Desertification.
    As you know the United States has ratified the Climate Change 
Convention and the Desertification Convention and in spite its 
withdrawal from the Kyoto Protocol it is still bound by its adherence 
to the Climate Change Convention to reduce its green house gas 
emissions. Although it has now opted to do this outside of the Kyoto 
Protocol the world community continues to look to the United States for 
the kind of parallel actions that will correspond to and hopefully 
exceed, the targets and timetables provided for by Kyoto.
    While the results of the Earth Summit inevitably fell short in some 
important respects of the ambitious expectations that we had for it, 
the agreements it produced nevertheless provided the basic foundations 
and guidelines for the transition of the world community to a 
sustainable development pathway. And the fact that there were agreed by 
virtually all world governments, most of them at the level of their 
leader, gave them a high degree of political authority. Nevertheless, 
as I cautioned in my closing remarks to the Conference, it did not 
guarantee their implementation. Unfortunately, this proved all too 
prophetic.
    Agenda 21 provides a comprehensive road-map for the transition to a 
sustainable development pathway. Although it does not carry the force 
of law the fact that it was agreed by all the governments of the United 
Nations, most of them at the level of their heads of State or 
Government, gives it a high degree of political authority. While its 
implementation has thus far been and on the whole disappointing, it has 
nevertheless served as a basis for the adoption of their national 
Agenda 21 by a number of governments of which China was one of the 
first. It has also inspired the establishment of local Agendas 21 by 
more than 3000 cities and towns throughout the world and such important 
industries as the tourism and travel and the road transport industries. 
It is particularly important that at Johannesburg governments re-affirm 
their commitment to Agenda 21 and to strengthening and building on it 
in those areas in which it is still inadequate or incomplete.
    The risks to the future of the earth's environment and life-support 
systems identified in Stockholm and elaborated in Rio de Janeiro 
remain, while the forces driving them persist--increased population 
concentrated in those countries least able to support it, and even 
greater increases in the scale and intensity of the economic activities 
which impact on the environment. These have reached a point in which we 
are literally the agents of our own future; what we do or fail to do, 
will in the first decades of this new millennium in all probability, 
determine the future course of human life on earth. It is an awesome 
responsibility the implications of which we have not yet recognized. 
Certainly they have not yet been reflected in our policies and 
priorities.
    As an optimist I continue to believe that the necessary change of 
course is possible. But as a realist I am deeply concerned that despite 
all the knowledge we have gained and progress we have made we have 
still not demonstrated the degree of political will or sense of 
priority that such a transition requires.
    The transition to a sustainable development pathway is, I submit, 
as essential to the future of the human community today as it was 
before the tragic terrorist attacks of September 11th, 2001, on New 
York and Washington. The preoccupation with the ominous consequences of 
these horrendous acts is understandable and, indeed, necessary. But we 
must not allow this to sidetrack or undermine our efforts to achieve 
economic, environmental and social sustainability and security.
    The tragic events of September 11th dramatically brought home to us 
that the phenomena we now refer to as globalization, which has opened 
up so many new and exciting opportunities, has also united us in facing 
a new generation of risks, imbalances and vulnerabilities. Risks to our 
personal security, the security of our homes, offices and communities 
and, more fundamentally, risks to the earth's' life-support systems on 
which the survival and well being of the entire human family depends. 
These risks and vulnerabilities are inextricably linked through the 
complex, systemic processes of globalization by which human activities 
are shaping our common future. They cannot be understood or dealt with 
in isolation. Nor can they be managed alone by any nation, however 
powerful. Indeed, they require a degree of cooperation beyond anything 
we seem yet prepared to accept.
    Stockholm, in its historic Declaration stated that ``to defend and 
improve the human environment for present and future generations has 
become an imperative goal for mankind--a goal to be pursued together 
with, and in harmony with, the established and fundamental goals of 
peace and of worldwide economic and social development''. It thus 
pointed up the systemic linkages between the environment and the issues 
of peace and security, economic and social development through which 
human activities are shaping our common future.
    In a 1973 Foreign Affairs article I stressed that the principal 
insight arising from the Stockholm Conference was the need for a 
ecological, systemic approach to the management of the issues through 
which we are impacting on our own future. This is essential to our 
understanding and management of the broader complex of issues and 
processes that we now generally refer to as globalization.
    The September 11th, 2001 tragedy demonstrated dramatically the 
vulnerabilities of even the most advanced and powerful of societies to 
destructive attacks, however misguided, by relatively small groups of 
alienated people. This underscores the need for international 
cooperation, not only to conduct the war against terrorism, but also to 
deal with the whole complex of issues integral to the globalization 
process. These include eradication of poverty, environmental 
protection, notably the risk of climate change, meeting the development 
and security needs of developing countries, and redressing the gross 
and growing imbalances that divide rich and poor and nourish the 
enmities and frustrations that are the seedbeds of conflict.
    Peace and security are an indispensable pre condition to 
sustainability and overcoming poverty. War and violent conflict produce 
devastating damage to the environment. And the human costs of such wars 
and conflicts go far beyond the immediate deaths and suffering that 
result from them in destroying and undermining the resources on which 
even larger numbers of people depend for their livelihoods. This 
essential link between peace and sustainable development is the reason 
that United Nations Secretary-General Kofi Annan undertook to 
revitalize the University for Peace headquartered in San Jose, Costa 
Rica, and that it has established a strategic partnership with the 
Earth Council to re-enforce its capacities in the field of 
environmental security.
    International cooperation is as indispensable to the effective 
management of the other elements of the globalization process as it is 
to the prevention of terrorism. But cooperation based on coercion will 
not long be effective. Sustainable cooperation requires a true sharing 
in the decisionmaking and in responsibilities on the part of the 
majority of nations which can only be achieved if the major nations of 
the world take the lead. We regret the retreat from multi-lateral 
cooperation on these issues on the part of the United States which has 
performed such immensely valuable service to the world community in 
leading it so effectively through most of the period since World War 
II. No individual Nation in the position to replace the United States 
in this role and while we continue to hope for and expect the return to 
leadership on the part of the United States, we cannot afford at this 
critical time to allow a leadership vacuum to prevail which would put 
at risk the very future of life on earth as we know it. There are some 
encouraging first signs of the emergence of a new configuration of 
leadership in the ratification by the European Union, and Japan of the 
Kyoto Protocol to the Climate Change Convention despite its repudiation 
by the United States. I look to my own country, Canada, to do so too.
    The need for new and revitalized leadership is reinforced by the 
sobering realization that much of what has been agreed in the past has 
not been implemented and there is a disturbing tendency even to back-
track on past agreements. It is important to be reminded that Principle 
21 of the Stockholm Declaration in affirming the right of States to 
develop their own resources in accordance with their own environmental 
policies, have the ``responsibility to ensure that activities within 
their jurisdiction or control do not cause damage to the environment of 
other States or of areas beyond their limits of national 
jurisdiction''. Implementation of this principle would in itself 
require those States which are contributing disproportionately to the 
deterioration of the global environment, as for example in continuing 
to produce more than their share of green house gas emissions, to take 
the measures required to reduce their impacts. This responsibility is 
at the very heart of the challenge to the new generation of leadership 
which must be faced at Johannesburg.
    The power and the influence of the United States in today's world 
is unrivaled and indeed without precedent in history. This gives the 
United States a freedom of action not enjoyed by other nations. Other 
nations are not in a position to hold the United States accountable for 
the performance of its obligations under international law. 
Nevertheless when it does act unilaterally it inevitably pays a cost in 
terms of the resentment and reluctance of others to cooperate on other 
issues of importance to the United States. It is important to note that 
already there is clear evidence that even traditional friends of the 
United States have not followed it in opting out such important 
international agreements as the Kyoto Protocol, the Land Mines 
Convention and the International Criminal Court. This is a departure 
from their longstanding practice of following the U.S. lead even in 
instances where they are not entirely comfortable with it.
    The unprecedented power of the United States carries with it 
unprecedented responsibility, particularly at a time when the human 
future depends on the actions we take or fail to take in this 
generation. When the United States acts selectively to carry out its 
international obligations or to force other nations to carry out theirs 
it serves to undermine the credibility and effectiveness of 
international law which is the indispensable foundation for world 
peace, security and order. As the principal architect of the system of 
international treaties, conventions and agreements which constitute the 
current imperfect but indispensable international legal regime and the 
only Nation capable of insisting on enforcement, what the United States 
does or fails to do is an immense and often decisive influence on the 
behavior of other nations. The world community must be grateful to the 
United States for having for most part exercised its responsibility 
admirably. But in those instances in which it has not done so or has 
insisted only selectively on enforcement by others of their 
international obligations, this is an understandable cause of concern, 
even dismay, on the part of other nations for its weakening effect on 
the entire process of international law and prospects of its equitable 
enforcement.
    In drawing the lessons of our experience in the last 30 years, it 
is clear that we have made a great deal of progress, notably in 
improving but by no means resolving, the more immediate and visible 
environmental conditions in the more industrialized countries. 
Impressive improvements have been effected in the environmental 
performance of industry and in development of technologies which 
promise solutions to most problems as, for example, the prospect of 
emission-free motor vehicles and the transition to a hydrogen-based 
energy economy. At the same time, developing countries have become more 
aware of and concerned with the environmental problems which inhibit 
their own development. These problems exact immense human and economic 
costs, produce deteriorating conditions in their cities, and 
destructive exploitation of the natural resources on which future 
development depends. They undermine the immense challenge of meeting 
their growing needs for water and ensuring its quality, prevention and 
care of destructive and debilitating diseases, and most of all their 
primary need to lift their people out of the quagmire of poverty. Yet 
developing countries which are custodians of most of the world's 
precious biodiversity resources are expected to care for them with only 
sporadic and limited support from industrialized countries. As their 
economies grow they will contribute increasingly to the more remote and 
less visible global problems for which the industrialized countries are 
largely responsible, notably the risk of climate change which affects 
the interests and the future of all nations.
    Despite progress on many fronts, the environmental health of the 
earth which was first diagnosed at Stockholm has deteriorated overall 
since then while the forces driving it persist-increased population, 
primarily concentrated in developing countries, and even greater growth 
of the world economy. The benefits have been largely concentrated in 
industrialized countries, even as newly developing countries, notably 
China, are now accounting for an increasingly large share of the global 
economy.
    As their economies grow, developing countries are finding that the 
environmental impacts of their development are undermining the purposes 
of development and exacting a heavy cost in terms of impacts on their 
natural resources, human health and productivity. At the Stockholm 
Conference developing countries made clear their willingness to 
participate in international environmental cooperation insisted that 
they required ``new and additional resources'' to enable them to do so. 
This has been a constant refrain in all international fora in which 
these issues are discussed and negotiated since then.
    One of the most disappointing trends since the Earth Summit in 1992 
has been the lack of response by OECD countries to the needs of 
developing countries for the additional financial resources which all 
governments at Rio agreed were required to enable them to make their 
transition to a sustainable development pathway and to implement 
international agreements. What has been particularly discouraging is 
that progress toward meeting with these needs has been further set back 
since Rio as a number of donors have reduced their Official Development 
Assistance. Thus the commitment by the United States and others at a 
recent United Nations Conference in Monterrey to increase their 
assistance is a welcome signal. This should not be seen as charity but 
as a necessary investment in our own environmental security. An 
especially urgent priority is to complete agreement on replenishment of 
the Global Environment Facility, the only new source of funding the 
environmental needs of developing countries to result from the Earth 
Summit.
    With the reductions in Official Development Assistance we must be 
more innovative in motivating private capital--now the principal source 
of financial flows to developing countries-to contribute more to 
meeting their environmental and sustainable development needs.
    We have for the first time in history the capacity to meet these 
monumental challenges. Indeed, on a global basis we are the wealthiest 
civilization ever and have the capacity to produce wealth at an 
unprecedented rate. It is clearly a question of how we set our 
priorities for the use of our wealth. Business leaders at Rio made the 
point that our current approach to setting those priorities is not 
sustainable-that we must ``change course''. And I am convinced that if 
we do not make this change of course in the first years of this new 
millennium the prospects for the world's future will be ominous indeed.
    Much of what we must do to meet these formidable challenges has 
already been articulated and agreed at Stockholm, Rio and various other 
international for a and affirmed in a variety of international 
agreements. But implementation depends on motivation and this is at the 
heart of our current dilemma. Most of the changes we must make are in 
our economic life. The system of taxes, subsidies, regulations and 
policies through which governments motivate the behavior of individuals 
and corporation continues to incent unsustainable behavior.
    At the deepest level, all people and societies are motivated by 
their moral, ethical and spiritual values. To build on these a set of 
basic moral and ethical principles which are broadly acceptable is 
certainly not easy. But a process that has taken several years and 
involved millions of people around the world has succeeded in producing 
a ``peoples'' Earth Charter as a major contribution to establishing the 
moral and ethical foundations for sustainable development.
    I am pleased to say the United States has been deeply involved in 
the Earth Charter movement. The distinguished, American Professor 
Steven Rockefeller, chaired the committee which drafted the Charter in 
cooperation with people of different faiths and beliefs throughout the 
world. Some 500 organizations in the United States have joined with 
thousands around the world which have contributed to and/or endorsed 
the Earth Charter. These include the Humane Society of the United 
States, the National Audubon Society, the National Wildlife Federation, 
the Orion Society, the Sierra Club, the World Resource Institute, the 
Yale University School of Forestry and Environmental Studies and the 
United States Conference of Mayors as well as dozens of individual 
cities and towns.
    The environmental movement has its roots in the concerns and 
initiatives of people well before it moved on to the agendas of 
governments. Today the primary impetus to environmental action and 
responsibility comes from civil society, with the support of scientists 
and the increasingly constructive engagement of industry. The alarm 
bells being sounded by some sectors of industry as to the high costs to 
economy of environmental measures, notably the reductions in greenhouse 
gas emission called for under the Kyoto Protocol, are countered by the 
increasing in evidence that such measures open up more new 
opportunities for industry than they negate.
    Surely we must accept that the benefits of environmental security 
and sustainability are well worth and indeed less expensive that the 
ultimate costs of inaction. The United States has long accepted the 
high costs of maintaining its military strength and indeed this has 
produced an important economic spin-offs as for example in driving 
United States leadership in development and application of new 
technologies. I am convinced that in applying the same approach, the 
costs of environmental security would produce even more opportunities 
and benefits to the economy.
    What, then, can be expected from the Johannesburg Summit? First and 
foremost there must be no retreat from the agreements reached at 
Stockholm, Rio de Janeiro and other international fora and the many 
legal instruments to which they gave rise. Indeed it is important that 
there be a strong re-affirmation by governments in Johannesburg of 
their commitments to these past agreements and to implementing and 
building on them in the post-Johannesburg period. In this respect, the 
position of the United States will be pivotal.
    An a priori requirement for this is the successful completion of 
agreements on the issues that were left on resolved in the final 
preparatory meeting in Bali, Indonesia. It is now too late in the 
process to seek consensus on new initiatives but not too late to place 
new initiatives on the table in Johannesburg. These could include:
    <bullet>  A commitment to strong support for United Nations 
Secretary General Kofi Annan in strengthening the capacities and 
coordination of the organizations, programs and agencies of the United 
Nations which deal with the environment, poverty alleviation, and 
sustainable development.
    <bullet>  A call for the establishment of a Consultative Group on 
Clean Energy (CGCE), or similar entity, drawing on the successful 
experience of the Consultative Group on International Agriculture 
Research (CGIAR). Its purpose would be to provide an international 
consultative mechanism, not a new organization, to facilitate private-
partnerships in identifying priorities for research and development of 
sustainable energy technologies, particularly those most relevant to 
the needs and interests of developing countries. It would also help 
mobilize and deploy the financial and technological assistance required 
to ensure their availability to developing countries under conditions 
conducive to their adoption and use.
    <bullet>  A call for governments to undertake a review of the 
system of fiscal, tax and other incentives, regulations and policies 
through which they motivate the behavior of individuals and 
corporations to provide positive incentives for environmentally and 
socially sound and sustainable development.
    <bullet>  Recognition of the Earth Charter as an important 
expression of the commitment by civil society of the world and ethical 
basis for sustainable development.
    The convening of this hearing by your two extremely important and 
influential committees demonstrates your deep sense of the interest in 
and responsibility of the United States for its position on these 
issues. Recognizing that their fundamental nature does not lend itself 
to quick or easy solutions, there are none-the-less some very practical 
measures which you could undertake to make an important contribution to 
resolving them. You are, I understand, about to receive a report by the 
General Accounting Office of the current status of existing 
international agreements and their implementation. These could provide 
the basis for mandating a continuing process of monitoring, adherence 
to and performance under such agreements by the United States and 
others. The results could be incorporated in periodic reports very much 
like the reports that the State Department issues in respect of human 
rights. Such a monitoring and reporting system would provide an 
important stimulus to implementation of both the letter and the spirit 
of these agreements.
    Developing countries face very special constraints both in 
negotiating and implementing international agreements because of their 
lack of sufficient financial resources to support the professional and 
technical expertise that this requires. Yet their active participation 
in and adherence to these agreements is essential to their 
effectiveness. A very modest investment by the United States in 
supporting the strengthening by developing countries of their own 
capacities to negotiate and service, these agreements would represent 
an important contribution to alleviating one of the main obstacles to 
negotiating and implementing them effectively. It would also require 
only a very modest investment to increase support for the international 
secretariats which are responsible for the servicing of such 
agreements. Of course, others would follow the U.S. lead if it were to 
take such initiatives. This could be a small but important step toward 
the revitalization of U.S. leadership.
    If the United States were to take a lead in presenting or 
supporting such initiatives it would have an immense impact on 
prospects for success at Johannesburg.
    This threats face in common from the mounting dangers to the 
environment, resource life-support systems on which all life on Earth 
depends are as great or greater than the risks we face of conflicts 
with each other. The revitalization of the system of international 
cooperation of which the United States was the primary architect is the 
only feasible basis on which we can manage the risks and realize the 
immense potential for progress and fulfillment for the entire human 
family which is within our reach.
    All people and nations have in the past been willing to accord high 
priority to the measures required for their own security. We must give 
the same kind of priority to civilizational security and 
sustainability. This will take a major shift in the current political 
mind-set. If this seems unrealistic in today's political context we 
should recall that history demonstrates that what seems unrealistic 
today becomes inevitable tomorrow. Necessity will compel this shift 
eventually the question is can we really afford the costs and the risks 
of waiting. Most of all we need the renewed leadership of this great 
nation. I commend you for this encouraging manifestation that this 
renewal is well under way.
   Supplemental Testimony Provided by Maurice Strong, Earth Council 
                               Institute
the integration of animal protection and rights into our environmental 
                                concerns
    It is important that the United States provide leadership and 
support to binding international agreements that protect animals and 
their environment. Fundamental principles such as transparency, binding 
dispute resolution, enforcement measures, and the precautionary 
approach should always be supported and advanced by the United States 
when such principles are absent from multi-lateral environmental 
agreements.
    Moreover, where there is evidence of the pernicious and ever-
growing practice of ``vote-buying'', one country providing foreign aid 
to developing countries in exchange for favorable votes, the United 
States is in the best position to put an end to such egregious 
practices. For nothing more quickly undermines a treaty and erodes 
international cooperation than when one country exacts another's 
allegiance in return for financial aid.
    While progress in protecting animals has been made--and the United 
States should be congratulated for its contribution to this--enormous 
challenges still lie ahead. There are several key agreements that the 
United States has yet to ratify and others where it and others need to 
work harder in order to prevent the weakening of significant gains 
already achieved.
International Whaling Commission (IWC)
    There has been subtle erosion of The United States' strong anti-
whaling position over the last several years. It is imperative that the 
United States become a leader once again in the fight to protect whales 
from an inhumane commercial slaughter. The U.S. Delegation to the IWC 
should continue to make all efforts to prevent the lifting of the 
commercial whaling moratorium and institute tough measures against 
those countries that continue to kill whales and undermine the 
agreement. Further, I would strongly urge the United States to advocate 
a global whale sanctuary, as it is the only way to ensure that whales 
will be a part of our future.
Inter-American Tropical Tuna Commission (IATTC)
    In 1997, despite opposition from a large coalition of animal and 
environmental protection organizations, U.S. Legislation was passed 
that weakened the definition of the well-known and trusted dolphin-safe 
label. The new label, if implemented, will allow the chasing, harassing 
and encircling of dolphins with nets as a method of catching tuna and 
still be labeled as dolphin-safe. As a result, dolphins will get caught 
in these nets and drown. If the label is weakened, consumers will feel 
betrayed when they learn that the dolphin-safe label no longer means 
what is stated on the can. The United States should not, I submit, be 
promoting a weakened dolphin-safe label to appease the fishing industry 
of another country. Rather the U.S. Delegation to the IATTC should be 
protecting dolphins and U.S. consumer concerns by arguing for the non-
encirclement of dolphins by all countries participating in the 
Convention and fishing in the Eastern Pacific Ocean.
Convention on International Trade in Endangered Species of Wild Fauna 
        and Flora (CITES)
    The United States has continued to take a leadership role in 
implementation of the CITES treaty, both domestically and abroad. The 
next Conference of the Parties, scheduled for 315 November 2002, will 
consider several proposals submitted by the United States, that, if 
passed, will enhance protection from international commercial trade for 
species ranging from turtles to seahorses to cacti. The United States 
is expected to oppose proposals to allow international commercial trade 
in the meat and blubber of minke and Bryde's whales (proposed by Japan) 
and hawksbill sea turtle shells (proposed by Cuba).
    However, there is deep concern that United States may waiver from 
its long-standing position in opposition to the international elephant 
ivory trade. With United States support, CITES banned the international 
ivory trade in 1.989 after a decade of widespread poaching reduced wild 
African elephant herds from 1.2 million to about 600,000. The ban 
succeeded in stopping the precipitous population decline. However, 
renewed poaching and illegal trade have taken a toll on elephant 
populations. In 1997, CITES allowed Zimbabwe, Botswana and Namibia to 
sell, as a one-time experiment, almost 50 metric tons of ivory to 
Japan. Subsequently, some countries noted an increase in poaching and 
illegal trade. Between 1 January 2000 and 21 May 2002, a minimum of 
11.9 tons of ivory, 2542 tusks, and 14,648 pieces of ivory were seized 
worldwide, representing over two thousand dead elephants. During. the 
same period of time, a minimum of 965 African elephants and 39 Asian 
elephants were poached. Clearly, more control over elephant poaching 
and illegal ivory trade is needed instead of a renewal of the legal 
ivory trade. That is why Kenya and India have submitted a proposal, to 
be considered at the upcoming CITES meeting, to stop all international 
commercial trade in elephants and their parts and products. In 
contrast, five southern African countries (Zimbabwe, South Africa, 
Namibia, Zambia and Botswana) have proposed that CITES allow them to 
sell 87 metric tons of elephant ivory in the international 
marketplace--the tusks of approximately 11 thousand dead elephants. 
Four of these countries have also asked to be allowed to sell an 
additional 13,000 metric tons of ivory in the international marketplace 
each year. Finally, two of these countries have also asked to trade in 
ivory for non-commercial purposes, such as ivory souvenirs.
    It is important that the United States, which has led opposition to 
the international ivory trade since 1989, oppose the proposals of 
Zimbabwe, South Africa, Namibia, Zambia and Botswana to sell ivory in 
the international marketplace and support the proposal of Kenya and 
India to halt elephant trade. A return to a legalized international 
ivory trade would spell doom for elephants.
Specially Protected Areas and Wildlife (SPAW)
    The SPAW protocol protects ecosystems, habitats, and endangered and 
threatened species residing in the Wider Caribbean region. SPAW is an 
international Agreement which paves the way for the greater 
coordination and protection of animals and their habitat. It is of deep 
concern that the United States has not ratified the Agreement. SPAW was 
adopted in 1990 and came into force in 2000, and though the United 
States has signed the Protocol, it has not ratified. The United States 
must ratify the Protocol and participate in its evolution to ensure 
that it offers the highest possible protection for animals and their 
habitats.
Convention on Migratory Species of Wild Animals (CMS)
    The Convention on the Conservation of Migratory Species of Wild 
Animals (also known as CMS or the Bonn Convention) aims to conserve 
terrestrial, marine and avian migratory species throughout their range. 
It is a small number of intergovernmental treaties concerned with the 
conservation of wildlife and wildlife habitats on a global scale. Since 
the Convention's entry into force in November 1983, its membership has 
grown steadily to include 80 Parties from Africa, Central and South 
America, Asia, Europe and Oceania. Parties to CMS work together to 
conserve migratory species and their habitats by providing strict 
protection for the endangered migratory species listed in Appendix I of 
the Convention; by concluding multilateral Agreements for the 
conservation and management of migratory species listed in Appendix II; 
and by undertaking co-operative research activities.
    There is great potential for cooperative international conservation 
in the CMS. However, the problem is that the United States is not a 
member. There is much work that needs to be done to protect migratory 
species and unless the United States ratifies the CMS this country will 
be missing out on--a valuable opportunity to fully utilize this 
Agreement to protect such a wide range of species.
Trade and the Environment
    United States leadership in international trade and economic issues 
as they relate to animal welfare and the environment is essential. 
Unquestionably, these issues are intertwined with international trade 
and economic issues. The World Trade Organization (WTO) is in the midst 
of negotiations concerning the overlap between multilateral 
environmental agreements and international trade rules. These 
negotiations are important and must be given the necessary attention 
and resources to ensure a successful outcome. Members of the WTO are 
also engaged in serious negotiations concerning agricultural reform and 
increased market access for agricultural products. In the context of 
these negotiations the European Union proposed that animal welfare be 
addressed. I understand that the United States has yet to give its full 
support to this proposal. I strongly urge Members of Congress to engage 
the Administration on this issue and work toward the shared goal of 
including animal welfare in the agricultural negotiations.
                               __________
  Statement of John C. Dehrnbach, Professor of Law, Widener University
    Committee Chairmen Jeffords and Biden, Subcommittee Chairman 
Sarbanes, and members of the Committees: good morning. Thank you for 
the opportunity to discuss U.S. adherence to its sustainable 
development commitments, particularly those made at the Earth Summit in 
Rio de Janeiro in 1992.
    I am the editor of a 32-chapter book on U.S. sustainable 
development efforts in the 10 years since the Earth Summit, entitled 
Stumbling Toward Sustainability. The book is being published this week 
by the Environmental Law Institute. The book's 42 contributors come 
from universities and law schools, nongovernmental organizations, the 
private sector, and State government. They are respected experts in 
their fields.
    A list of chapters and authors is attached to this statement. The 
book's synthesis, which pulls together the major themes of the book and 
summarizes each of the chapters, is also attached.
Ten-Year Assessment: U.S. Made Little Progress
    The U.S. has unquestionably begun to take some steps toward 
sustainable development, largely because of our environmental and 
conservation laws. Yet, on balance, the United States is now far from 
being a sustainable society, and in many respects is farther away than 
it was at the time of the Earth Summit in 1992. Unlike many other 
developed countries, the United States has not used a strategic process 
to move the country toward a sustainable future and has not educated 
the American people about the opportunities and challenges of 
sustainable development.
    With 5 percent of the world's population, the United States was at 
the time of the Earth Summit responsible for about 24 percent of the 
world's energy consumption and almost 30 percent of the world's raw 
materials consumption. Since the Earth Summit, materials use has 
increased 10 percent, primary energy consumption has increased 21 
percent, and energy-related carbon dioxide emissions have increased by 
13 percent. Over and over, increases in materials and energy 
efficiency, and in the effectiveness of pollution controls for 
individual sources, were outweighed by increases in consumption. 
Despite a significant increase in municipal waste recycling in the past 
decade, for example, the U.S. generation and disposal of municipal 
solid waste per capita have been growing since 1996. According to 
Harvard biologist Edward O. Wilson, ``four more planet Earths'' would 
be needed for ``every person in the world to reach present U.S. levels 
of consumption with existing technology.'' Yet the U.S. standard of 
living-equated with high levels of consumption and ``the good life''--
is widely envied and emulated throughout the world.
    The United States has not exercised the kind of international 
leadership necessary to encourage or support sustainable development 
around the world. U.S. law and policy continue to encourage 
unsustainable development in a variety of ways, including subsidies and 
fragmented local decisionmaking that encourages sprawl. As a whole, the 
condition of America's natural resources and ecosystems has not 
improved, and appears to have deteriorated slightly, over the past 
decade. Our infrastructure and social support systems continue to cause 
environmental degradation and underserve the poor.
National Sustainable Development Strategy is Needed
    The Federal Government should adopt and implement a national 
strategy for sustainable development, with specified goals and 
priorities, to harness all sectors of society to achieve our economic, 
social, environmental, and security goals. The strategy would lead to a 
stronger, more prosperous America with higher quality of life because 
we would be pursuing these goals in ways that support each other in 
greater and greater degrees over time, rather than undermining each 
other. The strategy could be modeled on that of the European Union or 
States such as Oregon and New Jersey, and specifically address climate 
change, biodiversity, international trade, and other major issues.
    The President could get the process started with an appropriate 
executive order to Federal agencies under the Government Performance 
and Results Act and the National Environmental Policy Act. An 
executive-level entity would be needed to coordinate and assist in the 
implementation of the strategy. A counterpart entity in Congress would 
also be helpful. A set of indicators to measure progress in achieving 
goals would make the strategy more effective and meaningful.
    In addition, the U.S. needs to recognize that its substantial 
consumption levels, coupled with domestic population growth, have 
serious environmental, social, and economic impacts. Americans also 
need to understand that human well-being can be maintained and enhanced 
by more efficient and effective use of materials and energy. A shift in 
taxes from labor and income, on one hand, to materials and energy 
consumption, on the other, would encourage both greater efficiency and 
reduced negative environmental impacts. A variety of other legal and 
policy tools that have successfully been used at the State level to 
reduce environmental effects of consumption and for other purposes are 
also available, including renewable energy portfolio standards and 
smart growth legislation.
    The U.S. needs to take a stronger and more constructive leadership 
role internationally, not only on terrorism but on the broad range of 
issues related to sustainable development. Congress should repeal or 
modify laws, policies, and subsidies that encourage unsustainable 
development. Protection of natural resources and the environment must 
focus more holistically on the resources to be protected, and on 
understanding those resources. Transportation, public health, and other 
social infrastructure and institutions should be designed and operated 
to further economic, environmental, and social goals at the same time.
    In virtually every area of American life, a few people and 
organizations are exercising leadership for sustainability. The United 
States would take a large and decisive step toward sustainability if 
individuals, businesses, educational institutions, local and State 
governments, Federal agencies and others would simply adopt and build 
on the leading sustainability practices of their counterparts. A 
properly conceived and implemented strategy would lead to that result.
    These and other recommendations are set out in detail in the book. 
They provide an issue-by-issue roadmap for sustainability in the United 
States.
Toward a Brighter Future for Our Children and Grandchildren
    We now face growing environmental degradation around the world and 
a growing gap between rich and poor. These are related problems, and 
they hinder or undermine everything else we care about--security, 
economic development, social well-being, and even effective governance. 
Put differently, poverty and environmental degradation are deeply 
destabilizing because they stifle or reduce opportunities and quality 
of life for many, many people.
    In the next 50 years, global population is projected to increase by 
three billion people, and the global economy is likely to grow by four 
or five times. As difficult as things now are, environmental 
degradation and the gap between rich and poor are likely to get much 
worse if continue business as usual. Should that be our legacy for our 
children and grandchildren?
    We know what we need to do to move toward sustainability, and we 
also know why. As Americans, we are called to face these challenges, 
and to seize this opportunity.
                              Attachment 1
                   (Environmental Law Institute 2002)
                    stumbling toward sustainability
                       (John C. Dernbach, Editor)
                              introduction
Synthesis
    I. Who Cares?
1. Sustainable Development: Now More Than Ever, John C. Dernbach, 
    Professor of Law, Widener University
    II. Consumption and Population
2. Production and Consumption of Materials
Amit Kapur, Doctor of Forestry and Environmental Studies Candidate, 
            Center for Industrial Ecology, School of Forestry and 
            Environmental Studies, Yale University
Thomas E. Graedel, Clifton R. Musser Professor of Industrial Ecology 
            and Director, Center for Industrial Ecology, School of 
            Forestry and Environmental Studies, Yale University
3. Production and Consumption of Energy
Lynn Price, Deputy Group Leader, International Energy Studies Group, 
            Environmental Energy Technologies Division, Lawrence 
            Berkeley National Laboratory
Mark D. Levine, Division Director, Environmental Energy Technologies 
            Division, Lawrence Berkeley National Laboratory
4. Population
Anne H. Ehrlich, Policy Coordinator, Center for Conservation Biology, 
            Stanford University
James Salzman, Professor of Law, American University, Washington 
            College of Law
    III. International Trade, Finance, and Development Assistance
5. International Trade
Sanford E. Gaines, Professor of Law, University of Houston Law Center
6. Official Development Assistance
Royal C. Gardner, Professor of Law and Director of Graduate and 
            International Studies, Stetson University College of Law
7. Development Assistance and Poverty
James Gustave Speth, Dean and Professor of Environmental Policy and 
            Sustainable Development, School of Forestry and 
            Environmental Studies, Yale University
8. Private Finance
Frances Seymour, Director, Institutions and Governance Program, World 
            Resources Institute
Lisa Dreier, Graduate Student, University of California, Berkeley
Lily Donge, Social Research Analyst, Calvert Asset Management Company
    IV. Conservation and Management of Natural Resources
9. Fresh Water
Robert W. Adler, Professor of Law, Wallace Stegner Center for Law, 
            Resources and the Environment, University of Utah College 
            of Law
10. Oceans and Estuaries
Robin Kundis Craig, Associate Professor of Law, Indiana University 
            School of Law
11. Air Pollution
David M. Driesen, Professor of Law, Center for Global Law and Practice, 
            Syracuse University College of Law
12. Climate Change
Donald A. Brown, Director, Pennsylvania Consortium for 
            Interdisciplinary Environmental Policy
13. Biodiversity and Endangered Species
A. Dan Tarlock, Distinguished Professor of Law, Chicago-Kent College of 
            Law
14. Forestry
Robert L. Fischman, Professor of Law, Indiana University School of Law-
            Bloomington
15. Agriculture
John H. Davidson, Professor of Law, University of South Dakota School 
            of Law
16. Land Use
Patricia E. Salkin, Professor of Government Law, Associate Dean, and 
            Director, Government Law Center, Albany Law School
    V. Waste and Toxic Chemicals
17. Toxic Chemicals and Pesticides
Lynn R. Goldman, Professor of Environmental Health Sciences, Bloomberg 
            School of Public Health, Johns Hopkins University
18. Lead
K.W. James Rochow, Project Director, Alliance to End Childhood Lead 
            Poisoning
19. Hazardous Waste and Superfund
Joel A. Mintz, Professor of Law, Nova Southeastern University Law 
            Center
20. Brownfields Redevelopment
Joel B. Eisen, Professor of Law and Director, Robert P. Merhige Jr., 
            Center of Environmental Law, University of Richmond Law 
            School
21. Municipal Solid Waste
Marian R. Chertow, Director, Industrial Environmental Management 
            Program, School of Forestry and Environmental Studies, Yale 
            University
22. Radioactive Waste
James D. Werner, Director, Reprocessing Policy Project, and Senior 
            Policy Advisor, Missouri Department of Natural Resources
    VI. Nongovernmental Actors
23. Public access to information, participation, and justice
Frances Irwin, Fellow, World Resources Institute
Carl Bruch, Staff Attorney, Environmental Law Institute
24. Business and Industry
William L. Thomas, Senior Attorney, Pillsbury Winthrop, LLP
25. Sustainability as a Religious and Ethical Concern
Dieter T. Hessel, Director, Program on Ecology, Justice, and Faith
    VII. Education
26. Kindergarten Through Twelfth Grade
Carmela M. Federico, Associate Director, Sustainability Education 
            Center
Jaimie P. Cloud, President, Sustainability Education Center
Jack Byrne, Project Director, Center for a Sustainable Future
Keith Wheeler, Director, Center for a Sustainable Future
27. Higher Education
Wynn Calder, Associate Director, University Leaders for a Sustainable 
            Future and the Center for Respect of Life and Environment
Richard M. Clugston, Executive Director, University Leaders for a 
            Sustainable Future, Center for Respect of Life and 
            Environment, and Earth Charter USA Campaign
    VIII. Institutions and Infrastructure
28. Transportation
F. Kaid Benfield, Senior Attorney and Director of Smart Growth and 
            Transportation Policy, Natural Resources Defense Council
Michael Replogle, Transportation Director, Environmental Defense
29. Medical and Public Health Services
Edward P. Richards III, Professor of Law, Louisiana State University 
            School of Law
    IX. Governance
30. Local Governance
Jonathan D. Weiss, Professorial Lecturer in Law and Executive Director, 
            Center on Sustainability and Regional Growth, George 
            Washington University Law School
31. State Governance
John A. Pendergrass, Staff Attorney, Environmental Law Institute
32. National Governance
John C. Dernbach, Professor of Law, Widener University
                               __________
    Statement of Christopher C. Horner, Senior Fellow, Competitive 
                          Enterprise Institute
    Mr. Chairman, I appreciate the opportunity to testify before this 
joint panel on a topic of great importance. The scope of today's 
hearing is broad, so I focus my testimony upon the propriety of the 
U.S. agreeing to amend the U.N. Framework Convention on Climate Change 
(UNFCC, or Rio Treaty), by ratifying the Kyoto Protocol.
    For whatever specific reasons (economic growth, failure to foresee 
the energy requirements of the ``new economy'', or other), the U.S., 
like many nations, failed to meet its voluntary Rio targets.
    Now some advocates assert, ``Because the U.S. has not met its Rio 
goal, we must commit to even greater mandatory reductions (Kyoto)''. 
Attempting instead to comply with the initial treaty seems the more 
appropriate response, for several reasons.
    Rio went into force in March 1994. President Clinton did not 
request, nor did Congress enact, independent legislation implementing 
Rio, which was not an inherently self-executing treaty. Authority and 
precedent make clear that responsibility for proposing such programs 
lies with the White House. If our ``non-binding'' Rio obligations in 
fact ``bound'' the U.S. to achieve specific reductions--contrary to 
contemporary Senate and Executive assertions of U.S. intent--then the 
Executive interpretation of Rio Article 4 throughout the 1990's was 
actually incorrect, and is responsible. The pending question is 
apparently: does the U.S. respond by attempting to meet such Rio 
promises, or by making further, even deeper, binding promises?
    Skipping specific pursuit of the U.S.' Rio promises, in favor of 
Kyoto's binding commitments even greater than those we've failed to 
attain, seems highly illogical. Compounding this of course is that, 
precisely 5 years ago tomorrow, the Senate unanimously spoke to what it 
recognized was an unacceptable drift away from the U.S. Rio stance 
adamantly opposed to binding commitments. The Senate, seeing what was 
developing, asserted its ``Advice'' pursuant to Article II, Section 2 
of the U.S. Constitution, passing S. Res. 98.
    Subsequent to and despite this Advice, U.S. negotiators clearly 
disregarded both major Byrd-Hagel recommendations: Kyoto did not 
require developing countries to share our commitments, and even the 
Clinton White House economic advisors have recanted their refutations 
of the Kyoto cost estimates.
    Since then, nothing has emerged to indicate that Kyoto does not 
still violate both key Byrd-Hagel conditions, and it is likely that 
very few Senators have amended their position against a treaty causing 
``serious economic harm.'' However, Clinton Administration officials 
did admit that they began working on the plan for binding commitments 
within 1 year after Rio went into effect.
    Kyoto, too, is clearly intended to be a similar step in a ``treaty 
hopping'' campaign: even the models on which it is based predict an 
undetectable climatic impact--at a cost to the U.S. of up to $400 
billion annually--but instead may be 1/30th of what its proponents 
seek. Rio and Kyoto offer differing commitments but purport ``the same 
ultimate objective.'' The U.N. IPCC has said this means reducing GHG 
emissions by as much as 60-80 percent, which wildly exceeds Kyoto's 
specified ambitions.
    As such the U.S. should require, prior to and as part of ratifying 
any further agreements, express acknowledgement not only of the actual 
``ultimate goal'', but that it is committed to its practical 
requirements, in this case up to ``30 Kyotos''.
    Such ``treaty hopping'' agendas illustrate the importance of Senate 
treaty ``reservations'', or the Senate's second bite at the ``Advice'' 
apple. This comes of course during the ``Consent'' function, which 
function the U.S. negotiators unfortunately eviscerated. After agreeing 
to terms incompatible with Byrd-Hagel, the Administration also accepted 
Kyoto's prohibition on reservations, or the Senate's ability to specify 
the specific understandings or conditions of the U.S. commitment. This 
despite the Senate also having forewarned the administration about this 
in advance of Kyoto.
    In summation, President Bush ought to match his assertions of 
having ``rejected'' Kyoto with the requisite submission to the U.N. to 
that effect, as was done regarding the International Criminal Court. In 
the absence of that act, the White House must at minimum assist 
resolution of the ambiguous U.S. role in Kyoto by requesting the Senate 
disapprove of the treaty. In the absence of that, the Senate should 
recognize that there is no reverse equivalent of the ``presentment'' 
clause, regarding treaties. Only protocol, not any constitutional 
prohibition, impedes Senate consideration of a signed treaty. Certainly 
given the imperative rhetoric surrounding Kyoto, if President Bush 
insists on continuing the U.S.' ambiguous role the Senate should take 
matters into its own hands, and decide the fate of this agreement.
    That resolution should by definition be rejection of Kyoto. 
Otherwise, by accepting this double indignity of ignoring advice and 
prohibiting reservations, this body would condone Executive 
circumvention of the Senate's constitutional treaty role.
    As part of my testimony for the record, I include an article I have 
prepared for the Federalist Society, though still in draft form, 
addressing relevant issues surrounding the propriety of ratifying 
Kyoto, and recommending courses for withdrawal or otherwise pursuing 
clarification of the U.S.' ambiguous treaty status. Thank you again for 
the opportunity to appear.
    In Rio in 1992 the U.S. made, and the Senate unanimously ratified, 
various commitments regarding reducing greenhouse gas (GHG) emissions, 
both thematic and with a specific emission target (1990 levels).
    See, e.g., http://unfccc.int/resource/docs/natc/eunc3.pdf. The EU, 
which under Kyoto has negotiated a ``bubble'' such that it could pool 
its increases and ``reductions'', announced in May that it met its Rio 
target. It said it had reduced greenhouse gases by 3.5 percent below 
1990 levels in 2000. This is commonly attributed to the ending of coal 
subsidies in Great Britain in their push to replace coal with gas, 
shutting down East German industry and that Europe did not match the 
U.S.' decade-long economic expansion. Russia, e.g., met its target by 
regressing economically.
    As the party charged with ``making'' treaties the Executive is 
responsible for meeting, or at minimum proposing legislation to affect, 
treaty commitments. President Clinton proposed a Btu tax, though not 
expressly in pursuit of Rio. It failed once and did not emerge again. 
He instituted his Climate Action Plan, which with minor recent 
modifications continues to this day with more than 50 voluntary 
programs, though a quick search of Thomas revealed no implementing 
legislation. Congress did appropriate money in response to proposals by 
the Executive. See, e.g., ``Treaties and Other International 
Agreements: The Role of the U.S. Senate'', S. Rpt. 106-71, p.4.
    ``Implementation The executive branch has the primary 
responsibility for carrying out treaties and ascertaining that other 
parties fulfill their obligations after treaties and other 
international agreements enter into force, but the Senate or the entire 
Congress share in the following phases.'' ``Treaties and Other 
International Agreements'', p. 12. ``A question that may be raised 
under U.S. law is whether or not Congress has a duty to implement a 
treaty which is in force internationally, but which requires additional 
legislation or implementation or an appropriation of funds to give 
effect to obligations assumed internationally by the United States. 
When implementation of a treaty requires domestic legislation or an 
appropriation of funds, only the Congress can provide them.'' Id. at 
pp. 166-67.
    The FRC Report continues, ``The extent of congressional obligation 
to implement a treaty under U.S. law has not been resolved in 
principle. FN 61 According to an often-cited authority, Congress has 
generally responded to a sense of duty to carry out what the treaty-
makers promised, to a reluctance to defy and confront the President 
(especially after he can no longer retreat), to an unwillingness to 
make the U.S. system appear undependable, even ludicrous . . .''' Id. 
at 167, quoting Henkin, Louis. Foreign Affairs and the United States 
Constitution. 2d ed. 1996, pp. 205-206. The referenced FN 61 says in 
pertinent part, ``[F]ailure to implement an internationally perfected 
treaty would constitute a violation of obligations assumed by the 
United States under international law. See Memorandum of April 12, 
1976, by Monroe Leigh, Legal Adviser, Department of State, as quoted in 
U.S. Department of State. Digest of U.S. Practice in International Law 
1976. 1977, p. 221.'' This begs the question: ``to precisely what 
extent was the ``non-binding'' Rio binding?
    Addressing the question, above (FN 5), prior to ratification, 
``[t]he [Senate Foreign Relations] Committee made clear, in other 
words, its view that ``[t]he final framework convention contains no 
legally binding commitments to reduce greenhouse gas emissions . . .'' 
While these statements may not be as legally binding as a formal 
condition to the Senate's ratification of the 1992 Convention [ed: 
reservations were prohibited by Rio's terms], it is doubtful that any 
administration could ignore them.'' ``Global Climate Change: Selected 
Legal Questions about the Kyoto Protocol'', p. 4. CRS Report for 
Congress (March 29, 2001), citing in part 138 CONG. REC. 33521 (Oct. 7, 
1992)(statement of Sen. McConnell).
    To avoid future such uncertainty, in S.Res. 98 (105th Cong., 1st 
Sess., adopted at 143 CONG. REC.S. 8138 (daily ed. July 25, 1997)), the 
Senate ``stated the view that any agreement which would require Senate 
advice and consent should be accompanied by a detailed analysis of its 
economic impact and of any legislation and regulations necessary to 
implement the agreement.'' See CRS Report at p. 6, FN 25.
    ``In mid-1997, as these negotiations were underway, the Senate 
passed S. Res. 98 [ed.: ``Byrd-Hagel,'' S.Res. 98 105th Congress (105-
54 July 21, 1997)], which stated that the Senate would not approve any 
agreement on binding reductions in greenhouse gases that did not 
include commitments by developing countries as well as developed/
industrialized countries, or that would result in harm to the U.S. 
economy. The administration has not transmitted the Kyoto Protocol to 
the Senate because, among other reasons, developing countries have to 
date not been willing to consider making binding commitments regarding 
their greenhouse gas emissions.'' ``Treaties and Other International 
Agreements'', p. 276.
    The operative language is as follows: ``Resolved, That it is the 
sense of the Senate that--
    (1) the United States should not be a signatory to any protocol to, 
or other agreement regarding, the United Nations Framework Convention 
on Climate Change of 1992, at negotiations in Kyoto in December 1997, 
or thereafter, which would--
    (A) mandate new commitments to limit or reduce greenhouse gas 
emissions for the Annex I Parties, unless the protocol or other 
agreement also mandates new specific scheduled commitments to limit or 
reduce greenhouse gas emissions for Developing Country Parties within 
the same compliance period, or
    (B) would result in serious harm to the economy of the United 
States''.
    ``Economists from the Clinton White House now concede that 
complying with Kyoto's mandatory reductions in greenhouse gases would 
be difficult--and more expensive to American consumers than they 
thought when they were in charge.'' USA Today, 12 June 2001.
    In 1996, Deputy Assistant Secretary of State Rafe Pomerance 
asserted that ``the administration has been working on this policy for 
more than a year'', quoted in Nature, 25 July 1996.
    See, Testimony of Dr. Sallie Baliunas to the Senate Committee on 
Environment and Public Works, at http://www.techcentralstation.com/
1051/envirowrapper.jsp?PID=1051-450&CID=1051-031302C.
    U.S. Department of Energy, Energy Information Administration, 
Office of Integrated Analysis and Forecasting. ``Impacts of the Kyoto 
Protocol on U.S. Energy markets and Economic Activity.'' Washington, 
DC. October 1998.
    ``Yet the climate simulations lead to the conclusion that the Kyoto 
reductions will have little effect in the twenty-first century (15), 
and `30 Kyotos' may be needed to reduce warming to an acceptable 
level.'' James Hansen, Makiko Sato, Reto Ruedy, Andrew Lacis, and 
Valdar Oinas, ``Global warming in the twenty-first century: An 
alternative scenario,'' Proceeding of the National Academy of Sciences, 
August 29, 2000.
    Hansen was citing Malakoff, D. (1997) Science 278, 2048.
    ``[S]tabilization of greenhouse gas concentrations in the 
atmosphere at a level that would prevent dangerous anthropogenic 
interference with the climate system.'' See, e.g., Rio Article 2.
    See ``Treaties and Other International Agreements,'' at 274.
    The President manifested that this is how the United States makes 
``its intention clear to not become a party to the treaty,'' as 
required by ``customary'' law and the Vienna Convention Article 18. 
``[S]ignature by the U.S. does impose an obligation on the U.S. under 
international law to refrain from actions that would undermine the 
Protocol's object and purpose. That obligation continues to apply until 
such time as the U.S. ratifies the Protocol or makes clear its intent 
not to do so.'' ``Global Climate Change: Selected Legal Questions about 
the Kyoto Protocol'', CRS Report for Congress (March 29, 2001).
    Though it has not yet done so, precedent indicates the Senate can 
also effect this outcome by passing a Sense of the Senate expressing 
disapproval of a signed, not ratified treaty. See, ``Withdrawal,'' in 
attached article.
                                 ______
                                 
            [Prepared for the Federalist Society July 2002]
               MODERN DEVELOPMENTS IN THE TREATY PROCESS
 recent developments regarding advice and consent, withdrawal, and the 
    growing role of nongovernmental organizations in international 
   agreements with particular examination of the 1997 kyoto protocol
(By Christopher C. Horner, Esq., Senior Fellow, Competitive Enterprise 
              Institute; Tyler Dunman, Research Assistant]
                 introduction to the treaty process\1\
---------------------------------------------------------------------------
    \1\ This paper attempts to clarify common misunderstandings about 
the treaty process, particularly as involve the United States and 
ambiguities arising from inconsistent treatment of various treaty 
commitments. Certain assertions made herein, for example regarding the 
history of Kyoto and specifically certain negotiating developments, are 
not formally documented but based upon the author's observations 
attending these negotiations, both as an attorney representing a 
nongovernmental organization, and writing on the proceedings for 
various publications.
---------------------------------------------------------------------------
    Treaties are agreements between nations, or States. They range from 
bilateral agreements to multilateral pacts including each of the 189 
member states of the United Nations. Throughout history treaties have 
addressed all manner of international discourse, from rules of military 
engagement to mutual defense and termination of hostilities, creating a 
U.N. and a European Union, international border delineation, liability 
in international transportation, establishing trade terms and 
intellectual property protections.\2\
---------------------------------------------------------------------------
    \2\ See various definitions, FN 53, infra. Treaty topics even range 
to taxation of foreign motor vehicles and unification of road signals. 
For the compendium of ``[e]very treaty and every international 
agreement entered into by any Member of the United Nations'', see 
http://untreaty.un.org/. For a selection of treaties signed, though not 
necessarily ratified by the United States, see http://usinfo.state.gov/
usa/infousa/laws/ tradeagr.htm.
---------------------------------------------------------------------------
    As such treaties, or ``conventions'' with amendments thereto called 
``rounds'', protocols, etc. which are typically discrete treaty 
agreements requiring independent ratification, are the manner by which 
states formalize codes for their relationships, both civil and 
criminal.\3\ Depending on their nature treaties are therefore properly 
viewed either as contracts, in that they establish civil procedures, or 
as establishing the equivalent of laws applicable to the parties.\4\
---------------------------------------------------------------------------
    \3\ The latter actually involves sanction by a supranational body 
of private entities and individuals acting on behalf of a state. For 
such matters agreements have created ad hoc bodies, for example the 
International Criminal Tribunal for the former Yugoslavia (see http://
www.un.org/icty/index.html), and the International Criminal Tribunal 
for Rwanda (see http://www.ictr.org/), both under auspices of the U.N. 
Security Council.
    \4\ For a compendium of treaties addressing ``Penal Matters,'' see 
http://untreaty.un.org/ENGLISH/bible/ englishinternetbible/partI/
chapterXVIII/chapterXVIII.asp.
---------------------------------------------------------------------------
    In modern practice states have increasingly turned to treaties to 
address matters not clearly involving international discourse such as 
trade or conduct on the high seas but establishing norms of purely 
domestic behavior. States, which under the Constitution have no treaty 
power,\5\ have nonetheless waded into areas which are the subject of 
modern treaties, negotiating international agreements addressing topics 
such as the theory of ``man-made global warming''.\6\
---------------------------------------------------------------------------
    \5\ U.S. Constitution, Article 1, Section 10: ``No State shall 
enter into any Treaty, Alliance or Confederation . . . No State shall, 
without the Consent of Congress . . . enter into any Agreement or 
Compact with another State, or with a foreign Power . . .''
    \6\ For discussion of a recent example, see ``New England Governors 
Pledge to Implement Kyoto, Violate Constitution'', Jon Reisman, 
Downeast, Coastal Press, July 16, 2002. Reisman is an associate 
professor of economics and public policy at the University of Maine at 
Machias.
---------------------------------------------------------------------------
    The 1997 Kyoto Protocol, also addressing that theory of man-made 
global warming is exemplar of efforts addressing (principally) domestic 
activities.\7\ It does claim a purported global phenomenon as its basis 
and the bulk of the world's recognized states as parties, but 
selectively commits certain developed nations to reduce domestic energy 
use emissions. Given current technology, for the foreseeable future 
Kyoto thereby effectively rations and redistributes particular domestic 
economic activity by instituting this selective cap, in perpetuity and 
not indexed for economic or population growth. As such, Kyoto is 
arguably in truth an economic instrument by which foreign competitors 
hope to mitigate U.S. competitive advantages.\8\
---------------------------------------------------------------------------
    \7\ Kyoto also imputes emissions to covered states from activities 
in international airspace and waters, even national security and 
international peacekeeping missions despite an initial U.S. effort to 
exclude the latter.
    \8\ ``This is about international relations, this is about economy 
about trying to create a level playing field for big businesses 
throughout the world. You have to understand what is at stake and that 
is why it is serious.'' European Union Commissioner for the Environment 
Margot Wallstrom, quoted by The Independent (London), March 19, 2002, 
p. 14.
---------------------------------------------------------------------------
    Cornell University Professor of Law Jeremy Rabkin writes:
    ``In 1929 Chief Justice Hughes of the U.S. Supreme Court--who had 
already served as a justice on the Permanent Court of International 
Justice--reaffirmed the doctrine that the treaty power cannot be 
invoked as a mere pretext for altering domestic policies:
    ``[T]he treaty making power was intended for the purpose of having 
treaties made relating to foreign affairs and not to make laws for the 
people of the United States in their internal concerns through the 
exercise of the asserted treaty-making power.\9\
---------------------------------------------------------------------------
    \9\ Rabkin, ``Why Sovereignty Matters,'' (1998 AEI Press), p. 22, 
citing Proceedings of the American Society of International Law, vol. 
23 (1929), pp. 194-6.
---------------------------------------------------------------------------
    Nonetheless, agreements such as Kyoto now proliferate. In this 
context, it seems fair to paraphrase Clausewitz on war: treaties are 
the extension of politics by organized state lobbying.
    Treaties purporting to involve binding commitments are enforceable 
against parties to the agreement.\10\ Disputes over compliance or 
implementation of the bulk of treaties, best characterized as civil 
agreements, are heard before the International Court of Justice.\11\ 
``The Court has two functions: to render judgments on disputes 
submitted to it by States and to furnish advisory opinions on questions 
referred to it by authorized bodies.''\12\
---------------------------------------------------------------------------
    \10\ Not all treaties purport binding commitments. The parent 
agreement of the principal case study cited herein (Kyoto), is the 
United Nations Framework Convention on Climate Change (UNFCCC). The 
UNFCCC was typical of treaties merely expressing mutual goals, or 
``promises'' of voluntary undertakings (in this case, voluntary 
commitments to attempt to reduce man-made ``greenhouse gases'', or 
GHGs).
    \11\ ``The Court, in existence since 1946, serves as the successor 
to the Permanent Court of International Justice established by the 
League of Nations and derives its mandate from a Statute which forms an 
integral part of the Charter of the United Nations.'' http://
www.un.org/Depts/dhl/resguide/specil.htm#icj. For text, see http://
www.un.org/Overview/Charter/contents.html.
    \12\ Id. The Permanent International Court of Justice was 
established with the chartering of the United Nations (http://
www.un.org/aboutun/charter/). The United States withdrew its August 
1946 accession to this court in October 1985 in response to an 
unfavorable verdict in an action brought against it by Nicaragua. For 
the text of the declaration see United Nations, Treaty Series, vol. l, 
p. 9. That does not resolve the matter but actually leaves the U.S. 
status regarding this treaty as rather ambiguous, also. The 
implications of this move, regarding proper venue for pursuit of 
actions by (or against) the United States is a topic more appropriate 
for a separate paper.
    Recently, sufficient signatory nations submitted ratification 
instruments of the Rome Treaty to bring into effect a permanent 
International Criminal Court (ICC)(http://www.un.org/law/icc/statute/
romefra.htm), and questions persist over the potential application of 
its terms not merely against ratifying nations but others--specifically 
the U.S.--whose, e.g., troops assigned to U.N. peacekeeping duty may be 
deemed by parties to Rome to have transgressed to the detriment of 
ratifying nations. The United States signed the Rome Treaty, but 
rescinded its signature, as detailed, infra.
    For the panoply of international legal bodies see http://
www.un.org/Depts/dhl/resguide/specil.htm.
---------------------------------------------------------------------------
    Originally, the Framers conceived of treaties not as the creation 
of laws, but more contracts between states bearing the force of 
law.\13\ Time and intervening ``criminal'' agreements, of course, have 
further clouded this assessment.
---------------------------------------------------------------------------
    \13\ Still, this apparent view of a discipline not properly in the 
exclusive realm of the executive or legislative realm was a factor in 
bifurcating the roles in treaty accession. See esp. Hamilton in 
Federalist No. 75.
---------------------------------------------------------------------------
    A body of international common or ``customary'' law evolved to 
assist in treaty interpretation. This body of law was purportedly 
codified by the 1969 Vienna Convention on the Law of Treaties.\14\ In 
the pursuit of enforcing such agreements, canons of statutory and 
contractual construction recognized domestically by an individual state 
may offer insight and even guidance as to what a party intended, but do 
not strictly apply.\15\
---------------------------------------------------------------------------
    \14\ ``The United States views most of the Vienna Convention as 
codifying customary international law.''
    ``Global Climate Change: Selected Legal Questions about the Kyoto 
Protocol'', p. 3, FN 9. CRS Report for Congress (March 29, 2001). See 
also, e.g., http://www.law.cornell.edu/topics/international.html. For 
text, see United Nations, Treaty Series, vol. 1155, p. 331. See FN 76 
infra for a discussion regarding who accedes to Vienna's terms. See 
also http://untreaty.un.org/ENGLISH/bible/englishinternetbible/partI/ 
chapterXXIII/treaty1.asp, for signatories and ratifications, 
reservations, and related details.
    \15\ Vienna Articles 31 and 32 open the door for such 
considerations.
---------------------------------------------------------------------------
    Individual agreements obtain their popular name, typically, from 
the site of some meaningful level of agreement, e.g., Ghent, Vienna, 
Rome, Kyoto.\16\ Occasionally a treaty is popularly characterized by 
its formal name, e.g., the General Agreement on Tariffs and Trade (or 
GATT, agreed to in 1947, subsequently the subject of further rounds, 
e.g., its 8-year ``Uruguay Round,'' etc.).
---------------------------------------------------------------------------
    \16\ For a listing of such popular names, see http://
untreaty.un.org/English/sample/SimpleSample.asp.
---------------------------------------------------------------------------
    The agreed-to language emerging from organic treaty negotiations 
can, though does not universally, rise to the level of an enforceable 
treaty. That is, it can but does not always include sufficient detail 
to make it a ``meeting of the minds''. Even treaties open for 
ratification are not necessarily completed to the point of offering 
sufficient detail for coherent, uniform understanding and compliance. 
Indeed, states have ratified treaties including Kyoto despite numerous 
negotiations remaining to define what was actually agreed. The obvious 
problems associated with this phenomenon are discussed briefly, in 
``Ratification'', infra. Regardless of whether the treaty terms declare 
the document open for ratification, such language is occasionally 
merely a starting point, or near thereto.\17\
---------------------------------------------------------------------------
    \17\ For a roadmap of how the U.N. Office of Legal Affairs, Treaty 
Section, views the various stages of the treaty process, see http://
untreaty.un.org/English/TreatyHandbook/hbframeset.htm. Specifically, 
see Kyoto, http://usinfo.state.gov/usa/infousa/laws/treaties/
l07a01.pdf), the basic treaty structure agreed to at the ``Third 
Conference of the Parties'' to the UNFCCC, or COP-3, the details of 
which were to be worked out at subsequent COPs. Since Kyoto, five COPs 
have taken place with another scheduled for October 2002, narrowing the 
treaty's broad assertions each time (with one exception; see discussion 
November 2000 Hague discussions in ``Ratification'', infra). The treaty 
was open for signature between March 1998 and March 1999. Kyoto has 
been open for ratification since March 1999. It goes into effect when 
ratification instruments are submitted by covered, or ``Annex I'' 
countries (of which there are 36), representing 55 percent of 1990 GHG 
emissions.
    By the end of July 2002, 75 countries had submitted ratification 
instruments representing 35.8 percent of the covered 1990 GHG 
emissions, despite the necessity of negotiations to craft a document 
with sufficient detail to be enforceable. 55 of the 75 ratifying states 
are among the 140 states bearing no emission reduction obligations 
(whose tanks include large industrial players China, Mexico, Brazil, 
India, South Korea, Indonesia). This does leave Kyoto 19.2 percent shy 
of the 55 percent threshold to come into force, leaving solely Russia 
(17.4 percent) or the United States (36.1 percent) as determinative of 
Kyoto's fate.
    It is logical that countries with actual obligations proceed more 
deliberately given the undefined terms threaten real impact on them. 
Further, with treaty effectiveness at hand, recent COP negotiations 
indicate that remaining covered non-ratifying signatories are driving 
hard bargains to minimize the initial economic harm--or maximize 
initial economic gain, as the case may be. For example, due to its 
unique circumstances Russia stands to make quite a large sum from 
Kyoto. Upon becoming indispensable to Kyoto's fate, Russia secured 
larger allowances for sale of valuable ``sinks'' (see FN112, infra), 
and recently added debt forgiveness to their list of requirements in 
return for their determinative ratification.
---------------------------------------------------------------------------
    The initial level of agreement is typically manifested by 
publication of the terms agreed, and listing the agreeing parties.\18\ 
This is an at best a symbolic practice. That is, a state not 
``agreeing'' to a document at its inception does not impede it from 
subsequently following the treaty's terms toward accession. Indeed, 
numerous countries not even signing, for example the Kyoto Protocol, 
ratified it nonetheless.\19\ It is theoretically possible, though not 
in the case of the United States, for a treaty to impose legally 
enforceable obligations at the ``agreement'' stage, given that some 
states' constitution permits such commitment by executive signature 
alone.\20\
---------------------------------------------------------------------------
    \18\ See Decision1/CP.3 of the Conference of the State Parties to 
the Convention at its third session (UNEP, UNFCCC). The U.S. State 
Department asserts that it agreed to Kyoto (``Treaty Actions'' page). 
``Environment--Climate Change Amendments to Annex I of the Framework 
Convention on Climate Change of May 9, 1992. Adopted at Kyoto Dec. 11, 
1997. Entered into force Aug. 13, 1998. (http://www.state.gov/www/
global/legal--affairs/treaty--actions.html).
    The Vienna Convention speaks to the process issue in Article 9, 
``Adoption of the text'':
    ``1. The adoption of the text of a treaty takes place by the 
consent of all the States participating in its drawing up except as 
provided in paragraph 2.
    2. The adoption of the text of a treaty at an international 
conference takes place by the vote of two-thirds of the States present 
and voting, unless by the same majority they shall decide to apply a 
different rule.''
    \19\ ``Parties that have not yet signed the Kyoto Protocol may 
accede to it at any time.'' http://unfccc.int/ resource/convkp.html#kp. 
For examples of non-signatory ratifications, see http://
untreaty.un.org/. Curiously, however, in response to a June 2002 
inquiry by the author as to the U.S. status under Kyoto given the 
ambiguity between President Bush's verbal ``rejection'' and the absence 
of a withdrawal, the Secretary General of the UNFCCC asserted the 
following: ``Simple signature does not affect entry into force which 
depends entirely on ratifications/accessions. Signature qualifies the 
signatory State to proceed to ratification, acceptance or approval.'' 
This belies that several nations ratified Kyoto without signing the 
document. Further, the author's follow-up request as to whether this 
indicates the UNFCCC does not recognize the Vienna Convention has gone 
unanswered to date.
    \20\ See Vienna Article 12, ``Consent to be bound by a treaty 
expressed by signature'':
    ``1. The consent of a State to be bound by a treaty is expressed by 
the signature of its representative when:
    (a) the treaty provides that signature shall have that effect;
    (b) it is otherwise established that the negotiating States were 
agreed that signature should have that effect; or
    (c) the intention of the State to give that effect to the signature 
appears from the full powers of its representative or was expressed 
during the negotiation.''
---------------------------------------------------------------------------
    The U.S. Constitution is more typical in that it requires a level 
of legislative concurrence with an executive treaty commitment for the 
treaty to be binding.\21\ The U.S. Constitution requires Senate 
``advice and consent'' to any treaty prior to it coming into effect 
against the U.S., both the language and application of which having 
created tensions between our Constitution and international law. Treaty 
commitments inherently cede some level of sovereignty by transferring 
accountability to a supranational authority without the safeguards of 
our system, developing binding policy without the U.S. Constitution's 
checks and balances.\22\ Therefore these agreements, the permissibility 
of which was authorized by the Constitution, also inherently create 
tensions with its framework.\23\
---------------------------------------------------------------------------
    \21\ U.S. Constitution, Article II, Section 2. Vienna acknowledges 
such requirements, recognizing exchange of instruments, ratification 
(also called acceptance or approval), accession, and deposit of 
instruments. See Vienna Articles 13, 14, 15 and 16 respectively.
    \22\ For example, ``the current version of [the North American Free 
Trade Agreement (NAFTA)] allows private litigants to challenge certain 
U.S. trade measures before a supranational panel, the decisions of 
which cannot be reviewed but must still be enforced by U.S. domestic 
courts.'' Rabkin at 4, citing NAFTA reprinted in 32 I.L.M. 289 (1993) 
Art. 1904. Further, ``the U.S.-Canada Free Trade Agreement and its 
successor, NAFTA, already provide for appeals by private parties from 
U.S. administrative proceedings to supranational tribunals''. Rabkin at 
18. This latter reality clearly conflicts with Article III, Section 2, 
Clause 1: ``The judicial Power shall extend to all Cases, in Law and 
Equity, arising under this Constitution, the Laws of the Untied States, 
and Treaties made, or which shall be made, under their Authority''.
    Modern legal scholarship on the treaty power is thus reasonably 
analogized to the shift of authority away from states to the Federal 
Government that began with the New Deal in the 1930's. See Rabkin for a 
discussion of the comparison of diminution of constitutional limits on 
Federal power, and the treaty power.
    \23\ For example, the Constitution not only recognized ``a law of 
nations'' (in granting Congress the power to remedy offenses against 
same, Article I Section 8). The Framers provided treaties parity with 
the ``supreme law of the land'' (Article VI), or Federal statutes, 
despite that treaty bodies to which the U.S. accedes clearly may assume 
authorities and create rules in conflict with domestic law (not to 
mention the Constitution)(see Jay in Federalist No. 64).
    Vienna Article 27 offers the provocative assertion: ``Internal law 
and observance of treaties: A party may not invoke the provisions of 
its internal law as justification for its failure to perform a treaty. 
This rule is without prejudice to article 46.'' The latter provision 
tempers the friction somewhat, enabling a U.S. constitutional defense: 
`` Invalidity of Treaties, Article 46, Provisions of internal law 
regarding competence to conclude treaties:
    1. A State may not invoke the fact that its consent to be bound by 
a treaty has been expressed in violation of a provision of its internal 
law regarding competence to conclude treaties as invalidating its 
consent unless that violation was manifest and concerned a rule of its 
internal law of fundamental importance.
    2. A violation is manifest if it would be objectively evident to 
any State conducting itself in the matter in accordance with normal 
practice and in good faith.''
    This paper does not explore such tensions and what areas treaties 
may permissibly seek to resolve, instead restricting its discussion to 
the treaty process. For a detailed discussion on this and limitations 
on the treaty power, see Rabkin.
---------------------------------------------------------------------------
    Treaty negotiations formally involve only participant states, 
although in multilateral negotiations a (not quite) quasi-formal role 
exists for interested--and U.N. approved--third parties. These 
nongovernmental organizations, or NGO's, if approved obtain credentials 
and participate in the summits in an informal capacity.\24\ They are 
provided access to negotiators, attendance in plenary and subsidiary 
body sessions, and briefings denied the public but have no voting or 
formal negotiating role. NGO's are, in short, lobbying organizations. 
The UN's system is akin to a more controlled (i.e., subjectively 
selective) version of the pre-1995 U.S. Congressional practice of 
issuing special passes allowing special access.\25\
---------------------------------------------------------------------------
    \24\ Controversy has arisen in recent years over the reluctance of 
particular U.N. bodies to accommodate or even recognize groups less 
inclined to support particular treaty efforts. Such groups are 
typically fairly characterized as ``conservative'' advocacy groups. See 
FN 34, infra.
    \25\ See http://www.ngo.org/. The UN-sponsored NGO interface is the 
NGO Network, which happens to be sponsored by the U.N. It asserts the 
goal of NGO's is to ``more effectively partner with the United Nations 
and each other to create a more peaceful, just, equitable and 
sustainable world for this and future generations.''
---------------------------------------------------------------------------
    There are four necessary stages prior to a treaty taking binding 
effect against the United States. This is typical of most systems, with 
minor exceptions. These stages are, in this order: agreement; 
signature--a discrete window for which is provided by each treaty; 
ratification--also provided for in each treaty;\26\ and submission of 
ratification instruments.
---------------------------------------------------------------------------
    \26\ International law and individual treaties recognize 
differential requirements, from unilateral power of binding commitment 
in an executive to some version of legislative approval. See Vienna, 
e.g., Article 14.
---------------------------------------------------------------------------
    Also relevant are post-ratification requirements--is a treaty self-
implementing, or does it require implementing legislation?--and 
withdrawal--at what point is a commitment real enough that withdrawal 
is required, and how is it effected at various relevant stages?
    This paper examines this process and certain implications arising 
from the stages of treaty agreement. It particularly explores unsettled 
questions regarding modern application of ``advice and consent'', 
including the scenario where an executive eschews ``advice'', what 
requirements exist of the U.S. post-signature but prior to Senate 
``consent'', must a president transmit a treaty to the Senate before 
the Senate may attempt ``consent'', and which branch of government may 
withdraw us at what stage, and how? It also examines the burgeoning 
role of NGO's in the treaty process.
    Thus discussion occurs principally in the context of the Kyoto 
Protocol. That unique agreement is signed, but not ratified.\27\ 
President Bush assures Americans that by his being unhappy with the 
U.S. signature on the document the U.S. has ``rejected'' it, yet the 
signature remains unmolested. Compare this with the Rome Treaty, the 
Administration's rhetorical ``rejection'' of which was identical yet 
followed by formal expression of this position to the U.N. consistent 
with Vienna Article 18.\28\ Also, the Bush State Department has in fact 
actually rejected a request to submit an instrument to the same effect. 
Kyoto's highly charged politics, and the treaty-status limbo those 
political pressures have yielded begs so many questions that it 
provides an excellent vehicle to study the relative commitments 
accompanying each step.
---------------------------------------------------------------------------
    \27\ One need not look beyond the ``environmental'' context to find 
numerous such agreements, e.g., various individual Protocols to the 
1979 Convention on Long-Range Transboundary Air Pollution, the Basel 
Convention on the Control of Transboundary Movements of Hazardous 
Wastes and their Disposal, the Convention on Environmental Impact 
Assessment in a Transboundary Context, and so on. The relevant inquiry, 
as discussed herein in the Kyoto and Rome contexts, is what risk does 
an ambiguous status regarding a particular instrument pose.
    \28\ See letter to U.N. Secretary General Kofi Annan, http://
www.state.gov/r/pa/prs/ps/2002/9968.htm.
---------------------------------------------------------------------------
        role of nongovernmental ngo's in the treaty process\29\
---------------------------------------------------------------------------
    \29\ For a comprehensive assessment of NGO participation, see 
Sheehan, ``Global Greens'' (Capital Research Center, 1998).
---------------------------------------------------------------------------
    Treaty negotiations occur at formal summits, as well as intervening 
subsidiary body and preparatory sessions, all of which when conducted 
under the auspices of the United Nations do not limit participation to 
potential signatory states. Nongovernmental organizations, representing 
any conceivable interest group so long as approved by the United 
Nations, are permitted a quasi-formal role.\30\ According to the U.N. 
Department of Public Information (DPI), NGO Section:
---------------------------------------------------------------------------
    \30\ Generally, and the DPI disclaimer, supra, notwithstanding, 
members of accredited NGO's are accorded preferred access and 
privileges not available to the public, to facilitate interaction with 
U.N. operations, which interaction can vary based on the subject matter 
discipline involved. See http://www.ngo.org/ index2.htm, link to ``NGO 
Access to UNHQ''. Indeed, UNDPI/NGO asserts: ``The Department of Public 
Information and NGO's cooperate regularly. NGO's associated with DPI 
disseminate information about the U.N. to their membership, thereby 
building knowledge of and support for the Organization at the 
grassroots level. This dissemination includes: Publicizing U.N. 
activities around the world on such issues as peace and security, 
economic and social development, human rights, humanitarian affairs and 
international law; Promoting U.N. observances and international years 
established by the General Assembly to focus world attention on 
important issues facing humanity.'' See http://www.ngo.org/index2.htm, 
link to ``applications for associative status with DPI''. The general 
public is not permitted access to functions. A state's delegation, 
however, may include parties who do not have negotiating authority and 
who need not even hold some governmental post, though they are afforded 
full access, and limited participation. Senator Al Gore was a member of 
the United States delegation to Rio, from which perch he vocally 
criticized the delegation. Also, NGO participation is feasible, for 
example, in bilateral negotiations, if the parties agree.
---------------------------------------------------------------------------
    ``A non-governmental organization is any non-profit, voluntary 
citizens' group which is organized on a local, national or 
international level. Task-oriented and driven by people with a common 
interest, NGO's perform a variety of services and humanitarian 
functions, bring citizens' concerns to Governments, monitor policies 
and encourage political participation at the community level. They 
provide analysis and expertise, serve as early warning mechanisms and 
help monitor and implement international agreements. Some are organized 
around specific issues, such as human rights, the environment or 
health. Their relationship with offices and agencies of the United 
Nations System differs depending on their goals, their venue and their 
mandate.
    Over 1,500 NGO's with strong information programmes on issues of 
concern to the United Nations are associated with the Department of 
Public Information (DPI), giving the United Nations valuable links to 
people around the world. DPI helps those NGO's gain access to and 
disseminate information about the range of issues in which the United 
Nations is involved, to enable the public to understand better the aims 
and objectives of the world Organization.''\31\
---------------------------------------------------------------------------
    \31\ See http://www.ngo.org/index2.htm, link to ``applications for 
associative status with DPI''. This dynamic began, according to UNDPI, 
``The importance of working with and through NGO's as an integral part 
of United Nations information activities was recognized when the 
Department of Public Information was first established in 1946. The 
General Assembly, in its resolution 13 (I), instructed DPI and its 
branch offices to ``' . . . actively assist and encourage national 
information services, educational institutions and other governmental 
and non-governmental organizations of all kinds interested in spreading 
information about the United Nations. For this and other purposes, it 
should operate a fully equipped reference service, brief or supply 
lecturers, and make available its publications, documentary films, film 
strips, posters and other exhibits for use by these agencies and 
organizations.' In 1968, the Economic and Social Council, by Resolution 
1297 (XLIV) of 27 May, called on DPI to associate NGO's, bearing in 
mind the letter and spirit of its Resolution 1296 (XLIV) of 23 May 
1968, which stated that an NGO``. . . shall undertake to support the 
work of the United Nations and to promote knowledge of its principles 
and activities, in accordance with its own aims and purposes and the 
nature and scope of its competence and activities''. Id.
---------------------------------------------------------------------------
    The process for becoming an accredited NGO is subjective, offering 
the United Nations discretion in who or what group it allows for what 
purpose(s). Recently, on an ad hoc basis, the relevant accrediting body 
has requested information on financial donors and required proof of an 
international presence as conditions precedent of selective (and, to 
the author's knowledge, exclusively ``conservative'') NGO's.
    UNDPI criteria for NGO's to become associated with DPI are as 
follow:
    ``Organizations eligible for association with DPI are those which:
    <bullet>  Share the ideals of the U.N. Charter;
    <bullet>  Operate solely on a not-for-profit basis;
    <bullet>  Have a demonstrated interest in United Nations issues and 
proven ability to reach large or specialized audiences, such as 
educators, media representatives, policymakers and the business 
community;
    <bullet>  Have the commitment and means to conduct effective 
information programmes about U.N. activities by publishing newsletters, 
bulletins, and pamphlets; organizing conferences, seminars and round 
tables; and enlisting the cooperation of the media.''\32\
---------------------------------------------------------------------------
    \32\ See http://www.ngo.org/index2.htm, ``applications for 
associative status with DPI''.
---------------------------------------------------------------------------
    UNDPI describes the procedure to become an associated NGO as 
follows:
    ``An NGO that meets the established criteria should send an 
official letter from its headquarters to the Chief of the NGO Section, 
Department of Public Information, expressing interest in association 
with DPI. The letter should state the reasons why the organization 
seeks such association and should briefly describe its information 
programmes. This letter should be accompanied by at least six samples 
of recent information materials produced by the applying organization. 
Letters of reference from U.N. Departments, U.N. Programmes and 
Specialized Agencies, and/or U.N. Information Centres and Services 
(UNICs and UNISs) will greatly enhance consideration of the 
application.
    Once the application process is completed, the DPI Committee on 
Non-Governmental Organizations will review applications at its 
scheduled sessions. Applicants are notified immediately of the results 
of the Committee's deliberations. Associated NGO's are then invited to 
designate their main and alternate representatives to the Department of 
Public Information.
    Please note: Association of NGO's with DPI does not constitute 
their incorporation into the United Nations system, nor does it entitle 
associated organizations or their staff to any kind of privileges, 
immunities or special status.''\33\
---------------------------------------------------------------------------
    \33\ Id. See FN 30, supra, re: disclaimer/privileges.
---------------------------------------------------------------------------
    Clearly, the application process is subjective and, arguably, 
institutionally biased toward participation by a preponderance of 
groups considered sympathetic to the relevant summit's cause (that is, 
against dissent).\34\
---------------------------------------------------------------------------
    \34\ See http://www.ngo.org/index2.htm, link to ``applications for 
associative status with DPI''. The UN's NGO home page offers a feel for 
the type of organizations it seeks to include, the description of which 
rings of the U.N. endorsement of its typical endeavors, with which the 
NGO's are to have input: ``Its aim is to help promote collaborations 
between NGO's throughout the world, so that together we can more 
effectively partner with the United Nations and each other to create a 
more peaceful, just, equitable and sustainable world for this and 
future generations.'' That is, organizations whose application 
reference materials demonstrate opposition to UN-sponsored initiatives 
face an adversarial review of their application. For a report on bias 
in the selection process, see, e.g., http://www.washtimes.com/national/
20020511-32784532. htm, in the context of the 2002 U.N child Summit 
(UNICEF).
---------------------------------------------------------------------------
    For an example of NGO participation, consider the 1992 the U.N. 
Conference on Environment and Development (UNCED or ``Earth Summit'') 
in Rio de Janeiro, likely the largest treaty summit in recent memory, 
though soon to be eclipsed by ``Rio-plus-10'' the World Summit on 
Sustainable Development in Johannesburg, August 2002. Rio is commonly 
recognized as ushering in the boom era of mass NGO participation. Rio 
has the added relevance for these purposes as being the session that 
produced, inter alia, the UNFCCC,\35\ that the Kyoto Protocol amends by 
making its universal voluntary ``commitments'' mandatory for certain 
among the world's economic powers.
---------------------------------------------------------------------------
    \35\ See http://usinfo.state.gov/usa/infousa/laws/treaties/
conv.htm.
---------------------------------------------------------------------------
    In the summer of 1992, as the United States Presidential and 
general elections prepared to launch, nations of the world convened in 
Rio for the UNCED under the guise of the United Nations Environment 
Programme (UNEP), which is under the direction of the U.N. General 
Assembly.\36\ Numerous non-binding, in effect, position papers were 
generated with great effort, though disagreement tended to be more 
fairly characterized as disputes over whose priority was granted 
highest esteem.\37\ Several other documents emerged from the fortnight-
long diplomacy, the binding nature of which are arguable given a great 
degree of voluntariness but which nonetheless rose to the level of 
``treaty''.\38\
---------------------------------------------------------------------------
    \36\ See http://www.un.org/aboutun/chart.html.
    \37\ Among the international ``agreements'' being developed were 
the Rio Declaration, and the similar if much more exhaustive (600 
pages) Agenda 21. These were enormous if non-binding documents 
containing a lot of ``shoulds'', but as accurately characterized by the 
Cato Institute's P.J. O'Rourke, each ``having the same approximate 
force in law as a note passed in study hall.'' (All the Troubles in the 
World, p. 214, 1994).
    \38\ See, e.g., Convention on Biological Diversity, actually 
finalized in Rio. United Nations, Treaty Series, vol. 1760, p. 79; and 
depositary notification C.N.329.1996.TREATIES-2 of 18 March 1996.
---------------------------------------------------------------------------
    Participants at Rio included delegations from all recognized 
national governments including scores of heads of state. 95 NGO's plus 
numerous among their subsidiaries were accredited representing 
national, regional and international common interests or agendas. These 
interests ranged from scientific and even architectural and various 
other professional societies, industry and laborers, gender and 
environmentalist pressure groups and/or their legal arms, spiritual to 
indigenous peoples.\39\ These were condensed in practice at the summit 
under the ``Global Forum,'' to centralize their presence, and voice. 
The latter act presumes NGO support for the summit undertakings.
---------------------------------------------------------------------------
    \39\ See UNFCCC NGO roster, at http://unfccc.int/sessions/97feb/
ngo.htm.
---------------------------------------------------------------------------
    NGO activities ranged from the informal--media availabilities, 
pamphlet and newsletter distribution--to quasi-formal--presentation of 
the product of petition drives before the plenary and subsidiary body 
sessions.\40\
---------------------------------------------------------------------------
    \40\ For the schedule of Johannesburg NGO events, see http://
www.worldsummit.org.za/.
---------------------------------------------------------------------------
    Though NGO's have no formal vote or role at negotiations, efforts 
have been underway for some time to find paying roles for NGO's in 
implementing and monitoring compliance with treaty agreements. 
Specifically, for example, environmentalist advocates seek a formal 
paying role as an independent auditing and verification monitors of 
company and country GHG emissions/reductions.\41\ Indeed, domestically, 
NGO's have already received literally millions of taxpayer dollars to 
advocate Kyoto.\42\
---------------------------------------------------------------------------
    \41\ Under Kyoto this would be pursuant to Article 17: ``The 
Conference of the Parties shall define the relevant principles, 
modalities, rules and guidelines, in particular for verification, 
reporting and accountability for emissions trading. ``
    \42\ See, e.g., ``Cashing in on Global Warming'', http://
www.cei.org/gencon/005,01248.cfm.
---------------------------------------------------------------------------
    Many agreements, be they addressing environment or human rights, 
offer the potential for such business opportunities. That is one way 
the NGO's elevate their ``negotiating'' presence. They do have 
potential interests at stake to pursue, just as they possess an 
impressive media presence and potentially valuable approval to grant to 
or withhold from parties.
    Representatives of groups directly impacted by potential 
commitments--industry and labor--were fairly limited in Rio 
(approximately 20 percent of the accredited NGO's) and fairly split 
between those standing to lose economic activity--anti-energy-
suppression interests such as the coal industry, energy users, mine 
workers--and those seeking ``rents'' through GHG restrictions with 
mechanisms such as credit-trading schemes.\43\
---------------------------------------------------------------------------
    \43\ For example, an immediate post-negotiation internal Enron 
memo, dated December 12 1997 and written by the Enron Corp. 's 
representative attending Kyoto, excitedly described Kyoto as 
``precisely what [Enron has] been lobbying for,'' cited numerous 
``wins'', and concluded: ``This agreement will be good for Enron 
stock!!'' The reasons for Enron's advocacy are numerous, and similar to 
various other business NGO participants'. Enron held positions as owner 
of the world's largest wind turbine manufacturer and half owner of the 
world's largest solar energy venture, both of which would have faced 
tremendously increased markets under Kyoto's effective requirement of 
dramatically lowered fossil fuel use (particularly coal) among 
developed countries. For similar reasons, Enron faced tremendous 
earnings prospects from its large natural gas holdings and its gas 
pipeline network, the world's largest outside of Gazprom. For 
disclosure, the author briefly worked for Enron, during which time this 
effort was a source of disagreement.
---------------------------------------------------------------------------
    By the time of the July 2002 ``COP 6.5'' in Bonn, Germany, 
sufficient ``industry'' NGO's, falsely presumed as a matter of practice 
to be ``anti-Kyoto'', attended that the U.S. State Department had 
informally begun addressing two discrete constituencies in separate, 
restricted briefings. This did not accurately bifurcate the ideological 
or substantive positions of the groups, but rather manifest a common 
predisposition--that State representatives simply had to know was 
false--that Kyoto, and environmental agreements generally, created a 
clash of ``industry vs. environmentalists.'' In fact, industry groups 
are among the most aggressive ``direct'' pro-treaty lobbying forces at 
treaty negotiations and elsewhere, and aggressive in their indirect 
advocacy (funding green and business advocacy groups).\44\
---------------------------------------------------------------------------
    \44\ Re: the former, see, e.g., Alexander Cockburn, ``An Enron Tale 
of Strange Bedfellows,'' Los Angeles Times (December 28, 2001). The 
latter is manifested by the ``Business Council for a Sustainable Energy 
Future'' and its European counterpart, constituted by (at the time) 
Enron and like-minded interests.
---------------------------------------------------------------------------
    Therefore, while State deemed a separation of ideologies as 
appropriate it did so such that pro-Kyoto NGO's constituted one group, 
while the other advocacy section supposedly competing for State's ear 
consisted of a deeply split ``Industry'' cadre, despite pro-Kyoto 
industry being at least equally represented as Kyoto opponents. This 
skews the NGO input at least so far as concerns the U.S. delegation, 
offering pro-Kyoto NGO advocates a de facto greater advocacy role.\45\ 
This matters because, as discussed, infra, the U.S. has not withdrawn 
from Kyoto but retains its signature and continues to send a full 
delegation to negotiations, even if they curiously assume a reduced 
role.\46\
---------------------------------------------------------------------------
    \45\ For NGO claims of influence see ``Greens' Success at Kyoto'', 
http://www.cei.org/gencon/014,02873.cfm
    \46\ See FN 123, infra.
---------------------------------------------------------------------------
    In conclusion, treaty negotiations take place among delegates, 
though NGO's serve as welcome pressure groups, with a limited formal 
role but a select membership chosen by proponents of the agreement on 
the table.
         the treaty power under the united states constitution
    In the United States, treaty power is governed by Article II 
Section 2 of the Constitution, stating ``[The President] shall have 
Power, by and with the Advice and Consent of the Senate, to make 
Treaties, provided two thirds of the Senators present concur''. 
Therefore, the Executive may negotiate agreements, the terms of which 
do not, pursuant to our own Constitution, become effective against the 
U.S. until and unless the Senate ratifies the agreement by two-thirds 
of those voting.\47\
---------------------------------------------------------------------------
    \47\ This clearly does not require 67 votes as is often asserted. 
``Although the number of Senators who must be present is not specified, 
the Senate's practice with respect to major treaties is to conduct the 
final treaty vote at a time when most Senators are available.'' See, 
``Treaties and Other International Agreements: The Role of the U.S. 
Senate'', p. 11, at http://frwebgate.access.gpo.gov/cgi-bin/
getdoc.cgi?dbname= 106--cong--senate--print&docid=f:66922.pdf. Compare 
this ``present'' requirement with other ``two thirds'' requirements, 
Article I, Section 5, regarding House impeachments; Article I Section 7 
re: veto override; and Article V re: proposing amendments to the 
Constitution.
    Hamilton addressed the deliberation over two-thirds of those 
``present'', vs. of the body as constituted, in Federalist No. 75. 
There, he identified the fear about ``as constituted'', that a minority 
of Senators could impede ratification through simple, convenient 
absences. See ``Consent'', infra, for further discussion.
---------------------------------------------------------------------------
    It does not seem there was any doubt during its formulation that 
the Constitution would permit treaties, which, to the extent they 
transfer any authority outside of the system the Constitution 
established, potentially threaten the very document authorizing such 
agreements. Discussion of the treaty power among the Framers appears 
principally confined to the necessity to concentrate it at the Federal 
level, so as to not be ``liable to the infractions of 13 different 
legislatures, and as many different courts of final jurisdiction, 
acting under the authority of those legislatures'', and thus ``protect 
the faith, the reputation, the peace of the whole union.''\48\
---------------------------------------------------------------------------
    \48\ See Hamilton, Federalist No. 22, sentiments repeated by 
Madison in Federalist No. 44.
---------------------------------------------------------------------------
    In Federalist No. 64 Jay addressed an apparent, similar multiple 
actor problem but through vesting the treaty power in a dynamic, 
impressionable ``popular assembly'', advocating instead housing 
principal authority in the executive. In Federalist No. 69 Hamilton 
weighed the merits of vesting the power solely in the executive, musing 
over what he later described as ``the trite topic of the intermixture 
of powers,'' albeit one addressed amongst the Framers ``with no small 
degree of vehemence.''\49\
---------------------------------------------------------------------------
    \49\ Federalist No. 75.
---------------------------------------------------------------------------
    Arguably, modern conflicts arising from signed-but-not ratified 
treaties are a problem easily avoided, or at least mitigated, were the 
treaty power fixed solely within one branch (certainly, if with the 
Executive). Still, the practical, political problems discussed herein, 
borne of the simple bifurcation of authority, do not seem to have 
registered discussion by the Framers. One can safely presume this is 
because the Framers did not envision ``permanent alliances'' becoming 
so profuse that hundreds of modern instruments would emerge to the 
extent even of addressing unification of road signals.
    Pertinent to this discussion, the Framers likely also could not 
envision commission to a treaty such as Kyoto: international agreements 
to curb domestic behavior to retard what is inarguably a marginal 
contribution to a hypothetical risk--man-made climate change--even in 
advance of science advancing the hypothesis some appreciable degree 
toward knowledge. Similarly, it is difficult to fathom the Framers 
envisioning administration of their creation such that scores of 
treaties would receive an executive signature yet never face Senate 
consideration. Times change, and with them perspectives. As Rabkin 
plainly asserts ``[l]egal scholars no longer take the constitutional 
strictures of earlier times so seriously.''\50\ Now, ``in the view of 
legal scholars, anything might be the proper subject of a treaty.''\51\ 
This, in an undeniable spiral of cheapening the seriousness of 
``permanent alliances'' against which President Washington warned in 
his Farewell Address.\52\
---------------------------------------------------------------------------
    \50\ ``Sovereignty'' at 18. The same can be said for policymakers, 
be they elected, appointed or career. See Chief Justice Hughes' 
admonition, supra.
    \51\ Id. at 22.
    \52\ Farewell Address, delivered on September 17, 1796. Washington 
similarly urged that the US must ``Act for ourselves and not for 
others,'' by forming an ``American character wholly free of foreign 
attachments.'' See http://www.house.gov/paul/tst/tst2002/tst041502.htm.
---------------------------------------------------------------------------
    One constitutional ambiguity arises in the question of which 
agreements rise to the level of a ``treaty'' requiring Senate 
ratification?\53\ Further, notwithstanding the ratification 
requirement, the treaty process inherently requires executive 
commitment of a sort. What are the other implications of such a 
commitment, now that we have seen that this practice does not in fact 
even serve the protocol function of a qualifying a state for 
ratification?\54\ Can an Executive validly agree to treaty language 
circumventing constitutional requirements?\55\ These questions and 
their answers, to the extent they exist, are exemplar of the murky 
nature of this field of law, driven in practice less by established 
legal rules than protocol. This curiosity extends to U.S. practice, 
whereby both the executive branch and Senate operate on the presumption 
that the Senate may not consider a treaty until a President transmits 
it to the Senate, though such requirement is found neither in the 
Constitution nor U.S. laws.\56\
---------------------------------------------------------------------------
    \53\ This issue arises from other powers found in Article II of the 
Constitution, specifically the Executive Power Clause (Section I), the 
Commander-in-Chief Clause (Section 2) and, most interesting, the duty 
to take Care that the laws are ``faithfully executed'', which concludes 
Section 3. ``Where the powers of the President are exclusive--as the 
Commander in Chief power--the President may make an international 
agreement solely on his own. Such agreements are often called sole 
executive agreements.'' National Treaty Law and Practice (Austria, 
Chile, Columbia, Netherlands, U.S.) eds. Monroe Leigh, Merritt R. 
Blakeslee, and L. Benjamin Ederington. Washington, DC, American Society 
of International Law 1999, Chapter 6, National Treaty Law and Practice: 
United States (Robert E. Dalton), ``Section G, Legal Bases for 
Agreements Not Formally Approved By the Legislature''. See http://
www.asil.org/ dalton.pdf. This document offers an extensive discussion 
of this issue, including a discussion of United States v. Belmont (301 
U.S. 324 (1937)), involving an intermingling in one document of 
assignment of funds and U.S. recognition of the Soviet Union. There, 
the Court asserted as regards the particular agreement at issue, ``[A]n 
international compact, as this was, is not always a treaty that 
requires the participation of the Senate,'' but in this case an 
exercise of the President's power to enter executive agreement pursuant 
to his independent authority. Id. at 330.
    The Court asserted limits to the reach of this duty to ``take 
Care'', in Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579 (1952). 
The Court determined that President Truman usurped the lawmaking power 
of Congress by his claim of independent constitutional authority to 
take control of and operate the nation's steel mills during the Korean 
War on the basis of on an ``inherent'' power to protect the well-being 
and safety of the Nation as well as his Article II exclusive powers as 
Commander-in-Chief and executive.
    Finally, see also ``Treaties and Other International Agreements: 
The Role of the U.S. Senate'', pp. 25-26, at http://
frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=106--cong--senate--
print &docid=f:66922.pdf.
    The State Department defines ``treaty'' as follows: ``International 
agreements (regardless of their title, designation, or form) whose 
entry into force with respect to the United States takes place only 
after the Senate has given its advice and consent''. See ``Department 
of State Circular 175, Procedures on Treaties'', Foreign Affairs 
Manual, 11 FAM 700, Treaties and Other International Agreements, 
TL:POL-36, Revised February 25, 1985, Sec. 11 FAM 721.2 
``Constitutional Requirements''.
    The Vienna Convention, Article 2, defines ``treaty'' for its 
purposes as: ``an international agreement concluded between States in 
written form and governed by international law, whether embodied in a 
single instrument or in two or more related instruments and whatever 
its particular designation''.
    \54\ See ``Signature'' discussion, infra.
    \55\ A simple answer might seem to be that the Constitution cannot 
be read to permit commitments in violation of its terms, which terms 
may only be amended by the prescribed amendment process. Things are not 
that simple, however, such that this question is beyond the scope of 
this paper. See Rabkin, pp. 10-22. Commitments raising this tension are 
nonetheless made. Consider the Vienna Convention, a document that 
claims to bind parties to such documents, to some degree, by mere 
signature. Does that signature in fact violate the Constitution? Can a 
signatory state plausibly claim they are not bound to any degree by a 
treaty that acknowledges signature as imputing a level of pre-
ratification commitment?
    \56\ See discussion of ``Submission,'' infra. Senate rules indicate 
it has indirectly established ``transmission'' as a condition 
precedent. These rules do not, however, make clear that the Foreign 
Relations Committee can refuse to consider a treaty on the basis that 
it was never transmitted--an unlikely controversy. A more likely battle 
would pit a White House opposed to ratification objecting to FRC 
consideration of a treaty on the basis that there was never a 
transmittal. The prospect of such a conflict, though facially bizarre 
prospect given a president apparently retains the right to effectively 
withdraw the U.S. signature until some point in the pre-ratification 
stage (pre-transmittal, or pre-vote, or post-defeat but returned to 
Committee as pending matter). See, e.g., http://www.state.gov/r/pa/prs/
ps/2002/9968.htm.
    These prospects further warrant consideration not merely because 
the signature by an executive poses some level of commitment to a 
treaty's objectives, if not its specific terms. Consider also a Senate 
and White House deeply divided, rhetorically at least, over a signed-
but-not-ratified treaty as they appear to be over Kyoto, and the 
potential showdown over ``advice and consent'' which that conflict 
poses.
---------------------------------------------------------------------------
    Congress has formalized this delegation power, for certain 
Presidential authorities regarding the conduct of foreign affairs, in 
the State Department's authorizing statute.\57\ In practice this 
delegation includes signing (and withdrawing from) treaties.\58\
---------------------------------------------------------------------------
    \57\ ``22 U.S.C. Sec. 2656.--Management of foreign affairs. The 
Secretary of State shall perform such duties as shall from time to time 
be enjoined on or intrusted to him by the President relative to 
correspondences, commissions, or instructions to or with public 
ministers or consuls from the United States, or to negotiations with 
public ministers from foreign states or princes, or to memorials or 
other applications from foreign public ministers or other foreigners, 
or to such other matters respecting foreign affairs as the President of 
the United States shall assign to the Department, and he shall conduct 
the business of the Department in such manner as the President shall 
direct.'' It is certainly this general authority that State exercised 
in notifying the U.N. that the US has no intention to be bound by the 
Rome Treaty (its 6 May 2002 letter to U.N. Secretary General Annan (see 
text at www.state.gov/r/pa/prs/ps/2002/9968.htm).
    \58\ See e.g. Kyoto, signed by USA's functioning U.N. Ambassador, 
Peter Burleigh. See http://www.bellona. no/en/b3/air/climate/buenos--
aires/10952.html.
---------------------------------------------------------------------------
    The requirement of Senate ``Advice'' is not as straightforward as a 
plain reading of Article II intimates. Here, Kyoto also offers an 
interesting case study, as a treaty entered in spite of formal if non-
binding (and unsolicited) Senate advice.\59\ An Executive eschewing 
Senate advice does not as a matter of law doom a treaty as failing to 
meet constitutional muster. An Executive subsequently nullifying the 
U.S. signature, or a Senate vote on ratification, should be the final 
word on that though, again matters in practice have not developed quite 
so simply.\60\
---------------------------------------------------------------------------
    \59\ ``Byrd-Hagel,'' S.Res. 98 105th Congress (105-54, 1997). The 
operative language is as follows: ``Resolved, That it is the sense of 
the Senate that----
    (1) the United States should not be a signatory to any protocol to, 
or other agreement regarding, the United Nations Framework Convention 
on Climate Change of 1992, at negotiations in Kyoto in December 1997, 
or thereafter, which would----
    (A) mandate new commitments to limit or reduce greenhouse gas 
emissions for the Annex I Parties, unless the protocol or other 
agreement also mandates new specific scheduled commitments to limit or 
reduce greenhouse gas emissions for Developing Country Parties within 
the same compliance period, or
    (B) would result in serious harm to the economy of the United 
States''.
    Kyoto nonetheless emerged, clearly not satisfying Byrd-Hagel 
condition (1)(A), by differentiating not only between 36 ``covered'' 
countries, but by differentiating the commitments among those 
countries. Regarding condition (1)(B), among prominent economic 
analysts only the Clinton White House's Council of Economic Advisors, 
contended that no ``serious economic harm''. President Clinton never 
submitted the treaty to the Senate over the course of the remaining 27 
months of his presidency. Upon leaving office the relevant CEA 
professionals publicly amended their assertions regarding Kyoto's 
economic impact. (See USA Today, June 12, 2001). See discussion of 
``Advice, infra.
    A fair question is: which is the more constitutionally offensive 
practice? 1) Eschewing advice and committing to a treaty yet not 
offering the Senate its opportunity to consent or disapprove; or 2) 
rescinding the U.S. signature from one ``rejected'', signed-but-never-
submitted treaty, on the express basis that ``even without 
ratification, the president's signature conveys standing and a U.S. 
obligation to support and not undermine the Treaty'' (see Rumsfeld 
comments, p. 27, infra), yet not similarly treating other rhetorically 
``rejected'' agreements.
    \60\ ``(6) Treaties Reported by the [Foreign Relations] Committee 
but neither approved nor formally returned to the President by the 
Senate are automatically returned to the Committee calendar at the end 
of a Congress; the Committee must report them out again for the Senate 
to consider them.'' Therefore, a ``defeated'' treaty is not necessarily 
rejected until it is returned to the President. See ``Treaties and 
Other International Agreements: The Role of the U.S. Senate'', p. 12; 
see http://frwebgate.access.gpo.gov /cgi-bin/getdoc.cgi?dbname=106--
cong--senate--print&docid=f:66922.pdf. The Senate may also keep a 
``defeated'' treaty alive by adopting or entering a motion to 
reconsider. Id. at 3.
---------------------------------------------------------------------------
    The concerns raised by an Executive ``freelancing'' treaty 
commitments without seeking or heeding Senate advice can be further 
compounded by a treaty barring the standard practice of a party to set 
forth objections and/or reservations.\61\ It is through such objections 
and reservations, asserted by the Senate as a condition of 
ratification, that makes policy development by supranational bodies 
constitutionally tolerable given their lack of checks and balances, and 
limited accountability.\62\ Yet the U.S. agreed to and then signed the 
Kyoto Protocol despite it having exacerbated the sin of omission of 
seeking Senate advice with the rare, express prohibition of 
reservations.\63\
---------------------------------------------------------------------------
    \61\ ``The conditions included by the Senate in its resolutions of 
advice and consent to ratification fall into four general categories: 
reservations, understandings, declarations, and provisos.'' National 
Treaty Law and Practice (Austria, Chile, Columbia, Netherlands, U.S.) 
eds. Monroe Leigh, Merritt R. Blakeslee, and L. Benjamin Ederington. 
Washington, DC, American Society of International Law 1999, Chapter 6, 
National Treaty Law and Practice: United States (Robert E. Dalton), p. 
6.
    Vienna Article 2 defines ``reservation'' as: ``a unilateral 
statement, however phrased or named, made by a State, when signing, 
ratifying, accepting, approving or acceding to a treaty, whereby it 
purports to exclude or to modify the legal effect of certain provisions 
of the treaty in their application to that State''. Part Two of Vienna, 
Articles 19-23, address reservations exclusively.
    \62\ See, e.g., Rabkin, p.ix.
    \63\ Kyoto Article 26 asserts, in toto: ``No reservations may be 
made to this Protocol.''
---------------------------------------------------------------------------
    The Senate Foreign Relations Committee Report serving as the 
Senate's most formal statement on these matters outside of Standing 
Senate Rules states the following regarding nearly this precise 
circumstance, except for the compounding factor of eschewing advice 
prior to the ``no reservation'' constraint:
    ``Some multilateral treaties have contained an article prohibiting 
reservations. The Senate Foreign Relations Committee has taken the 
position that the executive branch negotiators should not agree to this 
prohibition. The Senate has given its advice and consent to a few 
treaties containing the prohibition, but the committee has stated that 
approval of these treaties should not be construed as a precedent for 
such clauses in future treaties. It has further stated that the 
President's agreement to such a clause could not constrain the Senate's 
right and obligation to attach reservations to its advice and 
consent.''\64\
---------------------------------------------------------------------------
    \64\ ``Treaties and Other International Agreements: The Role of the 
U.S. Senate'', p. 2.
---------------------------------------------------------------------------
    Specifically addressing the UNFCCC, which the Senate nonetheless 
quickly ratified despite its own ``no reservations'' clause, the same 
Report cautions ``The Foreign Relations Committee has cautioned the 
administration that Senate consent in these cases should not be 
construed as a precedent.''\65\ The Report went on to caution against 
any attempt to alter the UNFCCC's voluntary scheme by committing to 
mandatory reductions, asserting any such commitment would require 
ratification.\66\ The Report then recites Senate intervention when the 
negotiations appeared to be headed toward not merely binding 
commitments requiring subsequent ratification, but differential 
commitments among parties with likely serious U.S. economic 
impacts.\67\
---------------------------------------------------------------------------
    \65\ Id. at p. 274.
    \66\ Id. at 276.
    \67\ ``In mid-1997, as these negotiations were underway, the Senate 
passed S. Res. 98, which stated that the Senate would not approve any 
agreement on binding reductions in greenhouse gases that did not 
include commitments by developing countries as well as developed/
industrialized countries, or that would result in harm to the U.S. 
economy. The administration has not transmitted the Kyoto Protocol to 
the Senate because, among other reasons, developing countries have to 
date not been willing to consider making binding commitments regarding 
their greenhouse gas emissions.'' Id.
---------------------------------------------------------------------------
    Kyoto nonetheless emerged as such a ``take it or leave it'' 
document but with no ``fast-track'' type authorization or abdication. 
Indeed, it is fair to say the opposite vote was registered though non-
binding by necessity given the nature and timing of such a preemptive 
strike. NAFTA can therefore hardly be analogized to Kyoto as both 
having been similarly foisted upon the Senate, though it is noteworthy 
that the composition of Congress can certainly change measurably in the 
interim between fast-track approval (or Byrd-Hagel) and the opportunity 
to offer consent.
    This combination found in Kyoto of not obtaining (ignoring) Senate 
advice and restricting permissible consent is constitutionally 
indefensible in theory, though it does not impede Senate ratification. 
Indeed, it is now accepted practice for Congress to offer advance 
approval of suspending the Senate ability to provide objections and/or 
reservations when voting on ratification of specific agreements.\68\ 
``Some scholars have pointed out the constitutional difficulties of 
this scheme, but it did not raise any great controversy.''\69\
---------------------------------------------------------------------------
    \68\ See, e.g., S. 2062 (107th Congress), ``The Comprehensive Trade 
Negotiating Authority Act of 2002''. The express logic behind providing 
this authority is to provide the President's negotiators the ability to 
strike deals not subject to subsequent modification as a condition of 
ratification, and their counterparts confidence in U.S. promises. It is 
arguable that congressional approval of such authority constitutes 
advice, if uninformed advice, still conditioned upon Senate 
ratification of the deal itself.
    \69\ Rabkin at 18.
---------------------------------------------------------------------------
Signature
    Individual agreements provide a window during which the document 
may be signed. For example, the Kyoto Protocol, agreed to in December 
1997, was open for Party signature for a finite period of 1 year. As 
discussed, supra, that window and/or failure to sign the document were 
meaningless, as non-signatories subsequently ratified the Protocol. 
Whether signing the document is meaningless, however, is discussed, 
infra. The U.S. signed Kyoto on 12 November 1998.
    It is clear from Article II, Section 2 that the Executive has the 
power to negotiate agreements if not de jure unilateral power to craft 
their content. This power to negotiate treaties doubtless includes the 
ability to make various, sub-ratification levels of commitment such as 
agreement and signature, so long as the agreement makes no pretense of 
abrogating the ratification requirement.\70\ The ``advice'' limitation 
on this negotiating power is subject to Senate forgiveness (for the 
failure to seek advice), via providing consent nonetheless.
---------------------------------------------------------------------------
    \70\ See Rabkin pp. 12-16.
---------------------------------------------------------------------------
    Most treaties provide for a discrete signing function as a 
condition precedent to being eligible to accede via ratification.\71\ 
Signatures may be challenged but barring such challenge are presumed 
valid.\72\ Questions arise, certainly in the recent contexts of the 
Rome Treaty and Kyoto Protocol, of other signature implications. Like 
most individual treaty documents ``customary law'' and its 
``codification'' the Vienna Convention on the Law of Treaties\73\ 
recognize the requirement of many systems of legislative approval for 
an agreement's specific terms to be binding.
---------------------------------------------------------------------------
    \71\ See FN 19, supra. Kyoto Article 24 states: ``1) . . . This 
Protocol shall be open for accession from the day after the date on 
which it is closed for signature. Instruments of ratification, 
acceptance, approval or accession shall be deposited with the 
Depositary. 2. Any regional economic integration organization which 
becomes a Party to this Protocol without any of its member States being 
a Party shall be bound by all the obligations under this Protocol. In 
the case of such organizations, one or more of whose member States is a 
Party to this Protocol, the organization and its member States shall 
decide on their respective responsibilities for the performance of 
their obligations under this Protocol. In such cases, the organization 
and the member States shall not be entitled to exercise rights under 
this Protocol concurrently. 3. In their instruments of ratification, 
acceptance, approval or accession, regional economic integration 
organizations shall declare the extent of their competence with respect 
to the matters governed by this Protocol. These organizations shall 
also inform the Depositary, who shall in turn inform the Parties, of 
any substantial modification in the extent of their competence.''
    \72\ Vienna sets forth generally, followed by an illustrative 
roster of, who may commit a state: ``Article 7, Full powers: 1. A 
person is considered as representing a State for the purpose of 
adopting or authenticating the text of a treaty or for the purpose of 
expressing the consent of the State to be bound by a treaty if:
    (a) he produces appropriate full powers; or (b) it appears from the 
practice of the States concerned or from other circumstances that their 
intention was to consider that person as representing the State for 
such purposes and to dispense with full powers.'' A state may 
subsequently confirm an unauthorized signature (Article 8).
    \73\ ``The United States has not ratified the Vienna Convention but 
this portion likely represents customary international law on the 
subject.'' ``Global Climate Change: Selected Legal Questions about the 
Kyoto Protocol'', p. 3, FN 9. CRS Report for Congress (March 29, 2001).
---------------------------------------------------------------------------
    The principle that a signature cannot be truly meaningless, 
developed likely for purposes of ensuring sincere negotiations, 
nonetheless was formalized as Vienna Article 18. That provision asserts 
international agreement that a pre-ratification commitment, e.g., 
signature, as nonetheless binding a state to certain degree.\74\ Yet 
how seriously do states take this testament to the issue of a non-
ratifying signatory state: ``a State is obliged to refrain from acts 
which would defeat the object and purpose of a treaty,'' until and 
unless ``it shall have made its intention clear not to become a party 
to the treaty, or it has expressed its consent to be bound by the 
treaty''?\75\ It is either ironic, or proof positive that this effort 
failed, that the U.S. bears an enormous inventory of signed-but-not-
ratified instruments including many never even ``transmitted'' to the 
Senate.
---------------------------------------------------------------------------
    \74\ Vienna manifests throughout, e.g., Articles 11, 12, 18, 
manifest that states operate on the presumption that a signature is the 
promise of a binding relationship, presumably through ratification. ``A 
paramount principle of international law is pacta sunt servanda-that 
treaties must be kept.'' Senate Foreign Relations Committee, ``Treaties 
and Other International Agreements: The Role of the U.S. Senate'', 
S.Rpt. 106-71, p. 7; see http://frwebgate.access.gpo.gov /cgi-bin/
getdoc.cgi?dbname=106--cong--senate--print& docid=f:66922.pdf. What of 
the documents that a country signs, but does not ratify? That question 
and the ambiguous answers, to the extent they exist, prompted President 
Bush to withdraw from the unratified Rome Treaty. Specifically, the 
U.S. sought to avert legitimate concerns that its signature would 
impute some form of acquiescence with Rome.
    However, many treaties are signed but not ratified, particularly by 
the US. The same ambiguities underlie the concerns over Kyoto 
discussed, herein. As with Rome, the President voiced his disagreement 
with his predecessor's signature. As regards Kyoto, however, he has not 
manifested this rhetoric with action. Consider that the President then 
offers and formally proceeds with a proposal clearly running counter to 
Kyoto's goals and objectives, as he did with his pending proposal to 
address U.S. GHG emissions. This proposal envisions emissions 
increasing, clearly in violation of Kyoto's objective of massive 
reductions. Certainly, mere proposals likely do not run hard afoul of 
Vienna. But what if the proposal is enacted?
    \75\ See ``Withdrawal'', infra.
---------------------------------------------------------------------------
    Defending a claim that the U.S. somehow violates Vienna Article 18 
via, e.g., Kyoto, the U.S. would likely posit the argument that it 
never ratified Vienna. Particularly as regards Article 18, this 
argument is sophisticated. It requires a state to argue that it is not 
bound by signing a treaty that purports to govern the interpretation of 
treaties, the terms of which establish that signing a treaty in the 
absence of ratification still binds the signatory to the treaty's goals 
and objectives.\76\
---------------------------------------------------------------------------
    \76\ Consider a prospective automobile purchaser talking terms then 
taking the car off the lot for a spin, though without finalizing any 
deal. He parks it in his garage, and otherwise treats the offer of sale 
as a deal he accepted, for some period of time. Now consider the U.S. 
signing a treaty, though never formalizing the deal, yet also acting as 
if it had ``bought'' the agreement for 30 years through various and 
sundry diplomatic and administrative actions, or merely on the basis 
that it waited three decades before testing its strictures?
    It is likely that such a doctrine of constructive acceptance exists 
in the law of international agreements. Vienna Article 11, ``Means of 
expressing consent to be bound by a treaty,'' does not offer much 
guidance, asserting ``The consent of a State to be bound by a treaty 
may be expressed by signature, exchange of instruments constituting a 
treaty, ratification, acceptance, approval or accession, or by any 
other means if so agreed.'' However, Part 5, ``Invalidity, Termination 
and Suspension of the Operation of Treaties'' makes the case more 
plainly: ``Article 45 Loss of a right to invoke a ground for 
invalidating, terminating, withdrawing from or suspending the operation 
of a treaty: A State may no longer invoke a ground for invalidating, 
terminating, withdrawing from or suspending the operation of a treaty 
under articles 46 to 50 or articles 60 and 62 if, after becoming aware 
of the facts:
    (a) it shall have expressly agreed that the treaty is valid or 
remains in force or continues in operation, as the case may be; or
    (b) it must by reason of its conduct be considered as having 
acquiesced in the validity of the treaty or in its maintenance in force 
or in operation, as the case may be.''
    Media reports indicated that President Bush intended to withdraw 
from Vienna concurrent with his Rome withdrawal, though this did not 
occur. This would (or will) occur after having satisfied Vienna's 
Article 18 test for ``withdrawal'' of the unratified ICC. Clearly, 
therefore, such a move would be intended to impact the status of other 
signed-but-not-ratified agreements. Presuming this was successful (see 
FN 76, supra), particular implications of such a move as regards Kyoto 
include that the U.S. would be free of the Vienna Article 18 argument 
of commitment to Kyoto's object and purpose (if not residual 
``customary'' doctrine, if any exists). The U.S. position would be that 
it is ``out'' of Kyoto solely on the basis that one executive verbally 
claimed that to be the case, with no formalization of that position. 
That is, the signed document remains available for ``re-entry'' by a 
subsequent executive solely on the basis that he verbally asserts that 
this is the U.S. position. To pursue or even enable such a dynamic is 
shortsighted and flies in the face of the bulk of the rationale behind 
treaties.
---------------------------------------------------------------------------
    It was presumably in recognition of the perils of feel-good treaty 
signature when a state has no intention of ratifying leading the Bush 
Administration to formally disavow its signature on the Rome Treaty. 
Consider the following statements by Cabinet officers:
    ``Since we have no intention of ratifying it, it is appropriate for 
us, because we have such serious problems with the ICC, to notify the . 
. . secretary-general that we do not intend to ratify it and therefore 
we are no longer bound in any was to its purpose and objective'' 
Secretary of State Colin Powell, CNN.com, May 5, 2002
    ``Even without ratification, the president's signature conveys 
standing and a U.S. obligation to support and not undermine the 
Treaty''. Secretary of Defense Donald Rumsfeld, State Department Info, 
Jan. 11, 2001
    Now, of course, the Administration faces the unavoidable question 
of why does it refuse to disavow the U.S. signature on Kyoto? That is, 
should it desire to avoid having, e.g., its proposed ``Climate Action 
Plan'' challenged as violative of Vienna, via Kyoto.\77\
---------------------------------------------------------------------------
    \77\ Compare Administration statements on Kyoto remarkably similar 
to its rhetoric establishing why Rome must be ``unsigned'':
    President Bush--``I'll tell you one thing I'm not going to do . . . 
I'm not going to let the United States carry the burden for cleaning up 
the world's air, like the Kyoto treaty would have done.'' ABCNews.com, 
March 28, 2001
    President Bush--``I do not support the Kyoto Treaty . . . The Kyoto 
treaty would severely damage the United States economy and I don't 
accept that.'' Washington Times, June 5, 2002
    Vice-President Cheney--``We do not support the approach of the 
Kyoto treaty.'' MSNBC March 17, 2001
    Secretary of State Colin Powell--``The Kyoto Protocol, as far as 
the United States is concerned, is a dead letter.'' Interview with Fox 
News' Tony Snow, June 17, 2001
    National Security Advisor Condoleezza Rice--to European diplomats, 
the ''protocol is totally unacceptable and already dead at the arrival 
of the Bush Administration''; also quoted at the same meeting asserting 
Kyoto was ``dead on arrival'' in the United States. March 17th, 2001
    National Security Advisor Condoleezza Rice--``It might have been 
better to let people know in advance, including our allies, that we 
were not going to support the protocol.'' USATODAY.com June 7, 2001
    Environmental Protection Agency Administrator Christie Todd 
Whitman--``We have no interest in implementing that treaty.'' 
Washington Post, March 28, 2001
    White House Spokesman Ari Fleischer--``The president has been 
unequivocal. He does not support the Kyoto treaty. It is not in the 
United States' economic interest.'' CNN.com, March 29, 2001
---------------------------------------------------------------------------
    These implications of treaty signature and the related quagmire of 
``how much sovereignty does (the U.S.) cede at what step?'' is exemplar 
of the murky nature of this field of law, driven in practice less by 
established legal rules than protocol.
    In sum, achieving the signature stage enters a state into an 
ambiguous level of commitment; obligations begin to emerge, such that a 
notification of intent not to become a party action is required to 
truly change a nation's status.
Executive Transmittal of a Treaty
    Is there a reverse equivalent to the Constitution's ``presentment'' 
clause, for treaties?\78\ A plain reading of Article II, Section 2 
indicates an Executive's function is complete upon treaty signature, or 
at least that the signature reasonably triggers the Senate's ability to 
attempt consent though the Executive may not be stripped of authority 
to continue relevant treaty functions. Certainly, if a president 
transmits a treaty to the Senate with its concomitant request for a 
vote, there is no doubt that the Senate may vote upon it. But what 
about a treaty signed but not submitted to the Senate?
---------------------------------------------------------------------------
    \78\ U.S. Constitution, Article I, Section 7: ``Every Bill which 
shall have passed the House of Representatives and the Senate, shall, 
before it become a Law, be presented to the President of the United 
States''.
---------------------------------------------------------------------------
    An authoritative Foreign Relations Committee report asserts the 
Senate's most formal position on the matter, outside of its standing 
rules which are largely silent or ambiguous:
``Consideration by the Senate
    A second phase begins when the President transmits a concluded 
treaty to the Senate and the responsibility moves to the Senate.
    Following are the main steps during the Senate phase.
    (1) Presidential submission.-The Secretary of State formally 
submits treaties to the President for transmittal to the Senate. A 
considerable time may elapse between signature and submission to the 
Senate, and on rare occasions a treaty signed on behalf of the United 
States may never be submitted to the Senate at all and thus never enter 
into force for the United States. When transmitted to the Senate, 
treaties are accompanied by a Presidential message consisting of the 
text of the treaty, a letter of transmittal requesting the advice and 
consent of the Senate, and the earlier letter of submittal of the 
Secretary of State which usually contains a detailed description and 
analysis of the treaty.''\79\
---------------------------------------------------------------------------
    \79\ ``Treaties and Other International Agreements: The Role of the 
U.S. Senate'', S.Rpt.106-71, p. 7.
---------------------------------------------------------------------------
    The Senate is historically conditioned to wait for executive 
transmittal prior to considering an agreement and its rules now 
recognize this practice, having in effect manufactured a 
``presentment'' equivalent. The FRC Report offers in fact an 
explanation of protocol, and nothing more, serving as the principal 
impediment to the Senate considering a treaty absent the Executive 
transmitting it to them. There is no constitutional bar. Though the 
Senate has the constitutional right to set its own rules of 
operation,\80\ there exists no express prohibition in the rules, 
either.\81\ It is a matter of interpretation. These rules are binding 
of course only on the Senate but are a matter of interpretation, and 
that is largely irrelevant:
---------------------------------------------------------------------------
    \80\ ``Each House may determine the Rules of its Proceedings . . 
.'' Article I, Section 5.
    \81\ With or without transmittal it would be fair for a Member (or 
private litigant who can establish standing) to call on the Senate to 
vote on the entire spate of modern treaties signed-but-not-ratified 
treaties. It seems particularly disrespectful of the Constitution, 
however, for the Senate not to at minimum vote on aberrations such as 
Kyoto, qualifying for immediate rejection because of the unacceptable 
combination of the Executive breaching specific Senate instruction, 
then accepting the disavowed terms also with a prohibition on 
reservations.
---------------------------------------------------------------------------
    Yet these Senate rules do not make clear that the Foreign Relations 
Committee can refuse an Executive request to consider a treaty on the 
basis that it was never transmitted. Such a battle is of course 
unlikely: if an Executive desired a treaty vote he would in all 
likelihood ``transmit'' a treaty with such a request.\82\ A conflict is 
more likely to involve a White House opposed to ratification, objecting 
to FRC consideration on the basis that there was never a transmittal. 
The prospect of such a conflict is also, however, facially bizarre 
given a president apparently retains the right to effectively withdraw 
the U.S. signature until some point in the pre-ratification stage (see 
``Withdrawal'', infra).
---------------------------------------------------------------------------
    \82\ Such a request does not necessarily accompany a transmittal 
recommendation. See discussion of President Reagan's transmittal of the 
Protocols to the Geneva Convention, infra.
---------------------------------------------------------------------------
    As also discussed, in Kyoto we see a Senate and White House deeply 
divided, rhetorically at least, over a particular signed-but-not-
ratified treaty. This merits consideration of the potential showdown 
over authority to ultimately commit the U.S. In this instance, we face 
a president asserting a position (``rejects'' the treaty) but unwilling 
to formalize it. Indeed, this administration actually has rejected the 
idea of withdrawal.\83\
---------------------------------------------------------------------------
    \83\ In May 2002, the author formally petitioned the State 
Department on behalf of the Competitive Enterprise Institute, to 
replicate the withdrawal from Rome, re: Kyoto. State responded in June 
2002. It elected to not assert which of the two ambiguous U.S. Kyoto 
positions--rhetorical vs. submitted--is operative. Its response was 
mildly incoherent in attempting to avoid addressing the merits 
presented in the request, merely rejecting this request for 
clarification of the ambiguity on the simple basis that ``[w]e have 
gone to considerable lengths, internationally, over the past year to 
make our position with respect to the Kyoto Protocol clear and 
unambiguous.'' In short, they're not confused about the position--
whatever it is--so it requires no clarification.
---------------------------------------------------------------------------
    Whether an executive must ``transmit'' a treaty, or whether the 
Senate may vote on signed agreements of its own accord, is a question 
that has yet to be adjudicated. It has yet to even be legislated other 
than Senate internal rules of operation. Congress addressed transmittal 
of international agreements other than treaties in the Case-Zablocki 
Act.\84\ This Act did not, however, indirectly establish Executive 
discretion regarding transmittal of treaties to Congress, as its clear 
import was to inform Congress of agreements in which Congress had had 
no consultative or approval role.
---------------------------------------------------------------------------
    \84\ 1 U.S.C Sections 112a and 112b; as added by act of September 
23, 1950, 64 Stat. 980; and added by Public Law 92-403 [Case-Zablocki 
Act, S. 596], 86 Stat. 619, approved August 22, 1972.
---------------------------------------------------------------------------
    The Senate Foreign Relations Committee possesses exclusive 
congressional jurisdiction over treaties (though as was seen regarding 
Kyoto, other committees, both House and Senate, may weigh in on various 
aspects of the agreement). That is, FRC is the gatekeeper determining 
which treaties may be reported for floor consideration:
                         ``rule 1--jurisdiction
    (a) Substantive.--In accordance with Senate Rule XXV.1(j), the 
jurisdiction of the Committee shall extend to all proposed legislation, 
messages, petitions, memorials, and other matters relating to the 
following subjects: . . .
    17. Treaties and executive agreements, except reciprocal trade 
agreements. . . .
    (b) Oversight.--The Committee also has a responsibility under 
Senate Rule XXVI.8, which provides that ' . . . each standing Committee 
. . . shall review and study, on a continuing basis, the application, 
administration, and execution of those laws or parts of laws, the 
subject matter of which is within the jurisdiction of the Committee.'
    (c) `Advice and Consent' Clauses.--The Committee has a special 
responsibility to assist the Senate in its constitutional function of 
providing 'advice and consent' to all treaties entered into by the 
United States and all nominations to the principal executive branch 
positions in the field of foreign policy and diplomacy . . .
                            rule 9--treaties
    (a) The Committee is the only Committee of the Senate with 
jurisdiction to review and report to the Senate on treaties submitted 
by the President for Senate advice and consent. Because the House of 
Representatives has no role in the approval of treaties, the Committee 
is therefore the only congressional committee with responsibility for 
treaties.''
    FRC Rule 9 then seemingly creates a transmittal condition precedent 
to considering a treaty:
    ``(b) Once submitted by the President for advice and consent, each 
treaty is referred to the Committee and remains on its calendar from 
Congress to Congress until the Committee takes action to report it to 
the Senate or recommend its return to the President, or until the 
Committee is discharged of the treaty by the Senate.''
    It does appear a Member is not able to move a treaty toward a floor 
vote in the absence of at least FRC consideration, though the relevant 
rule does not seem to resolve the question of whether the Senate can 
vote absent transmission (that is, take matters into its own hands to, 
e.g., clarify an ambiguous U.S. position):
         ``rule xxx executive session--proceedings on treaties
    1. (a) When a treaty shall be laid before the Senate for 
ratification, it shall be read a first time; and no motion in respect 
to it shall be in order, except to refer it to a committee, to print it 
in confidence for the use of the Senate, or to remove the injunction of 
secrecy . . .
    2. Treaties transmitted by the President to the Senate for 
ratification shall be resumed at the second or any subsequent session 
of the same Congress at the stage in which they were left at the final 
adjournment of the session at which they were transmitted; but all 
proceedings on treaties shall terminate with the Congress, and they 
shall be resumed at the commencement of the next Congress as if no 
proceedings had previously been had thereon.\85\
---------------------------------------------------------------------------
    \85\ Found at http://rules.senate.gov/senaterules/rule30.htm 
(emphasis added).
---------------------------------------------------------------------------
    So, the Senate seemingly manufactures a ``requirement'' of 
presentment. This does not make that requirement law but likely 
demonstrates that a court might well defer a legal challenge to an 
ambiguous U.S. treaty posture under the ``political question'' 
doctrine. Such a challenge, for example, could seek formal withdrawal 
from Kyoto as a necessary step given the Executive's avowed rejection 
of a signed treaty. The State Department manifested the position, in 
the context of its communication to the U.N. regarding Rome, that 
withdrawal from such a document requires this transmission pursuant to 
the delegation of certain ``Management of foreign affairs'' in 22 
U.S.C. Sec. 2656.\86\ This because by that act the Bush Administration 
formally recognized the legal implications to signing a treaty, 
seemingly giving merit to such an effort to compel other withdrawals to 
resolve similar ambiguities and potential risks.
---------------------------------------------------------------------------
    \86\ See FN 57, supra.
---------------------------------------------------------------------------
    Still, this language raises an interesting debating point as to 
whether there is the equivalent of a ``presentment'' requirement. That 
is, the Senate arguably hereby distinguishes between ``Treaties 
transmitted by the President to the Senate for ratification'', and, 
``When a treaty shall be laid before the Senate for ratification'', 
that is, of the accord of one of its Members.
    There clearly is no constitutional prohibition to the Senate taking 
a signed treaty upon itself to consider, only a Senate rule possibly 
indicating they have decided otherwise. The Senate has the right to 
establish its rules of operation under Article I, Section 5, but that 
language offers no prohibition and indeed is ambiguous at best as to 
this matter. Certainly given the rhetoric of potential natural 
catastrophe surrounding Kyoto, if President Bush insists on continuing 
the U.S.' ambiguous role in Kyoto the Senate should take matters into 
its own hands, and decide the fate of this agreement.
    Regarding the transmittal itself, by practice, this communication 
is considered formally as part of the Senate Treaty Document sent by 
the White House.\87\ Clearly, a transmittal message need not request 
ratification, but an Executive certainly may ask the Senate to reject a 
treaty. Similarly, though not identical, is that in practice a 
transmittal letter does not require ``transmission'' of the particular 
treaty language for a vote, but can include a mere request that the 
Senate express its sense that the treaty is not acceptable. This likely 
satisfies the Vienna test for manifesting a state's intention to not be 
bound by a treaty, if it does not equate with rejection. President 
Reagan's transmittal of the 1977 Protocols to the Geneva Convention 
offers an example of what may be considered ``risk-free transmittal'', 
that is, asking for disapproval while not risking present or future 
ratification of the actual agreement.
---------------------------------------------------------------------------
    \87\ See, e.g., ``The President's Transmittal Message'', H.Doc. 
107-20; http://frwebgate.access.gpo.gov/ cgibin/
useftp.cgi?IPaddress=162.140.64.21&filename=td007.pdf&directory=/diskb/
wais/data/107--cong--documents.
---------------------------------------------------------------------------
    After transmitting and asking for ratification of Protocol II, 
additional to the Geneva Conventions of 12 August 1949 concluded at 
Geneva on June 10, 1977, President Reagan requested the Senate express 
its sense of disapproval of Protocol I, which he did not transmit. 
Addressing in part a topic very timely to a current debate, 
specifically the status of certain combatants, President Reagan wrote:
    ``While I recommend that the Senate grant advice and consent to 
this agreement [Protocol II], I have at the same time concluded that 
the United States cannot ratify a second agreement on the law of armed 
conflict negotiated during the same period. I am referring to Protocol 
I additional to the 1949 Geneva Conventions, which would revise the 
rules applicable to international armed conflicts. Like all other 
efforts associated with the International Committee of the Red Cross, 
this agreement has certain meritorious elements.''\88\
---------------------------------------------------------------------------
    \88\ United States: Message From the President Transmitting 
Protocol II Additional to the 1949 Geneva Conventions, Relating to the 
Protection of Victims of Noninternational Armed Conflicts, January 29, 
1987 (http://www.fed-soc.org/pdf/ABARespID.pdf).
---------------------------------------------------------------------------
    Calling Protocol I ``fundamentally and irreconcilably flawed'', 
Reagan described its flaws in principle and with some specific 
examples, then shifted the burden to the Senate without actually 
transmitting the Protocol with a recommendation to reject, stating in 
relevant part:
    ``These problems are so fundamental in character that they cannot 
be remedied through reservations, and I therefore have decided not to 
submit the Protocol to the Senate in any form, and I would invite an 
expression of the sense of the Senate that it shares this view.''\89\
---------------------------------------------------------------------------
    \89\ Id.
---------------------------------------------------------------------------
    The deviation from form--sending treaty language for ratification--
extended to the request--mere disapproval of non-transmitted language. 
Yet Reagan described his desired outcome as if it were a mere, standard 
``rejection'':
    ``It is unfortunate that Protocol I must be rejected. We would have 
preferred to ratify such a convention, which as I said contains certain 
sound elements. But we cannot allow other nations of the world, however 
numerous, to impose upon us and our allies and friends an unacceptable 
and thoroughly distasteful price for joining a convention drawn to 
advance the laws of war . . . The repudiation of Protocol I is one 
additional step, at the ideological level so important to terrorist 
organizations, to deny these groups legitimacy as international actors. 
Therefore, I request that the Senate act promptly to give advice and 
consent to the ratification of the agreement I am transmitting today, 
subject to the understandings and reservations that are described more 
fully in the attached report. I would also invite an expression of the 
sense of the Senate that it shares the view that the United States 
should not ratify Protocol I, thereby reaffirming its support for 
traditional humanitarian law, and its opposition to the politicization 
of that law by groups that employ terrorist practices.''\90\
---------------------------------------------------------------------------
    \90\ Id. (emphasis added).
---------------------------------------------------------------------------
    This quasi-transmittal offers a model for Executive request of the 
Senate regarding other commitments through which the U.S. presents an 
ambiguous posture. It does not, however, guarantee clarification: The 
Senate elected to vote on neither Protocol, adding them to the heap of 
literally dozens of treaties signed but not ratified, not to mention 
those of which never were the subject of a ``transmittal'' to the 
Senate.\91\
---------------------------------------------------------------------------
    \91\ See http://www.icrc.org/eng/party--gc.
---------------------------------------------------------------------------
    This does offer authority for the proposition that the Senate need 
wait for neither a Presidential transmission of language, nor a request 
to ratify a treaty in order to speak to the issue of whether it accepts 
the commitment. In the case of Kyoto, Byrd-Hagel has no relevant 
``consent'' impact--though potentially great influence as ``advice'' 
eschewed--Kyoto not having been agreed at the time this (inherently) 
non-binding resolution passed.
    Another question involves the implications of ``transmitting'' a 
treaty to Senate. Upon such communication, has the President ceded his 
ability to withdraw, as President Bush withdrew from Rome? If so, is it 
for a reasonable period for the Senate to act, say, the term of one 
Congress, which ability is revived by the absence of Senate action over 
another reasonable period of time?
    Such resolution seems unnecessarily complex and, presuming no 
presentment requirement exists for treaties, two outcomes appear 
equally possible. The courts could determine some form of ``mutual 
jurisdiction'' during a post-transmittal, pre-vote stage, during which 
either branch may decide or at least advance the fate of an agreement. 
Alternatively, the courts could determine that such an Executive 
function should not be undertaken lightly. In such instance, they might 
reason, given that even post-transmission--whatever the request--the 
President retains the ability to formally request Senate rejection 
decide that upon transmission the Senate obtains sole jurisdiction.
    Finally, the courts may determine that there is indeed a 
presentment requirement for treaties. In such case, it would be 
reasonable to rule that, just as the President has the right to sit on 
a treaty until presentment, the senate has the same right after 
presentment. Of course, even President Bush's recent withdrawal from 
Rome appears unprecedented, if precisely what longstanding 
international policy held to be appropriate behavior. Thus, despite 
that all of this remains conjecture, the increased possibility of 
challenge to these questionable modern practices merits inquiry.
       role of congress in the treaty process--advice and consent
    What obligations and impediments arise from the constitutional 
requirement of ``advice and consent'', particularly in the unique 
circumstances offered by development of Kyoto? Further, what role does 
the Senate play in possible withdrawal in such unique circumstances? 
Finally, if a ratified agreement is amended, is it subject to further 
advice and consent?
Advice: Kyoto Example
    We have already examined the nontraditional role the Senate played 
in offering advice to the Executive regarding the Kyoto Protocol, 
development of which began soon after--and, arguably, partially as a 
consequence of--the inauguration of a new U.S. administration. As 
discussed, this process toward binding international commitments 
regarding domestic energy use emissions not declared, for the most 
part, ``pollutants'' by any nation in the world, came almost 
immediately on the heels of agreeing in Rio to the UNFCCC's voluntary 
campaign.\92\ This, certain domestic efforts,\93\ and a lack of 
administration solicitation of advice alarmed many within the Senate. 
As negotiations advanced, Senators took it upon themselves to register 
advice.
---------------------------------------------------------------------------
    \92\ Per Kyoto's Preamble, it developed, de jure, ``Being guided by 
Article 3 of the Convention,'' (Principles), which was the omnibus 
``protect the planet'' provision. This rationalization emerged, de 
facto, however directly pursuant to the new U.S. administration's 
assertion of ``changed circumstances''. The next step, of actually 
drafting a binding document, came ``Pursuant to the Berlin Mandate 
adopted by decision 1/CP.1 of the Conference of the Parties to the 
Convention at its first session,'' as also set forth in Kyoto's 
preamble.
    \93\ Specifically, in 1993, the new Clinton-Gore Administration 
created a State Department slot for former Senator Tim Wirth, 
Undersecretary of State of Global Affairs, including in its portfolio 
``environment''. Wirth was famous for his statement in 1990 as a 
Democratic Senator from Colorado, ``We've got to ride the global 
warming issue. Even if the theory of global warming is wrong, we will 
be doing the right thing in terms of economic and environmental 
policy.'' Cited in ``Global Warming: Just a Lot of Hot Air?'', The 
Actuarial Review, August 1998 (Fred Kilbourne) (see http://
www.casact.org/pubs/actrev/aug98/gwfredk. htm). Rio, in hindsight, soon 
began to look like an agreement whose authors had no sincere intent of 
determining its effectiveness when it was almost immediately used as a 
springboard to obtain mandatory, reduction commitments. In 1996, Deputy 
Assistant Secretary of State Rafe Pomerance asserted that ``the 
administration has been working on this policy for more than a year'', 
quoted in Nature, 25 July 1996.
---------------------------------------------------------------------------
    The Senate, seeing what was developing, unanimously passed a non-
binding, ``Sense of the Senate Resolution'':
    ``Resolved, That it is the sense of the Senate that----
    (1) the United States should not be a signatory to any protocol to, 
or other agreement regarding, the United Nations Framework Convention 
on Climate Change of 1992, at negotiations in Kyoto in December 1997, 
or thereafter, which would----
    (A) mandate new commitments to limit or reduce greenhouse gas 
emissions for the Annex I Parties, unless the protocol or other 
agreement also mandates new specific scheduled commitments to limit or 
reduce greenhouse gas emissions for Developing Country Parties within 
the same compliance period, or
    (B) would result in serious harm to the economy of the United 
States.''\94\
---------------------------------------------------------------------------
    \94\ ``Byrd-Hagel,'' S.Res. 98 105th Congress (105-54 July 21, 
1997).
---------------------------------------------------------------------------
    Subsequent to this advice, and upon other nations of the world 
resisting U.S. positions, Vice President Al Gore arranged to fly to 
Kyoto, where he encouraged U.S. negotiators to show ``increased 
negotiating flexibility.'' Kyoto emerged, clearly not satisfying Byrd-
Hagel condition (1)(A) by differentiating between 38 ``covered'' 
countries. Opponents were also angry over the agreement to 
differentiate various commitments among those countries.\95\
---------------------------------------------------------------------------
    \95\ Specifically, parties committed to varying percentages of 
reduction from 1990 levels of GHG emissions. Some were permitted to 
increase emissions (e.g., Australia, by 8 percent), others permitted to 
pool their emission increases/reductions under a bubble (the EU), while 
the U.S. committed to reduce GHG emissions by 7 percent below 1990, or 
19 percent below today's emission levels according to the Department of 
Energy's Energy Information Administration (EIA).
---------------------------------------------------------------------------
    Regarding condition (1)(B), among prominent economic analysts only 
the Clinton White House's Council of Economic Advisors, contended that 
no ``serious economic harm'' would result.\96\ President Clinton never 
submitted the treaty to the Senate over the course of the remaining 25 
months of his presidency. Upon leaving office the relevant CEA 
professionals publicly amended their assertions regarding Kyoto's 
economic impact.\97\
---------------------------------------------------------------------------
    \96\ EIA, e.g., estimated Kyoto's economic impact upon the U.S. 
economy at $400 billion annually. U.S. Department of Energy, Energy 
Information Admin., Office of Integrated Analysis and Forecasting. 
Impacts of the Kyoto Protocol on U.S. Energy markets and Economic 
Activity. Washington, DC. October 1998.
    \97\ See USA Today, June 12, 2001.
---------------------------------------------------------------------------
    Administration disregard for Senate advice was exacerbated when the 
White House soon adopted a mantra of seeking ``meaningful participation 
by key developing countries,'' a rhetorical sleight of hand to 
facilitate ratification. Still, this received no widespread 
condemnation, despite the administration's ploy being an apparent, 
significant diminution of the Senate's most prominent ``Advice''.
    The composition of the Senate can change appreciably over a short 
time and, so long as the U.S. remains a signatory, it may feasibly 
ratify Kyoto.\98\ All past sins of omission, and commission regarding 
the Article II ``Advice'' requirement are absolvable through a 
ratification vote.
---------------------------------------------------------------------------
    \98\ True, as described, supra, several non-signatory nations 
ratified Kyoto nonetheless. These nations share neither our 
Constitution, nor our adherence to protocol, and it seems implausible 
that the U.S. Senate should ever reverse an Executive having rejected a 
signed, unratified treaty that the Senate has made no move to consider. 
It seems an open question whether Article II prohibits such an act.
---------------------------------------------------------------------------
``Consent'', or Ratification
    As noted, it is clear from Article II Section 2 that the executive 
has the power to negotiate agreements, and principal role therein. This 
typically involves at minimum one signature stage, at minimum as a 
protocol, formalizing'' the signatory's eligibility for 
ratification.\99\ However, it is also clear pursuant to Article II the 
terms of any agreement negotiated by the executive do not become 
effective against the U.S. until and unless the Senate ratifies the 
agreement by two-thirds of those voting.\100\ This presumably intimates 
a limitation on the treaty power of an executive not being able to 
validly enter agreements circumventing the constitutional ratification 
requirement.\101\ Further, this raises the possible issue of what rises 
to the level of a treaty requiring Senate ratification?\102\
---------------------------------------------------------------------------
    \99\ Some systems, as recognized by individual treaties and the 
Vienna Convention, allow for binding treaty commitments to arise from 
this signature, equivalent with, e.g., U.S. Senate ratification.
    \100\ See FN 47, supra.
    \101\ See FN 55, supra.
    \102\ See FN 53, supra.
---------------------------------------------------------------------------
    Treaties typically recognize that a significant number of countries 
do not permit the ``Executive'' to formally bind his nation through a 
signature, but that it is a fairly common requirement that one or more 
legislative bodies approve of the document. To the extent a particular 
document does not address this issue, the Vienna Convention codifies 
the ``customary'' recognition of this practice. Treaties also typically 
provide a window for ratification. We have already seen, supra, the 
ambiguities surrounding whether the Senate may of its own accord 
consider a treaty for ratification.
    The ``Consent'' function offers the Senate a second bite as the 
``Advice'' apple. That is, with the rare exception found in Kyoto, 
treaties typically allow reservations and/or objections to particular 
provisions.\103\ The executive may make suggestions regarding such 
objections, as it at issue in the current debate regarding Senate 
ratification of the Stockholm Convention on Persistent Organic 
Pollutants (POPs Treaty).\104\ Domestic U.S. parties whose products or 
businesses would be covered by this agreement's restrictions seek 
ratification, but conditional upon one of two options in the treaty 
language over the addition of new chemicals to the list of covered 
substances.
---------------------------------------------------------------------------
    \103\ See the UN's Model Instrument of Reservation at http://
untreaty.un.org/English/TreatyHandbook/ annex6.htm.
    \104\ See EPA statement on POPs Treaty at http://www.epa.gov/
oppfead1/cb/csb--page/updates/popsleg.htm.
---------------------------------------------------------------------------
    Specifically, these parties seek a reservation to the effect that 
each addition to the list of covered chemicals requires discrete 
ratification by countries recognizing this addition. This raises 
another relevant ``Consent'' issue: whether treaty amendments require 
individual ratification. The treaty itself typically addresses this 
matter.\105\ To the extent an agreement does not address this matter, 
Vienna offers ambiguous guidance as to what rule governs.\106\ This 
contributes to the reality in practice that Senate ratification clearly 
can be made contingent upon any modifications to the particular treaty 
being subject to ratification prior to being binding on the U.S.\107\
---------------------------------------------------------------------------
    \105\ See, e.g., Kyoto Article 20.
    \106\ See Articles 41, 42.
    \107\ In consenting to the Genocide Convention, the Senate added a 
reservation that the U.S. must first specifically consent to IJC 
jurisdiction before submitting any dispute to which the United States 
was a party. ``Treaties and other International Agreements'', p. 21.
---------------------------------------------------------------------------
    Kyoto's amendment mechanism is set forth through various Articles. 
First, specifically discussing ``non-compliance'' and consequences,'' 
Article 18 reads, in pertinent part, ``Any procedures and mechanisms 
under this Article entailing binding consequences shall be adopted by 
means of an amendment to this Protocol.'' Such amendment occurs as set 
forth in Article 20:
    ``1. Any Party may propose amendments to this Protocol.
    2. Amendments to this Protocol shall be adopted at an ordinary 
session of the Conference of the Parties serving as the meeting of the 
Parties to this Protocol.
    3. The Parties shall make every effort to reach agreement on any 
proposed amendment to this Protocol by consensus. If all efforts at 
consensus have been exhausted, and no agreement reached, the amendment 
shall as a last resort be adopted by a three-fourths majority vote of 
the Parties present and voting at the meeting. The adopted amendment 
shall be communicated by the secretariat to the Depositary, who shall 
circulate it to all Parties for their acceptance.'' (emphasis added)
    Kyoto then proceeds to indicate that Senate ratification of Kyoto 
even in its current, incomplete form and without a specific reservation 
to this effect, nonetheless permits the U.S. to claim it is not bound 
by any subsequent narrowing of Kyoto's terms without separate 
ratification:
    ``4. Instruments of acceptance in respect of an amendment shall be 
deposited with the Depositary. An amendment adopted in accordance with 
paragraph 3 above shall enter into force for those Parties having 
accepted it on the ninetieth day after the date of receipt by the 
Depositary of an instrument of acceptance by at least three fourths of 
the Parties to this Protocol.''
    This is reassuring to some degree given that Kyoto permits all 
nations to vote on binding consequences applicable only to those 36 
countries actually covered by Kyoto's restrictions. Reassuring as this 
``out'' may be, it remains foreseeable that the requisite three-fourths 
of, e.g., all 178 parties to Kyoto should they ultimately ratify, can 
occur if that large universe of countries facing all benefit, no pain 
under Kyoto merely coalesce. The incentive to ``stick it'' to 
particular countries, for example the U.S., is enormous, given the 
amounts of money involved under a fully implemented rationing structure 
that is Kyoto. Given international pressures to proceed ``with the 
flow'' should the U.S. actually ratify Kyoto, this presents alarming 
opportunities for other nations to extract even more benefits out of 
the U.S. in this context than Kyoto's generous ``capacity building'' 
and ``development'' funds already envision.\108\
---------------------------------------------------------------------------
    \108\ In response to this very practice of treaties moving far 
along in the development stage that it takes political capital, often 
not spent, to extricate from even that level of agreement, the Bush 
Administration has initiated an informal policy group to look down the 
road at potential such entanglements particularly in the environmental 
context. This would seem to be a lesson learned from Rio and Kyoto. 
Participants are drawn, inter alia, from the State Department, Council 
on Environmental Quality, and National Security Council.
---------------------------------------------------------------------------
    Senate ratification cannot constitutionally be abrogated by the 
Executive,\109\ though as we have seen Congress can anticipatorily 
abdicate the Senate's ability to modify an agreement's language, and 
thus its ability to offer substantive objections or reservations 
(though not to reject a treaty).\110\
---------------------------------------------------------------------------
    \109\ See Rabkin, pp. 12-16.
    \110\ See discussion of NAFTA, supra.
---------------------------------------------------------------------------
    Consideration of treaties must begin in the Senate Foreign 
Relations Committee. Again, and contrary to that reality that scores of 
treaties formally transmitted to the Senate lie dormant, Senate FRC 
Rule 9 calls for swift initiation of the consideration process:
    d) Insofar as possible, the Committee should conduct a public 
hearing on each treaty as soon as possible after its submission by the 
President. Except in extraordinary circumstances, treaties reported to 
the Senate shall be accompanied by a written report.
    As also discussed in ``Transmittal'', Senate Standing Rule XXX 
governs Senate treaty procedure.
    The Constitution requires two-thirds of those ``present,'' or 
voting. As mentioned, Alexander Hamilton foresaw possible political 
gamesmanship in the ratification process, detailed in Federalist No. 
75. Hamilton argued that requiring two-thirds of those ``present'' 
would mitigate these opportunities. Hamilton's fears were prescient, 
though the resolved language suffers a similar soft underbelly for 
political hijinks.
    Imagine one party seeing great political gain in voting for a 
politically charged treaty so long as it failed, and great peril--
political and otherwise--if enacted. This describes the dynamic between 
many Senators and Kyoto. Extensive polling data show, for example, that 
the concept of ``doing something'' about ``global warming'' enjoys 
popular support so long as it remains a proposal potentially warding 
off future catastrophe. The actual requirements of massive energy use 
reductions, and how to attain them, are not quite so popular.
    Consider a height of media and trade competitor outrage about a 
U.S. President having informally ``rejected'' a treaty, say after one 
World or Kyoto summit. The savvy Majority Leader might schedule a 
treaty vote (see debate over ``Transmittal,'' supra). The intent would 
be the near-certain, near-unanimous support of one party and a nicely 
contrasting party bloc voting nearly unanimously against. Two-thirds 
would not be achieved. Whispers to the Majority party's business 
supporters could issue that the treaty stands no chance, so do not 
become alarmed. This display would provide one party an opportunity to 
declare their concern and support for a document that is politically 
advantageous among certain constituencies, while casting its opposition 
as heartlessly standing in the way. That party would carry a powerful 
rhetorical weapon into the next elections.
    This scenario collapses should most, e.g., Republicans simply not 
be ``present'' come vote time. In such case, it seems highly likely the 
attempted ploy would severely backfire, to great fanfare and political 
heat from the other party's own ``green'' base. Members would rush to 
the well to change their vote, and/or the treaty would ultimately be 
pulled from consideration, naturally amid claims of the opposition's 
irresponsibility. The alternative to this retreat would be a party 
single-handedly responsible for the U.S. committing itself to a treaty 
wildly unpopular even in theory among most labor and energy consuming 
interests. For this reason, the required Senate vote remains subject to 
gamesmanship.
    Further, and as referenced, supra, in theory problems can arise 
with agreements open for ratification though they are subject to 
further negotiations, and indeed may require significant narrowing of 
the meaning of its various provisions before offering sufficient detail 
to be enforceable or even considered a meeting of the minds. Kyoto is a 
sterling example of such problems.
    Kyoto's express window for ratification was already open by, e.g., 
the November 2000 COP-6 in The Hague, and numerous countries had 
already ratified the agreement such that it could go into effect 
against them should it gain sufficient ratifications.\111\ The Hague 
negotiations collapsed with no alteration or narrowing of the terms 
after the EU and U.S. avowed wildly divergent opinions on the meaning 
of several terms key to the agreement's financial impact on the 
U.S.\112\ The parties immediately called ``COP-6.5'', held in Marrakech 
in September 2001, to resume negotiations. By that time, President Bush 
had taken office and repeated his campaign opposition to Kyoto, 
solidifying the rhetorical, if not de facto, ``rejection'' by the U.S. 
initiated at The Hague collapse.
---------------------------------------------------------------------------
    \111\ Of course, these ratifying nations were not those facing 
actual emission reduction obligations under Kyoto, but among the 140 
``exempt'' nations, who were principally made eligible to receive 
wealth transfers under the treaty's auspices.
    \112\ These negotiations occurred after the U.S. Presidential 
election but prior to its resolution. There, the EU negotiators, likely 
sensing desperation on the part of Clinton Administration negotiators 
aware an administration opposed to Kyoto might well be inaugurated 
soon, refused to take ``yes'' for an answer on key issues on the table. 
Specifically, they held to a unique assertion regarding the significant 
limitation upon sinks (credits for land use practices which actually 
remove GHGs from the atmosphere), simply not visible to the naked eye 
when reading the relevant Kyoto title (Article 3). The EU implausibly 
insisted that parties intended the language that sinks ``shall be used 
to meet the commitments under this article'' really only intended 
allowance for insignificant sink credits. Given the U.S. intended to 
meet a major portion of its Kyoto commitment through sinks, this 
initiated the beginning of the (temporary?) ``end'' of full-fledged 
U.S. participation in Kyoto talks.
---------------------------------------------------------------------------
    Therefore, Kyoto actually collapsed, so far as U.S. participation 
is concerned, under the prior administration. The more relevant lesson 
is that treaties open for ratification can, and often do, present 
little in the way of an actual meeting of the minds permitting 
implementation and compliance. Ratification should always be undertaken 
warily, but, as this shows, should not even be considered when the 
treaty remains subject to determining what it is that parties actually 
agreed.
Deposit of Ratification Instrument
    Despite the Clinton Administration negotiating Kyoto, for example, 
over the course of 25 months it never ``communicated'' the treaty to 
the Senate for a ratification vote.\113\
---------------------------------------------------------------------------
    \113\ See ``Submission'', supra, for discussion of the necessity of 
communicating a treaty to the Senate, or whether the Executive's 
signature is sufficient justification for the Court to assert the 
Senate's ability to ratify the document
---------------------------------------------------------------------------
    Still, though a ratification vote would create a stronger argument 
of commitment, under Vienna Article 18, than would mere signature, it 
does not formalize ``consent to be bound by the treaty'', pursuant to 
the terms of most pacts. Even after agreement, signature, and a 
ratification vote a country is not formally bound to the terms of a 
treaty until it submits its instrument of ratification.\114\
---------------------------------------------------------------------------
    \114\ See the UN's ``Model Instrument for Ratification'', at http:/
/untreaty.un.org/English/TreatyHandbook/ annex4.htm.
---------------------------------------------------------------------------
Post-Ratification
    Treaties can either require parties to enact implementing 
legislation, or be ``self-implementing'', that is, needing no new 
authority to implement its terms.\115\ Clearly, of course, as 
authorities vary by state, a self-implementing treaty to one party may 
require implementing legislation by another. Typically, however, self-
implementing treaties provide reporting and accounting functions 
generally available to any relevant regulatory or administrative body.
---------------------------------------------------------------------------
    \115\ ``Implementation The executive branch has the primary 
responsibility for carrying out treaties and ascertaining that other 
parties fulfill their obligations after treaties and other 
international agreements enter into force, but the Senate or the entire 
Congress share in the following phases.'' ``Treaties and Other 
International Agreements: The Role of the U.S. Senate'', p. 12. ``A 
question that may be raised under U.S. law is whether or not Congress 
has a duty to implement a treaty which is in force internationally, but 
which requires additional legislation or implementation or an 
appropriation of funds to give effect to obligations assumed 
internationally by the United States. When implementation of a treaty 
requires domestic legislation or an appropriation of funds, only the 
Congress can provide them.'' Id. at pp. 166-67. Despite no specific 
implementing legislation, however, the Senate has indeed appropriated 
funds in pursuit of administrative programs seeking to advance Rio's 
objectives.
    The FRC Report continues, ``The extent of congressional obligation 
to implement a treaty under U.S. law has not been resolved in 
principle. FN 61 According to an often-cited authority, Congress has 
generally responded 'to a sense of duty to carry out what the treaty-
makers promised, to a reluctance to defy and confront the President 
(especially after he can no longer retreat), to an unwillingness to 
make the U.S. system appear undependable, even ludicrous . . .''' Id. 
at 167, quoting Henkin, Louis. Foreign Affairs and the United States 
Constitution. 2d ed. 1996, pp. 205-206. The referenced FN 61 says in 
pertinent part, ``[F]ailure to implement an internationally perfected 
treaty would constitute a violation of obligations assumed by the 
United States under international law. See Memorandum of April 12, 
1976, by Monroe Leigh, Legal Adviser, Department of State, as quoted in 
U.S. Department of State. Digest of U.S. Practice in International Law 
1976. 1977, p. 221.'' This begs the question: ``to precisely what 
extent was the ``non-binding'' Rio binding?''
    Addressing this question prior to ratification, ``[t]he [Senate 
Foreign Relations] Committee made clear, in other words, its view that 
'[t]he final framework convention contains no legally binding 
commitments to reduce greenhouse gas emissions' . . . While these 
statements may not be as legally binding as a formal condition to the 
Senate's ratification of the 1992 Convention [ed: reservations were 
prohibited by Rio's terms], it is doubtful that any administration 
could ignore them.'' ``Global Climate Change: Selected Legal Questions 
about the Kyoto Protocol'', p. 4. CRS Report for Congress (March 29, 
2001), citing in part 138 CONG. REC. 33521 (Oct. 7, 1992)(statement of 
Sen. McConnell).
    To avoid future such uncertainty, in S.Res. 98 the Senate ``stated 
the view that any agreement which would require Senate advice and 
consent should be accompanied by a detailed analysis of its economic 
impact and of any legislation and regulations necessary to implement 
the agreement.'' See CRS Report at p. 6, FN 25.
---------------------------------------------------------------------------
    An example of a self-ratifying treaty is the Rasmar Convention, or 
Convention on Wetlands of International Importance Especially as 
Waterfowl Habitats.\116\
---------------------------------------------------------------------------
    \116\ I.L.M. 11:963-976; September 1972. This Convention entered 
force on December 21, 1975, after the required signatures of seven 
countries. The U.S. Senate consented to ratification of the Convention 
on October 9, 1986, and the President signed instruments of 
ratification on November 10, 1986.
---------------------------------------------------------------------------
    The Convention requires no implementing legislation as it merely 
requires maintenance of a list of wetlands of international importance 
and encourages ``wise use'' of wetlands in order to preserve the 
ecological characteristics from which wetland values derive. The 
required function(s) can be effected under existing regulatory and/or 
administrative authority, in this case the task is merely the U.S. Fish 
and Wildlife Service serving as an administrative authority, in 
consultation with the Department of State.\117\
---------------------------------------------------------------------------
    \117\ See http://laws.fws.gov/lawsdigest/treaty.html#list.
---------------------------------------------------------------------------
    The Kyoto Protocol, however, is an entirely different story. Even 
in theory it is highly suspect that Kyoto could possibly proceed 
without implementing legislation. This because for the U.S. to achieve 
its obligations realistically requires significant reduction in 
emissions from energy use. The former, emissions, are for the most part 
not considered ``pollutants'' and therefore not regulated; the latter, 
actual energy use, is not regulated in any governmental sense but by 
market forces. Kyoto reductions would in fact require a massive series 
of initiatives to implement its regime, from emissions limitations and 
myriad tax provisions to internal versions of, inter alia, the 
international verification and trading infrastructures. That maze is 
illustrative of a treaty that is decidedly not self-implementing.
Withdrawal
    The U.S. Constitution is silent as to the process for treaty 
withdrawal. Treaties provide their own provisions for withdrawal from 
their commitments. Kyoto's procedure, for example, is set forth in 
Article 27, as follows:
    ``1. At any time after 3 years from the date on which this Protocol 
has entered into force for a Party, that Party may withdraw from this 
Protocol by giving written notification to the Depositary.
    2. Any such withdrawal shall take effect upon expiry of 1 year from 
the date of receipt by the Depositary of the notification of 
withdrawal, or on such later date as may be specified in the 
notification of withdrawal.
    3. Any Party that withdraws from the Convention shall be considered 
as also having withdrawn from this Protocol.''
    Clearly, Senate ratification of a treaty that includes a withdrawal 
mechanism should resolve the question of the legitimacy of an executive 
acting pursuant to such mechanism. Though withdrawal can be politically 
contentious, little controversy appears likely over the actual process 
of withdrawal from treaties in-effect.\118\
---------------------------------------------------------------------------
    \118\ Yet this is not the case, be the treaty in effect or 
otherwise. ``Domestically, the Constitution does not prescribe a 
process for the United States to terminate a treaty, and the process 
remains controversial. Treaties have been terminated in a variety of 
ways, including by the President following a joint resolution of 
Congress, by the President following action by the Senate, by the 
President and with subsequent congressional or Senate approval, and by 
the President alone.'' ``Treaties and Other International Agreements,'' 
at 14.
    Regarding ABM, controversy exists in that numerous Members of 
Congress have filed suit against President Bush's invocation of the 
withdrawal provision in the anti-ballistic missile (ABM) treaty, signed 
with the now-defunct Soviet Union. See also S. 1565 (107th), proposed 
Senate resolution of disapproval.
---------------------------------------------------------------------------
    That focused upon in this paper, however, is the curious, topical 
matter of withdrawing from agreements not ratified because of the 
possibility of obligations arising from pre-ratification 
commitments.\119\ The treaty may merely be signed, and not transmitted 
to the Senate. The document may have been transmitted but not yet taken 
up. As discussed in ``Submission'', supra, that transmittal may or may 
not matter. Finally, a treaty may have been taken up for Senate 
consideration, but failed to achieve the requisite two-thirds 
vote.\120\
---------------------------------------------------------------------------
    \119\ There is also little room to dispute that an ``agreed to'' 
treaty as yet unsigned requires no withdrawal, given that even the 
``troublemaking'' provision Vienna 18, is triggered by the signature, 
not some even less formal level of ``commitment''. Specifically: ``A 
State is obliged to refrain from acts which would defeat the object and 
purpose of a treaty when (a) it has signed the treaty or has exchanged 
instruments constituting the treaty subject to ratification, acceptance 
or approval . . .'' The canon expressio unius est exclusio alterius 
would indicate that ``commitments'' begin with the signature. Also, the 
pre-signature, ``agreement'' stage as in the 1997 Kyoto ``agreement'' 
likely does not rise to the level of ``exchanging documents.'' See the 
canons noscitur a sociis and ejusdem generis.
    \120\ Does the latter circumstance satisfy the Vienna test of 
making ``its intention clear not to become a party to the treaty''? 
This is a fascinating question given that ``(6) Treaties Reported by 
the [Foreign Relations] Committee but neither approved nor formally 
returned to the President by the Senate are automatically returned to 
the Committee calendar at the end of a Congress; the Committee must 
report them out again for the Senate to consider them.'' Therefore, a 
``defeated'' treaty is not necessarily rejected until it is returned to 
the President. See ``Treaties and Other International Agreements: The 
Role of the U.S. Senate'', p. 12, at http://frwebgate.access.gpo.gov/
cgi-bin/getdoc.cgi?dbname=106--cong--senate--print&docid=f:66922. pdf.
---------------------------------------------------------------------------
    Kyoto's sole relevant provision addresses only a treaty having 
entered into force and offers no guidance as to how a state extracts 
itself from whatever commitments are incurred through signature.\121\ 
This is seemingly true with the Vienna Convention's numerous relevant 
Articles (54--72), though those seem arguably susceptible to claims 
that they translate at minimum in spirit to state efforts to ``[make] 
its intention clear not to become a party to the treaty''.
---------------------------------------------------------------------------
    \121\ For an example of withdrawal from a treaty in effect, see 
U.S. termination of recognition of compulsory jurisdiction of the 
International Court of Justice Treaty Series, vol. l, p. 9.
---------------------------------------------------------------------------
    The UNFCCC ought to serve as an authority on this issue, but, 
curiously, the same UNFCCC correspondence to the author regarding the 
U.S. status re: Kyoto, cited in FN 19, supra, also asserted: ``There is 
no procedure for the withdrawal of a signature in the [UNFCCC or 
Kyoto].'' A follow-up request as to whether this indicates the UNFCCC 
does not recognize the Vienna Convention has gone unanswered to date.
    We can be confident that, at least in the case of the U.S., the 
Vienna Article 18 requirement is not satisfied by senior officers 
merely speaking ill of a treaty.\122\
---------------------------------------------------------------------------
    \122\ Vienna does permit rejection or withdrawal, if not elsewhere 
provided otherwise and only under certain conditions, by 
``denunciation.'' See, e.g., Articles 42-44, 56, etc. However, that 
appears to be a term of art applicable only to executives with 
unilateral power to effect a treaty. Clearly, given the discussion 
above, that does not by itself seem to exclude the U.S. and its own 
system's peculiarities, when a treaty has yet to be ratified. Still, 
President Bush's precedent regarding Rome has established how the U.S. 
expresses its rejection. Mere badmouthing can reasonably be viewed as a 
negotiating ploy for a better offer.
---------------------------------------------------------------------------
    As regards the never ratified, never transmitted Kyoto (or Rome), 
President Bush's badmouthing of the treaty, though he may clearly still 
reject it, would not be considered to constitute rejection by 
``denunciation.'' The U.S. continues to send delegations to the 
relevant negotiations, though in a strange, voluntarily mitigated role 
that is a matter of some controversy.\123\ Kyoto provides for 
``observers'' in Article 15: ``2. Parties to the Convention that are 
not Parties to this Protocol may participate as observers in the 
proceedings of any session of the subsidiary bodies. When the 
subsidiary bodies serve as the subsidiary bodies of this Protocol, 
decisions under this Protocol shall be taken only by those that are 
Parties to this Protocol.'' It is this provision the Administration 
seems to believe it is invoking by attending negotiations in full 
force, but in a somewhat ``backbench'' role.\124\
---------------------------------------------------------------------------
    \123\ One reason provided by the Bush Administration, publicly if 
informally for the U.S. not having submitted any communication to the 
UNFCCC indicating its intent to not be bound by Kyoto is that the U.S. 
must remain a part of ``the Kyoto process''. There is no ``Kyoto 
process,'' however, until the treaty achieves sufficient ratification 
to go into effect. Until that time, these negotiations remain part of 
the Rio Process (e.g., Kyoto emerged not from COP-1, or a Kyoto 
process, but COP-3, of the Rio Process pursuant to Rio Article 7). The 
U.S. delegation now assumes a second-class citizen posture, 
communicating desires through a proxy nation (typically Canada, one of 
the ``umbrella group'' nations; other such groups are the EU, the G-77 
and China, etc.). This seems a wasted exercise as until Kyoto goes into 
effect, as a ratifying party to Rio the U.S. has every right to 
actively participate in the current round of COPs. This is another 
example of how protocol, or the desire to not upset other parties, 
dominates treaty process more than legal requirements.
    \124\ The Administration are likely incorrect. Specifically, the 
U.S. is informally spreading the word that because it has not ratified 
Kyoto it is not a ``Party'', but thereby eligible for Article 15 
``observer'' status. Yet it is clear that ``Party'' status originated 
with the agreement to Kyoto's terms at the close of COP-3. 
Specifically, Kyoto's own language belies a claim that until Kyoto is 
made effective by sufficient ratifications there are no ``Parties'' to 
the agreement.
    The relevant provisions include, but are in no way limited to, the 
following: a) Kyoto's preamble prior to its articles states ``The 
Parties to this Protocol . . . Have agreed as follows: [Articles] . . 
.'', dated December 1997 and setting forth articles clearly reading in 
the present tense, and not as if relevant solely upon ratification; b) 
Articles 6.2, 7.4, 16, 18 and 20, among others, all reference 
activities which to the extent they have been addressed in the days 
since COP-3 manifest that it is ``Parties''--to the Protocol, not the 
UNFCCC--who have been deliberating since; c) Article 13.2 makes clear 
that any decisions made regarding further narrowing of the Kyoto 
language, subsequent to COP-3, were made by Parties to the Protocol; 
and d) Article 13.7 appears to set forth the mechanism by which COP-6.5 
(Bonn) was called and particularly timed, at the request of a Party to 
Kyoto.
    In sum, it takes remarkable creativity to contend under the 
language of Kyoto that no Parties to Kyoto exist until sufficient 
ratifications to bring Kyoto into effect have been submitted to the 
Directorate.
---------------------------------------------------------------------------
    Instead, withdrawal from a treaty (in effect) sufficient to satisfy 
Vienna is accomplished by communicating this intent to the other 
parties to the treaty.\125\ As regards the unratified Rome Treaty, 
President Bush doubtless satisfied the relevant requirement by 
submitting an instrument rescinding the signature to the same body to 
which the signature was communicated. Regarding such treaties, however, 
until such communication, any nation is free to pursue an action 
seeking to have, for example, either the Bush energy plan calling for 
the construction of more coal-fired power plants, or its ``Climate 
Action'' proposal allowing increased greenhouse gas emissions, for they 
clearly violate Kyoto's ``object and purpose''.\126\
---------------------------------------------------------------------------
    \125\ See Vienna Article 67.
    \126\ Further, would the U.S. extending, or even permitting the 
continued application of, oil and gas depletion allowances (tax breaks 
facilitating lower-priced energy) also constitute a violation of Vienna 
via Kyoto? If so, how about recently extended state subsidies for the 
German coal industry, a nation which subsequently ratified Kyoto?
---------------------------------------------------------------------------
    Finally, reconsider the Geneva Convention Protocol I. President 
Reagan transmitted a statement to the Senate whereby he did not send 
the language and ask for an unsuccessful vote on ratification, but 
asked for an ``expression of the sense of the Senate'' that it shared 
his disapproving view of the agreement. This appears to be a mere 
semantic distinction, but by so doing President Reagan performed a 
burden shift, establishing by precedent a position on which very few 
hard and fast rules govern. This transmittal intimated that the treaty 
was purely in the Senate's realm upon Executive signature, when in fact 
it is likely in the province of either the Executive or the Senate at 
this point to act.
                               conclusion
    The Kyoto Protocol, and its predecessor the Rio Treaty, offer an 
excellent example of the distorted modern application of the Treaty 
Power. This article intends to expose the impropriety of the U.S. 
agreeing to amend the U.N. Framework Convention on Climate Change 
(UNFCC, or Rio Treaty), by ratifying the Kyoto Protocol.
    For whatever specific reasons (economic growth, failure to foresee 
the energy requirements of the ``new economy'', or other), the U.S., 
like many nations, failed to meet its voluntary Rio targets.\127\
---------------------------------------------------------------------------
    \127\ See, e.g., http://unfccc.int/resource/docs/natc/eunc3.pdf. 
The EU, which under Kyoto has negotiated a ``bubble'' such that it 
could pool its increases and ``reductions'', announced in May that it 
met its Rio target. It said it had reduced greenhouse gases by 3.5 
percent below 1990 levels in 2000. This is commonly attributed to the 
ending of coal subsidies in Great Britain in their push to replace coal 
with gas, shutting down East German industry and that Europe did not 
match the U.S.' decade-long economic expansion. Russia, e.g., met its 
target by regressing economically.
---------------------------------------------------------------------------
    Now some advocates assert, ``Because the U.S. has not met its Rio 
goal, we must commit to even greater mandatory reductions (Kyoto)''. 
Attempting instead to comply with the initial treaty seems the more 
appropriate response, for several reasons.
    Rio went into force in March 1994. President Clinton did not 
request, nor did Congress enact, independent legislation implementing 
Rio, which was not an inherently self-executing treaty.\128\ Authority 
and precedent make clear that responsibility for proposing such 
programs lies with the White House.\129\ If our ``non-binding'' Rio 
obligations in fact ``bound'' the U.S. to achieve specific 
reductions\130\--contrary to contemporary Senate and Executive 
assertions of U.S. intent--then the Executive interpretation of Rio 
Article 4 throughout the 1990's was actually incorrect, and is 
responsible. The pending question is apparently: does the U.S. respond 
by attempting to meet such Rio promises, or by making further, even 
deeper, binding promises?
---------------------------------------------------------------------------
    \128\ As the party charged with ``making'' treaties the Executive 
is responsible for meeting, or at minimum proposing legislation to 
affect, treaty commitments. President Clinton proposed a Btu tax, 
though not expressly in pursuit of Rio. It failed once and did not 
emerge again. He instituted his Climate Action Plan, which with minor 
recent modifications continues to this day with more than 50 voluntary 
programs, though a quick search of Thomas revealed no implementing 
legislation. Congress did appropriate money in response to proposals by 
the Executive. See, e.g., ``Treaties and Other International 
Agreements: The Role of the U.S. Senate'', S. Rpt. 106-71, p.4.
    \129\ ``Implementation The executive branch has the primary 
responsibility for carrying out treaties and ascertaining that other 
parties fulfill their obligations after treaties and other 
international agreements enter into force, but the Senate or the entire 
Congress share in the following phases.'' ``Treaties and Other 
International Agreements'', p. 12. ``A question that may be raised 
under U.S. law is whether or not Congress has a duty to implement a 
treaty which is in force internationally, but which requires additional 
legislation or implementation or an appropriation of funds to give 
effect to obligations assumed internationally by the United States. 
When implementation of a treaty requires domestic legislation or an 
appropriation of funds, only the Congress can provide them.'' Id. at 
pp. 166-67.
    The FRC Report continues, ``The extent of congressional obligation 
to implement a treaty under U.S. law has not been resolved in 
principle. FN 61 According to an often-cited authority, Congress has 
generally responded 'to a sense of duty to carry out what the treaty-
makers promised, to a reluctance to defy and confront the President 
(especially after he can no longer retreat), to an unwillingness to 
make the U.S. system appear undependable, even ludicrous . . .''' Id. 
at 167, quoting Henkin, Louis. Foreign Affairs and the United States 
Constitution. 2d ed. 1996, pp. 205-206. The referenced FN 61 says in 
pertinent part, ``[F]ailure to implement an internationally perfected 
treaty would constitute a violation of obligations assumed by the 
United States under international law. See Memorandum of April 12, 
1976, by Monroe Leigh, Legal Adviser, Department of State, as quoted in 
U.S. Department of State. Digest of U.S. Practice in International Law 
1976. 1977, p. 221.'' This begs the question: ``to precisely what 
extent was the ``non-binding'' Rio binding?
    \130\ Addressing the question, above (FN 5), prior to ratification, 
``[t]he [Senate Foreign Relations] Committee made clear, in other 
words, its view that '[t]he final framework convention contains no 
legally binding commitments to reduce greenhouse gas emissions' . . . 
While these statements may not be as legally binding as a formal 
condition to the Senate's ratification of the 1992 Convention [ed: 
reservations were prohibited by Rio's terms], it is doubtful that any 
administration could ignore them.'' ``Global Climate Change: Selected 
Legal Questions about the Kyoto Protocol'', p. 4. CRS Report for 
Congress (March 29, 2001), citing in part 138 CONG. REC. 33521 (Oct. 7, 
1992)(statement of Sen. McConnell).
    To avoid future such uncertainty, in S.Res. 98 (105th Cong., 1st 
Sess., adopted at 143 CONG. REC. S 8138 (daily ed. July 25, 1997)), the 
Senate ``stated the view that any agreement which would require Senate 
advice and consent should be accompanied by a detailed analysis of its 
economic impact and of any legislation and regulations necessary to 
implement the agreement.'' See CRS Report at p. 6, FN 25.
---------------------------------------------------------------------------
    Skipping specific pursuit of the U.S.' Rio promises, in favor of 
Kyoto's binding commitments even greater than those we've failed to 
attain, seems highly illogical. Compounding this of course is that, 
precisely 5 years ago tomorrow, the Senate unanimously spoke to what it 
recognized was an unacceptable drift away from the U.S. Rio stance 
adamantly opposed to binding commitments. The Senate, seeing what was 
developing, asserted its ``Advice'' pursuant to Article II, Section 2 
of the U.S. Constitution, passing S. Res. 98.\131\
---------------------------------------------------------------------------
    \131\ ``In mid-1997, as these negotiations were underway, the 
Senate passed S. Res. 98 [ed.: ``Byrd-Hagel,'' S.Res. 98 105th Congress 
(105-54 July 21, 1997)], which stated that the Senate would not approve 
any agreement on binding reductions in greenhouse gases that did not 
include commitments by developing countries as well as developed/
industrialized countries, or that would result in harm to the U.S. 
economy. The administration has not transmitted the Kyoto Protocol to 
the Senate because, among other reasons, developing countries have to 
date not been willing to consider making binding commitments regarding 
their greenhouse gas emissions.'' ``Treaties and Other International 
Agreements'', p. 276.
    The operative language is as follows: ``Resolved, That it is the 
sense of the Senate that----
    (1) the United States should not be a signatory to any protocol to, 
or other agreement regarding, the United Nations Framework Convention 
on Climate Change of 1992, at negotiations in Kyoto in December 1997, 
or thereafter, which would----
    (A) mandate new commitments to limit or reduce greenhouse gas 
emissions for the Annex I Parties, unless the protocol or other 
agreement also mandates new specific scheduled commitments to limit or 
reduce greenhouse gas emissions for Developing Country Parties within 
the same compliance period, or
    (B) would result in serious harm to the economy of the United 
States''.
---------------------------------------------------------------------------
    Subsequent to and despite this Advice, U.S. negotiators clearly 
disregarded both major Byrd-Hagel recommendations: Kyoto did not 
require developing countries to share our commitments, and even the 
Clinton White House economic advisors have recanted their refutations 
of the Kyoto cost estimates.\132\
---------------------------------------------------------------------------
    \132\ ``Economists from the Clinton White House now concede that 
complying with Kyoto's mandatory reductions in greenhouse gases would 
be difficult--and more expensive to American consumers than they 
thought when they were in charge.'' USA Today, 12 June 2001.
---------------------------------------------------------------------------
    Since then, nothing has emerged to indicate that Kyoto does not 
still violate both key Byrd-Hagel conditions, and it is likely that 
very few Senators have amended their position against a treaty causing 
``serious economic harm.'' However, Clinton Administration officials 
did admit that they began working on the plan for binding commitments 
within 1 year after Rio went into effect.\133\
---------------------------------------------------------------------------
    \133\ In 1996, Deputy Assistant Secretary of State Rafe Pomerance 
asserted that ``the administration has been working on this policy for 
more than a year'', quoted in Nature, 25 July 1996.
---------------------------------------------------------------------------
    Kyoto, too, is clearly intended to be a similar step in a ``treaty 
hopping'' campaign: even the models on which it is based predict an 
undetectable climatic impact\134\--at a cost to the U.S. of up to $400 
billion annually\135\--yet may be 1/30th of what its proponents 
seek.\136\ Rio and Kyoto offer differing commitments but purport ``the 
same ultimate objective.''\137\ The U.N. IPCC has said this means 
reducing GHG emissions by as much as 60-80 percent, which wildly 
exceeds Kyoto's specified ambitions.
---------------------------------------------------------------------------
    \134\ See, Testimony of Dr. Sallie Baliunas to the Senate Committee 
on Environment and Public Works, at http://www.techcentralstation.com/
1051/envirowrapper.jsp?PID=1051-450&CID=1051-031302C.
    \135\ U.S. Department of Energy, Energy Information Administration, 
Office of Integrated Analysis and Forecasting. ``Impacts of the Kyoto 
Protocol on U.S. Energy markets and Economic Activity.'' Washington, 
DC. October 1998.
    \136\ ``Yet the climate simulations lead to the conclusion that the 
Kyoto reductions will have little effect in the twenty-first century 
(15), and 1930 Kyotos' may be needed to reduce warming to an acceptable 
level.' James Hansen, Makiko Sato, Reto Ruedy, Andrew Lacis, and Valdar 
Oinas, ``Global warming in the twenty-first century: An alternative 
scenario,'' Proceeding of the National Academy of Sciences, August 29, 
2000.
    Hansen was citing Malakoff, D. (1997) Science 278, 2048.
    \137\ ``[S]tabilization of greenhouse gas concentrations in the 
atmosphere at a level that would prevent dangerous anthropogenic 
interference with the climate system.'' See, e.g., Rio Article 2.
---------------------------------------------------------------------------
    As such the U.S. should require, prior to and as part of ratifying 
any further agreements, express acknowledgement not only of the actual 
``ultimate goal'', but that it is committed to its practical 
requirements, in this case up to ``30 Kyotos''.
    Such ``treaty hopping'' agendas illustrate the importance of Senate 
treaty ``reservations'', or the Senate's second bite at the ``Advice'' 
apple. This comes of course during the ``Consent'' function, which 
function the U.S. negotiators unfortunately eviscerated. After agreeing 
to terms incompatible with Byrd-Hagel, the Administration also accepted 
Kyoto's prohibition on reservations, or the Senate's ability to specify 
the specific understandings or conditions of the U.S. commitment. This 
despite the Senate also having forewarned the administration about this 
in advance of Kyoto.\138\
---------------------------------------------------------------------------
    \138\ See ``Treaties and Other International Agreements,'' at 274.
---------------------------------------------------------------------------
    In summation, President Bush ought to match his assertions of 
having ``rejected'' Kyoto with the requisite submission to the U.N. to 
that effect, as was done regarding the International Criminal 
Court.\139\ In the absence of that act, the White House must at minimum 
assist resolution of the ambiguous U.S. role in Kyoto by requesting the 
Senate disapprove of the treaty. In the absence of that, the Senate 
should recognize that there is no reverse equivalent of the 
``presentment'' clause\140\, regarding treaties. Only protocol, not any 
constitutional prohibition, impedes Senate consideration of a signed 
treaty. Certainly given the imperative rhetoric surrounding Kyoto, if 
President Bush insists on continuing the U.S.' ambiguous role the 
Senate should take matters into its own hands, and decide the fate of 
this agreement.
---------------------------------------------------------------------------
    \139\ The President manifested that this is how the United States 
makes ``its intention clear to not become a party to the treaty,'' as 
required by ``customary'' law and the Vienna Convention Article 18. 
``[S]ignature by the U.S. does impose an obligation on the U.S. under 
international law to refrain from actions that would undermine the 
Protocol's object and purpose. That obligation continues to apply until 
such time as the U.S. ratifies the Protocol or makes clear its intent 
not to do so.'' ``Global Climate Change: Selected Legal Questions about 
the Kyoto Protocol'', CRS Report for Congress (March 29, 2001).
    \140\ U.S. Constitution, Article I, Section 7: ``Every Bill which 
shall have passed the House of Representatives and the Senate, shall, 
before it become a Law, be presented to the President of the United 
States''.
    Though it has not yet done so, precedent indicates the Senate can 
also effect this outcome by passing a Sense of the Senate expressing 
disapproval of a signed, not ratified treaty. See, ``Withdrawal,'' in 
attached article.
---------------------------------------------------------------------------
    That resolution should by definition be rejection of Kyoto. 
Otherwise, by accepting this double indignity of ignoring advice and 
prohibiting reservations, this body would condone Executive 
circumvention of the Senate's constitutional treaty role.
                               __________
 Statement of Jon Reisman, Associate Professor of Economics and Public 
                 Policy, University of Maine at Machias
    I would like to call the attention of the Committees on Foreign 
Relations and Environment and Public Works to a troubling development 
in New England, where all six New England Governors (NEG) have entered 
into an unconstitutional agreement with the Eastern Canadian Premiers 
(ECP) to implement the Kyoto Protocol's caps on carbon dioxide 
(CO<INF>2</INF>) emissions. \1\
---------------------------------------------------------------------------
     \1\Committee on the Environment and the Northeast International 
Committee on Energy of the Conference of New England Governors and 
Eastern Canadian Premiers, Climate Change Action Plan 2001. http://
www.scics.gc.ca/pdf/850084011--e.pdf
---------------------------------------------------------------------------
    In my view, the NEG/ECP climate change agreement:
    <bullet>  Violates Article 1, Section 10 of the Constitution: ``No 
State shall enter into any Treaty, Alliance or Confederation . . . No 
State shall, without the Consent of Congress . . . enter into any 
Agreement or Compact with another State, or with a foreign Power . . 
.'' and
    <bullet>  Seeks to implement the Kyoto Protocol before the U.S. 
Senate has ratified it, and when, in fact, it has been rejected 
explicitly by the President and implicitly by the terms of Senate 
Resolution No. 98 by a vote of 95-0.
    The NEG/ECP climate change agreement is a transparent attempt to 
implement the Kyoto Protocol, without reference to the complex terms of 
the Protocol itself. It calls for reducing greenhouse gas emissions to 
1990 levels by 2010 and to 10 percent below 1990 levels by 2020. This 
level of reduction substantially exceeds the 7 percent reduction target 
that the United States would need to meet by 2008-2012 under the Kyoto 
agreement.
    Action steps under the NEG/ECP climate agreement include:
    1) establishing a regional, standardized greenhouse gas emissions 
inventory and emissions reduction plan;
    2) ``educating'' the public about the ``problem, causes and 
solutions'' of global warming;
    3) decreasing emissions from the electricity and transportation 
sectors, and
    4) creating a regional registry and emissions trading mechanism.
    The New England Governors are scheduled to travel to Quebec this 
August and likely will sign an agreement with the Eastern Canadian 
Premiers to begin implementing the unconstitutional pledge they made 
last year. \2\ This year, they intend to work out specific goals and 
implementation schemes.
---------------------------------------------------------------------------
     \2\News summary of the 2001 meeting at http://www.edie.net/news/
Archive/4632.cfm
---------------------------------------------------------------------------
    There is settled precedent supporting the position that the NEG/ECP 
climate agreement violates the U.S. Constitution. In Holmes v. 
Jennison, Chief Justice Taney emphasized the broad intent of the 
framers underlying Section 10:
    ``As these words ('agreement or compact') could not have been idly 
or superfluously used by the framers of the Constitution, they cannot 
be construed to mean the same thing with the word treaty. They 
evidently mean something more, and were designed to make the 
prohibition more comprehensive. . . . The word `agreement' does not 
necessarily import and direct any express stipulation; nor is it 
necessary that it should be in writing. . . .
    ``And the use of all of these terms, `treaty,' `agreement,' 
`compact,' show that it was the intention of the framers of the 
Constitution to use the broadest and most comprehensive terms; and that 
they anxiously desired to cutoff all connection or communication 
between a State and a foreign power; and we shall fail to execute that 
evident intention, unless we give to the word `agreement' its most 
extended signification; and so apply it as to prohibit every agreement, 
written or verbal, formal or informal, positive or implied, by the 
mutual understanding of the parties.'' 14 Pet. (39 U.S.) 540, 570-572 
(1840).
    In addition to these legal concerns, the policy wisdom of 
implementing Kyoto may certainly be debated in the face of the National 
Academy of Sciences' recent finding that anthropogenic vs. natural 
causality is still clouded by considerable uncertainty \3\. Correlation 
is not causation, and the atmospheric models that global warming 
advocates rely upon predict that the upper atmosphere will warm first, 
something that has not happened and is still unexplained. Furthermore, 
those same flawed models predict that the reductions in CO<INF>2</INF> 
envisioned in Kyoto will essentially have no effect on climate \4\.
---------------------------------------------------------------------------
     \3\National Academy of Sciences. Climate Change Science: An 
Analysis of Some Key Questions (2001) http://books.nap.edu/books/
0309075742/html/
     \4\Testimony of Dr. Sallie Baliunas to the Senate Committee on 
Environment and Public Works http://www.techcentralstation.com/1051/
envirowrapper.jsp?PID=1051-450&CID=1051-031302C
---------------------------------------------------------------------------
    The Committee on Foreign Relations should hold a separate inquiry 
on the purpose and Constitutional legitimacy of the NEG/ECP climate 
change agreement. Allowing six New England States to move forward to 
implement the Kyoto Protocol would support the proposition that States 
are free to ignore Article 1, Section 10, and are at liberty to 
negotiate and implement international agreements without the advice and 
consent of the U.S. Senate.
    These concerns are far from academic. Suppose, for example, that 
Vermont had disagreed with the Senate's rejection of the League of 
Nations, and had recognized and joined that entity? Article 1, Section 
10 exists precisely to avoid such situations.
    If the Environment and Public Works Committee supports the efforts 
of New England's Governors, it should introduce legislation to 
implement Kyoto's caps on a nationwide basis, and let that legislation 
be fully debated on the floor of the Senate. There is absolutely no 
defensible environmental or economic rationale for piecemeal regional 
implementation of an international agreement that fails, by its terms, 
to address future emissions growth by rapidly growing developing 
nations such as China and India. Implementing Kyoto targets on a 
regional basis would lead only to competitive disadvantage, lost wages 
and jobs, and larger State budget deficits at a time of increasing 
economic uncertainty.
    I hope that the Committees will join me in urging the 
Administration to notify the New England Governors that the United 
States Constitution still applies in New England, even on environmental 
matters. We have not, as yet, dispensed with the formality of having 
the President negotiate and the Senate ratify international agreements 
before we implement them. States are proscribed from making foreign or 
interstate agreements. That Constitutional principle is at risk here.
                                 ______
                                 
    Jon Reisman is an associate professor of economics and public 
policy at the University of Maine at Machias, where he teaches a 
variety of courses including Environmental Policy and Political 
Correctness in American Society. He has a B.A. in economics and 
environmental studies from Colby College, an M.A. in economics from 
Brown University and an M.A. in public policy and management from the 
University of Southern Maine.
    Reisman worked for Gov. Angus King in 1995 getting rid of federally 
mandated car testing in Maine. Upon returning to rural Downeast Maine, 
he led the effort opposing the endangered species listing of Atlantic 
salmon. In 1998 he was the GOP nominee in Maine's 2d congressional 
district.
    Reisman pioneered an innovative course offering, ``Political 
Correctness in American Society'' at the University of Maine at 
Machias. The course is now offered on the web. Reisman's home page is 
http://www.umm.maine.edu/faculty/jreisman/jreisman.html
                                 ______
                                 
                               Synthesis
                         (by John C. Dernbach)
    In June 1992, at the United Nations Conference on Environment and 
Development (UNCED, or Earth Summit) in Rio de Janeiro, the nations of 
the world agreed to implement an ambitious plan for sustainable 
development. The United States was one of those countries. Has the 
United States moved toward or away from sustainable development in the 
10-year period since Rio? What should the country do next? The book has 
sought to answer both questions.
    Sustainable development is ecologically sustainable human 
development; it includes but is not limited to economic development. 
Sustainable development affirms the basic goals of development since 
the end of World War II, but changes them in one key way. Development 
is based on peace, economic development, social betterment, and 
effective national governance. Its goals are human freedom, 
opportunity, and quality of life, and it has succeeded in many ways.
    Unfortunately, we now face growing environmental degradation around 
the world, and a growing gap between rich and poor. Increasingly, these 
problems undermine and hinder traditional methods of economic and 
social development. Deforestation and overfishing mean that many people 
and businesses can no longer earn a livelihood. Pollution impairs human 
health and thus human betterment. Conflicts over water and other 
resources lead to violence and civil strife. These and other problems 
are profoundly destabilizing because they mean less freedom and 
opportunity and lower quality of life.
    Sustainable development responds to these problems by adding 
environmental protection to the goals of traditional development. 
Instead of development at the environment's expense, or environmental 
protection at the expense of development, sustainable development would 
achieve both traditional development and environmental protection or 
restoration at the same time. Sustainable development affirms the 
importance of freedom, opportunity, and quality of life, for both 
present and future generations.
    Sustainable development should matter to the United States because 
freedom, opportunity, and quality of life are among our core goals as a 
Nation. Providing a better life for those who come after us is also a 
basic American value. Sustainable development would lead to a stronger, 
more efficient, and more productive America, because this country's 
economic, environmental, social, and security goals would support each 
other in greater and greater degrees over time, rather than undermine 
one another. Sustainable development would also both require and 
promote effective governance and legal systems, which Americans also 
value. By addressing the destabilizing effects of poverty and 
environmental degradation around the world, the United States could 
help make the world more secure. In addition, U.S. economic and 
military power, as well as the ethical and religious foundations for 
sustainability, suggest a special obligation to work for sustainable 
development.
    The United States has, unquestionably, begun to take some steps 
toward sustainable development. In fact, those who see sustainable 
development as including prior and ongoing efforts, such as 
conservation and pollution control, could rightly say that the 1990's 
saw a continuation of activities that began before the Earth Summit. 
Yet, on balance, the United States is now far from being a sustainable 
society, and in many respects is farther away than it was in 1992.
    While there is ``good news'' and ``bad news'' to report, the bad 
news is told in general trends, broad studies, and for entire economic 
sectors or program areas. All too frequently, the good news is limited 
to specific examples and particular programs. The United States has not 
responded in a way that corresponds to the seriousness of the problems 
we face or to the opportunities provided by sustainable development. 
Nevertheless, legal and policy tools are available to put the United 
States on a direct path to sustainability, to our great advantage and 
without major dislocations-if we can muster the will and the vision to 
use them.
    This synthesis begins with an overview of the book's findings and 
recommendations, followed by an explanation of sustainable development 
and its importance to the United States. It then summarizes each of the 
book's major sections, which concern consumption and population; 
international trade, finance, and development assistance; conservation 
and management of natural resources; waste and toxic chemicals; 
education; institutions and infrastructure; and governance. Throughout, 
the synthesis summarizes and often excerpts from individual chapters.
                                overview
A Little Good News
    In virtually every area of American life, a few people and 
organizations are exercising leadership for sustainability. A small 
number of Federal agencies, State governments, local governments, 
corporations, universities, and others have taken a leadership role in 
moving toward sustainable development over the past decade. Nearly all 
of these efforts contain room for improvement. Still, they demonstrate 
that it is both possible and desirable to reconcile environmental, 
social, and economic goals. For instance:
    The Federal Government greatly expanded its use of habitat 
conservation plans in the past decade to reconcile conflicts between 
economic development and endangered species protection. A few States 
have begun to implement strategies for sustainable development and use 
indicators for sustainability.
    At the community level, some sustainability initiatives have been 
undertaken, and are yielding some positive results.
    A handful of major corporations are seriously embracing the 
``triple bottom line'' of environment, economy, and society or equity 
as a way of setting and achieving goals. A small minority of primary 
schools, high schools, and higher education institutions are teaching 
students to perform the kind of integrated and interdisciplinary 
analysis needed to make decisions that simultaneously further social, 
economic, and environmental goals.
    In a few areas, the United States has played a significant and 
constructive international leadership role. These include the 
protection of high seas fisheries, the prevention of lead poisoning, 
integration of environmental considerations into trade agreements, and 
incorporation of environmental impact reviews and public participation 
in World Bank projects.
    The President's Council on Sustainable Development (PCSD), an 
advisory council that existed between 1993 and 1999, developed hundreds 
of recommendations that would foster national security, economic 
development, job creation, and environmental protection at the same 
time. The PCSD and others outlined a policy framework showing that the 
United States actually could make significant progress toward 
sustainable development.
    There is much better information about many environmental problems 
now than there was 10 years ago, and generally greater access to it. We 
also have a much better idea of the steps needed to achieve sustainable 
development, and have made significant progress in creating the policy 
and legal tools necessary to do so.
A Lot of Bad News
    Energy and materials consumption grew substantially in the past 
decade, and reduced or outweighed many specific environmental 
achievements. With 5 percent of the world's population, the United 
States was at the time of the Earth Summit responsible for about 24 
percent of the world's energy consumption and almost 30 percent of the 
world's raw materials consumption. Since the Earth Summit, materials 
use has increased 10 percent, primary energy consumption has increased 
21 percent, and energy-related carbon dioxide (CO<INF>2</INF>) 
emissions have increased by 13 percent. Over and over, increases in 
materials and energy efficiency, and in the effectiveness of pollution 
controls for individual sources, are outweighed by increases in 
consumption. Despite a significant increase in municipal waste 
recycling in the past decade, for example, the U.S. generation and 
disposal of municipal solid waste per capita have been growing since 
1996. U.S. population-the number of people consuming resources and 
energy-grew by 32.7 million, or 13.2 percent, from 1990 to 2000, the 
largest single decade of growth in the nation's history.
    Moreover, the United States has not exercised the kind of 
international leadership necessary to encourage or support sustainable 
development around the world. The United States is not a Party to many 
treaties and international agreements that are intended to foster 
sustainable development in specific contexts, including the Convention 
on Biological Diversity and the Kyoto Protocol. Current patterns of 
international trade cause environmental harm and impair sustainable 
development in part because U.S. trade policy tends to put short-term 
domestic economic goals ahead of sustainable development. U.S. official 
development assistance has declined since Rio. Although the United 
States was the second largest provider of official development 
assistance in 2000, its contribution was the lowest of all 
industrialized countries, measured as a percentage of gross domestic 
income.
    U.S. law and policy continue to encourage unsustainable development 
in a variety of ways. These include subsidies, ``grandfather'' 
provisions for existing and more-polluting facilities and activities in 
pollution control laws, and fragmented local decisionmaking that 
encourages sprawl. Such laws and policies mean that individuals and 
corporations have fewer choices, and less sustainable choices, than 
they would otherwise.
    The United States has no national strategy for achieving 
sustainable development, and no generally accepted indicators to mark 
progress along the way. Nor does the United States have a meaningful or 
effective strategy to address climate change, biodiversity, and many 
other issues. Neither the executive branch nor the U.S. Congress 
systematically analyze proposed activities to find ways to make 
significant progress on economic, environmental, social, and security 
goals at the same time.
    As a whole, the condition of America's natural resources and 
ecosystems has not improved, and appears to have deteriorated slightly, 
over the past decade. There was no discernible improvement in our 
rivers, streams, and lakes, and the quality of our ocean coastal waters 
appears to have deteriorated. Greenhouse gas (GHG) emissions increased, 
and a large number of plant and animal species continue to be at risk 
of extinction. U.S. agriculture is less sustainable, and urban sprawl 
continues relatively unabated. Air quality improved slightly, but not 
enough to fully protect human health.
    The social and institutional infrastructure and supports needed for 
sustainable development continue to cause environmental degradation and 
underserve the poor. The negative environmental impacts of 
transportation increased during the past decade, despite significant 
legislative changes. The U.S. sanitation system remains vulnerable to 
breakdowns, the level of communicable diseases is high when compared to 
other developed countries, and there has been no discernible progress 
in improving access to medical care.
Recommendations for the Next Decade
    The path to sustainability is not an easy one, but it is marked by 
basic American values. These include freedom, opportunity, and quality 
of life; greater efficiency; more effective and responsive governance; 
a desire to make a better world for those who follow us; a willingness 
to find and exploit opportunities; a quest for a safer world; and a 
sense of calling to play a constructive role in international affairs. 
All of these are underscored by our ethical and even religious 
obligations toward each other and the environment.
    The United States would take a large and decisive step toward 
sustainability if individuals, businesses, educational institutions, 
local and State governments, Federal agencies and others would simply 
adopt and build on the leading sustainability practices of their 
counterparts here and in other nations.
    A national strategy for sustainable development, with specified 
goals and priorities, would harness all sectors of society to achieve 
our economic, social, environmental, and security goals. The strategy 
could be modeled on that of the European Union (EU) and States such as 
New Jersey, and specifically address climate change, biodiversity, and 
other major issues. An executive-level entity would be needed to 
coordinate and assist in the implementation of the strategy. A 
counterpart entity in Congress would also be helpful. The strategy 
would more likely be effective if there were a set of indicators to 
measure progress in achieving its goals. Comparable State and local 
strategies and indicators are also needed.
    The United States needs to recognize that its substantial 
consumption levels, coupled with domestic population growth, have 
serious environmental, social, and economic impacts. Americans also 
need to understand that human well-being can be decoupled from high 
consumption of materials and energy. A shift in taxes from labor and 
income, on one hand, to materials and energy consumption, on the other, 
would encourage both greater efficiency and reduced negative 
environmental impacts.
    Congress should repeal or modify laws, policies, and subsidies that 
encourage unsustainable development. The elimination of subsidies would 
also have positive budgetary impacts. The repeal or modification of 
such laws would provide more and better opportunities for individuals 
and corporations to act in a more sustainable manner, and would remove 
an important set of barriers to sustainability.
    Protection of natural resources and the environment must focus more 
holistically on the resources to be protected, and on understanding 
those resources. Congress and the States need to assure that these 
resources are protected from all significant threats, and are protected 
from those threats to the same degree. In addition, the type of 
substantive goals that exist in the air and water pollution control 
programs, as well as supportive implementing mechanisms, should be 
applied to biodiversity, climate change, oceans under U.S. 
jurisdiction, forests, and other natural resources. The United States 
also needs to fund or support the development of more complete and 
reliable information about ecosystems as well as about the connections 
among its economic, environmental, social, and security goals.
    Social infrastructure, institutions, and laws should be designed 
and operated to further economic, environmental, and social goals at 
the same time. Public health services and, at a minimum, basic medical 
services should be available to all. Transportation infrastructure 
should be more efficient and diverse, and provide people with more 
choices.
    The United States needs to take a stronger and more constructive 
leadership role internationally, not only on terrorism but on the broad 
range of issues related to sustainable development. The United States 
should further increase its official development assistance, while 
taking measures to ensure that the money is spent effectively and for 
sustainable development. More broadly, U.S. foreign policy, including 
trade policy, needs to be more supportive of the development aspect of 
sustainable development. The United States should also become a Party 
to many of the international treaties that would foster sustainable 
development, including the Convention on Biological Diversity, the 
Cartagena Protocol on Biosafety, the Aarhus Convention on Access to 
Information, the Rotterdam Convention on Prior Informed Consent, the 
Stockholm Convention on Persistent Organic Pollutants, and the Basel 
Convention on the Control of Transboundary Movements of Hazardous 
Wastes.
    Some longer term changes are also needed if the United States is to 
achieve sustainable development. They include the evolution of judicial 
understanding of property to update expectations about the productive 
value of ecosystems and the establishment of more inviting avenues for 
public participation in and challenge to decisions affecting 
sustainability.
What Is Sustainable Development?
    Sustainable development is human development that is ecologically 
sustainable. Its aims are human freedom, opportunity, and higher 
quality of life. It is not another name for economic development, 
although it includes economic development.
    Because ``sustainable'' modifies ``development,'' it is first 
important to understand what development means. Although Americans 
understand development to mean the transformation of a field or woodlot 
into housing or a mall, development has a different meaning at the 
international level. Since the end of World War II, the United States 
and most of the world community have successfully sought greater peace 
and security, economic development, and social development or human 
rights. They have also sought national governance that supports these 
goals, even though they recognize that international efforts are also 
needed. As understood internationally, these are the four elements of 
development. This understanding of development grew out of the 
experiences of the last world war and the great depression that 
preceded and contributed to it, and a firm desire to ensure that the 
conditions that led to them would not occur again. More positively, 
development is intended to foster human freedom, opportunity, and 
quality of life.
    For more than half a century, we have measured progress by the 
extent to which we have realized these goals. And there has been a 
great deal of progress. The world is more free, there is more 
opportunity, and most humans have a higher quality of life now than 
they did in 1945.
    But until recently, protecting and restoring the environment was 
not among these goals. Indeed, progress in achieving these other goals 
was considered to outweigh or even justify any environmental 
degradation that may have occurred.
    As the World Commission on Environment and Development concluded in 
1987, progress in the past half century has come with a price we cannot 
ignore and can no longer afford-massive and growing environmental 
degradation, and a growing number of people in poverty. The commission 
concluded that countries should seek sustainable development-
''development that meets the needs of the present without compromising 
the ability of future generations to meet their own needs.'' 
Sustainable development would thus meet human needs over the long term; 
the present generation would not benefit at the expense of future 
generations. When nations of the world endorsed sustainable development 
at the Earth Summit in 1992, they redefined progress to include 
environmental protection and restoration.
    Sustainable development is based on a sober and realistic appraisal 
of how humans need to approach the problems of the next half century or 
more. Like traditional development, it is premised on a recognition of 
what can happen when freedom, opportunity, and quality of life are 
inequitably realized or are diminishing.
    Every major international and regional report on the condition of 
the environment shows continuing and deteriorating environmental 
conditions. The gap between the rich and poor continues to grow. 
Poverty and environmental degradation are mutually reinforcing; poor 
people live in the most polluted or degraded environments, and this 
contributes to their poverty. Although poverty and environmental 
degradation are important in their own right, they also can cause or 
contribute to wars, starvation, ethnic tensions, and terrorism, which 
are more likely to get headlines than their underlying causes. Like 
terrorism, poverty and environmental degradation are destabilizing. The 
pressures caused by poverty and environmental degradation are likely to 
increase in the next half century. Global population is expected to 
grow from roughly six to nine billion, or 50 percent, by 2050. The 
global economy is likely to grow by a factor of three to five in the 
same period. As difficult and challenging as things now appear, they 
are likely to become much more difficult and challenging in the decades 
ahead.
    Sustainable development also has deep ethical and religious roots. 
Sustainable development leads to two major shifts in ethical thinking 
and action. It recognizes the connections between humanity's social, 
ecological, and economic obligations, and it recognizes responsibility 
for future as well as present generations. Agenda 21, the blueprint for 
sustainable development adopted at the Earth Summit, thus calls for 
distributive justice, or a fair sharing of environmental resources by 
humans. The distributive justice theme was in response to demands by 
developing countries that they have the same right to use natural 
resources as developed countries. Agenda 21 also suggests that humans 
have a moral responsibility to limit activities that, if not curtailed 
or redirected, will severely degrade or even destroy ecosystems. 
Because human damage to the environment also hurts other humans, 
sustainable development recognizes the relationship between 
environmental protection and social justice.
    The sacred texts and beliefs underlying the world's religions also 
support sustainable development, even if that has not been true of 
their practices. These religious traditions support appreciation for 
all life; human stewardship of creation; harmony among humans, their 
communities, and their environment; and a caring for place. They also 
indicate that the natural world is valuable in itself, not simply 
insofar as humans may value it. They articulate the importance of deep 
respect for creation, both human and nonhuman, and living in a manner 
that is ecologically sustainable. These texts and beliefs also indicate 
the importance of fair and equitable sharing of resources, which would 
mean both ceilings and floors for consumption. Finally, they suggest 
that people be given an opportunity to participate in decisions that 
will affect their lives and their communities.
    To achieve sustainable development, nations at the Earth Summit 
endorsed two important but nonbinding texts, Agenda 21 and the Rio 
Declaration. (They also agreed to a separate set of principles for 
forestry.) As a global plan of action for sustainable development, 
Agenda 21 is intended to be carried out primarily, but not exclusively, 
by countries within their own borders. Agenda 21, which contains 40 
separate chapters, runs several hundred pages regardless of how it is 
printed. These chapters focus on the social and economic dimensions of 
sustainable development, e.g., poverty, human health, and population; 
conservation and management of natural resources, e.g., atmosphere, 
forests, biological diversity, and various wastes and toxic chemicals; 
the role of major groups, e.g., children and youth, women, farmers, 
workers, and business and industry, in attaining sustainable 
development; and means of implementation, e.g., financial resources, 
technology transfer, science, education, and public information. Each 
chapter identifies specific actions to be taken, explains generally why 
these actions are necessary, identifies the persons or institutions who 
are to take action, and describes specific means of implementation.
    The Rio Declaration is a set of 27 principles for sustainable 
development. Key principles include the integration of environment and 
development in decisionmaking, sustainable patterns of resource 
production and consumption, the polluter-pays principle, the 
precautionary approach or principle, developed country leadership, 
intergenerational equity, and public participation. The polluter-pays 
principle would have polluters bear the costs of preventing and 
cleaning up environmental problems rather than impose the costs of 
those problems on others. According to the precautionary principle, the 
absence of complete scientific certainty about serious problems is not 
an excuse for refusing to take action. These principles also are woven 
into Agenda 21.
    In Rio, the international community also established a process for 
reviewing national and international progress toward sustainable 
development. Agenda 21 has been, and continues to be, the focal point 
of that process.
    When countries agreed to Agenda 21 and the Rio Declaration, they 
agreed to implement these agreements, both at home and in their foreign 
policy. The United States, under the leadership of President George 
H.W. Bush, was one of those countries.
Why Should Sustainable Development Matter to the United States?
    Americans should care about sustainable development because its 
goals-human freedom, opportunity, and quality of life-are also our 
goals. We sought independence for these purposes, established a legal 
and economic system premised on their importance, endured a civil war 
to protect that system and expand its opportunities to others, and 
fought two world wars and numerous other conflicts to protect ourselves 
and help make those same opportunities available to others.
    Sustainable development, moreover, is not just about us, the 
current generation of Americans. It is, in the U.S. Constitution's 
words, about ``ourselves and our posterity,'' our children, 
grandchildren, nieces, nephews, and others not yet born who will 
someday inhabit this country. We pride ourselves on providing our 
descendants greater opportunities and a better quality of life. 
Sustainable development would do precisely that. Without it, we cannot 
assure our children and grandchildren a better life, and are likely to 
leave them a poorer one.
    Sustainable development would lead to a stronger and more efficient 
America because we would be pursuing social, economic, environmental, 
and security goals in ways that are more mutually reinforcing or 
supportive over time, not contradictory or antagonistic. The result 
would be a stronger, more efficient country that provides its citizens 
and their descendants increasingly more opportunities in a quality 
natural environment. Increased energy efficiency would reduce energy 
costs for manufacturers and consumers, and would also mean reduced 
pollution. In addition to securing an ongoing supply of timber and 
paper products, sustainable forestry matters because we rely on forests 
for watershed maintenance, pollution abatement, climate control, jobs, 
and recreation. Similarly, a sustainable transportation system would 
make it easier, less expensive, and less environmentally damaging for 
people of all incomes to travel from home to work and other 
destinations. Cleaner production is likely to be less costly and more 
efficient, reduce the economic and social burdens created by human 
exposure to hazardous wastes and substances, and improve the 
occupational health and safety of workers.
    Sustainable development would also lead to better and more 
responsive governance, which is another basic American value. Ensuring 
that our economic, social, environmental, and security goals are 
mutually supportive would require that the government does not 
subsidize with one hand what it controls on the other. It would also 
require more public involvement in many decisionmaking processes 
because public input is more likely to ensure that these goals are 
harmonized.
    Sustainable development would also lead to a safer, more stable and 
secure world outside American borders. That would have important and 
positive consequences for both ourselves and others, particularly after 
September 11, 2001. The world is deeply divided between haves and have-
nots, and the risk of evolution toward an unstable, two-class world, 
with a huge global underclass, is quite real. Americans have a large 
stake in the prevention or avoidance of humanitarian emergencies, 
national and regional conflicts, environmental deterioration, 
terrorism, illicit drugs, the spread of diseases, illegal migration, 
and other disasters. These threats to our security do not need 
passports to cross borders. None of the goals that this country has 
pursued around the world-peace and stability, human rights and 
democratization, expansion of trade and markets, environmental 
protection, or putting an end to hunger and extreme deprivation-can be 
accomplished effectively except in the context of sustainable 
development. Thus, while sustainable development assistance in 
developing countries can be justified on humanitarian grounds, it is 
also consistent with the strategic interests of the United States.
    Americans have a special role to play in sustainable development. 
We have the largest economy and the most powerful military in the 
world. Not only do we have enormous capability to bring to bear in the 
pursuit of sustainable development, we also bear a significant share of 
the responsibility for the global environmental problems that 
sustainable development is intended to address. The United States is 
the world's largest producer and consumer of materials and energy. 
Since the U.S. model of production and consumption is widely emulated 
throughout the world, U.S. domestic actions could also have a major 
international effect.
    It is often said that nations or individuals can lead, follow, or 
get out of the way. The United States is in an unparalleled position to 
play a key international leadership role on sustainable development. 
The United States could instead permit the EU, Japan, and other 
developed countries to play the leadership role, and follow their lead. 
That would be unpalatable to many, but it would be better than doing 
nothing. Because of its dominant role in international affairs, 
however, the United States cannot simply get out of the way. If the 
United States does not lead or follow, it will be an obstacle to 
international efforts to achieve sustainable development.
    The ethical and religious justifications for sustainable 
development also provide a reason that Americans should care. U.S. 
actions do not simply affect us; they affect others as well. Historic 
and continuing U.S. emissions of GHGs are likely to adversely affect 
others by contributing to rising sea levels and higher temperatures 
around the world, for example. Moreover, the texts and beliefs of each 
of the world's major religions teach responsibility toward other humans 
as well as the environment. Because Americans see themselves as a 
religious people, they should respond accordingly.
    Finally, our government agreed to Agenda 21 and the Rio Declaration 
at the Earth Summit. These texts are not legally binding, but a 
nation's political commitment is not a trivial thing. Indeed, it is in 
the national interest to honor international political commitments.
    The decisions we make about sustainable development are defining 
decisions for the United States. They will define the values for which 
our country stands.
                                summary
    The major sections of this book focus on consumption and 
population; international trade, finance, and development assistance; 
conservation and management of natural resources; waste and toxic 
chemicals; education; institutions and infrastructure; and governance. 
What follows is a summary of each section, including a summary or 
excerpts from relevant individual chapters. For almost all chapters, 
the summary includes a review of efforts over the past decade and 
recommendations. While most of the recommendations are directed to the 
United States, a few are directed to the international community.
Consumption and Population
    ``To achieve sustainable development and a higher quality of life 
for all people,'' the Rio Declaration states, governments ``should 
reduce and eliminate unsustainable patterns of production and 
consumption and promote appropriate demographic policies.'' As Agenda 
21 observes, ``the major cause of the continued deterioration of the 
global environment is the unsustainable pattern of consumption and 
production, particularly in industrialized countries.'' Agenda 21 also 
describes world population growth, in combination with unsustainable 
consumption patterns, as placing ``increasingly severe stresses on the 
life-supporting capacities of our planet.''
    A simple model developed in the 1970's describes the relationship 
between population and consumption. The model is expressed as a 
formula: I = PAT. The formula expresses a community's overall 
environmental impact (I) as the product of its population size (P), its 
affluence or per capita level of consumption (A), and the technology 
and social arrangements that underlay each unit of consumption (T). 
While consumption of materials, consumption of energy, and population 
are not wholly determinative of environmental impacts, they are 
enormously influential.
Materials
    Sustainable use of materials or resources can be measured by 
answering two questions. First, how is the rate of resource use related 
to the overall stock of resources? Second, what portion of resources in 
use are lost to the environment? The first question measures 
utilization of resources, and the second measures consumption. Put 
another way, the first reflects the sustainability of supply, and the 
second the sustainability of the receiving ecosystems. Almost all 
levels of resource use and many types of environmental impacts in the 
United States have increased from levels already generally agreed to be 
unsustainable.
    At the time of the Earth Summit, the average American was 
responsible for the extraction and employment of more than 100 pounds 
of material daily, which is more than any other country in world. These 
materials include metals, wood products, paper, agricultural products, 
construction materials, and fossil fuels. Ten years later, the quantity 
has increased by about 10 percent. The biggest increase over the past 
decade was for nonrenewable organic materials (including fossil fuels). 
The hike in overall materials use is also due in part to increases in 
the use of construction materials, such as sand, gravel, and stone, 
whose utilization requires large amounts of energy. Iron, steel, and 
other heavy metals continue to be used less, while light metals 
(particularly aluminum), plastics, and composites are used more. This 
latter trend is favorable, because the depletion time for heavier 
metals is shorter than that for aluminum.
    Environmental impacts of resource consumption in the United States 
appear to have increased by about 15 percent over the past decade 
because of population growth and an increase in gross domestic product 
(GDP) per capita. Americans produce more municipal waste per capita 
than any other country, are the leading producer of GHG emissions, and 
are probably the world's largest producer of toxic wastes. This 
increase in U.S. consumption has occurred despite a movement from more 
resource-intensive production to greater use of services.
    U.S. Government programs and policies have promoted inefficient 
utilization and use of natural resources. These policies include many 
types of direct and indirect subsidies for, among other things, timber 
cutting, agriculture, hard rock mining, and extraction and use of 
fossil fuels. While there are success stories in reduction of materials 
use and environmental impacts in the past decade (specific eco-
industrial parks, corporate programs, and even government programs), 
these efforts have not changed the overall pattern or result.
    To make significant progress toward sustainability, the U.S. 
Government should gain a better understanding of what resource 
sustainability really means, and should put in place a framework for 
achieving specific goals related to sustainability of materials. The 
United States should also lead international efforts to discuss and 
achieve sustainable production and consumption patterns in this and 
other developed countries.
    Subsidy reform and restructuring existing taxes are two of the 
biggest challenges to sustainable consumption and production. 
Environmentally harmful subsidies need to be phased out gradually. In 
addition, the United States should begin shifting taxes from labor and 
income to materials and energy. This tax shift should result in more 
efficient use and reuse of materials and energy. Norway, Sweden, and 
other countries have already begun such a tax shift.
    Public education is also essential to this effort, and is perhaps 
needed more than anything else. The principal cause of unsustainable 
resource use is largely a social system that promotes ``conspicuous 
consumption'' rather than intelligent, conservative resource use. 
Technological innovation can modify this trend somewhat, as can policy 
initiatives. But true sustainability will require that we satisfy our 
needs, not by increased use of resources, but by more intelligent use. 
Laws and policies alone will not lead to that understanding, but they 
might result from it.
Energy
    Primary energy consumption in the United States increased by 
approximately 20 percent between 1992 and 2000, an annual average rate 
of 2.4 percent. This growth rate was higher than the 0.8 percent 
average annual growth rate of the two prior decades. At the same time, 
the average annual GDP increase for 1992 to 2000 was 50 percent higher 
than it was between 1972 and 1992, indicating that economic growth 
drove energy consumption.
    For the production and consumption of energy, the journey toward 
sustainability can be measured by progress toward three goals: 
increased energy efficiency (or reduced energy intensity), increased 
renewable energy use, and reductions in energy-related CO<INF>2</INF> 
emissions. For the first goal, progress in the past decade continued at 
the same pace as the previous two decades. Energy efficiency, measured 
in terms of amount of energy consumed per dollar of GDP, continued to 
decline at the same steady pace it has declined since 1972-about 2 
percent per year. While the United States is improving energy 
efficiency at a faster rate than other industrialized countries, it is 
less energy-efficient (or more energy-intensive) than these countries. 
For the second and third goals, the United States achieved less since 
1992 than it did in the two decades that preceded the Earth Summit, and 
appears to be moving away from sustainability. Renewable energy 
consumption grew at a slower annual pace since 1992 (1.3 percent) than 
in the previous two decades (1.6 percent). In fact, renewable energy's 
share of total U.S. energy consumption actually declined from 7.2 
percent in 1992 to 6.9 percent in 2000. In addition, energy-related 
CO<INF>2</INF> emissions increased by 13 percent since 1992. The annual 
rate of increase in CO<INF>2</INF> emissions since 1992 (1.8 percent) 
is more than three times the annual increase of the previous two 
decades (0.5 percent).
    In every major sector, energy use grew over the past decade. Energy 
use for residential and commercial buildings increased because of 
population growth and the trend toward larger and more energy-consuming 
homes as well the proliferation of electricity-using devices. These 
trends offset energy efficiency and energy conservation gains for 
appliances and home building materials. Energy use for passenger 
transportation increased because of the popularity of sport utility 
vehicles and light trucks and an increase in vehicle miles traveled. 
Energy use for freight transport increased because of rapid growth in 
the volume of freight shipped and a shift toward more energy-intensive 
trucking. Industrial use of energy increased, despite a shift away from 
energy-intensive industry, because of growth in manufacturing.
    While the United States had in place numerous energy conservation 
and renewable energy laws at the time of the 1992 Earth Summit, the 
country has done little to strengthen those laws since then. Many of 
these early laws grew out of the Arab oil embargoes of the 1970's. 
Among other things, these laws established corporate average fuel 
economy (CAFE) standards for automobiles, required the U.S. Department 
of Energy (DOE) to develop mandatory energy efficiency standards for 
home appliances, provided tax credits to encourage investments in solar 
and wind technologies, and required utilities to make greater use of 
renewable energy and energy conservation. A few major changes in law 
and policy have occurred since 1992. Federal research and development 
funding for energy efficient technologies has increased, and standards 
continue to be issued for increasingly more efficient appliances. But 
CAFE standards for new vehicles have not been improved, despite 
substantial improvements in automotive technology.
    Progress in sustainability for production and consumption of energy 
in coming decades can be measured in terms of progress in reduction of 
energy-related CO<INF>2</INF> emissions. Because reducing such 
emissions would require increases in energy efficiency and renewable 
energy, a decrease in CO<INF>2</INF> emissions is a useful way of 
summarizing progress toward all three goals. Analyses have shown that 
vigorous implementation of cost-effective energy efficiency and 
renewable energy policies could result in reduction of energy-related 
CO<INF>2</INF> emissions in the United States to 1990 levels by 2020 or 
earlier, which would be a major step toward energy sustainability 
goals. However, U.S. emissions in 2000 were more than 15 percent above 
1990 levels, and are projected to continue to increase under business-
as-usual scenarios.
    The policies needed to achieve energy production and consumption 
sustainability goals are indicative of the seriousness of the needed 
effort. They include a carbon fee or charge that begins at a relatively 
low level and then increases over time. Money received from this fee or 
charge could be returned to the taxpayer in the form of lower income 
taxes or used to support sustainable energy programs. An emissions 
trading system should be coupled with the fee or charge to enhance its 
economic efficiency. Increased spending for Federal research and 
development for energy efficiency and renewable energy would likely 
lead to the development of more efficient, less costly, and more 
reliable technologies. In addition, a variety of policies should be 
employed to improve energy efficiency in buildings, industry, 
transportation, and electrical generation. Energy efficiency policies 
include a mix of tax credits, voluntary programs, increased energy 
efficiency standards for motors and appliances, improved fuel economy 
standards for motor vehicles, policies to increase use of 
telecommuting, and a requirement to increase the percentage of 
electricity generated by renewable energy.
    U.S. population reached 281.4 million in 2000, an overall increase 
of 32.7 million, or 13.2 percent, since 1990. This is the largest 
population increase in any 10-year period in U.S. history, surpassing 
even the postwar baby boom. U.S. population is growing more rapidly 
today than is the Chinese population. One American consumes 17 times as 
much energy as the average Indian, and 9 times as much as the average 
Chinese. Thus, while the billion-plus populations in China and India 
obviously raise serious concerns, at the margin population growth is a 
bigger issue in the United States than in China or India. The reason is 
simple: an additional American consumes so much more than an additional 
Chinese or Indian.
    In 2000, the average number of children born per woman in the U.S. 
population was 2.1, which is the replacement rate. Population grew 
significantly because of the ``population momentum'' caused by the 
higher birthrates of previous generations and because of immigration. 
Immigration is currently contributing roughly one-half of the annual 
population growth.
    The sustainability of the current U.S. population can be questioned 
on a variety of grounds. The United States depends increasingly on 
imports of oil and other natural resources. Americans and other 
residents of industrialized countries are also living beyond their 
means, depleting vital ecosystems and nonrenewable resource stocks. A 
U.S. population with grossly disproportionate consumption patterns 
slated to grow by 10 percent or more per decade, while striving to 
raise its per capita consumption even further, is not a recipe for 
sustainability.
    While the United States has no explicit policy regarding population 
size or growth, it does have one in practice. The tax code as well as 
laws on women's rights, inheritance, and labor all indirectly influence 
people's choices regarding family size. The legality and availability 
of family planning and abortion services have more direct influences on 
family size choices. Immigration laws and policies also play a large 
role in determining U.S. population.
    The most basic thing the United States can do is simply recognize 
that population is a domestic as well as a foreign issue, and that the 
domestic and foreign aspects of population are linked. People seek to 
immigrate to the United States, for instance, because conditions in 
their own countries are not tolerable to them. The United States also 
needs to examine seriously its carrying capacity. The United States 
cannot claim that it is taking steps toward sustainable development 
without first analyzing its environmental resource base. This country 
should develop policies to ensure that the population does not exceed 
its carrying capacity, including its ability to draw on foreign 
resources. Immigration policies should be analyzed and developed in 
this context, and not the other way around.
International Trade, Finance, and Development Assistance
    For better and for worse, America's domestic activities have a 
great influence on domestic activities in other countries. But U.S. 
foreign policy also has direct consequences for sustainable 
development. As Agenda 21 and the Rio Declaration make clear, a 
country's sustainable development commitments extend to both its 
domestic and foreign policy. This section summarizes U.S. international 
efforts regarding trade, official development assistance, and family 
planning assistance. It also summarizes U.S. efforts concerning an 
issue that has gained importance since the Earth Summit-private 
financial flows to developing countries.
International Trade
    The United States has played a leading and generally positive role 
in steering trade rules in the direction of sustainable development, 
with modest success. Yet 10 years after Rio, the discrepancy between 
the vision of sustainable development and reality is too obvious to 
deny-current patterns of international trade cause environmental harm 
and impair sustainable development. By decreasing rather than 
increasing its attention to the profound problems of global 
underdevelopment and poverty, U.S. policy over the past decade has not 
only failed to serve the substantive policy goal of sustainable 
development but has also contributed to the polarization of 
international diplomacy between rich and poor.
    Two major trade agreements were adopted in the past decade, and 
provide a context for this analysis. The United States negotiated the 
North American Free Trade Agreement (NAFTA) with Mexico and Canada to 
reduce trade barriers among the three countries, and then ratified it. 
Several environmental issues were directly addressed in NAFTA, and the 
Parties also concluded two separate environmental agreements. In 
addition, the United States and other countries concluded the long-
running Uruguay round of trade negotiations, which established the 
World Trade Organization (WTO). The Clinton Administration secured 
congressional approval of the Uruguay Round results.
    The United States has taken significant positive steps over the 
past decade to enhance consideration of the environmental and 
developmental consequences of its trade policy, and has actively 
supported institutions and polices that would promote such procedural 
integration of policy in other governments and international 
organizations. In 1992, the worlds of trade policy and environmental 
policy still knew very little about each other and seldom interacted. 
The use of an environmental assessment for NAFTA deepened awareness of 
the issues at stake for both government officials and the public. These 
and other experiences led President William J. Clinton to issue an 
Executive Order in 1999 requiring the preparation of an environmental 
review for most major trade agreements. On the other hand, the United 
States continues to subsidize and thus protect domestic agricultural 
producers and others that perpetuate environmental harms in the United 
States.
    The United States has also been a pioneer in opening up its 
international trade processes to public participation and has been the 
leading proponent of participatory reforms in international 
institutions. The United States enhanced and structured the access of 
environmental interests to trade policy during the 1990's. The United 
States has also been the most active and persistent proponent of 
increased public participation in dispute settlement procedures under 
WTO and NAFTA.
    Yet America's substantive trade policies are very uneven in 
fostering sustainable development. Promoting the economic interests of 
the United States remains the central consideration in trade policy. As 
a result, U.S. trade policies often put short-term and purely domestic 
goals ahead of a broader sustainable development strategy. The widely 
publicized failure of the 1999 WTO ministerial meeting in Seattle 
occurred in large part because developing countries saw the U.S. 
position as giving short shrift to their needs.
    In a broad sense, too, the structure of international trade still 
works against sustainable development. The fault, though, does not lie 
exclusively, or even primarily, with tradeofficials and trade policies. 
What goods are produced where and what services are provided where are 
influenced not by trade policy but by the economic, social, and 
geographical conditions of each country and the economic and social 
policies of national governments. A major problem has been the 
insistence by the United States and other developed countries that 
trade should replace aid as the main vehicle for transferring economic 
resources to developing countries, without attending in a timely or 
adequate manner to other conditions that must also be addressed if the 
resource flows of trade are to promote development on a sustainable 
basis. These other conditions include debt repayments and deteriorating 
environmental conditions in developing countries.
    Domestically, the United States needs to deepen and 
institutionalize its policy integration. The United States should 
establish a sustainable development coordinating entity within the 
executive office of the president that would include the U.S. trade 
representative. Congressional responsibility for trade policy should 
also be reallocated to better incorporate environmental and 
developmental considerations. The United States should continue to 
advocate in all forums for increased transparency, including public 
availability of documents and summaries of confidential deliberations, 
enhanced access for the public to key processes, and nongovernmental 
organization (NGO) representation on national delegations at every 
appropriate international negotiation on trade issues.
    To exercise greater international leadership, the United States 
needs to observe more faithfully in its domestic policies the policy 
prescriptions it advances for international trade and economic 
development in other countries, especially by removing barriers to 
access to the U.S. market and by eliminating substantial subsidies to 
key trade-relevant sectors of the American economy. The United States 
also needs to work more actively and constructively with developing 
countries to resolve key impediments relevant to international trade 
that are restricting their economic development and leading to 
continued environmental degradation. Moreover, while the ``trade, not 
aid'' mantra has substantial validity, aid continues to be a vital 
policy element, substantively and symbolically. As part of its trade 
policy, the United States needs to increase its official development 
assistance.
Official Development Assistance
    U.S. official development assistance (ODA) has declined 
significantly since Rio. Developed countries agreed at Rio to provide 
ODA to developing countries in an amount equal to 0.7 percent of their 
GDP. The provision of this aid was part of the Rio bargain between 
developed and developing countries; developing countries were unwilling 
to have environmental conditions imposed on their development, but 
agreed to integrate environmental considerations and outcomes into 
their development process if they received financial help. The United 
States specifically declined to accept the 0.7 percent commitment, 
however. Part of the developed world's broad responsibility for 
sustainable development under Agenda 21 nonetheless includes assisting 
developing countries, especially when these countries are asked to 
respond to environmental threats that are largely not of their own 
making.
    More broadly, sustainable development includes the antipoverty 
agenda of traditional development. The gap between rich and poor 
continues to grow. Among the 4.6 billion people who live in developing 
countries, three-fifths live in communities without basic sanitation, 
one-third are without safe drinking water, one-quarter lack adequate 
housing, and one-fifth are undernourished. One-half of humanity 
``survives'' on less than $2 per day. The eradication of poverty is a 
worthy goal in itself. But from a strategic perspective, the 
eradication of poverty would also help reduce conflicts, social 
disruption, and disease. In addition, improved economic conditions may 
reduce the pool of the disillusioned and disaffected from which 
terrorist campaigns have frequently drawn.
    Average annual U.S. ODA disbursements from 1990-1992 (set at 1999 
prices) were approximately $12.38 billion; from 1998-2000, U.S. 
disbursements averaged approximately $9.27 billion, representing 
slightly more than a 25 percent drop in real dollars. The United States 
still provides more ODA than any other country except Japan. As a 
percentage of gross domestic income, however, U.S. ODA declined from an 
average of .22 percent in 1984-1988 to .10 percent in 1998-2000, the 
lowest of all industrialized countries.
    ODA does not account for all U.S. governmental assistance that 
could contribute to sustainable development. For example, it does not 
include U.S. aid to former Soviet bloc countries or the peacekeeping 
operations in Kosovo and Afghanistan. Nor does ODA include private 
financial flows to developing countries. Nevertheless, ODA levels 
indicate general trends and help identify the extent to which the 
United States is engaged with the rest of the world. ODA also does 
things that private financial flows do not; ODA supports peace and 
security, alleviates health and environmental crises, encourages 
educational improvements, and rewards countries that move toward 
democracy and the rule of law. In this way, it can help provide the 
infrastructure that will attract or encourage private investment.
    Two funds for international environmental assistance were made 
permanent after Rio. The U.S. record in fostering sustainable 
development under these funds is mixed. The Montreal Protocol's 
Multilateral Fund exists to aid developing countries in meeting their 
obligations to reduce their production and consumption of substances 
that cause depletion of stratospheric ozone. Funds are disbursed for 
approved projects that contribute to phasing out ozone-depleting 
substances. Over the life of the fund, the United States has 
contributed its full assessed share-$327 million, or slightly more than 
one-quarter of the entire fund. The Global Environment Facility (GEF) 
provides funds to developing countries for specific projects to reduce 
GHG emissions and to protect biodiversity, international waters, and 
the stratospheric ozone layer. The United States paid its full share 
during the GEF's pilot phase, but has paid much less than its share 
since then. Because the United States was in arrears, other countries 
held off paying some of their commitment.
    The United States should increase ODA for sustainable development, 
although it needs to ensure that this aid is actually effective. 
President George W. Bush's commitment in early 2002 to an additional $5 
billion in foreign assistance is a step in the right direction. The 
United States would reap benefits from increased aid in the form of a 
more stable world and improved environmental conditions. By resolving 
questions concerning its financial commitments to multilateral 
organizations, the United States would also send a message that it is 
engaged in global issues and follows through on its international 
obligations. In addition to continuing its aid under the Multilateral 
Fund, the United States should clear up its arrears with respect to the 
GEF.
    Beyond resources, there needs to be a new structure for development 
cooperation, not just an architecture for international finance. It 
should include not only development assistance but also trade, debt 
management, private investment and capital flows, private sector 
development, and access to technology. Instead of operating on a 
government-to-government basis, development assistance should be 
synergistic with private sector development and the strengthening of 
civil society as a whole. Development assistance must also be based on 
common interests and the complementary needs of the rich and the poor, 
defined to some extent by international agreements. In that sense, 
development assistance is part of the price we pay to prevent the root 
cause of threats to our security. Development assistance should, in 
addition, support sustainable human development, and not simply build 
economies and dams. Economies exist for people, not vice versa. Growth 
should replenish environmental heritage, not replace it. Development 
cooperation should also promote democratization and good governance, 
and it should be driven by the needs of the receiving country. Finally, 
for much of the world, development assistance should be recognized as 
an essential building block to a vibrant private sector and successful 
financial markets.
    The international community should set firm financial and other 
commitments for developed countries to help realize the goals set by 
the U.N. General Assembly in its 2000 Millennium Declaration. These 
include, for example, the goal of reducing by one-half, by the year 
2015, the proportion of the world's people whose income is less than $1 
a day and the proportion of people who suffer from hunger. The 
international community should also ensure adherence to these 
commitments. At day's end, the only world that works is one in which 
the aspirations for fairness and opportunity by poor people and 
developing nations are being realized. Such commitments should, in 
addition, help strengthen developing country interest in cooperation on 
environmental objectives.
    The results of aid matter a great deal. Accordingly, there should 
be some type of specific and regular reporting on how aid is used in 
developing countries, and what results it is achieving. This aid should 
foster sustainable development; it should not support environmentally 
harmful activities or be lost to corruption. Such information should 
help inform and persuade the public and policymakers in developed 
countries about the benefits of international assistance for 
sustainable development.
Family Planning Assistance
    Since 1992, the United States has provided an average of $430 
million annually for family planning programs, and is the largest 
single donor to such programs. Still, the world's population is 
expected to grow to 9.3 billion by 2050, and nearly all of that growth 
will occur in developing countries. In addition to contributing to 
increases in poverty, resource consumption, and pollution, population 
growth plays a critical role in generating urbanization, migration, and 
political instability. At the 1994 Cairo Conference on Population and 
Development, countries agreed to curb population growth, not by setting 
numerical targets and focusing on birth control efforts, but rather by 
improving people's (particularly young women's) education, health, and 
social standing, on the theory that this would lead to smaller 
families. Developed countries agreed to provide one-third of the cost 
of implementing the Cairo program ($5.7 billion annually). Developed 
countries together, though, are providing only about one-third of what 
they promised in Cairo. And twice in the past decade, the United States 
has reversed its position on whether this family planning assistance 
can go to organizations that perform or actively promote abortion as a 
family planning method. The United States needs to be a more generous 
and consistent contributor to international family planning.
    The international community should also build on the work of the 
Cairo Conference on Population and Development, which connected 
population growth to women's roles, rights, and reproductive health 
issues. Countries should collectively consider the relationships among 
population growth, distribution, and mobility; environmental 
degradation; and the spread of diseases. Two key sets of connections 
involve fresh water and global warming. Population growth is an 
exceedingly important factor in increasing demand for fresh water, and 
causing environmental degradation that compromises its availability. 
Population growth is also related, directly or indirectly, to national 
rates of fossil fuel use as well as land clearing and conversion, both 
of which are major sources of GHG emissions. It should also be noted 
that the populations most vulnerable to global warming and least able 
to adapt are among the most rapidly growing ones.
Private Finance
    At the time of the Earth Summit, about one-half of the net flow of 
capital from developed to developing countries was ODA, and about one-
half was private. By 2000, despite a series of financial crises in the 
late 1990's, private investment outstripped public assistance by a 
factor of almost seven to one. In 2000, private flows from the United 
States constituted 38 percent of total private financial flows to 
developing countries (as well as countries in transition to a market 
economy, such as Russia and Poland), a much larger portion than any 
other country. National-level capacity to promote sustainable 
development in many countries has lagged behind the rapid pace of 
economic globalization, and many investments affect transboundary or 
global ecosystems for which there is no governance infrastructure.
    This surge in private finance was not anticipated in Rio. As a 
consequence, Agenda 21 provides little explicit guidance regarding the 
goals or policies that developed country governments should undertake 
to ensure that private North-South flows promote sustainable 
development. The Rio Declaration, however, provides some guidance, 
stating the importance of integrating sustainability into mainstream 
economic decisionmaking and of public participation in those decisions. 
Although there are many policy levers for influencing private finance, 
the two most significant institutions for influencing the environmental 
character of private financial flows to developing countries are 
bilateral export and investment promotion agencies and multilateral 
financial institutions.
    The United States supports two key bilateral export and investment 
promotion agencies-the Overseas Private Investment Corporation (OPIC), 
an investment promotion agency, and the Export-Import Bank (Eximbank), 
an export credit agency. Environmental and social evaluation and 
disclosure requirements for OPIC and Eximbank have strengthened over 
time, particularly in the past decade. Projects funded by both are 
subject to environmental impact statements and detailed environmental 
reviews, for example. Some disclosure requirements, in fact, represent 
international best practice. But while reforms at OPIC and Eximbank 
have provided a basis for challenging environmentally and socially 
damaging projects, they fall short of an explicit mandate to promote 
sustainable development.
    Multilateral development banks (MDBs), particularly the World Bank 
Group, also play a significant role in channeling private financial 
flows through their direct participation in a variety of private sector 
transactions. MDBs have also played a significant indirect role in 
influencing North-South financial flows, particularly through their 
promotion of the ``Washington consensus.'' The Washington consensus 
emphasizes the role of capital market and trade liberalization, 
privatization, and removal of other constraints on integration into the 
international economy. The United States controls the largest single 
share of capital subscription as well as the largest number of votes on 
the World Bank Group boards.
    Even before Rio, the United States demonstrated significant 
international leadership in MDB reform by advocating environmental 
impact reviews and public participation in projects, but the United 
States has not yet adequately addressed the role of MDBs in leveraging 
private finance. For instance, environmental impact statements are 
still not required for structural adjustment loans from any of the 
MDBs, even though such loans are arguably the most potent vehicle for 
leveraging the policy environment in which private investment takes 
place. Experience during the 1980's and 1990's, moreover, showed that 
the Washington consensus could undermine sustainable development if not 
accompanied by strong independent regulatory capacity and other 
improvements in governance. In some cases, U.S. policy has promoted the 
Washington consensus at the expense of sustainable development.
    The United States should work for further progress with both 
bilateral agencies and MDBs to move private finance toward sustainable 
development. For OPIC and Eximbank, the United States should move 
private financial flows to developing countries in a more sustainable 
direction by maintaining high environmental and disclosure standards. 
It should also promote the upward harmonization of sustainable 
development policies and procedures for export credit agencies. The 
United States should push harder for the integration of sustainability 
objectives into the private sector development activities of MDBs. The 
United States should proactively monitor the performance of MDBs in 
complying with agreed policies and strategies. Finally, OPIC and 
Eximbank, and the private sector arms of MDBs, should go beyond mere 
compliance with environmental standards and disclosure requirements, 
and shift their portfolios toward investments insustainability.
Conservation and Management of Natural Resources
    Our environment provides the basis for our lives and well being, 
and also helps give meaning and context to our lives. Fresh water is 
essential for human life, for the growing of food and other ``natural 
services'' to humans, and for natural communities. Oceans and estuaries 
provide food, recreation, and jobs for humans. We need to be able to 
breathe healthy air. A stable climate has provided part of the basis 
for our civilization, ensuring reasonably consistent temperatures and 
precipitation from year to year, and thus providing a predictable basis 
for agriculture and other human essentials. Biodiversity can provide 
valuable products to humans, but it also has intrinsic value. Forests 
and agriculture provide necessary products and food, as well as a 
source of human livelihood. The land provides a basis for almost all 
human activities, and its proper use can make life easier or harder. 
Each of these is addressed here.
Fresh Water
    Relatively little change in fresh water quality or the law 
governing fresh water has occurred in the decade since Rio. Agenda 21 
promotes more sustainable, reliable, and healthy water supplies for 
both human consumption and economic uses, while seeking to restore and 
sustain the health of aquatic ecosystems. In 1992, the United States 
already had in place a detailed set of laws and institutions designed 
to protect and manage fresh water resources that implemented the basic 
tenets of Agenda 21 and the Rio Declaration. They include the Clean 
Water Act (CWA) and other Federal statutes, as well as State laws 
governing allocation and protection of water supplies. These measures 
laid the framework for sustainable use and protection of fresh water 
resources. As a result, most Americans have access to adequate supplies 
of fresh water of at least acceptable quality relative to much of the 
world, and U.S. agriculture and industry have similar adequate quantity 
and quality. These laws and institutions also provide the basis for 
integrated decisionmaking in the area of water resources, watershed-
based restoration and protection programs, and aquatic ecosystem 
integrity. Legal tools exist to implement the precautionary principle 
for some, but not all, sources of water pollution.
    The law governing fresh water has changed in only marginal ways 
since Rio, partly because legal tools for water resource protection 
were relatively sophisticated at the time. The lack of significant 
legal change is also due in part to political barriers to further 
improvements designed to address issues and problems that have evaded 
solutions under existing law. While additional regulations have been 
implemented to address more point sources of pollution, a comprehensive 
regime to tackle runoff from agriculture, city streets, and other land 
uses remains elusive. Moreover, efforts to address the cumulative 
impacts of multiple sources of pollution on specific water bodies have 
been reinvigorated, but progress has been slow due to legal and 
political controversy. Similarly, legal tools to address physical 
impairments to U.S. aquatic ecosystems remain fragmented and poorly 
implemented. Some of the gaps in national and State programs to protect 
water resources have been filled by a wellspring of local and regional 
watershed programs around the country designed to promote 
collaborative, holistic solutions to problems in individual watersheds.
    Little improvement has been realized in actual water quality since 
1992. Long-term ambient water quality trends are difficult to evaluate, 
but available data suggest that, on a nationwide basis, there has been 
no clear trend in water quality over the past decade. Meanwhile, 
between 35 percent and 45 percent of the nation's rivers and lakes 
remain impaired for at least some beneficial uses. Threats to human 
health continue through contamination of swimming waters, fish and 
shellfish, and drinking water. Similarly, fresh water aquatic species 
and the ecosystems on which they depend remain impaired due to chemical 
pollution as well as widespread habitat loss and impairment. Indeed, 
fresh water ecosystems are among the most, if not the most, threatened 
ecosystems in North America.
    The United States could make progress in reducing these problems 
through changes and improvements in U.S. freshwater policy. In addition 
to continued efforts to control industry and sewage treatment plants, 
an analogous comprehensive program to reduce polluted runoff from rural 
and urban sources remains imperative if additional water quality 
improvements are to be realized. These programs should involve both new 
pollution controls and changes in agricultural policy designed to 
prevent or to discourage farming of surplus crops on environmentally 
sensitive lands. Integrated, holistic watershed protection efforts need 
to be strengthened both by encouraging and supporting existing and new 
watershed programs, and by strengthening the legal tools in the CWA 
designed to address pollution from multiple sources. Aquatic habitat 
can be restored by including a broader range of impairments within the 
broad definition of ``pollution'' in the CWA. In addition, there should 
be improvements in Federal and State programs to protect wetlands, 
floodplains, and other habitats; to restore aquatic ecosystems that 
have been modified by dams, channelization, and other artificial 
structures; and to protect critical minimum-instream-flow regimes.
Oceans and Estuaries
    Although the United States has played a leading role in protecting 
high seas fisheries, the ocean under its control appears to be in 
poorer shape now than it was in 1992. The United States controls more 
than four million square miles of ocean, an area larger than the 
country's land mass. Agenda 21 identifies four program areas that are 
particularly relevant to U.S. responsibilities for this area: 
integrated management and sustainable development of coastal areas, 
controlling marine pollution, protecting marine living resources of the 
high seas, and protecting marine living resources under national 
jurisdiction.
Coastal Areas
    Existing laws have been insufficient to prevent the overall 
degradation of the nation's coastal zones or to make significant 
progress in restoring degraded areas, particularly degraded wetlands. 
Through Agenda 21, nations committed themselves to integrated 
management and sustainable development of coastal areas, including the 
application of preventive and precautionary measures to protect and 
preserve sensitive offshore ecosystems. Even before Rio, the United 
States had laws in place to encourage coastal zone management and to 
protect its wetlands and estuaries. However, one-half of the U.S. 
population lives in a county that has an ocean coastline, and the 
coastal population is growing faster than the Nation as a whole. If 
current projections are correct, population pressures are likely to 
result in further degradation of coastal wetlands, beaches, and waters 
and the services they provide, despite fairly extensive State and 
Federal regulation. To address these problems, Congress should decide 
that (1) preserving viable coastal zones for future generations is a 
national priority, and (2) preserving functional nearshore and offshore 
ecosystems and the services that they provide for the future requires 
buying, restoring, and preserving coastal property now, particularly 
functional wetlands and other buffer areas between the land and the 
sea.
Marine Pollution
    Agenda 21 seeks to halt and reverse degradation of the marine 
environment from various sources of pollution. By the time of the Rio 
conference, the United States already had a reasonably effective legal 
structure in place to control pollutants from identifiable industrial, 
municipal and ship-based sources of marine pollution, and from oil 
pollution. Runoff, however, is not effectively addressed. Most marine 
pollution now comes from sources that are not well regulated under the 
CWA-especially urban runoff and agricultural runoff. Congress thus 
should require States to have enforceable measures to control runoff, 
and should give private citizens a right to sue such polluters when 
they impair ocean quality. Congress should also amend the CWA to 
require the establishment of water quality standards for the part of 
the ocean that is under U.S. control.
Marine Species on High Seas
    The United States was a world leader in international conservation 
of marine species before Rio, and it maintained that role throughout 
the last decade. Agenda 21 encourages sustainable use and conservation 
of living resources of the high seas. A number of commercially 
important fish species, such as tuna, mackerel, and marlin, as well as 
the great whales, spend much of their lives in waters outside any 
nation's regulatory jurisdiction. U.S. efforts over the last few years 
have included initiating new programs to protect species, such as 
sharks, that have only relatively recently become commercial fishing 
targets. But basic status of one-half of the fished highly migratory 
species is unknown. The United States should thus fund, or help fund, 
comprehensive international scientific research to obtain basic 
information about international marine living resources, and to reduce, 
and encourage other nations to reduce, catch limits for all species 
known to be or suspected of being in danger of being overfished.
Marine Species Under U.S. Jurisdiction
    Fish stocks under U.S. Federal management are suffering, and there 
is insufficient information to determine the status of 65 percent of 
U.S. fish stocks. Yet there is reason to believe that Federal fisheries 
and fishery management may have improved since 1992. As Agenda 21 
explains, although the marine living resources and nearshore fish 
existing mostly within a nation's jurisdiction can help meet a nation's 
nutritional and social needs, they can do so only if they are not 
overfished or overharvested. The 1976 statute governing fisheries was 
amended by the 1996 Sustainable Fisheries Act to incorporate 
sustainable thinking and a precautionary approach into U.S. domestic 
fisheries management. Still, it may take a decade before we can measure 
the true biological effects of legal changes in fisheries management, 
and the unintentional catching of nontarget species remains a problem. 
To make further progress, the United States needs to fund and support 
research to discover the complex interactions of marine living species 
and their environment. Without understanding marine ecosystems, truly 
sustainable management measures cannot be implemented. To facilitate 
comprehensive ecosystem management of its seas, the United States 
should also work toward overhauling its current species-by-species, 
medium-specific, multistatute, multigovernment, and multiagency legal 
regime for the oceans.
    More generally, the United States currently lacks two visions of 
the ocean necessary to promote sustainable development-visions that it 
should articulate in the next few years. First, the United States needs 
a philosophical vision of the marine environment as an integrated 
ecosystem that should be used with caution. Second, the United States 
needs a more concrete vision of what the oceans under its territorial 
control should be. The Oceans Act of 2000, which establishes a 
commission whose sole function is to make recommendations for a 
coordinated and comprehensive ocean policy, offers the Federal 
Government a means to identify and articulate these two visions.
    In the last years of the decade, and especially since 2000, the 
Federal Government has shown decidedly more interest in protecting its 
marine resources. This interest appears in the Oceans Act of 2000, in 
the Coral Reef Conservation Act of 2000, in President Clinton's Marine 
Protected Area Executive Order (which the Bush Administration has now 
adopted), and in the 2-year-long effort to turn the northern Hawaiian 
Islands into a national marine sanctuary. While recovery of ocean 
ecosystems can take decades, these recent legislative and executive 
efforts to protect the ocean suggest that the issue of sustainable 
ocean ecosystems may finally have arrived on the U.S. political agenda.
Air Pollution
    Air pollution can make life unsustainable by harming the ecosystem 
upon which all life depends and harming the health of both future and 
present generations. The air pollution control activities described in 
Agenda 21 are broadly consistent with long-term U.S. law and policy, 
particularly the Clean Air Act (CAA). Several Rio Declaration 
principles taken together, including the right to a healthy and 
productive life in harmony with nature and the elimination of 
``unsustainable patterns of production,'' suggest the importance of 
focusing on the economic activities and technologies that produce air 
pollution. The overwhelming majority of air pollution comes from a 
single class of activities-burning fossil fuels. Emissions of most air 
pollutants declined somewhat over the past decade. Despite these 
improvements, the United States has not achieved the goals of the Rio 
Declaration because we have generally failed to do what we need to do-
substitute clean sustainable technologies for the basic dirty ones in 
use when the CAA was enacted more than 30 years ago.
    Since the Earth Summit, the United States has reduced emissions 
contributing to urban air pollution and acid rain, except for nitrogen 
oxides. Air pollution levels are still too high, however, to ensure all 
human beings have a healthy and productive life. Inspite of strong 
economic growth and growing population, carbon monoxide declined by 2 
percent, volatile organic compound emissions by 13 percent, particulate 
matter by 7 to 13 percent, and hazardous air pollutants by perhaps 39 
percent. Still, large sections of the country are not in compliance 
with health-based air quality standards. If the U.S. Environmental 
Protection Agency (EPA) succeeds in an effort it began several years 
ago to strengthen air quality standards, the CAA may deliver further 
benefits in the future.
    An ambitious program to reduce sulfur dioxide emissions, created by 
the 1990 Amendments to that Act, resulted in an overall reduction of 
emissions from all sources by 17 percent between 1992 and 1999. This 
program has not stopped transboundary harms, however, and has not fully 
protected ecosystems; most lakes and ecosystems remain damaged. By 
contrast, the United States has made substantial progress in reducing 
pollutants responsible for stratospheric ozone depletion.
    The United States has made only very modest progress toward 
deployment of sustainable technology. It has made substantial 
technological changes in sectors once served by ozone-depleting 
chemicals, and some progress with respect to sustainable vehicle 
technology (thanks to California's low emission vehicle (LEV) program), 
but almost no progress in changing how electricity is generated. New 
electric-generating facilities, which are built and operated to meet 
increased demand, tend to rely on less polluting fuels, particularly 
natural gas. Still, less efficient and more polluting electrical 
generating plants that were operating in 1970 continue to do so.
    To move toward sustainable development on air quality, the country 
must move away from its dependence upon fossil fuels, especially fuels 
that produce such large contributions to urban air pollution, acid 
rain, and global warming. As a first step, the United States should 
phaseout coal-fired power generation, which supplied 51 percent of the 
power generated by electric utilities in 1998. The United States should 
also expand and strengthen the LEV program in order to replace the 
internal combustion engine. Government policy should be used to ensure 
that new technologies are continuously more efficient and less 
polluting than existing ones, and that existing technologies are 
actually retired on a periodic basis rather than allowed to operate 
indefinitely. Several legal mechanisms have the potential to create an 
economic dynamic favoring such a change. These include increasingly 
stringent mass-based limits, pollution taxes, and an ``environmental 
competition law.''
Climate Change
    In late 1992, the United States became the fourth country in the 
world to ratify the U.N. Framework Convention on Climate Change 
(UNFCCC). Five years later, in 1997, the United States agreed to a 
protocol in Kyoto, Japan, under which developed countries would reduce 
their GHG emissions by about 5 percent from 1990 levels by 2008-2012, 
and the United States would reduce its emissions by 7 percent from 1990 
levels in the same period. Although President Bush repudiated the Kyoto 
Protocol in 2001, the United States is still a Party to the UNFCCC. 
While the convention is a framework on which more explicit agreements 
are to be based, it nonetheless contains commitments. And these 
commitments are different from those in Agenda 21 and the Rio 
Declaration, because they are legally binding. For GHG emissions, the 
United States has failed to comply with the spirit, if not the letter, 
of the convention.
    The United States is the world's single largest producer of GHG 
emissions. By 2000, U.S. GHG emissions were 13.6 percent higher than 
1990 emissions measured in carbon equivalents. More recently, U.S. 
emissions were projected to exceed 1990 levels by more than 46 percent 
by 2020. (CO<INF>2</INF>, a principal GHG, is not directly regulated 
under the CAA.)
    The United States has generally adhered to UNFCCC obligations that 
are not related to emissions. Parties agreed to annually report their 
national GHG emissions and to develop plans to mitigate climate change. 
The United States has done so. In addition, Parties agreed to support 
and further develop research on global warming. The United States has 
consistently supported scientific research and has shared information 
about global warming with other Parties.
    Although the UNFCCC contains no ``hard'' or ``numerical'' emission 
limitations, it does contain two commitments regarding emissions. 
First, developed countries agreed on a short-term goal-to ``aim'' to 
reduce GHG emissions to 1990 levels by 2000. The United States and 
other developed countries thus promised to adopt policies and measures 
that had a reasonable expectation of reducing GHG emissions to 1990 
levels by 2000. A strong case can be made that the United States has 
failed to abide by this promise. President Clinton's proposed energy 
tax was rejected in 1993 by Congress. Then the Clinton Administration 
initiated a climate change program based on voluntary initiatives, but 
emissions continued to increase significantly.
    The UNFCCC also contains a long-term goal, and commitments that go 
with it. Developed countries agreed to adopt policies and measures 
``consistent with the objective of the Convention.'' The convention's 
objective is ``stabilization of [GHG] concentrations in the atmosphere 
at a level that would prevent dangerous anthropogenic interference with 
the climate system.'' However, the U.S. actions described above, 
including repudiation of the Kyoto Protocol, are inconsistent with 
achieving the convention's long-term objective. In early 2001, the 
Intergovernmental Panel on Climate Change (IPCC), an international 
group of climate scientists organized under the United Nations, 
concluded that the earth's average surface temperature could rise by 
2.5 to 10.4 degrees Fahrenheit (F) from 1990 to 2100, which is higher 
than the IPCC's estimate of 5 years earlier. This report also 
strengthened the IPCC's prior conclusion that human-caused global 
warming is already happening. A strong case can be made that the IPCC's 
projections of future climate change would constitute ``dangerous 
interference with the climate system'' even toward the lower end of the 
IPCC projection, and that it is already too late to prevent some 
atmospheric damage from global warming. The likely effects of global 
warming include rising sea levels, more frequent floods and droughts, 
and an increase in tropical diseases.
    The excuses used by the United States for not acting are also 
inconsistent with the convention. Many U.S. decisionmakers have said it 
would be unfair to the United States to have to reduce GHG emissions if 
developing nations aren't required to do so. But in the UNFCCC, 
developed countries agreed to take the lead in reducing GHG emissions 
because they are responsible for the largest share of historic and 
current emissions, and because they have greater capability to reduce 
them. Many decisionmakers also claim that global warming science is too 
uncertain to justify programs that might turn out to be an unnecessary 
drag on the U.S. economy. Yet the United States and other UNFCCC 
Parties specifically agreed to take ``precautionary measures'' to 
reduce GHG emissions, and recognized that the ``lack of full scientific 
certainty should not be used as a reason for postponing'' cost-
effective measures. Notably, many such cost-effective measures are 
available.
    The United States should adopt GHG emission reduction programs that 
will reduce U.S. GHG emissions to 1990 levels as soon as technically 
feasible. Because the United States is already 13.6 percent above 1990 
levels, and because a business-as-usual approach to GHG emissions is 
expected to significantly increase this difference in the next 6 years, 
the United States will also need to participate in emissions trading 
and use carbon sequestration projects, coupled with aggressive policy 
responses, to achieve this reduction. In addition, the United States 
should commit to make further reductions to achieve the Kyoto target of 
7 percent below 1990 levels as soon as possible after achieving the 
first goal. This would allow the United States to merge with the 
approach taken by the rest of the world pursuant to the Kyoto Protocol 
even though it may be technically infeasible for the United States to 
comply with the Kyoto goal between 2008 and 2012. The United States 
needs to make it clear that it will eventually catch up with 
commitments being made by the rest of the world.
    The record on voluntary global warming programs has demonstrated 
that they alone cannot be relied upon to achieve the type of reductions 
required. Therefore, the United States needs to adopt both emissions 
caps for various sectors and a mix of financial incentives and 
regulatory requirements. Moreover, the United States should take 
leadership on getting an international consensus on what atmospheric 
concentrations of GHGs will not present a dangerous interference with 
the climate system. That would help the international community better 
understand what national obligations will be needed to prevent 
dangerous interference with the climate system.
Biodiversity
    The Convention on Biological Diversity, which seeks to ensure both 
the conservation and sustainable use of biodiversity, was opened for 
signature in Rio. The convention is a major innovation because it 
provides a legal foundation that did not previously exist in the United 
States and in most other countries for the conservation of 
biodiversity. The United States has signed, but not ratified, the 
Convention on Biological Diversity. Agenda 21, which the United States 
did agree to, also provides for biodiversity conservation. Both Agenda 
21 and the Convention on Biological Diversity would have nations adopt 
national strategies for the conservation and sustainable use of 
biological resources. Key elements of a national strategy include an 
inventory and monitoring of important biodiversity resources, and the 
creation of in situ (in place) biodiversity reserves. Ten years after 
Rio, the United States has no explicit comprehensive biodiversity 
conservation program in place, and a great many species and ecosystems 
are at risk.
    Biodiversity conservation is still not a generally accepted legal 
standard in the United States. At best, it is an objective which may be 
considered along with other competing objectives when resource managers 
make allocation decisions that promote or impair biodiversity. The 
reason is simple. Biodiversity emerged as a concept after the basic 
public land and environmental laws were in place, and domestic politics 
have prevented ratification of the Convention on Biological Diversity 
and all efforts to develop a national biodiversity conservation 
strategy.
    The Endangered Species Act (ESA) of 1973 does not provide a 
complete foundation for such a strategy. The ESA imposes a duty on 
public and private parties to prevent the extinction of a limited 
number of endangered or threatened species-those that are listed under 
the Act. In 2000, more than 1,200 species were listed, but an estimated 
66,000 were at risk of extinction. The ESA is also a backward approach 
to biodiversity because it only indirectly addresses the major cause of 
biodiversity loss-habitat destruction-and it does not address other 
causes such as the invasion of exotic species and air and water 
pollution. Since 1992, however, the ESA has evolved to encourage the 
use of large-scale multispecies habitat conservation plans and other 
forms of ecosystem management. By the end of 2000, the U.S. Department 
of the Interior had approved habitat conservation plans covering 20 
million acres. While this suggests that it is possible to move from 
individual species to general biodiversity conservation within the 
framework of the ESA, the results of this approach have yet to be 
tested by time.
    Since the Earth Summit, many biodiversity conservation initiatives 
have been started in the United States by all levels of government and 
by private parties. But they are often ad hoc efforts to solve a single 
example of past environmental degradation, such as the restoration of 
sheet flows to the Everglades, or efforts to avoid a worst-case 
enforcement scenario under the ESA. The U.S. Government has also tried 
to manage large blocks of public lands on an ecosystem basis and has 
participated in ecosystem restoration experiments on a collaborative 
stakeholder basis. These efforts have occurred in national forests, 
wilderness areas, national parks, and Bureau of Land Management lands-
areas that in many cases could be turned into public land biodiversity 
reserves. These efforts are extremely fragile because they lack a firm 
legal foundation, can be modified in response to changed political 
conditions, and include no clear performance standards to measure their 
success should they endure. Thus, the future of many of the 
biodiversity-related conservation initiatives implemented since 1992 is 
in doubt.
    To implement the Earth Summit's objectives, the United States 
should immediately take four steps. First, it should ratify the 
Convention on Biological Diversity. Ratification would establish 
biodiversity conservation as an overarching legal objective in the 
United States and stimulate the development of a comprehensive national 
biodiversity conservation strategy. Second, the legal mandates of the 
major Federal land management and regulatory agencies should be revised 
to require them to conserve biodiversity to the maximum extent 
consistent with due process and the sustainable use of natural 
resources. This would include clarifying the role of State and local 
governments as well as private parties in habitat conservation plans. 
Third, the United States should create a Biological Survey, equal in 
stature to the U.S. Geological Survey, to inventory the nation's 
biodiversity heritage and to provide the necessary scientific support 
for the establishment of biodiversity indices and conservation 
performance standards. Finally, although biodiversity conservation is 
primarily a national responsibility, private land stewardship must be 
recognized and supported.
Forestry
    The United States made halting steps in law reform and in the 
implementation of forest sustainability during the past decade. The 
governments meeting in Rio agreed to a separate set of principles for 
sustainable development of forests. In general, sustainable forestry is 
based on ecosystem integrity, economic viability, and social 
responsibility. Other principles relevant to the United States include 
opportunity for stakeholder participation in forestry decisions, 
``timely, reliable, and accurate'' information, comprehensive 
assessment of forest values, integration of forest management with 
management of adjacent areas to protect viability or unique ecosystems, 
and the incorporation of environmental costs and benefits into market 
mechanisms.
    Forest ecosystems cover one-third of the land area of the United 
States, and two-thirds of that land is productive enough to have value 
as commercial timberland. Public forests account for 42.4 percent of 
the forest area in the United States; they are owned and managed by the 
Federal, State, and local governments; and have contributed 
disproportionately to sustainability through demonstration programs and 
innovative practices. Private forests account for the rest. The basic 
structure of forestry law, firmly established prior to 1992, provides 
the background against which to discern recent trends.
    The physical area of forests changed little in the past decade. 
Data on species diversity, forest structure, water quality, and many 
other dimensions of ecological sustainability are not cumulated 
nationally for forests in a way that invites evaluation of changes 
since 1992. Information on economic viability and social responsibility 
is even more elusive.
    After the Rio Summit, the U.S. Forest Service began a slow, but 
steady, shift toward general sustainable development principles. The 
most important legal vehicle for promoting this change is the 
Government Performance and Results Act, which was enacted in 1993. The 
legislation requires all agencies to set both long-and short-term 
measurable performance objectives and to conduct periodic assessments 
and revisions. This spurred the Forest Service to employ adaptive 
management to monitor and evaluate its activities based on parameters 
relating to such sustainability criteria as the health of the land, 
quality of water, and user satisfaction. These changes help provide 
``timely, reliable, and accurate information'' about forests. The 
Forest Service also shifted its emphasis under the ESA from interagency 
coordination and prohibitive policy to the broader use of habitat 
conservation plans. In 2000, the Forest Service promulgated a new 
framework for planning that establishes maintenance and restoration of 
ecological sustainability as the first priority for management. The 
2000 rule, and a 2001 rule prohibiting logging and road building in 
many roadless areas of the national forests, constitute the single most 
important positive development in the application of substantive 
standards to promote sustainable development of public lands. The Bush 
Administration, however, has indicated that it will alter both 
regulations.
    On private lands, a slight strengthening of State forest practice 
laws and increased promotion of best management practices have improved 
the legal regime, but these changes tended to be overwhelmed by market 
forces. Until water pollution control begins to force abatement and 
mitigation of runoff, private forest owners will not face significantly 
heightened incentives for sustainable practices. On the other hand, new 
certification systems for sustainable practices have arisen in the past 
decade; under these programs, third parties such as the Forest 
Stewardship Council certify forest products as ``sustainable,'' and 
major purchasers confine their purchases to certified products. These 
systems have begun to reshape market demand.
    In the coming decade, the United States should strengthen its legal 
mechanisms for promoting public participation, citizen enforcement, 
best forestry management practices, and landscape-level planning. These 
recommendations are top priorities for facilitating sustainable 
development. Existing property, market, and administrative regimes can 
all be deployed in the service of more sustainable forestry by flexibly 
demanding that environmental performance indicators be achieved through 
mitigation, ecosystem services, and adaptive management. In addition, 
the 2000 and 2001 rules should be supported, not altered. These 
regulations are important because large-scale, e.g., forestwide, 
planning is needed to implement ecosystem management. Federal and State 
governments should also throw their purchasing weight behind the Forest 
Stewardship Council's certification program.
Agriculture
    The United States has a diverse and dynamic system of agriculture. 
If it is to be sustainable, it must meet at least three criteria that 
are explicit in or logically derived from Agenda 21 and the Rio 
Declaration. Agriculture must become internally sustainable, which 
requires that it preserve its resource base; avoid pollution, 
salinization, or other degradation of the soil and water; and be able 
to respond to plant and animal disease, pests, periodic climate 
variation, and changing market conditions. Agriculture must also be 
externally sustainable. That is, it must not impose external costs on 
nonagricultural society or surrounding natural resources. Finally, 
agriculture must exhibit responsive sustainability; it must be 
sufficiently dynamic and flexible that it is able to respond to change 
and help the Nation respond to crises in other sectors of the economy, 
e.g., to participate in global warming remedies through the use of 
sequestered carbon.
    Internal sustainability is being challenged in the West by 
competing demands for irrigation water, although the increased use of 
water conservation practices eases this somewhat. From 1992 to 1997, 
however, one-quarter of all agricultural land converted to urban uses 
was prime farmland.
    U.S. agriculture is not externally sustainable. Since 1985, there 
has been a gradual and fundamental change unfolding in Federal 
agricultural policy. A series of programs (evidenced by the 2002 farm 
bill) now encourage farmers to adopt conservation or environmental 
protection practices on some of their land. Taken together, these 
mostly voluntary agricultural programs represent a vast investment in 
conserving practices. Still, farm policy continues to direct farmers 
away from sustainability. The system of support payments, which will 
grow even larger now that the 2002 farm bill has become law, encourages 
farmers to grow commodity crops, which have greater adverse 
environmental effects, and drives small, family farms out of business. 
There are larger and fewer farms employing ever more intensive 
practices, usually in the form of monoculture. There is almost 
universal reliance on inorganic fertilizers to replace lost natural 
soil nutrients. Chemical pesticides are heavily relied on to deal with 
the vulnerability of monocultures to pests. Pollution of both surface 
and groundwater from agricultural sources may be the single largest 
source of pollution in the Nation. Waterways of all types suffer from 
sedimentation.
    Responsive sustainability is challenged by several uncertainties, 
perhaps the clearest of which is climate change. Rapid changes in 
climate, including more frequent droughts and floods, could be 
disastrous for agriculture. Another example of uncertainty is the 
effect of specialization in the use of genetic stock. Because the 
United States operates an agricultural system that is close to 
monocultural, future pests, diseases, or human dilemmas could create 
large problems unless we preserve the broader genetic stock, or 
germplasm, from which current plant varieties are derived. Other 
sources of uncertainty are created by the increased use of genetically 
modified organisms and by world markets.
    Steps needed to move the United States toward sustainable 
agriculture include the stabilization of irrigation agriculture through 
greater water conservation and protection against salinity. The United 
States should also renew its campaign to reduce erosion. Prime 
agricultural land must be protected against urban and suburban 
development. The nation's larger drainage systems should be re-
engineered to achieve systematic control of polluted runoff. In 
addition, affirmative steps should be taken to protect germplasm. More 
generally, the internalization of environmental costs should be an 
obligation of contemporary agriculture. For the long term, the science 
of ecology must be fully integrated into agricultural research.
Land Use
    Sprawl continued during the past decade. The ``smart growth'' 
movement has led to some legislative and policy changes, particularly 
at the State level. But there is a wide gap between the talk of reform 
and actual reform, and not enough time has elapsed to fairly assess 
whether any of the policy changes are making a meaningful difference.
    Sustainable land development requires consistent integration of 
social, environmental, and economic considerations in decisionmaking to 
produce a sound, coordinated, and harmonious built environment. Our 
system of land use controls and decisionmaking must be consistent both 
horizontally (among and between neighboring jurisdictions) and 
vertically (from one level of government to the next). Achieving this 
result requires heightened levels of intergovernmental cooperation, 
coordination, and support. Effective sustainable land development 
policies must minimize sprawl and maximize sound development 
opportunities so that the United States may conserve important lands, 
preserve the natural environment, protect air and water quality, 
promote affordable housing through compact development and urban 
renewal, and encourage urban ``infill'' rather than rural development.
    Agenda 21 asserts that national governments should delegate 
``planning and management responsibilities to the lowest level of 
public authority consistent with effective action.'' This is the 
lightning rod of land use reform debate in the United States-whether 
traditional local land use planning and decisionmaking can achieve 
sustainable development.
    The smart growth movement is proving to be, at least in rhetoric, a 
solution for both the disorganized and inefficient system of land use 
controls of the past and a framework for a new future paradigm. In 
general, smart growth principles mirror many of the implementation 
strategies for sustainable land development under Agenda 21.
    At the national level, there has been a lot of talk, some bits and 
pieces of reforms, but overall very little action. The Federal 
Government has taken notice of allegations of environmental injustice 
in the siting of various locally unwanted land uses, and has taken 
initial steps to foster greater social equity.
    There is a much greater level of activity in many States than at 
the national level. While there were some State-level comprehensive 
land use planning reforms before 1992, the last decade has witnessed an 
unprecedented level of attention and activity at the State level. Some 
States have undertaken a comprehensive recodification of State planning 
and zoning enabling statutes that provide local governments with tools 
to promote sustainable land use. More than one-half the States explored 
reform options through task forces or study commissions. Some States 
have adopted changes through public referendum initiatives. Yet on 
balance States are just starting to make significant statutory changes 
that offer the promise of promoting more sustainable land development 
practices. It will take even more time for these reforms to translate 
into observable and quantifiable changes in our neighborhoods and 
communities once States have provided the opportunity for changed 
behaviors.
    Sustainable land use will require continued leadership for, and 
interest in, meaningful land use reforms. States must create a new 
culture of cooperative and intergovernmental decisionmaking at the 
local level. State and Federal Governments must target spending on 
initiatives and programs that promote urban renewal and infill, and 
thus revitalize our cities. The Federal Government should also modify 
existing programs so that, where State and local participation is 
optional, access to Federal money is conditioned on implementation of 
sustainable land use plans.
Waste and Toxic Chemicals
    According to Agenda 21, the root cause of waste and toxic chemicals 
problems is unsustainable patterns of production and consumption. These 
patterns are unsustainable because they harm humans and ecosystems, 
deplete materials and energy, and, in some cases, may threaten national 
security. This section summarizes U.S. efforts concerning toxic 
chemicals as well as pesticides. It also summarizes U.S. efforts 
concerning three types of waste-hazardous waste (including Superfund), 
municipal solid waste, and radioactive waste. In addition, it 
summarizes State and Federal legislation facilitating private cleanups 
of brownfield sites-sites contaminated with hazardous substances.
Toxic Chemicals and Pesticides
    The United States made significant progress in moving toward a more 
sustainable approach to chemicals and pesticides over the past decade, 
but still has a long way to go. The most relevant sustainable 
development principles are the precautionary principle, 
intergenerational equity, access to information, integrated 
decisionmaking, and control of trade of hazardous chemicals in 
international trade. They apply with particular force to chemicals and 
pesticides because of incomplete information about their risks, their 
potential to cause future harms, and the need for public information 
about them.
    Little progress was made in reducing the risks of chemicals that 
are currently being used in commerce. The 1976 Toxic Substances Control 
Act (TSCA) requires manufacturers of new chemicals to submit 
information about the environmental and health risks of these chemicals 
to EPA before they can be manufactured. Relatively little information 
exists concerning the 60,000 or so chemicals already in commerce that 
were grandfathered under TSCA, and little progress was made in 
assessing their risks over the past decade. Several voluntary 
information collection initiatives-one for high production volume 
chemicals and another for chemicals to which children are commonly 
exposed-are promising, but it remains to be seen whether anything more 
than assessments will be conducted.
    Similarly, little progress was made concerning the introduction of 
new chemicals into commerce. Although premanufacture approval is 
required under TSCA for new chemicals, the United States requires 
relatively little information before giving that approval. While both 
EPA and the EU have concluded that requiring better information would 
reduce risks, EPA has not taken steps to do so. The EU runs a premarket 
approval program rather than, in the case of the United States, a 
premanufacturing approval program. Because only 10 percent of new 
chemicals are likely to go to market, the EU program focuses more 
intensely on fewer chemicals, and thus permits a more certain hazard 
prediction than the system of review used in the United States.
    The toxics release inventory (TRI) led to continued reductions in 
chemical releases over the past decade. Under TRI, manufacturing 
facilities with 10 or more employees report releases and transfers of 
several hundred toxic chemicals. Between 1988 and 1999, total releases 
of the ``core'' set of chemicals that were reported consistently over 
that time declined by 45.5 percent, although total production waste 
increased slightly. The TRI was expanded in the 1990's to include 
hundreds of new chemicals, Federal facilities, and new industry groups. 
These expansions have increased the information available to citizens, 
which may lead to further reductions.
    Pollution prevention would further many of the goals of sustainable 
development because it relies on more efficient processes and practices 
to reduce the amount of pollution that is created. Although much 
progress was made in the development of pollution prevention tools and 
education, it is not clear to what extent pollution prevention has been 
adopted in practice.
    Use of pesticides in agriculture has leveled off since 1985, and 
utilization of the most highly toxic pesticides has declined. But the 
most important change in pesticide regulation over the past decade 
occurred with the adoption of the 1996 Food Quality Protection Act. The 
Act focuses on pesticide residues in food, and requires EPA to assess 
the aggregate and cumulative risks of these pesticides, rather than 
assessing safety based on one pesticide and one medium at a time. The 
Act also requires safety factors, reflecting both the precautionary 
principle and intergenerational equity.
    The United States made some progress in the regulation of 
genetically modified organisms (GMOs) under TSCA, but it did not put in 
place a framework for regulating the new GMO plants that are being bred 
to produce chemicals. Such organisms are increasingly the technology of 
choice for the manufacture of chemicals and pesticides.
    In the international arena, the United States has been at the table 
for negotiations and has been among the world's leaders in developing 
and adopting international standards for chemicals, some legally 
binding, and some not. However, the United States has not yet ratified 
certain recent treaties and protocols. These include the Rotterdam 
Convention on Prior Informed Consent (prohibiting the export of 
specified chemicals without explicit agreement by the importing 
country), the Stockholm Convention on Persistent Organic Pollutants 
(protecting health and environment from specified pollutants), the 
Cartagena Protocol on Biosafety (setting up an international framework 
for managing trade of GMOs and seeds), and the Biodiversity Convention 
on which the Cartagena Protocol is based.
    To make progress, or further progress, toward sustainable 
development, Congress should modify TSCA to provide a clearer standard 
for health and safety to encourage greater pollution prevention. TSCA 
should also be amended to shift the presumption that chemicals are 
``innocent until proven guilty'' to a burden on manufacturers to prove 
that chemicals are safe as used in the market. In addition, TSCA should 
be amended to level the playing field between new and existing 
chemicals; the present approach perversely creates disincentives for 
bringing new and safer technologies to market. New chemicals should be 
reviewed on a premarket, not a premanufacture, basis, and manufacturers 
should be required to submit the same kind of information they would to 
the EU. EPA also needs to broaden its use of tools for the management 
of chemical risks, including labels and hazard classification. As new 
chemical hazard information is generated by EPA through voluntary 
screening initiatives, TRI listings should be modified accordingly.
    The United States should evaluate its pollution prevention efforts 
to determine where they have succeeded and failed. The United States 
also needs to expand efforts to integrate pollution prevention into 
core regulatory efforts for air, water, and waste management. EPA needs 
to implement the Food Quality Protection Act on a priority basis, in a 
transparent manner, and with full public disclosure. In addition, the 
United States needs to revise the regulatory framework for regulation 
of biotechnology and assure that it will effectively cover both new and 
existing products. Moreover, the United States needs to seriously 
consider whether a labeling approach might have a place in enhancing 
consumer confidence, if not the safety, of such foods. Finally, the 
United States should ratify the agreements described above. In the 
longer term, the United States needs to recognize that many of the 
major chemical risks do not respect national boundaries.
Lead
    In the past 10 years, the United States has used its domestic 
efforts on lead poisoning prevention and abatement to help support 
efforts in other countries. Lead poisoning remains a serious threat to 
health and development, particularly but not exclusively in developing 
countries. Because lead poisoning is expensive and difficult if not 
impossible to cure, prevention is the best approach. The United States 
should maintain and intensify its leadership role on lead poisoning 
prevention in an internationalized context by supporting adoption of a 
Global Lead Initiative (GLI) and by playing a leadership role in 
implementing it thereafter. The GLI should be designed to complete a 
worldwide phaseout of leaded gasoline on an expedited basis, and use 
the momentum from that success to address the multiple other sources of 
lead exposure. The United States should continue to support the global 
phaseout of leaded gasoline in all relevant international fora. The 
United States should also support such complementary activities as the 
development of an international network dedicated to raising public 
awareness and exchanging best practices for phaseout and prevention, 
including those based on U.S. experience.
    In addition to the United States, the international community 
should support the establishment and implementation of a GLI to 
complete the phaseout of leaded gasoline and then other sources of lead 
poisoning. While the conquest of lead poisoning would constitute a 
signal victory in itself, its concrete achievement should also serve as 
an optimism-engendering model of international cooperation adaptable to 
solving other threats to sustainable development.
    The project should initially convene a technical advisory group to 
work in partnership with identified government focal points, as well as 
NGO's and the private sector, to prepare action plans for phaseout that 
include milestones and timelines for national action. Mandating, not 
merely recommending, the formation of the technical advisory process 
and funding, not merely morally encouraging, the GLI as a sustained 
project are essential to its success.
Hazardous Waste and Superfund
    The basic structure of U.S. domestic laws with respect to hazardous 
waste was established in the 1970's and 1980's. The Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA or the 
Superfund Act) created a multifaceted scheme for eliminating dangerous 
conditions created by hazardous waste spills and improper disposal of 
hazardous substances. The Resource Conservation and Recovery Act (RCRA) 
focused on ``cradle-to-grave'' regulation of ongoing hazardous waste 
generation, transportation, and disposal.
    Agenda 21 is premised on an ``overall cleaner production 
approach,'' with the goal of preventing or minimizing further hazardous 
waste generation, which would have the United States go further. Rio 
Declaration principles supporting integrated decisionmaking and the 
reduction and elimination of unsustainable patterns of production and 
consumption provide a foundation for that. Indeed, a zero level of 
hazardous waste generation appears to be a worthwhile long-term goal. 
In addition, Agenda 21 calls for environmentally effective management 
of the waste that is generated. Agenda 21 also urges ratification of 
the Basel Convention on the Control of Transboundary Movements of 
Hazardous Waste, which sets forth more effective rules with respect to 
the transboundary shipping of hazardous wastes.
    Cleanup activity under CERCLA has been completed on about one-half 
of all Superfund sites listed on the national priority list, and more 
than 6,400 removal actions have been undertaken since 1993 to remove 
immediate and direct public health and environmental threats. Although 
CERCLA has been very modestly amended in the decade since Rio and 
subject to some intermittent administrative ``fine tuning,'' those 
legal changes have diminished or, for the most part, left unimproved 
the statute's overall environmental effectiveness. While the 
legislation was amended in early 2002 to encourage private cleanups at 
contaminated or ``brownfield'' sites, the statute still excludes oil-
based wastes at non-brownfield sites, and the exemption for secured 
creditors was actually broadened in 1996. Moreover, EPA's tax-based 
Superfund trust fund has not been replenished since the special 
Superfund taxes expired at the end of 1995, and the fund will run out 
of money in 2003 unless significant changes are made.
    Similarly, RCRA has never been comprehensively amended with a view 
to implementing sustainable development for hazardous waste. While the 
statute intensively regulates certain wastes, the legal definition of 
hazardous waste creates many regulatory uncertainties, and the statute 
excludes ``solid or dissolved material in domestic sewage'' and ``solid 
or dissolved materials in irrigation return flows''-two major and 
environmentally unsound loopholes. Moreover, the statute lacks any 
enforceable provisions directly intended to decrease or eliminate the 
generation of hazardous wastes. EPA's biennial hazardous waste reports 
reflect relatively little recent progress in decreasing the generation 
of hazardous wastes. Nor has the United States ratified the Basel 
Convention.
    To move toward sustainable development, CERCLA should be amended to 
narrow its exemption for secured creditors, to eliminate the statute's 
``petroleum exclusion,'' and to provide a stable source of funding for 
the Superfund program, at realistic levels, for at least another 
decade. RCRA (and CERCLA) should be altered to mandate phased decreases 
in the generation of hazardous wastes (by dates certain) at U.S. 
industrial facilities, to provide that hazardous wastes in domestic 
sewage and irrigation return flows be made subject to RCRA regulation, 
and to replace RCRA's current regulatory definition of ``hazardous 
waste'' with a consistent, straightforward, and comprehensive 
definition. The United States should also ratify the original version 
of the Basel Convention and amend domestic hazardous waste laws to 
conform with the convention.
Brownfields Redevelopment
    The United States has as many as 500,000 brownfield sites, 
properties that are underdeveloped or abandoned because of actual or 
potential contamination from past industrial or commercial use. Because 
of CERCLA and counterpart State laws, ownership or use of these 
properties could result in significant liability. In the past decade, 
virtually every State has adopted laws to facilitate the reuse of 
brownfield sites through voluntary cleanup programs. These laws confer 
three principal advantages on private sector actors and others who are 
willing to remediate a site-streamlined administrative cleanup 
procedures, relaxed cleanup standards, and liability protection. 
Brownfields revitalization is widely viewed as successful, as thousands 
of sites have been remediated in State programs. In early 2002, similar 
provisions under CERCLA were signed into law.
    Each decision to remediate and reuse a brownfield site eliminates 
environmental health risks while promoting reinvestment, creating jobs, 
slowing the acceleration of suburban ``greenfields'' development, 
decreasing polarization of communities, and fostering public 
involvement in every aspect of redevelopment efforts. Brownfield 
redevelopment thus involves integrated decisionmaking, promotion of 
sustainable human settlements, and public participation-all central 
features of sustainable development. In principle, too, State 
leadership in brownfields revitalization fulfills the Agenda 21 
recommendation that national governments delegate institutional 
responsibility for sustainable development ``to the lowest level of 
public authority consistent with effective action.''
    States should modify their programs in three ways to make them more 
fully consistent with sustainable development, however. First, a higher 
level of government oversight is needed to ensure early, simultaneous, 
and coordinated consideration of social, environmental, and economic 
goals. There is typically no comprehensive review of the project and 
little if any supervision of the cleanup process. The assumption is 
that redevelopment will result in less contamination, but that is 
merely an assumption. States should modify their laws to provide for 
State oversight throughout the process.
    Second, a shortcoming of virtually every brownfields program is the 
relative lack of concern for future generations. State and Federal 
programs define success in terms of short-term results based on 
specific uses that could change over time or with future ownership. 
States should modify their laws to guarantee long-term protection of 
sites where remediation has taken place.
    Third, there is relatively little opportunity for public 
participation in the cleanup process. Public participation is 
especially important because many brownfield sites are located in 
neighborhoods with higher than average concentrations of persons of 
color and other minorities. Public involvement helps ensure equity in 
the decisionmaking process and helps ensure consistency between 
community plans and developer plans. States should thus require full 
and active citizen participation throughout the revitalization process.
Municipal Solid Waste
    Solid waste, according to Agenda 21, is all waste that is not 
radioactive or legally hazardous. In the United States, the term 
encompasses nonhazardous industrial, oil and gas, mining, agricultural, 
and municipal solid wastes. While municipal solid waste, also known as 
trash or garbage, comprises only a fraction of these wastes, it is 
easily the best known and best studied of these types of waste. 
Accordingly, this part of the review focuses on municipal solid waste.
    Agenda 21's objectives for solid waste are contained in a hierarchy 
of (1) minimizing wastes that are produced, (2) maximizing 
environmentally sound reuse and recycling of wastes, and (3) the 
environmentally sound disposal and treatment of wastes that cannot be 
used or reused or recycled. Underlying this hierarchy are estimates of 
relative environmental impact and cost. Each successive tier of the 
hierarchy involves more materials use and loss. That, in turn, means 
more loss of economic value and, generally, more environmental impact 
than the previous level.
    Based on this hierarchy, the following three indicators or goals 
appear to be a useful way of measuring a move toward sustainable waste 
management: (1) decreasing per capita generation; (2) decoupling of 
waste generation from GDP; and (3) even if waste generation rises, 
decreasing per capita waste disposal though increased recycling, 
composting, and resource recovery.
    A threshold problem in analyzing U.S. efforts in meeting these 
three goals is a lack of standardization about what is and should be 
counted. Three prominent data sources that should be useful in 
analyzing sustainability trends at the national level collect data in 
different ways and make different assumptions in accounting. Still, it 
is possible to discern basic trends.
    First, per capita waste generation in the United States declined 
somewhat from 1990 to 1995, but has increased steadily since 1996, 
perhaps owing to the strong economy. Second, there does not appear to 
be any decoupling of waste generation from GDP; in fact, GDP increases 
seem to automatically include commensurately increasing waste 
generation rates. A trend toward lighter packaging appears to have been 
offset by increases in purchasing and waste. Finally, even after 
recycling and composting, the numbers of pounds of waste generated per 
capita per day have been increasing since 1996, according to both 
California and EPA data.
    These three trends are particularly notable, because the past 
decade saw large changes in how municipal solid waste is managed. The 
trash capacity crisis that the country faced in the late 1980's created 
tremendous enthusiasm for recycling and waste reduction programs. These 
programs have had a significant and positive effect. EPA reports that, 
in 1999, although 230 million tons of municipal solid waste were 
generated, 50 million more tons of waste were not created due to waste 
prevention programs. The trash capacity crisis also led to the 
development of larger, more environmentally protective landfills and 
incinerators, as a result of which capacity is no longer a significant 
issue. That growth in infrastructure, however, has reduced pressure for 
recycling and waste reduction.
    To move toward sustainability, the United States should make 
progress on all three goals or indicators. To reduce per capita waste 
generation, States could follow the lead of an Oregon statute that sets 
goals for stabilizing and reducing per capita waste generation. To 
decouple waste generation from GDP growth, the United States should 
explore examples of where decoupling has already occurred, e.g., yard 
waste, and develop programs that are targeted at specific waste 
streams. To reduce per-capita waste disposal, more recycling and 
composting is needed, coupled with incentives to reduce waste being 
disposed. Better and more nationally consistent data is necessary for 
all of these recommendations, and for all solid wastes.
Radioactive Waste
    Radioactive waste results from nuclear-powered electric generation 
and other civilian uses as well as the manufacture and disposal of 
nuclear weapons. In addition to its radioactive nature, it differs from 
other wastes because it can be highly dangerous for thousands of years 
and because some radioactive waste can be used to make new nuclear 
weapons. As a result, the control of radioactive waste deeply 
implicates the security aspects of sustainable development.
    While the cold war ended just before the 1992 Earth Summit, the 
full meaning of this change had not yet permeated the nuclear 
establishment. Since 1992, an enormous rethinking of the role of 
nuclear technology and the management of nuclear waste has begun. 
Enormous stockpiles of ``special nuclear materials'' and other 
radioactive materials that were painstakingly built up for nuclear 
weapons arsenals have been rendered surplus, raising difficult 
questions about what to do with them. Moreover, Agenda 21 focused only 
on commercial nuclear waste, not on radioactive waste from nuclear 
weapons production. Because of greater public awareness and disclosure 
about problems related to nuclear weapons production since the Earth 
Summit, it is now apparent that the cost of radioactive waste cleanup 
at nuclear weapons productionsites far exceeds the costs of civilian 
radioactive waste controls.
    In the 10 years since Rio, the United States took a number of 
actions that move the country closer to sustainability in nuclear waste 
control, if measured by the limited recommendations set forth in Agenda 
21. Among other things, Agenda 21 calls on countries to minimize 
radioactive waste, transfer radioactive waste control technologies, and 
support international efforts for radioactive waste control. Private 
industry has reduced the amount of low-level commercial waste per unit 
of activity. The amount of high-level nuclear waste from nuclear 
weapons material production was reduced largely by DOE's lower level of 
nuclear weapons production, but not by efficient operations. The United 
States has generally supported technology transfer in radioactive waste 
control. On the other hand, some technologies promoted for radioactive 
waste control may present significant risks of facilitating nuclear 
proliferation. The United States provided significant and broad support 
for international and regional cooperation and coordination, even 
though its efforts were uneven.
    When measured against the broader principles in the Rio 
Declaration, however, the United States has fallen short of making 
significant progress toward sustainability in radioactive waste 
controls. U.S. controls on most radioactive waste generally contain 
explicit, if imperfect, requirements that intergenerational or long-
term impacts be considered. The issue of intergenerational impacts has 
been a focus of debates about the effectiveness of proposed geologic 
repositories for such wastes. However, neither a complete understanding 
of the implications, nor a mature ability to deal with this issue, have 
yet evolved.
    Significant progress has been made in opening up radioactive waste 
control to public knowledge and participation. Much remains to be done, 
however, and some backsliding has already begun. DOE began an 
``openness'' initiative to provide the public more information about 
radioactive waste control, but that effort has waned, and large amounts 
of information that were previously available on websites from the 
United States have been eliminated, ostensibly for security purposes.
    Since 1992, two events have improved worker safety, but the overall 
problem of DOE self-regulation remains intractable. First, DOE has 
begun to encourage modern integrated safety management techniques to 
involve all workers in safety planning. Second, Congress passed a 
landmark worker compensation bill that provides Federal compensation 
for cancer, chronic beryllium disease, and silicosis to current and 
former nuclear workers and their surviving family members. 
Unfortunately, DOE is retreating toward its traditional insular culture 
of self-regulation and contractor self-assessments, thus reversing the 
momentum toward greater contractor accountability and safety that was 
developed in the 1990's.
    The polluter-pays principle is particularly problematic in the case 
of radioactive waste. The intergenerational nature of radioactive waste 
almost guarantees that some of the costs will be borne by future 
generations rather than by those who benefited from electric power or 
nuclear weapons. A limited trust fund was established for one site, and 
there were proposals for other trust funds. To the extent that waste 
and liability producing practices fail to internalize the full costs of 
doing business, the same practices will continue to produce 
environmental problems.
    To make progress toward sustainability in radioactive waste 
control, the United States will need to rely on existing laws and 
institutions more effectively. But new organizations and institutions 
will likely be required to operate new facilities for plutonium 
disposition and for long-term stewardship of facilities where 
radioactive waste has been stabilized or contained, but not removed. A 
dedicated trust fund and politically insulated organization will likely 
be required to ensure the availability of funds for post-cleanup 
stewardship of nuclear facilities. The United States needs to invest in 
better science and technology to provide a stronger and more publicly 
acceptable basis for decisionmaking. The government needs to 
acknowledge the seamless connection between certain aspects of 
radioactive waste control and nuclear weapons proliferation. It should 
therefore support changes in the International Atomic Energy Agency to 
separate its regulatory safety and safeguards functions from its 
nuclear promotion activities. Finally, the government should seek to 
bridge the gap between current policies and the public's understanding 
and support for those policies. A major challenge is whether technical 
concerns about the security of radioactive wastes and related nuclear 
operations are compatible with open and democratic decisionmaking 
processes.
Nongovernmental Actors
    As Agenda 21 and the Rio Declaration recognize, an informed and 
active civil society plays an integral role in realizing sustainable 
development. A democratic society can only accomplish the far-reaching 
individual and organizational changes required for sustainable 
development by making readily available the information that citizens 
need to make their own choices and by involving citizens in making 
societal choices. More generally, sustainable development is not simply 
the responsibility of governments. Every part of civil society has a 
role to play, not just in influencing government decisions, but also in 
the activities it conducts on a daily basis. Public access to 
information and governmental decisionmaking processes is one key aspect 
of this issue. Another is the role played by business and industry. A 
third is the extent to which sustainable development is understood in 
ethical or religious terms.
Public Access to Information, Participation, and Justice
    In 1992, the United States already had in place basic laws and 
practices to promote transparency, participation, and accountability. 
These include the Freedom of Information Act (FOIA), the Administrative 
Procedure Act, the Government in the Sunshine Act, and access 
provisions in most environmental laws. During the past decade, FOIA was 
amended to include electronic as well as written material. Executive 
Orders began to build a structure to incorporate the goals of the 
environmental justice movement into the Federal Government, and bring 
some new voices into decisionmaking.
    Yet overall change in the past decade was not measured primarily by 
new laws, but rather by practical changes in access to information. The 
1990's brought a dramatic growth in access to information through the 
Internet. Research on indicators to track sustainable development 
flourished. As an alternative to litigation, collaborative 
decisionmaking processes became more common, bringing more 
perspectives, information, and ideas for finding solutions to the 
table. Environmental Defense, an environmental advocacy organization, 
developed a web-based scorecard that allows residents to find emissions 
from factories or power plants in their community.
    Even as new technology greatly increased the public's ability to 
share and use data, though, public reporting and analysis of 
information and participation in decisions stalled or lost ground in 
some respects. It proved difficult to develop a more unified and 
integrated information system that would give citizens easier access to 
government information. Such efforts often faced bitter political 
divisions and an entrenched legacy of fragmented information systems 
and structures developed around separate laws and programs of an 
earlier era. In a period of declining civic engagement, much of the 
country's innovative energy and investment went into technical 
developments rather than improving governance structures and norms, 
despite efforts to reinvent government to serve citizens. Judicial 
action made it more difficult to utilize established citizen suit 
provisions. Internationally, the United States sometimes took the lead 
but often stood on the sidelines on access issues.
    The United States has not taken the basic step of adopting-let 
alone using-a set of indicators and institutionalizing a process to 
involve the public in decisions aimed at sustainable development. A new 
Administration refused to make public the list of companies consulted 
in developing its energy plan, constrained access to Presidential 
records, and adopted a narrower interpretation and application of FOIA.
    The assumptions for expanding access were abruptly reframed 
following September 11 as the country struggled to address the 
potential use of information by terrorists. After the first, hurried 
decisions to remove some information from the Internet, the debate has 
begun to be reframed in terms of identifying specific types of data for 
which the danger of generalized public availability outweighs the 
public's interest in access. Yet this framing also recognizes that 
public access is, itself, a way to reduce risk by providing information 
that spurs public awareness and action.
    In this changed setting, the United States can take seven steps to 
put information and participation at the center of action to achieve 
sustainability, both at home and internationally. The United States 
should develop, adopt, and make regularly available to the public 
indicators of sustainable development. The United States should also 
develop environmental indicators and use them in preparing and 
publishing an annual state of the environment report. More broadly, the 
United States needs to adopt a set of principles that reflect the 
significant role of information in good governance and in enabling the 
public to play its role in sustainable development. The United States 
should also make significant investments in developing websites and 
web-based tools to tailor information to the needs of individuals and 
organizations. In addition, the United States should establish a 
national forum to engage citizens and NGO's on sustainable development. 
The government should find ways to strengthen public access to justice, 
reversing the past decade's general trend toward restricted public 
access to the courts. Finally, the United States should play a lead 
international role in promoting transparency, public participation, and 
accountability. To do so, the United States should, among other things, 
ratify the Aarhus Convention on Access to Information, Public 
Participation in Decisionmaking and Access to Justice in Environmental 
Matters.
Business and Industry
    Sustainable development can only be accomplished with the support 
of business and, as some firms are beginning to discover, there are 
profits to be made from sustainability. Agenda 21 charted a course of 
action for business and industry in five main areas: (1) global 
corporate environmental management; (2) environmentally sound 
production and consumption patterns; (3) risk and hazard mitigation; 
(4) full cost accounting; and (5) international environmental support 
activities. For its part, American business has tended to ignore 
sustainable development since Rio. Of the firms that have engaged the 
concept, most have concentrated exclusively on its environmental 
dimension. That is not to say there has not been meaningful advancement 
since Rio, particularly in business' ability to manage the 
environmental aspects of operations, goods, and services. In addition, 
some American companies are among those pioneers working on the 
sustainability frontier. But the journey is in its early stages, and 
the U.S. business community is by and large still formulating a case 
for, and a plan of action on, sustainable development.
    Over the last several years, many large and medium-sized firms, and 
to a lesser extent even smaller enterprises, have been continuously 
improving techniques to promote compliance with environmental laws. 
More recently, and particularly in the last 5 years, leading firms have 
begun to focus on nonregulated aspects of operations, and are 
experimenting with new methods to reduce their environmental footprint, 
increase competitiveness, and capitalize on opportunities created by 
next-generation policy initiatives that work with the grain of the 
market. Some of these firms can point to significant progress toward 
sustainability, especially in areas such as eco-efficiency, 
environmental management systems, communications with stakeholders, and 
transparency. Changing internal and external perceptions of social 
equity, the prospect of cost reductions and market share growth through 
innovation, increased shareholder value, positive brand recognition, 
and a variety of other factors are gradually but perceptibly prompting 
business to adopt strategies founded on sustainability principles. Only 
a limited number of companies have endeavored to incorporate 
sustainable development into operations and strategy, however, and some 
of these firms have been much more active than others.
    Building on insights gained in dealing with globalization, and 
guided by a sharper perspective of national security and the benefits 
of multilateral action in the wake of the terrorist attacks of 
September 11, government and private enterprise need to come together 
to forge a tighter alliance on all three dimensions of sustainable 
development: the social, the economic, and the environmental. To make 
further progress, government, business, and other interested 
stakeholders should consider the following framework. First, business 
needs to operationalize the concept of sustainable development in 
practical business terms. Second, the Administration, together with 
leaders from business and environmental organizations, needs to build a 
stronger constituency for sustainable development in the business 
community and Congress. Third, the Administration and business both 
need to gain a better understanding of the interdependent relationship 
between globalization and sustainable development. Fourth, Congress, 
the executive branch, and the business community need to work together 
to promote and facilitate good governance through national 
implementation and international cooperation.
    Fifth, business, working with government, financiers, investors, 
insurers, consumers, NGO's, and the public needs to develop 
sustainability indicators, data, and communication techniques that will 
enable informed distinctions among companies, goods, and services. 
Sixth, business, working with NGO's, supply chains, and other 
stakeholders, needs to significantly expand the web of existing 
partnerships and strategic alliances in order to promote new and better 
techniques and tools, and to spread best practices more widely. 
Seventh, lawmakers and policy decisionmakers (at the Federal, State, 
and local levels) need to work with leaders from business, NGO's, the 
bar, and the community to achieve consensus on a satisfactory blend of 
policy instruments to foster sustainable business practices. Eighth, 
changes in the nature of management education are needed so that 
graduates emerge from business schools with the ability to incorporate 
sustainable development and considerations of corporate social 
responsibility as elements of competitive strategy.
Sustainability as a Religious and Ethical Concern
    The United States should support, and the U.N. General Assembly 
should endorse, the Earth Charter. The Earth Charter, which was 
completed in 2000 after a 5-year process that involved extensive 
consultations and outreach, articulates the inspirational vision, basic 
values, and essential principles needed for a global ethic to support 
sustainable development. The Earth Charter contains 16 principles and 
61 supporting principles, and has broad resonance among the world's 
major religions and ethical systems. Its main purpose is to establish a 
sound ethical foundation for the emerging global society, and to help 
build a sustainable world based on respect for nature, universal human 
rights, economic justice, and a democratic culture of peace. The Earth 
Charter is intended to help people of all ages in every walk of life to 
better understand the spirit and implement the substance of truly 
sustainable development. Besides showing what sustainable living is all 
about, it offers a coherent, integrated standard for evaluating 
possible responses to particular issues. And, as one of its drafters 
stated, the Earth Charter is intended ``to give the emerging global 
consciousness the spiritual depth-the soul-needed to build a just and 
peaceful world community and to protect the integrity of Earth's 
ecological systems.''
    Endorsement of the Earth Charter by the U.N. General Assembly would 
not, of course, make it legally binding. But it would signal 
recognition by the world's leaders that sustainable development has a 
compelling ethical and religious foundation. That, in turn, could have 
a powerful and positive effect on efforts to move toward sustainable 
development, including efforts in the United States.
Education
    Aside from the word ``government,'' ``education'' appears more 
often than any other term in Agenda 21. Education underlies and has the 
potential to reinforce every other priority. Education also provides 
future voters and decisionmakers with the intellectual tools needed to 
achieve a sustainable society. Government can help educate people by 
providing information and ideas. But our educational institutions for 
kindergarten through twelfth grade, as well as our institutions for 
higher education, also have a crucial role to play.
Kindergarten Through Twelfth Grade
    Education for sustainability at the primary, middle school, and 
high school level builds on environmental education by helping students 
understand and address the relationship between natural systems and the 
effect of human social and economic activities on those systems. Agenda 
21 seeks to reform educational systems and practices accordingly. 
Happily, U.S. resources-tangible and intangible, financial and human-
could be instrumental in solving these problems. Kindergarten through 
twelfth grade (K-12) education is a major shaper of the truths, 
attitudes, ethics, concepts, and behaviors of American society. By 
reshaping K-12 education in the United States so that it systematically 
and effectively fosters sustainability, we will be able to make greater 
progress toward the achievement of a sustainable world.
    Groundwork has been laid in the 10 years since Rio for 
sustainability education. Some recent changes in educational practices, 
e.g., service learning, a focus on literacies and skills, standards 
that support interdisciplinary understanding and complex thinking, and 
growing recognition of the importance of systems thinking, help to 
prepare our youth to understand and implement sustainable development. 
Several organizations, and a network for those organizations, now exist 
that attempt to define and develop skills and dispositions in youth 
that will enable them to create a more sustainable world as future 
workers and citizens.
    In the past decade, an understanding of what sustainability 
education should mean has also been developed in the United States. A 
broad consensus can be seen among the goals of sustainability education 
theoreticians and practitioners on some key student outcomes and some 
essential knowledge, skills, and dispositions. These include ecological 
literacy, including human-environment relationships; system dynamics 
and ``systems thinking''; the ability to truly value and learn from 
others; an understanding of the importance of place; sustainable 
economics; citizenship; and creativity and visioning. Each of these is 
being taught, to some degree, in some classrooms.
    Overall, however, education for sustainability has only a toe-hold 
in mainstream K-12 education in the United States. The United States 
has not adopted sustainability education as a clearly stated, broadly 
applied, national goal. Very few K-12 educators in the United States 
have ever heard of sustainability education; few educators have worked 
explicitly to implement education for sustainability in their 
classrooms. While our educational system works to develop many of the 
discrete skills that future problem solvers will need to diagnose and 
solve our global problems, as a Nation we lack the systematic 
understanding that explains these complex threats to sustainability. 
Our educational system, moreover, is often inappropriately focused on 
basic literacy and easily testable knowledge, which does not adequately 
prepare future voters and decisionmakers to understand current problems 
and to craft solutions for them. We do not prepare teachers to create 
experiences for students that help them engage with the rich, complex, 
interdisciplinary world in which they live. We do not fund the 
infrastructure needed to support a sustained and nationwide 
implementation of an educational program for sustainability. Only a 
single State, Vermont, has educational standards that explicitly 
address sustainability. Even environmental education, an important and 
well-established component of sustainability education, is increasingly 
eclipsed in importance and increasingly slighted in funding.
    To make significant progress on sustainability education, schools 
of education need to ensure that teachers understand sustainability, 
and can apply this knowledge and skill in the work they do with 
students. State education organizations should approve standards for 
sustainability education. Statewide assessments of student learning 
should be modified to reflect this goal. These efforts should also 
connect students with work being done in the community to foster 
sustainability. While some first-rate work has been done to create and 
distribute curriculum units, much remains to be done. Of course, public 
and private funding is needed to support this effort. A change in the 
knowledge and skills that colleges and universities expect from 
entering students could also help move K-12 education for 
sustainability forward.
Higher Education
    Higher education for sustainability is like environmental education 
because it draws on an environmental foundation. But it is different 
from much environmental education because it includes the social and 
economic dimensions of sustainability, and is designed to help students 
think about problems in an integrated manner. Since higher education to 
date largely fails to expose students to issues and considerations 
outside the narrow confines of their disciplines, it consequently fails 
to produce integrated decisionmakers. Higher education for sustainable 
development primarily involves teaching students to understand 
ecological, social, and economic problems through the many lenses of an 
interdisciplinary framework. It assumes that integrated decisionmaking 
is not possible without integrated thinking. Effective and rigorous 
teaching of integrated thinking-without becoming soft and watering down 
the disciplines-is both a powerful intellectual challenge and a 
profound necessity.
    A genuine commitment to creating a sustainable future would be 
evidenced in most of the following seven critical dimensions of 
institutional life. These are based on Agenda 21 and various national 
and international conferences. Disciplinary, professional, liberal 
arts, and general education requirements at the university would 
involve interdisciplinary decisionmaking and reflect a fundamental 
concern for sustainability. Research at the institution would focus 
significantly on sustainable development. Faculty and staff development 
rewards would cultivate an understanding of, and contributions to, 
sustainable development. Campus operations would be oriented toward 
reducing the institution's ``ecological footprint.'' Student 
opportunities and engagement on campus would reflect a deep commitment 
to sustainability through new student orientation, scholarships, 
internships, and job placement counseling. The institution's outreach 
and service would support local, regional, and global partnerships to 
enhance sustainability. The university's mission, structure, and 
planning would communicate and promote sustainability.
    Since the Earth Summit, however, education for sustainable 
development in the United States has been underfunded and 
undersupported, both within and outside the academy. Tensions have 
arisen between environmental educators and sustainability educators, 
and no consensus has been reached on who or what institutions should 
guide higher education for sustainability. The U.S. Government has 
shown little interest in pursuing this agenda. For the most part, 
pressure on universities and colleges to begin to embrace the challenge 
of sustainable development has originated from within. At a small 
minority of institutions, highly motivated and committed presidents, 
faculty members, staff members, and students have effected change in 
significant ways. At a larger minority, there is evidence of increased 
eco-efficiency in operations or new offerings in environmental studies. 
Colleges and universities in America are increasingly adopting 
sustainability initiatives in one or more of these seven critical 
dimensions of institutional life. But an authentic institutional 
commitment to sustainable development is rare.
    A deeper commitment to sustainable development in higher education 
requires three broad changes. First, higher education must commit 
itself to steady reform in teaching, research, faculty and staff hiring 
and development, operations, student opportunities, outreach, and 
mission and structure. Second, sustainability must become a priority of 
the specialized academic organizations, disciplines, and professions 
that influence universities. Third, external stakeholders, including 
opinion leaders, alumni, employers and funders, should pressure Federal 
and State governments to move the education and research agenda of 
higher education toward a greater focus on sustainability. Since the 
Federal Government provides more than 90 percent of the funding for 
academic research, it influences deeply the priorities for research and 
helps shape academic fields.
Institutions and Infrastructure
    In a sustainable society, effective governmental and 
nongovernmental institutions deliver essential services to people on an 
equitable basis. The built infrastructure for necessary public services 
in a sustainable society should also be durable, available and 
affordable to all, and environmentally protective or restorative. Two 
key examples are transportation and medical and public health services.
Transportation
    The traditional approach to transportation planning in the United 
States has been to maximize roadway capacity, travel speed, and 
mobility, generally within the context of large subsidies to motorized 
transportation. A sustainable transportation system, by contrast, seeks 
to maximize efficiency in overall resource use. In Agenda 21's words, 
it is ``more efficient, less polluting and safer.'' Its basic 
components include increasing modal diversity, with more emphasis on 
public transit, walking, and bicycling; paying more attention to the 
pattern of transportation and land use; encouraging use of efficient 
transportation modes whenever practical; charging users the true costs 
of transportation; and encouraging better connectivity between modes.
    American transportation policy has become increasingly cognizant of 
these patterns. Just as Agenda 21 was being adopted, the United States 
was entering the beginning stage of a fundamental change in Federal 
transportation policy. While the Intermodal Surface Transportation 
Efficiency Act (ISTEA) of 1991 authorized substantial Federal funding 
for highway expansion, its name suggested the beginning of a new 
direction-a greater emphasis on all modes of travel, not just highways, 
and an emphasis on environmental and economic efficiency. In general, 
ISTEA eschewed substantive regulatory requirements in favor of 
procedural ones intended to assure the consideration of nationally 
important goals, along with appropriate funding mechanisms to enable 
regions and States to put efficiency strategies into effect. The 
cornerstone of this approach was (and remains) a planning process 
established for metropolitan areas and States that is intended to 
``minimize transportation-related fuel consumption and air pollution.'' 
The Transportation Equity Act for the 21st Century (TEA-21), adopted in 
1998, reauthorized the 1991 law with only minor changes to these key 
provisions.
    Despite some positive trends in the past decade, however, the 
environmental impacts of transportation generally increased. From 1995 
through 2000, transit use grew 21 percent while driving increased by 
just 11 percent. The growth rate in vehicle miles traveled per capita 
slowed somewhat from what it had been in the 1980's. On the other hand, 
a number of trends all point to increased inefficiency in travel 
patterns. The number of vehicle miles traveled grew from 2 to 2.6 
trillion miles between 1990 and 1998. Other negative trends include an 
increase in average trip length, growth in the number of vehicle trips 
taken per person and per household per year, and a decline in average 
vehicle occupancy. Transportation is by far the largest consumer of 
petroleum products in the United States, accounting for some two-thirds 
of our oil consumption. Transportation is also responsible for rising 
CO<INF>2</INF> emissions and continuing unhealthy air quality. In some 
communities, parking lots now constitute the largest single category of 
land use. Increased driving also means increased congestion; Americans 
now spend roughly one of every eight waking hours in cars.
    The United States is moving toward sustainability in transportation 
in some respects; there have been measurable improvements in process, 
in mode shifts, and even in some environmental indicators. But with 
long-term trends foretelling a dramatically growing population and a 
growing economy, mere motion toward the goal is not enough, because the 
goal is itself moving farther and farther away, and becoming more 
difficult to achieve.
    To move the United States to an effective course for sustainability 
in transportation, Congress and the Federal agencies must buildupon the 
policy reforms of the 1990's through a suite of measures. The first 
step is to recognize clearly that travel choices available to most 
Americans have been sharply curtailed by past policies, from high 
subsidies to housing to tax polices and zoning laws, that have made it 
unattractive or impossible to choose more sustainable options such as 
walking, cycling, riding transit, living close to our jobs, and driving 
smaller, more efficient motor vehicles. Another step is to establish 
and work toward specific transportation goals, such as increased energy 
efficiency, equal access to jobs, and a safe walking route to school 
for each child. The United States should also adopt policy measures 
that would reduce demand for motorized transportation; encourage the 
use of alternative transportation modes; and reduce the environmental, 
social, and economic costs of transportation.
Medical and Public Health Services
    The U.S. health system works very well, compared to the developing 
world. But the comparison to the remainder of the developed world, 
especially to the wealthier European countries, is not as favorable. 
The health provisions of Agenda 21 focus not only on environmental 
pollution but also on basic medical care, preventive medicine, and 
improving mental as well as physical health. Equality in access to 
basic goods and services is part of sustainable development, both as an 
issue of fairness and because sustained inequalities impede development 
and destabilize society. Thus, basic medical and public health services 
are critical to a more just and economically sound nation.
    While no bright line separates public health services from personal 
medical services, medical services are those that treat diseases and 
injuries in the individual. Public health is concerned with the 
community. Public health services are not a substitute for personal 
medical services, but they can prevent the need for medical services, 
and they are less expensive and more widely available than medical 
services.
    The U.S. sanitation system works well, with outbreaks of water and 
foodborne illnesses happening infrequently enough to be front page 
news. Yet the public health system has suffered from decades of 
neglect, a lack of national standards, fragmentation of staffing and 
resources among thousands of legal jurisdictions, and a general lack of 
public support and funding. As a result, the system is vulnerable to 
breakdowns and has a limited ability to cope with new threats, 
including terrorism and climate change.
    The level of communicable diseases in the United States, especially 
human immunodeficiency virus/acquired immune deficiency syndrome (HIV/
AIDS), is high for a developed country, and affects sustainable 
development. Communicable diseases are transmitted by people to other 
people, and are thus different from sanitation or environmental 
diseases. The poor suffer disproportionately from such diseases, both 
because access to medical care services is limited for the poor, and 
because environmental factors increase the spread of communicable 
diseases among the poor. Ironically, past success in eradicating 
smallpox and polio, and in dramatically reducing measles and 
tuberculosis, has undermined public support for communicable disease 
control spending and programs.
    Over the last 10 years, there has been no progress in improving 
access to medical care in the United States. Indeed, there are some 
indications that the quality of available care has diminished due to 
economic pressures. The United States does not guarantee universal 
access to medical care. Instead, it relies on a combination of 
voluntary, employer-paid health insurance, government entitlement 
through Medicare for the elderly, and a limited program for indigent 
persons not covered by employer-paid health insurance. Approximately 40 
million persons are not covered by any of these plans, and many persons 
with some coverage still do not have adequate access to medical care. 
Congress has been unwilling to assume the burden of universal access or 
of increasing employer mandates, and the States do not have the 
economic resources to bridge the gap. This results in a less healthy 
work force and distorts economic development because it 
disproportionately harms low wage earners.
    To move closer to sustainability, the United States should retain 
local enforcement for public health, but provide standards, funding, 
and oversight at the Federal level. There should be a national civil 
service system for public health professionals, especially those who 
manage health departments. The United States also needs to fund proper 
postmortem examination procedures to diagnose every death from a 
communicable disease. In addition, the United States should set 
standards on antibiotic usage to identify patterns of disease spread 
and to limit the development of antibiotic-resistant organisms. 
Universal health insurance would improve individual health and the 
health of the population, which would be good for development and might 
reduce projected incremental costs as preventive services improve. If 
the United States is not prepared to do that, it should at least make 
routine care and preventive services universally available. This would 
include providing education and support to improve health habits, such 
as better nutrition, exercise, and the cessation of dangerous habits 
such as smoking. By doing so, the United States would improve health 
and productivity, serve distributive justice, and bring the country 
closer to sustainability for basic medical services.
Governance
    The national government, as well as State and local governments, 
needs to play an important role in sustainable development. Perhaps the 
most important thing they can do, Agenda 21 says, is integrate their 
decisionmaking on environmental, social, economic, and security issues. 
National governments are also urged to delegate ``responsibilities to 
the lowest level of public authority consistent with effective 
action.'' In the past 10 years, no level of government in the United 
States has provided strong support for sustainable development. State 
and local efforts, though, have been more widespread and effective than 
national ones.
Local Governance
    Integrated decisionmaking should, at least in principle, be easier 
at the local level, because the connections between economic, social, 
and environmental issues are easier to understand and most of the 
relevant stakeholders live or work nearby. Agenda 21 calls on 
localities to consult with key stakeholders to arrive at a consensus on 
local strategies for sustainable development, and States that by 1996 
most local authorities in each country should have developed ``a local 
Agenda 21'' for their community. However, Agenda 21 does not generally 
address the reality of multiple municipalities within a specific 
metropolitan region. Fragmented decisionmaking among municipalities in 
the same region causes sprawling growth patterns that increase traffic, 
cause air and water pollution, increase water consumption, and destroy 
wetlands. Communities and regions across the country also continue to 
be largely divided along economic and racial lines, both physically and 
socially.
    National policies to foster community sustainability did not change 
significantly in the past decade. Significant progress was made in 
promoting the redevelopment of brownfields and providing alternatives 
to highway transportation, but many Federal laws continue to be 
obstacles to local sustainability. The Federal mortgage interest 
deduction, for instance, favors wealthier home buyers over those who 
are less wealthy, renters, multifamily property owners, and people who 
rehabilitate existing structures.
    Many States enacted ``smart growth'' laws to control some of the 
environmental effects of sprawl. But all too often, these laws leave 
untouched a framework of State laws that encourage the creation of 
largely autonomous municipalities, and require that these 
municipalities raise revenue by property taxes to support services 
within their boundaries. Such laws encourage municipalities to compete 
for property wealth and exclude less expensive housing, a tactic that 
fosters sprawl and impedes intermunicipal cooperation. The lack of laws 
requiring coordination in housing, education, regional revenue sharing, 
and land use remains a major obstacle to local sustainable development 
efforts.
    At the local level, a few communities adopted ``local Agenda 21s'' 
through broad participation, but municipalities in the United States 
are beginning to show great creativity and innovation on local 
sustainability. Municipal sustainable development efforts-in locations 
such as Burlington, Chicago, and Santa Monica-were encouraged by the 
PCSD. Those municipalities and others employed techniques such as 
inclusionary zoning, providing incentives to developers to use existing 
sewer and water infrastructure, and reducing water usage. But most 
municipalities have a long way to go. For example, although mixed use 
zoning promotes walkable, pedestrian-friendly neighborhoods, most 
municipalities still require single use zoning.
    Achieving local sustainability will require more than local 
efforts. Congress and the Federal Government should use conditional 
funding mechanisms to provide incentives for municipalities to 
cooperate and grow smartly. The Federal mortgage interest deduction 
should be changed so that it does not encourage single-family housing. 
States need to move toward a system that better promotes regional 
governance and shares taxes within a region. States should also create 
regional planning commissions and empower them to use various 
regulatory and fiscal incentives and disincentives to encourage 
cooperation among municipalities and channel growth in particular ways. 
States, in addition, should modify their zoning laws to encourage more 
mixed-use zoning. Municipalities should charge, and be empowered to 
charge, fees requiring developers to pay the full cost of new services 
and infrastructure. As municipalities move toward a regional approach, 
each municipality in a region should also accept its ``fair share'' of 
affordable housing units. And at all levels, more must be done to 
provide incentives for the establishment of public/private partnerships 
and broad-based consensus-building efforts.
State Governance
    The goals of sustainable development-simultaneously achieving 
economic, social, environmental, and security goals while maintaining 
the ability of future generations to attain such goals-are the goals of 
State governments. Except for the national security element of the 
security goal, States have great responsibility for achieving those 
goals in the United States. The decentralized decisionmaking 
recommended by the Rio Declaration and Agenda 21 is also consistent 
with the constitutional structure of U.S. governance, which gives 
substantial authority to States.
    Before the Earth Summit, many States promoted integrated 
decisionmaking through laws requiring environmental impact statements 
for major projects, constitutional provisions concerning the 
environment, planning laws, and statutes encouraging pollution 
prevention. They did not necessarily result in the type of integrated 
decisionmaking envisioned by the Rio Declaration and Agenda 21, but 
they did substantially increase the level of consideration of 
environmental issues in economic development decisions. Many State 
constitutional provisions and statutes also contained aspirational 
language concerning intergenerational equity. Federal pollution control 
statutes adopted in the 1970's and 1980's used a Federal-State 
partnership model that strongly encouraged States to improve their 
environmental programs and allowed them to continue exercising 
authority in areas where there is no Federal regulation.
    Since the Earth Summit, a number of States have made substantial 
progress in creating and implementing policies aimed at achieving 
sustainable development. As a group, States are fulfilling their role 
as laboratories for experimenting with programs and are, to an extent, 
leading policy development in the United States. Minnesota, New Jersey, 
and Oregon have established or expanded planning, decisionmaking, and 
goal-setting efforts for sustainable development. Maryland enacted a 
series of programs intended to reform land development practices by 
encouraging development in existing centers and discouraging 
development of greenfields. Many States have undertaken supportive 
policy-specific initiatives that are consistent with sustainable 
development, including laws and policies to foster smart growth, 
recycling, energy efficiency, renewable energy, watershed protection, 
pollution prevention, and redevelopment of brownfields. A report by the 
Resource Renewal Institute evaluating the ``shifting emphasis toward 
sustainability'' in all 50 States, however, shows a substantial gap 
between the leading and lagging States.
    Devolution, or transferring power to States to deal with 
environmental issues, also dominated discussions of environmental law 
in the 1990's. The National Environmental Performance Partnership 
System (NEPPS) was established in 1995 to provide States the 
opportunity to negotiate greater flexibility within the context of 
existing Federal pollution control laws.
    Maryland, Minnesota, New Jersey, and Oregon have also established 
indicators to track progress toward sustainability. Minnesota's 
Progress Indicator suggests that the State's gross domestic product may 
overstate that State's actual progress toward environmental, economic, 
and social goals. In 2000, the State reported that, according to the 
Progress Indicator, the State's performance peaked in the mid-1980's, 
and had declined to a point where by 1995 the levels were similar to 
the indicator's values for the early 1960's.
    In the next 5 to 10 years, States need to make sustainable 
development an explicit goal. More States need to follow the examples 
set by leading jurisdictions and adopt and implement strategies and 
policies promoting sustainable development and holding themselves 
accountable (through the use of indicators) for achieving 
sustainability. Governors must ensure adequate and effective 
interagency cooperation by designating a cabinet-level person who will 
be responsible for fostering sustainable development, including 
sustainable land development. States should also make greater use of 
environmental impact assessment, particularly to bring 
intergenerational equity into their development and policy decisions. 
Finally, States should work with EPA and other Federal agencies to use 
NEPPS to improve Federal-State environmental governance for achieving 
goals, and for monitoring and reporting progress.
National Governance
    In a world of sovereign nations, sustainable development cannot be 
achieved unless it is actively supported by national governments. In a 
basic sense, the requirements for good governance for sustainable 
development are the same as those for good governance in general. These 
include effective governmental institutions, national laws, a favorable 
investment climate, public access to information, public participation 
in governmental decisionmaking, and access to justice. But sustainable 
development requires more than that. Most basically, it requires that 
national governments integrate the environment into national 
decisionmaking in broader and deeper ways over time. Agenda 21 
recommends that they do so through national strategies. At the 5-year 
review of Earth Summit commitments in 1997, nations agreed to have such 
strategies in place by 2002. National strategies would guide 
governmental decisionmaking on a range on issues, include priorities 
and timetables, change in response to changing conditions, and harness 
the energy and creativity of nongovernmental actors, including the 
private sector.
    The United States has no such strategy. Sustainable development is 
not actively supported by the president or congressional leaders. There 
is no strategic thinking or action on behalf of the Federal Government. 
There is no governmental coordinating or implementing mechanism for a 
national strategy, and little public education.
    The PCSD (1993-1999), an advisory council established by President 
Clinton, might have provided (and, if resurrected, could still provide) 
the basis for a national strategy. The PCSD brought together diverse 
stakeholders from around the country and fashioned a detailed set of 
recommendations for sustainable development in the United States. But 
it had no authority to implement its own recommendations, and neither 
President Clinton nor Vice President Al Gore showed interest in seeking 
implementation. Nor was there much interest in Congress during the same 
period.
    The Council on Environmental Quality (CEQ), which until 1995 was 
required to issue national reports on the state of the nation's 
environment, has not issued such reviews on a regular basis for years. 
On the other hand, a 1993 statute, the Government Performance and 
Results Act (GPRA), requires Federal agencies to engage in a strategic 
planning process, and some agencies have used sustainable development 
to guide that process.
    The United States should adopt and implement a national strategy 
for sustainable development. It should include meaningful goals, 
indicators of progress toward those goals, legal and institutional 
mechanisms for achieving them, and public education. The strategy 
should be built on existing laws and legal authority, and thus should 
ensure wider use of the GPRA to move agency planning toward sustainable 
development. It should prioritize those issues that are of greatest 
importance. Some executive level entity, perhaps the CEQ, should be 
responsible for coordinating its development and implementation. But 
CEQ's now-extinguished annual reporting function should be transferred 
to an independent and properly funded entity, either in or out of the 
Federal Government. That would help ensure that a long-term perspective 
is brought to bear in national decisionmaking-one of the most important 
prerequisites for sustainable development.
    The international community would add significant value to the 
national sustainable development strategy process if countries were to 
agree that implementation of national sustainable development 
strategies should begin no later than 2005. It would also help if 
countries would agree that national trends for the degradation and loss 
of natural resources should be reversed by 2015. Such goals would give 
more specific content to the national strategy process, and would also 
incorporate a specific and easily understood goal into the meaning of 
sustainable development. This goal would help focus national and 
international efforts, and would help galvanize citizens, NGO's, and 
corporations in countries around the world.
Looking Ahead
    A defining characteristic of a sustainable society is that it can 
successfully adapt to new and different conditions. We have grown and 
prospered as a Nation because we have been able to take advantage of 
opportunities and respond to threats that our founders could not have 
imagined. The challenges of growing global environmental degradation, 
and the growing gap between rich and poor are quite obvious. But the 
opportunity is equally real-to build an ecologically sustainable 
framework that provides greater freedom, opportunity, and quality of 
life for all. Law and policies are not the only means of achieving a 
sustainable society, but they will play an important role.
    The essential missing ingredient thus far, and which needs to be 
supplied in the coming decade, is commitment-commitment by government 
at all levels, educational institutions, business and industry, NGO's, 
and individuals. We know what we need to do, and we also know why. As 
Americans, we are called to face these challenges, and to seize this 
opportunity.

                                   - 

</pre></body></html>
